<html>
<title> - HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-410]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-410

                           HOMELAND SECURITY

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARINGS

                     APRIL 10, 2002--WASHINGTON, DC
                     APRIL 11, 2002--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 _____

                    U.S. GOVERNMENT PRINTING OFFICE
78-707 PDF                  WASHINGTON : 2002

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                     COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                     Terry Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
        Lisa Sutherland, Minority Deputy Staff Director<greek-l>




                           C O N T E N T S

                              ----------                              

                       Wednesday, April 10, 2002

                                                                   Page

Opening statement of Chairman Robert C. Byrd.....................     1
Statement of Senator Ted Stevens.................................     4
    Prepared statement...........................................     5
Prepared statement of Senator Christopher S. Bond................     6
Prepared statement of Senator Tim Johnson........................     7
Statement of Senator Patty Murray................................     8
Statement of Hon. Gary Locke, Governor, State of Washington......     9
    Prepared statement...........................................    11
    Biographical sketch..........................................    15
Statement of Hon. John Engler, Governor, State of Michigan.......    16
Joint prepared statement of Governor John Engler, Governor Roy E. 
  Barnes, and Governor Gary Locke................................    19
Biographical sketch of Governor Roy E. Barnes....................    24
Biographical sketch of Governor John Engler......................    24
Statement of Hon. Roy Barnes, Governor, State of Georgia.........    25
Statement of Dr. Ashton Carter, Ford Foundation Professor of 
  Science and International Affairs, Kennedy School of 
  Government, Harvard University.................................    28
    Biographical sketch..........................................    42
Statement of Stephen Gale, Associate Professor, Political Science 
  Department, University of Pennsylvania.........................    42
    Prepared statement...........................................    47
    Biographical sketch..........................................    51
Questioning by:
    Chairman Robert C. Byrd......................................    51
    Senator Ted Stevens..........................................    55
    Senator Patty Murray.........................................    57
    Senator Byron L. Dorgan......................................    60
    Senator Herb Kohl............................................    62
Statement of Senator Robert F. Bennett...........................    66
Questioning by:
    Senator Richard J. Durbin....................................    68
    Senator Jack Reed............................................    71
Statement of Senator Barbara A. Mikulski.........................    78
Statement of Hon. Martin O'Malley, Mayor of Baltimore, Maryland; 
  and Co-Chair, Federal-Local Law Enforcement Task Force, U.S. 
  Conference of Mayors...........................................    79
    Prepared statement...........................................    82
    Biographical sketch..........................................    85
Statement of Hon. Michael Guido, Mayor of Dearborn, Michigan; and 
  Co-Chair, Working Group on Homeland Security, National League 
  of Cities......................................................    88
    Prepared statement...........................................    91
    Biographical sketch..........................................    93
Statement of Hon. Javier Gonzales, Commissioner, Santa Fe County, 
  New Mexico; and President, National Association of Counties....   103
    Prepared statement...........................................   106
    Biographical sketch..........................................   110
Questioning by:
    Chairman Robert C. Byrd......................................   116
    Senator Ted Stevens..........................................   118
    Senator Barbara A. Mikulski..................................   121
    Senator Pete V. Domenici.....................................   123
    Senator Mary L. Landrieu.....................................   126
    Senator Byron L. Dorgan......................................   129
    Senator Daniel K. Inouye.....................................   133
    Chairman Robert C. Byrd......................................   134

                        Thursday, April 11, 2002

Opening statement of Chairman Robert C. Byrd.....................   139
Statement of Senator Ted Stevens.................................   140
Statement of Thomas Von Essen, former New York City Fire 
  Commissioner, representing the International Association of 
  Fire Chiefs....................................................   141
    Prepared statement...........................................   143
    Biographical sketch..........................................   146
Statement of Mike Crouse, Chief of Staff to the General 
  President, International Association of Fire Fighters..........   146
    Prepared statement...........................................   148
    Biographical sketch..........................................   152
Statement of Philip Stittleburg, Chairman, National Volunteer 
  Fire Council, and volunteer fire chief, LaFarge, Wisconsin.....   152
    Prepared statement...........................................   153
    Biographical sketch..........................................   156
Statement of Colonel Lonnie Westphal, Chief, Colorado State 
  Patrol, representing the International Association of Chiefs of 
  Police.........................................................   156
    Prepared statement...........................................   159
    Biographical sketch..........................................   162
Statement of General Richard Alexander, Director, National Guard 
  Association....................................................   163
    Prepared statement...........................................   166
    Biographical sketch..........................................   175
Statement of Gary Cox, Director, Tulsa, Oklahoma, City-County 
  Health Department, representing the National Association of 
  County and City Health Officials...............................   176
    Prepared statement...........................................   177
    Biographical.................................................   181
Questioning by:
    Chairman Robert C. Byrd......................................   181
    Senator Ben Nighthorse Campbell..............................   183
    Senator Herb Kohl............................................   185
    Senator Judd Gregg...........................................   187
    Senator Ted Stevens..........................................   189
Statement of Senator Ernest F. Hollings..........................   191
Questioning by:
    Senator Jack Reed............................................   194
    Senator Daniel K. Inouye.....................................   197
    Senator Pete V. Domenici.....................................   198
    Senator Barbara A. Mikulski..................................   201
    Senator Conrad Burns.........................................   206
    Chairman Robert C. Byrd......................................   209
Opening statement of Chairman Robert C. Byrd.....................   215
Statement of Senator Ted Stevens.................................   215
Statement of Hon. Warren Rudman, former United States Senator, 
  Co-Chair, U.S. Commission on National Security/21st Century....   216
Questioning by:
    Chairman Robert C. Byrd......................................   232
    Senator Ted Stevens..........................................   233
    Senator Mary L. Landrieu.....................................   235
    Senator Pete V. Domenici.....................................   237
    Senator Daniel K. Inouye.....................................   239
    Senator Ernest F. Hollings...................................   240
    Senator Patty Murray.........................................   243
    Senator Barbara A. Mikulski..................................   245
    Senator Arlen Specter........................................   246
    Senator Byron L. Dorgan......................................   250
    Senator Dianne Feinstein.....................................   251
    Senator Robert F. Bennett....................................   252
Statement of Stephen E. Flynn, Ph.D., Senior Fellow, National 
  Security Studies, Council on Foreign Relations.................   255
    Prepared statement...........................................   258
    Biographical sketch..........................................   262
Statement of Richard M. Larrabee, United States Coast Guard 
  (retired), Director, Port Commerce Department, Port Authority 
  of New York and New Jersey.....................................   262
    Prepared statement...........................................   265
    Biographical sketch..........................................   270
Statement of P. Michael Errico, Deputy General Manager, 
  Washington Suburban Sanitary Commission, representing the 
  Association of Metropolitan Water Agencies.....................   271
Prepared statement of John R. Griffin, General Manager, 
  Washington Suburban Sanitary Commission........................   273
    Biographical sketch..........................................   279
Biographical sketch of P. Michael Errico.........................   280
Statement of David Lochbaum, Nuclear Safety Engineer, Union of 
  Concerned Scientists...........................................   280
    Prepared statement...........................................   282
Statement of Jeff Benjamin, Vice President for Licensing, Exelon 
  Corporation, Chicago, Illinois, representing the Nuclear Energy 
  Institute......................................................   294
    Prepared statement...........................................   297
    Biographical sketch..........................................   303
Questioning by:
    Senator Ernest F. Hollings...................................   303
    Senator Patty Murray.........................................   304
    Chairman Robert C. Byrd......................................   308
    Senator Patty Murray.........................................   314
    Chairman Robert C. Byrd......................................   317
Closing statement of Chairman Robert C. Byrd.....................   321
Prepared statement of Colleen M. Kelley, National President, 
  National Treasury Employees Union..............................   325
Prepared statement of Victor L. Lechtenberg, Chair, National 
  Agricultural Research, Extension, Education, and Economics 
  Advisory Board.................................................   328
Prepared statement of the National Association of State 
  Universities and Land-Grant Colleges.....................329<greek-l>

                               (iii)




 
                           HOMELAND SECURITY

                              ----------                              


                       WEDNESDAY, APRIL 10, 2002

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10 a.m., in room SH-216, Hart Senate 
Office Building, Hon. Robert C. Byrd (chairman) presiding.
    Present: Senators Byrd, Inouye, Leahy, Harkin, Mikulski, 
Kohl, Murray, Dorgan, Durbin, Johnson, Landrieu, Reed, Stevens, 
Cochran, Domenici, Bond, Burns, Gregg, Bennett, Campbell, and 
DeWine.


              OPENING STATEMENT OF CHAIRMAN ROBERT C. BYRD


    Chairman Byrd. The committee will come to order. A scant 
212 days ago, on September 11, our country was dealt a vicious 
blow, the nature of which was inconceivable to most Americans 
until that fateful day. In a space of a few hours our view of 
ourselves, and of the world around us, changed. In the most 
graphic and horrific way, Americans came face to face with the 
fact that their country is extremely vulnerable to attacks of 
unspeakable horror by madmen and terrorists.
    How we as a Nation deal with that knowledge is the ultimate 
test of our leadership and of our wisdom. The preamble of the 
United States Constitution speaks to certain broad goals for 
the Federal Government: ``to establish justice, ensure domestic 
tranquility, provide for the common defense, promote the 
general welfare and to secure the blessings of liberty to 
ourselves and to our posterity.'' In this new age, those words 
have a special meaning. They go to the very survival of our 
Nation and of our way of life, both of which may now depend on 
our increased ability to respond to threats, understand the 
complexities of our vulnerabilities, and still preserve the 
individual freedoms that we cherish.
    A comprehensive evaluation of every aspect of homeland 
defense is essential. We must anticipate the soft spots and act 
quickly to shore them up. If the United States is going to be 
able to prevent future terrorist strikes, cooperation must 
exist on all levels. Cooperation will be essential at all 
levels in responding to the havoc of a successful attack.
    The swift commitment of resources at the Federal, State, 
and local levels is essential. Cooperation at every level will 
be key to our success in this regard. Last September this 
Congress acted very quickly to enact a $40 billion 
appropriations bill within 3 days to respond to the awful 
events of September 11--within 3 days of the attacks. I repeat, 
that was done.
    Of that money, $10 billion was made available to the 
President upon enactment of the bill. The President could 
allocate, after consultation with Congress, the next $10 
billion. The last $20 billion required further Congressional 
action which occurred as a part of the Defense Appropriations 
bill last December. I might add that the Senate Appropriations 
Committee reported the legislation on December 4, 2001, in 6 
days--6 days after the House had acted on the bill.
    The full Senate passed this legislation 3 days later. All 
of this was accomplished despite the fact that this institution 
was seriously crippled in October and November because of 
heinous anthrax attacks in the country--and on the Congress, 
which were delivered through the postal system. My office, 
along with several other offices of Senators, was closed for 
weeks--3 months. Congress was crippled and yet we acted in the 
Senate. We were not slow to walk up to the plate, and we 
appropriated that money within the 3 days.
    The Federal Government has already committed substantial 
emergency resources in the defense of our homeland. But 
experience and knowledge are our best allies in the service of 
maximum effectiveness. We've only just begun to digest the 
scope of the challenges that face us. Senator Stevens and I 
have called these hearings because this committee, the United 
States Senate, and the American people are watching. We need to 
understand these new challenges more fully.
    Today and tomorrow the Senate Appropriations Committee will 
hear from mayors and Governors about the real obstacles that 
they face in preparing for a variety of security threats which 
are particular to their circumstances. We also will hear from 
men and women who will be on the front lines in responding to 
any future terrorist attacks: National Guardsmen, police 
officers, fire fighters, public health personnel. The committee 
will listen to these so as to understand the security needs of 
the Nation's communities in order to better prioritize our 
funding decisions to best protect the safety of our citizens.
    Everyone understands that the States will confront serious 
budgetary problems. Hard budgetary choices will have to be made 
at the Federal level as well. Senator Stevens and I and all the 
members of this committee want to make sure that funding for 
the homeland defense of our citizens is our top priority.
    We talk about defense. This is defense of the homeland, 
where you live and where I live, where my great grandchildren 
live and those who will come after us. We also wish to 
understand the threats to our domestic security well enough to 
fund the right priorities in the most effective way.
    It is essential that the American people have confidence 
that their Government is acting swiftly and intelligently to 
address their concerns. The President has sent us his budget 
for the fiscal year 2003. In that document he makes requests 
for substantial additional resources for homeland security. 
This committee and the Congress will certainly give those 
requests thorough and thoughtful consideration.
    We'll be working at night, while some people in the country 
are sleeping, confident that we will do our duty. There ought 
to be bipartisanship in this endeavor, and there is 
bipartisanship here. There is no partisanship on this 
committee, there is no middle aisle on this committee. When 
Senator Stevens was chairman I was his good right hand man, so 
to speak. I worked with him with full cooperation, and I'm 
receiving that same full cooperation now.
    The coming fiscal year does not begin until October 1. 
Assuming that the appropriations bills are signed into law by 
that date, it would still take time for States and communities 
to apply for the funding, and even more time for the agencies 
and the departments to process the applications. As a result, 
the homeland defense funds in the fiscal year 2003 
appropriations bills may not actually be available for nearly 1 
year from now. That delay represents valuable time wasted.
    The committee is concerned about the needs here and now. 
Lives may depend upon rapid response, here at the Federal level 
as well as at the State and local levels. The President sent 
Congress a supplemental request for the current fiscal year, 
totalling $28.6 billion. Of that amount, $5.3 billion is for 
homeland defense, with $4.39 billion aimed at airport security.
    The holes in the Nation's airport security are well 
documented. But airports are not our only concern. The litany 
of potential security risks is long and it is daunting. It is 
our hope that the witnesses we will hear throughout these 
hearings will help us to sort out and sort through the 
vulnerabilities and determine not only what we need to do, but 
also what we need to do immediately.
    I thank all of our witnesses for coming to Washington to 
share with the Senate Appropriations Committee their insights 
and their judgments about homeland security at the State and 
local levels. We look forward to learning from all of you who 
are testifying this afternoon and tomorrow in this room. I now 
recognize my friend and colleague Senator Ted Stevens, the 
ranking member of this committee, for any remarks that he may 
wish to make.
    Following Senator Stevens' remarks we will hear from our 
first witnesses. And because of scheduling problems that have 
arisen for some of our witnesses this morning, it is the 
Chair's intention to call the witnesses for the morning session 
to come to the witness table at this time. Is Governor Engler 
in the room?
    Governor Barnes. Mr. Chairman, I think Governor Engler is--
I think he is a little late. I'm told he is delayed.
    Chairman Byrd. Alright.
    Governor Barnes. Mr. Chairman, I think Governor Engler is 
here. He is across the hall at the Senate Finance Committee.
    Chairman Byrd. Okay. When he comes, someone will help him 
to his chair at the table, please. After we hear from Senator 
Stevens we will then hear from each of our five witnesses, and 
then we will have a round of questions by members of this 
committee. We will hear from our Nation's Governors this 
morning, who present the views of the National Governor's 
Association on homeland security issues.
    Governor John Engler of Michigan is currently serving as 
chairman of the National Governor's Association. Governor 
Engler was first elected as Governor in 1990 and that makes him 
now the Nation's most senior Governor. Governor Roy Barnes of 
Georgia was elected Governor in 1998 and is now serving as 
Georgia's 80th Governor. Georgia is one of the original 13. I 
recall that William Few and Abraham Baldwin of Georgia signed 
the Constitution of the United States.
    Governor Barnes. Along with Burton Gwinnett.
    Chairman Byrd. No, no, just two. Those two signed the--
there were others that attended, but only those two signed. 
Governor Gary Locke of Washington was elected as Washington's 
21st Governor in 1996. He was re-elected in 2000 to a second 
term. These Governors are on the front lines in our Nation's 
homeland security effort. We want to hear from them. We want to 
hear about what is happening at the State level. We know the 
homeland security initiative won't work unless all levels of 
government are working together.
    We also have Dr. Stephen Gale from the University of 
Pennsylvania. Dr. Gale is an associate professor of political 
science at the University and also the director of the 
organizational dynamics program. He is an expert on the subject 
of terrorism, having done extensive research on it. He also is 
a consultant on security and terrorism issues.
    We are also privileged to have Dr. Ashton Carter from 
Harvard University's Kennedy School of Government. Dr. Carter 
is the Ford Foundation Professor of Science and International 
Affairs at the Kennedy School. He serves as co-director, with 
former Secretary of Defense William Perry, of the Harvard-
Stanford Preventive Defense Project. He served as Assistant 
Secretary of Defense for International Security Policy from 
1993 to 1996.
    We welcome all of you. We thank you all for coming. So, I 
now turn to my colleague, the ranking member of the 
Appropriations Committee, Mr. Stevens, for any comments he 
wishes to make.


                    STATEMENT OF SENATOR TED STEVENS


    Senator Stevens. Thank you very much, Mr. Chairman. I 
welcome the opportunity to join you in convening these hearings 
before our committee. And I'm going to ask that my full 
statement appear in the record as so read, because I'm sure 
that others have comments to make too, and I want to get along 
with our hearing.
    I want to re-emphasize that the Chairman has conferred with 
me on all of the witnesses and we have attempted to respond to 
the wishes of national organizations, such as the Governor's 
Council and other organizations, to pick representatives of 
national committees to show that we have the views of those who 
are deeply concerned with homeland defense. I think the actions 
that have been taken by our President and Congress reflect a 
level of cooperation and mutual trust that has not been 
witnessed since the Second World War. And we really have a deep 
problem now to pursue the requests that have been made by the 
President and to get the information we need to really 
determine how the funds that are requested should be reflected 
in the actions of this committee, and how they should be 
treated, really.
    We have a $27 billion request from the President to fight 
terrorists abroad, and we also have a package of $38 billion in 
homeland defense initiatives presented by the President. It is 
a combination of $65 billion. It reflects the largest 
commitment of Federal resources to any security threat since 
the Vietnam War, and significantly exceeds the $15 billion 
appropriated by the President during the Gulf War.
    We have to reassure the public that the Congress and the 
President are prepared to make available whatever resources are 
needed to meet the threats. Mr. Chairman I look forward to not 
only these hearings, but I am sure there will be follow-on 
hearings where we will hear from various representatives of the 
administration to attain their views on the testimony taken 
here now. But again, I want to commend you, Mr. Chairman, for 
your approach to this.
    It is a bipartisan hearing. It has been scheduled and the 
witnesses represent--maybe not exactly the witnesses I would 
have had the revolution not taken place last year--but they 
certainly reflect our judgment on the balance that is necessary 
to pursue this very complicated subject. So again, I thank you 
very much and look forward to this hearing.
    [The statement follows:]
               Prepared Statement of Senator Ted Stevens
    Mr. Chairman, I welcome the opportunity to join you in convening 
these hearings before our committee.
    In response to the horrific attacks against our nation on September 
11th, we have all learned how vulnerable our nation was to the actions 
of determined, suicidal murderers.
    We have also witnessed the strength of the character of the 
American people, who while mourning our dead, sought justice and 
security for the living.
    The actions taken by our President and Congress reflect a level of 
cooperation and mutual trust not witnessed since the Second World War.
    In a matter of days following the attacks against New York and 
Washington, the Congress and the White House joined in a $40 billion 
package to set the nation on the right course to respond to the 
humanitarian crisis in New York, secure our borders and air space, and 
go after the Al Queda and Taliban terrorists.
    By any definition, that effort in the intervening seven months has 
been an extraordinary success.
    Our work in this regard is far from finished.
    While we have made great progress in the war against terrorism, we 
have taken only the initial steps in a comprehensive campaign to ensure 
our nation is secure at home, as well as militarily powerful abroad.
    This committee is uniquely charged with allocating resources among 
federal agencies to address these threats.
    The testimony by non-governmental witnesses over the next two days 
will shed considerable light on the perceived threats and challenges at 
every level of government in our nation, and by those who will be 
called upon first to respond to any potential future attacks.
    Before the committee now is a $27 billion request by the President 
for these next steps in the fight against terrorism, at home and 
abroad.
    Later this year, the committee will consider a package of $38 
billion in homeland defense initiatives presented by the President.
    This combination of $65 billion reflects the largest commitment of 
federal resources to any security threat since the Vietnam War, and 
significantly exceeds the $15 billion appropriated by Congress for the 
gulf war.
    Our job is to consider these requests, and make sure the money goes 
to meet the most pressing needs, and will deliver real security for the 
taxpayers of this nation.
    It is my hope the chairman will follow these hearings with sessions 
where senior administration officials will testify, and explain the 
priorities reflected in this package of $65 billion in counter-
terrorism and homeland defense priorities.
    There is no question the Congress and the President are prepared to 
make available whatever resources are need for this fight.
    We must equally be vigilant that the federal resources provided 
focus on the aspects of this war that the federal government should, 
and must take responsibility for.
    I look forward to the testimony by the witnesses scheduled for 
today and tomorrow, and again thank the chairman for taking this 
initiative.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--Several members have asked that their 
submitted statements be made part of the record.]
           Prepared Statement of Senator Christopher S. Bond
    Thank you, Mr. Chairman, for calling these two days of hearings on 
homeland security with a primary focus on state and local capabilities 
and needs with regard to acts of terrorism. The VA/HUD Appropriations 
Subcommittee has held four hearings since September 11th on homeland 
security issues which included testimony from mayors on local needs and 
capacity, testimony by the EPA on anthrax and the clean-up of the 
Senate Hart building, testimony on the needs of America's firefighters, 
and testimony by FEMA on its role in terrorism response. Nevertheless, 
there are many issues and concerns that need to be addressed as we move 
forward on the President's budget request for fiscal year 2003 and the 
fiscal year 2002 Supplemental and these hearings are critical to a 
better and more complete understanding of the issues and costs.
    While the President has advanced a plan since September 11th which 
the Congress has begun to fund, there is still significant work to be 
finished before we have in place the necessary protection and 
capacities to respond to both the threat of acts of terrorism and the 
consequences of such acts. In particular, we need a statutory structure 
that will enable the various agencies of both the states and the 
federal government to coordinate and build a federal, state and local 
capacity to fully respond to acts of terrorism, including acts 
involving weapons of mass destruction.
    We must do more to ensure that states and localities have the 
needed resources, training and equipment to respond to threats and acts 
of terrorism and the consequences of such acts. In response, the 
President is proposing to fund FEMA at an unprecedented $3.5 billion 
for fiscal year 2003 to ensure that the Nation will not be caught 
unaware again by a cowardly act of terrorism and is fully capable of 
responding to both the threat and consequence of any act of terrorism. 
More recently, the President has requested $327 million in the fiscal 
year 2002 Supplemental appropriation as an additional downpayment this 
year for FEMA to provide equipment and training grants to states and 
localities to improve terrorism and chemical-biological response 
capabilities. These funds include $50 million for the President's new 
Citizen Corp initiative.
    Despite the response to September 11th, the current capacity of our 
communities and our First Responders vary widely across the United 
States, with even the best prepared States and localities lacking 
crucial resources and expertise. Many areas have little or no ability 
to cope or respond to the consequences and aftermath of a terrorist 
attack, especially ones that use weapons of mass destruction, including 
biological or chemical toxins or nuclear radioactive weapons.
    The recommended commitment of funding in the President's Budget for 
fiscal years 2002 and 2003 is only the first step. There also needs to 
be a comprehensive approach that identifies and meets state and local 
First Responder needs, both rural and urban, pursuant to federal 
leadership, benchmarks and guidelines.
    As part of this approach, I introduced S. 2061, the National 
Response to Terrorism and Consequence Management Act of 2002. This 
legislation is intended to move the federal government forward in 
developing that comprehensive approach with regard to the consequence 
management of acts of terrorism. The bill establishes in FEMA an office 
for coordinating the federal, state and local capacity to respond to 
the aftermath and consequences of acts of terrorism. This essentially 
represents a beginning statutory structure for the existing Office of 
National Preparedness within FEMA as the responsibilities in this 
legislation are consistent with many of the actions of that office 
currently. This bill also provides FEMA with the authority to make 
grants of technical assistance to states to develop the capacity and 
coordination of resources to respond to acts of terrorism. In addition, 
the bill authorizes $100 million for states to operate fire and safety 
programs as a step to further build the capacity of fire departments to 
respond to local emergencies as well as the often larger problems posed 
by acts of terrorism. America's firefighters are, with the police and 
emergency medical technicians, the backbone of our Nation and the first 
line of defense in responding to the consequences of acts of terrorism.
    The legislation also formally recognizes and funds the urban search 
and rescue task force response system at $160 million in fiscal year 
2002. The Nation currently is served by 28 urban search and rescue task 
forces which proved to be a key resource in our Nation's ability to 
quickly respond to the tragedy of September 11th. In addition, Missouri 
is the proud home of one of these urban search and rescue task forces, 
Missouri Task Force 1. Missouri Task Force 1 made a tremendous 
difference in helping the victims of the horrific tragedy at the World 
Trade Center as well as assisting to minimize the aftermath of this 
tragedy. These task forces currently are underfunded and underequipped, 
but, nonetheless, are committed to be the front-line solders for our 
local governments in responding to the worst consequences of terrorism 
at the local level. I believe we have an obligation to realize fully 
the capacity of these 28 search and rescue task forces to meet First 
Responder events and this legislation authorizes the needed funding.
    Finally, the bill removes the risk of litigation that currently 
discourages the donation of fire equipment to volunteer fire 
departments. As we have discovered in the last several years, volunteer 
fire departments are underfunded, leaving the firefighters with the 
desire and will to assist their communities to fight fires and respond 
to local emergencies but without the necessary equipment or training 
that is so critical to the success of their profession. We have started 
providing needed funding for these departments through the Fire Act 
Grant program at FEMA. However, more needs to be done and this 
legislation is intended to facilitate the donation of used, but useful, 
equipment to these volunteer fire departments.
    Thank you, Mr. Chairman.
               Prepared Statement of Senator Tim Johnson
    I would like to thank Chairman Byrd and Senator Stevens for holding 
this series of hearings on homeland security. There is no issue of more 
importance to the long-term safety of the American people than our 
ability to establish and coordinate an effective homeland security 
policy. As we begin to consider our budgetary priorities for fiscal 
year 2003, it is appropriate for the full Appropriations Committee to 
conduct a detailed examination of the complex issues surrounding our 
homeland security needs. By relying on the information and expertise of 
a broad array of on-the-ground experts, I am hopeful these hearings 
will highlight not only what we are doing right, but areas in which 
Congress must better focus attention and resources.
    Our country's reaction to the tragedies of September 11 was nothing 
short of remarkable. Despite the devastating attacks and the fear of an 
uncertain future, there was no panic in the streets. Instead, the 
American people were somber and resolute in our commitment to honor 
those who had died, to rebuild from the destruction, and to ensure that 
we would decrease our vulnerability to future terrorist attacks.
    In confronting the challenges presented by homeland security, we 
face two major obstacles. First, the very idea of defending the entire 
United States from future attacks is daunting because our nation is so 
large and the threats are so diverse. From airport security to public 
health, from food safety to improved border control, homeland security 
requires a comprehensive strategy. The complexity of the problem and 
the need to define the scope of the threats is one of the reasons why 
these hearings are so important.
    The second major challenge of homeland security is coordinating the 
efforts of federal, state, and local agencies. This means ensuring 
there is compatibility between the various agencies, and that local 
entities have sufficient funding to fulfill their homeland security 
missions. Work in this area has already begun, thanks in large part to 
Senator Byrd's insistence that we make a down payment on homeland 
security needs in last year's budget.
    As a result of that money, the South Dakota Division of Emergency 
Management is providing equipment acquisition grants to South Dakota 
cities to identify, isolate, and clean-up hazardous materials. FEMA is 
providing grants to local firefighters to make certain they have the 
equipment necessary to respond to new threats. Federal dollars are 
being used to upgrade ambulance services across the state with new 
computers and software that will streamline data collection and improve 
communications. These resources will allow the ambulance services to 
communicate and share information in the event of a widespread bio-
terrorism attack. Over the last few years, I have worked to secure 
federal funding to upgrade the NOAA weather radio system in South 
Dakota. In addition to providing timely information about dangerous 
weather, this system will also be used to distribute official notices 
and instructions in the event of a bio-hazard or bio-terrorism attack.
    Not only should we focus on providing resources to new efforts, we 
should also utilize existing programs and activities to strengthen our 
homeland security response initiatives. The Disaster Mental Health 
Institute (DMHI) at the University of South Dakota provides mental 
health services to communities following major tragedies. The DMHI is a 
truly ``one-of-a kind'' Center of Excellence whose members have 
literally served around the world in response to emergency situations, 
including New York City in the wake of the September 11 attacks.
    I would also like to note that the University of South Dakota 
School of Medicine will be holding a 2-day symposium in May on the risk 
and response to bio-terrorism. This symposium is designed to help 
medical personnel, hospital administrators, law enforcement, first 
responders, and elected officials discuss the importance of multi-
disciplinary disaster planning and to develop active steps for the next 
level of disaster planning.
    These are just a few examples of how state and local entities in 
South Dakota are beginning to address the challenges of homeland 
security. As we look to build upon the funding approved in fiscal year 
2002, we must keep in mind the needs of rural America. Often faced with 
geographic isolation, low population density, and poor economic 
conditions, many rural areas confront the same risks as urban centers, 
but lack the funds needed for proper equipment and training. As we 
prepare to defend America, we cannot let rural America fall further 
behind.
    Let me also take a few moments to talk about one of the most 
important federal-state partnerships that is already yielding benefits 
in the effort to secure our nation. The National Guard is the oldest 
component of our Armed Forces. Since its earliest days, the Guard has 
served a dual, federal-state role. The National Guard provides states 
with trained and equipped units available to protect life and property 
during emergency situations. In addition, the Guard provides the 
federal government with military units trained and available to be 
called up to active duty to defend our nation. Since September 11, more 
than 50,000 members of the National Guard have been called up by the 
states and federal government to provide homeland security and to fight 
the war on terrorism. As we speak, the National Guard can be found 
protecting our nation's airports, assisting at critical U.S. border 
checkpoints, flying protective missions over U.S. cities, and providing 
disaster preparedness in the states. I am certainly proud of the men 
and women serving in the South Dakota National Guard. Their 
contributions to the security of the people of South Dakota and the 
nation are greatly appreciated.
    One of the most important lessons learned over the last few months 
is that homeland security is not just an issue for the federal 
government--the front lines are in our local communities, whether that 
community is New York or Aberdeen, South Dakota. Almost immediately 
after September 11, in small towns and big cities across the country, 
communities began to come together to examine what they needed to do to 
protect themselves and their families. The challenges are enormous. 
Yet, I have no doubt about our ultimate ability to prevail against 
terrorism both abroad and here at home. Once again, I thank Senators 
Byrd and Stevens for holding these hearings and for their leadership on 
this committee. I look forward to hearing the ideas of our witnesses 
and to working with my colleagues to ensure Congress provides the 
resources necessary to keep the American people safe.

    Chairman Byrd. Governor Locke, would you proceed first?

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, before the Governor speaks, 
if I could just have a moment just to welcome the Governor from 
my home State of Washington here. He has travelled a long way 
to be here this morning and I really appreciate his coming and 
joining us. He has a great deal of expertise to share with this 
committee this morning. Washington State has an international 
border. We have major seaports, major airports, critical 
defense installations. As the members of this committee know, 
we have had first hand experience with potential terrorists 
when in December of 1999 an al Qaeda insider named Ahmed Ressam 
came across our border and was apprehended. So I really 
appreciate the Governor coming here today and sharing his 
expertise with all of us, and I am pleased to be able to 
introduce him to this committee today.
    Chairman Byrd. The Chair thanks Senator Murray. Governor 
Locke, would you----
    Senator Stevens. Mr. Chairman, could I interrupt?
    Chairman Byrd. Mr. Stevens.
    Senator Stevens. I note that there's only cameras on this 
side of the aisle--of our table. I wonder why the gallery on 
the other side is not open for the press also?
    Chairman Byrd. We don't do that.
    Senator Stevens. Well I'd like to be informed later, thank 
you. I thank you very much Senator.
    Chairman Byrd. I had nothing to do with the placement of 
the cameras, certainly. And I want my Republican friends to 
have equal billing here. That has always been my position.
    Senator Stevens. Thank you.
    Chairman Byrd. Governor Locke.
STATEMENT OF HON. GARY LOCKE, GOVERNOR, STATE OF 
            WASHINGTON
    Governor Locke. Thank you very much, Chairman Byrd, Senator 
Stevens, Senator Murray and members of the Senate 
Appropriations Committee. Thank you very much for the 
opportunity to testify on homeland security on behalf of the 
State of Washington and its citizens. I especially want to 
thank you all for continuing to make homeland security a top 
priority, a non-partisan priority, and especially as it 
involves State and local governments.
    September 11th dealt a very hard blow to Washington State's 
economy and our State's budget situation. Because of our heavy 
reliance on the aerospace industry, the nature of the September 
11th attacks and their devastating impact on air transportation 
across our country, plunged our State into recession. The 
national recession, which was severely aggravated by the events 
of September 11th, has cost Washington over 70,000 jobs, and 
sent our unemployment rate soaring to a high 7.6 percent, the 
second highest in the Nation.
    At the same time, the national unemployment rate was around 
6 percent. And while it appears that the national economy is 
beginning to rebound, Boeing is not yet half way through its 
announced lay offs of some 30,000 aerospace jobs in the State 
of Washington. The economic recovery in our State will 
significantly lag the rest of the Nation.
    Washington State has also had to close a $1.6 billion 
deficit. We accomplished this with over $700 million in painful 
cuts in human services and education programs, layoffs of State 
employees and other measures. Despite these challenges, 
Washington State is strongly committed to partnering with the 
Federal Government to ensure strong homeland security.
    Our agencies and public health jurisdictions have already 
spent an additional $8 million since September 11th on a wide 
range of terrorism response measures, including increased 
overtime pay for public health and law enforcement personnel, 
new equipment, statewide vulnerability assessments and response 
plans, protection of our ferrys and other transportation 
facilities, and other prevention measures. But the national 
recession and severe budget shortfalls experienced by some 40 
States across our country place real limits on what the States 
can do. We must have sustained Federal financial assistance, 
since the Federal Government has the primary responsibility for 
homeland security.
    For our State that means an immediate and long term 
financial commitment to bolster the security of our seaports 
and other infrastructure, such as railroads, highways and 
bridges. Washington State, with its extensive coastline, is 
vulnerable and has already experienced the smuggling of human 
cargo through its international ports. I urge the committee's 
favorable consideration of the administration's request for 
additional funding for the United States Coast Guard.
    There's also an urgent need for sustained Federal support 
for bioterrorism preparedness, including support to the States 
and local communities to develop plans and hold terrorism 
response exercises. Since these new threats are long term the 
United States must adopt new approaches that ensure multi-year 
Federal funding, much as the Congress has historically done for 
the Department of Defense.
    One of the issues of critical importance include the need 
to share critical intelligence and security information with 
key State and local officials who must partner with the Federal 
Government to prevent terrorism. Governors need timely and 
secure access to intelligence information from a number of 
Federal agencies, and those agencies need to share information 
with one another as well as with State officials. It is both 
costly and grossly inefficient to require our officials to 
obtain a separate security clearance from each separate Federal 
agency or for one Federal agency to refuse to recognize the 
security clearances granted by another Federal agency. And 
that, Mr. Chairman, is the current situation.
    For example, State agencies are trying to get security 
clearances from FEMA. And should those be granted, the 
clearances will not allow us to receive similar intelligence 
information from the FBI. Federal security clearances should be 
standardized and reciprocal between agencies and levels of 
government.
    Border security is absolutely critical for our State, which 
has one of the busiest border crossings in the Nation. While 
Washington State has not had a single credible terrorist threat 
against it, its people or any installations within the State of 
Washington, a documented terrorist was apprehended entering 
Washington State from Canada just before the new millennium. 
Ahmed Ressam was arrested getting off a car ferry at Port 
Angeles on his way to commit a terrorist attack against LA 
International Airport. His car was loaded with explosives.
    I am therefore grateful for the authorization of increased 
Federal staffing along the United States-Canadian border. 
However, I and many other Governors along the United States-
Canadian border are still concerned about one, the length of 
time it is taking to add trained border agents along our United 
States-Canada border. And two, until additional border agents 
are in place we are concerned about the decision to Federalize 
the National Guard troops for border duty. And we also have 
grave concerns about the decision to have these troops serve 
unarmed. That decision results in the inefficient deployment of 
our National Guard men and women, and adds an undue burden on 
Federal agencies to provide force protection when they should 
be focused on preventing suspicious materials and people from 
entering the country.
    Here is an example. Some of our border crossings are closed 
at night, but they are still monitored by armed border agents. 
But because our National Guardsmen are unarmed, under the terms 
of their Federal deployment, they cannot be be the sole 
security force at night. They cannot free up these Federal 
agents for re-deployment to other, busier parts of our border, 
thereby helping provide greater security and ease and speed up 
the flow of people across our borders.
    The National Guard troops should be activated under Title 
32, or State control, in the same manner the States activated 
the Guard for airport security. Under State authority the 
Nation's Governors provided immediate assistance to the Federal 
Government at the airports within days of the September 11th 
attacks. Under the Federalization approach it has taken almost 
6 months to get relief at our Nation's border crossings.
    Finally, Mr. Chairman, I emphasize the important role of 
the States in managing and coordinating homeland security 
funding. Although a large percentage of funds clearly must 
support community-based emergency preparedness and first 
responders, those funds should be channeled through the States 
to ensure a calculated and collaborative statewide strategy. In 
Washington State for example, we have an Emergency Management 
Council that includes representatives of our cities, counties, 
fire chiefs, police chiefs, sheriffs, Federal agencies, 
National Guard, seismic safety experts, public health, search 
and rescue personnel, and the private industry.
    The Emergency Management Council, in turn, has a committee 
on terrorism that has been meeting monthly for the past 2\1/2\ 
years. It includes 60 people including Federal agents. These 
groups advise the adjutant general and me on emergency 
preparedness strategies and policies. And our State is using 
these groups to oversee the distribution and allocation of FEMA 
and Department of Justice grant monies, and other Federal 
funds, to ensure a coordinated and collaborative strategy for 
using Federal funds to enhance our preparation and response to 
any acts of terrorism.
    Only in that manner can programs be implemented 
consistently and comprehensively to raise capacity throughout 
all regions of our Nation. And because of the severe deficits 
faced by some 40 States, and most local governments within 
those States, traditional Federal match requirements, including 
so-called soft-matches, may be difficult if not impossible for 
jurisdictions to achieve. We ask that you consider that as you 
make any appropriations and provide any Federal assistance to 
the States and local governments.
    Mr. Chairman and members of the committee I urge you to 
develop a consistent, long term funding structure that helps 
State and local governments prepare for this new era of global 
terrorism. And, I thank you for your leadership to help our 
States and our Nation respond to this new but very real threat 
to our peace and freedoms. Thank you very much.
    [The statement follows:]
                 Prepared Statement Governor Gary Locke
    Chairman Byrd, Senator Stevens, and members of the Committee, I 
appreciate this opportunity to submit testimony to you regarding 
homeland security impacts on the State of Washington and its citizens.
    I want to thank you for your kind invitation to present this 
testimony in person to the full committee. And I want to thank you all 
for continuing to make support for state and local government homeland 
security a top national priority.

                 SEPTEMBER 11 AND WASHINGTON'S ECONOMY
    It is important to place the impact of the September 11 terrorist 
attacks within the context of Washington's economy and the pressures 
placed on it in recent months. Because our state is so heavily reliant 
on the aerospace industry, the attacks had a particularly severe impact 
on Washington. The nature of the attacks and their devastating effects 
on air transportation dealt a more severe blow to our economy than to 
the economies of most other states and the nation.
    Prior to September 11, the state was already in the midst of an 
aerospace downturn, which had resulted in the loss of 27,400 jobs 
between 1998 and 2000. That downturn appeared to be over. But, in the 
wake of the attacks, Boeing announced 20,000 to 30,000 additional lay-
offs. The majority of those were in Washington, home of the commercial 
airline unit.
    The events of September 11 exacerbated the national economic 
downturn and, due mostly to cutbacks in aerospace, plunged Washington 
into recession.
    These impacts have been felt in our employment rates. Since 
September 11, Washington has experienced deep declines in employment. 
Payroll employment fell at a 3.2 percent rate in the fourth quarter of 
2001. That followed a 2.4 percent drop in the third quarter and a 2.5 
percent reduction in the second quarter. Only twice in the last 40 
years has Washington seen such a precipitous decline in its employment 
rates.
    Altogether, the national recession, severely aggravated by the 
events of September 11, has cost Washington over 70,000 jobs and sent 
its unemployment rate soaring to a high of 7.6 percent, the second 
highest in the nation. At the same time, the national unemployment rate 
was six percent.
    Washington, like other northern tier states, has an extensive and 
largely unprotected border with Canada. For that reason, border 
security is a critical priority for our state, which has one of the 
busiest border crossings in the nation. While we have not had any 
credible terrorist threats, Washington has had instances where known 
terrorists, like Ahmed Ressam, have been apprehended while trying to 
enter the United States from Canada.
    In addition, our communities bordering Canada were severely 
impacted by heavy traffic congestion and delays at border crossings in 
the wake of September 11 events. Early estimates from border 
communities showed that they experienced a 50 percent reduction in 
retail sales attributable to Canadian shoppers immediately after 
September 11. They have not yet recovered.
    Washington and other northern tier states sincerely appreciate the 
additional federal staffing that has been authorized at Canadian border 
crossings as a result of actions taken by this Committee and the 
special efforts of Senators Murray and Cantwell.
    All of these devastating effects have caused severe budget problems 
for the state. In December of 2001, our General Fund budget problem 
stood at more that $1 billion. By mid-February of this year, the 
projected problem had risen to $1.6 billion. The Legislature closed the 
gap for this biennium with almost $700 million in painful budget cuts 
and a mixture of other equally difficult measures. The aftermath of 
September 11 will continue to present difficult fiscal challenges even 
in the next biennium.
    Coping with these budget problems has been a daunting task for our 
state agencies, which are now faced with a hiring freeze and extensive 
layoffs to erase the red ink.

               STATE HOMELAND SECURITY EFFORTS AND NEEDS
    In spite of these challenges, our agencies and local public health 
jurisdictions responded to the call for increased homeland security. 
They are facing unprecedented responsibilities in providing for 
sustained security and protection of critical infrastructure. They have 
expended an additional $8 million on terrorism response activities, 
ranging from increased overtime pay for public health and emergency 
personnel, purchasing new specialized equipment and gear, preparing 
risk and vulnerability assessments and response plans, protecting 
transportation facilities such as our state ferries, enhancing 
electronic monitoring capacity, and other actions.
    Faced with declining economies and severe budget shortfalls, 
Washington, like other states, must receive sustained financial 
assistance from the federal government, which has the primary 
responsibility to provide for homeland security.
    Security of our nation's seaports and related infrastructure must 
receive immediate and long-term federal attention and funding. 
Washington, with its extensive coastline, is particularly vulnerable 
and has already experienced smuggling of human cargo through its ports. 
I, therefore, urge the Committee to give favorable consideration to the 
Administration's request for additional funding for the U.S. Coast 
Guard.

            PUBLIC HEALTH NEEDS AND THE BIOTERRORISM THREAT
    Public health and homeland security are absolutely critical. In the 
post-September 11 world, we must assume that a major bioterrorism 
attack is a likely occurrence. It is our responsibility to prepare and 
train accordingly. But states need a sustained financial commitment to 
preparedness, so we can be ready to protect public health during a 
bioterrorism incident, an infectious disease outbreak, and during other 
health emergencies.
    Preparedness is an expensive but essential investment. Every part 
of our state must be ready. Our citizens live near unprotected borders, 
major dams, nuclear sites, and military bases. We need the resources to 
plan for emergencies, train the people who will be responding first, 
and practice so we are prepared.
    We have identified several immediate needs that must have a 
continued source of funding if we are to successfully address 
bioterrorism threats. These include increased local and state 
communicable disease surveillance to detect bioterrorism events, 
training of clinicians, hospital staff, and first responders, secure 
statewide communication systems, and enhanced public health laboratory 
capacity.
    The National Pharmaceutical Stockpile is an integral part of 
preparedness. However, states urgently need resources so they can be 
ready to use it. States and local communities must develop and exercise 
plans for receiving the stockpile and distributing the medication to 
people quickly and efficiently.
    We are grateful that Congress and your committee recognized the 
importance of these needs and that we will be receiving funding for 
many of them in fiscal 2002. But, it is critical these programs receive 
continued funding in future years.
    During our nation's civil war, President Abraham Lincoln cautioned, 
``As our cause is new, we must think anew and act anew''. We now face 
unprecedented threats to our homeland security. As these threats are 
new, we must think anew and act anew. And as these threats are long 
term, we must adopt a long-term operational and fiscal plan for 
defending against and defeating those who would attack our citizens. 
This new approach will require programmed, multi-year federal funding 
for homeland security and bioterrorism protection, much as we have done 
historically for the Department of Defense.

                 SHARING CRITICAL SECURITY INFORMATION
    A second critical need involves sharing of sensitive information on 
terrorist threats from all federal sources with Governors and other key 
state officials and local public safety officials. The sharing of 
intelligence is critical if we are to make informed decisions at all 
levels of government regarding terrorist threats, and effectively 
defend against them. Most of this information comes from federal 
sources, and there must be a system that provides timely access to it 
in order to prevent or mitigate terrorist attacks.
    At the request of my office and the State Attorney General's 
office, Washington's Legislature recently approved legislation that 
modified our open public records law to expand restrictions on the 
release of sensitive terrorism-related documents, including those 
received from federal agencies. We now have much greater assurance that 
these documents will be protected and not end up in the hands of those 
who would harm our citizens.

                CROSS RECOGNITION OF SECURITY CLEARANCES
    A related and equally important issue is the need to ensure that 
federal security clearances for key state and local officials are 
standardized and reciprocal between agencies and levels of government. 
It does not make sense for state and local officials who need access to 
critical terrorism-related intelligence to be required to obtain a 
separate security clearance from each separate federal agency or for 
one federal agency to refuse to recognize security clearances granted 
by another federal agency. That is what is currently happening and it 
is costly and grossly inefficient.
    As Governor, I need timely and secure access to intelligence 
information from a number of federal agencies and those federal 
agencies need to be able to share information with one another and with 
me and other key state officials, such as Adjutants General, state 
Secretaries of Health, and state police chiefs, as well as with key 
local officials, such as mayors and county executives.

          BORDER SECURITY AND THE FEDERALIZATION OF THE GUARD
    With respect to border security, we are grateful for the increased 
federal staffing that has been authorized and for the use of National 
Guard troops to augment other federal resources on the borders. 
However, we continue to have concerns about the decision to federalize 
these troops under Title 10 of the United States Code, and have grave 
concerns about the decision to allow these troops to serve unarmed. 
That decision places these troops in unnecessary danger and adds undue 
burden on federal agents to provide force protection when they should 
be focused on preventing suspicious materials and people from entering 
the country.
    We believe these troops should be activated under Title 32 in the 
service of the United States in the same manner as the Guard was 
activated for airport security immediately following the September 11 
attacks and as the Guard has been used to support law enforcement 
agencies for more than a decade under the National Guard Counter-Drug 
Program. Title 32 duty allows the Guard to be used in the service of 
the federal government while retaining a meaningful role for the 
governors and the states in overall mission execution. Title 32 duty 
also assures equal pay and benefits for equal service regardless of a 
Guard member's duty location. Title 32 facilitates use of the entire 
National Guard, both Army and Air, as has been done for airport 
security, as opposed to use of one service component only, as has been 
done with federalization of the Army National Guard for border 
security. Using the entire National Guard force, both Army and Air, 
under the state's Title 32 force management authority significantly 
enhances our ability to assist the federal government while assuring 
our preparedness for state emergencies.
    Finally, Title 32 duty is far more cost efficient, flexible, and 
responsive in meeting federal needs than is Title 10 duty. The nation's 
governors provided no-notice assistance to the federal government in 
deploying Air and Army National Guard troops to 420 airports within 
days of the September 11 attacks. This mission has been carried out in 
direct support of the designated lead federal agency, the FAA, and has 
been executed flawlessly and in a uniform manner at airports in every 
state, territory, and the District of Columbia.
    By contrast, in October and November 2001, border state governors 
proffered, and federal agencies such as the Border Patrol, Customs and 
the INS specifically asked for, Title 32 National Guard assistance for 
enhancing security and speeding private and commercial vehicle passage 
at our nation's land border crossings. Because of the Defense 
Department's insistence on federalizing the Army National Guard for 
this mission, a costly national command structure had to be created and 
the mission has taken more than six (6) months to get off the ground. 
Under Title 32, the federal government had critical National Guard 
assistance at our airports in less than six days; under Title 10 it has 
taken more than six months to get relief at our nation's border 
crossings.

                  FEDERAL FUNDING AND THE STATE'S ROLE
    Finally, I wish to address the important issues of how federal 
funding is made available to state and local governments and what 
restrictions or qualifications should be placed on eligibility for 
homeland security assistance. It is critical that federal funding for 
homeland security be allocated to the states for distribution to local 
governments. Although a large percentage of homeland security funding 
should be earmarked for enhancing the preparedness of our community-
based emergency management organizations and emergency responder 
agencies, it must be channeled through the states in order to insure 
enhancement of regional intra-state improvements in our domestic 
security infrastructure.
    In Washington, for example, we have a state Emergency Management 
Council that includes representatives of our cities, counties, fire 
chiefs, police chiefs, sheriffs, National Guard, seismic safety 
experts, public health, building officials, search and rescue, and 
private industry. The Emergency Management Council, in turn, has a 
Committee on Terrorism that has been meeting monthly for the past two 
and one half years. The Committee on Terrorism includes representatives 
from more than 60 federal, state, local and private sector 
organizations. These bodies function under state law to advise the 
Adjutant General and me on emergency preparedness strategies and 
policies.
    We also use these bodies to oversee the distribution and allocation 
of FEMA and Department of Justice grant monies and other federal funds 
to assure a conscious, calculated, and collaborative strategy for using 
federal funds to enhance our community and regional intra-state 
preparation for natural and manmade disasters. Only in that manner can 
programs be implemented consistently and comprehensively to raise 
capacity throughout all regions of the nation.
    I began my testimony by acknowledging the daunting financial 
challenges the attacks of September 11 have thrust upon the state of 
Washington. Governors, legislators, and local officials throughout the 
nation are confronted with similar challenges and, like Washington, are 
unable to generate revenues sufficient to meet the new demands of 
homeland security while still satisfying the other mandates of state 
and local governance.
    As the threat to our national security is new, so we must think 
anew and act anew. The federal government must take a new approach in 
order to ``jump start'' national preparedness for further terrorist 
attacks. It is imperative that homeland security funding for the next 
two to three fiscal years (what I refer to as the critical 
transformation period for assuring homeland security) not be tied to 
traditional federal matching requirements. Under current economic 
conditions, and in light of new national security demands, traditional 
matching requirements are simply a bridge too far and will preclude 
states and local governments from taking the steps necessary to enhance 
our national security. As much as we recognize the need for enhancing 
our emergency response infrastructure, many states and local 
governments will not be able to take advantage of federal 
transformation initiatives because of a lack of matching funds.
    Given the sheer size of the national problem and the magnitude of 
the funding that Congress has recognized is needed, so-called ``soft 
matches'' may be equally difficult or impossible to achieve. I, 
therefore, urge you to develop a transformation strategy for making 
necessary funds available to the states, and through the states to 
local governments, for enhancing state, local, regional and national 
preparedness for this new era of global terrorism.
    Thank you, Mr. Chairman.
               Biographical Sketch of Governor Gary Locke

   MAKING WASHINGTON A BETTER PLACE TO LIVE, WORK, AND RAISE A FAMILY
    Gary Locke was elected Washington's 21st governor on Nov. 5, 1996, 
making him the first Chinese-American governor in U.S. history. As 
governor, he has worked to make Washington public schools the best in 
the nation, promote jobs and economic development in rural and urban 
areas, and fight juvenile crime. On Nov. 7, 2000, the governor, a 
Democrat, was re-elected to his second term.
    Born into an immigrant family on Jan. 21, 1950, Gary spent his 
first six years in Seattle's Yesler Terrace, a public housing project 
for families of World War II veterans. His father, James Locke, served 
in the 5th Armored Division of the U.S. Army under General George 
Patton and landed on the beaches of Normandy shortly after D-Day. 
Following the war, James Locke met his wife, Julie, in Hong Kong and 
settled in Seattle, where they raised their five children.
    Gary worked in his father's grocery store. He worked hard, became 
an Eagle Scout, and graduated with honors from Seattle's Franklin High 
School in 1968. Then, through a combination of part-time jobs, 
financial aid and scholarships, Gary attended Yale University, where he 
received his bachelor's degree in political science in 1972. After 
earning a law degree from Boston University in 1975, he worked for 
several years as a deputy prosecutor in King County, prosecuting people 
for crimes such as robbery and murder.
    In 1982, Gary was elected to the Washington State House of 
Representatives, where he served on the House Judiciary and 
Appropriations committees, with his final five years as chairman of the 
House Appropriations Committee. As chairman, Gary negotiated bipartisan 
budgets that increased college and university enrollments, improved 
children's health-care services, and strengthened environmental 
protections.
    Gary was elected chief executive of King County in 1993 and took on 
all of the challenges facing Washington's most complex urban area. 
During his term, he cut the budget, expanded transit services, 
established a program to reward county departments for saving money, 
and developed a nationally acclaimed growth management plan.
    As governor, Gary has worked to make Washington a better place to 
live, work, and raise a family. Believing that education is the great 
equalizer, he has made it his top priority. He created Washington's 
Promise Scholarships for top high school students from working, middle-
class families. He has pushed to hire more teachers and to reduce class 
size in the K-12 system. He appointed an Academic Achievement and 
Accountability Commission to help identify and improve schools that are 
struggling in the effort to raise test scores. He also created the 
Washington Reading Corps to help students who are struggling as they 
learn to read. And his Youth Safety Summit brought together educators, 
community leaders, students, and law enforcement leaders to begin 
addressing school violence.
    In 1997, Gary signed into law a landmark welfare reform bill that 
puts work first and has reduced the number of families on welfare by 
almost a third. He helped roll back business and occupation taxes for 
businesses, and in 1999 refunded $200 million in taxes from the injured 
workers fund. He has also put forward a Rural Economic Development 
proposal to help rural economies grow by making vital funds available 
for infrastructure development and work force training. Gary proposed a 
transportation plan in 1998 that provides strategic solutions for 
congested traffic corridors in urban areas, focusing on basics such as 
maintenance and highway improvements. His Offender Accountability Act 
will increase the supervision of felons after they have served their 
time.
    Gary and his wife, Mona Locke, a former reporter for KING 5 
television in Seattle, were married on Oct. 15, 1994. They are the 
parents of Emily Nicole, born on March 9, 1997, and Dylan James, born 
on March 13, 1999.

    Chairman Byrd. Thank you. Governor Engler we are glad to 
see you this morning. We thank you for your appearance. You've 
already been introduced. Why do not you proceed please?
STATEMENT OF HON. JOHN ENGLER, GOVERNOR, STATE OF 
            MICHIGAN
    Governor Engler. Thank you, Mr. Chairman, Senator Stevens, 
members of the committee. I apologize for my late arrival. I 
was in front of Senator Rockefeller and Senator Grassley, and 
either their question or my answer was too long. But I am 
honored to be here this morning and to join my colleagues, 
Governor Locke from Washington and Governor Barnes of Georgia. 
I'd also like to submit for the record more extensive testimony 
that represents the position of the National Governors 
Association.
    Chairman Byrd. Your testimony will appear in the record as 
though stated.
    Governor Engler. Thank you. I want to thank this body for 
its willingness to work in a bipartisan basis with the 
administration and America's Governors as we develop a 
comprehensive national strategy to protect our people from acts 
of terror. When it comes to homeland security it is not about 
Republican or Democrat priorities, simply American priorities. 
And the National Governors Association is grateful to the 
Congress for its focus on homeland security.
    The National Governors Association also commends Governor 
Ridge for his accessibility to Governors, his willingness to 
work closely with State and homeland security officers as we 
develop coordinated national security plans. And that is not a 
trivial point. As we emphasize in the written testimony, for 
our Nation's response to be comprehensive in both theory and 
practice the 50 States must be the locus of interaction with 
the Federal homeland security effort.
    As a common clearinghouse for funding and program 
implementation, as Governor Locke just testified very 
eloquently, the States are willing to take on the 
responsibility of making sure every community is covered. This 
will not be the case, though, if homeland defense funding is 
scattered to other levels of government that are more limited 
in scope. There have been recent news stories on some of the 
Justice Department funds, and I think those are unfortunately 
maybe the tip of the iceberg on some of this. But, that was 
before 9/11 and now it is a different day.
    I think Governors recognize that the first responders are 
often our local partners. There is no question about that. 
Significant funding will need to be passed through to local 
government to assure they are trained, equipped and ready to 
go. However, without the statewide coordination, there will be 
gaps in the emergency-based system. And our people, this 
country, cannot risk those gaps.
    So, if we are to prevent and to respond to another terror 
attack, then the preparation must be comprehensive and across 
the board, leaving no community or potential target 
unprotected. I'd also like to stress the point that again is in 
our submitted testimony, but it regards the interoperability of 
communication systems. I think this is a special challenge that 
we face.
    In this regard, the committee may be interested to learn 
just last month in Michigan we enacted a comprehensive strategy 
to speed deployment of broadband, high speed Internet 
connections. And we think, certainly, there are economic and 
educational opportunities that result from broadband deployment 
and high speed internet, but enhancing homeland security was 
also a very key component of our initiative. The ability to 
share data across government agencies, including law 
enforcement, at every local level, the emergency management 
hospitals, county health departments--absolutely critical. We 
have invested in the recent years--we are just bringing online 
the last aspect of a state of the art 800 megahertz radio 
communications system, nearly $200 million of State money to 
build this system out across the State, operated by our 
Michigan State Police.
    Now we have made it available for use by local law 
enforcement and other State and local agencies, and many of 
them have come on to this system. But, I guess the point I 
would make is that the investment needed to have this kind of 
communications capability, to have it done at the right speed 
across all agencies, is a substantial cost. And then you add to 
it, as we saw in--so important in New York--the need for 
redundancy and back up systems, that adds more. And so, State 
and local governments are going to struggle trying to bear 
these costs alone. I don't think they can handle this all by 
themselves.
    But, the benefits of this interoperability will spill over 
far beyond homeland security, and I think it will have a 
positive effect in helping all these agencies be better 
equipped to serve the public and carry out there respective 
ongoing missions on a day to day basis. But, the Federal 
investment is very important, and it is needed.
    And I want to stress at the same time, there has been this 
investment. But the State coordination is essential because we 
can no longer afford or accept the Federal funding that results 
in the creation of separate unconnected systems. We literally 
have in the State of Michigan examples where different agencies 
within the Justice Department in the past had funded different 
local communities with systems which couldn't talk to each 
other. And today, I think that is a luxury we can no longer 
afford.
    With regard to bioterrorism expenditures, within 3 months 
of September 11th the Michigan experience, through our 
Department of Public Health, some $2.6 million were spent 
responding to anthrax threats crisis, to bolstering all of our 
response capabilities. And we are budgeting now, on a statewide 
basis, nearly $29 million in additional immediate investment at 
local hospitals, at health departments, and again, in State 
laboratories. And again, we are awfully grateful because it has 
been the leadership and support from the Congress that formed 
the Kennedy-Frist legislation. That makes a big difference, 
that helps.
    As with bioterrorism preparedness, there are a lot of other 
homeland security initiatives too, and our testimony details 
some of that and you will hear from each of us. We have spent, 
our estimate is, something in the order of $31 million directly 
responding to homeland security needs that have been put in 
front of us, again, since 9/11. Recurring costs to support 
necessary program initiatives are probably going to be in that 
$30 million range on an annual basis.
    I think, Governor Locke, you have two of us--I think we 
both have busy border crossing points. If Governor Pataki were 
here he'd be the third one on the Canadian northern border. But 
we certainly appreciate the commitment that has been made by 
the President and the Congress to add personnel to the borders.
    We do need improvements in the staffing. We need a lot of 
systems improvements as well. And frankly, this is a scenario 
where the Canadians have done a better job, historically, on 
the northern border.
    Following September 11 the traffic at Michigan's border 
crossing with Canada slowed to a crawl. We had delays that were 
12 hours or more at border crossings. We operate in the auto 
industry on something called just in time. Well, nothing was in 
time and on time in those days. While it has gotten back to a 
little bit of normalcy now, we still have far more delay than 
we need.
    Surprisingly, given the amount of trade between the United 
States and Canada, it is about $1.3 billion a day, but 43 
percent of the traffic flows through Detroit or Port Huron. And 
we need that. We need that for the economy. We cannot have it 
slowed at the border. We sent in Guard members. We were asked 
to do that, and then later on additional Guard were Federalized 
and brought in all to assist Customs.
    It was amazing to me just adding Guard who were not trained 
to be border agents, how much more contraband was being 
discovered, what kind of stops were being made that maybe were 
not in the past. So, we have got some issues, but we believe--
and I think Governor Locke would agree because he has had some 
experience going out of Washington with technology--that 
manpower alone is not enough. There has been a lot of 
discussions about what would be a smart border approach. And 
Mr. Chairman and members, we think that there are some smart 
strategies, innovative strategies at the border where you use 
new technology, you do a lot more information exchange and 
resource sharing, the kind of things we need with Federal and 
State agencies. But at the border, we can do a lot.
    That is a Federal responsibility. The States do not 
maintain the borders. I mean, I often hear let the States do 
it. On the borders I am perfectly happy to say that is the 
Federal Government's--that is your job. And we want to provide 
whatever we can in the way of support to improve the way that 
is done. And we recognize that it is going to cost some money. 
It is going to take an investment, but we have got to make the 
borders better.
    And they do have a lot to do with security. In fact, 
President McPherson, Peter McPherson at Michigan State who has 
spent a lot of time on United States-Canada relations, suggests 
that maybe what we really need to look at is the coordination 
with the Canadians to the point that we look at the security in 
the hemisphere where it really is the water that becomes the 
natural boundary. And so, some of that coordination on an 
international level to make sure than somebody who is coming to 
this hemisphere is actually being appropriately admitted up in 
Canada or in the United States. And that might even make our 
northern border, at least those problems be a little bit less.
    Mr. Chairman, that really is my testimony. I thank you for 
the opportunity to be here on behalf of the Governors 
Association.
    [The statement follows:]
   Joint Prepared Statement of Governor John Engler, Governor Roy E. 
                    Barnes, and Governor Gary Locke
    Mr. Chairman, Senator Stevens, and members of the Committee: The 
nation's Governors appreciate this opportunity to discuss the issue of 
homeland security. Since September 11, states have responded in every 
possible way and at great expense without any certainty of 
reimbursement despite the most significant budget shortfalls of at 
least a decade--nearly ten percent of state operating funds, or $40 
billion overall, with an expectation this will increase to $50 billion 
this fiscal year.
    Governors are grateful for the Administration's and this 
committee's efforts to make support for state and local government 
homeland security a top priority. The federal government should provide 
adequate funding, support, and information sharing to ensure that 
homeland security needs are met. In addition to significant initial 
federal investment, ensuring homeland security cannot be a one- or two-
year effort, but rather requires a more permanent recognition of the 
vastly changed responsibilities we all confront.
    The Office of Homeland Security should have the ultimate authority 
to coordinate policy and funding levels from which grants to states 
could be provided for sustained state capacity. A well-developed 
national strategy and work plan, reflecting the experiences and needs 
of local, state, and federal policy officials, should guide the 
development and approval of national programs and policies. Maximum 
resources must be combined with state and local efforts to achieve a 
truly effective national capability to prepare and manage the 
consequences of terrorism.
    We want to emphasize how critical it is that federal homeland 
security funds be funneled through the Governor or a designated state 
agency. The ability to coordinate through a single agency or office is 
crucial if we are to address the complexity of directing and 
coordinating resources towards protecting our citizens.
    Before proceeding Mr. Chairman, America's Governors wish to thank 
you for your leadership in providing additional funds as part of the 
Defense Appropriations bill in the fiscal year 2002 budget directly to 
states to immediately enhance the capacity and preparedness to the 
state and local public health systems to respond to biological and 
chemical attacks, and we appreciate the speed with which your committee 
is moving to consider the President's supplemental request for homeland 
security. While each Governor works diligently to address public health 
threats, they all know that their best response is to develop and 
maintain a strong public health infrastructure. Governors hope to 
continue a partnership with you to accomplish this objective.
    The September 11th terrorist attacks have moved the issue of 
terrorism to the top of everyone's agenda. Dealing with the threat of 
terrorism is a complex challenge that will not be accomplished 
overnight; nor will it be inexpensive or easy to accomplish. It has and 
will require significant costs--human and fiscal--at every level of 
government. It will also require intergovernmental preparedness and 
interagency cooperation at all levels of government to prevent loss of 
life and major property damage.
    The Governors are pleased that President Bush selected one of their 
colleagues to be the Director of Homeland Security. Governor Ridge 
recognizes and continues to emphasize the need for a comprehensive 
homeland security strategy that is truly national in scope--a strategy 
that takes into account the requirements of state and local response 
entities, but recognizes that the central coordinating role must be at 
the state level through the Governor's office. Many Governors have 
appointed directors of homeland security and task forces to coordinate 
state activities regarding securing the infrastructure. These 
individuals have been consulted often by the Office of Homeland 
Security. More importantly, Governor Ridge met with our Executive 
Committee last December and with all Governors at their Winter meeting 
in February to ensure the greatest possible mutual coordination and 
cooperation. The Director has been directly accessible to Governors in 
attempts to find answers to questions such as reimbursement for 
National Guard security activities or specific questions concerning 
infrastructure protection.
    The magnitude and urgent nature of the September 11th terrorist 
attacks and subsequent anthrax crisis and national alerts have led 
Governors to initiate their own efforts to coordinate and implement a 
comprehensive state-based strategy to detect, prepare for, prevent, 
protect against, respond to, and recover from terrorist attacks within 
their borders. This great challenge comes at a time when Governors are 
``tightening belts'' in order to balance their state budgets. But when 
it comes to protecting the citizens of their states and the critical 
infrastructure, Governors believe that as homeland defense priorities 
are set, they must be accomplished. That is true whether the funds have 
been made available yet or not and even though the circumstances were 
not foreseen.
    States have borne unprecedented costs to ensure that the nation's 
critical infrastructure and citizens are protected from terrorist 
attacks. These costs involve: building up the nation's public health 
system to respond to and recover from a biological, chemical, or other 
attack using weapons of mass destruction; developing an interoperable 
communications system; securing the critical infrastructure, from 
airports to border crossings, water supply to pharmaceutical labs, 
bridges and tunnels; and securing and protecting crops and food 
supplies vital to the health and safety of citizens.
    Mr. Chairman, this is a tall order and as stated earlier, states 
have and are paying a substantial price for homeland security. The 
National Governors Association estimates that the first-year costs 
alone could reach $5 billion to $7 billion nationwide, with $3 billion 
of this cost devoted to bioterrorism preparedness and emergency 
communication, and $1 billion devoted to guarding critical 
infrastructure. These costs will vary from state-to-state because of 
the different critical infrastructure and geographic location. But all 
states, from Maine to California and from Iowa to Texas, have a story 
to tell about the costs of beefing up security since September 11th.
Public Health System--Building a Capacity to Deal with Bioterrorism
    The attacks of September 11th and subsequent anthrax scares 
highlighted the importance of developing and maintaining a strong 
public health infrastructure in every state and territory. In the 
months following the attacks, states spent millions of dollars in 
unbudgeted funds expanding the duties and work schedules of many public 
health employees to prepare for and respond to public health 
emergencies. In addition, Governors assessed and strengthened hospital 
surge capacity and capability, as well as public health laboratory 
capacity to analyze accurately and identify agents of chemical and 
biological terrorism.
    As you know, Mr. Chairman, our nation's public health system is 
built and supported by state and local governments. State governments 
conduct a range of disease surveillance and detection activities 
necessary for identifying public health threats quickly. States also 
coordinate, train, and deploy medical supplies and human resources 
required for treating victims of public health emergencies. However, 
most systems are currently tailored to respond to routine medical 
situations, not bioterrorist attacks.
    Mr. Chairman, as stated earlier in this testimony, late last year 
this committee led the Congress to appropriate funding to improve 
immediately our nation's capacity to respond to bioterrorist attacks. 
The nation's Governors are especially encouraged that this committee 
recognized the importance of state and local governments in building 
public health emergency systems that can adequately protect our nation. 
Indeed, states will receive more than $1 billion in fiscal year 2002 to 
begin to develop comprehensive statewide and regional plans for 
responding to public health threats. The nation's Governors applaud the 
commitment of the Administration and Congress in providing this 
immediate financial relief for states. States are currently developing 
comprehensive, statewide plans in anticipation of funding for 
laboratory build-up and other public health necessities. We all 
understand there is no way to predict whether an attack will occur in a 
metropolitan or isolated rural area--the need to coordinate an 
unprecedented response on little notice is critical. The Administration 
and Congress should build upon these current programs and recognize 
that states need substantial additional resources to protect citizens 
from bioterrorism, provide a mechanism for ensuring that funds are 
fairly allocated across states and territories, and recognize that 
Governors bear the ultimate responsibility and accountability for the 
development, implementation, and coordination of state plans. During a 
conversation with Governors at their 2002 winter meeting, Governor 
Ridge emphasized the essential role of states in coordinating funding.
    The most important step that Congress can take at this time to 
protect our nation against public health threats is to commit to 
continue funding for this important state-based initiative well into 
the future. States are working to implement long-term comprehensive 
plans to protect Americans from the threats of terrorism today and into 
the future. These long-term goals will not be realized unless states 
can reasonably expect that Congress will not eliminate or diminish 
financial support in future years.
Developing a Communications System
    The current focus on security has elevated the demand for public 
safety communications and information sharing needs in emergency 
situations. There must be interoperability of equipment between first 
responders--fire, police, emergency medical workers, and lab teams--
with and between state and local police, across county and city 
jurisdictions, and with federal enforcement officials. These 
individuals must be able to communicate in a timely manner. There must 
not be another incident as that described by New York City officials 
when they warned about the imminent collapse of one of the World Trade 
Towers on September 11th, but the individuals receiving the information 
could not reach fire officials in the Tower with their radio equipment. 
Instead they had to rely on the 19th century method of sending a 
messenger across long distances only to arrive less than a minute 
before the first tower fell. Mr. Chairman, this shouldn't happen in the 
21st century with the availability of top notch equipment and technical 
expertise.
    Communication interoperability is the foundation for improving 
communications among public safety and emergency service agencies and, 
in turn, for reducing the lapsed time between receipt of, and response 
to, calls for assistance from citizens. It is at the heart of efforts 
to ensure rapid, clear, and secure voice and data communications. In an 
interoperable environment, communications are seamless, coordinated, 
and integrated. Also, security improvements are made to guard against 
cyber attacks on essential government and other critical sector 
operations.
    Although interoperability is a national objective, it can only be 
achieved on a state-by-state basis. Therefore, the state must play a 
central role in designing and advancing the standards and objectives of 
the system.
    Building an interoperable communication system will not be an easy 
task and will require a long-term commitment of federal and state 
resources to accomplish. Furthermore, the Governors want to ensure that 
funds are not squandered on the ``wrong'' equipment and that limited 
personnel and resources are not wasted on incomplete or redundant 
equipment and training. There should be no duplication of effort--
resources are too limited. Rather this must be a short- and long-term 
sustainable effort to address the immediate and future public safety 
needs of interoperable communications.
    Action must be taken at the federal level to ensure that there are 
adequate radio frequencies, known as spectrum, dedicated to public 
safety needs. Under the existing law, allocations are governed by the 
Federal Communications Commission (FCC). Currently, there is inadequate 
available dedicated public safety spectrum. The situation will rapidly 
become worse as states develop more comprehensive communications 
systems designed to transmit voice and data targeted at incident 
prevention and emergency response.
    In 1996, Congress gave broadcasters a portion of valuable public 
broadcast spectrum temporarily and at no cost for the auspicious 
purpose of conversion from analog to digital signals in the move toward 
high definition television (HDTV). At the same time the giveaway was 
under consideration, state and local governments submitted comments to 
the FCC urging prompt public safety action to allocate 24 megahertz of 
spectrum exclusively for state and local public safety including 
police, fire, and emergency medical services. On September 17, 2001, in 
the shadow of the worst terrorist attack in this nation's history, the 
FCC issued a decision that will allow 21 broadcast companies to resell 
spectrum to the wireless industry. According to the FCC action, these 
channels will not be available for public safety use until 2006, if 
ever. In the meantime, state and local governments remain starved for 
adequate broadcast spectrum for public safety.
    Mr. Chairman, the resulting situation puts states and local 
emergency responders in a serious situation with critical fiscal 
implications: what equipment should states and local governments 
purchase, lacking any certainty whether the public safety spectrum 
promised by Congress will, in fact, ever be available? The federal 
government must recognize that dedicated spectrum for state and local 
government public safety use is a part of the nation's national defense 
strategy and must make immediate plans for its accommodation.
Protecting the Critical Infrastructure
    Since September 11th, states have spent millions of dollars to 
ensure that the nation's public and critical infrastructure are 
protected. These costs involve state and local law enforcement 
personnel, including the National Guard, who provide security for 
energy supplies, water resources, bridges, tunnels and inland 
waterways, ports, nuclear plants, borders and chemical laboratories. 
Governors believe that securing the infrastructure represents the first 
line of defense in homeland security.
    Subsequent to September 11th, the President asked Governors to use 
the National Guard in augmenting security at the nation's commercial 
airports. Although there has been reimbursement for some of these 
expenses, Governors did not limit their use of the National Guard or 
other security personnel to only that which was mandated at the 
President's request, but also to meet federal requests for expanded 
security to protect aircrafts in hangars and airfield perimeters.
    In addition to augmenting airport security, Governors were asked to 
provide assistance at several of the nation's ports of entry and border 
crossings. This assistance was needed to expedite the trafficking of 
goods and services. Some border states had commercial venders who were 
experiencing slowdowns because they could not receive parts and other 
materials needed for production in a timely manner.
    Another critical security need is the energy infrastructure--power 
plants, refineries, and transmission and distribution networks--that is 
vulnerable to risks associated with threats from terrorist attacks and 
weapons of mass destruction. Managing and securing the energy 
infrastructure, including oil and gas pipelines, is an essential 
element of the nation's economic well-being, environmental protection, 
and community safety. States will need additional resources to work 
closely with federal agencies and the private sector in taking the 
necessary measures to protect our critical energy infrastructure.
    Another infrastructure in need of protection is the public drinking 
water and wastewater systems. Nationwide, there are approximately 
168,000 public drinking water systems. The nation's wastewater 
infrastructure consists of approximately 16,000 publicly-owned 
wastewater treatment plants, 100,000 major pumping stations, 600,000 
miles of sanitary sewers, and another 200,000 miles of storm sewers. 
Significant damage to this infrastructure could result in loss of life, 
catastrophic environmental damage to rivers, lakes, and wetlands, 
contamination of drinking water supplies, long-term public health 
impacts, destruction of fish and shellfish production, and extreme 
disruption to commerce and the economy. The best protection for the 
water sector lies in common sense actions to increase security and 
reduce threats from terrorism, including conducting vulnerability 
assessments, enhancing physical and electronic security, and 
implementing emergency response and recovery procedures. Because these 
actions often take place at the state level, it is imperative that 
Congress and the U.S. Environmental Protection Agency (EPA) provide the 
states with increased funding to implement them.
    Likewise, food safety is a major challenge to the nation's overall 
security in dealing with bioterrorism and the infrastructure, given the 
possible use by terrorists of crop dusters for spreading defoliants or 
other chemicals or biological agents on crops, livestock, and the 
overall population. The introduction of diseases such as hoof-and-
mouth, anthrax, and brucellosis through livestock or plants to the 
population at large would create a loss of confidence in the integrity 
of food production systems that could send economic and financial 
shockwaves across the country. The impact would be devastating and take 
industry years to recover.
    In February 2001, the General Accounting Office (GAO) reported that 
during 1999, state food safety programs alone provided more than $301 
million in resources to food safety and accounted for approximately two 
million inspections utilizing more than 5,700 staff years. This 
represents a tremendous state role in the food safety/public health 
protection system, especially since states account for more than 80 
percent of the food safety enforcement actions that are accomplished.
    In order to deal with an attack on the food supply, sufficient 
funding for laboratory and scientific capacity is needed in states. 
This capacity is essential to trace potential food borne illness 
outbreaks and for detecting food contamination and infectious animal 
diseases.
    Finally, protecting the infrastructure will be costly for first 
responders, and states must coordinate and assist in meeting these 
costs. According to a survey of first responders conducted by the 
National Emergency Management Association (this organization represents 
state directors of emergency management) approximately $2.1 billion is 
needed to assist local first responders in building overall capacity 
and capability to respond to disasters. The first responder community 
must develop their emergency operating centers (EOCs) and 
communications and warning capabilities to complement the proposed 
alert system from the Office of Homeland Security. Also, more local 
emergency management personnel are needed to perform the functions of 
administration, planning, public education and awareness, exercises, 
and training. Additional fulltime local directors of emergency 
management and appropriate support staff could cost more than $140 
million annually. And the total cost for establishing primary and 
alternate local EOCs needed to provide coordinating facilities for 
local response operation could cost more than $1.5 billion according to 
the survey.
Other Issues of Concern to Governors
    Mr. Chairman, there are a number of issues we would like to raise 
for your consideration, including identification security, 
intergovernmental intelligence sharing, and the duration and 
reimbursement of federal assistance. Each has importance fiscal impacts 
for states.
    The nation's Governors are aware of several proposals regarding 
citizen identification security, including a national identification 
card, or requiring certain biometric markers or other identifiers on 
drivers' licenses. While the Governors applaud these efforts to 
consider options for enhancing security, Congress and the 
Administration should approach this issue with caution. Moving to such 
a system would be very costly for states, especially the driver's 
license issue, and should be discussed more with Governors and 
Secretaries of States. The technology and enforcement of significant 
new responsibilities would have significant fiscal impacts. In 
approaching the issue, very careful consideration must be given either 
to providing full funding to implement such a system or allowing 
maximum flexibility to states.
    Another area that Governors, Congress and the Administration must 
work together on is intelligence sharing. A method must be developed to 
get critical information into the hands of first responders who can and 
must act on it in order to protect the nation. Governors understand and 
appreciate that there is information critical to the nation's security 
that must be guarded at the highest levels. But it should be understood 
that state and local officials and responders can facilitate efforts at 
apprehending potential terrorists or others who pose a threat to the 
nation if they have the necessary information. Agencies such as the FBI 
and/or Immigration and Naturalization Service (INS) would be required 
to share information and data bases with state and local officials. 
There will be a cost to state and local governments for additional 
personnel to assist federal authorities in carrying out the security 
mission. But human and fiscal savings would be achieved through 
preventing potential terrorists from reaching their targets.
    As states near or have adopted our budgets for next year, they have 
raised the issues of reimbursement and whether we have the authority to 
stretch federal funds beyond October 1, 2003. Issues like building 
public health care infrastructure will require a long-term commitment, 
but currently there is little certainty about what the federal role 
will be from the fiscal perspective after fiscal year 2002 and 2003. We 
believe your committee could help on both fronts by clarifying federal 
intent on these important issues.
Conclusion
    In conclusion Mr. Chairman, states have made a major commitment to 
homeland security since September 11th. A few examples are:
  --The Commonwealth of Kentucky anticipates spending $3 million alone 
        in overtime costs to guard airports. Improvements in the 
        state's communications system start at $60 million, and the 
        state has spent $1.6 million on purchasing new equipment such 
        as vehicles, laboratory equipment, secure communications and 
        other specialized gear.
  --Municipalities in the State of Maine have incurred an estimated 
        $1.6 million in overtime and other costs for security and for 
        responding to hundreds of anthrax scares.
  --The State of Michigan has spent $2.6 million for epidemiologists, 
        microbiologists, and laboratory personnel to bolster the 
        state's response capabilities for anthrax and other potential 
        types of bioterrorism.
  --In West Virginia, National Guard troops have been called up, and 
        state employees have been asked to patrol and protect highways, 
        bridges, waterways, refineries, and public buildings at a cost 
        of more than $4 million.
    Mr. Chairman, these and other states have been spending funds at a 
time when States are facing budget shortfalls of at least $40 billion 
overall, with an expectation that--notwithstanding national economic 
recovery--this shortfall will increase to $50 billion this fiscal year.
    Therefore, the Governors urge Congress to make support for state 
and local government efforts a top priority. The federal government 
should provide adequate federal funding, support, and information 
sharing to ensure that homeland security needs are met. In addition to 
significant initial federal investment, ensuring homeland security 
requires yearly maintenance-of-effort by the federal government.
    Finally Mr. Chairman, we understand the difficult task of 
developing a homeland security strategy for the nation. The Governors 
stand ready to work in partnership with the federal government to meet 
these challenges, but we need your assistance to ensure that we have 
the authority and funding to succeed.
             Biographical Sketch of Governor Roy E. Barnes
    Birth Date: March 11, 1948
    Family: Married; three children
    Religion: Methodist
    Spouse: Marie
    Party: Democrat
    Elected: November 1998
    Term Expires: January 2003

    Roy E. Barnes was born in Mableton, Georgia. He attended the 
University of Georgia, earning a bachelor's degree in history in 1969 
and a law degree in 1972. After serving in the Cobb District Attorney's 
office for two years, he was elected to the first of eight terms in the 
state senate. After two terms, he was named chairman of the Judiciary 
Committee. Barnes served as administration floor leader from 1982 
through 1989. He also served on the Governor's Growth Strategies 
Commission and was senate chairman of the Constitutional Revision 
Committee. Returning to the legislature in 1993 after a run for 
governor in 1990, he represented the 33rd house district. He served as 
vice chair of the House Judiciary Committee and as a member of the 
Rules and Banks and Banking Committees. He also was a senior partner in 
the law firm of Barnes, Browning, Tanksley, and Casurella in Marietta, 
Georgia.
              Biographical Sketch of Governor John Engler
    ``Gov. John Engler has had more impact on the lives of Michiganians 
over the past decade than any other single person, and his deep imprint 
will be evident well into the new century.''----The Detroit News, April 
9, 2001.

    First elected in 1990 as Michigan's 46th governor, Governor John 
Engler is now America's most senior governor. Engler was elected 
chairman of the National Governors Association in August 2001.
    A common sense Midwestern conservative who believes strongly that 
every child should have the chance to succeed, Engler has made 
improving education Michigan's number one priority. With boldness and 
vision for the future, Governor Engler also cut taxes, reformed 
welfare, right-sized government and implemented the biggest road repair 
and rebuilding plan in state history. Under his watch, the quality of 
Michigan's water, land and air resources has steadily improved.
    In 1994, Engler led the fight to enact Proposal A--a ballot 
proposal overwhelmingly approved by voters to fund schools fairly and 
cut property taxes. Now, all children have a foundation grant that 
follows them to the public schools of their choice, including more than 
180 charter public schools. With funding issues resolved, high 
standards and rigorous assessments have helped improve student 
performance. To encourage academic achievement, Governor Engler created 
the Michigan Merit Award--a $2,500 scholarship for college or 
training--that is awarded to high school students who pass their 
proficiency tests in reading, writing, science and math.
    Governor Engler has signed 31 tax cuts into law, saving taxpayers 
more than $25 billion. The state inheritance tax and capital gains 
taxes have been eliminated. Personal exemptions for children, seniors 
and the disabled have been increased. The personal income tax rate is 
being reduced to 3.9 percent--the lowest level in a quarter century--
and Michigan's main tax on business is being phased out completely.
    Engler's economic policies have helped to create more than 900,000 
jobs in Michigan, cutting the state's unemployment rate from over 9 
percent the year he took office to 3.4 percent in 2000--the lowest 
annual level ever recorded. For an unprecedented four years in a row, 
Michigan has won the prestigious Governor's Cup for the most new 
factories and expansion projects in the nation. As part of the nation's 
most forward-looking economic development strategy, $1 billion is being 
invested in a ``Life Sciences Corridor'' from Ann Arbor to Grand 
Rapids, and a high-tech cybercourt to hear business disputes is also in 
the works.
    Governor Engler has strengthened Michigan's role as guardian of the 
Great Lakes, fought water diversions and invested more in clean water 
than any governor. Thanks to reforms of environmental laws, Michigan 
leads the nation in reclaiming contaminated brownfield sites while 
preserving green space and farmland.
    Other highlights of the Engler administration include:
  --passing the $675 million Clean Michigan Initiative to reduce 
        pollution, fix up state parks, improve water quality and clean 
        up contaminated sites;
  --trimming state government personnel by more than 20 percent 
        (excluding state troopers, prison guards and other public 
        safety workers);
  --transforming the $1.8 billion deficit he inherited to a $1.3 
        billion surplus;
  --restoring Michigan's AAA credit rating;
  --helping nearly 300,000 families achieve independence from cash 
        welfare and reducing welfare rolls by nearly 70 percent;
  --restructuring the regulation of energy and telecommunications 
        industries to increase consumer choice and reduce rates;
  --investing a record-high $1.54 billion to fix our roads in 2001 
        alone--more than four times the amount spent in 1990;
  --reducing violent crime by more than 25 percent;
  --serving an additional 45,000 patients annually with mental health 
        services;
  --giving Detroit's mayor authority to appoint the local school board 
        and speed up the pace of reform;
  --increasing K-12 education spending by 84 percent; and,
  --dramatically improving student reading and math test scores.
    Engler, 53, is a graduate of Michigan State University with a 
degree in agricultural economics and earned a law degree from the 
Thomas M. Cooley Law School. He was recently elected to the Board of 
Trustees of the Gerald R. Ford Foundation and named a Public Official 
of the Year by Governing Magazine. Michigan's First Lady, Michelle 
Engler, is also an attorney. They are parents of seven-year-old triplet 
daughters--Margaret, Hannah, and Madeleine.

    Chairman Byrd. Thank you for your statement. Governor 
Barnes.
STATEMENT OF HON. ROY BARNES, GOVERNOR, STATE OF 
            GEORGIA
    Governor Barnes. Well thank you, Mr. Chairman and Senator 
Stevens and other members of the committee for giving me an 
opportunity to come here this morning and talk about some of 
the challenges we face and some of the things that we are doing 
in Georgia--in the South--to protect the security of our 
citizens. I also want to thank you for allowing us to share our 
views on not only our problems, but something that has been 
touched on by Governor Locke and Governor Engler, is how to 
better coordinate the resources that exist between the State 
government and the Federal Government.
    We all know that the madmen who killed thousands of people 
on September 11th, and those who contaminated our mail with 
deadly anthrax, were not just targeting New York City or 
Washington. They were attacking the United States of America. 
The victims left loved ones in all 50 States, including the 
State of Georgia. And now we realize everywhere that it could 
happen anywhere.
    And so as Americans, we are fighting side by side in this 
war on terrorism. The fight, I suggest to you as you heard 
earlier, will require planning for the possibility of future 
attacks. And it will require, and if I can stress this even 
more than what the other speakers have said to try to heighten 
it, the sharing of information and the standardization of the 
sharing of information.
    And it also will require constant, real-time communication 
between different agencies of the Federal Government, and also 
different agencies of the State government. But most of all, it 
will require a commitment of resources. Now we recognize there 
is going to be some commitment of resources that have to come 
from the States. And as Governor Engler talked about and 
Governor Locke talked about, we are willing to do that.
    But, we also need assistance from the Federal Government 
because we also realize--and I think you do--State and local 
governments are on the front lines of this war and we do not 
have all the ammunition we need to fight it. And it will 
require something else, and that is flexibility, because even 
though we are all fighting the same war every State has unique 
security priorities. I will just give you a couple of examples 
in Georgia.
    We have the Centers for Disease Control in Atlanta, 
Georgia. It is a major target from protesters to terrorists. I 
mean, everybody is there that has a gripe with the United 
States Government or particularly what they are doing. Or, and 
during times of terrorism, of course they are the heartbeat for 
the rest of the Nation. We have some specific and unique 
circumstances to provide security there. We do that in the 
State government for the CDC.
    We also have two major seaports on the Atlantic coast. We 
have 12 military bases, to which we are thankful, by the way. 
And we also have the Nation's largest airport. In fact, on 
September 11th when I was asked to evacuate the Atlanta Airport 
we had over 20,000 people in the Atlanta Airport at that time.
    Now like Governor Locke and Governor Engler, we also felt 
particularly keenly the effects of the recession. Georgia will 
take in less this fiscal year--$500 million less than what it 
took in last year in taxes, which is the first time that has 
occurred since 1953, because we have been a high-growth State. 
But, we are willing to establish and have established the 
priorities to make sure that we meet our responsibility in 
providing the security for our people.
    Let me give you a couple of things that we have done and 
some of the problems that we see and how I think they can be 
corrected. Shortly after September 11th we put together, as 
most States did, a homeland security task force, which had 
representatives of our law enforcement agencies, National Guard 
and otherwise; and also a liaison to work hand in hand with our 
Federal agencies. This task force includes the State agencies 
responsible for public safety, emergency management, public 
health, environmental protection, transportation and defense, 
as well as local law enforcement officials and fire chiefs.
    I asked them to come up with recommendations to us to 
better provide the security for our people. And based upon 
those recommendations we have included $6.3 million in this 
year's budget. Now that is on top of the regular public safety 
and public health increases, to try to put into some of the 
specific suggestions that they had dealing with homeland 
security.
    Let me give you some of those that we are spending money 
on. We have created the Georgia Information Sharing and 
Analysis Center, which will gather intelligence on terrorism 
threats and it will operate in tandem with the FBI's Joint 
Terrorism Task Force in Georgia. In fact, this is a good 
example of the Federal and State working together. The FBI 
Joint Terrorism Task Force that is located in Atlanta will be 
housed in a State facility--that houses this information 
sharing facility and intelligence gathering.
    But, also we are having the same problem about the 
standardization of security clearances that Governor Locke 
talked about. What clears security for one agency does not 
clear security to another. In fact, on September 11th my 
adjutant general came to me and he said I've got to get you to 
fill out this security clearance so I can talk to you about 
some of the threats that we may have. And since I hire and fire 
him, I said that is an interesting thing, but I will fill it 
out and I did so.
    And I do not mind doing that, and I do not think anybody 
else minds doing so, but there has to be among the agencies 
that are cooperating so standardized way of clearing security 
so that we can allow our State and our Federal agencies to work 
together. Some of the other things we have done with the State 
funds so far that we have appropriated, is to provide the 
additional staff needed by existing agencies to handle 
increased security responsibilities and to provide back up for 
the CDC.
    Our State lab, our Department of Human Resources 
laboratory, public health laboratory, acts as the back up lab 
for the CDC. When they are overburdened we undertake it. In the 
anthrax scare we were covered up because CDC was covered up. 
And we operated our public health lab 24 hours a day almost.
    The FBI moved into our State laboratory, which was fine, 
and we wanted them to do so. At one time we had over 2,000 
pieces of mail in our State laboratory that we were doing for 
the CDC to go through to test for anthrax. Now all of them 
turned out to be negative, but you still have to go through 
that process.
    The reason I tell you that is we do not mind--the States--
do not mind providing the cooperative effort to keep our people 
safe. And in exchange what we ask is a constancy of funding and 
the flexibility to address some of those individual needs that 
we have in our States. I will give you one more example in 
Georgia. I am sure it is not unique, but it is of concern to 
us.
    We have 33 counties in Georgia out of 159--don't ask me why 
we have so many counties--we have 33 counties out of 159 that 
do not have a 9-1-1 emergency response system. And, of course, 
9-1-1 is pretty well the very first level of emergency 
response. We need the flexibility to be able to meet some of 
those needs.
    So, these are the things that we have done on a financial 
basis. Most of us have also undertaken to introduce and pass 
legislation to give our public health departments and directors 
new comprehensive powers to deal with bioterrorism attacks, 
something that Governors did not even consider less than 1 year 
ago. This includes the ability to declare an immediate 
quarantine and the power to require large scale vaccination and 
compel medical examinations. And because the CDC is there, and 
we are proud to have it there, it is also a concern to us to be 
able to respond to any attack that may occur on the CDC and 
anything that may come out of that.
    We know, as President Bush has told us and that we all 
realize, that this war against terror is not going to be won in 
the immediate future. It is a long term fight and will require 
a long term commitment, and that is what we are asking from 
you. We are willing to commit long term because we are on the 
front lines. We protect our people and we are going to protect 
our people. We ask for Federal assistance and Federal 
assistance on a long term basis rather than just one shot so 
that we can do some planning around it.
    We are doing our part and we ask the Federal Government to 
do theirs. We need resources, yes, and the commitment to 
resources over a multi-year period. But, we also need the 
flexibility to do the things that are best suited for the 
unique circumstances in each of our States. Georgia has 
critical needs for equipment, supplies and technical support. 
But the most critical need is for staff to establish and 
maintain a bioterrorism preparedness and response program, for 
the training to our counties and our cities and our State 
officials that first respond.
    We need to be able to hire staff, and in order to do that 
we need an ongoing commitment of funds. And we need guidelines 
that are consistent from one program to the next and as 
standardized as possible to make sure that we are getting 
results. We do not need micromanagement of our State agencies 
and we are willing to be accountable for the results that are 
required of us without micromanaging us.
    In closing, I believe that a comprehensive State terrorism 
strategy is the best and most appropriate framework for the 
delivery of Federal programs and funding. All Federal 
resources, programs and activities involving State and local 
government should be coordinated through the Nation's Governors 
and their appropriate State agencies so that we can make sure 
that we do not duplicate our funding resources and that we do 
not duplicate what is necessary and that we can coordinate into 
one plan everything that is being done. I suggest to you that 
bypassing the States would only lead to gaps or to wasteful 
overlaps and redundancies, two things that we cannot afford in 
this war that we are all fighting. Thank you Mr. Chairman.
    Chairman Byrd. Thank you, Governor Barnes. Dr. Carter, you 
have already been introduced. Would you please proceed?
STATEMENT OF DR. ASHTON CARTER, FORD FOUNDATION 
            PROFESSOR OF SCIENCE AND INTERNATIONAL 
            AFFAIRS, KENNEDY SCHOOL OF GOVERNMENT, 
            HARVARD UNIVERSITY
    Dr. Carter. Thank you, Senator and members of the committee 
for having me before this committee, but above all for holding 
this hearing because it emphasizes the need to give some 
coherence to the homeland security investment program over all, 
and that in fact is the theme of the brief comments I would 
like to make. My statement, Mr. Chairman, is drawn from an 
article that I published in ``International Security'' in the 
winter issue, which has attracted some attention. And that is 
going to be the basis for what I have to say. If I may I would 
like to enter that in the record as my written statement.
    Chairman Byrd. That will be included, without any 
objection.
    Dr. Carter. Thank you. The main purpose of the article, 
which was written in November, was to define the Governor Ridge 
job. How can this new position add value, and make a 
contribution and to protect the Nation against terrorism, which 
is a struggle which is going to be with us as far into the 
future as we can see? The conclusion of the article was that to 
make a contribution Governor Ridge should not try to be a 
coordinator; should not be a czar; should not be an agency 
head; certainly should not be a spokesman; but instead an 
architect, an architect of the capabilities we do not now have 
but urgently need to build. The architect of what we need to 
build.
    I will not describe why these other job descriptions which 
I named would fail, but I want to concentrate on the architect 
role. The main thing an architect would do is to create a 
multi-year, multi-agency program plan--and those of you from 
defense backgrounds like me know what a program plan is--which 
is an investment plan to build new capabilities. To see what I 
mean, think of a single piece of paper in which on the left 
hand side you have the various agencies of the Federal 
Government that play a role in this process.
    You have the States and the localities, their important 
roles. You have the private sector, which owns and operates 
critical infrastructures that need to be protected. And along 
the top of the piece of paper you have the various tasks that 
need to be accomplished in a competent national effort to 
combat terrorism.
    My favorite way of arraying them is to think of a timeline 
that goes from before an incident to after an incident. And 
before an incident you need to worry about detection and 
surveillance and intelligence and prevention and protection. 
And then when an incident is imminent, about interdiction. And 
after an incident, about consequence management, attribution 
and forensics and learning from what has happened to you.
    So imagine those tasks arrayed across the top of the paper, 
and it looks like a little matrix. And in every box the 
architect would fill in what capabilities need to be built in 
each of those boxes so that the Nation overall has the set of 
capabilities it needs, prescribing for each box what new money 
and new organizations are needed to get the job done.
    So that, in the simplest terms, producing that chart is the 
job that would add value. That is the simplest description I 
can give it. It is not rocket science or Werner von Braun, the 
physicist. Werner von Braun said the job of the rocket 
scientist--the goal of the rocket scientists at Pennemunde was 
to make sure that it was more dangerous to be at the predicted 
impact point than to be at the launch point. By that standard 
of rocket science that is probably all we need to produce that 
chart.
    Now Governor Ridge, hypothetically if he took on this 
definition of his job, would get the President to approve his 
chart. The President would direct the agency heads at the 
Federal level to reflect the contents of that chart in their 
budget submission, and to provide the funding, the inducements 
and the regulation which may be required so that State and 
local levels and private entities do their part. And then send 
that package up to the Hill where it would, of course, be your 
job to make the final disposition.
    The chart I have described and the process I described 
stand in sharp contrast, I think, to the process that produced 
the fiscal year 2003 budget, which process I think can be 
described charitably as the result of agency, contractor and 
Congressional initiative, many of them very good, but not a 
plan. There is a lot of useful stuff in there, but it is the 
result of a lot of people hammering and sawing without an 
architectural blueprint.
    Next, if Governor Ridge took on that definition of his job, 
what does it take, what does he need to do a competent job of 
creating an architectural plan? A small White House staff, 
however capable, is in my judgment not enough to produce a good 
plan in an area that is so large, so new, so complicated and so 
vital. They will not have the knowledge across all the domains. 
They will get outgunned by the agencies who have a more partial 
view of the problem. We saw that in the skirmish over the 
creation of a border agency, for example.
    They will not be able to do the Red Team-Blue Team work 
which, I describe in the article and again I draw from my 
defense experience, is so crucial to figuring out, to be one 
step ahead and smarter than the people who would do damage to 
us. They will not be able to do the systems engineering, the 
design of the cross-cutting things that are no agency's 
individual responsibility, but that are necessary to make the 
whole thing work together.
    They will not be able to help the agencies that we are now 
showering with money but that have no tradition of spending 
large sums of money on engineering programs and large 
technology programs and systems efforts to help those agencies 
develop the capability capably to spend that money. And above 
all, they will not be able to provide a framework for deciding 
who pays for all this stuff. Who is going to pay for all this 
protection? What mix? How are we going to apportion the cost 
between the Federal level, the State and local level, and all 
the private actors? Somebody has to design that architecture.
    To do all this well, Governor Ridge, who decided he was 
going to be an architect, would in my judgment need the kind of 
capability that was represented in defense for many years by 
institutions like Rand, the Mitre Corporation, the Mitretek 
Systems Corporation, Aerospace Corporation, and so forth, not-
for-profit institutions that were not part of the Government, 
but were not part of the for-profit sector either, and that 
were capable of providing in-depth analysis program planning 
and systems engineering to the Government when we had another 
complex job, which was to win the cold war.
    And I think that some kind of capability like that, perhaps 
a consortium of the ones that exist, maybe a new founding, will 
be necessary to make Governor Ridge all he can be.
    Now I have some of my views, Mr. Chairman, and members, 
about what that plan if it were well done would contain. I 
won't say what they are except to, if I may, note two things, 
and then I'll stop.
    The first is that this is a pretty serious problem for the 
country and we have to look to what our strengths are. We have 
a lot of weaknesses as a society. We're open, we're complicated 
and fragile. We're comfortable. So we have to ask, what are our 
comparative advantages as a society in beating this thing.
    And it seems to me that one key strength that no other 
society on Earth has as much as ours does is the inventiveness 
and the science and technology capabilities that this country 
has. I just want to stress the importance of that for this 
homeland security mission.
    You know, when we were taking on the Warsaw Pact and my 
boss, former boss and now collaborator and friend, former 
Secretary of Defense Bill Perry used to make this point all the 
time. When we went against the Warsaw Pact, we didn't try to 
compete with them man for man, tank for tank. We knew we 
couldn't do that. And instead, we decided to make a military 
that was better than, not larger than theirs, and it was going 
to be better through science and technology. And that was the 
approach that played upon our national strengths and won the 
cold war. And we need similarly to marshal science and 
technology in this war.
    In many cases, moreover, not only is it successful, but in 
many cases the application of science and technology can 
relieve us of the need to adapt in other ways that would be 
detrimental, procedural ways that would be detrimental to our 
way of life or to our civil liberties.
    Though science and technology, applied right, can give us a 
way out here, I understand the National Academy of Sciences is 
working on a science and technology plan, I'm a member of that 
committee, and that's just one contribution, but I commend 
their work to your attention.
    I'd like to close, Mr. Chairman, with a final idea which is 
a big idea about the international coalition effort against 
terrorism and where it meets the subject of this hearing, 
especially the question of weapons of mass destruction 
terrorism. This is an idea that for all I know might already 
have occurred to Senator Domenici, who is an expert on this 
subject; I've heard it sketched in a speech by Senator Lugar; I 
saw it also in a speech by former Senator Nunn. It was a Senate 
Foreign Relations testimony that curiously enough preceded 
September 11 by a few days. But it goes like this.
    There's a lot of talk about what's the next phase in the 
international war against terrorism, is it Iraq, is it--who's 
next? And that's an important discussion to have, but let me 
ask you to imagine a different kind of next phase, not an 
alternative to those others, but in addition to those others, 
whose object is not root out cells of al Qaeda, but to root out 
cells of unsecured wherewithal to do weapons of mass 
destruction, be they fissile materials, germ cultures, the 
scientific knowledge that goes with that.
    Imagine such a coalition, a coalition of nations including 
us, our European and Japanese allies, Russia, China, India, 
maybe even Pakistan, who set standards for safe custodianship 
of these materials and assist those who need help to meet those 
standards the way the Nunn-Lugar program has assisted the 
Soviet Union. Like a Nunn-Lugar, but which is global in scale, 
in scope rather, and global in participation.
    I think, Mr. Chairman, the United States needs to lead a 
coalition of that kind also, because I know enough about 
nuclear weapons in particular, to know that once they're here, 
we're cooked. They're very difficult to find. And the only way 
to stop those threats--by far the most desirable way, is at the 
source, and I'd like to see that be another phase in the 
international coalition as well. Thank you. Thank you all.
    [The information follows:]
        The Architecture of Government in the Face of Terrorism
    On September 11, 2001, the post-Cold War security bubble finally 
burst. In the preceding ten years, the United States and its major 
allies failed to identify and invest in the prevention of ``A-list'' 
security problems that could affect their way of life, position in the 
world, and very survival. Instead they behaved as if gulled into a 
belief that the key security problems of the post-Cold War era were 
ethnic and other internal conflicts in Bosnia, Somalia, Rwanda, Haiti, 
East Timor, and Kosovo. Peacekeeping and peacemaking in these places, 
although engaging important humanitarian concerns, never addressed the 
vital security interests of the United States, and none of these 
conflicts could begin to threaten its survival. As if to confirm this 
point, the official military strategy of the United States during the 
last decade centered not on peacekeeping but on the challenge of 
fighting two Desert Storm reruns, one in Korea and one in the Persian 
Gulf, at the same time. The two-major-theater-war doctrine at least had 
the virtue of addressing threats to vital U.S. allies and interests. 
But as the decade wore on, it was increasingly apparent that although 
important interests were at stake in both major theaters, in neither 
was U.S. survival in question. The A-list seemed empty, so policy and 
strategy focused on B- and C-level problems instead.\1\
---------------------------------------------------------------------------
    \1\ This argument and the corresponding A-, B-, and C-lists are 
derived from Ashton B. Carter and William J. Perry, Preventive Defense: 
A New Security Strategy for America (Washington, D.C.: Brookings, 
1999).
---------------------------------------------------------------------------
    A-list threats, such as the threat posed by the Soviet Union for 
the preceding half-century--were indeed absent, but only if threat is 
understood as the imminent possibility of attack defined in traditional 
military terms. If taken instead to denote looming problems that could 
develop into Cold War-scale dangers, the A-list contained at least four 
major underattended items in the Government 1990s: (1) the collapse of 
Moscow's power, (2) the growth of Beijing's military and economic 
might, (3) proliferation of weapons of mass destruction, and (4) the 
prospect of catastrophic terrorism. Upon taking office, George W. Bush 
and his administration claimed to be formulating their strategy around 
the first two of these items, in a self-proclaimed return to big power 
realism. But in the wake of the World Trade Center and Pentagon attacks 
of September 11, the Bush administration is instead finding its agenda 
dominated by catastrophic terrorism, for which it appears no more or 
less prepared than its predecessor Bush, Sr., and Clinton 
administrations.
    The challenge of catastrophic terrorism is destined to be a 
centerpiece of the field of international security studies, and thus of 
the readers and writers of the pages of this journal, for the 
foreseeable future. Today the focus is a particular nest of Islamic 
extremists operating freely from the lawless failed state of 
Afghanistan. But the last time that a building in the United States was 
destroyed in a terrorist attack, the Alfred P. Murrah Federal Building 
in Oklahoma City in April 1995, the perpetrator was homegrown, an 
embittered American nihilist operating in the vast anonymity of modern 
society. One month earlier, an obscure cult in Japan put sarin nerve 
gas in a Tokyo subway and attempted an airborne anthrax release. Indeed 
the varieties of extremism that can spawn catastrophic terrorism seem 
limitless, and they have not been studied as thoroughly by social 
scientists as have the dynamics of great power rivalry. What is clear 
is that war-scale destructive power is becoming increasingly available 
as technology advances. The same advances heighten the complexity and 
interconnectedness of civilization, making society more vulnerable at 
the same time it delivers to small groups destructive powers that were 
formerly the monopoly of states. Thus if security is understood to be 
the avoidance and control of mass threat, catastrophic terrorism must 
occupy a central place in security studies, a status that ``ordinary'' 
non-mass terrorism never achieved.\2\
---------------------------------------------------------------------------
    \2\ Studies dealing with catastrophic terrorism include: Richard A. 
Falkenrath, Robert D. Newman, and Bradley A. Thayer, America's 
Achilles' Heel: Nuclear, Biological, and Chemical Terrorism and Covert 
Attack (Cambridge, Mass.: MIT Press, 1998); ``A False Alarm (This 
Time): Preventive Defense against Catastrophic Terrorism,'' in Carter 
and Perry, Preventive Defense, pp. 143-174; Ashton B. Carter, John M. 
Deutch, and Philip D. Zelikow, ``Catastrophic Terrorism: Tackling the 
New Danger,'' Foreign Affairs, Vol. 77, No. 6 (November/December 1998), 
pp. 80-94; Robert T. Marsh, John R. Powers, Merritt E. Adams, Richard 
P. Case, Mary J. Culnan, Peter H. Daly, John C. Davis, Thomas J. 
Falvey, Brenton C. Green, William J. Harris, David A. Jones, William B. 
Joyce, David V. Keyes, Stevan D. Mitchell, Joseph J. Moorcones, Irwin 
M. Pikus, William Paul Rodgers, Jr., Susan V. Simens, Frederick M. 
Struble, and Nancy J. Wong, Critical Foundations: Protecting America's 
Infrastructures: The Report of the President's Commission on Critical 
Infrastructure Protection (Washington, D.C., October 1997); The Gilmore 
Commission, James S. Gilmore III, James Clapper, Jr., L. Paul Bremer, 
Raymond Downey, George Foresman, William Garrison, Ellen M. Gordon, 
James Greenleaf, William Jenaway, William Dallas Jones, Paul M. 
Maniscalco, Ronald S. Neubauer, Kathleen O'Brien, M. Patricia Quinlisk, 
Patrick Ralston, William Reno, Kenneth Shine, and Ellen Embrey, First 
Annual Report to the President and the Congress of the Advisory Panel 
to Assess Domestic Response Capabilities to Terrorism Involving Weapons 
of Mass Destruction I: Assessing the Threat (Washington, D.C., December 
15, 1999), http://www.rand.org/nsrd/terrpanel/terror.pdf; The Gilmore 
Commission, James S. Gilmore III, James Clapper, Jr., L. Paul Bremer, 
Raymond Downey, Richard A. Falkenrath, George Foresman, William 
Garrison, Ellen M. Gordon, James Greenleaf, William Jenaway, William 
Dallas Jones, Paul M. Maniscalco, John O. Marsh, Jr., Kathleen O'Brien, 
M. Patricia Quinlisk, Patrick Ralston, William Reno, Joseph Samuels, 
Jr., Kenneth Shine, Hubert Williams, and Ellen Embrey, Second Annual 
Report to the President and the Congress of the Advisory Panel to 
Assess Domestic Response Capabilities to Terrorism Involving Weapons of 
Mass Destruction II: Toward a National Security for Combating Terrorism 
(Washington, D.C., December 15, 2000), http://www.rand.org/nsrd/
terrpanel/terror2.pdf; and The National Commission on Terrorism, 
Ambassador L. Paul Bremer III, Maurice Sonnenberg, Richard K. Betts, 
Wayne A. Downing, Jane Harman, Fred C. Ikle, Juliette N. Kayyem, John 
F. Lewis, Jr., Gardner Peckham, and R. James Woolsey, Countering the 
Changing Threat of International Terrorism, report of the National 
Commission on Terrorism (Washington, D.C., June 5, 2000), http://
www.fas.org/irp/threat/commission.html.
---------------------------------------------------------------------------
    The resulting agenda of analysis and policy development is wide. 
First, the motivations and root causes of catastrophic terrorism--
inscrutable as they may now seem--must eventually yield at least in 
part to careful study.\3\ Second, the potential of catastrophic 
terrorism to transform traditional international relations should also 
be studied and its policy consequences propounded, as the great 
powers--the United States, Europe, Japan, Russia, and China--set aside 
some of the lesser issues that divide them and acknowledge a great 
common interest in protecting their homelands.\4\ This article concerns 
a third dimension of policy: the need to reengineer the architecture of 
governance--security institutions and their modes of operation--when 
warscale damage results from terrorism.\5\
---------------------------------------------------------------------------
    \3\ Jessica Stern, The Ultimate Terrorists (Cambridge, Mass.: 
Harvard University Press, 1999); and Philip B. Heymann, Terrorism and 
America: A Commonsense Strategy for a Democratic Society (Cambridge, 
Mass.: MIT Press, 1998).
    \4\ See Stephen M. Walt, ``Beyond bin Laden: Reshaping U.S. Foreign 
Policy,'' in this issue.
    \5\ Ashton B. Carter and William J. Perry with David Aidekman, 
``Countering Asymmetric Threats,'' in Carter and John P. White, eds., 
Keeping the Edge: Managing Defense for the Future (Cambridge, Mass.: 
MIT Press, 2001), pp. 119-126; and The Hart-Rudman Commission, Gary 
Hart, Warren B. Rudman, Anne Armstrong, Norman R. Augustine, John Dany, 
John R. Galvin, Leslie H. Gelb, Newt Gingrich, Lee H. Hamilton, Lionel 
H. Olmer, Donald B. Rice, James Schlesinger, Harry D. Train, and Andrew 
Young, Road Map for National Security: Imperative for Change: The Phase 
III Report of the U.S. Commission on National Security/21st Century 
(Washington, D.C., February 15, 2001).
---------------------------------------------------------------------------

                          THE GOVERNANCE ISSUE
    Post-Cold War complacency was only one reason that the United 
States found itself so surprised by, and so unprepared for, the onset 
of catastrophic terrorism and the mission of homeland security. A 
deeper reason is that the security institutions of the U.S. federal 
government are particularly ill-suited to deliver homeland security. 
Greater awareness of the threat since September 11 alone will not 
rectify this problem. There is a fundamental managerial inadequacy, as 
basic as that of a corporation with no line manager to oversee the 
making of its leading product.
    Pundits have been debating whether the campaign to prevent 
catastrophic terrorism is a ``war'' or not. If one sets aside semantics 
and asks the practical managerial question, Can U.S. preparations for 
war be easily adapted to preparation for catastrophic terrorism? the 
answer is no. Preparations for war in the military, diplomatic, and 
intelligence senses are the province of institutions--the Departments 
of Defense and State, and the intelligence community--whose focus and 
missions have been ``over there'' in the fields of Flanders, the 
beaches of Normandy , the jungles of Vietnam, and the desert of Kuwait. 
Their opponents have been foreign governments, and even against them 
they have not been asked to defend the U.S. homeland in recent history 
except through the abstraction of nuclear deterrence.
    If catastrophic terrorism cannot really be treated as a war, then 
perhaps it should be conceived as a crime. But the U.S. law enforcement 
paradigm is also ill-suited to deal with catastrophic terrorism. This 
paradigm centers on the post facto attribution of crimes to their 
perpetrators and to prosecution under the law. So deeply entrenched is 
this model that four weeks after the September 11 attacks, the attorney 
general had to prod the Federal Bureau of investigation publicly to 
shift its efforts from ``solving the case'' to preventing another 
disaster.\6\ Additionally, if the focus of the war model is foreign 
perpetrators, the focus of the law enforcement model is the American 
citizen. Neither model encompasses the transnational drifter that is 
characteristic of the al-Qaeda operative.
---------------------------------------------------------------------------
    \6\ Philip Shenon and David Johnston, ``F.B.I. Shifts Focus to Try 
to Avert Any More Attacks,'' New York Times, October 9, 2001.
---------------------------------------------------------------------------
    Early in the Bush administration, the new director of the Federal 
Emergency Management Agency (FEMA) asserted that catastrophic terrorism 
was not a war or a crime, but a disaster, and thus the province of his 
agency, even obtaining a presidential directive to that effect.\7\ In 
so doing, he reversed the previous FEMA management, which regarded 
catastrophic terrorism as a new mission with no funding and thus to be 
avoided. But even armed with a presidential directive, FEMA seemed 
unable to convince anyone that acts of God and acts of terror were 
similar enough that a managerial solution was to be found in combining 
them.
---------------------------------------------------------------------------
    \7\ Vernon Loeb, ``Cheney to Lead Anti-Terrorism Plan Team: New 
FEMA Office Will Coordinate Response Efforts of More Than 40 Agencies, 
Officials Say,'' Washington Post, May 9, 2001, p. A29.
---------------------------------------------------------------------------
    Thus the federal government lacked a managerial category for 
catastrophic terrorism, which is neither war, crime, nor disaster, as 
conventionally understood. Preparations for mass terrorism therefore 
proceeded haltingly in the 1990s. Some progress was made when 
preparedness was tied to specific events, such as the 1996 Atlanta 
Olympics.\8\ But elsewhere the preparations were more the result of the 
efforts of a few well-placed individuals--in the Departments of 
Defense, Justice, and Health and Human Services--who had become 
concerned about the problem, than of any overall managerial scheme. As 
the decade wore on, money did begin to flow to such programs as 
training state and local governments in weapons of mass destruction.\9\ 
But these efforts were largely the result of congressional initiative 
and inevitably reflected constituent interests. They did not lead to 
the development of a program to build a national capability for 
combating catastrophic terrorism.
---------------------------------------------------------------------------
    \8\ Kennedy School of Government case authored by John Buntin, 
Parts A-C: ``Security Preparations for the 1996 Centennial Olympic 
Games (Part A),'' Case No. C16-00-1582.0; ``Security Preparations for 
the 1996 Centennial Olympic Games: Seeking a Structural Fix (Part B),'' 
Case No. C-16-00-1589.0; and ``Security Preparations for the 1996 
Centennial Olympic Games: The Games Begin (Part C),'' Case No. C16-00-
1590.0.
    \9\ Defense against Weapons of Mass Destruction Act 1996 (Nunn-
Lugar-Domenici), Public Law 104-201 (H.R. 3230), September 23, 1996, 
National Defense Authorization Act for Fiscal Year 1997, 104th Cong., 
2d sess., http://www.fas.org/spp/starwars/congress/1996/pl104-201-
xiv.htm.
---------------------------------------------------------------------------
    Outside the federal bureaucracy, even less was done. State and 
local governments, key to both prevention and response to this new 
threat, generally lacked the resources and specialized knowledge to 
combat catastrophic terrorism. The role of the private sector--for 
example, in protecting critical infrastructures such as communications 
and power networks from disruption or in funding protection through 
insurance--remained undefined.
    Before September 11, 2001, therefore, the U.S. government did not 
have a managerial approach (i.e., a framework for bringing 
responsibility, accountability, and resources together in sharp focus) 
to deliver a key public good--security in the homeland against 
catastrophic terrorism. This managerial deficiency was not unique to 
catastrophic terrorism. The post-Cold War world spawned a host of novel 
security missions for government: peacekeeping and post-peacekeeping 
civil reconstruction, counterproliferation, threat reduction, 
information warfare, and conflict prevention (or ``preventive 
defense''). Although it is widely agreed that the United States needs 
to be able to accomplish these missions (even if debate continues over 
exactly when and where it should perform them), no fundamental changes 
have been made in the security architecture to create better 
institutions and capabilities for them.
    Indeed, at least on paper the federal structure has changed little 
since the first burst of innovation in the aftermath of World War II 
and the onset of the Cold War. No comparable burst occurred in the 
1990s. It is as though corporate America was managing the modern 
economy with the structures of the Ford Motor Company, the Bell System, 
and United Fruit. Company managements spend a great deal of thought and 
energy on organizing their functions to align executive authority with 
key products. The federal government disperses executive authority so 
thoroughly that few individuals believe they are accountable for any of 
the government's key security outputs. People rise to the top of the 
Washington heap because of their policy expertise, not their managerial 
expertise. Those senior executives who are managerially inclined find 
their tenures so short and precarious that there seems to be little 
reward in making changes in ``the system'' that will make it possible 
for their successor's successor to be more effective.\10\
---------------------------------------------------------------------------
    \10\ Ashton B. Carter, ``Keeping the Edge: Managing Defense for the 
Future,'' in Carter and White, Keeping the Edge, pp. 1-26.
---------------------------------------------------------------------------
    Above all, the federal government in the past few decades has 
eschewed creating new institutions for new missions such as 
preparedness for catastrophic terrorism. The political climate in the 
United States has been hostile to ``big government,'' and existing 
cabinet departments staunchly defend their heritages and authorities, 
many of which are enshrined in two hundred years of statute. The sense 
of departmental entrenchment is mirrored on Capitol Hill, where 
separate authorization and oversight committees protect each 
``stovepipe''--national security, law enforcement, disaster relief, 
public health, and so on--as jealously as the executive agencies 
themselves.
    It is not surprising, therefore, that the specter of catastrophic 
terrorism occasions deep reflections on the nature and structure of 
governance in the United States. What needs to be done next cannot be 
understood without reference to these problems, and to past attempts to 
overcome them.

                         FOUR FAILED APPROACHES
    In broad outline, four approaches to managing the mission of 
homeland security have been proposed: the command and control approach 
of the Clinton administration, the lead agency approach, the 
establishment of a Department of Homeland Security, and the appointment 
of a White House coordinator or ``czar.'' To date, the Bush 
administration appears to be focusing on the last, which like the other 
three has inherent deficiencies.
    The Clinton administration defined its approach in command and 
control terms: Which federal agency should be in charge of dealing with 
catastrophic terrorism? Initially, the administration determined that 
the Department of Justice would ``have the lead'' in domestic terrorist 
incidents, while the Department of state would do so in incidents 
abroad. This approach both reinforced the false distinction between 
domestic and foreign terrorism and focused on acts in progress rather 
than on advance detection, prevention, and protection. Later, the 
Clinton administration promulgated two presidential directives, PDD-62 
and PDD-63, which further apportioned the matter of ``who's in charge'' 
among the existing agencies according to their traditional 
functions.\11\ Thus, for example, PDD-63 assigned protection of the 
financial system to the Treasury Department. The fact that this 
department had no funds, no technology, and little authority to 
regulate in the field of cybersecurity did not deter the authors of 
PDD-63. In fact, by focusing on the question of who is in charge, the 
command and control approach presumed that the government possessed the 
capabilities to combat catastrophic terrorism; all that was required 
was to marshal them effectively under a clear command system. The 
result was the creation of a host of unfunded mandates, 
responsibilities assigned with no plan for providing the means to 
fulfill them. The administration made no provision to build new 
capability, which was--and remains--the crux of the matter.
---------------------------------------------------------------------------
    \11\ Address by President Bill Clinton at the U.S. Naval Academy, 
May 22, 1998; White House fact sheet, Combating Terrorism, PDD/NSC-62, 
Protection against Unconventional Threats to the Homeland and Americans 
Overseas, May 22, 1998, http://www.fas.org/irp/offdocs/pdd-62.htm; and 
White House fact sheet, PDD/NSC-63, Critical Infrastructure Protection, 
May 22, 1998, http: //www.fas.org/irp/offdocs/pdd/pdd-63.htm.
---------------------------------------------------------------------------
    A second approach considered was to designate a single lead agency 
as having the homeland defense mission. In this approach, the proposed 
lead was usually the Department of Defense. DOD was presumed to have 
already much relevant technology, an ample budget, and a reputation for 
carrying out its mission more effectively than most other government 
agencies.\12\ But this approach failed because too much of the relevant 
capability--for example, for surveillance of potential terrorists on 
U.S. territory--fell beyond DOD's traditional purview. The Pentagon 
shared the disinclination to arrogate such sweeping new authorities to 
itself and proclaimed itself willing to take a strong, but follower, 
role if another agency would lead the effort.
---------------------------------------------------------------------------
    \12\ See Joseph S. Nye, Jr., Philip D. Zelikow, and David S. King, 
eds., Why People Don't Trust Government (Cambridge, Mass.: Harvard 
University Press, 1996), p. 9 and references therein.
---------------------------------------------------------------------------
    A third approach called for the creation of a Department of 
homeland Security.\13\ This approach sought to escape the problem of 
interagency coordination by concentrating the catastrophic terrorism 
mission in a single agency. It recognized that none of the existing 
cabinet departments was a natural lead agency, and that their ingrained 
cultures would not easily incline them to adopt the new mission. The 
fallacy in this approach is that interagency coordination could be thus 
avoided. Suppose, for example, that the Department of Homeland Security 
sought to develop a more rapid means of determining whether someone was 
exposed to anthrax. It would soon discover that this effort was 
redundant with DOD's efforts to develop the same detector technology 
for battle field exposure in accordance with its traditional mission. 
The problem of interagency coordination would not have been eliminated, 
but only complicated by the introduction of a new agency. Aggregating 
functions such as customs, immigration, border patrol, and coast guard 
into a new agency might be efficient, but it can hardly be said that 
such an entity should have the lead in homeland defense, or that its 
creation eliminates the inherently interagency nature of catastrophic 
terrorism.
---------------------------------------------------------------------------
    \13\ Hart-Rudman Commission, Road Map for National Security.
---------------------------------------------------------------------------
    A fourth approach to organizing the federal government for 
catastrophic terrorism is to appoint a White House coordinator or 
``czar.'' President Bush named Pennsylvania Governor Tom Ridge to such 
a post within a month of September 11. This approach is the least 
problematic, because it recognizes that the essence of the solution is 
the coordination of a wide range of government functions behind a new 
priority mission. White House czars, however, have usually been 
ineffective. With no resources or agencies of their own, they are 
easily reduced to cajoling cabinet departments into doing what the czar 
prescribes. The czar's instructions inevitably compete with other needs 
and tasks of the department, and the final outcome of the competition 
is determined by the cabinet secretary (invoking legal authorities, 
usually of long standing) and the relevant committees of Congress, not 
the czar. After the czar is thus overridden a few times, lower-level 
bureaucrats conclude that the czar's directives can be ignored. As the 
Washington saying about czars goes, ``The barons ignore them, and 
eventually the peasants kill them.''

                  THE CRUX OF THE MANAGERIAL CHALLENGE
    A solution to the managerial challenge of catastrophic terrorism 
should have two features that the approaches outlined above lack. 
First, it should acknowledge the inherent and ineluctable interagency 
nature of the problem and abandon any idea of creating a single lead 
agency.\14\ Second, the approach should begin the long process of 
providing the United States with a stock of essential capabilities--
tactics, technology, and institutions--that the federal departments, 
state and local governments, and private sector currently lack. 
Interagency coordination implies a White House focus. But this focus 
should not be a ``czar'' who tries to assume or direct the daily 
functions of all the agencies involved but an ``architect'' who designs 
the capabilities that these agencies need to address the problem. This 
approach gives the architect budgetary authority (the key to his 
influence) and applies that influence where it is needed most: to 
creating needed capabilities rather than stirring up empty command and 
control disputes over who is in charge of capabilities that are 
woefully inadequate or do not exist at all. In short, the important 
function of the White House architect is program coordination, not 
policy coordination or command and control. The program in question is 
a multiyear, multiagency effort to develop tactics, technology, and 
where required new institutions for the ongoing struggle against 
catastrophic terrorism.
---------------------------------------------------------------------------
    \14\ This does not rule out the possibility of creating an agency 
that combines the functions of such border-related agencies as the 
Coast Guard, Border Patrol, Immigration and Naturalization Service, and 
Customs. Accomplishing this bureaucratic feat, however useful, would 
require the fulltime attention of a senior manager with presidential 
and congressional support. If Governor Ridge were to assume this task, 
he would have no time for anything else.
---------------------------------------------------------------------------
    Perhaps the most apt analogy for the job required of the White 
House is provided not by any war that the United States has fought, but 
rather by the Cold War. In 1949 Josef Stalin's Soviet Union exploded an 
atomic bomb over the steppes of Kazakhstan. Although no U.S. citizens 
died in that distant blast, Americans were suddenly gripped by the 
prospect of warlike damage being visited upon their homeland by a 
shadowy enemy with global tentacles. George Kennan warned of a long 
twilight struggle that would test U.S. patience and resolve. The nation 
mobilized over time a response that was multifaceted, multiagency, and 
inventive. Nuclear bombers, missiles, and submarines were built for 
deterrence and retaliation. Spy satellites were launched for warning. 
Air defenses were deployed around the nation's periphery, and missile 
defenses were attempted, to raise the price of attack. Civil defense 
programs sought to minimize casualties if the worst happened. Special 
relocation sites and procedures were instituted to ensure continuity of 
constitutional government if Washington was destroyed. NATO and other 
alliances were formed to get more friends on the U.S. side, and the 
Marshall Plan sought to ensure that economic desperation did not become 
an ally of Stalin. U.S. leaders further recognized that this new 
reality was so dangerous that they needed a capacity to analyze, 
reflect, and learn, not merely react. They founded such think tanks as 
the RAND Corporation to devise innovative methods for coping with the 
era's new danger. In time, ideas such as the theory of deterrence and 
the theory of arms control were elaborated that were not obvious in 
1949 but that helped navigate the world through fifty years of Cold 
War. With difficulty and many mistakes, the nation also learned to deal 
with fear of a threat at home without hunting ``reds'' in the State 
Department and Hollywood. The Cold War effort was massive, extended 
throughout most of the federal government, and was coordinated by the 
White House.
    Designing a similar long-range program to counter catastrophic 
terrorism is the task of the Bush White House in the aftermath of 
September 11, 2001. The National Security Council (NSC) cannot do the 
job for two reasons. First, it does not normally convene the full range 
of departments, especially Justice and Health and Human Services, 
required for this effort. The NSC has largely focused on foreign 
problems. More fundamental, since Dwight Eisenhower's day the NSC has 
slowly lost the capacity for program coordination and become a policy 
coordination body only.\15\ That is, it brings the national security 
agencies together to decide upon a common policy but does not oversee 
or influence their internal capabilities or budgets. Indeed the NSC's 
staff is renowned for its diplomatic and policy expertise, but few have 
experience managing programs or agencies.
---------------------------------------------------------------------------
    \15\ John Deutch, Arnold Kanter, and Brent Scowcroft with Chris 
Hornbarger, ``Strengthening the National Security Interagency 
Process,'' in Carter and White, Keeping the Edge, pp. 265-284.
---------------------------------------------------------------------------
    President Bush was therefore correct not to give the homeland 
security job to the NSC, but instead to found the Office of Homeland 
Security with a broader membership, chaired by Governor Ridge. It is up 
to Governor Ridge to avoid the fate of White House czars who try to 
``run things'' from the White House. Instead of taking a command and 
control approach, Ridge should adopt the architect's programmatic 
approach, designing a multiyear, multiagency plan that will materially 
increase the capabilities of the existing departments and agencies so 
that they can play their part in the campaign against catastrophic 
terrorism. Such an approach would have the additional salutary effect 
of overriding the tendency, prevalent as the fiscal year 2002 budget 
was finalized in the aftermath of September 11, for individual agencies 
and their oversight committees to craft their own response to the 
counterterror challenge. In many cases, these responses amounted to 
little more than long-standing budgetary requests to which the label 
``counterterrorism'' was conveniently applied. Elsewhere, multiple 
agencies vied to make redundant subscale investments where a single 
large investment by only one of them is needed.
    The homeland security program might be organized functionally 
according to a time line extending from before a hypothetical incident 
of catastrophic terrorism to its aftermath. In the first phase, the 
United States needs better capabilities for detection of catastrophic 
terrorism. This involves surveillance of persons and motives--a 
delicate matter--but also surveillance of potential means of 
destruction such as crop dusters, germ cultures, and pilot instruction. 
Surveillance of means raises far fewer civil liberties issues than does 
surveillance of persons, and it might be much more effective. A group 
that evades surveillance becomes subject to prevention by efforts to 
keep destructive means out of their hands. The Nunn-Lugar program to 
safeguard Russian nuclear weapons and fissile materials is an example 
of a prevention program. The next stage is protection, making borders, 
buildings, airplanes, and critical infrastructures more difficult to 
breach, disrupt, or destroy through technical design and procedures. 
Protection might also mean making people more resilient to disease 
through vaccination and other public health measures. Interdiction or 
``crisis management'' seeks to disrupt and destroy potential 
perpetrators of catastrophic terrorism and their base of support before 
they can mount an attack, as in the current campaign in Afghanistan. 
Containment or ``consequence management'' means limiting the level of 
damage and the number of casualties by organizing emergency response, 
public health measures, and restoration of critical functions in the 
aftermath of a terrorist attack. Attribution refers to the capability 
to find the perpetrators of an act (e.g., by typing an anthrax culture 
or performing radiochemical analysis of nuclear bomb debris) and 
choosing retaliation, prosecution, or other response. Finally, as with 
the RAND Corporation in the Cold War, the nation will need a capacity 
for analysis and invention: studying terrorist tactics and devising 
countermeasures, understanding motivations and modes of deterrence, 
drawing lessons from past attacks, creating new technologies, and 
developing a systematic plan.
    Schematically, the result of such an effort by the Office of 
Homeland Security would resemble a simple matrix, in which functions 
are arrayed in columns and the agencies involved in carrying them out 
in rows (see Figure 1). In each box would appear the agency's 
responsibility, if any, for possessing capability in that function, 
with a plan to develop that capability over a period of years. The 
president would approve such a matrix for each fiscal year extending 
five years into the future, and would send it to the Congress with his 
annual budget submission. Although Congress would of course have the 
last word on the budget, experience shows that it makes only marginal 
adjustments where there is a strong and clear presidential program on a 
subject of great national importance.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            KEY INGREDIENTS OF THE HOMELAND SECURITY PROGRAM
    The homeland security program will have many key components. Below 
are a few illustrative examples.
Red team, blue team
    Most Americans were probably not shocked to learn on September 12 
that the U.S. government did not have advance information about the 
dozen or so individuals residing in the country who plotted and took 
part in the airline suicide attacks of September 11. They probably were 
deeply disturbed to learn, however, that the government was as heedless 
of the tactic used as it was of the perpetrators. The airline security 
system inspected for guns and bombs, not knives; aircrews were trained 
to deal with hijackers who sought hostages or conveyance to Cuba, not 
kamikaze attack. In retrospect, a huge gap existed in the U.S. air 
safety system. Terrorists detected it before the security system did--
and exploited it.
    To avoid tactical surprise of this kind, the homeland security 
effort needs to adopt a standard mechanism of military organizations: 
competing red and blue teams. The red team tries to devise attack 
tactics, and the blue team tries to design countermeasures. When the 
United States developed the first stealth aircraft, for example, the 
air force created a red team to try to detect and shoot them down. When 
the red team identified a weakness in the stealth design, the blue team 
was charged to fix it, systematically balancing risk of detection 
against the cost and inconvenience of countermeasures.
    A comparable red/blue team mechanism should be the central feature 
of the program for homeland security. To work, the mechanism must be 
systematic and institutionalized, not ad hoc. It must be independent of 
the interests--airlines, for example--that stand to be inconvenienced 
by its findings. It must have the money to conduct experiments, tests, 
and inspections, not just paper studies. It must be knowledgeable about 
the technologies of terrorism and protection. Above all, it must be 
inventive. These criteria all argue for a new institutional founding 
outside of, but close to, government. Models include the National 
Academies of Sciences, the RAND Corporation, the Mitre and Mitretek 
Systems Corporations, the Institute for Defense Analyses, and other 
nonprofit research organizations established during the Cold War.
Science and technology
    American society has many weaknesses in the battle against 
catastrophic terrorism. It is large and open. Its infrastructures are 
complex and interconnected. It values free movement, free speech, and 
privacy. Its commanding international position is a lightning rod for 
many international grievances. The United States must therefore draw on 
its key strengths in ensuring homeland security, among which 
inventiveness, deriving from its huge science and technology base, is 
probably most important. The U.S. military has long sought to use 
superior technology to offset opponents' favorable geography, superior 
numbers, and willingness to suffer casualties.\16\ The homeland 
security effort requires a program of contract research and technology 
development that should be conducted outside of government, in 
universities and private companies. The contracting methods should 
permit small and entrepreneurial commercial companies that are the 
drivers of new technology, and not just large government contractors, 
to participate in the effort. Biotechnology companies, which unlike the 
aerospace and information technology industries have never had strong 
ties to national security, should be induced to participate.\17\ 
Finally, ``centers of excellence'' in counterterrorism should be 
established. These centers should set out to develop the same depth of 
expertise represented by the Los Alamos, Livermore, and Sandia National 
Laboratories in the field of nuclear weapons design during the Cold 
War.
---------------------------------------------------------------------------
    \16\ William J. Perry, ``Desert Storm and Deterrence,'' Foreign 
Affairs, Vol. 70, No 4. (Fall 1991), pp. 64-82; and Ashton B. Carter 
with Marcel Lettre and Shane Smith, ``Keeping the Technological Edge,'' 
in Carter and White, Keeping the Edge, pp. 129-163.
    \17\ Joshua Lederberg, ed., Biological Weapons: Limiting the Threat 
(Cambridge, Mass.: MIT Press, 1999), chap. 1.
---------------------------------------------------------------------------
Transnational intelligence
    A number of studies have called attention to the problem of 
combining information derived from foreign intelligence collection with 
information derived from domestic law enforcement.\18\ The rules 
governing collection in the two categories differ for the important 
reason that U.S. persons enjoy protections from surveillance that do 
not apply to the overseas activities of the intelligence community. 
There is no reason, however, why information of both types collected by 
the U.S. government in accordance with the respective rules for each 
cannot be combined and correlated. The barriers to doing so are largely 
bureaucratic. These barriers need to be surmounted in an era when 
individuals move easily across borders, and when groups fomenting 
terrorism are likely to be transnational in their membership.\19\
---------------------------------------------------------------------------
    \18\ Gilmore Commission, First and Second Annual Reports to the 
President and the Congress; Carter, Deutch, and Zelikow, ``Catastrophic 
Terrorism''; Hart-Rudman Commission, Road Map for National Security; 
and Heymann, Terrorism and America.
    \19\ A specific proposal for combining CIA and FBI intelligence on 
transnational terrorism is contained in ``A False Alarm (This Time),'' 
pp. 143-174; and Carter, Deutch, and Zelikow, ``Catastrophic 
Terrorism.''
---------------------------------------------------------------------------
Intelligence of means
    Surveillance of the means that terrorists employ is potentially 
more important than surveillance of persons, and raises far fewer civil 
liberties issues. Placing all Middle Eastern male noncitizens resident 
in the United States under surveillance, for example, is both 
objectionable and impractical. But inquiring after all those persons, 
of whatever nationality, who take flying lessons but are not interested 
in learning to take off or land, who rent crop dusters, or who seek 
information on the antibiotic resistance of anthrax strains or the 
layout of a nuclear power plant is feasible and might be extremely 
useful.
    Likewise, it is undesirable to restrict access by citizens to the 
Capitol building and congressional office buildings, but there is no 
fundamental technical barrier to seeding these buildings with sensors 
that would promptly, and with a low rate of false alarms, detect the 
presence of anthrax on surfaces and in ventilation systems. Nuclear 
weapons are much harder to detect, but the streets in the vicinity of 
the White House could be laced with sensitive detectors that would 
stand a good chance of finding a nuclear weapon or radiological weapon. 
Although these detectors would individually have a high rate of false 
alarms, when networked so that their outputs are correlated in space 
and time, they could comprise an effective warning system. Such a 
system is preferable to registering truck drivers or other methods of 
surveilling persons in the White House vicinity. control of weapons and 
materials
    Ten years into the Nunn-Lugar program to safeguard nuclear, 
chemical, and biological weapons and materials in the former Soviet 
Union, a job remains to be completed.\20\ In addition to continuing to 
support and greatly expand this program, the effort must be extended to 
Pakistan, where an arsenal of substantial size might fall prey to 
growing extremism.
---------------------------------------------------------------------------
    \20\ See Matthew Bunn, The Next Wave: Urgently Needed New Steps to 
Control Warheads and Fissile Material (Washington, D.C., and Cambridge, 
Mass.: Carnegie Endowment for International Peace and Harvard Project 
on Managing the Atom, April 2000); and Howard Baker and Lloyd Cutler, 
cochairs, A Report Card on the Department of Energy's Nonproliferation 
Programs with Russia (Washington, D.C.: U.S. Department of Energy, 
Secretary of Energy Advisory Board, January 10, 2001).
---------------------------------------------------------------------------
The costs of protection
    Protective measures for homeland security cover a wide spectrum of 
possibilities: vaccines, air defenses around the White House and 
nuclear power plants, electronic firewalls around information networks, 
to name just a few examples. The investments required could be 
enormous. Who will pay? Private investment could be mandated by 
regulation. Government could bear or subsidize the costs. Or 
apportionment of risk and blame could be left to the insurance 
marketplace and tort courtrooms. The answer will vary from case to 
case, but the federal government needs to devise a strategy. Crafting 
the right regulation and legislation, as well as putting the right 
subsidies in the federal budget, will be a key responsibility of the 
homeland security architect. national information assurance institute
    A major ingredient of the protection effort must be safeguarding 
the information infrastructure that resides overwhelmingly in private 
hands. Developing protective tools and techniques, sharing information 
on threats between government and private network operators, and 
establishing the proper balance between regulation and government 
spending to strengthen networks will require a public-private 
partnership. These objectives could be accomplished through a nonprofit 
institution dedicated to this purpose and funded jointly by government 
and participating private network operators. Several such institutions 
have already been proposed.\21\
---------------------------------------------------------------------------
    \21\ ``A False Alarm (This Time),'' pp. 164-165.
---------------------------------------------------------------------------
Iterdiction
    Soon after September 11, President Bush enunciated a principle of 
U.S. policy against catastrophic terrorism that, if pursued to its 
logical conclusion, would establish interdiction as an ongoing effort 
rather than an episodic response to actual attacks. In his first major 
public pronouncement following the September attacks, the president 
said, ``Either you are with us, or you are with the terrorists.'' \22\ 
This would seem to imply the need for a continuing program to preempt 
attack from groups that profess an intention to carry out mass 
terrorism and to apply pressure, including attack, against those who 
actively support or harbor them. Taken literally, such a program of 
interdiction would have profound consequences for U.S. foreign policy, 
for alliances such as NATO, and for international organizations such as 
the United Nations.
---------------------------------------------------------------------------
    \22\ President George W. Bush, Address to a Joint Session of 
Congress and the American People, U.S. Capitol, September 20, 2001.
---------------------------------------------------------------------------
Public health surveillance and response
    Containment of the damage from an incident of mass terrorism 
requires that the public health and agricultural systems establish 
capabilities that go well beyond their accustomed mission of protecting 
against naturally occurring dangers. The powers of the public health 
authorities to mandate disease surveillance and impose such remedies as 
quarantine are broad, a holdover from the nineteenth century. These 
authorities need to be updated to encompass man-made pandemics. The 
private health care system overall, which under the doctrine of managed 
care is designed to have the least possible excess capacity during 
normal times, will need to provide such surge capability as extra 
hospital beds and stockpiled medications carefully chosen and sized for 
possible bioterrorism. state and local first response
    The Nunn-Lugar-Domenici legislation, passed in 1996, began 
providing state and local first responders with the equipment and 
training needed to enhance their vital role in consequence 
management.\23\ Defining the ongoing federal role in supporting state 
and local government is a major task of the counterterrorism program.
---------------------------------------------------------------------------
    \23\ Falkenrath, Newman, and Thayer, America's Achilles' Heel; and 
Richard A. Falkenrath, ``The Problems of Preparedness: Challenges 
Facing the U.S. Domestic Preparedness Program,'' BCSIA Discussion Paper 
2000-28, ESDP Discussion Paper 2000-05 (Cambridge, Mass.: Belfer Center 
for Science and International Affairs and Executive Session on Domestic 
Preparedness, John F. Kennedy School of Government, Harvard University, 
December 2000).
---------------------------------------------------------------------------
Forensics for attribution
    Ever since the U.S. Air Force sampled the first residue from the 
Soviet Union's nuclear weapons testing in the 1950s and deduced their 
detailed design, radiochemical analysis of bomb materials and debris 
has developed into a sophisticated science. A corresponding effort to 
type bioterror agents and their chemical preparations is required to 
attribute attacks to their perpetrators. At this time the FBI, DOD, and 
the Centers for Disease Control and Prevention all have forensic 
programs, but none is adequate for counterterror purposes. The 
counterterror program architect will need to decide which of these 
programs will be funded to provide the greatly expanded capability the 
nation needs.
Mobilization and sunset
    Until the mid-twentieth century, successful prosecution of war 
depended on the ability to mobilize nations and armies. A similar 
concept is useful in the war on terrorism. In the face of reasonably 
credible and specific information about actual or imminent mass 
terrorism, extraordinary measures might be advisable that are 
undesirable when there are no such warnings. In an emergency, the 
government will assume special authorities, restrict movement and other 
freedoms, and impose economic disruptions as the nation hunkers down. 
It is important to the quality of civil society in the long run that 
this mobilized state be clearly distinguished in statute and procedures 
from ``normal'' times when catastrophic terrorism is an ever-present, 
but not specifically anticipated, contingency. Experience in the United 
Kingdom during its century long struggle against Irish terrorism 
suggests that even in liberal democracies, powers granted to the 
government in the name of imminent terrorism are seldom rescinded when 
the threat recedes.\24\ It is therefore important to write into any 
statute or regulation conferring extraordinary powers on the government 
a sunset clause describing the time and method of demobilization, 
placing the burden for extending the mobilization squarely on the 
government's ability to produce credible and specific information of 
imminent threat.
---------------------------------------------------------------------------
    \24\Laura K. Donohue, ``Civil Liberties, Terrorism, and Liberal 
Democracy: Lessons from the United Kingdom,'' BCSIA Discussion Paper 
2000-05, ESDP Discussion Paper 2000-01 (Cambridge, Mass.: Belfer Center 
for Science and International Affairs and Executive Session on Domestic 
Preparedness, John F. Kennedy School of government, Harvard University, 
August 2000).
---------------------------------------------------------------------------

                               CONCLUSION
    Merely coordinating the existing capabilities of the United States 
to counter catastrophic terrorism is not adequate to protect the nation 
or the international order from this major new challenge, because the 
existing capabilities fall far short of what is needed. Nor is it 
practical to imagine having someone in the federal government who is 
truly in charge of a mission that inherently cuts across all agencies 
of the federal government, state and local government, and the private 
sector. What is required instead is a multiyear, multiagency program of 
invention and investment devised in the White House, embedded in the 
president's budget submissions and defended by him to Congress, and 
supported by appropriate law and regulation. This program should cover 
all phases in the war against catastrophic terrorism--detection, 
prevention, protection, interdiction, containment, attribution, and 
analysis and invention. If President Bush's director of homeland 
security assumes the role of architect of such an effort, he will 
provide future presidents with the tools they will need to cope with 
this enduring problem.
              Biographical Sketch of Hon. Ashton B. Carter
    Ash Carter is Ford Foundation Professor of Science and 
International Affairs at Harvard University's John F. Kennedy School of 
Government and Co-Director, with William J. Perry, of the Harvard-
Stanford Preventive Defense Project.
    From 1993-1996 Carter served as Assistant Secretary of Defense for 
International Security Policy, where he was responsible for national 
security policy concerning the states of the former Soviet Union 
(including their nuclear weapons and other weapons of mass 
destruction), arms control, countering proliferation worldwide, and 
oversight of the U.S. nuclear arsenal and missile defense programs; he 
also chaired NATO's High Level Group. He was twice awarded the 
Department of Defense Distinguished Service medal, the highest award 
given by the Pentagon. Carter continues to serve DoD as an adviser to 
the Secretary of Defense and as a member of both DoD's Defense Policy 
Board and Defense Science Board, and DOD's Threat Reduction Advisory 
Committee. From 1998-2000, he served in an official capacity as Senior 
Advisor to the North Korea Policy Review, chaired by William J. Perry.
    Before his government service, Carter was director of the Center 
for Science and International Affairs in the Kennedy School of 
Government at Harvard University and chairman of the editorial board of 
International Security. Carter received bachelor's degrees in physics 
and in medieval history from Yale University and a doctorate in 
theoretical physics from Oxford University, where he was a Rhodes 
Scholar.
    In addition to authoring numerous scientific publications and 
government studies, Carter is the author and editor of a number of 
books, including Preventive Defense: A New Security Strategy for 
America (with William J. Perry). Carter's current research focuses on 
the Preventive Defense Project, which designs and promotes security 
policies aimed at preventing the emergence of major new threats to the 
United States.
    Carter is a Senior Partner of Global Technology Partners, LLC, a 
member of the Advisory Board of MIT Lincoln Laboratories, the Draper 
Laboratory Corporation, and the Board of Directors of Mitretek Systems, 
Inc. He is a consultant to Goldman Sachs and the MITRE Corporation on 
international affairs and technology matters, a member of the Council 
on Foreign Relations, the Aspen Strategy Group, and the National 
Committee on U.S.-China Relations, and a fellow of the American Academy 
of Arts and Sciences.

    Chairman Byrd. Thank you, Dr. Carter. Dr. Gale.
STATEMENT OF STEPHEN GALE, ASSOCIATE PROFESSOR, 
            POLITICAL SCIENCE DEPARTMENT, UNIVERSITY OF 
            PENNSYLVANIA
    Dr. Gale. Mr. Chairman, Senator Stevens, members of the 
committee, I really thank you for the opportunity to be here 
today. A lot of what I have to say actually is an amplification 
on some of the remarks made by Senator Byrd this morning, and I 
was very impressed. I've been asked to present my views on the 
status of homeland security since the events of September 11 
and comment on the ways I believe we need to change that will 
effectively lead to types of threats that should be expected in 
the future.
    As you know, many of the steps taken over the last several 
months to enhance homeland security have been quite public, for 
example, the creation of the Office of Homeland Security, and 
the changes in airport screening. Others have been less 
visible: modifications in the policies and operations of State 
and local governments, Federal agencies, private sector firms.
    To the extent that the military actions in Afghanistan and 
various diplomatic initiatives throughout the world have been 
directed at minimizing the probability of future acts of 
terrorism in the United States, I suppose that those, too, can 
be included under the rubric of homeland defense. As 
potentially valuable as these steps may appear, it is my 
opinion that they not only fall short of meeting their specific 
immediate objectives, but also based on critical 
misconceptions, about the kinds and sources of threats that the 
United States faces from terrorist groups in the future.
    In many ways, our current situation I see analogous to that 
of a man whose only tool is a hammer, and therefore treats 
everything as if it's a nail. We have misdirected many of our 
efforts simply because we have not come to terms with the 
objectives and methods of the attackers, and have assumed that 
the strategies for prevention and mitigation that have served 
us in the past are going to apply equally well to threats of 
the type that we now face. Unless those misconceptions are 
corrected and our policies revised, I believe that they will 
ultimately result in a continued misallocation of resources 
devoted to homeland security and will continue to leave us 
highly vulnerable to acts of terrorism.
    Having spent the past 25 years involved in research, 
teaching and consulting about terrorism and security, the 
sources of those misconceptions, at least to me, are clear as a 
proverbial sore thumb. What's not as obvious are the steps that 
we're going to need in order to correct the situation.
    According to the Executive Order which established the 
Office of Homeland Security, ``The Office shall work with the 
executive departments and agencies, State and local governments 
and private entities to ensure the adequacy of the national 
strategy for detecting, preparing for, preventing, protecting 
against, responding to and recovering from terrorist threats or 
attacks within the United States.''
    It seems to me that Congress has also got to play a role in 
providing for the security of the United States by insuring 
that our Nation's resources are effectively and efficiently 
invested in homeland security. And what I hope is that my 
remarks here can assist you in helping to refocus our efforts, 
and that your deliberation process and decisions will be guided 
by the very real possibility that these attacks can occur at 
any time.
    Whatever else we may think of the actions on September 11, 
there is no doubt that they should be viewed as a clear 
indication of the type and scale of the terrorist attacks that 
I believe we will experience in the future. al Qaeda has not 
only demonstrated the will to attack the U.S. homeland 
directly, but with massive, well organized attacks designed to 
directly support its goals. It's not a media event; they are 
trying to reach their objectives directly.
    What should also be understood is that the attacks on 
September 11 required relatively modest efforts and resources, 
at minimal cost--certainly no more than half a million 
dollars--and with a very simple tactical plan. The United 
States suffered and continues to suffer major personal, 
financial, material and psychological damage; the financial 
impact alone is capitalized by some in the trillion-dollar 
range.
    Notwithstanding the level of damage and disruption caused 
by the events of September 11, I believe that we will not be as 
quote, ``fortunate,'' unquote, in the future. Unlike many other 
terrorist organizations, with its extensive global network of 
operational and support cells, al Qaeda is not interested 
simply in presenting its case to the media or using the fear of 
terrorism as a source of leverage in negotiations to acquire, 
say, land or the return of prisoners. Let me be clear: the 
long-run goal of al Qaeda is the creation of an independent, 
pan-Islamic society based on the commitment to Islamic faith 
and Islamic law. Osama bin Laden has clearly described this 
society as the reinstitution of a caliphate.
    But regardless of what its institutional structure is, al 
Qaeda's goals must be understood as the critical driving force 
in its planning for future acts of terrorism. al Qaeda's 
leadership believes that the key element of their plan for a 
pan-Islamic society is to ensure that the West, and the United 
States in particular, is defeated and unable to threaten any 
Muslim.
    By creating a situation wherein the United States and its 
allies are in a state of mass disruption and chaos, not 
necessarily death, chaos and destruction, and focused on 
domestic control rather than on our relationships throughout 
the world, al Qaeda believes that it will be able to proceed 
with the next phases of its strategy, which is the polarization 
of Islam to ensure that the new society is led only by the 
faithful and local revolutions to eliminate those nation States 
which they see as having been imposed on Islam by the West. 
This is this comment about the past 80 years, referring I 
suppose to the League of Nations.
    It's important to recall here that the U.S. Department of 
Defense's perspective on terrorism is framed in terms of 
asymmetrical warfare, the attempt to ``circumvent or undermine 
U.S. strengths while employing its weaknesses, exploiting its 
weaknesses, using methods that differ from the usual mode of 
U.S. operations.''
    Whatever we may believe about its morality and legitimacy, 
however, asymmetric warfare is simply warfare that employs 
nontraditional operations and strategies. And just as the U.S. 
position during the cold war was based on the strategy of 
mutually assured destruction, what we called MAD, my colleagues 
and I, perhaps in a moment of macabre humor, see al Qaeda's 
strategy in terms of MUD, Multilateral Unconstrained Disruption 
on a permanent basis.
    Based on Osama bin Laden's statements, I fully expect that 
the next round of attacks from al Qaeda will almost certainly 
be directed at disrupting, and possibly disabling the U.S. 
economy. And as far-fetched as this may sound on the surface, I 
believe that this threat is not only real, but at least under 
the current U.S. policies regarding homeland security, 
disturbingly feasible, even in the near term.
    Now, my colleagues and I have explored a number of 
scenarios, of which I'm just going to make a few to make my 
point. I'm not a movie director or movie writer, these are 
serious considerations, I'm going to only omit a few of the 
details because in the past people have accused me of giving 
too much information out.
    The potential of a physical or cyber attack directed at the 
computing facility responsible for coordinating and balancing 
the loads of the electrical grid in the eastern United States 
can be readily accomplished. It's one building guarded by two 
contract guards. And it would result in the total loss of 
electrical service throughout the entire grid, save for Texas 
because it's on a separate system, for the foreseeable future. 
And should anyone doubt the reality of this threat, note that 
the elements of this attack were outlined in materials found in 
Afghanistan and published on the front page of the New York 
Times about 1 month ago.
    As my colleague to my right has said, special nuclear 
materials are also important, but not necessarily nuclear 
weapons. They can be used in attacks ranging from the 
detonation of what are popularly referred to as ``dirty'' 
nuclear bombs to the contamination of water supplies of one or 
more major metropolitan areas and potentially the disruption of 
health care systems, transportation, food distribution and 
other critical national functions.
    Estimates of the amounts of nuclear materials available 
vary, but based on materials found in Afghanistan and the al 
Qaeda training manual, it's clear that al Qaeda has given 
serious consideration to such attacks, and we believe they have 
access to those materials. But note that even without the use 
of special nuclear materials, by using conventional nonnuclear 
explosives, many of the same objectives can be achieved, 
particularly if a large number of facilities such as regional 
shopping centers, major hospitals, or entertainment centers 
were simultaneously targeted.
    The idea is disruption. Not necessarily that--the use of 
the largest number of surface to air missiles which are readily 
available throughout the world, in a strategy of ongoing hits 
at take off, and/or landing from about 1 mile away, can easily 
be used to further disrupt and potentially end passenger and 
other commercial air traffic in the United States. Even a 
limited number of strikes coupled with the threat of continued 
actions could easily lead to the discontinuation of both 
passenger and package flights, and a major disruption of the 
U.S. economy.
    Attacks based on dispersing environmentally dangerous 
materials in major cities can easily cause massive disruption 
and financial damage, and in many cases without any loss of 
life. And with it, massive destruction of our way of life as 
Americans and a significant loss of Government credibility.
    As is clear from the enormous Federal, State and local 
investments in roads, ports, airports, public transportation 
systems, the U.S. economy depends on transportation. Raw 
materials and machinery, intermediate goods, services, 
retailing are all fundamentally dependent on the continued 
operation of the entire system, not just individual legs of a 
journey. And even before the documentation was found in 
Afghanistan, it was clear that terrorists fully appreciate that 
attacks on special facilities, critical interchanges, choke 
points such as bridges, tunnels, trestles, interchanges, port 
facilities, would produce catastrophic impacts on the U.S. 
economy.
    Many of these attacks would require even more modest 
resources than the events of September 11 to produce an even 
greater disruption and damage. In a number of cases the result 
would be a total collapse of one and more sectors of the 
economy. For example, roughly 80 percent of the manufacturing 
and distribution of health care products depends on the 
operation of a highly integrated transportation system on the 
east coast.
    For virtually all the Fortune 2000, maintenance of the 
efficiency of today's global supply chain depends on the 
continued operation of what are called enterprise systems, 
these are the software systems created by SAP and Oracle. The 
dark side of technological improvements and economic 
efficiency, however, is increased vulnerability.
    Governor Engler pointed this out when he spoke of problems 
of just in time inventory. Attacks aimed at enterprise systems 
could result in not only in significant long-term disruptions 
to our economy, but to severe disruption of military logistics 
and operations, since they are on the same systems.
    The list is obviously abbreviated. I could go on. And it 
also omits a lot of details, but what I want you to recognize 
is that none of these potential threats depends on the 
technologies or weapons that are found in science fiction 
novels. Nor do they depend on using classified information, 
special techniques or financial resources that are not 
generally available to terrorist groups such as al Qaeda. 
Instead, as with the events of September 11, I believe that 
future terrorist attacks will be based on the simple 
application of the principle of leverage, that is to say, 
terrorists will use very modest actions which are simple in 
planning, resources, technology, and execution, to achieve 
major highly disruptive consequences.
    Equally important, either directly or through the loss of 
credibility in Government, any of these actions could result in 
precisely the kind of broad disruption and chaos al Qaeda 
regards as critical in meeting its goals. In fact, given what 
we now know of the training methods and operational plans, all 
that al Qaeda needs at this point to implement any or all of 
these actions is organization and coordination. There should be 
little doubt that they have the will and the resources.
    Given the very real threat of acts of terrorism in the 
future, my colleagues and I have approached the problem of 
enhancing homeland security in terms of the following 
observations. First, the future actions of terrorist 
organizations such as al Qaeda will be the continued use of 
attacks that meet their goals. This is not a media event. 
They're going to be constrained only by their available 
resources and their perception of the vulnerabilities in the 
United States and the West.
    Planning for homeland security must in turn recognize that 
our investments in security decisions needs to be based on the 
analysis and understanding of the objectives and resources of 
organizations such as al Qaeda and the variety of specific 
actions that they're going to use to achieve their long-run 
goals, not just what we imagine that they should be doing 
because we know how to protect it.
    Understanding terrorist actions through examining the 
relationships among an organization's goals, strategies, and 
tactics is the hallmark of an albeit nontraditional military, 
not criminal, analysis. And as with the use of military actions 
to promote international security, effective homeland security 
depends on developing, coordinating, and implementing security 
measures that meet realistic expected threats, rather than 
assuming that the threats will be determined by the security 
that we choose to employ.
    Remember, just because we know how to use a hammer doesn't 
mean that everything is a nail. If we had used marshals and 
snipers to protect the World Trade Center and Pentagon because 
of, say, a threat on September 8, it would not have done any 
good. The success of policies and programs aimed at homeland 
security for the United States depends directly on our ability 
to make decisions based on the effective and efficient use of 
national, State and local resources and the effective 
coordination of those decisions as part of a consistent 
national effort.
    As explained by the President in his remarks on October 8, 
2001 at Governor Ridge's swearing in ceremony, ``In the war on 
terror, knowledge is power. We will strengthen and help protect 
our transportation systems, our food and water systems and our 
critical infrastructure by making them less vulnerable to 
attack.''
    Fortunately, the United States has actually taken steps in 
this effort. In its reports to congressional requesters on 
combating terrorism, the GAO recommends the use of a set of 
procedures for threat and risk assessments that assist in 
prioritizing and targeting program investments for homeland 
security. Based on quantitative and qualitative threat risk 
assessments, the procedures known as VAM views the application 
of specific threat postures, and estimates the net present 
value, the return on investment, resulting from investments in 
security. Think of it as a kind of security impact statement.
    However, in order to make direct use of risk and threat 
assessments and estimate value added, there must also be a 
commitment to structuring the Office of Homeland Security in a 
manner capable of supporting comprehensive reviews of findings, 
developing programs and plans, and effectively coordinating and 
implementing the decisions through public and private sectors 
across all branches of government.
    And as with other wartime efforts and at least in this 
regard, the war on terrorism wasn't misnamed, clear 
institutional responsibility, authority and operational control 
is critical to success. Governor Ridge actually said as much on 
November 27, 2001. He told a gathering of aerospace executives, 
``There's no question that American ingenuity, know-how and 
technology will be a key to winning this new war on terrorism. 
Our national strategy for homeland defense will identify our 
objectives in precise and measurable terms. The first step in 
developing a strategy is to identify your goals.''
    This is as true of homeland security as it is in military 
planning and military strategy. In short, I believe that at 
least until all the elements of al Qaeda and all the similar 
groups have been eliminated, and the United States is able to 
support expanded homeland security through extensive 
intelligence and the implementation of coordinated security 
measures, the Nation must commit to ensuring homeland security 
for a policy of effective and efficient investments, and those 
security measures that are likely to mitigate the effects of 
threats from al Qaeda.
    Given the likelihood of continuing threats from terrorist 
organizations, I believe that the United States must take steps 
to ensure that substantial resources are invested in security 
and the Nation has an authoritative organizational focus for 
homeland security efforts. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Dr. Stephen Gale
    Mr. Chairman, Senator Stevens, members of the Committee on 
Appropriations, thank you for this opportunity to testify today. It is 
a pleasure to be here in the United States Senate.
    I have been asked to present my views on the status of homeland 
security since the events of September 11th and to comment on the ways 
in which I believe it will need to change in order to effectively meet 
the types of threats that should be expected in the future.
    As you know, many of the steps taken over the past several months 
to enhance homeland security have been quite public--for example, the 
creation of the Office of Homeland Security and the changes in airport 
screening. Others have been less visible modifications in the policies 
and operations of state and local governments, federal agencies, and 
private sector firms. To the extent that the military actions in 
Afghanistan and the various diplomatic initiatives throughout the world 
have been directed at minimizing the probability of future acts of 
terrorism in the United States, I suppose that these, too, can be 
included under the rubric of homeland defense.
    As potentially valuable as these steps may appear, it is my opinion 
that they not only fall short of meeting their specific, immediate 
objectives, but also are based on critical misconceptions about the 
kinds and sources of threats that the United States faces from 
terrorist groups in the future. In many ways, the situation is 
analogous to the case of the man with a hammer who treats everything as 
a nail: we have misdirected many of our efforts simply because we have 
not come to terms with the objectives and methods of the attackers and 
have assumed that the strategies for prevention and mitigation that 
have served us in the past will apply to the types of threats we now 
face. Unless these misconceptions are corrected and our policies 
revised, I believe that they will ultimately result in a continued 
misallocation of the resources devoted to homeland security and will 
leave us highly vulnerable to acts of terrorism.
    As one who has spent the past twenty-five years involved in 
research, teaching, and consulting about terrorism and security, the 
sources of these misconceptions are as clear to me as the proverbial 
``sore thumb.'' What is not as obvious are the steps that will be 
needed to correct the situation.
    According to the Executive Order which established the Office of 
Homeland Security, ``The Office shall work with executive departments 
and agencies, State and local governments, and private entities to 
ensure the adequacy of the national strategy for detecting, preparing 
for, preventing, protecting against, responding to, and recovering from 
terrorist threats or attacks within the United States.'' (emphasis 
added)
    It seems clear to me that Congress should also have a role in 
providing for the security of the United States by ensuring that our 
nation's resources are effectively and efficiently invested in homeland 
security. I hope that my remarks can assist you in helping to refocus 
our efforts--and that your deliberation process and decisions will be 
guided by the very real possibility that attacks could occur at any 
time.
    Whatever else we may think of the actions on September 11th, there 
is no doubt that they should be viewed as a clear indication of the 
type and scale of the terrorist attacks that I believe we will 
experience in the future. Al Qaeda has not only demonstrated the will 
to attack the U.S. homeland directly, but with massive, well organized 
attacks designed to directly support its goals. What should also be 
understood is that the attacks on September 11th were relatively modest 
efforts. At minimal cost and with a very simple tactical plan, the 
United States suffered--and continues to suffer--major personal, 
financial, material, and psychological damage.
    Notwithstanding the level of damage and disruption caused by the 
events of September 11th, I believe that we will not be as 
``fortunate'' in the future. With its extensive global network of 
operational and support cells, Al Qaeda is not interested simply in 
presenting its case in the media or using the fear of terrorism as a 
source of leverage in negotiations. The long-run goal of Al Qaeda is 
the creation of an independent, pan-Islamic society based on a 
commitment to Islamic faith and Islamic law (the Shari'ah). Usama bin 
Laden has described this new society as a reinstitution of a 
``caliphate'' but, regardless of its specific institutional structure, 
Al Qaeda's goals must be understood as the critical driving force in 
its planning for future acts of terrorism.
    Al Qaeda's leadership believes that the key element of their plan 
for a pan-Islamic society is to ensure that the West--and the United 
States in particular--is ``defeated and unable to threaten any 
Muslim.'' With a sufficiently weakened United States, with a United 
States and its allies in a state of mass disruption and chaos--focused 
internally rather than on its relationships throughout the world--Al 
Qaeda believes that it will then be able to proceed with the next 
phases of its strategy: polarization of Islam to ensure that the new 
society is led by the faithful and local revolutions to eliminate the 
nation states imposed on Islam by the West.
    It is important to recall here that the U.S. Department of 
Defense's perspective on terrorism is framed in terms of ``asymmetrical 
warfare''--the attempt ``to circumvent or undermine U.S. strengths 
while exploiting its weaknesses, using methods that differ from the 
usual mode of U.S. operations'' (DOD Annual Report, 1999). Whatever we 
may believe about its morality and legitimacy, however, asymmetric 
warfare is simply warfare that employs non-traditional operations and 
strategies. And just as the U.S. position during the cold war was based 
on a strategy of Mutually Assured Destruction (MAD), my colleagues and 
I see Al Qaeda's strategy in terms of ``MUD,'' Multilateral 
Unconstrained Disruption.
    Based on bin Laden's statements, I fully expect that the next round 
of attacks from Al Qaeda will almost certainly be directed at 
disrupting--and possibly disabling--the U.S. economy. As far-fetched as 
this may sound on the surface, I believe that this threat is not only 
real but, at least under current U.S. policies concerning homeland 
security, disturbingly feasible--even in the near-term. My colleagues 
and I have explored many scenarios, of which I will use just a few to 
make my point. (Please note that I have omitted the details in order to 
limit the identification of specific areas of vulnerability.)
  --A physical or cyber-attack directed at the computing facility 
        responsible for coordinating and balancing the loads of the 
        electrical grid in the Eastern United States can be readily 
        accomplished and result in the total loss of electrical service 
        throughout the entire grid (save for Texas) for the foreseeable 
        future. (Should anyone doubt the reality of this threat, note 
        that elements of this attack were outlined in materials found 
        in Afghanistan and published in the New York Times about a 
        month ago.)
  --Special nuclear materials (not nuclear weapons) can be used in 
        attacks ranging from the detonation of what are popularly 
        referred to as ``dirty nuclear bombs,'' to the contamination of 
        the water supplies of one or more major metropolitan areas, to 
        the disruption of health care systems, transportation, food 
        distribution, and other critical national functions. Estimates 
        of the amounts of available material varies but, based on 
        materials found in Afghanistan and the ``Al Qaeda Training 
        Manual'' it is clear that Al Qaeda has given serious 
        consideration to such attacks and has access to such materials. 
        Note that even with the use of conventional explosives, many of 
        the same objectives could be achieved--particularly if a large 
        number of facilities such as regional shopping centers, major 
        hospitals, and entertainment centers were simultaneously 
        targeted.
  --The use of a modest number of surface-to-air missiles in a strategy 
        of on-going ``hits at take-off and/or landing'' can easily be 
        used to further disrupt--and potentially end--passenger and 
        other commercial air traffic in the United States. Even a 
        limited number of strikes coupled with the threat of continued 
        actions, for example, could easily lead to the discontinuation 
        of both passenger and package flights and a major disruption of 
        the U.S. economy.
  --Attacks based on dispersing environmentally dangerous materials in 
        major cities can easily cause massive disruption and financial 
        damage--in many cases, without any loss of life or even serious 
        health threat--and, with it, massive disruption of our way of 
        life and a significant loss of government credibility.
  --As is clear from the enormous federal, state, and local investments 
        in roads, ports, airports, and public transportation systems, 
        the U.S. economy depends on transportation. Raw materials, 
        machinery, intermediate goods, services, and retailing are all 
        fundamentally dependent on the continued operation of the 
        entire system. As was clear even before the documentation was 
        found in Afghanistan, terrorists fully appreciate that attacks 
        on specific facilities, critical interchanges, and choke points 
        (e.g., bridges, tunnels, trestles, interchanges, port 
        facilities) would produce catastrophic impacts on the U.S. 
        economy. Many of these attacks would require even more modest 
        resources than the events of September 11th to produce even 
        greater disruption and damage. In a number of cases, the result 
        would be a total collapse of one or more sectors of the 
        economy. (For example, roughly 80 percent of the manufacturing 
        and distribution of health care products depends on the 
        continued operation of the highly integrated transportation 
        system on the East Coast.)
  --For virtually all of the Fortune 2000, maintenance of the 
        efficiency of today's global supply chain depends on the 
        continued operation of what are called Enterprise Systems 
        (e.g., SAP, Oracle). The ``dark side'' of improvements in 
        economic efficiency, however, is increased vulnerability. 
        Attacks aimed at Enterprise Systems can result not only in 
        significant long-term distortions to our economy, but the 
        severe disruption of military logistics and operations. (To the 
        extent that we can assume that Al Qaeda is familiar with the 
        critical role of such systems in business processes, attacks on 
        Enterprise Systems probably constitute a true threat to the 
        stability of the United States and Western economies.)
    This list is obviously abbreviated--and omits many details. What I 
would like you to recognize, however, is that none of these potential 
threats depends on technologies or weapons that are found only in 
science fiction novels. Nor do they depend on using classified 
information, special techniques, or financial resources that are not 
generally available to terrorist groups such as Al Qaeda. As with the 
events of September 11th, I believe that future terrorist attacks will 
be based on the application of the ``principle of leverage:'' the use 
of modest actions--simple in planning, resources, and execution--to 
realize significant, highly disruptive consequences.
    Equally important, either directly or through the loss of 
credibility in government, any of these actions would result in 
precisely the kind of broad disruption and chaos Al Qaeda regards as 
critical in meeting its goals. In fact, given what we now know of its 
training methods and operational plans, all that Al Qaeda needs at this 
point to implement any or all of these actions is organization and 
coordination. There should be little doubt that they have the will and 
the resources.
    Given the very real threat of acts of terrorism directed at the 
United States in the future, my colleagues and I have approached the 
problem of enhancing homeland security in terms of the following 
observations:
  --The future actions of terrorist organizations such as Al Qaeda will 
        be continue to be directed toward the use of attacks that meet 
        their goals, their resources, and their perceptions of the 
        vulnerabilities of the United States and our allies. Planning 
        for homeland security must, in turn, recognize that our 
        investments in security decisions need to be based on an 
        analysis of the objectives and resources of Al Qaeda and other 
        groups and the ways in which specific actions will assist them 
        in achieving their long-run goals.
  --Understanding terrorist actions through examining the relationships 
        among a group's goals, strategy, and tactics is the hallmark of 
        (albeit non-traditional) military, not criminal, analysis. And, 
        as with the use of military actions to promote international 
        security, effective homeland security depends on developing, 
        coordinating, and implementing security measures that meet 
        expected threats rather than assuming that the threats will be 
        determined by the security we choose to employ.
  --The success of policies and programs aimed at homeland security for 
        the United States depends directly on our ability to make 
        decisions based on the effective and efficient use of national, 
        state, and local resources--and the coordination of these 
        decisions as part of a consistent national effort.
    As explained by the President in his remarks on October 8, 2001 at 
Governor Ridge's swearing-in ceremony, ``In the war on terror, 
knowledge is power. [We will] Strengthen and help protect our 
transportation systems, our food and water systems and our critical 
infrastructure by making them less vulnerable to attack.''
    Fortunately, the United States has already taken steps to support 
this effort. In its Report to Congressional Requesters on ``Combating 
Terrorism'' (GAO/NSIAD-98-74), the GAO recommends the use of a set of 
procedures for threat and risk assessments that assists in prioritizing 
and targeting program investments for homeland security. (The process 
was developed through a joint effort initiated over five years ago and 
is currently used by at least one major oil company and the Department 
of Energy.) Based on both quantitative and qualitative threat and risk 
assessment procedures, this system (VAM) reviews the application of 
alternative security strategies to specific threat postures and 
estimates the net present value (net benefits) resulting from 
investments in each of the alternative strategies.
    In order to make direct use of risk and threat assessments and 
estimate the value-added of alternative security measures, however, 
there must also be a commitment to structuring the Office of Homeland 
Security in a manner capable of supporting a comprehensive review of 
findings, developing programs and plans, and coordinating the 
implementation of its decisions throughout the public and private 
sectors, and across all agencies and branches of government. As with 
other wartime efforts--and, at least in this regard, the ``war on 
terrorism'' has not been misnamed--clear institutional responsibility 
and operational control is critical to success.
    Governor Ridge has said as much. On November 27, 2001, he told a 
gathering or aerospace executives, ``There is no question that American 
ingenuity, know-how and technology will be a key to winning this new 
war on terrorism. Our national strategy for homeland security will 
identify our objectives in precise and measurable terms. . . . the 
first step in developing a strategy is to identify your goals. This is 
as true in homeland security as it is in military planning and military 
strategy.''
    In short, I believe that, at least until all of the elements of Al 
Qaeda have been eliminated and the United States is able to support 
homeland security through vastly improved intelligence and the 
implementation of coordinated security measures, the nation must commit 
to ensuring homeland security through a policy of effective and 
efficient investments in those security measures that can mitigate the 
likely types of threats from Al Qaeda. Given the likelihood of 
continuing threats from terrorist organizations such as Al Qaeda, I 
believe that the United States must therefore take immediate steps to 
ensure that its substantial resources are wisely invested in security 
and that the nation has a visible, authoritative organizational focus 
for its homeland security efforts.
    Thank you.
                Biographical Sketch of Dr. Stephen Gale
    Dr. Gale is the Director for the Center for Organizational Dynamics 
and a member of the faculties of the Regional Science and Political 
Science Departments at the University of Pennsylvania. In these 
capacities, he has responsibility for developing and directing 
educational and research programs aimed at assessing the impacts of 
changes in organizational structures, business development, financial 
valuation, performance analysis, urban and regional development, and 
locational evaluation.
    During his career, Dr. Gale has been responsible for developing 
graduate level programs related to new business development, 
performance analysis and business process re-engineering, 
transportation and logistics, the effects of information systems in 
reorganization strategies, and the use of financial analysis to 
transform cost centers into profit centers. His research and consulting 
work have concentrated in these areas and have included: (a) studies 
for the National Science Foundation, the National Institutes of Health, 
Sandia National Laboratories, the Office of Naval Research, the Ford 
Foundation, the Departments of Housing and Urban Development, 
Transportation, and Energy, and the Agency for International 
Development; and (b) assignments on behalf of Gerald D. Hines 
Interests, Control Data Corporation, IMS America, Johnson & Johnson, 
Amtrak, Exxon Corporation International, Dupont, and a number of 
Fortune 1000 corporations. The work included business plan development, 
technology transfer, financial valuation, process re-engineering, 
survey research, and logistical analysis.
    Dr. Gale's current research and consulting has focused principally 
on the development of effective and efficient procedures for valuing 
cost centers. His recent work for the Department of Energy and Exxon 
Company International has resulted in the development of software for 
determining the value-added of security to organizations and its 
application to the improvement of security management.
    Dr. Gale is the author of over seventy books and articles as well 
as a variety of reports associated with his consulting assignments. He 
received his B.S., M.A., and Ph.D. degrees from the University of 
Michigan. In addition to his current position, Dr. Gale has also served 
on the faculties of the University of California, Berkeley; 
Northwestern University; and Columbia University.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd. Thank you Dr. Gale. The chair thanks all the 
witnesses for their excellent statements. The committee will 
now proceed with questions. And Senators will be limited to 7 
minutes. I shall begin.
    Dr. Carter, this Nation is facing huge challenges 
domestically and overseas. But our budget for addressing all of 
these challenges including the new relatively undefined issue 
of homeland security is very limited. Given the cost and the 
long-term nature of homeland security efforts, some national 
priorities will not be funded. Others will have to be cut. How 
do you recommend to this committee that we prioritize among all 
of our many and varied funding decisions?
    Dr. Carter. That's a very good question. I can only give 
you a partial answer to that. I do think that in the area of 
homeland security, I can't speak to all the national priorities 
as broadly as you can, Mr. Chairman, but within the homeland 
security plan, that's one of the vital tasks of the architect. 
We can't cover all of these contingencies. We can't be 
everywhere all the time on top of all these things. We have to 
put some order into this house and figure out what kinds of 
scenarios we're going to invest in disproportionately and what 
the best cost exchange ratio is for a given investment.
    That's precisely the kind of thing which isn't going to 
just bubble up by the agencies all by themselves which busy 
people like you who have a much broader profile cannot do. And 
that's what this architect needs to do. Otherwise, it isn't 
going to happen and we will be making investments willy-nilly. 
Not only will they cost more than we can afford, but they won't 
protect us in the long run.
    Chairman Byrd. Thus far, do you see this architect doing 
that prioritizing?
    Dr. Carter. I think it's been a slow start. I'm just making 
inferences from the outside, but I believe that it is becoming 
apparent to Governor Ridge's office that the architect's role 
is in fact where he can leave a legacy and that trying to 
coordinate that which we already have is something you can't do 
from the White House and beside the point, because that which 
we have is not sufficient. Trying to run your own agency is 
okay, and we may need some new agencies here and there, but 
even if we create a new agency or several new agencies, the 
problem of coordination will remain. There will still remain a 
need for an architect, even if we rejigger the agencies better. 
So that role isn't going to go away.
    It is now more than 6 months since the event. I think that 
it would be easier to get a head of steam with this job 
description were it November and not April, but we've got to 
wish him well, because it's the only Government we've got, and 
he will be occupying the role of Director of Homeland Security 
even if he's not doing the function. So I certainly do wish him 
well and I hope he takes the architect's role and not any of 
these other roles as the way he can leave a legacy.
    Chairman Byrd. Dr. Gale, would risk assessments, at the 
Federal level, using intelligence capabilities not available to 
State and local officials, be a logical way to begin to 
prioritize our vulnerabilities?
    Dr. Gale. The way in which this is phrased makes it a 
little difficult to answer, largely because the coordination of 
all the efforts is yet to be done, and we don't really 
understand precisely how an Office of Homeland Security is 
operating.
    At this point, however, what we have is an opportunity to 
use methods that have already been developed, for example by 
the Department of Energy in its security efforts, to try and 
prioritize precisely the efforts of the architect that Mr. 
Carter is speaking about. The difficulty is to coordinate that 
with the kind of intelligence that we believe we can actually 
coordinate from all of the other agencies that are collecting 
information and bringing it together within this very, very 
complex Government.
    I think the most surprising thing to me in the aftermath of 
September 11 is that we've continued to use a lot of the kinds 
of stove-pipe organizational mechanisms that have been so 
successful for us in balancing the efforts and the needs of 
this enormous Nation. At the same time during time of war I 
expect that there will be tremendous amount of change in the 
cross-cutting across those agencies, and at this point the 
question of setting priorities is one that will necessarily 
have to await the kind of coordination that goes into an agency 
like the Office of Homeland Security at the outset.
    Chairman Byrd. Let me ask either of you two gentlemen, is 
any Federal entity as far as you know now doing risk 
assessments?
    Dr. Carter. Sure.
    Dr. Gale. Sure. The Department of Defense does risk 
assessments, but right now as far as I know, the Department of 
Energy has an extensive program. They also have a mechanism for 
determining not just priority, but the return on investment 
from security.
    Chairman Byrd. Do you know if that information is being 
shared with State and local people?
    Dr. Gale. As far as I know, the only agency that has been 
extensively involved in it is the Department of Energy, 
although I must say that in March of 1998 I did make a 
presentation on that method to the director of FAA security, 
and he told me that we could not protect ourselves from 
meteorites.
    Chairman Byrd. My time is limited. I would like to ask a 
question of the Governors. The Department of Justice's Office 
of the Inspector General recently released a report on the 
Office of Justice programs, State and local domestic 
preparedness grant programs. And one of the major conclusions 
of the report is that the funds provided for equipment grants 
are not being disbursed to the States in a timely manner.
    One of the primary reasons for the delay is that States 
have been required to submit a 3-year State plan prior to grant 
funds being released. Although this requirement has been in 
existence since fiscal year 2000, only four States submitted 
their plans prior to September 11, 2001. Since that time, 46 of 
the States have submitted their plans, of which 44 have been 
approved.
    Given that these funds have been available to your States 
for 2 years, what took the States so long to submit the 3-year 
plans? Were there any problems with the Federal rules? Any one 
of you three or all three, if you please.
    Governor Engler. I know that in our case--and I'm not sure 
of the dates, so I don't have the dates, I wasn't aware that 
that was the reason that funds had not been allocated out of 
these programs. I know that we have been receiving allocations. 
I saw the article as well, and I was concerned. I had focused 
on the allocations that had been made of money to local units 
where the equipment wasn't in inventory or the training hadn't 
been done and I looked at that as one of those issues where 
again the lack of coordination was the program.
    I think one of the things that's happened since 9/11 is 
there's been a significant change in bioterrorism. For example, 
I understand that those are different threats. We had not felt 
I think prior to 9/11 that we were short on funds. So I would 
think that we would argue before 9/11 that some of the funds 
being made available were not coordinated very well. In 
response to, to elaborate just on one of the previous 
questions, we have not had any sharing at the State level with 
the Governors of any type of risk assessment from Federal 
officials. There's been no security type briefing that would go 
beyond what we would read in the papers. So we have no special 
knowledge.
    All of us individually I think have said to our State 
police and our adjutant generals what do you think the risks 
are in our State? But there's nothing that's been brought to us 
on the basis of any information gathered internationally or 
nationally.
    Chairman Byrd. Governor Locke and Governor Barnes, let me 
repeat the question. The Department of Justice's Office of the 
Inspector General recently released a report on the Office of 
Justice programs, State and local domestic preparedness and 
grant programs. Given that these funds have been available to 
the States for 2 years, what took the States so long to submit 
the 3-year plans? Were there any problems with the Federal 
rules? Governor Locke?
    Governor Locke. Mr. Chairman, I would have to get back to 
you to find out exactly what the status was with respect to our 
State of Washington. I know that we did receive, many of our 
local law enforcement agencies did in fact receive Department 
of Justice funds for equipment. And whether or not our State or 
the local government entities had fully complied with the 
Federal rules and whether or not we were taking too much time, 
I'd have to find out.
    But I have to say that shortly after September 11 as we 
looked at all of our response plans and as we looked at the 
issue of bioterrorism, I would have to say that the State of 
Washington felt pleased with respect to the response by the 
Justice Department in terms of ensuring and making available 
grant funds for equipment purchases by local law enforcement 
personnel.
    Our concern has been as we looked at some of these 
purchases and the equipment that was made available to local 
law enforcement, is again the lack of coordination in making 
sure that there was in fact a comprehensive strategy among 
local government entities. And that's one thing I'd like to 
just stress if I could, Mr. Chairman.
    With respect to bioterrorism, it's important that there be 
a statewide strategy, because for instance, if there is to be 
some sort of bioterrorism event in the city of Seattle or in 
any other city, the hospitals within that particular community 
will not be able to respond fully. We're going to have to use 
the services and the availability of the medical facilities and 
expertise from entire communities many miles away. So we need 
to make sure that whatever grant monies are available are 
blocked through the State for such a coordinated, comprehensive 
strategy, knowing that there's no one city that can respond in 
any of itself.
    Chairman Byrd. Governor Barnes, would you respond to the 
question, please, and then I'll call on Senator Stevens.
    Governor Barnes. All right, sir. First, I don't think any 
of us ever thought about coming up with a terrorism plan before 
September 11. We had been receiving, just like Governor Locke 
said, equipment funds from the Department of Justice and I 
don't think it was ever marketed to us, you know, when you sent 
out the information, that this should be to come up with some 
statewide terrorism plan. And so the idea that you come up with 
some 3-year terrorism plan before September 11, you know, 
hindsight is 20/20, but it just wouldn't have been on your 
radar screen.
    Chairman Byrd. Well, if you're expecting grants from the 
Federal Government and you're required to do certain things in 
order to qualify for those grants, wouldn't you know something 
about that?
    Governor Barnes. Yes, sir, we would. And we have a whole 
staff that does nothing but tries to see what the individual 
requirements are for each of the grants. But we interpreted the 
grant application to be more on issues, if you really want to 
know the truth, that dealt with those that had international 
borders. And we did not. Now that might have been a 
misapprehension on our behalf, but that's what we looked at 
that part of the grant program as being.
    Chairman Byrd. Senator Stevens.

                   Questioning by Senator Ted Stevens

    Senator Stevens. Thank you, Mr. Chairman. In the last 
Congress, we had a joint hearing here in the Senate, a series 
of hearings. We found that the terrorism subject, and I guess 
that's what we're really talking about, a strategy against 
terrorism, was fragmented--leadership was fragmented among 42 
Federal agencies, 14 congressional committees, hundreds of 
State and local first responder entities. We also found that on 
the Federal front, the Department of Justice, the FBI had the 
lead in prevention and preparedness and crisis management, and 
FEMA, the Federal Emergency Management Agency, I believe had 
the lead in consequence management--that, is disaster relief. 
We didn't have a single national strategy. We now have two 
Presidential decision directives, the Attorney General's 5-year 
plan, two Federal response plans, one by FBI and the other by 
FEMA.
    So really what we're dealing with is how to set this up. I 
hope eventually we'll get around to creating a basic system 
whereby a President nominates somebody, we confirm them by the 
Senate and give a firm direction to coordinate all of these 
plans.
    I have several concerns I would like to ask you gentlemen, 
if I could. First with regard to your abilities as Governors, 
do you think we should have some specific authority in the 
terrorist area to authorize States to enter into compacts on a 
regional basis?
    Governor Barnes. Yes. I generally favor regional basis, 
regional compacts on almost everything, but particularly, for 
example, Georgia and Florida, because of the long coast line 
that exists, would be very helpful for us to be able to do 
that.
    Senator Stevens. Governor Locke?
    Governor Locke. Well, I very much believe that we should 
have the authority to enter into regional compacts and also 
perhaps some international compacts as well, given the 
situation we have.
    Senator Stevens. That was going to be my next question. 
Governor Engler?
    Governor Engler. Agreed, and we already do that in terms of 
the response to the incident. What you're suggesting is how do 
we prevent. Can we do more together, and I agree with that 
strongly.
    Senator Stevens. The strategy for prevention seems to me to 
be more effective on a regional basis than it would be 
national, but I don't know if you would agree. With regard to 
the border, and you mentioned that, Governor Locke, it does 
seem to me that we have some basic problems along the border. 
We have about the same border with Canada as all the rest of 
the whole United States. But when you get down to it, have you 
all had--you're both border States with Canada. Have you had 
talks with Canada? Can you tell us how we're progressing in 
terms of aligning our national strategies with our northern 
neighbor?
    Governor Locke. Actually, the State of Washington and our 
officials including Senator Patty Murray have had numerous 
conversations with Canadian officials. There's use of 
technology that will be available soon to help expedite the 
movement of people and freight, people who have had background 
checks and are already entered into computer systems using 
technology. And so that's proceeding, but we're still waiting. 
We're still waiting for the deployment of trained border agents 
and Customs official to the United States-Canadian border. In 
the meantime, we have the deployment of the National Guard.
    Senator Stevens. Is it only going to be on our side, 
Governor? What about Canada?
    Governor Locke. No, no. Canada is also involved in that and 
they're also involved in the partnership of the deployment of 
that technology, so that its people, whether Canadians or U.S. 
citizens, who routinely go back and forth across the border.
    Senator Stevens. I know you have probably more cross-
boundary employment than anyone in Michigan, Governor.
    Governor Engler. That's true.
    Senator Stevens. How are you working with them?
    Governor Engler. We've talked to the Ontario officials. 
Recently I've had a conversation with Premier Harris on this. 
We have not kept up with the Canadians. We are understaffed 
compared to the Canadian side.
    Senator Stevens. Senator Inouye and I have taken some 
international trips this year to central Asia and not just 
through the Pacific region, along the Asian coast. In Singapore 
we found that because of the alertness of one local policeman, 
a whole ring of people that were designing to use 100 tons of 
explosives and destroy a considerable number of U.S. 
installations in a three-nation basis there was discovered. It 
brought home to us that in the final analysis, only an informed 
and alert public really can make this system work, and we 
should be more concentrating on prevention than upon, God 
forbid we also need the help, but concentration ought to be on 
prevention rather than the needs of the first responders.
    Now I want to ask all of you if you have any ideas of what, 
how we might work in the system the ability of all of the 
entities, local, county, State and Federal, to analyze the 
reports of concerned citizens to be sure that reports of 
suspicious activity are seriously treated. In Singapore, they 
were lucky. A cop made a report and someone reacted immediately 
and that whole ring was broken up. I fear that we are really 
not emphasizing the role of individual citizens in prevention, 
and I would like to have your comments. What can we do, this 
committee, to help make certain that reports of concerned 
citizens are treated immediately so that we know, we have the 
ability to react under the circumstances, if God forbid, 
something like Singapore's situation is brought to the 
attention of anyone in any one of our States.
    Governor Engler. Senator, I think that most States would 
welcome the opportunity to have our key law enforcement 
agencies fully briefed by the Federal agencies. We still have, 
while we have seen improvements and we have seen improvements 
specifically since 9/11, we still do not have, I think, a level 
of confidence that there is a full briefing that takes place. 
And whether that's with a select number of law enforcement 
officers, or some fashion that that's determined, somebody has 
got to know. We could have the citizen file the report today 
but the agency might not have any clue that that was what might 
be linked to something, because you know, they may not know the 
key information from the Federal agency. And that, in talking 
to our law enforcement agencies, is still a problem because I 
mean, you have territory among agencies at the Federal level, 
but we certainly have it inter-governmentally, Federal to 
State.
    Dr. Gale. You're talking about a massive effort. Singapore 
is a much smaller society where the communication from a 
policeman even up to the chief of police takes a relatively 
modest amount of time.
    Senator Stevens. I agree, but we don't have any 
coordination at all, do we?
    Dr. Gale. That was the word that I have heard pretty much 
interspersed through everyone's discussion: Where is the 
coordination? And quite frankly, it is the kind of thing where 
we imagine what happened right after Pearl Harbor, that 
coordination sprang into place somehow whole cloth. I believe, 
if I know my history at all, we worked real hard to put a 
coordinated effort together, but by March of 1942, there was a 
substantial amount of coordination and no longer the reliance 
on a lot of the stovepipes that we have been talking about 
today. A lot of the difficulty is that we have a bunch of 
stovepipe agencies and we all are using exactly the same 
procedures we have always used----
    Senator Stevens. Thank you----
    Dr. Gale [continuing]. Even though there's a gun to our 
head.
    Senator Stevens. Dr. Gale, sorry. The chairman and I lived 
through that period. I want you to know there was a lot more 
volunteerism after the events of Pearl Harbor than there is 
now. We had people--I lived in California then and we had 
people walking the beach every night, and up in Alaska we had 
the territorial guard, a volunteer group, and we had all over 
the country volunteers. I don't see many volunteers coming out 
of the woodwork right now, and what we're looking at now is 
demands, I've had demands from almost every small village and 
city in my State to get a new fire truck or a new police car, 
or new communications system.
    What are we going to do to create a volunteer system to 
assist law enforcement in detection and prevention?
    Dr. Gale. The first thing the public has to understand is 
what we're fighting here. As far as we're concerned, I mean at 
least as I read the national spirit right now, it's over and 
done with, we took care of them when we had victory in 
Afghanistan, and as far as a good percentage of the people on 
my campus at least, there are a lot of people who say we 
deserved it.
    Senator Stevens. My time is up. Thank you very much, Mr. 
Chairman.
    Chairman Byrd. Thank you, Senator Stevens. Senator Murray.

                  Questioning by Senator Patty Murray

    Senator Murray. Thank you very much, Mr. Chairman, and 
thank you to all of our guests today.
    Let me start with Governor Locke and Governor Engler. Both 
of you have mentioned in your comments today about the need to 
work within your own regions in terms of organizing any kind of 
response and preventive action. When it comes to bioterrorism, 
our regions include the northern border. Are you working with 
Canada in any way in terms of bioterrorism, in any way of 
coordinating plans with them if there were to be an anthrax, 
smallpox or other kind of bioterrorism activity?
    Governor Engler. Senator, before I answer the question I 
would like to ask the chairman's permission to after I do 
answer it, to be excused to see Secretary Thompson before I 
catch my plane.
    Chairman Byrd. Surely.
    Governor Engler. Thank you.
    Chairman Byrd. And we want to thank you too for your 
appearance here today.
    Governor Engler. Senator, thank you for holding this 
hearing and your keen interest.
    We are not walking with Ontario in any formal fashion yet. 
I mean, there may be informal communications my health 
officials or law enforcement agencies have had, but there is 
nothing that's formalized with the provincial leaders in 
Ontario relative to that threat. Nor frankly is there with 
Ohio.
    So I mean, this is a gap that's so new to us in one sense. 
We're still struggling even within communities. We found in one 
community, a mayor told me he found each of his hospitals 
seeking to order enough doses of a vaccine that would cover 
their whole area and he said, well, we don't need three times 
the vaccine for the community, let's have you three hospitals 
get together. That's the level of coordination that just 
historically has not been there.
    We've got a very big job to do and I think what you're 
hearing today from all of us is, tell us which part you want us 
to take charge of and then actually put us in charge, and we'll 
do it. That's really where we are. It's a very good question, 
Senator.
    Chairman Byrd. Governor, before you leave, HHS sent out 
their request for plans in January. Only 2 of the 50 States 
have sent HHS--you're going to be talking with the Secretary of 
HHS--their bioterrorism plans. I am sure that the committee 
would urge the Governors across the country to move these plans 
along, move them along.
    Governor Engler. Thank you.
    Chairman Byrd. Thank you.
    Senator Murray. Governor Locke?
    Governor Locke. Thank you, Senator Murray. In response to 
the Federal allocation for bioterrorism we have, I believe, 
submitted our plan to the Federal Government, to HHS. But that 
regional approach understands and emphasizes the fact that we 
are going to have to cross State borders as well as 
international borders.
    As I indicated in an earlier response, we know that when we 
ask the States to be able to coordinate and insure a 
comprehensive strategy so that cities are not going at this 
alone in terms of response to bioterrorism, that there has to 
be a coordinated regional approach. That also recognizes that 
for instance, Vancouver, Washington is really part of the 
Portland, Oregon metropolitan area, and that whatever happens 
in Portland is also going to depend across the river with 
Vancouver, Washington. The same thing with Bellingham, 
Washington, which is right next to the Canadian border, that 
we're going to have to rely on the systems and response by 
hospitals and public health authorities with respect to the 
authorities in British Columbia. Also, eastern Washington with 
Idaho.
    And so our response plan contemplates multistate as well as 
multination coordination.
    Senator Murray. So are we working with Canada on any kind 
of formal contract or agreement in terms of bioterrorism?
    Governor Locke. Not in terms of a government to government 
contract, but in terms of response planning, my understanding 
is that we are working with Canadian officials and Canadian 
communities to respond in the event of any type of bioterrorism 
threat.
    Senator Murray. Governor Locke, I wanted to ask you because 
as you know, the Federal Government has issued several alerts 
following the September 11th attacks, and I would really 
appreciate in front of this committee your very frank 
assessment of the Federal Government's ability to keep you 
informed about threats to Washington State and other relevant 
information.
    Governor Locke. Well, we have been able to have very good 
access with Governor Ridge, and when we have had some problems 
along the way, we have been able to immediately contact 
Governor Ridge and he has been able to respond and iron out 
those difficulties with some of the other Federal agencies. We 
wish that we had not had to go to Governor Ridge, but you know, 
to be very candid, there was a time when one of the major TV 
networks report and broke a story that Seattle was the target 
of some threats based on pictures that were discovered in the 
caves of Afghanistan. And shortly after that, various Federal 
agencies, unnamed people within Federal agencies gave 
interviews to the press and kept saying that there were 
pictures of specific buildings or companies or landmarks that 
were found.
    They were all contradictory, and we were having a hard time 
getting to the bottom of it and wondering if certain Federal 
agencies were withholding information and not sharing that 
information with the State. And finally we were able to get 
hold of Governor Ridge and we were--he immediately ordered that 
the copies of those pictures be made available to the members 
of the congressional delegation, to the State officials, to 
sheriffs and police chiefs. And so we convened one big meeting, 
had those copies of those photographs brought to us so that we 
could all see them.
    But it took a while for those photographs to reach us. And 
it wasn't until Governor Ridge intervened that we were able to 
have those almost instantaneously delivered to us, and we were 
able to view all those pictures and get to the bottom of it, to 
report that there were no credible threats against the State of 
Washington, either facilities or installations or people.
    So again, we need that better coordination among the 
Federal agencies working with State agencies, and we should not 
have to go up to Governor Ridge to have these things sorted 
out.
    Senator Murray. Thank you for that. I heard Dr. Gale talk 
about the threat to the electrical system or the transmission 
systems for energy sources, and I know in our area, Governor 
Locke and I are hearing that the administration wants to move 
towards what's called a regional transmission organization that 
would be a centralized command over our entire electrical 
system. And this has not been discussed in terms of 
vulnerability to terrorist attack, and after hearing Dr. 
Stephen Gale, I would just like to ask Governor Locke whether 
he would share my concern that this is something we should 
consider before moving to that kind of system.
    Governor Locke. Well, I think we are all very concerned in 
the Pacific Northwest, whether you're from Oregon, Washington 
or Idaho, and even Montana, about the integrity of the BPA 
system and the transmission facilities, and that it's a very 
unique, very local system that's working well. It needs 
improvements, and that's why BPA has asked for additional 
borrowing authority, to make the upgrades to their transmission 
facilities.
    But it's a very unique system, far different from what 
occurs in other parts of the country, and we need to make sure 
that the unique features of the BPA transmission system are 
protected and enhanced, and so we would be very very concerned 
about some of the proposals from FERC and others to have a west 
coast wide or a western United States wide regional 
transmission organization.
    Senator Murray. Dr. Gale, would you share that concern?
    Dr. Gale. My concern here is that this attack may be coming 
at pretty much any time, and the way in which we are discussing 
it seems as if it's kind of theoretical at this time, and over 
the long haul we are going to find some mechanism to try to 
make the system work in a little bit more protective fashion.
    Think of it this way. In a sense, these hearings are a way 
of trying to figure out what we have to do to avoid martial law 
if one of those attacks that I described actually occurs, 
because any of those could seriously disable this entire 
economy and with it, the entire Nation. And certainly BPA, 
that's the entire west coast, and we could not afford to have a 
2-month degradation or elimination of electrical service on the 
west coast.
    I mean, in a sense the question is, how do you actually put 
together a security system that's going to react now and one 
that will protect that entire structure. They are not going to 
bomb large dams, can't do that very easily. But there are 
coordinating facilities for all of these efforts, for all of 
the energy systems, and those are easily targetable. And the 
question is, where do we want to put our efforts right now to 
insure that we can get the maximum leverage out of our 
security, and certainly BPA is on the top of everybody's list.
    Right now we're all still talking about the same problem of 
coordination, how would you ever get it done, and given the 
fact that it can happen tomorrow, how can we put it in place 
and time.
    Senator Murray. I see that my time is up, Mr. Chairman. 
Thank you very much.
    Chairman Byrd. Thank you, Senator Murray. Senator Dorgan, I 
believe you were next.

                 Questioning by Senator Byron L. Dorgan

    Senator Dorgan. Mr. Chairman, thank you. This panel has 
been just an excellent panel. I really appreciate the testimony 
you have offered, and I think it is a good start to these set 
of hearings.
    Dr. Gale, are you optimistic or pessimistic?
    Dr. Gale. About what?
    Senator Dorgan. Well, about the future, about our ability 
to prevent the kinds of scenarios you described in your 
testimony? Your testimony describes some pretty grim 
opportunities for terrorists. Tell us your feeling about the 
future.
    Dr. Gale. I'm a realist.
    Senator Dorgan. What does that mean?
    Dr. Gale. I'm a pragmatist. Actually, I'm a fighter. I 
believe that there are always threats to the United States and 
to people and that our objective, national security and at 
local security levels, is to insure that we can be optimistic 
about talking to our kids. This kind of legacy for our children 
is insane, and we could have prevented it, and at this time 
there are real reasons to be optimistic if we invest in 
security in the right ways and use the resources and the 
volunteerism that Senator Stevens was talking about.
    Where's the spirit behind all of this that motivates 
anybody for defense? I haven't seen very much of that, and I've 
heard a lot about overtime pay for people. This is a time of 
serious national crisis and I really think we're talking about 
it as if it's business as usual. And on September 11th, if 
there was only one message that should have come through, it's 
that there will be no business as usual until those people who 
are capable of doing actions like that have been stopped and 
eliminated, and that's not going to be any time soon.
    So from my point of view, I'm really optimistic because I 
love a good problem and I like fighting, but do I think there 
aren't going to be problems? Absolutely not. I think there will 
be lots of them.
    Senator Dorgan. Governor Locke, before September 11th this 
committee, through the subcommittee that I chair, had a 
northern border security initiative that we funded, to begin 
the long process of trying to provide some semblance of 
security on the northern border. You know that we have a 4,000-
mile border between the United States and Canada. While we have 
9,125 Border Patrol agents along the United States and Mexico 
border, we only have 622 Border Patrol agents between the 
United States and Canada, a 4,000-mile expanse.
    You at Port Angelos, of course, have had the experience of 
having an alert agent catch the millennium bomber coming 
through, who would have caused substantial damage here in this 
country, and undoubtedly loss of life. I think you and Governor 
Engler certainly would know that we have much more to do all 
across the northern border. Yet, we are not able to station 
Border Patrol agents, INS or Customs Service people every 
quarter mile on the northern border, so it is a long and porous 
border.
    Do you feel with what you have heard of our discussions in 
Congress that we are moving in the right direction? We are 
obviously now talking about substantial additional resources in 
all of the agencies, Border Patrol, INS, and Customs. Is there 
more we should do, and if so, what is it?
    Governor Locke. Well first of all, I do want to 
congratulate and compliment the Members of Congress and the 
Senators along the United States-Canadian border for their 
incredible interest and perseverance in making sure that 
there's adequate funding to address the security issues along 
our United States-Canadian border.
    I did have a meeting with Deputy Prime Minister Manley a 
few weeks ago, who is the Canadian counterpart to Governor 
Ridge, and we were talking about some of the improvements that 
we can expect along the northern border.
    Senator Patty Murray, I think took a tour of some of those 
technologies and innovations, and reviewed the progress of 
that.
    Clearly there will be need for more technology, and there 
have been a lot of news reports and explanations about how even 
if you don't have a person at a particular place, the use of 
technology alerts border guards and border agents and Customs 
people to any movement along the border, and that enables them 
to respond. We have to be smarter in the deployment of people 
by using technology, and so I really applaud the commitment of 
the Congress to adequately fund the deployment of that 
technology.
    Senator Dorgan. Senator Stevens talked about the 
cooperation with Canada. You have two countries that have a 
common interest in that border. It seems to me there's much 
more capability with both countries to use technology and the 
combination of manpower from both countries to achieve a common 
objective.
    Mr. Chairman, I must cut my questioning short because of 
another commitment, but again, I think this panel has provided 
some outstanding testimony. I deeply appreciate your 
willingness to be here today to provide it. Mr. Chairman, thank 
you very much.
    Chairman Byrd. Thank you, Senator Dorgan. Senator Kohl, you 
have been patient and you have been here a long time. Please 
proceed.

                    Questioning by Senator Herb Kohl

    Senator Kohl. I thank you, Senator Byrd.
    Dr. Gale, you touched upon the topic of food distribution 
in your remarks. Food safety has long been an area of interest 
for this committee but the events of September 11th turned our 
interest obviously to imperative. The Food and Drug 
Administration has primary food safety responsibilities for 
almost 100 percent of the food products in our country. And 
yet, they have the capability to inspect only about 1 percent 
of imported food items.
    Furthermore, there is a great potential for tampering with 
domestic food items that presents immediate threats to public 
health and long-term harm to consumer confidence. Would you 
comment on the adequacy of current Federal efforts to protect 
our food supply? Do you think that these could be improved, for 
example, by giving agencies a mandatory recall authority which 
they do not have at this present time?
    Dr. Gale. The complexity of our food supply is 
extraordinary. In a previous life before I began college, I 
spent 2 years as a dairy farmer. I know it from the bottom end 
and I also obviously consume it, and I have watched Pioneer 
Hybrid, I was doing work for them. You're talking about an 
extraordinarily complex highly diverse system which right now 
not only is regulated by the FDA, but an enormous number of 
agricultural agencies and pricing structures.
    In order to--we keep saying the word coordinate--in the 
food distribution sector alone, we are talking about trucking 
companies that are responsible, seed companies. We are talking 
about all of the producers of chemical protection, or chemical 
weed control and defoliants. If you are going to be looking at 
this in terms of recall, that's after it appears. That's the 
Tylenol problem.
    What we have to be able to do is to insure that critical 
food supply points, where there can be a massive disruption of 
our food supply, are protected. Of course we ought to be able 
to recall food that's been contaminated instantly, but that's 
sort of after the fact. And I can describe to you, for example, 
an attack that could be used with these enterprise systems in 
which someone can identify precisely the containers that are 
going, say, to the 7th Fleet, infect them with botulism, and 
bring down the 7th Fleet with one person, who could be a 
janitor.
    Food supply is an extraordinarily complex effort, and 
simply looking at it in terms of recalls from the FDA doesn't 
span the issue that I think is in back of what Mr. Carter is 
speaking about in terms of an architect. You've got to have a 
different architecture for approaching terrorism, not the same 
types of actions that we've taken in the past, FDA.
    Senator Kohl. Would you then comment on our current 
capability of inspecting only 1 percent of all imported food 
items? Is that something that needs to be addressed?
    Dr. Gale. Not only inspecting it in its entirety, but 
inspecting it before it gets here. And I think this was the 
point that was made by Governor Engler. There is no sense in 
our trying to do all the inspections on U.S. territory. Quite 
frankly, some of that stuff may be infectious when it gets 
here. What we want is a system which protects and inspects 
these commodities before they even get here.
    But that's an extraordinary change. We would have to have a 
very different approach to foreign policy. Our Customs 
inspectors would have to be located internationally, and the 
determination as to whether or not that can actually be done 
and whether it's efficient and we have the resources for it is 
again, we need some kind of coordination to even start this 
process.
    And to look at it as if we have our existing agencies and 
our existing policies, and we only have to amend them a little 
bit, is ignoring the fact that this is a major big shift in the 
kinds of attacks that we've had in the past.
    Senator Kohl. Dr. Gale, naturally we are mostly concerned 
about international terrorism, but should that be the main 
focus for every State? Should different States and regions be 
focused on different threats, both domestic and international? 
Are there current threat assessment investigations being done 
to more clearly determine what States and what regions are the 
most at risk for domestic and international terrorism?
    Dr. Gale. Well, international terrorism, if we are talking 
about al Qaeda, which is the big topic of conversation in the 
terrorism world today, pretty much any State can be affected. 
In fact, quite frankly, I would expect that the next round of 
attacks would try to affect all of the States for that kind of 
purpose of disruption.
    On the domestic terrorism side, I've read some rather 
unusual stuff recently. 1994. Terry Nichols and Ramsi Yusef 
apparently had a meeting in Manila prior to the bombing in 
Oklahoma City. Is there a tie-in between al Qaeda and domestic 
terrorists in the United States? You would think that they 
would be polar opposites in their approach to things.
    They both have an approach of wanting to disrupt and 
severely disable pieces of the United States, and my enemy may 
be in fact my friend. And I see the domestic terrorism problem, 
although it was the real focus of attention during the Clinton 
administration, is coming back to be a major source of 
difficulty for the United States simply because it could be 
easily coordinated with international terrorism.
    I fully expect that Osama bin Laden believes that domestic 
terrorists will pick up some of the burden from him in causing 
the massive disruption that he needs.
    Senator Kohl. One last question for all of you to speculate 
on, and I would be interested in your response. Many, many, 
many Americans are hopeful, and maybe would suggest that what 
happened on 9/11 is not going to be repeated, and that all of 
these conversations that we're having, while useful, will 
hopefully not have to be dealt with.
    Are you in your own mind fairly certain? Are you Governors 
fairly certain that we are going to have to deal with the 
actuality of the things that we're talking about here in the 
future, that this is not any sort of a theoretical discussion 
but something that our country will be facing in terms of 
things that do occur? Dr. Carter?
    Dr. Carter. Well, it's not theoretical and we will see 
incidents once again, and they will come from domestic sources. 
Let me just remind you that as we all sit here today, we don't 
know who did the anthrax attacks. It's entirely possible that 
it was an American. It's entirely possible that it was a 
cleared American. It's also entirely possible that it was a 
cleared American acting alone, with motives so obscure to the 
rest of us that he or she doesn't even seem fit to take credit 
for the act up until now.
    So what we're seeing is the increasing fragility of society 
and also with the progress of technology, the ability of 
destructive power to fall into the hands of smaller and smaller 
groups of human beings, powers formerly reserved to nation 
States. Now small groups and individuals exhibit a much wider 
variety of motivations and behavior than do large groups of 
people.
    And so, you've got all kinds of people out here. Remember 
the ones who put on sneakers and purple cloths a few years ago, 
and decided to join the Comet's Tail? There are a lot of 
motivations out there that are not just al Qaeda, that can be 
rageful, Messianic and destructive, and destructive power falls 
into the hands of groups that are deviant and bizarre from our 
point of view.
    Everything about technology says that that trend is going 
forward and will be with us as long into the future as we can 
see. That doesn't make me despair because there is a lot we can 
do to fight back. Some of these examples we're talking about, 
we can't change our foreign policy to protect our food supply.
    We have a panel, the National Academy's effort, of which 
I'm a member, that has looked in detail at the food supply. I 
think there's a reasonable strategy towards that which does 
look at choke points, as Dr. Gale said, does some random 
sampling elsewhere, which is a reasonable deterrent. In other 
words, there is a reasonable posture that provides a reasonable 
level of protection and allows us to keep on keeping on.
    And the electrical grid. We've looked at the electrical 
grid in detail as well, and that also, most of the 
interruptions that can be caused in the electrical grid are 
transitory, disruptive but not massively destructive. The only 
thing you need to worry about there, the principal thing to 
worry about, is interruptions that result in the non-repairable 
destruction of hardware, for example, high voltage 
transformers. And so if you look at this--and for that purpose, 
you buy some spare high voltage transformers and you would be 
prepared to insert them if there's destruction.
    So I think this is a matter where systematic looking in a 
calm spirit, urgent but intelligent, infrastructure by 
infrastructure, we can mount a defense which allows us to keep 
on living our lives reasonably and makes these events not 
never, but rare and manageable. We can do that. To that extent, 
Senator Dorgan is gone now, but I'm an optimist.
    Governor Barnes. Let me just reply to that----
    Chairman Byrd. May we have shorter answers, please? We have 
several other Senators here who have been waiting.
    Governor Barnes. In 1996, as you know, at the Olympics in 
Atlanta, we had an act of domestic terrorism. We never have 
caught that guy. So it's real to us. And we know that we have 
to be prepared.
    Governor Locke. Senator Kohl, let me just say that even 
before 9/11, our State of Washington put together a civil 
support defense team, a full-time unit of the National Guard 
that's able to respond within almost an hour anyplace in the 
State of Washington to any biological, chemical or even 
radioactive threat, and they have been called out several times 
since September 11th. Thank goodness, false alarms even after 
local law enforcement had raised it to a level that was beyond 
their determination.
    This civil support defense team was actually requested by 
the Federal agencies to be deployed to the World Series game in 
Arizona, and our civil support defense team, full-time National 
Guard people with all the suits, all the mobile laboratories, 
worldwide communications gear, this was up and running almost 1 
year before September 11th.
    So we take the threat of terrorist activities very real. We 
hope it never occurs, but I'm not a person who's going to bank 
the future safety of the people of the State of Washington and 
take a gamble, and so we're responding whether it's the Federal 
dollars, for bioterrorism we're taking this very real, we're 
not going to use this money just to buy fire trucks for local 
agencies. This is to make sure that we have prevention plans 
and response plans in place that are coordinated throughout the 
State and with neighboring States and other communities.
    Senator Kohl. Thank you. Thank you, Mr. Chairman.
    Chairman Byrd. I think Dr. Gale has already stated that he 
feels that we're dealing with situations that may happen 
earlier rather than later, and that we should be prepared.
    Senator Bennett.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I appreciate your 
holding these hearings and I appreciate the opportunity to 
participate in them, and I intend to take the majority of my 
time in a statement rather than questions, not because my ego 
insists on that but because I feel there's one factor that has 
been left out of this discussion. I say that without any 
criticism whatsoever of the discussion so far. I have gone 
through your testimony and your comments, and I think they have 
been extremely useful.
    But when we get to the issue, and I think it was you, Dr. 
Carter, who was talking about going over this infrastructure by 
infrastructure, if we talk about critical infrastructure in 
this country, 90 percent of it is in private hands. It is not 
in Federal hands, it is not in State hands, it is not in local 
government hands, it's in private hands.
    And I have not seen a discussion of the role of the private 
sector in protecting its infrastructure. If the private sector 
assumes that Government will do it, and they do not need to 
focus on their own security activities, we will have enormous 
problems. Osama bin Laden has made it clear post 9/11 that his 
target is the U.S. economy, and anything he can do to damage 
the U.S. economy he wants to do and is urging all of his people 
to do.
    Now perhaps it comes out of my parochial role as a member 
of the Banking Committee, but if I wanted to do this country, 
if I wished this country ill, I would not fool around with 
kinetic weapons to blow up buildings. I would try to figure out 
a way to get into the Fed wire and shut down the Fed wire 
through the telecommunications system, all of which is in 
private hands.
    I have had this conversation with Chairman Greenspan and he 
said yes, if you were able to shut down the Fed wire, you would 
probably do more damage to the economy immediately, and if you 
could keep it shut down for any period of time long-term, than 
you would if you set off an explosive device in lower Manhattan 
Island.
    I know how, if somebody can get me in by hacking computers, 
I know how to shut down the New York Stock Exchange, with a 
very simple software fix, or unfix if you wish, that would 
scramble all trading on the New York Stock Exchange for months, 
if not longer, if you could keep it up.
    The whole question of cyber attack through our computers 
focused primarily on the private sector and those aspects of 
the private sector that are critical to the function of the 
economy is a question that hasn't been raised in these hearings 
yet, and I want to raise the voice that it be raised and that 
it be talked about.
    We have been holding hearings in the Joint Economic 
Committee, we have been holding hearings in the Banking 
Committee, we have been holding hearings wherever we can to try 
to focus on this problem, and the more we dig into it, the more 
we find out how vulnerable we are.
    Now, this brings me to one of your themes that you have 
been talking about on the panel, or two actually, information 
sharing and risk assessment. Senator Byrd has asked about risk 
assessment and some of your testimony has been about 
information sharing.
    In this arena of cyber terrorism, there is a very great 
reluctance to share information with the Federal Government, 
because they are convinced it will be made public. I have 
anecdotal evidence of public utilities that are very reluctant 
to do any risk assessment for fear it will then be made public 
and become a road map for terrorists.
    I have a bill, if I can be shameless about shilling for my 
own legislation here, I have a bill that would permit the 
private sector to share information about cyber attacks with 
the Federal Government without having that information be made 
public. We have an example of an industry that shared 
information about the extent of the industry with the Federal 
Government that was then published on the web site of the 
requesting agency until someone from Governor Ridge's office 
called them up and said, will you please take that down off 
your web site, because it tells the terrorists every single 
check point in your industry that could be attacked that would 
produce massive economic difficulty.
    So, I simply want to inject into all of these discussions 
the recognition that we are the most vulnerable wired Nation in 
the world. It is one of the reasons we are the most productive 
Nation in the world, because we have gone further than anybody 
else in terms of technology and the technological advances that 
come through computers. But with that advance has come a 
vulnerability that at some point some terrorist is going to 
exploit.
    The attractiveness of it is that a terrorist can exploit it 
sitting in his cave tapping on his laptop. He does not have to 
go through customs, he does not have to come to the United 
States physically. He can break into our network, cyber 
network, and attack all of these critical infrastructures. 
Again, 90 percent of which are in private hands.
    So when we talk about risk assessments and we talk about 
information sharing, I simply want to raise the flag on behalf 
of more information sharing, more information security within 
the Government, which means if my bill passes, a sharper 
definition of what happens under FOIA, the Freedom of 
Information Act, than is there today. I'm not repealing FOIA, 
I'm not setting FOIA aside, I'm just trying to sharpen the 
definition so that we can be protected from this kind of 
attack.
    And Mr. Chairman, I wanted to get that into the discussion 
here because I think it is something without any impropriety on 
anybody's part, simply has not been raised until now.
    Chairman Byrd. Well, thank you, Senator Bennett, for 
raising this flag to freedom's breeze unfurled. You may have 
fired the shot heard round the world.
    Senator Bennett. When the chairman starts quoting poetry, 
you know you've made a point. I thank you.
    Governor Locke. Mr. Chairman, if I could?
    Chairman Byrd. Yes.
    Governor Locke. To Senator Bennett, I just wanted to make 
one comment. We in the State of Washington were very concerned 
about the use of Freedom of Information Act or public 
disclosure laws to get at those types of vulnerability 
assessments and reports that might be collected by our State 
agencies, or even source codes of computer programs and things 
like that.
    And so, I'm pleased to report that in our State of 
Washington, I recently signed into law legislation that was 
passed by the legislature, requested by the attorney general's 
office and my office, that exempts that vulnerability 
assessments and source codes, and a variety of very sensitive 
information from any type of Freedom of Information Act.
    Chairman Byrd. Thank you. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman, and thank you to 
the panel.
    Chairman Byrd. Before the Senator begins, do I understand 
that Dr. Carter has to leave?
    Dr. Carter. I apologize, Mr. Chairman and members. I do, 
unless the airplanes can wait for me, or they'll let me through 
faster than they're letting us through these days, I do need to 
excuse myself.
    Chairman Byrd. You have made a fine contribution here this 
morning, and the committee thanks you very much for your 
contribution. Thank you for your time, for your statement, 
thank you very much.
    Senator Durbin.

                Questioning by Senator Richard J. Durbin

    Senator Durbin. Thank you very much. Mr. Chairman, relative 
to the statement just made by Dr. Carter, there are very few 
common American experiences which everyone shares, rich or 
poor, young or old. One of those experiences is voting in this 
country, but another one since September 11th has been the 
presentation of a photo ID. We are now in a society which 
expects each of us to present on a regular basis a photo ID to 
establish our identity. It has become the threshold piece of 
evidence in a system designed for security.
    And so while we have the Governors here and other 
witnesses, I would like to explore what is the most common form 
of identification, the driver's license, issued by 50 different 
States. States also issue identification cards, but I would 
think the most prevalent form of identification that I have 
noticed is the driver's license.
    We also know from experience that the driver's license has 
been terribly abused when it comes to providing a source of 
identification. Timothy McVeigh used a fake driver's license to 
rent a Ryder truck for the Oklahoma City bombing. Of the 19 
terrorists on September 11th, there was 1 who had neither a 
driver's license nor an ID card; 11 had at least one driver's 
license; there were 12 of them that had at least two different 
driver's licenses; and there were 6 of them that only had State 
IDs.
    We have come to understand that leaving it to the States to 
establish standards for issuing the most important piece of 
identification, which we rely on as a threshold requirement in 
our security system, is an invitation to disaster. What 
happened in the State of Virginia and Florida with the 
terrorists on September 11th tells us that there are ways to 
defeat this system.
    In the case of Virginia, it was $50 in a parking lot to get 
a notarized statement from someone saying this is who this 
person is and this is where they live, and that was good 
enough. They were in the system, they had a Virginia ID card 
and they were off to the races, in this case off to the 
airports.
    And so what I'm asking the Governors in particular, and Dr. 
Gale as well, is to think with me about legislation that I'm 
working on. If we are resistant to a national identification 
card but we now have a card that is a nationwide identification 
card--State driver's licenses--what is a reasonable thing to 
ask of the States in terms of making certain that they have a 
common standard for identification for the issuance of driver's 
licenses? What is a reasonable thing to ask of Governors and 
State governments when it comes to the verification of that 
person's identity when they apply for a driver's license?
    Is it reasonable for us to establish national standards or 
a national model, provide some resources for not only creating 
these verification procedures but also creating a more 
counterfeit-proof driver's license and State ID card?
    If you go to the city of Chicago, which I am honored to 
represent, down Michigan Avenue every morning at about 8 a.m. 
and you get to right about Wacker Drive, you are going to see 
hundreds of people standing in all sorts of weather. They are 
Mexicans who are trying to get into the Mexican Consulate to 
get a ``matricula.'' Matricula is their national ID card, and 
with it they can get into the banking system and a lot of 
things. It is a card which, frankly, surpasses most of our 
State driver's licenses in terms of how good it is, the 
information it contains, and they have very strict standards on 
issuance.
    What do you think, as Governors, would be a reasonable 
standard to work with the States to impose to make the driver's 
license a better form of identification?
    Governor Locke. Well, let me just say that I think that 
first of all, I mean, if you're contemplating national 
legislation, what you're really looking at is some sort of 
common minimum procedures or thresholds that the States should 
utilize so that we know that Joe Blow on a Virginia license 
plate is really Joe Blow. And that if the State of Washington 
has a higher standard, that you're not able to circumvent that 
higher standard, higher verification process because a person 
had to go to another State. So that's one issue, and what are 
those common procedures, requirements that may be imposed upon 
the States, and people might argue about that.
    The second issue, obviously, is how do you address driver's 
licenses for legal residents, whether students from abroad and 
people who are here visiting or working, and what type of 
documentation must those individuals have. And of course, I've 
heard of people saying that we need to have verification of 
their immigration status, but immigration is notorious in terms 
of not getting us that information, and so we're asked to rely 
on a status by Federal agency or verification by a Federal 
agency that says that their information is years and years 
behind. So that's a problem or a bottleneck that has to be 
confronted.
    The third issues might be, you know, if a police officer 
from one State encounters a citizen with a driver's license 
from another State, how do you determine that it's not been 
altered or forged, how do you really understand, how can you 
access the information about that individual that might be 
encrypted? And so, do you have some sort of common encryption 
of information on the back, magnetic cards or whatever, or bar 
coded information on the back, that goes beyond or simply 
verifies electronically what is on the face of the card, 
because the information that's printed on the face of the card 
may have been altered or forged, and so do you have a way of 
determining or verifying that information.
    So those are just some of the issues that are raised, and I 
am not here to take a position on any of those issues or have 
thoughts about it, but clearly I do know that with respect to 
the issue, the dilemma of verifying immigration status, the 
States are not able to do that because we have to rely on 
Immigration and Naturalization, and their databases are so 
woefully behind.
    Senator Durbin. I agree with that completely.
    Governor Barnes. There is one other thing. Of course, 
Governor Ridge, we have all talked to, and when we met with him 
this is one of the issues, as you probably know, that he is 
considering.
    Senator Durbin. We are anxious to meet with him too.
    Governor Barnes. So I've read.
    One of the other things in that same regard that you should 
consider is some type of central national database. In other 
words, all the States have information about their drivers that 
are licensed, and they generally exchange information, 
violation information between States, there are compacts 
between States. But there is no really central database that 
would allow information to be accessed, for example, someone 
coming from Illinois to Georgia, on-line. It may come later, 
but not on-line, and if you are going to create those 
standards, you should seriously consider creating some type of 
central on-line national database for all people that are 
registered.
    Senator Durbin. The most common reasons people seek fake 
driver's licenses are fairly obvious. If they've had their 
license suspended or revoked in some place----
    Governor Barnes. That's correct.
    Senator Durbin. If they're underage and want to buy tobacco 
or alcohol. If they're trying to create a new identity for 
deception and fraud, and certainly for terrorist and criminal 
purposes. So we have to give Georgia and Illinois the ability 
to communicate with one another. When I say I've just moved to 
Georgia and I used to live in Illinois, well, I should be able 
to establish in your State of Georgia whether I have a valid 
driver's license or suspended or revoked. I'm sure you in the 
State of Georgia would like to know that.
    Governor Barnes. True. And it should be on-line. We get 
that information now, but it's delayed.
    Senator Durbin. It's later.
    Governor Barnes. Yes.
    Dr. Gale. Senator Durbin, at the risk of being 
disagreeable, I think that the cost of doing it the way you are 
describing it, which is a coordination of State efforts, would 
probably be catastrophic compared to the institution of a 
national level system. I think you're going to be duplicating 
an enormous amount of energy and effort that's already been put 
in, and the coordination of databases like this, with very 
different procedures that are sort of built into the various 
State systems, I don't think is going to have the kind of 
protection that you want from the kind of terrorism that we're 
talking about.
    I imagine that at the local level, if you do it State by 
State, you can probably do pretty well in preventing kids from 
drinking underage, but we're talking about something that has a 
much different function and if you're going to do it piecemeal, 
probably the cost will be far far higher than doing it through 
a national level system.
    And I've got to tell you, going on an airplane recently, 
several times, people are carrying their passports as often as 
they are driver's licenses. If we're going to be carrying 
passports, then we really do have a national ID card anyway; 
the only difficulty is that a passport can't be read 
electronically and doesn't have any other functions. Maybe we 
just ought to fold those two things together; people are using 
passports and maybe that's what we really have a need for at 
this time.
    Senator Durbin. I've noticed more and more passports too. 
Thank you. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Durbin. Senator Reed.
    Senator Stevens. Pardon me. I want to correct you, Dr. 
Gale. We do have readable passports now; the new ones are.
    Dr. Gale. But it isn't swipable for all sorts of other 
functions. Yes, we can read the code on it but we can't use it 
for example, as a cash machine card. And a lot of these things 
would be pretty much entre to any kind of facility, and that 
was the reason those national cards were designed. I'm not 
advocating it, but I know the costs that we're talking about on 
a piecemeal effort would be phenomenal.
    Chairman Byrd. Senator Reed.

                    Questioning by Senator Jack Reed

    Senator Reed. Thank you, Mr. Chairman, and thank you 
gentlemen for your testimony today.
    I know you have thought hard about all of these issues 
since September 11th and before September 11th, and there has 
been lots of research and study and thought. It strikes me, 
though, that until you actually try to operationalize these 
ideas and see where the pieces fit or don't fit that you really 
don't have a handle on the problem.
    Up in Rhode Island about 2 weeks ago, my State had a 
statewide emergency preparedness exercise at the Naval War 
College on a bioterrorism attack, and it's the process of 
drilling and exercising. And it seems to me that we can go 
around and have hearings and discussions, and think tanks 
operating, but until we actually try to figure out in a real 
scenario what you have, then we really haven't engaged. And I 
just wonder of the Governors, if you could comment about in 
your States and in other States, whether this process of going 
out and having full-blown exercises and seeing what you're 
missing and what you have is taking place, and then, Mr. Gale, 
you might comment also.
    Governor Barnes. Yes, we have, and I think most States have 
gone through that. But this kind of segues, I guess, into a 
statement that Senator Stevens made earlier, and that is about 
the prevention. There is a difference, as has been pointed out, 
of reaction and preventing. That's what we have been trying to 
concentrate on mostly. Yes, we have been going through training 
and exercises.
    One of the reasons that we created this central information 
center that I talked about, and invited the FBI terrorism task 
force in Georgia to be located there, is so that we could have 
them close, and try to get over some of these issues that we 
deal about stovepipe agencies, not exchanging information.
    We figured if they were close, and they have been very 
cooperative with us, and I want to be very complimentary, we 
had them close and they were there, and they were talking to 
our Georgia Bureau of Investigation and Law Enforcement, that 
when a citizen, as Senator Stevens pointed out, sent some 
information in, there would be one central point, a clearing 
house, for that, and there would be State law enforcement folks 
there and the Federal law enforcement folks there, and they 
would be in one physical location, and they could make sure 
that that citizen's suspicion was addressed.
    I think that's much more important. I think the exercises 
are important; yes, we are going through that, and yes, we are 
trying, we have come up with all these scenarios about smallpox 
quarantine. We have had exercises and everything else. But the 
sharing of information is what leads to the prevention.
    Senator Reed. Governor Locke?
    Governor Locke. Yes, we've already had many communities 
even prior to September 11th engage in exercises on 
bioterrorism and especially after our WTO experience in Seattle 
several years ago. And that's, again, why we also formed our 
civil support team, a full-time unit of the National Guard 
that's able to respond to any biological, chemical or 
radioactive threat. That was up and running almost 1 year 
before September 11th.
    Nonetheless, we are planning on even more intensive drills 
and exercises, but I'd like to repeat what Governor Barnes 
indicated. We need to engage the citizens all across the 
country in terms of being more vigilant, being more watchful, 
being more observant, and reporting suspicious activities, 
anything out of the usual or the ordinary to local law 
enforcement, and we need that to prevent any type of activities 
in the first place.
    But that, again, that's what we at the State official level 
can do, and it's up to the Members of Congress along with such 
luminaries as Dr. Gale and Dr. Carter to talk about the 
national strategy.
    Senator Reed. I will now call on a luminary.
    Dr. Gale. Clearly, training works. The problem is, training 
in what? We don't know what standards we are trying to measure 
up to right now in terms of training. The kinds of attacks that 
we're used to training with reflect incidents that pretty much 
are outdated at this time. I'm not sure that we have an idea of 
how we would train people to respond to major electrical 
outages over a long period of time and the reinstallation of 
transformers; we've never done it.
    So the training part of it has to start with some, call it 
an imaginative approach, or view of what it is that we think we 
can put in place, and what is effective and efficient to do. I 
mean, in large part, a lot of those exercises that I've seen, A 
Team, B Team, Red, Blue, all of these things are based on 
archetypes of responses that really don't apply to the kinds of 
attacks that we are going to face in the future. We are going 
to be training on old issues rather than an expectation of what 
we really anticipate in the future.
    Senator Reed. It seems to me that based upon the Rhode 
Island experience that one of the great learning lessons, 
regardless of the reality of the scenario, is the difficulty of 
communicating with different parts of the response team on a 
tactical basis because of the lack of interoperability of 
radios and computers, and on a procedural basis simply because 
people don't know who to talk to at a given point. And that's 
something I believe that the Federal level, certainly with 
resources to not only encourage exercises but also to provide 
hardware, software, and maybe even procedural advice could be 
very useful.
    And perhaps my final point, and Dr. Gale and the Governors, 
you could comment on this interoperability issue.
    Dr. Gale. I completely agree, but what you are talking 
about is a very different form of coordination, control and 
authority by the Federal Government at this time, and pretty 
much everything I have heard today would require a very 
different posture for the Federal Government rather than what 
we have done on a piecemeal basis for purely important 
Constitutional reasons in the past. You're talking about a very 
different, very significantly different kind of coordination 
effort.
    On the other hand, if you imagine that a major attack like 
this happens and that the alternative is martial law, I guess 
it would be worthwhile to make some changes now before we 
actually ran into that kind of dilemma.
    Senator Reed. Governor Locke?
    Governor Locke. Well, obviously we run into this problem 
not just at a national level, from one State to another, one 
computer system to another, but even just within local 
governments. Different police agencies within our State have 
different methods of communicating and they can't all talk to 
each other. So we're talking about a huge paradigm shift in 
terms of setting national standards, and you're talking about 
setting national standards among the private sector as well as 
the public agencies, and that would be a very contentious 
debate as to who sets the standard and whose standard are we 
going to use.
    You know, I mean just think of the law enforcement, all the 
different radio systems. Who gets to pick, and everybody will 
be fighting and advocating for their particular system and 
their viewpoint, and I can see this occurring, you know, 
multiplied many many times and all across the Nation. But it's 
a discussion that we have to have. It's a discussion that we 
have to have.
    Senator Reed. Thank you. Governor Barnes, did you have a 
comment?
    Governor Barnes. The only thing, I agree with Gary. It is a 
discussion we need to have, and this is not just a Federal 
problem, it's a State problem too. We have problems 
coordinating between agencies, communicating between agencies, 
and such, and there's a problem expending Federal funds.
    I will just give you an example. Some Federal funds deal 
with child welfare. The money that is given to the State, 
appropriated to the States for technology, cannot be intermixed 
with a State technology. In other words, it has to be kept 
separate. Those kinds of things are things we fight all the 
time.
    And I guess what has happened by September 11th, and this 
will be my final comment, is that September 11th has finally 
told all of us, you'd better sit up and listen, because you 
don't have the luxury of time to worry about whether folks can 
communicate with each other and coordinate with each other. 
You're either going to do it or you're going to have problems 
in surviving.
    Senator Reed. Thank you, Governor, and thank you, Mr. 
Chairman.
    Chairman Byrd. Thank you, Senator.
    The committee thanks each of you gentlemen for your fine 
presentations. The committee is very much aware of the 
responsibilities that you carry at the State level, Governors, 
and that you Dr. Gale and Dr. Carter, carry in your 
professorial work. You have given your time. You have made 
interesting informative statements.
    I was born during the administration of Woodrow Wilson. He 
said, if I may paraphrase, that the informing function of the 
legislature, the informing function of the legislative branch 
is as important as the legislative function. And so you have 
helped us, and you have helped to inform the American people. 
After all, they are the people to whom we have to answer.
    Thank you very very much. You have come at some sacrifices 
to yourselves and you have spent your time, and we are very 
grateful.
    Now the committee----
    Senator Stevens. Senator, could I just add one word?
    Chairman Byrd. Yes.
    Senator Stevens. I think we all have to look back and 
realize what great freedom we had before September 11th and see 
what we can do to get us back to that freedom. I'm reminded 
just sitting here listening to the conversation of the fact 
that came out, one of the terrorists that died on 9/11 had 
rented a car in Florida and had some 6,000 miles on that car. 
Yet, we go to great lengths to put up barriers to getting on 
airplanes. I don't know of any barriers we put on highway 
travel to track where people go. He had several different 
credit cards, so we couldn't track where he went.
    But I do hope we don't sacrifice the freedom of this 
country in our rush to try and put up barriers to activities of 
terrorists when we can't predict their actions. We have to find 
some way, again, Dr. Gale, to resurrect the volunteerism of 
this country, to report strange activities and the people 
involved. For instance, as soon as I heard about the crashes, I 
as a pilot said find out where they were trained. Who in the 
world would believe that we would accept $20,000 from people 
who wanted to get trained to fly jumbo jets, and only learn how 
to make turns and fly straight and level?
    Now somehow or another, the concept of awakening the public 
of the need for information flowing into Government, I think is 
much greater than our role of trying to take actions to try to 
prevent these things happening by Government alone. I do hope 
that we can focus on these things, and you all as Governors, 
and Dr. Gale too, I think you have done us a service today by 
raising a lot of flags, but let's not forget freedom as we do, 
and I think that's got to be the watch word for all of us. 
Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Stevens.
    The Chair thanks all members of the committee for their 
attendance and their attention, and for their contributions. 
Thank you, Senator Stevens.

                            COMMITTEE RECESS

    The committee will recess until 2 p.m.--2:15, because there 
is a roll call vote scheduled for 2:00, at which time the 
second panel on the subject of city and county homeland defense 
needs will meet. Honorable Martin O'Malley, Mayor of Baltimore, 
Maryland and Co-Chair of the Federal-Local Law Enforcement Task 
Force, U.S. Conference of Mayors. He will be joined by the 
Honorable Michael Guido, Mayor of Dearborn, Michigan, and Co-
Chair of the Working Group on Homeland Security, National 
League of Cities. The third on the panel is the Honorable 
Javier Gonzales, Commissioner, Santa Fe County, New Mexico, and 
President of the National Association of Counties.
    Thank you one and all.
    [Whereupon, at 12:52 p.m., Wednesday, April 10, the 
committee was recessed, to reconvene at 2:15 p.m., the same 
day.]
       (Afternoon Session, 2:23 p.m., Wednesday, April 10, 2002)

    Chairman Byrd. The committee will come to order. This 
afternoon we continue our full committee hearings on homeland 
security. This is the second session of our hearings. This 
morning we heard from three of our Nation's Governors about the 
challenges they face at the State level in dealing with the 
threat of domestic terror. We heard from Governors Engler of 
Michigan, Barnes of Georgia, and Locke of Washington. We also 
heard from Professor Stephen Gale, of the University of 
Pennsylvania, an acknowledged expert on the whole matter of 
terrorism. Professor Gale informed the committee about some of 
the potential threats facing our country, and I think we all 
agree that they are considerable.
    We also heard from Dr. Ashton Carter of the Harvard Kennedy 
School about some of the ways that the Federal Government 
should organize itself to address these problems, very good 
testimony. The Federal Government has already committed 
substantial resources in the defense of our homeland, but much 
more remains to be done, as we look ahead to a long-term 
commitment, designed to protect our homeland. I have called 
these hearings because this committee, the United States 
Senate, and the people of this country need additional 
information.
    The committee will listen to those who best understand at 
the local level these recurring needs in the Nation's 
communities with one simple goal in mind, namely, to determine 
how best to use the resources to protect and respond to future 
terrorist attacks. I thank all our witnesses for coming to 
Washington to share with the committee your insights concerning 
the needs in homeland security at the local level.
    Our panel this afternoon is made up of city and county 
elected officials who are clearly on the front lines in the 
battle against domestic terrorism in this country. The 
committee has before it Mayor Martin O'Malley of Baltimore, the 
co-chairman of the Federal-Local Law Enforcement Task Force of 
the U.S. Conference of Mayors. He was elected mayor in 1999. We 
have also Mayor Michael Guido, of Dearborn, Michigan, the co-
chairman of the Working Group on Homeland Security of the 
National League of Cities. He was first elected in 1986. He is 
now serving his fifth term in office.
    We have Mr. Javier Gonzales--is that the way you pronounce 
your name?
    Mr. Gonzales. Perfect, Mr. Chairman, thank you.
    Chairman Byrd. Would you pronounce it for me?
    Mr. Gonzales. Javier.
    Chairman Byrd. Javier?
    Mr. Gonzales. Yes, sir.
    Chairman Byrd. All right, thanks--Javier Gonzalez, 
Commissioner of Santa Fe County, New Mexico. Santa Fe, that is 
a community that has been around a long time.
    Mr. Gonzales. Over 400 years, sir.
    Chairman Byrd. Yes, almost as long as that city in Florida 
that was founded in 1565, St. Augustine, and Santa Fe was 
around before the pilgrims set foot on these shores.
    Mr. Gonzales. Yes, sir.
    Chairman Byrd. And you're still here.
    And you're the Commissioner----
    Mr. Gonzales. Thank the Lord.
    Chairman Byrd [continuing]. Of Santa Fe County, New Mexico, 
and president of the National Association of Counties. You've 
served since 1994, and you are now serving your second term. 
You were elected as the president of the National Association 
of Counties in July 2000.
    The committee welcomes all three of you. I now recognize my 
friend and colleague, Senator Ted Stevens, the ranking member 
of the committee for any remarks he may wish to make.
    Senator Stevens. Senator, I made my remarks this morning. I 
welcome the mayors and Mr. Gonzalez. It is a beautiful country 
down there in New Mexico, Senator. Thank you very much. Nice to 
have you all here.
    Chairman Byrd. Thank you, Senator Stevens.
    All right, let us begin with Mayor O'Malley.
    Senator Mikulski. Mr. Chairman, may I have an opportunity--
--
    Chairman Byrd. Oh, absolutely. Absolutely. Let me turn to 
the distinguished Senator, or junior Senator--she is a front 
line Senator, whatever it is, from Baltimore, Maryland. I used 
to be a welder in a shipyard in Baltimore. We built Victory 
ships and Liberty ships.
    Now to my guide, philosopher, and friend, Senator Mikulski.

                Statement of Senator Barbara A. Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman, and 
once again thank you for holding these hearings on how we best 
achieve the goal of homeland security. I am so pleased this 
afternoon that you have invited the people who represent local 
government, the National Association of Counties, and Mayors.
    Mr. Chairman, I am so pleased that the National Conference 
of Mayors has asked Mayor O'Malley to testify, because he comes 
with first-hand experience, and he will share with you really 
what it is like to represent a big city with a small wallet, 
and at the same time face the contributions that are necessary 
for homeland security. I come from local government. I am so 
sympathetic to all three of the people who testify. I was on 
the Baltimore City Council. The newspapers nicknamed us the 
Pothole Parliament.
    Now, why did they call us that? Because our job was to fix 
potholes, but it was to educate our children, and keep school 
libraries open and hope alive. Now with homeland security they 
are asked to be the defenders against terrorism, and the stress 
is on first responders, the public health infrastructure, 
critical infrastructure like railroads and our port, putting 
not only great stress on their personnel but indeed great 
stress on their wallets. So I am looking forward to hearing 
from both Mr. O'Malley, who will be unabashed in what he has to 
tell us about what he considers the unfunded mandate, but also 
from our local people, and from one pothole partner to another, 
we can say a very cordial welcome.
    Chairman Byrd. Thank you, Senator. Mayor, please proceed.
STATEMENT OF HON. MARTIN O'MALLEY, MAYOR OF BALTIMORE, 
            MARYLAND; AND CO-CHAIR, FEDERAL-LOCAL LAW 
            ENFORCEMENT TASK FORCE, U.S. CONFERENCE OF 
            MAYORS
    Mr. O'Malley. Thank you, Mr. Chairman, thank you, Senator 
Mikulski, my fellow refugee from the Baltimore City Council.
    Mr. Chairman, my name is Martin O'Malley, mayor of 
Baltimore City. I am here today on behalf of the U.S. 
Conference of Mayors, as you have mentioned, where I am 
delighted to be able to serve as co-chair of the Federal-Local 
Law Enforcement Task Force during these challenging times for 
our country.
    I want to thank you and the other Senators for calling this 
hearing, as well as all the members of the committee for giving 
us the opportunity to discuss this very, very pressing and 
urgent topic facing our republic. Today we are fighting a 
different kind of war, and it is going to be fought on two 
fronts, one on the forward front, where we have the best 
technology, the best equipment, and no expense is spared, but 
for the first time in nearly 200 years, that second front is 
here at home, and it is in the streets of America's cities and 
our population centers, and to date that is where it is at and 
where we have seen the greatest loss of life, and yet we are 
doing very little thus far to provide for counterdefense in 
America's cities.
    The fact is, local government is the front line of defense 
on the home front, and we desperately need your help. There are 
no Federal or State fire departments or paramedics, and while 
there are about 11,000 FBI agents, that compares to 650,000 
local law enforcement agents throughout this country, and as we 
saw in New York, there is no time to bring in people and 
equipment when a terrorist strikes. For those critical first 
few hours, we are on our own, those critical first few hours 
when there is also the greatest opportunity to save lives.
    In Baltimore, we have chosen to make the investment to make 
our city as safe as we possibly can. We are not waiting for 
Annapolis, we are not waiting for Washington, and Mr. Chairman, 
as a student of history, as a man who built the Liberty ships 
in our city, you know that in Baltimore if we had waited for 
the Federal Government back in 1812, we would all still be 
singing God Save the Queen.
    So we have started now on this. We have started facing up 
to our responsibilities, even though we are facing some very, 
very tight budget concerns, but we have faith that our Federal 
and State governments will catch up to where our 
responsibilities lie.
    We calculate that the prudent steps we have taken since 
September 11 improving our intelligence, improving our 
security, and improving our emergency response capabilities, 
have already cost us about $6.5 million in the city of 
Baltimore. When we go on alert, our police department still has 
to fight crime. The chemical attacks that have taken 6,000 of 
our fellow citizens' lives over the last 10 years was not 
anthrax, it was the chemical attacks of cocaine and heroin, so 
rather than pulling officers away from their duties, we call 
the officers back, or we ask them to work 12-hour shifts, and 
through the end of the fiscal year we expect to spend an 
additional $4.4 million largely on police overtime, guarding 
critical areas of our infrastructure, guarding vulnerable 
points.
    As a tradeoff to help pay for these unbudgeted costs, we 
have implemented tight spending controls across every other 
agency and city government. We have frozen hundreds of 
positions.
    The fiscal year 2002 defense appropriations bill which the 
President signed in December included $20 billion for homeland 
security, and included in this bill was a total of $39 million 
for the State of Maryland to in part protect our Nation's 
capital. This money was provided solely to the State of 
Maryland and the two jurisdictions adjacent to Washington, 
D.C., yet not one dime of that has come to the largest city in 
our State, the city of Baltimore.
    The Conference of Mayors, Mr. Chairman, released a survey 
finding that from September 11 through the end of 2002 
America's cities will spend an additional $2.6 billion on new 
homeland security priorities, including equipment, overtime, 
and training. Mayors know the importance of public safety, and 
we are 100 percent committed to doing our part in defending the 
homeland in this war on terrorism, but we must forge a new 
Federal-local partnership to make sure that our domestic 
groups, our police, our fire-fighters, our paramedics, and 
other city employees have the resources and support they need 
to provide for our defense.
    Mayors appreciate the administration proposing $3.5 billion 
for first responders, and we want to work with Congress to make 
sure dollars are provided in the most efficient and effective 
manner. To that end, it is our firm belief that funding must be 
provided directly to metropolitan areas, to cities' and 
counties' first responders, rather than route it through the 
States, with all the delay and all of the bureaucracy and 
redtape that that entails.
    A recent Department of Justice Inspector General's report 
that the agency's domestic preparedness grant program has a 7- 
to 29-month lifetime--7- to 29-month lifetime between when 
funds are appropriated by Congress and when they're actually 
awarded to the States, and that does not even include the 
subsequent lag through the State and the local level. That is 
no way to win a war.
    This is largely the result of delays in almost every State 
in developing a required comprehensive preparedness plan, plans 
that most cities already provided. In Maryland, these funds 
were delayed by nearly 3 years, with fiscal year 2000 funds 
only recently being released. With our Nation at war, if 
Congress wants to see its actions reflected in additional 
security now for our constituents in a timely manner, direct 
funding to large and medium sized cities and counties is the 
only prudent course of action.
    We also have to ensure that the funding can be used not 
only to prepare for proximal attack, but also to prevent future 
attacks. Our police departments have to have access to funding, 
and officer deployments such as overtime should be specifically 
authorized to coincide with times of heightened alert. For 
example, Mayor's boards strongly supported the more detailed 
terrorist alert system unveiled by Governor Ridge, but these 
alerts will continue to require more officers on the streets, 
in essence, national security being provided by local law 
enforcement.
    That is why the Conference of Mayors strongly supports 
legislation sponsored by Senator Clinton, Senate bill 2038, and 
several other Senators to create a highly flexible $3.5 billion 
homeland security block grant. Homeland defense, currently, is 
nothing but another unfunded mandate and, sadly, from our 
perspective I do not believe we are a whole lot further along 
in forging the new relationship the protection of our country 
requires than we were on September 12.
    You are asking cities to wage a new war against terrorism, 
and oftentimes it is almost implicit that we are being asked to 
pull bodies from fighting crime into homeland defense, and we 
cannot do that. As of last year, violent crime was estimated to 
be at a 20-year low, nationwide. Mayors strongly believe that 
major factors in crime reduction were the additional officers 
on the street, along with new technology, greatly assisted by 
the COPS program and the local law enforcement block grant 
program.
    Over the past few years, Baltimore has achieved a 21-
percent reduction in crime, and I can assure all of you that we 
would not have been able to do that without help from our 
Federal Government, but now as crime is starting to rise in 
many cities and States, we find it counterintuitive that OMB is 
proposing to cut COPS by 80 percent and eliminate the block 
grant by merging it into the State-funded Byrne grant program, 
or the State-directed Byrne grant program. This comes on top of 
the 25-percent reduction in the local block grant last year. We 
simply cannot fund homeland defense by defunding local law 
enforcement, and we strongly believe that one of the best ways 
to prevent terrorism is to have more officers on the streets 
armed with better technology.
    We are already organized on the metropolitan level. We have 
mutual aid agreements with our fire departments and officer 
jurisdictions, mutual aid agreements when it comes to police 
protection, we coordinate all the time with regard to our water 
supplies and so many other things. We need the Federal 
Government to join us there at the metropolitan level where 
American citizens reside in greatest numbers.
    I want to make one final point in conclusion. Although our 
Air Force is fighting thousands of miles away, this war is not 
primarily about Afghanistan or even Osama bin Laden or al 
Qaeda. It is about how strong we are as a Nation, and whether 
we can rise to this new challenge. We have to safeguard our 
Nation, but we also have to continue to invest in our people's 
protection and in our cities. This is not and cannot be an 
either-or situation, and clearly there is no easy answer, and I 
do not think that this Nation has ever faced a war in which we 
did not call upon our people to make greater sacrifice.
    But we are up to this challenge. We are as up to it now as 
we were in the past, and we need your help. Now is the time for 
all parties, cities, States, and Federal Government, along with 
the private sector, to rise to this challenge. We have to think 
differently, we have to form tighter partnerships, and we have 
to do it down at the metropolitan level.
    Thank you.
    Chairman Byrd. Mayor, you also have some important points 
that you make in your prepared statement with reference to 
airport security, passenger and freight rail security, and 
without objection the entire statement will be included in the 
record.
    Mr. O'Malley. Thank you, sir.
    [The statement follows:]
                 Prepared Statement of Martin O'Malley
    Good afternoon. I am Martin O'Malley, Mayor of Baltimore, Maryland. 
I am here today on behalf of The U.S. Conference of Mayors, for which I 
am Co-Chair of the Federal-Local Law Enforcement Task Force.
    I want to thank Chairman Byrd and Senator Stevens for calling 
today's hearing, as well as the entire Committee.
    Thank you for the opportunity to join you today to discuss a topic 
critical to our nation's cities and to our nation: in protecting our 
people in the wake of the tragic events of September 11th, how do 
elected officials address unmet needs and how can the Federal 
government work more effectively with cities to assist in meeting these 
needs?
The New Paradigm For Homeland Security
    Today, we are fighting a different kind of war--on two fronts. One 
front is in Afghanistan, where we have the best technology, the best 
equipment, the best intelligence being sent right to the front, and no 
expense is spared.
    But for the first time in nearly 200 years, the second front is 
right here at home. And to date, it's where we've seen the greatest 
loss of life. Yet, we have insufficient equipment, too little training, 
and a lack of intelligence sharing with federal authorities--although, 
on this last point, we're working with Homeland Security Director Ridge 
and FBI Director Mueller to make it better. And currently, we have very 
little in the way of national funding targeted for homeland defense 
where it is truly needed--at the local government level.
    Local government must be the first line of defense on the home 
front. It can't be a federal or state function. There are no federal or 
state Fire Departments or medics. There are about 11,000 FBI agents 
compared to 650,000 local police officers. And as we saw in New York, 
there is no time to bring people and equipment in from somewhere else 
when terror strikes. For those critical first hours--when there is the 
greatest opportunity to save lives--local governments are largely on 
their own.
    Today, in the new world in which we live, every mayor has a choice 
to make: your city can be prepared or not; it can be a hard target or 
it can be a soft target; you can make a huge unanticipated investment 
now to keep your people safe, or you can cross your fingers, wait for 
help from a higher level of government, and hope for the best.
    In Baltimore, we have chosen to make the investment. We are not 
waiting for Annapolis. We are not waiting for Washington. If our city 
had waited for advice on self-defense from Washington in the war of 
1812, all of us would be singing ``God Save the Queen.''
Baltimore's Interim Homeland Security Response
    Baltimore is a fairly typical city in terms of our vulnerability--
but somewhat unique in terms of our greatness. I think what we are 
doing today provides a good illustration of what cities are being asked 
to do in our nation's defense. We are moving forward on three fronts:
    On the Intelligence front:
  --Recruited Richard Hunt, retired Chief of Criminal Intelligence for 
        the FBI.
  --Created and formalized a statewide security intelligence network, 
        working with other law enforcement agencies.
  --Engaged in ongoing dialogue with the FBI and Department of Justice 
        to improve intelligence sharing.
  --Met daily with Federal authorities to obtain intelligence.
  --Created a web-based surveillance system to provide real time 
        reporting from hospitals, ambulances, animal control, school 
        attendance and over-the-counter medicine to track common 
        symptoms in uncommon amounts--as well as hospital bed 
        availability.
  --Tested reservoirs and the water system several times daily.
    Second, on the Security front, we have:
  --Completed a citywide assessment of infrastructure vulnerabilities.
  --Completed a deployment plan to secure and protect City's 
        vulnerabilities, such as major buildings, water system, 
        stadiums, major rail and interstate highway bridges and 
        tunnels.
  --Called daily security briefings with Police, Health, Fire, Public 
        Works, Transportation and IT Departments and State officials 
        almost every day.
  --Bolstered police and security presence at City buildings.
  --Arrested and charged people who make bomb threats.
    Third, on the Emergency Response front:
  --Recruited a civil preparedness expert, former NYPD Chief Louis 
        Anemone to update our emergency preparedness blueprint, with 
        four graduated levels of response.
  --Recruited experts like the U.S. Army Soldier and Biological 
        Chemical Command (SBCCOM) in Aberdeen at Aberdeen and the 
        Center for Civilian Biodefense at Johns Hopkins University to 
        advise the Security Council.
  --Implemented a bio-terrorism plans with hospital CEO's.
  --Met with local news directors to discuss City's ongoing 
        preparedness and dissemination of information in the event of 
        an emergency.
  --Completed an assessment of personal protective equipment 
        requirements for all emergency responders and submitted unified 
        request for said additional equipment to MEMA.
Local Homeland Security: Extraordinary Costs
    We calculate that the prudent steps we've taken since September 
11th already have cost the city approximately $6.5 million. When we go 
on alert, our Police Department still has to fight crime. The chemical 
attack that has taken the most lives in Baltimore still is heroin and 
cocaine. So rather than pulling officers away from their duties, we 
call other officers back, or they work 12-hour shifts.
    Through the end of the fiscal year, we expect to have to spend an 
additional $4.4 million--largely on police salaries. We consider it our 
patriotic duty to step up to the plate. But when we approved our budget 
for this fiscal year, we did not anticipate that our police, fire and 
emergency responders would double as local militia in a war on 
terrorism. We need to strengthen our supply lines from Washington.
    In addition to the approximately $11 million I've mentioned, we 
also have a $3.5 million request pending with the Maryland Emergency 
Management Agency for personal protective equipment. Right now, our 
first responders are not fully equipped. And our water utility plans to 
spend an additional $24 million in capital funds to convert chlorine 
gas to bleach at all of our water and waste water facilities. As a 
tradeoff to help pay for these unbudgeted costs, we have implemented 
tight spending controls in virtually every program area except for 
public safety and criminal adjudication. We have frozen more than 250 
vacant General Fund positions Citywide. This freeze affects everything 
from our ability to fully staff our recreation centers to our efforts 
at collecting mixed refuse and maintaining our roads and streetlights--
all very important quality-of-life issues for the people of Baltimore 
and high priorities for me as Mayor. We have also put a hold on 
approximately $6 million worth of non-personnel spending Citywide for 
contractual services as well as the purchase of materials, supplies and 
equipment.
Aid from the Federal Government
    Back in November, the State along with the big seven jurisdictions 
submitted a comprehensive funding request to Congress for such things 
as equipment, overtime costs, renovation of the backup emergency 
operations center and training.
    As a result of this request, in the fiscal year 2002 Defense 
Appropriations bill, which President Bush signed in December, $20 
billion was appropriated for homeland security. Included in this bill 
was a total of $39 million for the State of Maryland to in part, 
protect the Capitol. As indicated, the funding was only provided to the 
State of Maryland and the two jurisdictions adjacent to Washington, DC. 
The funds were distributed as follows:
  --$8.5 million to Montgomery County for police and fire vehicles, 
        bio-terrorism response, vaccines and reimbursement from 9/11,
  --$7.9 million to Prince George's County for hazmat vehicles, 
        vaccines and fire and police operations and equipment,
  --$10.5 million for State Department of Health and Mental Hygiene for 
        bio-terrorism response, vaccines, training and computer 
        upgrades,
  --$7 million to the Maryland State Police for inoperability and IT 
        systems, computer upgrade and patchwork of crime watch list,
  --$3.5 million for the Maryland State Police for bomb squad unit, 
        bomb squad robots and a helicopter,
  --$986,000 to the Maryland State Police for Baltimore Washington 
        International Airport bomb and canine team,
  --$508,000 to the Maryland State Police for field operation system,
  --$9,000 to the Maryland State Police for crime lab equipment and 
        training.
    The Conference of Mayors released a survey which found that from 
September 11, 2001 through the end of 2002, cities will spend an 
additional $2.6 billion on new homeland security priorities including 
equipment, overtime and training.
    Mayors know the importance of public safety and are 100 percent 
committed to the homeland war against terrorism. But we must forge a 
new federal-local partnership to make sure that our domestic troops--
police, fire, emergency workers and other city employees--have the 
resources needed for this new challenge.
    Let me touch on just a few points contained in our National Action 
Plan on Safety and Security.
Supporting Our First Responders
    Mayors appreciate the Administration proposing $3.5 billion for 
first responders, and want to work with Congress to make sure that 
those dollars are provided in the most efficient and effective manner.
    To that end, it is our belief that funding must be provided 
directly to city and county first responders, rather than all flowing 
through the states.
    I know that this Committee heard from governors this morning, so I 
want to stress this point. I am very concerned that despite the best 
intentions of the Administration in developing its plan, the needs of 
the local first response community will not be met unless funding is 
provided directly to medium and larger sized cities and counties.
    We must also ensure that the funding can be used to not only 
prepare for a possible attack, but to also help prevent future attacks. 
Our police departments must have access to the funding, and officer 
deployments such as overtime should be specifically authorized.
    For example, mayors called for and support the more detailed 
terrorism alert system unveiled by Governor Ridge, but these alerts 
will continue to require more officers on the streets--in essence 
national security being provided by local law enforcement.
    This is why the Conference of Mayors strongly supports legislation 
sponsored by Senator Clinton (S. 2038) and several other Senators to 
create a highly flexible $3.5 billion Homeland Security Block Grant.
    I also want to thank Congress and the Administration for the recent 
infusion of new funding focused on building the nation's public health 
infrastructure. But we must remain vigilant in understanding that most 
of the capacity needs to respond to chemical and biological events are 
at the local level.
The Ongoing Fight Against Crime
    While we wage the new war against terrorism, we must not retreat 
from the ongoing fight against crime.
    As of last year, violent crime was estimated to be at a 20-year low 
nationwide. Mayors strongly believe that major factors in this crime 
reduction were additional officers on the streets, the deployment of 
new technology, and a new focus on community policing--all of which 
were greatly assisted by the COPS program and Local Law Enforcement 
Block Grant (LLEBG).
    Over the past two years, Baltimore has seen a 24 percent reduction 
in crime which I can assure you would not have been possible without 
the help of these federal resources.
    But crime is still a major issue in cities, and key indicators, 
such as the economy and return of more than 600,000 ex-convicts 
annually to our cities, have led some experts to predict an upswing in 
crime rates.
    That is why we find it counterintuitive that OMB is proposing to 
cut COPS by 80 percent and eliminate the block grant by merging it into 
the state Byrne Grant program. This comes on top of a 25 percent 
reduction in the local block grant last year.
    We simply cannot fund homeland defense by de-funding local law 
enforcement, and we strongly believe that one of the best ways to 
prevent terrorism is to have more officers on the streets armed with 
better technology.
Airport Security
    We are pleased that many of our aviation security recommendations 
are being implemented by Congress and the Administration, in particular 
federalizing airport screeners, screening all checked baggage and the 
year-end requirement to have explosive detection systems in place.
    I cannot stress enough the importance of honoring the language and 
timetables of the aviation security law. Installation of sophisticated 
explosive detection systems at all 429 commercial airports by December 
31 is a top priority of the nation's mayors.
    And, I want to urge Congress to appropriate funding for the 
reimbursement of security costs incurred by local government in meeting 
federal security mandates at our airports.
Transit Security
    Second, with more than nine billion trips logged on the nation's 
public transit systems each year, securing these systems and protecting 
riders from potential terrorist activities must be a high priority.
    To increase security while not compromising our ability to meet 
growing demand for public transit, we have called for new resources for 
security personnel; the deployment of new technologies; and 
infrastructure improvements including secure transit control 
facilities, fencing and barriers.
Passenger and Freight Rail Security
    Third, The U.S. Conference of Mayors strongly supports Amtrak's 
fiscal year 2003 request of at least $1.2 billion. Eliminating long 
distance routes would have a devastating impact on the nation in normal 
times of travel; and much more so in the event of a national emergency 
as we saw on September 11.
    Funding should also be supported to improve Amtrak's security.
    Now, more than ever, we must strengthen our nation's passenger rail 
system, not dismantle it.
A New Federal Response is Needed
    Fighting terrorism and safeguarding our citizens from terrorism 
always has been a national challenge. But now the paradigm has 
changed--our homeland is vulnerable. Without a dramatic shift in how we 
finance a portion of our homeland security, protecting our homeland 
will become an unfunded mandate on local governments.
    Federal support today for local homeland security is a patchwork of 
programs. They are largely uncoordinated and provide no common 
standards for how states and localities should best use these funds. 
Even the programs that have the highest potential impact--like FEMA's 
FIRE Grant programs--meet only a fraction of local government needs. 
FEMA provided just $100 million last year, and is providing $360 
million this year, despite nearly $3 billion in applications from fire 
departments in the first round of the program.
    Local governments need stable funding for this effort. We also need 
a one-stop shop to turn to for assistance in gearing up for this war.
Conclusion
    Finally, I would like to make one more point in conclusion. 
Although our armed forces are fighting thousands of miles from our 
shores, this war is not primarily about Afghanistan or Osama Bin Laden. 
It is about how strong we are as a nation--about what we are willing to 
do to maintain our way of life--which is being threatened in very real 
ways, as people have died going about their daily routines.
    The people who flew airliners filled with innocent people into 
buildings filled with innocent people were not uneducated--they were 
not acting alone--and they were not unprepared to die trying to destroy 
our way of life.
    They will not relent. So the question remains: what are we willing 
to do to protect our way of life? How will America rise to the 
challenge, and how will we become even stronger?
    We must safeguard our nation. But we also must continue to invest 
in our people and our cities. This is not and cannot be an either or 
situation.
    Clearly, there is no easy answer to how we fund the war on the 
homefront. Overcoming the overwhelming task can be accomplished. This 
country has done it before and can do it again.
    Now is the time for all parties--cities, states, the federal 
government and our private sector partners--to rise to the challenge. 
And, we must succeed.
                 Biographical Sketch of Martin O'Malley
    On November 2, 1999, after an energetic, hard-fought campaign that 
captured the hopes and imaginations of families throughout the city, 
Martin O'Malley was elected as the youngest Mayor in Baltimore's 
history with an overwhelming 91 percent of the vote. Two months 
earlier, he garnered 53 percent of the vote in the Democratic primary, 
winning all six of Baltimore's City Council Districts and besting a 17-
candidate field that included the sitting City Council President and a 
former City Councilman and School Board member, who were the campaign's 
early frontrunners.
    Following through on his campaign themes of accountability, change 
and reform, Mayor O'Malley has made improving public safety, education, 
and economic development--downtown and in each of Baltimore's 
celebrated neighborhoods--the cornerstones of his covenant with the 
people of Baltimore. Within a week of taking office, he also kicked off 
an ambitious drive to make Baltimore America's cleanest city.
    Prior to his election as Mayor, Martin O'Malley served on the 
Baltimore City Council from 1991 to 1999, and as an Assistant State's 
Attorney for the City of Baltimore from 1988 to 1990.
    After winning election to a 3rd District City Council seat in 1991, 
the Mayor rapidly rose through the ranks to become Chairman of the 
Legislative Investigations Committee and Chairman of the Taxation and 
Finance Committee.
    Mayor O'Malley, a graduate of Catholic University and the 
University of Maryland School of Law, is a member of the Maryland Bar 
Association.
    Mayor Martin O'Malley and his wife Katie Curran O'Malley live in 
Baltimore's Beverly Hills community with their two daughters, Grace and 
Tara, and son William. They are members of St. Francis of Assisi 
Church.
 CITY OF BALTIMORE SUMMARY OF EMERGENCY PREPAREDNESS COSTS FOR FISCAL 
                               YEAR 2002
                         (ENDING JUNE 30, 2002)

   TABLE 1.--SUMMARY OF EMERGENCY PREPAREDNESS COSTS INCURRED BY CITY
             AGENCIES FROM SEPTEMBER 2001 THROUGH MARCH 2002
------------------------------------------------------------------------
                                                    Non-       Subtotal
              Agency                Personnel    Personnel       All
                                     Expenses     Expenses     Expenses
------------------------------------------------------------------------
Police Department................   $3,045,281      $51,306   $3,096,587
Fire Department..................      432,415      203,079      635,494
Health Department................      383,463      162,858      546,321
Office of Transportation.........       45,027        5,011       50,039
Public Works--General Services...       51,127      119,275      170,402
Bureau of Water and Waste Water..      116,020    1,654,453    1,770,473
Circuit Court....................  ...........       58,000       58,000
Sheriff's Office.................      158,548  ...........      158,548
Mayor's Office of Information            2,963  ...........        2,963
 Technology......................
                                  --------------------------------------
      TOTAL......................    4,234,844    2,253,982    6,488,826
------------------------------------------------------------------------
Note: All figures presented here are preliminary and subject to change.


      TABLE 2. SUMMARY OF ANTICIPATED REMAINING COSTS FOR EMERGENCY
                    PREPAREDNESS IN FISCAL YEAR 2002
------------------------------------------------------------------------
                                                    Non-       Subtotal
              Agency                Personnel    Personnel       All
                                     Expenses     Expenses     Expenses
------------------------------------------------------------------------
Police Department................   $2,639,059     $379,234   $3,018,293
Fire Department..................       32,139        1,920       34,059
Health Department................       94,500      256,250      350,750
Office of Transportation.........  ...........       61,100       61,100
Public Works--General Services...  ...........       70,000       70,000
Bureau of Water and Waste Water..       48,971      493,791      542,762
Circuit Court....................  ...........      215,000      215,000
Sheriff's Office.................       75,355  ...........       75,355
                                  --------------------------------------
      TOTAL......................    2,890,024    1,477,195    4,367,219
------------------------------------------------------------------------
Note: All figures presented here are preliminary and subject to change.

        CITY OF BALTIMORE AGENCY ACTIVITIES SINCE SEPTEMBER 11TH
                         (ENDING JUNE 30, 2002)
I. Police Department--General Fund
    Actual expenses--$2,527,827.
    Anticipated expenses--$2,815,393.
    Activities/costs include:
  --$2,527,827 spent in personnel costs--regular time, overtime and 
        benefits--and non-personnel costs including consultant 
        payments--$6,200 to Lou Anemone and $34,566 to Richard Hunt.
  --$2,815,393 anticipated in personnel costs with an estimate that the 
        City will spend $235,000 per pay period for 2 pay periods and 
        another $1.77 million for one pay period, assuming there is 
        another attack. There is also $383,744 for non-personnel costs 
        such as plant traffic barriers and additional payments to the 
        consultants.
II. Police Department--Water and Waste Water Fund
    Actual expenses--$568,760.
    Anticipated expenses--$202,900.
    Activities/costs include:
  --$578,760 spent on regular time, overtime and benefits.
  --$202,900 anticipated future costs based on $50,000 per pay period 
        times four pay periods.
III. Health Department
    Actual expenses--$546,321.
    Anticipated expenses--$350,750.
    Activities/costs include:
  --$546,321 spent consists of personnel costs--regular time, overtime 
        and benefits--diverted to bioterrorism activities, including 
        personnel sent to work at anthrax testing and clinic sites.
  --$350,750 anticipated costs include minimal ongoing personnel 
        expenses for clinics and bioterrorism response as well as 
        funding to strengthen the bioterrorism surveillance network 
        (add staff, more training for hospitals, web based reporting 
        system).
IV. Fire Department
    Actual expenses--$635,494.
    Anticipated expenses--$34,059.
    Activities/costs include:
  --$635,494 spent for regular time, overtime and benefits for use of 
        the fire boat in the Port and response to hazmat calls. Non-
        personnel costs relate to maintenance of the fire boat and 
        Battalion truck responding to hazmat calls with an additional 
        amount for equipment and supplies.
  --$34,059 anticipated costs reflect decision to cease fireboat 
        patrol. Costs are estimated based on weekly level of hazmat 
        calls and maintenance.
V. Transportation Office
    Actual expenses--$50,039.
    Anticipated expenses--$61,000.
    Activities/costs include:
  --$50,039 spent consists of personnel--regular time, overtime and 
        benefit--costs.
  --$61,000 anticipated cost is for camera modification at the 
        Emergency Operations Center and other City buildings (City 
        Hall, Benton).
VI. Bureau of Water and Waste Water
    Actual expenses--$1,770,474.
    Anticipated expenses--$542,762.
    Activities/costs include:
  --$1,770,474 spent represents costs for increased security and 
        monitoring, including sample testing of the water distribution 
        system, storm center coverage and labor and materials for 
        welding manholes closed.
  --$542,762 anticipated costs consist of ongoing personnel based on 
        the average costs for four-week period for water sampling and 
        security and additional costs for fencing, cameras, barricades, 
        electronic door lock monitors, front entrance security, card 
        readers, traffic barriers, automated gates and security 
        contract costs.
VII. Department of Public Works--General Services
    Actual expenses--$170,402.
    Anticipated expenses--$70,000.
    Activities/costs include:
  --$170,402 spent in personnel functions--regular time, overtime and 
        benefits--for renovating the Emergency Operations Center as 
        well as $10,000 in overtime costs as the Central Garage in the 
        days following 9/11.
  --$70,000 anticipated for installation of the ground source heat pump 
        at the Emergency Operations Center.
VIII. Sheriff's Office
    Actual expenses--$158,548.
    Anticipated expenses--$75,355.
    Activities/costs include:
  --$158,548 spent in overtime salaries and wages, along with benefits.
  --$75,355 anticipated personnel costs based on a $10,000 per pay 
        period plus overtime and benefits.
IX. Circuit Court
    Actual expenses--$58,000.
    Anticipated expenses--$215,000.
    Activities/costs include:
  --$58,000 spent for video cameras in the judges chambers.
  --$200,000 anticipated cost for new, more secure garage doors for 
        Courthouse East.
  --$15,000 anticipated for video cameras in the Family Court division.
X. Mayor's Office of Information Technology
    Actual expenses--$2,963.
    Anticipated expenses--$0.
    Activities/costs include:
  --$2,963 spent for personnel overtime and benefits.

    Chairman Byrd. Now, Mayor Michael Guido.
STATEMENT OF HON. MICHAEL GUIDO, MAYOR OF DEARBORN, 
            MICHIGAN; AND CO-CHAIR, WORKING GROUP ON 
            HOMELAND SECURITY, NATIONAL LEAGUE OF 
            CITIES
    Mr. Guido. Thank you very much, sir, Mr. Chairman, 
distinguished members of the committee. My name is Michael 
Guido. I am mayor of the city of Dearborn, and I co-chair the 
Task Force on Homeland Security for the National League of 
Cities.
    The National League of Cities is the Nation's oldest and 
largest association representing municipal governments in 
Washington, D.C. NLC's membership includes more than 135,000 
local elected officials in 18,000 big and small cities, 
representing 225 million Americans. The National League of 
Cities is pleased to have this opportunity to share its view on 
the administration's budget proposal, as well as the fiscal 
year 2003 appropriations process for homeland security 
programs.
    Since the September 11 terrorist attacks, cities across 
America have heightened security for infrastructure, for 
events, and for transportation. They have assumed 
responsibility for counterterrorism in partnership with Federal 
law enforcement agencies, and revamped emergency preparedness 
plans. Cities have also responded to anthrax threats and 
incidents. They have also purchased new equipment and have 
shouldered significant costs in overtime pay.
    According to a recent survey of NLC members, cities could 
spend more than $2 billion this year to cover unbudgeted 
homeland security needs. For the city of Dearborn, we have 
spent more than $500,000 on overtime costs, training, and other 
related expenses stemming from the terrorist attacks.
    The lessons that we learned from September 11 indicate the 
need for better coordination among all levels of government. In 
Dearborn, we thought that it was in our community's best 
interest to create a homeland security position, called the 
community preparedness officer, within our police department. 
Among his duties, this officer coordinates information along 
with the State and Federal agencies.
    The municipal governments have supported the creation of 
the White House Office of Homeland Security, and the proposals 
to increase FEMA's capacity to help State and local governments 
prepare, plan, and train.
    Mr. Chairman, we applaud your willingness to improve 
funding, coordination, and information-sharing, actions which 
hopefully will prevent such catastrophic acts of terrorism in 
the future. In order to achieve this objective, however, we 
realize that there must be significant improvements made at and 
among all levels of government. In this regard, I would like to 
discuss both long and short-term municipal priorities for 
domestic preparedness that the National League of Cities 
believes should be addressed.
    Funding is needed now to assist in planning to cover 
overtime expenses of our first responders and to improve 
emergency communications systems. We strongly urge you to 
appropriate funding for these immediate needs through 
supplemental appropriations for fiscal year 2002. If local 
governments have access to resources for these purposes, we 
will be in a much better position to maximize the use of 
proposed funding such as the Homeland Security Block Grant Act, 
or first responder initiative, in fiscal year 2003.
    Coordination is essential as States develop and submit 
their emergency preparedness plans to FEMA, and as the 
jurisdictions orchestrate mutual aid agreements, proper funding 
for emergency management is critical.
    It is also important to manage threats of bioterrorism. We 
realize that States recently received the first round of grants 
for bioterrorism preparedness, and we know that a House-Senate 
conference committee is meeting to finalize the Bioterrorism 
Preparedness Act. However, we have concerns about how much of 
this funding will actually reach county and municipal levels. 
More direct funding to local governments and certain 
performance guidelines are needed. In most situations, cities 
are the first responders, and they may be on the scene for at 
least 6 hours before outside resources arrive.
    In Dearborn, when we had an anthrax scare at our post 
office, our hazmat team responded, our police department 
responded, our fire department responded. We had no one from 
the Postal Service respond at all. We secured the scene and 
found out that it was a hoax. There was no help from the State 
police, and no one of any other agency helped us in that 
particular incident.
    Having the proper training, the equipment, communications, 
and planning place is extremely crucial for local governments. 
As you know, all levels of government are experiencing 
significant budget constraints. Homeland security is one of the 
most serious factors affecting municipal budgets. Deficits at 
the State level, coupled with the uncertainty of exactly how 
much cities will receive through the proposed first responder 
initiative, will certainly impact our budget. These 
circumstances could be made worse with the severe budget cuts 
and restructuring plans the administration is proposing for two 
crucial programs, community-oriented policing services, the 
COPS program, and the local law enforcement block grant. 
Programs like these should not be jeopardized, because they 
directly impact homeland security and local public safety.
    The National League of Cities advocates direct block grants 
file funding to cities for first responder preparedness. We 
believe the administration's proposed 25 percent in-kind match 
in the first responder initiative may discourage some cities 
from requesting funds. NLC believes a Federal agency with the 
capacity to administer a block grant for counterterrorism, such 
as Senate bill 2038, the Homeland Security Block Grant Act, is 
needed. This agency would ideally function as both a grants 
management center and as an information clearinghouse on 
counterterrorism resources.
    Mr. Chairman, the National League of Cities strongly 
advocates direct funding to cities, but it is our understanding 
that the proposed first responder initiative would allocate 75 
percent of the $3.5 billion program to local governments 
through States based upon population. If this program is 
funded, we urge you to waive the 25-percent matching funds 
requirement. We also would like you to ensure, through 
statutory language in the appropriations bill, that the States 
forward the 75 percent to cities and counties within the 30-day 
period after receiving the grants.
    Another point we want to emphasize involves our grave 
concerns about the lack of a coordinated emergency 
communications system. Because emergency responders do not 
share common broadcast frequencies, lives are at risk. 
Different jurisdictions use different broadcast frequencies, 
and incompatible equipment. Within my own city, the police and 
the fire departments have very limited capacity to communicate 
with each other because they use different frequencies.
    We believe that this situation is unacceptable. Cities need 
funding for the creation of a seamless energy communications 
network linking all public safety entities.
    Mr. Chairman, allow me to tell you about our interactions 
with the new Office of Homeland Security as it has been 
established. NLC's leadership, members, and staff, have met 
with the Office of Homeland Security on multiple occasions to 
discuss the priorities that I have outlined. We have expressed 
our support for the office's monumental task of overseeing the 
coordination of domestic security activities and, in return, 
Director Tom Ridge and his staff have been accessible to NLC's 
staff and members. NLC has supported the Homeland Security 
Advisory System on March 12 and, additionally, the National 
League of Cities has supported the Preparedness Against 
Domestic Terrorism Act, which would provide congressional 
oversight for a national council or agency for 
counterterrorism.
    We continue to support this goal to ensure accountability 
as well as effective coordination among all levels of 
government. We understand that this committee is not directly 
responsible for sanctioning programs or operations. However, 
the NLC urges Congress to authorize the Office of Homeland 
Security as a Cabinet-level agency with its own budget 
authority and congressional oversight. We want the agency to 
have the authority to direct all Federal spending and 
activities related to terrorism prevention and response.
    In closing, I would like to reiterate that our 
counterterrorism plan must provide a significant increase in 
direct funding to local governments. Again, the National League 
of Cities appreciates this opportunity to discuss its homeland 
security priorities with you, and we look forward to working 
with you to achieve these goals throughout the appropriations 
process.
    I am happy to answer any questions at the appropriate time. 
Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Michael A. Guido
    Chairman Byrd and members of the Appropriations Committee. I am 
Mayor Michael Guido of Dearborn, Michigan, co-chair of the National 
League of Cities' (NLC) task force on homeland security and a member of 
the League's Board of Directors.
    The National League of Cities is the nation's oldest and largest 
association representing municipal interests in Washington, DC. NLC's 
membership includes more than 135,000 local elected officials and 
18,000 cities and towns representing 225 million Americans throughout 
the United States. Our member cities range in population from the 
nation's largest cities of New York and Los Angeles to its smallest 
towns and villages.
    The National League of Cities is pleased to have this opportunity 
to share its views on the Administration's budget proposal and the 
fiscal year 2003 appropriations process for homeland security programs.
    Since the September 11 terrorist attacks, cities and towns across 
America have strengthened security for physical infrastructure, events 
management and transportation. They have significantly increased 
surveillance activities, assumed responsibilities for counterterrorism 
in partnership with federal law enforcement agencies, revamped 
emergency preparedness plans, responded to anthrax threats and 
incidents, purchased new equipment and have shouldered significant 
costs in overtime pay for first responders. According to a recent 
survey of NLC member cities, could spend more than $2 billion this year 
to cover unbudgeted homeland security needs.
    The lessons we learned, from both the tragic bombing of the Murrah 
Building in Oklahoma City in 1995 to the terrorist attacks on the World 
Trade Center and the Pentagon, indicate the need for better 
coordination among all levels of government in order to achieve an 
effective state of national domestic preparedness. From the creation of 
the White House Office of Homeland Security to the proposals to 
increase FEMA's capacity to help state and local governments prepare, 
plan and train, and the recently enacted PATRIOT Act--municipal 
governments support these actions and applaud your willingness at the 
federal level to improve funding, coordination and information sharing, 
preparedness levels and training so that we can hopefully prevent such 
catastrophic acts of terrorism in the future. Mr. Chairman, to achieve 
this objective, however, we realize that there must be significant 
improvements made at and among all levels of government. In this 
regard, I would like to discuss both long- and short-term municipal 
priorities for domestic preparedness that NLC believes should be 
addressed.
    Funding is needed now to assist in planning, to cover overtime 
expenses of our first responders, and to improve emergency 
communications systems. We strongly urge you to appropriate funding for 
these immediate needs through supplemental appropriations for fiscal 
year 2002. If local governments have access to resources for these 
purposes, we will be in a much better position to maximize the use of 
proposed funding such as the Homeland Security Block Grant Act or First 
Responder Initiative in fiscal year 2003.
    Planning and coordination are essential as states develop and 
submit their emergency preparedness plans to FEMA. However, it is our 
experience that many cities have not been engaged in developing these 
state response plans in the past, and we hope this will not be the case 
this time.
    As jurisdictions orchestrate mutual aid agreements to facilitate 
disaster response in an expedited and cost-effective manner, proper 
funding for emergency management and planning is critical along with 
resources to strengthen coordination between local first responders and 
public health systems to manage threats of bioterrorism.
    We realize that states recently received the first round of grants 
for bioterrorism preparedness and that a House-Senate conference 
committee is meeting to finalize the Bioterrorism Preparedness Act, 
which would provide funds for drinking water vulnerability assessments 
and emergency preparedness plans and upgrades. These measures are 
indeed essential; however, we do have concerns about how much of this 
funding will actually reach county and municipal levels. More direct 
funding to local governments and certain performance guidelines are 
needed.
    For example, the Office of Management and Budget's Annual Report to 
Congress on Combating Terrorism, submitted May 18, 2000, reported that 
local governments received less than four percent of the total federal 
budget of over $9 billion for counterterrorism in fiscal year 2000. We 
hope that this will not be the case after September 11.
    Cities need direct federal funding for preparedness and must be 
recognized as the focal point for all disaster mitigation and recovery 
activities in any strategic counterterrorism plan. In most situations 
it is local first responders who are managing the emergency response 
and recovery operations for a disaster for at least six hours before 
outside resources arrive. Having the proper training, equipment, 
communications, and planning in place for crisis and consequence 
management is extremely crucial for local governments.
    As you know, all levels of government are experiencing significant 
budget constraints. Homeland security is undoubtedly one of the most 
serious factors affecting uncertain municipal budgets with decreased 
revenues and increased expenditures. Unlike the federal government, 
cities cannot operate at a deficit. Deficits at the state level, 
coupled with the uncertainly of exactly how much funding cities will 
receive through the proposed First Responder Initiative for homeland 
security and related programs, will certainly impact local revenue 
shortages. These circumstances could be exacerbated even more with the 
severe budget cuts and restructuring plans that the Administration has 
proposed for existing programs in fiscal year 2003 such as Community 
Oriented Policing Services (COPS) and the Local Law Enforcement Block 
Grant--two programs that directly impact homeland security and local 
public safety. These and other existing programs should not be 
jeopardized.
    Cities provide the most efficient means for building effective 
homeland security. Each has unique security needs and emergency 
response networks, and spending decisions must be controlled by local 
governments rather than by states.
    In this regard, NLC advocates direct block-grant style funding to 
cities for homeland security, and is concerned that the 
Administration's proposed 25 percent in-kind match in its First 
Responder Initiative may discourage some cities from requesting funds 
for first-responder preparedness.
    NLC believes a federal agency with the capacity to administer a 
block grant for counterterrorism, such as S. 2038, the Homeland 
Security Block Grant Act, is needed. This agency would ideally function 
as both a grants management center and as a clearinghouse in providing 
a composite list of all federal grants, training programs, and 
technical assistance available to local governments for 
counterterrorism, which are located in more than 40 federal agencies. 
The administering agency should have the capability to educate local 
jurisdictions about successful examples of regional planning and mutual 
aid agreements, vulnerability assessments, information sharing, model 
procedures, terrorism consequence plans, and other relevant guidance.
    It is our goal that better coordination at the federal level and 
direct assistance to local governments will enable us to avoid 
duplication of effort, gain greater clarification about the types of 
federal counterterrorism programs available to assist local 
governments, and ultimately improve early detection, warning, and 
response capabilities against the use of weapons of mass destruction.
    Mr. Chairman, although NLC strongly advocates direct funding to 
cities and towns for domestic preparedness, it is our understanding 
that the proposed First Responder Initiative would allocate 75 percent 
of the $3.5 billion program to local governments through their 
respective states, based upon population guidelines. If this program is 
funded, we urge you to waive the 25 percent matching funds requirement 
and include statutory language in the appropriations bill that would 
ensure that the states forward the 75 percent to cities and counties 
within 30 days of receiving the grant. This would be important to 
reassure cities and towns that have failed to receive adequate funding 
through state block grants in the past, and it would help ensure that 
smaller jurisdictions are not overlooked and receive proper assistance.
    Another point we want to emphasize involves our grave concerns 
about the lack of interoperability capabilities among first responders 
and emergency communications systems. In the wake of the Oklahoma City 
bombing, first responders resorted to runners who relayed critical 
information to various command centers throughout the city because they 
could not communicate with federal, state, and local authorities using 
the existing communications systems. These same problems were 
experienced during the response activities for September 11. Because 
emergency responders don't share common broadcast frequencies, lives 
are at risk. Law enforcement, fire departments, and emergency medical 
systems need to rely on instant radio communications. But different 
jurisdictions use different broadcast frequencies and incompatible 
equipment.
    This is unacceptable. Cities need the immediate allocation of 
proper spectrum channels for public safety and the necessary funding 
for deployment of interoperable equipment to create a seamless 
emergency communications network that would efficiently link all public 
safety entities in times of emergency.
    Mr. Chairman, I believe you have also inquired about the level of 
contact that the new Office of Homeland Security has established with 
cities. NLC's leadership, members, and staff have met with the Office 
of Homeland Security on multiple occasions to discuss the priorities 
outlined above and express support for its monumental task of 
overseeing the coordination of domestic security activities. Director 
Tom Ridge and his staff have been accessible to NLC and have offered 
direct support to several cities regarding information and planning 
requests. NLC has supported the recent Homeland Security Advisory 
System announced on March 12. This is a welcome first step in helping 
the federal and local levels communicate effectively on homeland 
security, providing more clarification about what to prepare for during 
a level of alert with guidelines for local officials and first 
responders so they can best direct their resources and receive critical 
information for preparedness that would otherwise remain classified. We 
are reviewing the details of the announcement and corresponding 
Presidential Decision Directive, and look forward to providing feedback 
about the alert levels.
    Additionally, NLC has supported the Preparedness Against Domestic 
Terrorism Act, which would provide congressional oversight for a 
national council or agency for counterterrorism. Our policy continues 
to support this goal to ensure effective coordination among all levels 
of government as well as accountability. We do understand that this 
Committee is not directly responsible for sanctioning programs or 
operations.
    However, with the need for a federal agency with the capacity to 
administer a block grant as mentioned earlier in my testimony, NLC 
urges Congress to authorize the Office of Homeland Security as a 
Cabinet-level agency with its own budget authority and congressional 
oversight, and the authority to direct all federal spending and 
activities related to terrorism prevention and response.
    In closing I would like to reiterate that any strategic 
counterterrorism plan must provide a significant increase in direct 
funding to local governments for preparedness and response activities, 
including training, threat and vulnerability assessments, effective 
emergency communications systems and public health systems, and 
critical infrastructure protection. Again, NLC appreciates this 
opportunity to discuss its municipal priorities for homeland security, 
and looks forward to working with you to achieve these goals throughout 
the appropriations process. I am happy to answer any questions at the 
appropriate time.
    Thank you.
    Addenda:
  --NLC Resolution for a National Strategic Counter-Terrorism Plan; and
  --NLC survey report on Homeland Security In America's Cities and 
        Towns: Critical Issues, Responses, and Costs.
                Biographical Sketch of Michael A. Guido
    Michael A. Guido has been the Mayor of his hometown since Jan. 1, 
1986. He's now serving his fifth term in office after winning 
reelection in the year 2001 with 80 percent of the vote.
    The son of Italian immigrants to America who adopted the hometown 
of automotive pioneer Henry Ford as their own, Mayor Guido is a 
lifelong city resident and a product of Dearborn Public Schools 
(Fordson High School, class of 1972).
    Early on, the Mayor recognized and developed a deep appreciation 
for Dearborn's enviable way of life. This appreciation fueled a passion 
in him for serving the citizens of this special city and a deep 
commitment to helping it prosper.
    In 1977, at the age of 23, he became the youngest person ever 
elected to the Dearborn City Council, serving two four-year terms until 
becoming the youngest Mayor in the city's history. Today, more than 16 
years later, he still claims that being the mayor of his hometown is 
the greatest job and greatest honor anyone could have.
    Since day one, Mayor Guido has based his administration on values 
of public service, accountability and accessibility. He's remained true 
to Dearborn's tradition of quality public services, while blending this 
commitment with a focus on successfully implementing innovative new 
programs, facilities and technologies that deliver those services more 
effectively and efficiently. The Mayor's vision and leadership have 
strengthened the city's neighborhoods, bolstered its downtown business 
districts and catalyzed continued growth in Dearborn's industrial, 
manufacturing and technology sectors.
    And he's done it all with a track record of fiscal responsibility. 
The city's operating tax rate has remained the same or been cut in each 
of the last 12 years, and Mayor Guido has balanced every city budget 
he's been responsible for.
    Here are a few of Dearborn's many success stories that Mayor 
Guido's helped to forge:
  --The city's overall crime rate has dropped by 33 percent since 1990 
        alone. Some crimes have declined even more: burglary, for 
        example, is down by 44 percent since he took office.
  --Advanced Life Support (ALS) technology has been installed in 
        emergency medical rescue vehicles, shortening the time it takes 
        to bring potentially lifesaving treatment to victims of car 
        accidents or medical emergencies. In the year 2001 alone, 
        emergency responders used ALS to extend the lives of almost 
        2,000 people in critical need.
  --The total assessed value of all property in the city has increased 
        by two and one half times what it was when the Mayor took 
        office: from $1.84 billion to an all-time high of more than 
        $4.46 billion in the year 2001. New construction has averaged 
        more than $155 million a year for each of the last 16 years.
  --New neighborhoods and retail centers have been built--two examples 
        are Georgetown Commons ($23 million) and West Village ($11 
        million)--thanks to Mayor's Guido's leadership in working with 
        private sector developers to make them happen.
  --The year 2001 marked the grand opening of Dearborn's Ford Community 
        & Performing Arts Center, North America's largest municipally-
        owned community recreation and cultural complex. The $43 
        million facility is five times the size of the city's former 
        Civic Center.
    Throughout his life, a key priority for Mayor Guido has been 
helping to make Dearborn an even greater place to live by serving as an 
active member and supporter of the city's many community service 
organizations. Many of these organizations have expressed their 
appreciation for his decades of dedicated service. Some of the honors 
he has received are: Optimist Club of Dearborn Key Award, Dearborn 
Exchange Club Distinguished Service Award, Michigan Jaycee Outstanding 
Young Man of Michigan Award, Outstanding Young Man of America Award, 
Rotary International Paul Harris Fellowship, Henry Ford Community 
College Community Service Award, Detroit College of Business 
Outstanding Community Service Award and the University of Michigan-
Dearborn Distinguished Leadership Award.
    The Mayor's leadership and track record of success have contributed 
to his emergence as a national leader helping to shape the public 
policies affecting America's urban centers.
    Mayor Guido has served as a member of the Board of Directors of the 
National League of Cities (NLC) since the year 2000. In the wake of the 
attacks on America of September 11, 2001, he was asked to co-chair the 
NLC's Homeland Security Committee with Acting Mayor Mary Poss of 
Dallas, Texas.
    Mayor Guido serves as a member of the governing executive committee 
of the United States Conference of Mayors, and chairs one of the 
Conference's 10 standing committees (Urban Economic Policy Committee), 
and the Conference's telecommunications subcommittee.
    He is a past president of the Michigan Association of Mayors, and a 
past president and past member of the Board of Directors of the 
Michigan Municipal League (MML). For his dedicated service, the League 
in 2001 awarded Mayor Guido its highest distinction by naming him an 
MML Honorary Life Member. He also serves as a member of Federal 
Communications Commission's Local & State Government Advisory Committee 
and as a member of the Amtrak Mayors' Advisory Council.
    Mayor Guido earned his Bachelor of Arts degree from Wayne State 
University, and is a graduate of the Mayor's Leadership Institute at 
Harvard University's Kennedy School of Government. Born on July 3, 
1954, he and his wife, Kari, have two sons: Michael, Jr., and Anthony.


             National League of Cities Resolution #2002-41
               NATIONAL STRATEGIC COUNTER-TERRORISM PLAN
    WHEREAS, the terrorist attacks in America on September 11, 2001, 
caused massive casualties and major damage to infrastructure critical 
to national defense and the economy; and
    WHEREAS, the police, firefighters, and medical services personnel 
in New York, Virginia, and Pennsylvania responded immediately to the 
attacks on the World Trade Center, the Pentagon, and in Pennsylvania, 
risking their lives to rescue victims and perform recovery operations; 
and
    WHEREAS, many cities throughout the world sent public safety 
personnel to assist local first responders in the aftermath of the 
attacks; and
    WHEREAS, Americans have a diminished sense of security and physical 
safety because of the nature of the recent attacks and subsequent 
potential threats that have been identified; and
    WHEREAS, terrorist activities can involve both conventional devices 
and weapons of mass destruction, such as chemical, nuclear, and 
biological agents or cyber terrorism that could potentially affect 
numerous communities; and
    WHEREAS, local governments and states do not receive the federal 
funding and resources needed for domestic terrorism preparedness and 
are currently seeking significant federal guidance and resources for 
training, equipment, and information to properly prepare for terrorist 
attacks, including nontraditional methods of rescue; and
    WHEREAS, many emergency medical response systems are ill-prepared 
to respond to large-scale public health emergencies resulting from 
terrorist use of biological and chemical agents because of the absence 
of a clear strategic national plan; and
    WHEREAS, EMS and other local emergency medical response teams and 
procedures are in place, but not all response personnel are trained to 
identify lethal toxins or to properly treat citizens exposed to 
biological agents using appropriate isolation and decontamination 
equipment, and appropriate medical treatment; and
    WHEREAS, our nation's defense must be coordinated among all levels 
of government with proper safeguards against threats to critical 
infrastructure and institutions, such as telecommunications and 
information networks, banking and financial systems, power grids, 
energy systems, transportation networks, water distribution systems, 
medical and health systems, schools and other educational facilities 
and emergency response services; and
    WHEREAS, the federal government has failed to provide adequate 
security for the transport of hazardous materials and weapons.
    NOW, THEREFORE BE IT RESOLVED that the National League of Cities 
salutes the heroism of the first responders to the attacks on September 
11, and recognizes that local officials and first responders are on the 
front line of defense against terrorism and must be prepared; and
    BE IT FURTHER RESOLVED that the National League of Cities calls on 
Congress to authorize and oversee a Cabinet-level agency, with specific 
appropriations, to fully implement, in consultation and partnership 
with all levels of government, a coordinated national preparedness and 
response plan, ensuring:
  --that prevention and mitigation are the highest priorities of our 
        nation's defense;
  --local government will be the focal point for all disaster 
        mitigation and recovery activities;
  --a significant increase in funding to local governments for 
        preparedness and response including processes to resolve equity 
        issues in disaster relief efforts;
  --the restructuring of airport security, as stated in the NLC 
        Resolution on National Aviation Security;
  --special resources devoted to any facilities and densely populated 
        areas that have the potential to be terrorist targets;
  --agricultural counterterrorism and food safety efforts are 
        sufficiently funded;
  --strict standards and enforcement for the transport of hazardous 
        materials and weapons;
  --procedures for sharing sensitive intelligence with local 
        governments, as needed, without jeopardizing national security;
  --the development of a comprehensive evaluation of risk factors for 
        potential terrorist targets;
  --specialized training and resources, including rapid test methods 
        for public safety, health officials, and hospital personnel to 
        properly identify and treat any threats to public health 
        resulting from terrorists' use of biological, chemical, and 
        nuclear weapons of mass destruction;
  --local and regional coordination of emergency room readiness and 
        response, with special response devoted to biological threats 
        and access to antidotes; and
  --the resolution of barriers to communication both technical and 
        practical.
    BE IT FURTHER RESOLVED that the National League of Cities calls on 
the telecommunications industry to fully develop and fund wireless 
emergency locater services and tracking systems, and lead efforts to 
resolve interoperability problems that affect emergency communications 
systems throughout the nation.
    Adopted on December 8, 2001, National League of Cities' Annual 
Business Meeting, Atlanta, Georgia.
            Homeland Security in America's Cities and Towns
                 CRITICAL ISSUES, RESPONSES, AND COSTS
    ``. . . Since Sept. 11, cities and counties have rapidly and 
somewhat awkwardly adapted. Police departments are behaving like 
intelligence agencies, interviewing foreigners and surveying the 
infrastructure for weaknesses that might be exploited by the enemy. 
Local governments are appointing liaisons to neighboring agencies--like 
diplomats who negotiate regional treaties in the event of an attack. 
Hazardous material teams have become front-line soldiers, responding to 
the smallest hints of bioterrorism.
    ``The new security and public health costs--defense budgets in 
practice if not in name--are expected to total as much as $4 billion 
for state governments and $3 billion for localities by the end of this 
year. These obligations have left city councils and county supervisors 
facing a dilemma once reserved for those in Congress: If we spend more 
money on defense, where do we cut? `If you're a city or a town, you 
can't wait for the federal government, you can't wait for Tom Ridge,' 
says University of Wisconsin professor Donald F. Kettl, referring to 
Bush's recently appointed director of homeland security. `If you're the 
mayor of Appleton, you're the real Tom Ridge anyway.'
    ``To interview 5,000 young Middle Eastern men about terrorism, the 
Justice Department relied on police departments around the country. 
Security updates on city halls, courthouses, water and electric plants 
are taking place. Across the nation, the cost of vigilance is mounting.
    ``Localities can't expect direct help from states, either. Thirty-
six states face a combined shortfall of $40 billion; a figure that the 
National Governors Assn. predicts could reach $50 billion, or 10 
percent of all state revenues, by early next year. That picture is far 
bleaker than during the 1990 recession . . .'' (Excerpt from the Los 
Angeles Times, December 27, 2001, Home Edition)
    1. Cities, particularly smaller cities, report an increased 
emphasis on regional approaches to homeland security--by ``regional,'' 
we mean increased cooperation with other cities, towns, counties, etc., 
as well as with private sector groups, nonprofits, and civic 
organizations.
Silsbee, TX (pop. 6,400)
    The Emergency Management team is county wide and includes about 60 
people from industry, police, fire, schools, EMT, and city 
representatives. It meets about every 2 months and has thus far revised 
the emergency awareness handbook to include more information on 
terrorist preparedness.
Jupiter, FL (pop. 39,000)
    After a post office in Jupiter received a suspicious package in 
October, the city decided to step up its terrorist preparedness through 
cooperation with other cities, levels of government, and agencies. Fire 
Department Lt. Peter Allen said, ``The fire department has been 
training and preparing for events such as these for some time now. We 
are working closely with surrounding departments as well as county, 
state and federal agencies to maintain the highest level of 
preparation.'' In addition, the city takes part in a state effort. 
Fire-Rescue Chief James Weinand is Palm Beach County's representative 
to Gov. Jeb Bush's Domestic Terrorism Task Force, so the department 
receives constant up-to-date information on threats and suspected 
terrorist activities in the state.
Foley, AL (pop. 7,600)
    The agreement between the city and the U.S. Navy base within the 
city has been changed to create a joint jurisdiction over the base 
between the Navy and the city's police department. In the past, the 
arrangement was proprietary. There has been no specific resolution that 
has designated funds, but the mayor estimates that a minimum of 
$100,000 has been spent for police officer overtime.
Terrell, TX (pop. 14,000)
    City department heads from the administration, finance, public 
works, police, fire, utility, and municipal development meet with area 
entities to discuss their emergency plans of action, to make sure they 
are able to work with one another in case of an emergency. In addition, 
this committee plans to meet with representatives from the following 
entities: Public Schools, State Hospital, County, Public Hospital, Mark 
Hardin (FBO), Red Cross, Department of Public Safety, Major Industries 
(Madix, Vistawall), and shelter owners to ensure sustainable 
cooperation. Also, department heads are working with local entities to 
ensure that they will have an ample number of supplies, as well as a 
number of locations to purchase supplies in case of an emergency.
Boston, MA (pop. 589,000)
    The Boston Police Bomb Squad has done security training with 
businesses, hospitals, and universities encouraging them to have a plan 
in place to deal with emergency situations, and to contact 911 about 
any threat or perceived threat.
Los Angeles, CA (pop. 3,700,000)
    The City Attorney's Office will be partnering with the Building 
Owners and Management Association, Staples Center, leading public 
safety officials and private sector leaders to commission a study of 
security and emergency measures that are currently in place in the 
city. The study will also make recommendations on safety and security 
procedures for potential private sector terrorist targets in Los 
Angeles.
Minneapolis, MN (pop. 383,000)
    Since Sept. 11, Minneapolis has and continues to collaborate and 
cooperate with federal, state and county law enforcement. Minneapolis' 
Chief of Police meets regularly to share and gather new information as 
it becomes available concerning the City of Minneapolis. Federal 
authorities assigned to this region have been providing continuous 
updates about any new information.
Bismarck, ND (pop. 56,000)
    Bismarck has been the leader for the western half of the state, 
assisting with outreach, assuring businesses, citizens of domestic 
preparedness resources, and working with state and county emergency 
managers.
Various areas:
    Five Pacific Northwest states and three Canadian provinces are 
putting together a joint plan for how to respond to an attack. So are 
the governors of North and South Carolina.
    2. Cities and city officials are taking on roles they haven't 
played before, such as appointing ``homeland security officers'' in 
their city to coordinate security efforts. Some are assisting the 
Justice Department in the interviewing of individuals who may pose a 
risk, while others are increasing security at the U.S. borders with 
Mexico and Canada.
Appleton, WI (pop. 70,000)
    Before Sept. 11, Appleton's police Lt. Rudy Nyman had served as 
``operations coordinator.'' He supervised traffic and towing, ran a 
``crime prevention through environmental design'' initiative and 
organized special events, including the Largest Flag Day Parade in 
America. But in early October, he was told to form plans for defending 
Appleton from terrorist attack. The mayor now introduces Nyman as 
``chief of homeland security.'' Nyman's first task was defining 
potential targets. He worked his way past the obvious targets, such as 
large gathering places, and gradually added railroad facilities, 
highways and most government buildings. So far the list has more than 
100 sites.
Chula Vista, CA (pop. 174,000)
    The city immediately heightened security at the Mexican border.
Jupiter, FL (pop. 39,000)
    Plain-clothed officers have been ordered to wear their uniforms and 
drive marked cars to increase visibility on the streets. The sheriff's 
office is also restructuring the tactical and special weapons units to 
deal with the increased terrorist threat, including the creation of two 
10-member emergency response teams. The new teams will be on duty seven 
days a week to respond to emergencies.
Arlington, TX (pop. 333,000)
    In Fort Worth, police have conducted assessments of all department 
buildings. Arlington's police and fire departments are in the process 
of conducting inspections of some 150 city-owned structures and 
buildings. Arlington Police Deputy Chief Michael Ikner, who is 
overseeing the project, said patrol sergeants have been charged with 
the task of assessing facilities in their beats. He said the project 
will take several weeks to complete. A cost estimate is not yet 
available.
    3. There is a need for additional training for all cities. Larger 
cities seem to have already had some form of anti-terrorism training, 
usually through FEMA (see San Jose report below). However, the smaller 
cities report that they have not had this type of training and it is 
too costly for them to obtain on their own. For smaller cities, most of 
the additional public safety costs are coming in the form of overtime 
for police and fire personnel. This is true for larger cities, however 
many of them are also reporting increases/improvements in 
infrastructure and/or equipment.
San Jose, CA (pop. 895,000)
    As one of the nation's 27 largest cities, San Jose was approached 
in 1997 to take part in a federal preparedness program. Receiving 
federal funds and classified intelligence information on credible 
terrorist threat scenarios, the city was asked to devise a response 
plan to everything from anthrax attacks on bridges and water systems. 
Under the guidance of Frances Edwards-Winslow, Director, Office of 
Emergency Services, San Jose was the first city to complete the 
Pentagon's training program for terrorism preparedness in 1998 and 
fully coordinate community emergency services. The federal government 
has presented San Jose's terrorism response plan as a national model 
for 120 other cities designing similar civil defense protocols. Listed 
on several secure federal Web sites, the plan has inspired scores of 
calls from areas that want to emulate San Jose. This program cost $1.4 
million in federal funds and millions more from of its own funds.
Orlando, FL (pop. 186,000)
    The City Council approved a $2.5 million installment on the city's 
security plan that includes funding for its new Urban Search and Rescue 
truck, equipment and team.
Tempe, AZ (pop. 159,000)
    The city has concentrated on enhancing security measures such as 
increasing security personnel, installing advanced security alarms, 
improving communication strategies in the case of an emergency plan and 
developing new mail handling procedures. The estimated cost of these 
changes is approximately $200,000. Additionally, enhanced security 
measures are taken at all public events at a cost of approximately 
$50,000 per event.
Arlington, VA (pop. 190,000)
    The county board has appropriated $280,000 to the Arlington Fire 
and Police Departments for the purchase of chemical, biological and 
radiological detection and decontamination equipment.
Foley, AL (pop. 7,600)
    The agreement between the city and the U.S. Navy base within the 
city has been changed to create a joint jurisdiction over the base 
between the Navy and the city's police department. In the past, the 
arrangement was proprietary. There has been no specific resolution that 
has designated funds, but the mayor estimates that a minimum of 
$100,000 has been spent for police officer overtime.
    4. To the extent that the federal government steps in to help fund 
increased security measures in cities, city officials are stressing 
that this support needs to be an ongoing, dedicated stream of money--
not a 2-year or 3-year federal program that cities are later expected 
support through their existing tax bases.
Silsbee, TX (pop. 6,400)
    The small population of this city tax contributions do not allow an 
adequate tax base for heavy expenditures on security preparedness. 
Mayor Dean Robinson noted too that it is important to keep in mind that 
even if federal programs were allocated to small cities, their tax base 
would not allow for maintenance of these programs without continued 
federal support.
    5. Cities are heavily involved in increasing their hazardous 
materials preparations, largely as a result of the anthrax scare. 
Examples of cities dealing with drastically increased numbers of 
``suspicious white powder'' threats are common, and the costs of 
dealing with these threats can be large. Cities also report increases 
costs of obtaining the protective suits for dealing with biohazards, 
which can also be quite expensive.
Various cities
    For years, about the only new expense on city and county public 
safety budgets was for police cars and fire engines. Since the 
terrorist attacks of Sept. 11, a new but necessary item has appeared: 
biohazard suits. Local governments are expected to foot the bill for 
their biohazard suits. The suits can range from as little as $60 to $70 
for used suits, to top-of-the-line models ranging from $500, to more 
than $2,000 each for high-tech suits with a special breathing 
apparatus.
Los Angeles, CA (pop. 3,700,000)
    City council adopted legislation suggested by its Threat 
Preparedness Task Force to improve its' anti-terrorism readiness. Some 
of the new developments include:
  --Purchase of 1,700 emergency masks for the LAPD and 1,300 for the 
        LAFD and four additional bomb detection technicians and canines 
        for the LAPD's Bomb Squad at a cost of $1 million.
  --The permanent assignment of LAPD and LAFD representatives to the 
        L.A. County Operational Area Terrorism Early Warning Group 
        (TEW).
  --Additional 516 Hazmat suits and equipment for the LAPD, including 
        bio-detection equipment costing $351,000 to increase hazardous 
        materials detection capabilities by the LAPD and LAFD.
  --Motion (not approved to date) for $2.3 million to expand the LAFD's 
        urban search and rescue unit by 12 people and hire 10 more 
        security officers.
  --Motion (not approved to date) for $140,000 for four vehicles for 
        the LAPD's hazmat unit.
Appleton, WI (pop. 70,000)
    With federal officials urging citizens to call 911 when anthrax 
contamination is suspected, area police officers and sheriffs have 
collected as many as 30 bags of suspicious powder a week and sent them 
to a state lab for testing. Cost to taxpayers? $1,000 per bag.
Riverdale, GA (pop. 12,000)
    In addition to the purchase of biohazard suits, city fire officials 
said they faced an added cost of acquiring a storage trailer for them. 
The two suits on order are $1,200 each, but an additional $7,000 was 
part of the bill to securely and safely store the suits.
Fayette County, GA (part of Atlanta metro area)
    A potential threat at a local post office resulted in the team's 
spending about $3,000 to determine no threat existed. Afterward, the 
team spent several weeks responding to an average of a half-dozen 
similar calls a week. The county has some disposable biohazard suits 
costing around $600 each.
Durham, NC (pop. 187,000)
    In late October Durham voted to use federal grant money on new 
police equipment, namely bioterrorism suits, as opposed to adding 
additional police officers. The grant will provide almost $100,000 for 
96 biohazard suits and 280 state-of-the-art gas masks. The grant will 
also allow for over $150,000 in crime prevention equipment and $1 
million to buy land for a substation and other police operations.
Columbus, OH (pop. 711,000)
    The city has already spent $320,000 in overtime related to calls 
for anthrax scares and reports of suspicious packages.
Jupiter, FL (pop. 39,000)
    The Jupiter Town Council approved $12,500 to be spent on 98 
helmets, gas masks and protective shields for officers who might have 
to respond to the scene of an attack.
    6. Some cities, particularly the larger cities, report that they 
have conducted or are engaged in public education efforts about how to 
deal with terrorist threats and emergencies. Examples include the use 
of city websites to distribute information and campaigns to distribute 
leaflets/pamphlets with directions for how to react in the case of an 
emergency.
Arlington, VA (pop. 190,000)
    Soon after the terrorist attacks, the county organized a community 
forum on emergency preparedness and bioterrorism in which county 
officials met with the public to answer questions about public safety, 
health, schools and other topics. They also provided a twelve-page home 
guide to emergency preparedness in seven languages which can be 
accessed on their website.
Boston, MA (pop. 589,000), Denver, CO (pop. 555,000), and Minneapolis, 
        MN (pop. 383,000)
    Cities that have made educational pamphlets, useful emergency 
links, fact sheets, etc. available their website.
Olympia, WA (pop. 43,000)
    The city website was restructured to allow people to gain easy 
access to information pertaining to security and community 
preparedness. In addition, a pamphlet about mail handling was 
distributed to all homeowner associations (approx. 40) and all downtown 
business associations (approx. 120) to then copy and distribute to 
their clientele. The cost associated with this activity included 
payment for staff time and mailing expenditures. People of the city 
interested in further information could also attend a community 
preparedness class. All city employees received a mail handling class.
    7. Many cities mentioned stepping up security around airports, 
water and electric supplies, and in some cases, nuclear power plants. 
Various cities also mentioned stepped up security measures around port 
facilities.
Manitowoc County, WI (city of Manitowoc pop. 34,000)
    The sheriff's office is spending $2,000 a day in overtime to 
provide 24-hour protection for the Point Beach nuclear power plant.
Watertown, SD (pop. 20,000)
    The city immediately moved to protect its water facilities, which 
include a water filtration plant and a 6,000-acre lake. In an effort to 
prevent water contamination, the city will most likely will turn to a 
regional approach of water testing, working with the state to 
centralize the testing process and procedures, and coordinating this 
effort among local governments.
Bismarck, ND (pop. 56,000) and Hickory, NC (pop. 37,000)
    Insured and/or increased water supply security.
Carlisle Borough, PA (pop. 18,000)
    Implemented a very detailed security plan for their water plant 
which ultimately will cost the rate payers a substantial sum in order 
to fully realize.
Fort Lauderdale, FL (pop. 152,000)
    In addition to enhanced security at city buildings, the city 
secured their water treatment plants, water tanks and well fields, 
wastewater treatment facilities, and executive/general aviation 
airport. The total estimate for the period of Sept. 11-Nov. 20, 
including these measures and others was almost $327,000.
Worcester, MA (pop. 173,000)
    City Manager Thomas Hoover stated that the cost of increased 
security at Worcester Regional Airport since September 11 has been 
averaging $30,000 to $35,000 per week. Police patrols were increased 
around and near what were determined to be high-risk targets, such as 
high-rise buildings, public utilities, the Worcester Centrum Centre and 
other facilities that draw crowds, and religious institutions. Police 
has watched the Muslim mosque on Laurel Street and businesses owned by 
Arab-Americans closely, the city manager said. Total costs for new 
security measures are not yet available.
Kodiak, AK (pop. 6,000), Fort Lauderdale, FL (pop. 152,000), Savannah, 
        GA (pop. 132,000) and Portland, ME (pop. 64,000)
    Increased security at port facilities.
Terrell, TX (pop. 14,000)
    The city has established a comprehensive plan of action since the 
events of September 11. Included are provisions for increased 
protection at water plants. At City Lake Pump Station at Elmo these 
include: (1) Three locked gates along drive to plant; (2) Buildings 
remain locked at all times; (3) Intruder alarm monitored by Water Plant 
computer; (4) Radio telemetry used to operate pumps and to show pump 
station status and; (5) Radio communication link continuously monitored 
by Water Plant computer.
    8. In addition to looking at overall safety concerns, many cities 
have concentrated on the response of health specialists in the case of 
an emergency, as well as the planning and coordination of medical 
supplies and equipment.
Allentown, PA (pop. 107,000)
    If Allentown is the site of a bioterrorism attack, city health 
officials said, a small army will receive and distribute a shipment of 
medical supplies that could protect and treat about 375,000 people. The 
shipment, known as a ``push pack,'' is part of the National 
Pharmaceutical Stockpile, which provides antibiotics, antidotes, 
intravenous lines, ventilators and vaccines to disaster sites anywhere 
in the nation within 12 hours.
    Each push pack is more than 100 containers regularly restocked by 
the U.S. Centers for Disease Control and Prevention in Atlanta. 
Collectively, they weigh more than 50 tons, consume more than 5,000 
square feet of floor space and hold supplies valued at more than $3 
million. For security reasons, the eight stockpile locations and 
designated receiving areas are not disclosed, he said, but the 
emergency management people who need to respond know where they are. It 
is estimated that the more than 200 sites within the county will be 
sufficient to serve as mass casualty sites. These would include 
schools, community halls and churches, in which to break down and 
dispense medical supplies to those exposed but not sick.
    9. Some cities are encountering new expenditures and pursuing new 
ways of raising revenues.
Vancouver, WA (pop. 144,000)
    The Vancouver city council met with representatives from the 
Southwest Washington Health District, which resulted in a proposal of a 
$127,000 program to improve detection, response and communication in 
the event of a future terrorist attack involving anthrax, smallpox or 
other infectious agent. The health district has asked Vancouver to 
provide $50,879, or 40 percent of the cost. The Southwest Washington 
Medical Center board of trustees voted to provide $127,000 to cover 
first-year expenses, so Vancouver will consider providing dollars 
beginning in 2003.
Columbus, OH (pop. 711,000)
    The City Council is expected to approve a smaller budget than the 
previous year for the first time in memory and will only be providing 
an increase to the Department of Public Safety. All others will be cut, 
says Mayor Michael Coleman. Coleman said Columbus plans to spend $1.5 
million for additional security in city buildings, plus training people 
in workplace safety, preparing for public-health emergencies, updating 
response plans in city buildings and holding drills with schools and 
hospitals and other communities. Also in the safety budget will be two 
new police classes with 80 officers and a class of 25 firefighters.
    The city also will buy a police helicopter for $1.1 million, 
replacing an old one. It will spend $848,000 on a radio system to 
ensure that Columbus police and firefighters are on the same frequency 
and are able to communicate not only with each other, but with more 
than 100 other emergency and government agencies, including suburban 
communities and the Franklin County Sheriff's Office, said Assistant 
Public Safety Director Barb Seckler. Health Commissioner William C. 
Myers said the Metropolitan Medical Response System has stocked up on 
antibiotics in case of a biological attack. That includes Cipro in case 
anthrax is detected. He also said six trailers have been positioned 
throughout the county to decontaminate people in a biological or 
chemical attack.
Kansas City, MO (pop. 442,000)
    Two ordinances were introduced that would ask Kansas City voters in 
February for a quarter-cent sales tax increase for police and a 5-cent-
per-pack cigarette tax increase for bioterrorism response. If approved, 
the proposal would raise about $276 million to upgrade police 
facilities and hire 130 to 150 additional officers. However, the plan 
wouldn't raise all the $110.8 million police were seeking for building; 
it would generate $85 million to $90 million for capital improvements. 
The cigarette tax ordinance, introduced by Councilman Ed Ford, would 
raise about $1.5 million annually for the Fire Department's hazardous 
materials team and for other emergency preparedness activities. The 
quarter-cent sales tax increase would cost a family of four with an 
annual income of $50,000 about $30 a year. The cigarette tax would rise 
from 10 cents per pack to 15 cents per pack.
Seattle, WA (pop. 563,000)
    Seattle police Chief Gil Kerlikowske said that since Sept. 11, his 
department has identified several measures needed to beef up his 
agency's domestic security preparedness, including the purchase of 
bomb-sniffing dogs.
    To cover such costs, King County Executive Ron Sims proposed a one-
time, 1.2 percent property tax increase as part of his 2002 budget 
plan. The revenues would help to create a reserve fund to cover 
countywide domestic-security costs, such as unexpected police, court, 
jail and public-health costs arising from the international situation. 
The monies would also help pay salaries of county employees in the 
military reserves who are called to active duty. Property taxes would 
increase between $3 and $4 per $100,000 of assessed value.
    However, the proposal was blocked by a voter-approved initiative 
barring governments from increasing base property-tax collections by 
more than 1 percent a year unless voters approve more.
    On the bright side, the county's council did agree to spend 
$162,000 to hire a consultant and a one-year city employee who will 
study the city's preparedness for emergencies and recommend changes.
    Sims plans to revisit domestic-security funding issues early next 
year, and will likely try to redirect money from other programs or win 
federal grants. In the meantime, financing domestic security will mean 
reprioritizing existing resources. About $450,000 for gas masks, 
biohazard moon suits and other equipment and training was included in 
the budget however with slipping tax revenues and a troubled economy, 
difficult choices are being made.
Sources:
    Allentown, PA: The Morning Call (Allentown), January 4, 2002, 
Second Edition.
    Appleton, WI: Los Angeles Times, December 27, 2001, Home Edition.
    Arlington, TX: Fort Worth Star Telegram, October 23, 2001.
    Arlington, VA: http://www.co.arlington.va.us.
    Bismarck, ND: The Bismarck Tribune, December 23, 2001, METRO 
EDITION.
    Boston, MA: http://www.cityofboston.gov.
    Brusly, LA: Mr. Joey Normand, Mayor.
    Columbus, OH: The Columbus Dispatch, November 13, 2001.
    Denver, CO: http://www.denvergov.org.
    Durham, NC: The Herald Sun, October 30, 2001.
    Foley, AL: Mr. Tim Russel, Mayor.
    Fort Lauderdale, FL: Mr. Al Ortenzo, Assistant Chief of Police.
    Jupiter, FL: The Jupiter Courier, October 28, 2001.
    Kansas, MO: Kansas City Star, November 9, 2001.
    Los Angeles, CA: Los Angeles Times, November 7, 2001.
    Los Angeles, CA: http://www.lacity.org.
    Minneapolis, MN: http://www.ci.minneapolis.mn.us.
    Olympia, WA: Mr. Greg Wright, Emergency Management.
    Orlando, FL: http://www.cityoforlando.net.
    Riverdale, GA: The Atlanta Journal and Constitution, December 26, 
2001, Home Edition.
    San Jose, CA: Los Angeles Time, November 4, 2001.
    Seattle, WA: The Seattle Post-Intelligencer, November 24, 2001, 
Final Edition, The Seattle Times Company, November 21, 2000, Fourth 
Edition, and November 14, 2001, Fourth Edition.
    Silsbee, TX: Mr. Dean Robinson, Mayo.
    Tempe, AZ: Mr. Patrick Flynn, Assistant City Manager.
    Terrell, TX: Ms. Raylan Baker, Executive Secretary, Office of the 
City Manager.
    Vancouver, WA: The Columbian, October 23, 2001.
    Worcester, MA: Telegram & Gazette, October 25, 2001.

    Chairman Byrd. Thank you, Mayor Guido.
    Commissioner Gonzalez.
    Senator Domenici. Mr. Chairman.
    Chairman Byrd. The Senator from New Mexico.
    Senator Domenici. Might I just introduce the speaker?
    Chairman Byrd. Please do that, yes.
    Senator Domenici. Mr. Chairman and fellow Senators, this is 
Javier Gonzales from the City of Santa Fe. It would be enough 
to have that behind his name. We would welcome him. But in 
addition, the county commissioners of our country have elected 
him as their chairman of all the county commissioners in the 
United States.
    That is a pretty robust group over the last 15 or 20 years. 
They have had to do more and more work that looks and feels 
like being a city, and we have a good county that works with 
the city. We have a pretty good arrangement in these United 
States, and I was just so pleased that he got a chance to get 
up here that I wanted to introduce all of you to this very, 
very successful young man in a city where it is very difficult 
to be a successful politician. He seems to thrive in it, and I 
am sure he will represent the county commissioners well.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you. Commissioner, you are in the 
front seat in the front row now, with that kind of an 
introduction.
    Senator Domenici. I noticed Mayor Guido did have the 
agendas attached to his statement. Would you place those in the 
record, too, please?
    Chairman Byrd. Yes, indeed. They will be placed in the 
record.
STATEMENT OF HON. JAVIER GONZALES, COMMISSIONER, SANTA 
            FE COUNTY, NEW MEXICO; AND PRESIDENT, 
            NATIONAL ASSOCIATION OF COUNTIES
    Mr. Gonzales. Mr. Chairman, thank you for your kind words 
about our community. Member Stevens, I, too, had the privilege 
of touring your State with my peers. We toured the Alaska 
National Wildlife Refuge in Prudhoe Bay, and your State is 
beautiful, and Senator Domenici, thank you for your enormous 
contribution to our State as a citizen in New Mexico, I will 
forever be grateful for what you have done and certainly what 
you will do for us in the future, so thank you.
    Thank you for inviting me, Mr. Chairman, to testify on an 
issue of paramount importance to counties across the country, 
securing our homeland against the threat of terrorism.
    As you are aware, counties are first responders to 
terrorist attacks, natural disasters, and other major 
emergencies. County public health, law enforcement, fire, and 
emergency management personnel have major responsibilities for 
planning preparedness, response and recovery actions. Counties 
also own, operate, and security key aspects of the Nation's 
infrastructure such as airports, transit systems, water 
supplies, courts, schools, and hospitals. Elected county 
officials like myself, along with our emergency managers, 
provide the essential regional leadership, planning, and 
coordination function in preventing, preparing for, and 
managing our community's response to emergency events.
    In the wake of the terrorist attacks of September 11, 7 
months ago today, I appointed a NACO Task Force on Homeland 
Security. The task force, comprised of 45 top county officials 
from across the country, was formed to provide a forum for 
county officials to advise the Federal Government about the 
roles and concerns and financial needs of counties regarding 
homeland security as we increase prevention and security 
measures in our communities. NACO's task force met three times, 
and I would like to share the problem statements and policy 
recommendations from those meetings with you as summarized in 
an eight-page publication, First Responders Counties Secure 
America, which, Mr. Chairman, I offer for the record.
    Let us discuss public health. In the public health area, 
there are two major problems, the need to rebuild critical 
elements of our Nation's public health system, and the 
restoration of the State-local infrastructure. County officials 
are calling on the Congress to provide adequate funding for 
bioterrorism preparedness, and to provide a modest down-payment 
in restoring essential elements of the Nation's public health 
system. NACO believes that an appropriation of a minimum of 
$1.8 billion is needed to implement the law fully and 
effectively, with at least $940 million dedicated to rebuilding 
and maintaining local and State public health infrastructures, 
including increasing the capacity of local public health 
departments to respond to disease outbreaks, including 
bioterrorism events.
    State and local plans are due April 15, and Mr. Chairman, I 
can report to date, based on information NACO has received from 
our affiliate organization, the National Association of County 
and City Health Officials, that the record of collaboration 
between States and counties is mixed, adding to the need for a 
strong local public health capacity. After we review the State 
plans, we will have a much clearer sense of the extent States 
will be addressing local needs, particularly sustainable 
staffing and training at the local level.
    Now, as regional governments, counties are in the unique 
position to provide the leadership, planning, and coordination 
function needed to prevent, prepare for, and manage the 
response to bioterrorism events. NACO recently conducted a 
survey of county health departments, and the results of that 
survey show that less than 10 percent--less than 10 percent--of 
the county health departments in the country are fully prepared 
to respond to a bioterrorism crisis in their communities. Of 
the counties with populations about 250,000, none said that 
they are fully prepared, 21 percent of the counties say that 
they are not prepared at all to handle a bioterrorism crisis at 
all.
    Most of the counties in this category are the small, rural 
counties. For a chemical warfare crisis, only 5 percent say 
they are fully prepared, and 43 percent say they are not 
prepared at all. County public health departments have had 
considerable experience in responding to infectious disease 
outbreaks, but we have a long way to go in terms of developing 
the capacities we need to detect and respond to acts of 
bioterrorism accurately and quickly, yet every dollar we spend 
on bioterrorism will yield huge dividends in terms of 
strengthening the communities' public health system in such 
critical areas of surveillance, communications, data 
management, and in creating systems for mobilizing the 
community.
    I would now like to discuss a local antiterrorism block 
grant. NACO's Task Force on Homeland Security called on the 
Congress to enact a $3.5 billion local antiterrorism block 
grant. Under the task force's recommendations, Mr. Chairman, 
the funds should flow directly, as stated previously, from the 
Federal Government to local governments, with funding and 
priority decisions being made using a county-facilitated 
collaborative effort within the existing all-hazards emergency 
management planning process.
    NACO's concept of the block grant would enable local 
governments to enhance regional planning and coordination by 
preventing, preparing for, and managing an area-wide response 
to terrorism. The block grant should enable counties to greatly 
expand the implementation of emergency management plans, 
improve capacity to respond to a whole range of emergencies, 
fight fires, increase law enforcement intelligence of terrorist 
activities, and raise security levels for key local facilities.
    Counties are, by their nature, regional governments, and 
are often engaged in county-wide and multicounty solutions. In 
fashioning highly specialized responses to terrorist 
activities, multicounty plans, teams, and interagency 
agreements need to be developed and implemented. Thousands of 
municipalities already contract with their county for a variety 
of regionalized services, and look to the county for leadership 
in expanding emergency capacities.
    In placing greater responsibility in FEMA, President Bush 
has proposed to spend $3.5 billion in fiscal year 2003 to 
dramatically enhance the homeland security response 
capabilities of America's first responders. The 
administration's plan will provide $2 billion to State and 
local governments to pool resources and equipment to prevent a 
terrorist attack.
    In addition to committing $2 billion for equipment, the 
White House plan would allocate approximately $1.1 billion to 
train firefighters, police officers, and emergency medical 
technicians to respond and operate in a chemical or biological 
environment. It would also designate about $245 million to 
support a coordinated, regular exercise program to improve 
response capabilities, practice mutual aid, and assess 
operational improvements and efficiencies.
    The White House strategy is similar to NACO's approach in 
that it places major emphasis on elevating the existing 
emergency management system and in connecting comprehensive 
planning to funding levels. We are pleased to see that the 
supplemental appropriations bill has requested $327 million for 
planning and management, and that Governor Ridge has requested 
the plans before funding decisions are made. Without 
sophisticated planning and management systems to provide the 
foundation for the wise expenditure of block funds, how can we 
intelligently purchase equipment or adequately train emergency 
management personnel?
    At the heart of this new system of regional collaboration 
is the need for highly sophisticated planning and management 
building upon the existing integrated emergency management 
system. It has been conservatively estimated that it would take 
an investment of $500 million at a minimum to staff and develop 
the kind of advance planning and management systems that is 
required. The supplemental request of $327 million is a good 
first start, but more is needed.
    In summary, Mr. Chairman, NACO believes that an 
appropriation of a minimum of $1.8 billion is needed to improve 
our public health system, with at least $940 million dedicated 
to building and maintaining local and State public health 
infrastructures, and it needs to be a continuing funding 
priority in the out-years. We also need a local antiterrorism 
block grant along the lines of the President's $3.5 billion 
first responders initiative to meet the long-term needs of 
local and State governments. This should be a priority.
    Mr. Chairman, prevention must be a key objective. NACO's 
Task Force on Homeland Security has called for the creation of 
a new and highly sophisticated planning and management system 
at the city, county, and multicounty level to strengthen the 
existing IEMS system, which has been poorly funded for years. 
This is why we call for an additional $500 million for this 
effort.
    Let me leave you with these important thoughts. Mr. 
Chairman, we are pleased that local governments will be full 
participants in supporting our homeland security, but I want to 
draw your attention to some concerns local governments have 
experienced in the past. It is critical that funding provided 
by this committee get to intended recipients as soon as 
possible. The Office of Homeland Security has suggested that 75 
percent of the money proposed in the first responders 
initiative go to local governments. This is appropriate, and we 
believe that FEMA has the knowledge and expertise to give 
funding to the local governments in a timely fashion so that it 
can be used in the most flexible manner possible for the 
purposes intended. That is, of course, if the States do not 
intervene by delaying their decisionmaking responsibilities, 
attempt to use the funding for purposes other than those 
intended by appropriators, or attempt to leverage some of the 
funds for their own purposes. It must be made clear through 
this process that funds appropriated for homeland security at 
the local level are not considered offsets for other existing 
commitments from the States to local governments, such as 
revenue-sharing.
    I only mention this, Mr. Chairman, because of the dire 
budget situations in many States, and I certainly am not 
pointing the finger at any State in particular, but these types 
of situations have occurred in the past.
    I hope we have been able to offer the committee some 
important information about local government needs for homeland 
security. Thank you, Mr. Chairman.
    [The statement follows:]
                 Prepared Statement of Javier Gonzales
    Chairman Byrd, Ranking Member Stevens and members of the committee, 
thank you for inviting me to testify on an issue of paramount 
importance to counties across the country--securing our homeland 
against the threat of terrorism.
    My name is Javier Gonzales, and I am an elected County Commissioner 
from Santa Fe County, New Mexico. I currently serve as President of the 
National Association of Counties.\1\
---------------------------------------------------------------------------
    \1\ NACo is the only national organization representing county 
government in the United States. Through its membership, urban, 
suburban and rural counties join together to build effective, 
responsive county government. The goals of the organization are to: 
improve county government; serve as the national spokesman for county 
government; serve as a liaison between the nation's counties and other 
levels of government; achieve public understanding of the role of 
counties in the federal system.
---------------------------------------------------------------------------
    As you are now surely aware, counties are the first responders to 
terrorist attacks, natural disasters and other major emergencies. 
County public health, law enforcement, fire, and emergency management 
personnel are responsible for on-the-ground response and recovery 
action.
    Counties also own, operate and secure key aspects of the nation's 
infrastructure, such as airports, transit systems, water supplies, 
ports, schools and hospitals. Elected county officials, like myself, 
along with our emergency managers, provide the essential regional 
leadership, planning and coordination function in preventing, preparing 
for and managing our communities' response to emergency events.
What are the problems?
    In the wake of the terrorist attacks of September 11, seven months 
ago today, I appointed a NACo Task Force on Homeland Security. The task 
force, comprised of 45 top county officials from across the country, 
was formed to provide a forum for county officials to advise the 
federal government about the roles and concerns and financial needs of 
counties regarding homeland security as we increase--prevention and 
security measures in our communities.
    NACo's task force met three times and I would like to share the 
problem statements and policy recommendations from those meetings with 
you as summarized in the 8-page publication--``First Responders: 
Counties Secure America'', which I offer for the record.
Public Health
    Let me highlight our major problems and recommendations. In the 
public health area, there are two major problems: The need to rebuild 
critical elements of our nation's public health system; and the 
restoration of the state-local infrastructure.
    County officials are calling on the Congress to provide adequate 
funding for the bioterrorism preparedness and provide a modest down 
payment in restoring essential elements of the nation's public health 
system. NACo believes that an appropriation of a minimum of $1.8 
billion is needed to implement the law fully and effectively, with at 
least $940 million dedicated to building and maintaining local and 
state public health infrastructures, including increasing the capacity 
of local public health departments to respond to disease outbreaks, 
including bio-terrorism events.
    The second point relates to information dissemination via the 
Health Alert Network. NACo believes that the Centers for Disease 
Control-Public Health Practice Program--the CDC office that best 
understands local dynamics, should continue to coordinate and 
communicate with county health departments, and that there should be a 
focus on improving the Health Alert Network and on assistance with 
technological upgrades for county health departments.
    The President's budget for fiscal year 2003 includes $940 million 
to continue the Centers for Disease Control and Prevention (CDC) 
program to improve state and local public health capacities to address 
bio-terrorism and other public health threats. This program, which 
builds on prior years' funding for the Health Alert Network and bio-
terrorism preparedness, was vastly increased when Congress added $865 
million to it last December. Continuation funding is essential to allow 
state and local public health agencies to establish permanently 
improved public health systems and infrastructures, including new staff 
and training.
    Importantly, the funding levels established in fiscal year 2003 for 
this program will weigh heavily on the potential for future funding. 
Continued, sustained funding will help establish this program as a 
permanent aspect of the federal budget, rather than a one-time quick 
fix.
    The $940 million is a very modest down payment on what needs to be 
a sustained long-term effort. It will also enable us to carefully 
assess long-term needs.
    State and local plans are due April 15. Mr. Chairman, I can report 
today based on information NACo has received from our affiliate 
organization, the National Association of County and City Health 
Officials, that the record of collaboration between states and counties 
is mixed--adding to the need for a strong local public health capacity. 
After we review the state plans we will have a much clearer sense of 
the extent states will be addressing local needs, particularly 
sustainable staffing and training at the local level.
    As regional governments, counties are in the unique position to 
provide the leadership, planning and coordination function needed to 
prevent, prepare for and manage the response to bio-terrorism events.
    NACo recently conducted a survey of county health departments. The 
results of that survey show that less than 10 percent of the county 
health departments in the country are fully prepared to respond to a 
bio-terrorism crisis in their communities. Of the counties with 
populations above 250,000, none said they are fully prepared.
    Twenty-one percent of the counties say they are not prepared at all 
to handle a bio-terrorism crisis. Most of the counties in this category 
are the small, rural counties.
    For a chemical warfare crisis, only 5 percent say they are fully 
prepared and 43 percent say they are not prepared at all.
    The greatest obstacle to becoming prepared is funding. Forty-two 
percent listed funding as the greatest problem that would prevent an 
appropriate and timely response. Insufficiently trained medical staff 
and insufficiently trained administrative staff, both at 40 percent, 
followed funding as other obstacles. A conversation with a county 
health director in Iowa, who participated in the survey, reveals how 
drastic the situation is. He has no staff. He has no funds. And he has 
no supplies.
    The health director was asked to come up with an emergency response 
plan. If he were faced with a major public health incident, he said, 
his three-point plan would go something like this. Call for help. Hope 
someone comes. Stack the bodies in the gymnasium.
    County public health departments have had considerable experience 
in responding to infectious disease outbreaks but we have a long way to 
go in terms of developing the capacities we need to detect and respond 
to acts of bio-terrorism as quickly as possible.
    Yet every dollar we spend on bio-terrorism will yield huge 
dividends in terms of strengthening the community's public health 
system in such critical areas as surveillance, communications, data 
management and in creating systems for mobilizing the community.
Justice Appropriations
    In the Justice Department budget proposal for fiscal year 2003, the 
Administration has called for the elimination of the State Criminal 
Alien Assistance Program ($565 million) proposed the consolidation of 
the Byrne Memorial Block Grant with the Local Law Enforcement Block 
Grant (for a cut of $195 million in funds) as well as the complete 
elimination of the hiring section of the COPS program ($574 million).
    Mr. Chairman, the merit and timing of these proposed eliminations 
and funding cutbacks which total close to $1.5 billion is a concern to 
NACo and its membership, given the sharp rise in county spending since 
September 11. This increase in expenditures is the direct result of the 
heightened state of readiness that local public safety agencies have 
been required to maintain.
    Mr. Chairman, as of December 18, 2001, California State Association 
of Counties were projecting additional expenditures of $91.5 million 
for anti-terrorism by the end of the current fiscal year. In addition, 
the California survey projected additional funding needs of $310 
million for one-time expenditures and an additional $209 million to 
meet additional annual funding needs.
Unmet Needs
            The Need for a Local Anti-Terrorism Block Grant
    NACo's Task Force on Homeland Security called on Congress to enact 
a $3.5 billion local anti-terrorism block grant. Under the task forces 
recommendations the ``funds should flow directly from the federal 
government to local governments, with funding and priority decisions 
being made using a county facilitated collaborative effort within the 
existing ``all hazards'' emergency management planning process.''
    NACo's concept of the block grant would enable local governments to 
enhance regional planning and coordination by preventing, preparing for 
and managing an area-wide response to terrorism. The block grant should 
enable counties to greatly expand the implementation of emergency 
management plans, improve capacity to respond to a whole range of 
emergencies, fight fires, increase law enforcement intelligence of 
terrorist activities, and raise security levels for key local 
facilities. A NACo survey conducted late last year showed that 94 
percent of all counties have emergency plans to deal with disasters, 
but that only 49 percent have plans in place to deal with terrorist 
activities.
    Counties are, by their nature, regional governments, and are often 
engaged in countywide and multi-county solutions. In fashioning highly 
specialized responses to terrorism activities, multi-county plans, 
teams and interagency agreements need to be developed and implemented. 
Thousands of municipalities already contract with their county for a 
variety of regionalized services, and look to the county for leadership 
in expanding emergency capacities.
    In placing greater responsibility in FEMA, President Bush has 
proposed to spend $3.5 billion in fiscal year 2003 to dramatically 
enhance the Homeland Security response capabilities of America's first 
responders. The Administration's plan would provide $2 billion to state 
and local governments to pool resources and equipment to prevent a 
terrorist attack.
    In addition to committing $2 billion for equipment, the White House 
plan would allocate approximately $1.1 billion to train firefighters, 
police officers and emergency medical technicians to respond and 
operate in a chemical or biological environment. It would also 
designate about 245 million to support a coordinated, regular exercise 
program to improve response capabilities, practice mutual aid, and 
assess operational improvements and deficiencies.
    The White House strategy is similar to NACo's approach in that it 
places major emphasis on elevating the existing emergency management 
system and in connecting comprehensive planning to funding levels. We 
were pleased to see that the supplemental appropriations bill has 
requested $327 million for planning and management and that Governor 
Ridge has requested the plans before funding decisions are made.
    Without sophisticated planning and management systems to provide 
the foundation for the wise expenditure of block grant funds, how can 
we intelligently purchase equipment or adequately train emergency 
management personnel.
            Transportation
    The President's budget requested $4.8 billion for the new 
Transportation Security Administration (TSA) in fiscal year 2003. Of 
this amount, $2.2 billion is estimated to be derived from the new 
aviation security fees; $124 million is to be transferred from the FAA 
for explosives detection systems; and $2.5 billion is to be 
appropriated from the general fund. The Department of Transportation is 
still developing detailed cost estimates for the TSA. However, it is 
becoming clear that additional funds will likely be required in fiscal 
year 2002 and the Department of Transportation at a hearing before 
Congress recently requested the same.
    NACo strongly supports TSA and we urge this agency to begin a 
dialogue with county officials who are responsible for the various 
transportation modes. In addition, we would continue to encourage that 
all efforts are made to ensure that security needs are met and that 
coordination is taking place with local transportation and law 
enforcement officials.
            Airports
    Mr. Chairman, the Airport Improvement Program (AIP) must be fully 
funded for fiscal year 2003. NACo supports increasing the AIP to its 
authorized funding level of $3.4 billion as the first step in bridging 
the investment gap confronting our nation's airports. The AIP Program 
should continue to permit security related cost as an eligible 
expenditure.
    Also, NACo urges Congress to not just focus on our large 
metropolitan airports when considering enhanced airport security. Many 
of the smaller airports in our communities need to be reviewed in 
regard to their capacity to effectively and safely operate as well.
            Ports and Highways
    Finally, many counties also have a direct role in managing our 
nation's ports and highways. As a result, NACo would also urge the 
federal government to assist us in our efforts to secure these modes of 
transportation as well. With more than 25,000 miles of navigable 
channels and over 350 ports, our Nation's maritime system presents one 
of our greatest security challenges.
Additional Responsibilities
    The critical job facing counties now is to prepare, prevent and 
minimize. They must prepare emergency response plans, work with other 
levels of government to prevent future attacks and develop methods for 
minimizing the effects of new attacks.
    Mr. Chairman, for many years, thousands of municipalities have 
contracted with counties for specialized and regionalized services, 
including such preventative purposes as DNA testing, regional 
laboratories, advanced law enforcement training, record keeping, 
communications, regional intelligence systems and the like. The events 
of September 11 have demonstrated the importance of regional 
collaboration in preventing terrorist attacks.
    At the heart of this new system of regional collaboration is the 
need for highly sophisticated planning and management building upon the 
existing Integrated Emergency Management System.
    It has been conservatively estimated that it would take an 
investment of $500 million at a minimum to staff and develop the kind 
of advanced planning and management systems that is required. The 
Supplemental request of $327 is a good first start. But more is needed.
    To quote the International Association of Emergency Managers, 
``Principles of a National Homeland Security Program''

    ``Regrettably, while this system [IEMS] represents the single best 
capability for implementation of a national homeland security strategy 
at all levels of government, the state and local element of that system 
has been significantly under-funded for decades.
    ``Funding programs such as FEMA's State and Local Assistance (SLA) 
and Emergency Management Assistance (EMA) programs have consistently 
only been available to a minority of the agencies needing support and 
have only been funded at a fraction of the authorized amount. As a 
result, local agencies are consistently understaffed (often part-time 
or even volunteer positions). They are often buried deep in the 
organizational structure of local governments, which make it difficult 
for them to accomplish jurisdiction-wide coordination and planning. 
Their function is often not understood by senior local officials and is 
often confused with that of emergency response agencies, making it 
virtually impossible to gain the support necessary to provide a full 
service, integrated program.''
Summary
    First, NACo believes that an appropriation of a minimum of $1.8 
billion is needed to improve our public health system, with at least 
$940 million dedicated to building and maintaining local and state 
public health infrastructures, including increasing the capacity of 
local public health departments to respond to disease outbreaks, 
including bio-terrorism events.
    Next, NACo's Task Force on Homeland Security called on Congress to 
enact a $3.5 billion local anti-terrorism block grant. Under the task 
forces recommendations the ``funds should flow directly from the 
federal government to local governments, with funding and priority 
decisions being made using a county facilitated collaborative effort 
within the existing ``all hazards'' emergency management planning 
process.''
    The emergency management system in the United States is largely 
organized at the county level under the ``all hazards'' Integrated 
Emergency Management System.
    Third, in the aftermath of 9-11, the weaknesses of IEMS system at 
the local level have become apparent in terms of preventing acts of 
terrorism from occurring and in responding to terrorist attacks when 
they do occur.
    Mr. Chairman, prevention must be our number one objective. NACo's 
Task Force on Homeland Security has called for the creation of a new 
and highly sophisticated planning and management system at the city-
county and multi-county level to strengthen the existing IEMS system, 
which has been poorly funded for years.
    It has been estimated that such a system may cost conservatively as 
much as $500 million to put together. The creation of such a system 
should be among our highest priorities for without this foundation we 
are in a weak position to purchase equipment and/or to determine our 
training needs.
    This concludes my statement and I would be happy to respond to any 
questions you or the committee may have.
                 Biographical Sketch of Javier Gonzales
    Javier M. Gonzales was elected President-elect of the National 
Association of Counties (NACo) at the organization's 65th Annual 
Conference on July 18, 2000. His election to the position puts him in 
line to become the youngest NACo President ever, as well as the first 
Hispanic to serve in that position.
    In the early 1990's, Gonzales co-founded La Voz Broadcasting, Inc., 
which is New Mexico's largest Spanish language radio station. He serves 
as the corporation's Chief Financial Officer. Initially elected to 
serve on the Santa Fe County Board of Commissioners in November 1994, 
Santa Fe County voters re-elected Gonzales to serve a second 
consecutive term in 1998.
    His commitment and dedication to public service is a family 
tradition. His father, George Gonzales, also served as a Santa Fe 
County Commissioner and later was elected mayor of the City of Santa Fe 
in the 1960's. As a public servant, Javier Gonzales continues the 
tradition as a dedicated and committed county leader.
    In 1999, Gonzales was appointed by Interior Secretary Bruce Babbit 
to serve on the National Parks System Advisory Board which advises the 
Secretary of the Interior on parks-related issues. Gonzales was 
selected to the Board to bring his perspective as a locally elected 
official and as a small businessman.
    Gonzales is particularly interested in addressing management issues 
in the parks and finding new methods to attract non-traditional users 
to our national parks. He is a graduate of New Mexico State University, 
and is a lifelong resident of Santa Fe County, New Mexico.

               First Responders--Counties Secure America
    POLICY RECOMMENDATIONS OF THE NATIONAL ASSOCIATION OF COUNTIES' 
                      HOMELAND SECURITY TASK FORCE
                                                      January 2002.

    Counties have a significant role to play in our new national 
strategy for homeland security--we are the public's first defense.
    Counties are the first responders to terrorist attacks, natural 
disasters and other major emergencies. It is county public health, law 
enforcement, fire, emergency medical, and other public safety 
personnel, who are responsible for on-the-ground response and recovery 
action. Counties own, operate and secure key aspects of the nation's 
infrastructure, such as airports, transit systems, water supplies, 
schools and hospitals. And, elected county officials and county 
emergency managers provide the essential regional leadership, planning 
and coordination in preventing, preparing for and managing the response 
to emergency events.
    Recognizing the important roles and responsibilities of counties, I 
appointed a Homeland Security Task Force of the National Association of 
Counties (NACo) in the wake of the terrorist attacks of September 11. 
This task force has brought together a wide range of county policy 
leaders to explore our roles, and to work with the White House Office 
of Homeland Security and other federal officials.
    The Homeland Security Task Force has met twice, on October 26 and 
November 28, and adopted a Policy Plan to Secure the People of 
America's Counties. The policy plan addresses the key responsibilities 
counties have in the areas of emergency planning, law enforcement, 
public health and infrastructure security, and outlines how the federal 
government can best assist and strengthen its partnership with first 
responders in securing the homeland. It outlines four legislative 
priorities of NACo for 2002:
  --Authorization of a minimum $3 billion local anti-terrorism block 
        grant to fund comprehensive emergency planning and 
        preparedness;
  --Assistance to counties to improve public health infrastructure and 
        bioterrorism preparedness;
  --Assistance to improve the security of county-owned infrastructures, 
        such as buildings, airports, transit systems, and water 
        supplies; and
  --Passage of legislation to improve communications interoperability 
        and release public safety spectrum.
    Since the task force's formation in September, NACo also has:
    October 2001.--Released a Survey of Emergency Preparedness of the 
Nation's Counties, which found that 95 percent of counties have 
emergency response plans.
    November 2001.--Sponsored a Homeland Security Technology 
Demonstration, bringing county officials together with major technology 
companies to learn how technology can be utilized to achieve enhanced 
security.
    December 2001.--Testified before the Senate Governmental Affairs 
Committee on the local role in homeland security, calling for the 
authorization of a minimum $3 billion local anti-terrorism block grant.
    January 2002.--Met with the White House Office of Homeland Security 
to urge the formation of a state and local advisory committee to 
Governor Ridge.
    As president of NACo, it has been my honor to serve as chairman of 
our Homeland Security Task Force. While the task force will complete 
its work early this year, I know that counties will continue to step up 
to serve as the nation's first line of defense.
    What follows in this document is the full text of NACo's 20-point 
Policy Plan to Secure the People of America's Counties. I hope you find 
it informative. For additional information, please feel free to contact 
the NACo Legislative Affairs staff at (202) 393-6226 or visit our web 
site at http://www.naco.org.
            Sincerely,
                                           Javier Gonzales,
President, National Association of Counties; Commissioner, Santa Fe 
                                                       County, N.M.
                Homeland Security Legislative Priorities

              AUTHORIZE A LOCAL ANTI-TERRORISM BLOCK GRANT
    Congress should enact a new local anti-terrorism block grant at a 
minimum of $3 billion to comprehensively fund county and municipal law 
enforcement and public safety agencies and programs.
Improve Public Health Infrastructure:
    Improve public health infrastructure to increase counties' bio-
chemical terrorism preparedness and response capability.
Improve Security for Infrastructure:
    Support legislation and funding aimed at improving security for 
county-owned infrastructure, including buildings, airports, transit 
systems, highways, ports and water resources and facilities.
Improve Public Safety and Emergency Management Communications:
    Increase interoperability for both voice and data, release 
additional spectrum in the 700 MHz band for public safety and emergency 
management use, and eliminate interference problems in public safety 
communications.
        policy agenda to secure the people of america's counties
    Counties are the first responders to terrorist attacks, natural 
disasters and other major emergencies. County public health, law 
enforcement, fire, emergency medical, and other public safety 
personnel, are responsible for on-the-ground response and recovery 
action. Counties also own, operate and secure key aspects of the 
nation's infrastructure, such as airports, transit systems, water 
supplies, schools and hospitals. Finally, elected county officials and 
county emergency managers provide the essential regional planning and 
coordination function in preventing, preparing for and managing the 
response to emergency events.
    County officials believe it is critically important that emergency 
preparedness plans be coordinated and rehearsed among local, state, and 
federal levels, as well as coordinated across the various federal 
agencies and state agencies with a role in emergency response. 
Similarly, counties have unique responsibilities for effectively 
coordinating the plans and response actions of their law enforcement, 
public safety, public health, and other departments that assist in 
response action.
    With regard to the federal response in the event of a public health 
or other emergency, county officials strongly believe that the federal 
government should quickly identify the controlling federal authority 
and chain of command at the scene, and that all federal agencies 
diligently follow the lead of the controlling federal authority. The 
controlling federal agency must serve--to counties, the public, and 
other parties participating in the response--as a single point of entry 
and source of information.
    With regard to coordination among levels of government, the 
National Association of Counties has formally requested that Homeland 
Security Director Tom Ridge create an official State and Local Advisory 
Committee to the White House Office of Homeland Security. The 
committee, comprised of elected officials from state, county and city 
governments, would provide input and assistance to federal homeland 
security activities and facilitate coordination among levels of 
government.
    Additionally, the 45-member NACo Homeland Security Task Force at 
its first meeting Oct. 26 recommended a number of policy actions to 
secure America's counties. These recommendations are outlined on the 
following pages. Many of them are intended to assist President George 
W. Bush and the Congress as they make investments in local programs to 
improve homeland security. Already, counties across the country are 
raising and redirecting local funds to secure their communities, 
demonstrating commitment at the county level to this national goal.
Public Health
            1. Fund the Public Health Threats and Emergencies Act
    Congress should provide adequate funding for the Public Health 
Threats and Emergencies Act. An appropriation of a minimum of $1.8 
billion is needed to implement the law fully and effectively, with at 
least $835 million dedicated to building and maintaining local and 
state public health preparedness and infrastructure.
            2. Improve the Health Alert Network
    The Centers for Disease Control-Public Health Practice Program, the 
CDC office that best understands local dynamics, should continue to 
coordinate and communicate with county health departments, including a 
focus on improving the Health Alert Network and on assistance with 
technological upgrades for county health departments.
            3. Ensure an Adequate Supply of Vaccines and Antibiotics
    The federal government should ensure an adequate supply of 
appropriate antibiotics, vaccines and other relevant medications and 
medical supplies, to be made available to counties and other local 
communities in a timely manner as part of the stockpiled push packages 
administered by the CDC.
            4. Develop a National Policy to Prioritize Medical 
                    Treatment
    The federal government should develop a national policy to 
prioritize, in the case of a public health emergency, who gets treated 
first under what circumstances when demand for treatment exceeds 
supply.
            5. Train Health Personnel
    Public and private sector health personnel should receive adequate 
training to manage public health emergencies, in cooperation with 
federal, state and local governments. While specific training relative 
to bioterrorism is needed, general competency building in public health 
is also needed to assure that the workforce is fully prepared.
            6. Ensure that Adequate Medical Surge Capacity Exists
    The federal government, in cooperation with state and local 
governments, should ensure that the medical surge capacity needs 
associated with events of mass casualties can be met, particularly in 
communities that serve as regional medical centers.
Local Law Enforcement & Intelligence
            7. Authorize a Local Anti-Terrorism Block Grant
    Congress should enact a new local anti-terrorism block grant at a 
minimum of $3 billion to comprehensively fund county and municipal law 
enforcement and public safety agencies and programs. Funds should flow 
directly from the federal government to local governments, and funding 
decisions under the block grant should be made countywide as an 
outgrowth of the existing ``all hazards'' emergency management planning 
process.
            8. Include Counties in Anti-Terrorism Task Forces
    The Justice Department should expand the composition of its newly-
created law enforcement Anti-Terrorism Task Forces to specifically 
include elected representatives of county and other general purpose 
local governments. Security clearance should be provided to county 
officials for intelligence information commensurate with their 
responsibilities.
            9. Balance Heightened Border Security with Economic 
                    Activity
    Improve border security operations to enhance the nation's ability 
to restrict the movement of weapons, weapons components or potential 
terrorists into the country and eliminate their ability to operate 
within our borders, in such a way that heightened security does not 
impede with the ability to continue active crossborder commerce.
Infrastructure Security
            10. Reimburse Counties for Airport Security Costs
    Congress should enact an airline security bill immediately, to 
provide county-owned and operated airports with federal reimbursement 
for additional costs of security measures mandated by the federal 
government. In addition, the federal government should assist airports 
in financing security measures by allowing flexibility with the Airport 
Improvement Program, Passenger Facility Charges, and tax exempt bonds.
            11. Assist Ports and Transit Systems in Financing Security 
                    Measures
    The federal government and state governments should provide 
assistance to counties for securing ports, transit systems, commuter 
rail and freight rail systems.
            12. Help Localities Secure Public Utilities and a Safe 
                    Water Supply
    Congress should authorize funds for drinking water systems and 
other public utilities, large and small, to conduct physical 
vulnerability assessments and emergency planning.
    Additional research should be conducted into the threats to water 
and sewer systems and other public utilities and the development of 
methods and technologies to prevent and respond to attacks.
            13. Include Security in Infrastructure Development
    The federal government and state governments should evaluate 
threats and consider security as a criterion in the funding and 
development of new infrastructure, including physical infrastructure 
(such as transportation, schools, flood control and water systems) and 
cyber infrastructure. Security measures associated with the development 
of infrastructure should be eligible for federal funds.
            14. Reimburse Counties for Costs Incurred on Behalf of the 
                    Federal Government
    The federal government should reimburse counties for the local 
public safety and law enforcement costs associated with requests to 
provide security to federal installations and federally-owned 
infrastructure within their jurisdictions, and for the federal use of 
county facilities and other federally-mandated expenses incurred during 
an emergency.
            15. Assist Counties to Develop Evacuation Capacity
    Support assistance to counties for the evaluation of transportation 
and other infrastructure systems and evacuation planning, including 
developing capacity at the local level to facilitate evacuations.
Emergency Planning and Public Safety
            16. Train County Officials to Prepare for and Respond to 
                    Acts of Terror
    Federal, state and local governments should collaborate to train 
first responders to respond to acts of terror, utilizing and expanding 
upon existing training facilities and opportunities to their fullest 
extent. Curricula also should be established for the specific purpose 
of training elected county officials and other representatives of 
general purpose local governments. A standard, core set of competencies 
should be developed.
            17. Assist Public Safety Communications Interoperability 
                    and Interference Issues
    The federal government should assist counties to provide the 
broadest possible interoperability between public safety agencies 
across voice, data and geo-data and wireless technologies. The federal 
government also should assist counties in obtaining additional spectrum 
as soon as possible to address interoperability and dead zone problems 
created by congestion and interference with commercial services. In the 
event of a disaster or terrorist attack, all first responders should 
have access to a common set of frequencies that can be used to 
communicate between agencies. To make this effective, particularly if 
the federal government chooses to use the 700 MHz band and digital 
communications, financial assistance should be provided to ensure that 
counties can afford to use these new technologies.
            18. Establish a Public Communication Network
    A communication network capable of delivering information in a 
timely manner between the federal government, state and local 
governments, and the general public should be established.
            19. Urge the Release of Federal Research to Assist Counties
    The federal government should make its research and information 
available to counties at the earliest possible time--including 
declassifying such information as appropriate--to facilitate their use 
by counties to prepare for and respond to acts of terrorism and other 
emergencies.
            20. Provide Immunity to Encourage Mutual Aid and Support
    The federal government and state governments, where applicable, 
should provide legal immunity from civil liability for counties and 
other local governments responding collaboratively to emergencies 
outside their primary jurisdiction.
    For more information, contact the NACo Legislative Affairs staff at 
202/393-6226.
    Revised by Homeland Security Task Force 11/28/01.
    Revised and approved by NACo Board of Directors 11/30/01.

  A SURVEY OF EMERGENCY PREPAREDNESS OF THE NATIONS COUNTIES . . . 
                       AN EXECUTIVE SUMMARY
    America's 3,066 counties vary in geographic shape, size, population 
and in the services they provide, but the one thing that unites them is 
that they are responsible for emergency management planning, and very 
often are the ``first responders'' to disasters such as those on 
September 11. Whether it is a fire, flood or horrific crash, counties 
across the nation are prepared to respond to virtually any emergency 
situation.
    Ninety-four percent of all counties surveyed have disaster plans in 
place that include all aspects of disaster mitigation and search and 
rescue operations.
    Counties have addressed the possibility of terrorist actions. Large 
urban counties long considered possible targets for violence have 
specific plans to deal with terrorist threats. The results show that 
all of the counties with a population greater than 1 million had 
terrorist response plans prior to September 11. Eighty percent of those 
counties also have specific plans to deal with chemical warfare.
    Counties with populations below 10,000, the mostly rural areas of 
the country, reported the fewest number of terror response plans, with 
22 percent having specific emergency plans to deal with terrorist 
activities. Twenty-nine percent of counties with a population of 50,000 
or less have plans for chemical warfare. As our nation comes to grips 
with the threat of terrorism that not only spreads through bombs and 
planes, but by letters and airborne germs, we need to work to prepare 
all areas of our country.
    Counties have a history of working together to protect the nation's 
communities. Counties, through mutual aid agreements, can marshal 
resources faster than state and federal deployments because of their 
proximity to the events. One hundred percent of counties with 
population of 500,000 to 1 million have mutual aid agreements for fire 
and law enforcement back up. Eighty-seven percent of all counties 
surveyed have mutual aid agreements for fire crews, 77 percent have 
agreements for emergency medical services, and 75 percent have 
agreements for law enforcement.
    Counties are ``first responders.'' As we all witnessed, New York 
City (which is also a county) firefighters and police were the first 
emergency workers at the World Trade Center. At the Pentagon, Arlington 
County (VA) police and fire search and rescue workers were the first at 
the scene, joined by Fairfax County Fire and Search and Rescue among 
others. Within a few hours, county fire, and search and rescue workers 
from as far away as Santa Fe County, New Mexico, arrived at the scene. 
In Pennsylvania, it was the Somerset County emergency services team 
that dealt with the crash of United Flight 93.
    Counties bear the burden of preparing emergency response plans with 
limited help from state and federal governments. Only 38 percent of 
counties surveyed reported receipt of federal funds for emergency 
plans. Merely 550 counties received state funds for planning and more 
than 85 percent have used local funds.
    Counties are the first line of defense and recovery from terrorist 
attacks and disasters. They have a proven track record of preparing for 
and implementing, the necessary steps to keep the public safe and 
secure. These are challenging times, where the unthinkable has been 
witnessed on televisions in our homes, and the threat of further terror 
looms large. Counties stand ready to meet the challenge.
                  homeland security task force members
Chair
    Javier Gonzales, Commissioner, Santa Fe County, NM.
Members
    Alfonso Amaro, County Supervisor, Yuba County, CA.
    Alfred C. Anderson, County Treasurer, Roanoke County, VA.
    Patrice Bataglia, Commissioner, Dakota County, MN.
    Hank Blackwell, Fire Marshall, Santa Fe County, NM.
    John Brackney, County Commissioner, Chair, Arapahoe County, CO.
    James E. Cadue, Commissioner, Monroe County, IA.
    Joe Chekouras, Communication Specialist, Lake County, IL.
    Ronald Christensen, Supervisor, Gila County, AZ.
    Wayne K. Curry, County Executive, Prince George's County, MD.
    Dewey Desler, Deputy County Administrator, Whatcom County, WA.
    Robert Eckels, County Judge, Harris County, TX.
    John Foard, Commissioner, Boise County, ID.
    Anthony Giancola, Executive Director, NACE, DC.
    Robert G. Greer, Commissioner, New Hanover County, NC.
    Jane Hague, Council Member, King County, WA.
    Bill Hansell, Commission Chair, Umatilla County, OR.
    Angela N. Harper, Deputy County Manager, Henrico County, VA.
    Chris Hart, County Commissioner, Hillsborough County, FL.
    Douglas Hill, Executive Director, County Commissioners Assn. of PA.
    David Huffman, Sheriff, Catawba County, NC.
    Randy Johnson, Commissioner, Hennepin County, MN.
    Angelo Kyle, Board Member, Lake County, IL.
    Patrick Libbey, Director, Public Health & Social Service, Thurston 
County, WA.
    Kenneth Mayfield, Commissioner, Dallas County, TX.
    Peter McLaughlin, Commissioner, Hennepin County, MN.
    Jean Michaels, Commissioner, Olmsted County, MN.
    Karen M. Miller, Commissioner, Boone County, MO.
    Carol Moehrle, North Central Health Department, Nez Perce County, 
ID.
    Ralph Ogden, County Sheriff, Yuma County, AZ.
    Janet S. Porter, County Treasurer, Catron County, NM.
    Marilyn J. Praisner, Council Member, Montgomery County, MD.
    Joe Murray Rivers, Commissioner, Chatham County, GA.
    Linda G. Robinson, Legislative Liaison, Henrico County, VA.
    Patricia Rogers, Council Member, Los Alamos County, NM.
    Michael Selves, Emergency Management Director, Johnson County, KS.
    Barbara Sheen Todd, Commission Vice Chair, Pinellas County, FL.
    Charles L. Short, Dir., Dept. Health & Human Svcs., Montgomery 
County, MD.
    Deborah Sims, Commissioner, Cook County, IL.
    William H. Stanley, Commissioner, Buncombe County, NC.
    Donald D. Stilwell, County Manager, Lee County, FL.
    Steve Szalay, Executive Director, California State Association of 
Counties, CA.
    John Whetsel, County Sheriff, Oklahoma County, OK.
    Darrel Williams, Commissioner, Mecklenburg County, NC.
    Danny Wright, Commissioner, Vance County, NC.
NACo Staff
    Larry Naake, Executive Director, National Association of Counties, 
DC.
    Stephanie Osborn, Associate Legislative Director, National 
Association of Counties, DC.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd. Thank you, Commissioner Gonzales. The 
questioning will now begin, and Senators will have 7 minutes 
each in which to present their questions and get their answers.
    Mayor O'Malley, while the Federal Government is charged 
with protecting U.S. ports, local governments and private 
sector companies are responsible for protecting individual port 
facilities. With my support, $93 million was included in the 
fiscal year 2002 defense appropriations bill for grants to U.S. 
seaports to protect those facilities. The President included 
funds in his budget for U.S. Customs and the Coast Guard, I am 
advised that not one dime for the grant program that was 
established last year for U.S. seaports. Can you clarify the 
role of local government and private sector business in 
protecting port facilities, and explain the need of local 
governments for such a grant program, and is there sufficient 
coordination among the various Federal, State, and local 
entities and the private sector?
    Mr. O'Malley. That is a big question, Mr. Chairman. It is a 
pressing need, and I applaud you for putting the dollars into 
it. We have created a much better working relationship, a lot 
better coordination with Coast Guard and Customs in the last 
few months, and none of that necessarily involved money. It is 
just a matter of tearing down the barriers of the past and 
sharing information on a more timely basis. It is my 
understanding we have applied for some of those dollars.
    Port security is a real mixed bag. We found ourselves 
spending a lot of police overtime, putting uniforms out there 
in times of heightened alert, which is not the best way to 
secure a big old chemical facility on a waterfront, or the 
other sorts of things that are adjacent to ports and come in 
and out of ports. We have made that application. I am not sure 
what the time line is. I do not believe we have seen any money 
for it as of yet.
    We have been trying at the State level to get some 
legislation passed to require, for example, the railroad 
companies that often store chemicals right out in the open on 
tracks for days at a time with absolutely no perimeter security 
to create some better perimeter security and fencing and 
surveillance. Everybody seems to be looking the other way, 
though.
    We are all trying to rush back to that warm place where we 
were at September 10, and it doesn't seem to me that the 
private sector is in any hurry to step up to their 
responsibilities, or to tack on these costs to the cost of 
doing business, but I thank you for pushing that through. When 
a dime reaches Baltimore, I will let the committee know, and we 
have made application.
    Chairman Byrd. Now, you have led right into my next 
question. Do you have concerns about the ways in which Federal 
funding to address your city's new responsibilities for 
homeland security will be funneled to Baltimore, and along with 
that, how much difference does it make to you, or to cities 
generally nationwide, if the funding comes first to the States, 
or is made available directly to cities?
    Mr. O'Malley. Mr. Chairman, I think this is a point that we 
are all in unanimity on. I mean, the model that we had in the 
past of trying to prepare FEMA to respond after there has been 
a hurricane, or after a tornado, is fine for hurricanes and for 
tornadoes. It is not fine when we are under attack, and when 
everybody is waiting for another attack to come, and we have to 
assume, in our responsibilities in Government, that a second 
attack will be coming. It would be imprudent and irresponsible 
not to act that way.
    I really want to urge the committee to try to drive forward 
a different way of looking at this. This is not responding to a 
tornado or a hurricane. This is building up the security, the 
intelligence-gathering capabilities of your metropolitan areas, 
this is about doing the vulnerability assessments, and doing 
those things on the front end that discourage an attack, or 
maybe even alert us that an attack is coming, and for us to 
follow that model where it goes to the States is really 
antiquated, outdated, and is not serving our public well.
    To answer your question, Mr. Chairman, if we can all be 
sure that there is not another attack coming between now and 
whenever the State or emergency management agencies and FEMA 
figure it out, then it might not be as big a problem, except to 
our budgets, but God help us all if there is a second attack 
and we are all scratching our heads and wondering, you know, 
golly, that Federal-to-State system worked really well back in 
the twenties and thirties, but it is not getting the money 
there.
    I would submit to you that because of this threat we need 
to forge a much closer relationship between the Federal funding 
that goes directly to metropolitan areas. We can handle it. We 
all meet as metropolitan areas already, and all of these 
gentlemen will tell you that as well, whether it is on our 
water systems, or our school systems--I mean, we have the lines 
in place right now. Unfortunately, there is this intercept 
called State government, and it acts much more as an intercept.
    The reason why some of those appropriated dollars back in 
2000 have not reached us yet is because there is not the 
urgency felt throughout an entire State about turning those 
plans in. You know, in other words, the Federal Government does 
not want to release the funds to the State governments until 
all of the counties cooperate and put forward an emergency 
management emergency preparedness plan. Well, in Baltimore with 
the port, with the rails, with the highways, with the airport, 
with all of that infrastructure running through that huge 
population, we turned ours around lickety-split, and we got it 
right in there.
    In more rural counties that really was not on the top of 
their to-do list, so we need to join much more closely the 
Federal Government directly to the metropolitan areas, and we 
are not worried about--we think you should require certain 
things, that all of us have vulnerability assessments done, 
that we know where the critical infrastructure is, that we have 
plans that respond to the heightened areas of alert.
    It is not that we are afraid of the accountability. We will 
tell you where every dime goes. But what concerns us all 
greatly is that we are going to be 3 years before we see the 
dollars that you all have been appropriating over these last 
couple of months.
    Chairman Byrd. Mayor Guido, the National League of Cities 
has called for more Federal support for hometown security. What 
are the priorities, and what needs to be done immediately, and 
who will coordinate, if the States do not? Who will coordinate 
statewide if the States do not?
    Mr. Guido. Well, I understand that my Governor, John 
Engler, was here this morning to talk about these issues and 
how the State would interface with the Federal Government and 
with the cities, but the National League of Cities' position 
and the U.S. Conference of Mayors and the National Association 
of Counties believe that the direct accountability and direct 
funding to cities can work and has worked in programs such as 
the community development block grant program for many years in 
this Nation.
    Also, we feel that in terms of priority, Mr. Chairman, that 
the full funding for the First Responders Act is very key, that 
the metropolitan medical strike team program, bioterrorism, 
administered through HHS, is very important to us as well. 
Community policing, the COPS program I mentioned during my 
testimony is very important to us, the full funding for that in 
the local law enforcement block grant. We believe that those 
programs that have been developed over the years and, of 
course, the new responder initiative are important to cities, 
and cities have the capabilities to administer those dollars 
and make sure they get to where they are needed.
    Everyone has that mental image of September 11, when they 
were watching television, when they saw the fire trucks pulling 
off, and the police officers. They were the ones that were 
responding, and the 9-1-1 calls come to city hall and the 
police department. They do not go to our State capital, so we 
ask you for your trust, Mr. Chairman.
    Chairman Byrd. Senator Stevens.

                   Questioning by Senator Ted Stevens

    Senator Stevens. Gentlemen, this morning, it would not 
surprise you, that the Governors asked for just the opposite of 
what you have just requested, and it does seem to me that there 
are some instances where there are overlapping local 
governments, counties which have cities within them. How are we 
going to assure that the moneys are distributed fairly within a 
State, unless the State is involved?
    Mr. O'Malley. That assumes that they are distributed, 
Senator, fairly within the States with the States already 
involved. In other words, sir, you look at what you all did 
with TANF funding and the welfare-to-work, and those dollars 
went to the States, they fell to their bottom lines, and 
instead of reinvesting them and making the top-notch work force 
that we could with this country, they were spread around like 
so much suburban port for pet capital programs. That is what 
happened with TANF, because it went to the States. It did not 
go to the cities that had the incentive to make the dollars 
count and to do what they need to do.
    Senator Stevens. As I understand the proposal, 75 percent 
must go to local governments, that it is up to the States to 
make the distribution within each State. That is the proposal 
that is in the budget, as I understand it.
    Mr. O'Malley. And the eventually I think is the understood 
there, Senator, and that is what worries us. Eventually it will 
probably go to their local governments, and I would submit to 
you that if Congress required that there be metropolitan 
councils in the top most populated areas of the Nation, we 
could put that together instantly with our partners. We could 
come up with the plans. We could submit to you the detailed 
vulnerability assessments and all of those things.
    I think there is a role for the States to play as a 
backstop, if you will, for the less-populated counties, to make 
sure that they get the training that they need, and again 
emphasis, that they need, but if we continue to go this route 
where things go to the State first, you are going to see all of 
the same supplanting issues that we saw with welfare-to-work, 
you are going to see years and months of delay, and you are not 
going to rush these dollars to the front to defend the American 
people in our population centers.
    Mr. Gonzales. Mr. Chairman.
    Chairman Byrd. Yes, sir.
    Mr. Gonzales. I was just going to say, Senator Stevens, 
that right now counties and cities through local hazardous 
management plans, actually conduct a lot of the work that could 
receive these Federal dollars. Our focus is always about making 
sure that when that attack takes place, and we have been told 
by the President and Director Ridge that it is going to happen, 
that our fire officials, that police responders, that our 
public health agencies are fully prepared and capable of 
protecting the American public.
    The best way of making sure that that protection takes 
place is to directly fund those agencies and not let any of 
that money get lost in State bureaucracies, as Mayor O'Malley 
indicated, or the politics of a State, and I think from our 
standpoint we are hearing from our fire chiefs and from our 
police chiefs and our public health agency saying we are ready 
to protect our communities, we are ready to do our part in 
homeland security by gathering intelligence, interpreting it, 
sharing it with the FBI and the appropriate authorities, but we 
need to make sure we get these resources in hand so that we can 
work collectively, and I assure you, oftentimes you may see the 
cities and the counties are at odds.
    When it comes to the issue of homeland security, you are 
going to see enormous collaboration taking place, not only 
between cities within counties, but multicounty jurisdictions, 
but it is the old adage that we believe that at the local level 
we can best determine how to fulfill the needs of our 
communities, and that is the same issue with homeland security.
    Senator Stevens. Well, do not shoot the questioner, but it 
does seem to me that your proposal is that every city, every 
county in the country should be prepared to have a terrorist 
event sometime within the next year, and we should be prepared 
to meet that. Now, that is not within the scope of the risk. 
There is serious risk that we are going to have terrorist 
events, and we do not know exactly where they are going to 
happen, but I think we can get some risk assessments where 
intelligent people think that will take place.
    But why should we use Federal taxpayers' money to make 
every city and every county in the country ready for a 
terrorist event, when the number of terrorist events is going 
to be very limited, if any?
    Mr. Guido. Your point, Senator, is very well taken, and 
believe it or not, Governor Engler and I get along famously, 
and we do talk to each other and we do interact with each 
other.
    I think the point we are making is, we believe, as you are 
saying, that there needs to be regional cooperation. Every city 
cannot be fully equipped for every event that could happen. We 
understand that. We know that.
    Senator Stevens. But who is going to make that 
determination, FEMA, or your Governor? I say I would rather 
have it made in the State than have it made in Washington. Do 
you disagree with that?
    Mr. Guido. No, we agree that there is that element of local 
control. We were just hoping that we would bypass the State 
capital.
    Senator Stevens. Well, I do not know how you make the 
decision State-by-State unless it really funnels through the 
State, unless you let FEMA make the decision for you.
    Mr. O'Malley. Mr. Chairman, can I try? The CDBG dollars, 
the community development block grant funds go directly to the 
cities, Senator, and I think that as urgent as those dollars 
are needed, these dollars are needed more urgently.
    Senator Stevens. Well, I agree, in most instances CDBG 
grants are analyzed here in the Congress, and we spread them 
out, but as a practical matter, what you are saying to us is, 
every city should be prepared to meet terrorism now, as though 
that kind of event is going to happen in every one of the 
80,000 cities.
    Mr. O'Malley. I think that every Senator--Senator, I think 
what we are saying is, every city needs to be as prepared as we 
can possibly be, and I think our National Government, based 
upon the population centers of this Nation, needs to urgently 
drive those dollars to those population centers.
    Senator Stevens. Let me just be another advocate, and that 
is for that Federal taxpayer. We are going to expand the 
Federal taxpayer's expense for homeland security and defense at 
a fairly enormous rate in the next years.
    Mr. O'Malley. Well, sir, we have already----
    Senator Stevens. Just a second here.
    Mr. O'Malley. Yes, sir.
    Senator Stevens. Are you going to expand the contribution 
to the cities and counties, or are we going to pick up that 
expense that is going to take place.
    Mr. O'Malley. Sir, we have already picked up that expense, 
and frankly, sir, it is being borne by the people in this 
country that have the least ability to pay for it. It is being 
borne by taxpayers in America's cities, many of whom are poorer 
than people who live in the suburban areas, and right now what 
this country is doing is asking those who can least afford to 
pay for it, to pay for it.
    We are closing schools, we are closing libraries, we are 
trying to keep after-school centers open, and we are doing it 
because we are funding overtime costs for our police to protect 
things that the Federal Government has not stepped up----
    Senator Stevens. I do not buy that. We are not in that kind 
of thing. We are not asking you to do it all. We are just 
saying, why should the Federal taxpayer do it all?
    Mr. O'Malley. I think we need to do it together, sir, 
because we are Americans, and I think that is what is required 
right now.
    Mr. Guido. Mr. Chairman, I think that the proposal does 
include a match, which we do not really agree with, but you 
know, we understand that we have to come to the table with 
something, and as Mayor O'Malley mentioned we have to date 
borne 100 percent of the cost for this preparedness.
    Senator Stevens. I have got some areas in my State that do 
not have any tax base at all. The 25-percent match is just 
impossible in many rural areas of the country, and that is why 
it is unfortunate the way--we have got to look at that, too, 
mayor.
    Mr. Gonzales. I agree. Can I just say two points real 
quick, Mr. Chairman, Member Stevens, that in this all-hazards 
management plan, a part of the planning that we are calling 
for, we would be doing assessments at the local and the 
regional level to assess how vulnerable we are to a threat, so 
that all that assessment, all that planning is going to be done 
prior to spending any money, so we prudently spend any type of 
block grant that is coming down.
    You are correct, not every community is vulnerable as the 
next. In New Mexico we have several Federal installations, the 
Los Alamos Laboratory, the Sandia Laboratory, we are a border 
State--I anticipate that our State could be potentially very 
vulnerable. That may be different from another State, but what 
we are calling on is for the use of these monies to be going 
toward pre-planning activities, and during those planning 
activities we will be able to identify the threats and the 
assessments that are facing communities.
    In addition, the 25-percent match is also a soft match so 
that a lot of our rural counties who do not have the hard cash 
to pay for this will be able to use in-kind services towards 
meeting these block grant needs.
    Senator Stevens. I agree with that approach.
    Thank you very much.
    Chairman Byrd. Thank you, Senator.
    Senator Mikulski.

               Questioning by Senator Barbara A. Mikulski

    Senator Mikulski. Thank you very much.
    Mayors, I can see listening to you why your constituents 
elect you. You are compelling advocates for them, and Mayor 
Guido and Commissioner Gonzales, I know that both of you also 
have a family heritage of community service. I noted that both 
of your fathers also held elective office, so you come with a 
lot of experience to the table, in addition to my own Mayor 
O'Malley.
    So I am learning a lot. Mayor O'Malley has been a great 
teacher, but Mayor O'Malley, I want to go to a question to you 
about funding, and then Mayor Guido to you and to Mayor 
O'Malley about double value.
    Mr. Mayor, when we talk about the city, about the Federal 
Government helping cities, or communities, right now we are 
doing individual programs, a type of fire grant program, which 
is to help first responders have the right equipment, protect 
the protector as well as the right equipment. Then we are 
talking about the homeland security block grant program, which 
would be 70-plus percent coming to the local governments, 30 to 
the States.
    From your perspective, what would be the best way to be 
able to fund local communities, keep it at individual grants, 
like first responders, the police grants, or do you think a 
block grant, or do you think you need both?
    Mr. O'Malley. We are playing stump the mayor here.
    Senator, I think the notion of having specific programs as 
far as the equipment goes and the preparedness things are not 
bad ideas provided they can be done quickly.
    With regard to block grants, the biggest cost we have 
incurred is police overtime costs at these heightened states of 
alert, and I know there is kind of a cultural aversion here to 
ever getting involved in that thicket of funding police 
overtime, but those are the homeland defense soldiers, you 
know. It is our officers that are out there. I would defer to 
my colleagues' thoughts on that issue.
    I think some of these things with regard to equipment and 
capital expenditures probably are best done on a programmatic 
basis, but we do need direct block grant funding when it comes 
to these overtime costs associated with large events. We have 
several in every city. Whether it is Superbowls or whatever 
they might be, every city has its own events, and we need that 
flexibility on the policing front, because this is a huge 
unbudgeted cost that we have not prepared for.
    Senator Mikulski. But that is not a block grant. That is a 
police overtime bill.
    How about you, Mayor Guido, or Commissioner Gonzales, and 
if you could--because I think Senator Stevens raises very 
important issues. Number 1, those communities are the greatest 
strength, but when we are talking about the bucks to be spent, 
I am of the belief, and I wonder if you share it, that this 
could be a double benefit.
    In other words, when we provide the firefighter with better 
equipment, whether it is a chemical fire in Baltimore by 
accident, or by malevolent attack, that firefighter is ready to 
deal with it. But he is also, or she is ready, to deal with all 
the other fire incidents that come up in the Baltimore area, 
the same way with public health and that rather tattered 
infrastructure.
    Mayor Guido, what about you? You are from Dearborn, you are 
next to Detroit, you face a lot of the responsibilities.
    Mr. Guido. Yes, and first let me congratulate you on giving 
everybody the correct Italian pronunciation of my name. The 
people in Dearborn say Guido. As long as they vote for me, I go 
with the flow. I have been Mike Guido for a long time.
    Senator Mikulski. Well, when I go to Richmond, Mayor 
O'Malley is there and they call me McCloskey, but it is all 
right.
    Mr. Guido. Thank you very much. We understand that when we 
are equipping fire and police officers it is not just standing 
by the station waiting for that terrorist attack, and they have 
regular work to do, and so the benefits, the residual benefits 
of funding where we are buying this equipment can be 
implemented for regular day-to-day tasks, and I think that your 
point is well-taken, that on a broad scale when we are 
preparing for homeland defense it could be a myriad of issues 
and incidences that we would respond to, so when we talk about 
the COPS program, it was a one-page application, very simple, 
it worked, crime dropped substantially, the money went directly 
to the city, it was something that we had worked on with 
Members of the House and Senate, over the years it passed, and 
it was implemented in the cities.
    The same with the block grant program. We are responsible 
for audits and for implementing those dollars, and when Senator 
Levin or Senator Stabenow or Congressman Dingell or my 
Congressman come back home, we can point to things that we have 
done with those dollars directly for the cities, and we share 
those issues with them and those successes with them, and we 
are saying here that we can do the same thing with homeland 
security dollars.
    Mr. Gonzales. Senator, I just want to say on two things, 
you bet it is a double benefit, but in particular on the public 
health area, where we see enormous deficiencies that exist in 
that area, if at a minimum we upgrade our public health systems 
so we can treat our indigent and poor people and mid-level 
income people with a good level of care, that is a good thing 
that jointly the Federal Government and local governments can 
do.
    In New Mexico, Senator Domenici has been a huge champion in 
fighting black tar heroin, and even with all the money he has 
been able to bring home to New Mexico, we continue to have 
those issues. With money like this, we will be able to enhance 
those systems of treating people in Northern New Mexico just 
because we have a better, stronger public health system that is 
preparing for, potentially, if we have some type of terrorist 
attack against Los Alamos Laboratories, where this issue 
exists.
    Senator Mikulski. Well, thank you.
    Mr. Chairman, thank you.
    Chairman Byrd. Thank you, Senator. Senator Domenici.

                Questioning by Senator Pete V. Domenici

    Senator Domenici. Thank you very much, Mr. Chairman. I 
stayed this morning for quite a while, but I could not, under 
the circumstances, wait my turn, and so I thank you for the 
opportunity to speak for a moment this afternoon.
    I would like to call to your attention and to your staff's 
attention existing law that provides the framework and the 
money for 120 first responder cities in America right now. We 
may not even know that we have got that, and we have, your 
city, Baltimore, has received a substantial amount of money, 
and has had your officers trained as first responders.
    You also might find it interesting that that same law, 
called Nunn-Lugar-Domenici, adopted on the floor of the Senate 
as an amendment, so you know we worked on it for a long time, 
provided for a White House appointee of the President to become 
the czar of the program, and President Clinton would never 
appoint him.
    As a consequence, this money floundered until one of these 
subcommittees of appropriation, I believe Senator Gregg's 
subcommittee, decided we had to get it done, and at this point 
we spend half of it through the Department of Justice, who took 
over a piece of it, and we spend another big portion of it 
through the Department of Defense, but I think it would be 
interesting for us to know as a committee how the 120 cities 
got selected, and how the money got distributed to them under 
this bill, because it totaled over $260 million. It is not 
peanuts.
    Also, it does not provide for follow-on, so there is an 
issue right off that we ought to look at. The cities that have 
been prepared cannot expect to be kept current, but if they 
have done it right, they bring their law enforcement, their 
communications, their hospitals, their doctors, their policemen 
into a plan.
    New York had one, so you see, it does not stop everything, 
but it was there, and it was pretty effective, from what I 
understand, to get people working on it.
    So I think that some footprints have preceded us in terms 
of how we would distribute the money.
    I would also say to the distinguished mayor, and he wants 
to speak, and I will recognize him, or you will, Mr. Chairman, 
in a moment, but I just wanted to say he is wrong in his 
definition of community development block grants.
    Chairman Byrd. Which mayor are you talking about?
    Senator Domenici. The mayor of Baltimore. That is a 
combination program, where 25 percent of it is run by the 
Federal Government, and 75 percent of it is doled out pursuant 
to a formula, so it is a hybrid, and this is not something in 
drafting legislation that we are neophytes at. We spent the 
whole period of time--when Lyndon Johnson had his Great 
Society, we spent billions of dollars and had figured out who 
gets it. Some of it was formulated, some of it was competitive. 
If you had an urban renewal grant, you did it by competition, 
then the question was, how much politics was involved in that.
    So I just recall that for your staff and ours, and 
certainly Ted Stevens and his staff would be aware of what has 
transpired.
    Chairman Byrd. Thank you, Senator.
    Senator Domenici. Then I would like to make a couple of 
points about this first responder law. I think you have been 
very concerned about who is going to run this program, and we 
have been talking here, you know, are we going to run it 
through a whole batch of United States agencies who just happen 
to have the money, or are we going to run it all through FEMA, 
or are we going to run it through a new grant program that we 
set up? I assume these are tough issues for us to do in a 3- or 
4-week period.
    Some of it is not going to be done so well, because we are 
not going to know enough, but I believe the President's 
approach for starters is pretty good. We will have to look at 
it carefully as a result of all the evidence we gather, but at 
least they have gone through and taken a lot of evidence as to 
what is going on out there, and even if you use our committee 
for another seven or eight hearings, you know what we are going 
to get, we are going to get a good 30 minutes of facts as the 
rest of the meeting takes on its normal course.
    I would like to ask that the mayor of Baltimore, first, for 
all your talent which you display here in front of us, and what 
I read about you, I do not think you know everything about 
managing cities or States, or the relationship of cities to 
States. I mean, I am not even going to ask you how long you 
have been at it, because I do not want you to tell us how short 
a time you have been at it, which might indicate that I know a 
little bit about you.
    I was a mayor of a city before I came here. We happened to 
have the whole Great Society then, so our city became a huge, 
successful grantmanship city, and we were so good at it that we 
got lots of things, and we got them direct from the Federal 
Government, but now I have a question, as we proceed with this, 
who is going to tell us the best formula for distributing this? 
Is it because a State has a certain population they are going 
to get a bigger piece, or what about a State like--I will just 
give you one, New Mexico.
    It has 1,700,000 people, but it has two of America's 
nuclear laboratories, both of which have 8,000 scientists and 
engineers, and plenty of things that the enemy would like to 
fool around with, plus the only underground disposal facility 
for nuclear waste--although it is low-level transuranic, it is 
there, it is the only one--plus a lot of other things.
    I think there was a recent account that maybe half the 
nuclear weapons that the United States has might be in the 
mountain there. That is a newspaper story of a couple of weeks 
ago.
    So they deserve a little bit different attention, it seems 
to me, than Nebraska--that just comes to my mind--with huge, 
huge portions of it in agriculture with only a few communities.
    So I think these are issues that I cannot answer today, and 
I regret to say that I do not think these gentlemen can answer 
them, either.
    Chairman Byrd. They can help us, though.
    Senator Domenici. They can help us, so now, you wanted to 
speak, Mr. Mayor.
    Mr. O'Malley. I wanted to thank you, Senator. The funding 
that you got to us--we were 1 of the 120 that received it--that 
was in the first round.
    Now, in the first round funding, a lot of cities through 
that bill, which might be the better prototype--and I do not 
claim to know a whole lot about anything, which is why I am in 
elective office--but that first round funding, sir, came 
directly to cities, and you helped us a great deal, because our 
fire department, because we were able to apply for it, we got 
the training right away. That was one of the reasons we were 
able to handle that chemical fire in the CSX tunnel as well as 
we did, was because of that funding.
    Now, after that first round, though, for some reason--I do 
not know if it was--I think it was legislation sent it directly 
to the States, and those were the dollars appropriated back in 
fiscal year 2000 that still have yet to reach us now, so that 
very example that you give I think is a good one. You all had 
it right when you were doing it in those first round things 
because it was getting directly to us. For some reason now it 
has been kicking around in States for 3 years.
    As of September 12, 46 of our Nation's 50 States had yet to 
submit their comprehensive plans for accessing those dollars 
that you all had appropriated a few years ago, so that might 
very well be the best case study for how we go about skinning 
this cat.
    Senator Domenici. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator. Thank you, mayor.
    Senator Landrieu.

                Questioning by Senator Mary L. Landrieu

    Senator Landrieu. Thank you, Mr. Chairman, and let me 
commend you for calling this very important hearing. I was able 
to be here this morning just for a brief time, and I had 
another hearing that I was actually chairing that had been 
scheduled for quite sometime, but I wanted to be here as much 
of the day as possible to support our chairman and our ranking 
member in this effort, because I just think it is critical.
    Let me say, before Senator Domenici leaves, and I am sorry 
Senator Stevens left, I do understand their frustration, and I 
want to honor the work that they do in so many areas trying to 
distribute resources to local, State, and Federal agencies. But 
I would want to suggest for consideration that we may be in a 
completely new world here, I was very moved by the testimony, 
Mr. Chairman, of Ashton Carter this morning, the doctor from 
Harvard. I do not know if you mayors were able to hear him, but 
I want to support very much the positions that you all have 
laid forward this afternoon. Based on the testimony that he 
presented this morning, Mr. Chairman, which is that truly we 
are in a totally different position.
    Maybe not since the Civil War, since we fought on our own 
territory, do we have to completely rethink our whole strategy 
of national defense and national security. For over 100 or more 
years we have always thought we just had to support these 
efforts and fight a war somewhere else, but we are truly, Mr. 
Chairman, fighting this war on our own territory. We have never 
hesitated, as a Federal Government, not in any war we have ever 
fought, to give people on the front line everything they need 
to win. It is what America does. We do it better than anyone 
else, and I do not know of one period, except maybe in Vietnam 
where we were very confused and not clear about what we were 
doing, did we hold back. But in World War I, and World War II, 
we gave the front line everything we needed.
    These cities are the front line. Afghanistan is not the 
only front line. The Mideast is not the only front line. These 
cities that, Mr. Chairman you know so well, are the front line, 
and so we have to rethink. This is not just a new Government 
program. This is not charity to local governments. This is 
national defense writ anew, and I thought the testimony this 
morning was compelling, and it was urgent, and when you couple 
it with the new weapons that are available, when you couple it 
with the mind-set of these terrorists, when you couple it with 
the strength of these weapons, it is frightening to me what 
local officials have to bear up under every day, knowing what 
could happen in their city.
    And I want to repeat for the record, when people dial 9-1-
1, they do not get a Governor, they do not get a Congressman. 
They get a mayor. They get their local police and their local 
firefighters, and I do not want this committee, I hope, to lose 
sight of that, and to think about the fact that we have to 
support the front line.
    Secondly, I want to go strongly on record as discouraging 
us from suggesting in any of our legislation any local funding 
matches unless they are absolutely necessary. And Mr. Chairman, 
you know, because you represent a relatively poor State of West 
Virginia--I represent a relatively poor State of Louisiana, 
some of my vulnerable target-rich areas are very poor. They 
could not put up 5 percent of the match if you asked them, so 
by requiring any match requirement, you have basically shut 
them out of any protection. And what you end up having is what 
the mayor of Baltimore is trying to say, the perverse program 
where you have the poorer people of the country substituting 
wealthier counties getting the money because the poor counties 
and the poor cities cannot get it because they cannot put up 
the match.
    So first of all I suggest that we rethink the whole 
paradigm, recognize them as the front line, which you have done 
almost better than anyone here, Mr. Chairman, and I want to 
commend you for that, and your valiant efforts that the 
chairman has put forward on this effort. There is no one to his 
measure in this Congress on this particular issue.
    And to also really ask this committee to be very clear 
about what happens when there is a 25-percent match, and let me 
just say, because this is a pet peeve--my staff knows this, and 
I want to just get another minute on this.
    If we are going to have a match, then we should have a 
differential match. The poorer counties should put up maybe 10 
percent--the second highest, you know, the middle third should 
put up maybe 10 percent, or zero for the poor, 10 for the next, 
and 20 percent, so you have a differential match if we have one 
at all, but to ask everyone to give 25 percent just gives the 
richer counties and richer cities the ability to get the money, 
and leaves the poorest people completely out. That is not fair.
    My question would be, after all of that, to say I support 
you in almost every aspect of what you testified for. Could you 
both or all three explain, and just briefly, how you get your 
best practices so we can be sure that the money that I am 
hoping that we can get to you directly, quickly, ahead of time 
so you can be ready, so that we do not melt-down, you know and 
cause general panic, which would completely do what the 
terrorists want us to do, and hold up under great attack. How 
do you get your best practices, so you can be sure you are not 
duplicating among counties and cities? What is going on now, if 
each of you would just answer briefly for a minute.
    Mr. Guido. Thank you, Mr. Chairman, Senator Landrieu for 
your comments. Right now, amongst counties and cities across 
the country we have an all-hazards management plan, and in that 
planning process it requires that a level of coordination 
amongst multiple cities and multiple counties take place. That 
is what needs to happen at a bare minimum as we go forward. 
Cities cannot do it individually, and counties cannot do this 
individually, it has to be a collaborative effort.
    I appreciate your focus on rural communities and poorer 
communities. Two-thirds of the American population reside in 
rural counties. Those counties need to make sure that they have 
adequate protection as well. Those counties are committed to 
working collaboratively and ensuring that they protect their 
communities just as much as the urban communities that are 
doing it, but counties and cities recognize that they are not 
going to do it individually. They are going to do it from a 
regional standpoint.
    And in that regional standpoint, we will be able to address 
some of the concerns that Senator Stevens is talking about, 
threat assessment, how vulnerable are we, where do we put our 
money, and we know at a minimum we need to be able to tie our 
communications systems together, we need to tie our databases 
together, we need to have a mechanism where we can evaluate 
information and respond to it, and that is not going to take us 
doing it individually, but collectively, so I can commit to you 
today, at least what we know from our organization, those best 
practices, our communities know that they need to work in a 
collaborative nature to be able to respond effectively to any 
type of homeland security threats.
    Senator Landrieu. Mr. Mayor.
    Mr. O'Malley. Senator, as briefly as I can, we are very 
lucky in Baltimore that we have located in our city the Johns 
Hopkins Center for the Study of Civilian Biodefense, so we 
really followed their lead and advice when we set up our own 
biosurveillance network. We had Johns Hopkins Hospital to step 
up as a leader to help all the other hospitals with 
bioterrorism plans, and that biosurveillance network goes on, 
that surveillance system is up and running every day. Our 
health commissioner gets those numbers and passes them on to 
the State.
    On the security front, we are lucky to have recruited a 
police commissioner out of New York City, Commissioner Norris, 
who had a lot of training up there with regard to this, and we 
hired a couple of specialists, one a retired FBI intelligence 
person to help us put together a metropolitan intelligence 
network, if you will, that coordinates all of our partners in 
that information-sharing process as well as INS, Customs, and 
all those other folks.
    We also recruited a gentleman named Lou Anamone, most 
recently, I think, a deputy commissioner I think for operations 
in New York, to do a professional vulnerability assessment of 
the critical infrastructure of the chemical companies and those 
things, and with regard to the response functions of the fire 
department
    Senator Landrieu. Let me just ask you on that, did you pay 
for that yourself----
    Mr. O'Malley. Yes, ma'am.
    Senator Landrieu [continuing]. Or did you use some of our 
money? So you used your own money to do your risk assessment.
    Mr. O'Malley. Yes, we used our own money to do that.
    The fire department, they are professional people there, 
and as I mentioned earlier, thanks to help from the Federal 
Government, they availed themselves of the chemical 
preparedness, and also folks up the road from us at the 
Aberdeen Proving Ground have worked very hard and helped us get 
prepared on that score, so we just kind of gathered together 
the best experts we could find, followed their advice, and I am 
glad to say that whenever these news agencies do ratings among 
cities, we always score high amongst the most prepared.
    Senator Landrieu. I know my time is up, but I do not want 
to take Senator Dorgan's time, so if you could just submit that 
for the record in writing, the question, mayor, and let me just 
close with this. I chair a subcommittee on Armed Services, 
involving Special Operations, and one of the great things we 
did, Mr. Chairman, on Special Ops, was to basically give them a 
pool of money that Special Ops could just go to directly and 
draw down when they had to make a battlefield, when they had to 
win the battle.
    We may need to think of the same sort of thing for cities 
that are on the front line of these attacks. And I do not know 
how it would exactly be set up, but again that is just an 
example of out-of-the-box kind of thinking, and it is why we 
are winning the war in Afghanistan, because of that funding 
mechanism that has been very helpful that was developed over 
several years here in the District of Columbia.
    Thank you.
    Chairman Byrd. Thank you, Senator, for good questions and 
an excellent statement.
    Senator Dorgan.

                 Questioning by Senator Byron L. Dorgan

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me ask the mayors and the commissioner, at what point 
will you say, following substantial work, that we are prepared? 
Is there a checklist? I mean, Mayor O'Malley, when will you 
say, we are prepared?
    Mr. O'Malley. When there is long-term sustained funding for 
some of the health efforts in the biosurveillance networks as 
well as the epidemiologists, and those folks that have to 
respond, when there is some funding mechanism in place for us 
to be able to fund the police overtime costs associated with 
heightened states of alert without having to do it entirely, 
100 percent with local funds, and you know, when our police, 
when our fire department has the equipment that they need to 
handle two simultaneous events, rather than just one accident, 
which is what we have the capability to do now. Then I would 
consider us pretty well prepared.
    Mr. Guido. Mr. Chairman, Senator, I would say that along 
those lines, I would just reiterate, we need to integrate our 
databases, our methods of sharing information so that we can 
integrate our communications systems, so when we respond to any 
types of events we are doing it in a coordinated effort. We 
need to be able to establish regional relationships just as we 
saw on September 11. Thirteen counties responded to the 
accident in Somerset County. Those counties had practiced, they 
rehearsed, but they had the equipment in place, they were all 
in the same level when they were responding, and while 
unfortunately they could not save lives, they came pretty 
close, as close as they could, considering what had occurred.
    So I would say we need to get to the point where we have 
these regional relationships, where we have the equipment in 
place, where we are sharing methods of gathering intelligence, 
analyzing it, and using it to minimize the risk and the threat 
to our communities. I do not know if we will ever get fully 
prepared, but there is a lot we can do.
    Senator Dorgan. Well, commissioner, on that point I think 
that even prior to September 11, one would have, for purposes 
of dealing with other emergencies in cities and counties, 
wanted to have a communications system that is seamless and 
that works between a county and a city and some other 
jurisdiction.
    Senator Domenici was asking, I think, some pertinent 
questions. How do you get to that point? Who coordinates the 
requirement to get to that point, because you have a county 
government over here, they like this communications system, 
they go to this vendor and they create their communications 
system based on their set of needs, and they have a city over 
here, they have exactly the same needs, they have someone else 
in charge, they like a different vendor, they create a 
different communications system.
    Who drives this to the conclusion that you ought to have 
commonality--notwithstanding just September 11, but the normal 
kinds of emergency functions for which you are required to be a 
first responder?
    Mr. Gonzales. I would submit to you, Senator, that we do it 
at the local level, that we need to do that.
    Senator Dorgan. But you are saying you need to. I 
understand that.
    Mr. Gonzales. Granted, I would say in the past we have not 
done as well as we could have. In fact, when you consider Los 
Angeles County, there is 80-plus cities that are within Los 
Angeles, all the different communications systems and different 
methods of gathering information. We need to move to a new way 
of thinking about--as Senator Landrieu indicated, we are in a 
new day. We are responding to potential threats that could 
affect our communities, which means that this collaboration 
needs to happen at the local level, and I believe at the local 
level mayors, county officials, and public health officials 
know that we all need to be on the same page.
    Senator Dorgan. I accept that, but I am wondering how it is 
going to be--how are you going to force the issue, because I am 
guessing last July if you were a local government and deciding 
on a communications system, you would have had the same need 
with respect to emergencies. In Minot, North Dakota recently we 
had a couple of cars on a train derail and release anhydrous 
ammonia, a very serious problem. So all of these needs have 
existed prior to September 11.
    September 11 has clearly changed the circumstances. I 
understand that, but I am just trying to see who is going to 
force this? Who is the coordinating force that requires this to 
happen?
    Mr. Guido. Let me just mention about the communication 
issue, because it is very important, and this Friday a task 
force on interoperability will have its first session here in 
Washington, and I will be one of the members of the task force, 
but we will be developing policy at a Federal level for States 
and local government to set aside spectrum for emergency 
communications, and September 11 only just created the urgency, 
I would say, for establishing that.
    It has been something everybody has thought of and talked 
about, but there has never really been this coordinated effort, 
but this will be a Federal policy that will be implemented on a 
national level, and certainly will need the support of the 
Senate and the House and the FCC in taking that spectrum and 
setting it aside for public safety.
    Senator Dorgan. Well, you understand the import of my 
question. I am just trying to understand how this happens. Does 
it emerge, or is there some driving force that requires this to 
happen? If so, what is that force?
    Mr. O'Malley. I would submit to you, Senator, that I think 
that the Federal Government, that the dollars that the Federal 
Government could devote to this also have the requirement that 
the States come up with plans that make it really work, so you 
do not get into the issue of, well, this county commissioner 
wants it to go to his brother-in-law, and somebody else wants 
it to go to this contractor. I think you can set that up as 
part of the prerequisite for that--your question is a good one. 
I mean, without a Cabinet Secretary, Cabinet-level person for 
homeland defense really driving this with authority, it is 
difficult.
    Senator Dorgan. So you are asking for strings.
    Mr. O'Malley. Yes, sir. I think there needs to be. I mean, 
when you talk about the issue of interoperability, I understand 
Maryland has got some dollars for that. We already have it in 
Baltimore where our fire and police invested a lot of money in 
it a while back, because of precisely what you were saying. We 
knew we needed that anyway, but expanding that to the whole 
metropolitan area, I think yes, put the strings on and force us 
to do what security demands.
    Senator Dorgan. Let me ask about the Office of Homeland 
Security. Can the three of you tell me of your connection with 
it? What kind of communications have you had, where have those 
communications taken place, and essentially, without disclosing 
anything that would be confidential, what have the 
communications been?
    Mr. Guido. Mr. Chairman, we have been very pleased with our 
interaction with the Office of Homeland Security. I would take 
20 seconds just to go back real quick. We are responsible for 
implementing it. We are responsible for driving the integration 
of these issues. We need to do that, through the conduction of 
emergency management plans be able to draw the road map where 
we will be able to integrate our systems.
    So back to the issue of the Homeland Security Office. 
Governor Ridge has offered many invitations that we have 
accepted to advise and to be a part of how they developed their 
security threats and what ways they can best communicate with 
local government officials so we can adequately prepare our 
communities for any issue that may come their way and, in fact, 
on April 25 we have been invited to come back to sit down with 
the Governor and do a review of these threat assessments and 
determine what we can do to establish a more coordinated effort 
between his office and local governments in terms of 
disseminating information, providing feedback to him so 
hopefully he can do his job for the President.
    Senator Dorgan. Yes, I guess I am asking in a more specific 
way. Governor Ridge has been charged by the President to be the 
head of Homeland Security. We are not quite clear whether this 
is an operational role or an advisory role. It is not quite 
clear to me exactly what that role is. He does not head an 
agency, although he has requested, I believe, in the White 
House budget request $24 million for his office.
    I am trying to understand--and this is not an implied 
criticism of anything or anybody--I am just trying to 
understand where we are, what kind of coordination exists, how 
that coordination relates to your role.
    Mayor Guido, tell me about your city and your role with 
respect to the Office of Homeland Security at this point. Is 
there an operational role from that office to yours?
    Mr. Guido. Well, we certainly had the opportunity to meet 
with Governor Ridge and his staff, and they have been both open 
and very cooperative.
    I think what we are trying to do is establish policies and 
procedures, protocols for responding to a terrorist event or 
other emergencies that would be on a local level, and I think 
that Governor Ridge has been very open to our suggestions for 
how to prepare for those things, and I think that over the 
course of the next several months we will probably have some 
planning in place. That is the charge that I have for the 
national League of Cities, is to develop some kind of template 
that cities can apply for homeland security.
    Senator Dorgan. Would Governor Ridge, for example, from the 
national Office of Homeland Security, be developing a template 
for communications that he would say to your city and your 
county, here is the way you have to develop a communications 
system that allows you to communicate with one another?
    Mr. Guido. Well, I think overall that would be the optimum 
goal, that every city in this country is prepared and has a 
specific way to deal with these issues, and I think that 
ultimately it would be incumbent on the Director of Homeland 
Security, Governor Ridge, to provide the types of measures that 
we need to implement.
    Senator Dorgan. Mayor O'Malley.
    Mr. O'Malley. Yes, the Conference of Mayors believes that 
position should be an operational one rather than just an 
advisory one. The Governor very kindly met with us back at the 
White House a few months ago and included us on a conference 
call when they came up months later with these heightened 
states of alert, but I think, Senator, you hit the nail on the 
head. I think as we struggle with this, I think Governor Ridge 
is a very decent man who is trying as best he can to take an 
advisory role and make it operational without having that 
defined in a budget.
    Senator Dorgan. Mr. Chairman, I think my time has expired, 
but I ask these questions only because I think the question of 
how we do what we do is very important. At the end stage I 
think you all have described what you think we need to have 
done here, and I certainly agree with that, and you all are the 
first responders, there is no question about that.
    When something awful happens in this country, the men and 
women in your fire departments, emergency response, police 
forces are going to be the first responders, and we need to 
help you prepare them for that, but also there needs to be, it 
seems to me, some kind of operational role here for a national 
homeland defense system that says to you in New Mexico, and you 
in Maryland, and the counties and cities, you have got to have 
compatible systems, and you have got to have plans and 
approaches that allow all of us to work together in a seamless 
way to respond to these issues, so I appreciate your answers. I 
think they are very helpful as we think through these.
    Mr. Chairman, once again, this is an excellent panel and I 
think contributes to this discussion in a very significant way. 
Thank you.
    Chairman Byrd. Thank you, Senator Dorgan.
    Senator Inouye.

                Questioning by Senator Daniel K. Inouye

    Senator Inouye. Thank you, Mr. Chairman. I am sorry I had 
to absent myself. I had some other emergencies.
    The Director of Homeland Security has to coordinate 
agencies and subagencies from 81 different groups, and I 
suppose in that sense he is a very important Director. When you 
have problems on homeland security, who do you think of 
calling, the Defense Department, or FEMA, who do you call?
    Mr. Guido. That is a good question, Senator. I mean, I 
think right now, when the American people have concerns about 
homeland security they are calling their fire and police 
officials.
    I think for local government, at least in our case, it is a 
wait-and-see who is going to have authority in providing the 
guidance. You know, is it going to be FEMA in the end that is 
going to distribute the money and provide guidance on how it 
can be spent, is it the Governors, is it the Office of Homeland 
Security, and so I think from our standpoint we are hopeful 
that it is a single agency, that the money that comes down will 
come down as flexible as possible, and as quickly as possible, 
but right now, it is at least on my part it is a wait-and-see 
as to what the Federal Government, where this issue of 
distribution of funds and criteria on how they are going to be 
spent, where it is going to be coming out of.
    Senator Inouye. So as long as you can get it from 81 
different agencies----
    Mr. Guido. Yes, and consider many of our rural communities, 
who have to go to 840 different agencies just to ask for all 
the funds that are available for them, so we are hoping that we 
can get that consolidated for one point of distribution.
    Senator Inouye. Mayor O'Malley.
    Mr. O'Malley. I was hoping you would skip me. Right now, we 
call the people who have proven themselves the experts in the 
advice category. We really have nobody to call for money. I 
mean, we can jump up and down to our local emergency management 
people and maybe to--whether it is DOJ or Defense Department, 
it always seems so confusing to remember who is in charge of 
which program.
    On September 12, the person I found that gave me the best 
advice was your former colleague, U.S. Senator Gary Hart, who 
with Senator Rudman chaired the Commission on Security Needs in 
the 21st Century, and the advice he gave me was advice we have 
continued to follow, which is to do the very best we can with 
the experts around us, because it will take our Federal 
Government a long time to catch up to this.
    Senator Inouye. Are you satisfied with the work of the 
Office of Homeland Security?
    Mr. O'Malley. Senator, I think that Governor Ridge is 
trying very hard. Shortly before you came in, Senator Dorgan's 
question asked, you know, if that were an advisory role or an 
operational role. I think it is an advisory role in search of 
operational powers, and he does not have those operational 
powers, and I think that it is difficult to ask a person to do 
things without giving him or her the power to do it, and we 
have not given him the power to do that yet, and nor has the 
President, apparently.
    Mr. Guido. This is a relatively new phenomenon, Senator, as 
you know. I mean, we are reacting, and things are evolving on a 
daily basis, but the point is that we are the first responders 
if there were an emergency for any incident, and we are trying 
to put together plans that would make cities prepared for such 
an event, and who do we call if we need assistance? Obviously, 
we rely on the Federal Government for help.
    A lot of different agencies within the Federal Government 
will have money within their budget for homeland security, if 
you will, and I am assuming that cities will still have the 
opportunity to apply directly to those agencies or departments 
for grants for issues that may relate to homeland security or 
biohazards or other things that different departments deal 
with, but it is an evolving program, and there are really no 
specific answers at this time.
    Senator Inouye. Well, I thought it was very clear for 
anyone who watched the events unfold on September 11 that the 
forces you command were the front line troops, and as front 
line troops I think you should have the funds go directly to 
you instead of going up to the Supreme Commander and filter 
down, so we will do our best. I will do my best, and we are 
hoping some day the Director of Homeland Security will come and 
testify. We would like to know what his office is doing. But I 
am glad the mayors are here.
    Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Inouye.

                 Questioning by Chairman Robert C. Byrd

    Now, earlier, Commissioner Gonzales, my time of 7 minutes 
did not allow me to ask you a question. One of the National 
Association of Counties legislative priorities calls on the 
Congress to enact a new local antiterrorism block grant at a 
minimum of $3.5 billion, I believe, to comprehensively fund 
county and municipal law enforcement and public safety agencies 
and programs. Does the President's first responder initiative 
address this need?
    Mr. Gonzales. Mr. Chairman, I believe it does, but our 
proposal is a little bit different from the President's, as it 
was indicated today. The President is proposing that the money 
go to the Governors, 25 percent will stay in the States, 75 
percent move down to the local communities. Our proposal calls 
on the Federal Government to make a direct allocation to local 
communities. We feel at the local level we are best capable, 
through existing infrastructure, to be able to determine how 
the moneys will be spent.
    We are extremely concerned that the Governors will use this 
money to either supplement other revenues that are due to local 
governments, or that they may use it to leverage other 
resources, or who knows what might happen, and they may use it 
for the right purposes, but I think for the people on the front 
lines--and I am talking beyond the policymakers. I am talking 
about the fire chiefs and the police officers, the public 
health officials. To them, all they want to do is make sure 
they have access to the funds so that they can develop the 
coordinated effort to get access to the tools to properly care 
for their communities.
    It may happen to the route that the President is 
proposing--I agree with Mayor O'Malley, our big concern is that 
that may take 2 or 3 years by the time it makes it down to the 
local communities, and it makes it very difficult to coordinate 
responses when that funding is coming down at different levels 
and at different times, and it is very sporadic, and so how do 
you promote regionalization when one county gets the money at 
one time of the year, another county gets it at a different 
time, and it is very inconsistent, so we are wanting to see if 
we can get past that and find a direct allocation in the most 
simple manner that is the most flexible.
    Chairman Byrd. In the event of a bioterrorist attack, do 
county hospitals across the country have the capacity to treat 
a sudden surge of patients?
    Mr. Gonzales. No, sir. No, sir, county hospitals do not 
have the capacity at this point to fully care for anyone who 
might impact some type of bioterrorism incident. We know that 
the majority of our county hospitals do not have the capacity, 
they are underfunded, they are undertrained, they are 
understaffed.
    Senator, we heard from one emergency management official in 
Iowa who said he had a three-point plan, and he is coming from 
a rural county, and his three-point plan was to pick up the 
phone and call for help, the second point, hope somebody comes, 
and his third point was that he was going to stack the body 
bags in the gym.
    That is the reality that exists in many rural communities 
and many county public health facilities. They do not have the 
adequate capacity to deal with caring for their communities. 
They certainly do not have the adequate capacity to deal with a 
bioterrorism impact on their communities.
    Chairman Byrd. Mayor O'Malley.
    Mr. O'Malley. I would agree with the commissioner. It 
depends on how sick people are. We certainly are better 
prepared now than we were just in terms of coordination and 
running scenarios and figuring out which hospital would be the 
quarantine hospital and things of that nature, but as far as 
having the thousands of respirators that one might need, no, 
sir, we are not nearly ready for that. In fact, we have done a 
very good job, for better or worse over the last 20 years, of 
reducing bed capacity in a lot of hospitals, so we still have a 
long way to go on that.
    Also, there is more we could--one of your colleagues asked 
a question, what is another thing on the checklist, whether or 
not we are prepared. One of those things would be whether or 
not we administered the--whether we are able to prophylax your 
health responders, who in essence are just like your fire and 
police in the event of a bioterrorism attack.
    Chairman Byrd. Mayor Guido.
    Mr. Guido. Well, Senator, I think that we certainly want to 
coordinate our efforts with the local hospitals, and we have, 
but it is a shame that part of our plan is using the municipal 
ice arena as the temporary morgue. I mean, that is how it is 
written up in our plan.
    There are many choices to be made here, and many decisions 
that have to be made that really rest on the shoulders of this 
committee and Members of the House, and we know that you have 
finite resources, and cities go through budget issues as well, 
and we know there are finite resources, but I want you to know 
that we are so grateful to be asked to the table to discuss 
what our needs are and to have the opportunity to explain to 
you our position, and that you would be so respectful to us in 
asking what our needs would be.
    Chairman Byrd. Well, mayor, you are the people, you are the 
individuals who have the answers at the local level, the local 
municipal level, the local county level, and I want to 
personally thank you for your time here, and for the wisdom 
that you have shared for us as you have attempted, and done 
very well, to answer our questions, and your testimony will be 
very helpful to us. You have performed a real service. We have 
to have your help. We have to have your advice. We do not stand 
in your shoes. So thank you very much for coming here today, 
all of you.
    Today represents the beginning of this committee's attempt 
to better understand the aftermath of the horror of 9/11. This 
Congress responded immediately to enact $40 billion within 3 
days, $40 billion. That is a lot of money. That is $40 for 
every minute since Jesus Christ was born. That is quick action 
on the part of the People's Branch.
    Congress responded immediately to enact $40 billion to 
address immediate needs after September 11. Now it is time to 
step back and take a more comprehensive look at how we deal 
with the long-term specter of terrorism that has come to visit 
our shores. This committee is trying to get a hold, just a 
feel, a sense--a sense--of what has worked, what has not, what 
will work at the different levels of Government. We are also 
trying to discern how to best allocate scarce dollars in the 
most intelligent way with an eye toward prevention and toward 
determining our most obvious vulnerabilities.
    Several things have already emerged, Senator Inouye, which 
need to be addressed. The need for a coordinated response, with 
a smooth flow of intelligence data from the Federal to the 
State and local levels, appears to be essential. The need for 
sustainable programs to help the States plan for these new 
responsibilities seems to be critical.
    The Office of Homeland Security, while doing its best to 
coordinate the needs, may not be structured in the best way to 
facilitate effective cooperation among the various Federal 
agencies and State and local entities. We are talking about 
people's lives here. We are talking about a nation's 
vulnerabilities.
    Analyses of our most vulnerable infrastructures--and there 
are many different infrastructures in this country--are 
lacking, and information-sharing has been difficult. There may 
be a need for the Office of Homeland Security to evolve so that 
the Nation can more effectively deal with the long-term problem 
of homeland defense.
    Our resources are finite. We cannot protect every highway 
and every bridge, perhaps. Throwing money at the problem will 
not afford our people the protection that they must have, that 
they deserve. The needs are huge. That is a good British word. 
They are huge, and we must not approach these needs without an 
effective plan.
    In my view, this committee is grappling with the most 
important challenge that we face as a nation in the foreseeable 
future. We have been confronted with foreign wars, wars on 
foreign fronts. I was born during the First World War, and I 
have seen several wars on foreign fronts, the Second World War, 
the Korean War, and the Vietnam War, the war in the Persian 
Gulf.
    Now, the battlefield is not in some distant land, it is 
here, here in Baltimore, Mayor O'Malley, here in Dearborn, 
Mayor Guido, and here in Santa Fe, where the Spanish came more 
than 400 years ago.
    Knowledge is power. Hopefully what we learn here can help 
us to make the most informed, most effective funding decisions 
possible, and I look forward to our hearings tomorrow. Tomorrow 
morning, we will hear from a panel of first responders. These 
are men and women who would be on the front lines in responding 
during future terrorist attacks, National Guardsmen and women, 
police officers, firefighters, public health personnel. We have 
already seen what these people are capable of doing to protect 
their fellow citizens in the face of disaster.
    Tomorrow afternoon we will continue our hearings with a 
number of experts in the area of infrastructure security. We 
will be concerned with such critical matters as port security, 
nuclear plant security, the safety of our water supplies, all 
of which are absolutely essential to the security of our 
homeland.
    I thank all of our witnesses for coming to Washington to 
share with the committee their insights and judgments. I thank 
the members of the committee who have attended the hearing, who 
have asked questions. I thank all members for their attendance 
and participation. I especially want to thank Senator Stevens 
for his very valuable contribution to the hearings, and at this 
point I want to thank the staffs on both sides of the aisle for 
the help that they have given, the contributions that they have 
made.
    So now, hurrying to a close, tomorrow morning at 10 a.m. we 
will hear Mr. Thomas Von Essen, former New York City Fire 
Commissioner, representing the International Association of 
Fire Chiefs; Mr. Mike Crouse, chief of staff to the general 
president, the International Association of Firefighters; Mr. 
Philip Stittleburg, chairman, National Volunteer Fire Council, 
and volunteer fire chief for LaFarge, Wisconsin; Colonel Lonnie 
Westphal, chief of the Colorado State Patrol, representing the 
International Association of Chiefs of Police; General Richard 
Alexander, Director, National Guard Association; and Mr. Gary 
Cox, Director, Tulsa, Oklahoma City and County Health 
Department, but here in his capacity representing the National 
Association of County and City Health Officials.
    At 2:00 tomorrow afternoon, former Senator Warren Rudman 
will be before the committee. He is the co-chairman of the U.S. 
Commission on National Security for the 21st Century.
    Panel number 4, on infrastructure security, on port 
security, Admiral Richard M. Larrabee, retired Admiral, 
Director, Commerce Department, Port Authority of New York and 
New Jersey, former Rear Admiral, United States Coast Guard, and 
Dr. Stephen E. Flynn, senior fellow, national security studies, 
Council on Foreign Relations, New York, New York.
    On water infrastructure, Mr. John Griffin, general manager, 
Washington Suburban Sanitary Commission, Laurel, Maryland, 
representing the Association of Metropolitan Water Agencies; 
Mr. David Lochbaum, Union of Concerned Scientists, Cambridge, 
Massachusetts will testify concerning nuclear facilities 
security; Mr. Jeff Benjamin, vice president for licensing, 
Exelon Corporation, Chicago, Illinois, representing the Nuclear 
Energy Institute.

                            COMMITTEE RECESS

    The committee is recessed for today.
    [Whereupon, at 4:15 p.m., Wednesday, April 10, the 
committee was recessed, to reconvene at 10 a.m., Thursday, 
April 11.]


                           HOMELAND SECURITY

                              ----------                              


                        THURSDAY, APRIL 11, 2002

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 10 a.m., in room SH-216, Hart Senate 
Office Building, Hon. Robert C. Byrd (chairman) presiding.
    Present: Senators Byrd, Inouye, Hollings, Leahy, Mikulski, 
Kohl, Murray, Dorgan, Feinstein, Johnson, Landrieu, Reed, 
Stevens, Specter, Domenici, Burns, Gregg, Bennett, and 
Campbell.

              Opening statement of Chairman Robert C. Byrd

    Chairman Byrd. The committee will come to order. The 
committee resumes its hearings which began yesterday on the 
Office of Home Security's budget, items that are in the 
supplemental appropriations request, and today we hear from 
people at the local level, the first responders, what they have 
to say about their needs.
    Among the witnesses for today are these, who will testify 
this morning. Mr. Thomas Von Essen, former New York City Fire 
Commissioner, representing the International Association of 
Fire Chiefs. Mr. Mike Crouse, chief of staff to the general 
president, International Association of Fire Fighters. Mr. 
Philip Stittleburg, chairman, National Volunteer Fire Council, 
and Volunteer Fire Chief, LaFarge, Wisconsin. Colonel Lonnie 
Westphal, chief of the Colorado State Patrol, representing the 
International Association of Chiefs of Police. General Richard 
Alexander, Director, National Guard Association. Mr. Gary Cox, 
director, Tulsa, Oklahoma, City-County Health Department, 
representing the National Association of City and County Health 
Officials.
    Now, before I call on my colleague, Mr. Stevens, let me 
suggest that your statements will be included in the record as 
though stated in their entirety, so where you can reduce your 
statements to your recommendation as to the committee's 
appropriations on what your needs are, and how you see the 
Office of Homeland Security, is it working with you, is it 
advising you, some of the proposals that have been made by the 
administration in its budget, how will these proposals affect 
your effort, your work and the work of the people you 
represent? These responses will be helpful.
    We all know the good work that you do, the hard work that 
the people at the local level do, we know that they are the 
first people to arrive on the scene, and we want to hear from 
you, so with the understanding that we are fully aware of the 
services that you perform, the people at the local level 
perform, get right to the point, if you can, with respect to 
the needs of the people we represent, and how can we best meet 
those needs?
    If there are proposals in the President's budget that you 
agree with, let us hear. If there are proposals that you do not 
agree with, let us know. Let us know what you think are the 
good points and the not-so-good points, if there be some, as 
far as your observations of the Office of Homeland Security are 
concerned, so that when Mr. Ridge comes before this committee, 
and he has been invited to come by both my colleague, the 
former chairman of this committee, Senator Ted Stevens, and 
myself, he can respond to some of the concerns you have 
expressed. With that now, I will turn to my good friend and 
colleague, Senator Stevens, for whatever statement he wishes to 
make, and then we will proceed.

                    Statement of Senator Ted Stevens

    Senator Stevens. Thank you very much, Mr. Chairman. Sorry 
to be a tad late.
    Chairman Byrd. Oh, that is all right.
    Senator Stevens. I had another meeting. I do welcome all of 
you gentlemen as witnesses. Our hearings yesterday gave us 
important insights into the challenges faced by the Governors 
and cities and counties as they prepare to prevent similar 
attacks occurring in their area that have occurred in New York 
and at the Pentagon.
    We are now dealing with the front line people as far as I 
am concerned. You will be there. You have the responsibility to 
react first in such a crisis, and I hope you can give us a 
better understanding of the level of Federal cooperation that 
you will need to carry out the plans and provide the services 
first responders must give in the event of crisis.
    I particularly appreciate your being here, General 
Alexander. I think the post 9/11 period has greatly increased 
the pressure on the people in your program, and we have worked 
very closely with you and your predecessors as a key partner in 
the effort to keep the National Guard prepared to respond to 
any crisis, and I am proud the way you did respond to the 
crisis past 9/11, and you deserve great credit for that.
    Mr. Chairman, I look forward to this panel. I think it 
should be very interesting and informative. I appreciate your 
holding the hearings.
    Chairman Byrd. Thank you, Senator Stevens. Throughout our 
efforts to prepare for these hearings, Senator Stevens and I 
worked shoulder-to-shoulder and all witnesses that have 
appeared before this committee, and those who are appearing 
today, have been discussed between the two of us and there has 
been no disagreement whatsoever. We have all agreed on the 
witnesses to be called, and I thank Senator Stevens for his 
cooperation and for his leadership. As former chairman of this 
committee, he is a leader, and I lean on him very heavily.
    I want to thank the other members of the committee who are 
here this morning, Senators Johnson and Kohl and Senator 
Campbell, the Senator from Colorado----
    Senator Stevens. Senator Gregg.
    Chairman Byrd [continuing]. And Senator Gregg. Thank you 
for being here already, early this morning, and there will be 
others who will come.
    Now, Mr. Von Essen, would you please proceed?
STATEMENT OF THOMAS VON ESSEN, FORMER NEW YORK CITY 
            FIRE COMMISSIONER, REPRESENTING THE 
            INTERNATIONAL ASSOCIATION OF FIRE CHIEFS
    Mr. Von Essen. Good morning, Mr. Chairman. My name is 
Thomas Von Essen, and I have served in the New York City Fire 
Department for over 30 years. I began my career as a 
firefighter in the South Bronx and retired earlier this year as 
commissioner of the FDNY. I also serve on the Terrorism 
Committee of the International Association of Fire Chiefs, on 
whose behalf I speak today.
    First, I would like to thank you, Mr. Chairman and members 
of the committee, for your continued concern for firefighters 
and other first responders to terrorist incidents.
    Mr. Chairman, many of my colleagues have testified before 
the Congress on the role of the fire and emergency service in 
responding to and mitigating acts of terrorism. Chief Fanning, 
responsible for FDNY's hazardous materials operations, 
testified before this committee 11 months ago. He said in part, 
if lives are to be saved and suffering reduced, it will be up 
to them to do it, that a terrorism incident, whatever the 
scale, firefighters and other responders will be there within 
minutes, some quite possibly becoming victims themselves. They 
will do what they have always done, act to protect the public 
they serve.
    I would like to take this opportunity today to speak to the 
need to focus on the national preparedness effort in a manner 
that facilitates cooperation among and between all levels of 
government, and above all the need to focus on preparing this 
Nation's million-plus firefighters, who will be the first at 
the scene of any future terrorist attack against our homeland.
    Though we in New York City enjoyed tremendous support from 
agencies at the State and Federal level last September, the 
brunt of the work fell upon and will always fall to local 
personnel. That is simply because, in a crisis, time is our 
enemy. Personnel that are dispatched by our existing 9-1-1 
emergency system arrive on scene in minutes. Fire department 
personnel are strategically located in every community in this 
country for precisely this reason. There can be no substitute 
for a well-prepared fire department in a time of crisis.
    Jack Fanning and 342 of our colleagues and friends at FDNY 
became victims last September. They were joined by scores of 
local police officers in a successful effort to evacuate over 
25,000 people from the World Trade Center before its collapse 
took their lives and those of more than 2,500 civilians.
    I would like to speak to some of the programs developed by 
Congress to assist the fire and emergency service. First, we 
are pleased with the administration's commitment to the support 
of firefighters, police officers, and other first responders as 
demonstrated in the $3.5 billion fiscal year 2003 budget 
request. Though the details of the administration's plan are 
not complete, what we have seen so far is encouraging. Our 
input has been sought by administration officials, including 
Homeland Security Director Tom Ridge and Joe Allbaugh, Director 
of the Federal Emergency Management Agency, and I cannot say 
enough about the help we received last fall from Joe Allbaugh 
and all of FEMA. New York City needed help, and FEMA delivered.
    Mr. Chairman, we want you to know that there was a great 
deal of confusion and disappointment in the fire service when 
the administration initially proposed eliminating in fiscal 
year 2003 grants provided under FEMA's assistance to 
firefighters program, commonly known as the Fire Act grants, 
that were established in law openly 18 months ago. The program 
has been funded by this committee at authorized levels for two 
consecutive years, has been received as an unqualified success 
by America's fire departments.
    We want to thank you, Mr. Chairman, and your committee, for 
your support of the fire grant program. We also want you to 
know of our very positive experience with this program, and 
that we believe it should not be eliminated or folded into any 
new untested program. The Fire Act program is designed to 
assist us with training and equipment that is basic to fire 
fighting and all-hazard responsibility of local fire 
departments.
    Enhancing the ability of firefighters to cope with a 
terrorist incident involving weapons of mass destruction can 
only begin after basic competency and capability has been 
achieved. After the administration's formal fiscal 2003 budget 
proposal eliminating the Fire Act grant program was submitted 
to Congress, both Director Ridge and Director Allbaugh told us 
they believe the Fire Act grant program should continue, and 
remain separate and apart from the proposed new terrorism 
preparedness block grant program. We agree, and hope you and 
Congress do, too.
    Chairman Byrd. We hope Governor Ridge will come before the 
committee and tell us that.
    Mr. Von Essen. I hope so too, Mr. Chairman. I have a whole 
section here about fire department staffing. By your request to 
shorten my presentation I will just say the primary objective 
of adding 75,000 U.S. firefighters is to raise the staffing 
level of fire departments throughout the country to four 
firefighters per unit. That is an important section, but I go 
into it in detail in my prepared testimony.
    We have called for the development of a single 
comprehensive national strategy that addresses several key 
areas. There are a variety of Federal agencies that have lent 
us considerable expertise. Many have actively sought ours. We 
believe our national preparedness effort should be focused in a 
way that provides measurable preparedness goals to which we can 
all work. Without clearly defined goals, it is exceedingly 
difficult to measure progress and to define the end product, 
adequate preparedness.
    We believe that a national strategy should be developed 
that focuses on building a comprehensive response capability 
that enhances where necessary existing assets of the local, 
State, and Federal levels of government. All communities are 
served by fire and police departments that will be dispatched 
to mitigate any terrorist incidents within minutes. We propose 
that whatever funding you and the committee deem appropriate 
for terrorism preparedness be tied to performance capability 
objectives that include interagency and interjurisdictional 
planning.
    We in New York some years ago developed a system that 
allowed for joint planning by our local agencies. We included 
representatives from the State and from Federal agencies with 
appropriate responsibility. We also worked with outlying 
suburbs to include them in our planning process. We need 
measurable goals, and we need to adhere to them.
    Terrorist incidents are primarily local events. The events 
of last September bear that out. The block grant program that 
the administration has proposed must address that reality. 
Funding that is provided by Congress to help enhance the 
abilities of local agencies must reach those very agencies and 
not get lost in the bureaucracy. The ramifications of an ill-
prepared local community in the post September 11 world are too 
large.
    Mr. Chairman, I want you to know that the support we 
received in New York last fall was profound, and we remain 
grateful for the assistance garnered by so many Federal 
agencies from Congress and, most of all, from the American 
people. We knew that we were not alone in our struggle or in 
our grief. However, I am compelled to end my testimony where I 
began. It is my life's experience that firefighters and other 
local first responders will act alone in the first critical 
hours of any emergencies, no matter how large or small. It is 
within that time frame that lives will be saved. I urge you not 
to forget this simple fact in your deliberations.
    Thank you, Mr. Chairman, for allowing me the honor to 
testify. I am happy to answer any questions the committee might 
have.
    Chairman Byrd. Thank you, Mr. Von Essen, for your fine 
statement. It will be included in the record in its entirety. 
Thank you for cutting it down. I hope that all of us will 
follow in the wake of your example.
    [The statement follows:]
                 Prepared Statement of Thomas Von Essen
    My name is Thomas Von Essen. I served the Fire Department of the 
City of New York (FDNY) for over thirty years. I began my career as a 
fire fighter in the South Bronx and retired earlier this year as 
Commissioner of FDNY. I also serve on the Terrorism Committee of the 
International Association of Fire Chiefs on whose behalf I speak today. 
First, I would like to thank you, Mr. Chairman, and members of the 
Committee, for your continued concern for fire fighters and other 
``first responders'' to terrorist incidents.
    Mr. Chairman, many of my colleagues have testified before the 
Congress on the role of the fire and emergency service in responding 
to, and mitigating, acts of terrorism. Indeed, Chief Jack Fanning, 
responsible for FDNY's Hazardous Materials Operations, testified before 
this Committee eleven months ago. He said, in part, ``If lives are to 
be saved and suffering reduced, it will be up to them to do it. At a 
terrorism incident, whatever the scale, fire fighters and other 
responders will be there within minutes, some quite possibly becoming 
victims themselves. They will do what they have always done--act to 
protect the public they serve.''
    I would like to take this opportunity today to speak to the need to 
focus our national preparedness effort in a manner that facilitates 
cooperation among and between all levels of government, and above all, 
the need to focus on preparing this nation's million-plus fire 
fighters, who will be first at the scene of any future terrorist attack 
against our homeland. Though we in New York City enjoyed tremendous 
support from agencies at the state and federal level last September, 
the brunt of the work fell upon, and will always fall to, local 
personnel. That is simply because, in a crisis, time is our enemy. 
Personnel that are dispatched by our existing national 911 emergency 
system arrive on-scene in minutes. Fire department personnel are 
strategically located in every community in this country for precisely 
this reason. There can be no substitute for a well-prepared fire 
department in a time of crisis.
    Jack Fanning and 342 of our colleagues and friends at FDNY became 
victims last September. They were joined by scores of local police 
officers in the successful effort to evacuate over 25,000 people from 
the World Trade Center before its collapse took their lives and those 
of more than 2,500 civilians.
    I would like to speak to some of the programs developed by Congress 
to assist the fire and emergency service. First, we are pleased with 
the administration's commitment to the support of fire fighters, police 
officers and other ``first responders'' as demonstrated in the $3.5 
billion fiscal year 2003 budget request. Though the details of the 
administration's plan are not complete, what we have seen so far is 
encouraging. Our input has been sought by administration officials, 
including Homeland Security Director Tom Ridge and Joe Allbaugh, 
Director of the Federal Emergency Management Agency (FEMA). I can not 
say enough about the help we received last fall from Joe Allbaugh and 
all of FEMA. New York City needed help and FEMA delivered.
Assistance to Firefighters Grant Program
    Mr. Chairman, we want you to know that there was a great deal of 
confusion and disappointment in the fire service when the 
administration initially proposed eliminating, in fiscal year 2003, 
grants provided under FEMA's Assistance to Firefighters program, 
commonly known as FIRE Act grants, that were established in law only 
eighteen months ago. The program has been funded by this Committee at 
authorized levels for two consecutive years and has been received as an 
unqualified success by America's fire departments. We want to thank 
you, Mr. Chairman, and your Committee, for your support of the FIRE 
grant program. We also want you to know of our very positive experience 
with this program and that we believe it should not be eliminated or 
folded into any new, untested program.
    The FIRE Act grant program is designed to assist us with training 
and equipment that is basic to fire fighting and the all hazard 
responsibility of local fire departments. Enhancing the ability of fire 
fighters to cope with a terrorist incident involving ``weapons of mass 
destruction'' can only begin after basic competency and capability has 
been achieved.
    After the administration's formal fiscal year 2003 budget proposal, 
eliminating the FIRE Act grant program, was submitted to Congress, both 
Governor Ridge and Director Allbaugh told us they believe the FIRE Act 
grant program should continue and remain separate and apart from the 
proposed new terrorism preparedness block grant program. We agree and 
hope that you and Congress do, too.
Fire Department Staffing
    The understaffing of fire departments is an issue that must be 
addressed. Whether a department is a career, volunteer or a 
combination, staffing is an immediate issue, especially in light of 
today's reality. Existing federal programs provide tools for equipment 
and training. No program provides for additional human resources for 
adequate response to terrorism. The IAFC requests that Congress 
establish a program to increase the number of fire fighters in the 
United States by 75,000.
    The primary objective of adding 75,000 U.S. fire fighters is to 
raise the staffing level of fire departments throughout the country to 
four fire fighters per fire company. Proper safety practice, codified 
in federal administrative law by the Occupational Safety and Health 
Administration, requires fire fighters to operate in teams of at least 
two. Fire departments typically field three-person engine and ladder 
companies. Therefore, fire apparatus staffing of four yields two 
working teams, doubling the capacity of three-person units which can 
only form one operational team. A four-person response unit will yield 
a 100 percent increase in operational capacity compared with three-
person companies. Raising staffing levels to four personnel is a large 
undertaking, but it is necessary.
    Limited apparatus staffing reduces a fire department's ability to 
respond to major events, including a terrorist incident, where large 
amounts of resources are needed quickly and in quantity. Early 
intervention in the consequence of a terrorist event will increase the 
number of lives saved. Fire departments respond within three to five 
minutes and remain in place until an incident is resolved. No other 
consequence management resource can respond this quickly.
    Senators Christopher Dodd and John Warner last fall crafted 
legislation, the Staffing for Adequate Fire and Emergency Response 
(SAFER) Act, which authorizes a program to provide local communities 
with assistance for additional fire department staffing. Their bill 
would require a local contribution of twenty-five percent of the cost 
of additional staffing for each of three years. It is designed as a 
one-time, three-year assistance program that is structured to require 
local financial support from the outset, thus avoiding the ``balloon 
payment'' that has resulted in an unmanageable burden upon local 
governments participating in other federally-supported public safety 
staffing initiatives. It is our hope that the Senate consider carefully 
this innovative approach to the staffing issue.
Strategic Considerations
    Mr. Chairman, we in the fire service have been deeply involved in 
the terrorism preparedness issue for many years. We have worked closely 
with policy makers at all levels of government and we believe that 
significant progress has been made. However, there is much work that 
needs to be done.
    We have called for the development of a single, comprehensive, 
national strategy that addresses several key areas. There are a variety 
of federal agencies that have lent us considerable expertise. Many have 
actively sought ours. We believe our national preparedness effort 
should be focused in a way that provides measurable preparedness goals 
to which we can all work. Without clearly defined goals, it is 
exceedingly difficult to measure progress and to define the end 
product, adequate preparedness.
    We believe that a national strategy should be developed that 
focuses on building a comprehensive response capability that enhances, 
where necessary, existing assets at the local, state and federal levels 
of government. All communities are served by fire and police 
departments that will be dispatched to mitigate any terrorist incident 
within minutes. We propose that whatever funding you and the Committee 
deem appropriate for terrorism preparedness be tied to ``performance 
capability objectives'' that include interagency and inter-
jurisdictional planning. We in New York some years ago developed a 
system that allowed for joint planning by our local agencies. We 
included representatives from the state and from federal agencies with 
appropriate responsibility. We also worked with outlying suburbs to 
include them in our planning process.
    I would suggest that our efforts coincide with a national strategy 
that would facilitate and encourage both the interagency coordination I 
have discussed and the development of ``performance objectives'' that 
clearly define the tasks that first responding agencies need to perform 
in order to mitigate a terrorist incident. Institutionalizing this 
approach, in all fifty states, leaves plenty of room for 
experimentation and innovation by state and local officials. It 
provides for flexibility that would ensure better preparation among 
local first responders by focusing on those areas in which a particular 
community's level of preparedness is deficient when measured against 
these performance objectives. The plan also would provide a framework 
that avoids the one-size-fits-all approach that has to an extent been 
employed in the past. Such a plan would consider existing local, state, 
regional and federal response assets and require their inclusion in a 
local planning effort.
    It is worth noting that on September 11th, fire companies from 
outside New York City were dispatched immediately to ``backfill'' many 
of our neighborhood fire stations so that communities would continue to 
receive fire protection, emergency medical and other services while 
FDNY was engaged at the World Trade Center. This well-executed mutual 
aid would not have been possible without extensive pre-planning. We 
call upon you and Congress to take whatever steps necessary to ensure 
this kind of cooperation between all communities before the next attack 
occurs.
    We have also on many occasions outlined for Congress those 
categories of preparedness assistance that we believe are most 
important. They include personal protective equipment for fire 
fighters, equipment that facilitates the detection and monitoring of 
chemical, biological and radiological agents and appropriate training.
    We have also discussed critical communications needs. 
Communications interoperability--the ability of responders from all 
agencies to communicate effectively is vital to command and control for 
effective incident management. The issue revolves around radio spectrum 
availability for public safety. This is an issue that Congress dealt 
with in 1997. What remains is for television stations to vacate 
channels allocated to public safety by the Federal Communications 
Commission.
    Terrorist incidents are primarily local events. The events of last 
September bear that out. The block grant program that the 
administration has proposed must address that reality. Funding that is 
provided by Congress to help enhance the abilities of local agencies 
must reach those very agencies and not get lost in the bureaucracy. The 
ramifications of an ill-prepared local community in the post-September 
11th world are too large.
    Every agency has a role to play in mitigating a terrorist incident. 
It is imperative that agencies within a given community or region work 
together so as not to duplicate their capabilities while leaving some 
needs completely unaddressed. We believe that grant funding made 
available should be contingent upon inter-jurisdictional planning that 
carefully considers the preparedness goals I just spoke of.
    Mr. Chairman, I want you to know that the support we received in 
New York last fall was profound and we remain grateful for the 
assistance garnered by so many federal agencies, from Congress and most 
of all from the American people. We knew that we were not alone in our 
struggle or in our grief.
    However, I am compelled to end my testimony where I began: It is my 
life's experience that fire fighters and other local ``first 
responders'' will act alone in the first critical hours of any 
emergency, no matter how large or small. It is within that timeframe 
that lives will be saved. I urge you not to forget this simple fact in 
your deliberations.
    Thank you, Mr. Chairman, for allowing me the honor to testify. I am 
happy to answer any questions the Committee may have.
                Biographical Sketch of Thomas Von Essen
    Thomas Von Essen joined the New York City Fire Department (FDNY) in 
1970 and was assigned to Ladder 42 in the South Bronx. He remained and 
served the South Bronx through the conflagrations of that decade.
    Mr. Von Essen was elected president of the New York City Uniformed 
Firefighters' Association in 1993, and represented FDNY's 8,600 
uniformed firefighters in that position. He was appointed Commissioner 
of FDNY on April 1, 1996. He is a member of the International 
Association of Fire Chiefs and has served its terrorism committee since 
1998.
    Mr. Von Essen retired in January, 2002, after over 30 years of 
service to FDNY. He currently resides in New York with his wife, Rita. 
He continues to work with former Mayor Giuliani in a consulting 
capacity.

    Chairman Byrd. Mr. Crouse.
STATEMENT OF MIKE CROUSE, CHIEF OF STAFF TO THE GENERAL 
            PRESIDENT, INTERNATIONAL ASSOCIATION OF 
            FIRE FIGHTERS
    Mr. Crouse. Thank you, Mr. Chairman, members of the 
committee. Good morning. My name is Michael Crouse, and I am 
the chief of staff of the International Association of Fire 
Fighters, here today representing the interests of our general 
president, Howard Schaitberger, and the 250,000 professional 
firefighters who are members of the IAFF.
    Senators, for our organization September 11 changed 
everything. The 343 firefighters who made the ultimate 
sacrifice rescuing tens of thousands were our brothers. It is 
in tribute to them I come before you to ask your assistance in 
protecting our homeland, enhancing the safety of our Nation's 
firefighters, and ensuring that our Nation's fire service is 
prepared to respond to any and all future emergencies.
    The first and foremost need of the fire service is adequate 
personnel. Across our Nation, two-thirds of our fire 
departments operate with staffing that does not meet minimum 
OSHA standards or safety fire ground operations. In order to 
come into compliance with the accepted industry standards, 
75,000 new firefighters are needed today.
    The second need of the fire service is equipment. An IAFF 
survey has found that a majority of the fire departments in our 
Nation lack even basic protective equipment, a fact that was 
underscored by the billions of dollars requested for equipment 
under the Fire Act grant program last year.
    The third leg of our triad is training. Throughout the 
Nation, there are firefighters who essentially receive on-the-
job training, endangering lives of both firefighters and the 
public. While basic fire fighting training is needed for many 
firefighters, almost all firefighters need additional training 
in hazmat and weapons of mass destruction response. September 
11, Oklahoma City, and the anthrax mailings taught us that 
firefighters must be trained to recognize and safely respond to 
all threats.
    As we evaluate the various number of homeland security 
proposals, the IAFF asks that you be guided by two principles. 
One, priority should be given to programs that have a proven 
track record of success. Two, money targeted to assist first 
responders must be used for first responders and not diverted 
to other purposes. First and foremost, funding must be provided 
to increase fire department staffing. The Safer Fire Fighters 
Act, which was introduced by Senators Dodd and Warner, and a 
new proposal from the Senate Commerce Committee, are designed 
to address staffing shortages in our Nation's fire departments. 
We urge this committee to provide adequate resources for these 
initiatives.
    To address the need for equipment and training, we urge the 
committee to fully fund both the Fire Act and the 
administration's first responder proposals. Last year, Congress 
increased the authorized level for the Fire Act to $900 million 
per year. There is clearly the need to justify this funding, 
and we are confident that FEMA is capable of targeting the 
money to meet the most pressing needs of the fire service.
    We also ask that the administration's first responder 
proposal be adequately funded. We fully endorse the program's 
emphasis on mutual aid response and interjurisdictional, 
interdiscipline training and exercises.
    While we find much to laud in the first responder proposal, 
we have also some concerns. We oppose merging the Fire Act into 
the first responder program, and we are troubled by the 
administration's recommendation to allow the States to pay 25 
percent of the funding off the top. Funding for first 
responders must be spent at the local level.
    Finally we urge this committee to assure adequate funding 
for several existing firefighter training programs. These 
programs have successfully trained millions of firefighters, 
but since September 11 the demand for this training far 
outpaces the funding available to deliver it. We encourage this 
committee to fully fund existing training programs operated and 
administered by the Departments of Justice, Energy, 
Transportation, Health and Human Services, EPA, and other 
agencies.
    Equally important as funding these diverse training 
programs is retaining their current structure. While we support 
designating FEMA as the lead terrorism response agency, we do 
not believe that all existing programs need to be housed in a 
single agency. The role of a lead agency should serve as an 
information clearinghouse to help local governments get the 
support they need when they need it.
    Mr. Chairman, far too long our Nation's domestic defenders, 
our firefighters, your firefighters have been neglected. The 
firefighters of the IAFF will be ready when the next alarm 
sounds, but our ranks are thin. We ask for your support so the 
firefighters have adequate staffing, proper training, and the 
right equipment to do the job.
    I thank you for this time to present the views of the 
Nation's professional firefighters, and I will be happy to 
answer any questions that you may have.
    [The statement follows:]
                Prepared Statement of Michael J. Crouse

                              INTRODUCTION
    Mr. Chairman. I thank you for the opportunity to appear before this 
committee today. My name is Michael J. Crouse, and I am the Chief of 
Staff for the General President of the International Association of 
Fire Fighters (IAFF). I am here today representing the views of our 
General President Harold Schaitberger and 252,000 professional 
firefighters who are members of the IAFF. I spent 17 years as a 
firefighter employed by the federal government protecting United States 
military installations. For 10 years I was the IAFF District Vice 
President representing all IAFF federal firefighters. In this capacity 
I was intimately involved with emergency preparedness at military 
facilities.
    For the IAFF and its members, September 11th changed everything. 
The 343 firefighters, who made the ultimate sacrifice that day and 
rescued tens of thousands of civilians from the hellish carnage of the 
World Trade Center tragedy, are our brothers, as are the thousands of 
fire fighters who responded to the terrorist attacks in New York and at 
the Pentagon.
    Since that day, our organization has dedicated itself to a single 
mission: building a living memorial to these fallen heroes. In tribute 
to them, I come before you to day to ask your assistance in protecting 
our homeland security, enhancing the safety of our nation's fire 
fighters, and ensuring that our nation's fire service is prepared to 
respond to any and all challenges we may face in the future.
    For nearly 100 years, IAFF members have been protecting the 
citizens of our nation from all hazards. We are the first on the scene 
when there are incidents involving hazardous materials, we are the 
nation's primary providers of emergency medical care, and we are the 
ones who search for and rescue people who are trapped and in danger.
    And now, in addition to these traditional responsibilities, we are 
also on the frontlines in the war against terrorism. While we all pray 
that the tragedies of last Fall will never be repeated, in a larger 
sense every day is September 11th for our nation's fire fighters. Every 
time the alarm goes off, we steel ourselves to the possibility that we 
are responding to the latest act of terror. In this first war of the 
21st Century, the battle lines are drawn in our own communities and 
firefighters are, and will continue to be, our nation's first line of 
defense.

                               THE NEEDS
    If we are to be successful in protecting America, fire departments 
must have adequate resources. Sadly, as of today, we do not. Far too 
many departments across the nation lack even the most basic levels of 
training, equipment and manpower. While the federal government has 
broad responsibilities in defending our nation against acts of 
terrorism, from the perspective of front line fire fighters, few roles 
are more important than ensuring local emergency responders have the 
staffing, equipment, and training they need to fulfill their mission.
Personnel
    The first and foremost need of the fire service is adequate 
personnel. Across our nation, two-thirds of all fire departments--large 
and small--operate with inadequate staffing. In order to come into 
compliance with accepted industry standards, the International 
Association of Fire Chiefs has estimated that 75,000 new fire fighters 
are needed.
    Far too many fire departments attempt to respond to emergency 
incidents with three or even two fire fighters on a piece of apparatus. 
Not only is this response below industry norms as identified by the 
National Fire Protection Association, but responding with two or three 
fire fighters doesn't even meet OSHA standards for safe fireground 
operations. Quite simply, attempting to respond to an emergency call 
with less than four fire fighters endangers the lives of those fire 
fighters, as well as the public they protect.
    Congress would never allow our Army to engage in a war with two-
thirds of its divisions understaffed. Incredibly, this is exactly what 
we are asking our local fire departments to do in this current war on 
our home soil.
    Inadequate staffing also endangers our military assets and 
threatens national security. Few of the federal fire departments that 
protect domestic military installations comply with DOD's directives 
for minimum staffing levels. Base commanders are faced with an 
untenable choice between mandating overtime for a group of fire 
fighters who normally work 72 hours per week or ignoring DOD safety 
directives.
Equipment
    The second need of the fire service is equipment. Recently, the 
IAFF, which represents more than 90 percent of all the professional 
fire departments in the nation, conducted a survey of our State 
Associations. Twenty-two states participated in the survey, 
representing 1364 fire departments.
    Among the survey findings were:
  --43 percent of fire departments are in need of additional turnout 
        gear (i.e., coats, gloves, helmets, and boots).
  --50 percent of fire departments are in need of additional 
        respirators.
  --70 percent of fire departments do not have adequate maintenance 
        programs for their protective gear
  --66 percent of fire departments are in need of better communications 
        equipment.
    Our bleak survey results were validated by the analysis of last 
year's FIRE Act data. Of the approximately 30,000 grant requests 
submitted last year for the six eligible categories, 27,384 were for 
the three categories of personal protective equipment, fire fighting 
equipment, and vehicles. The 27,384 grant requests in these three areas 
accounted for $2.71 billion. Less than 5 percent of those grant 
requests were awarded.
    One of our members who served as a grant evaluator told me that he 
literally shed tears during the evaluation process when they were 
forced to deny requests to replace 15-year-old threadbare turnout coats 
that are shared by several fire fighters because there were many other 
departments in worse circumstances. It is a deplorable situation when 
fire fighters who possess barely functional equipment must consider 
themselves the lucky ones.
    And beyond the need for basic equipment, there is a tremendous need 
for advanced hazmat equipment, in particular hazmat detecting 
equipment. As the IAFF has become increasingly involved in WMD 
emergency response, we have grown increasingly concerned that the 
greatest threat to our safety comes not from sophisticated nuclear 
devices launched by foreign nations, but from so-called ``dirty bombs'' 
that utilize a conventional explosion to release radioactive material. 
With minimal technical expertise, anyone with access to agricultural 
fertilizer could unleash an atomic nightmare on our soil.
    In the event of such a dirty bomb detonation, calls to 9-1-1 will 
only report an explosion and fire. Fire fighters responding to the 
scene will be completely unaware of the radiological contamination 
dispersed miles beyond ground zero. For years we have been told that it 
is the job of the military, with their specialized training and 
sophisticated monitoring devices, to respond to such incidents. But the 
reality is that these military teams, as capable as they are, could be 
hours away. Meanwhile, the fire fighters are on the scene within 
minutes. It is vital that all first responders have monitoring devices 
and training to use them. When fire fighters are made aware of the 
radiological dangers, we can take the appropriate precautions to limit 
our exposure so that we can begin to conduct rescue and decontamination 
missions.
Training
    The third leg of the triad is training. Far too many jurisdictions 
lack the funds to hire training instructors, purchase training 
equipment, or have access to training facilities. As a consequence, 
fire departments in these jurisdictions do not provide new fire 
fighters with the basic level of training identified by the National 
Fire Protection Association as necessary to perform the job safely and 
effectively. Throughout the nation, there are fire fighters who are 
essentially receive on-the-job training. This is a situation that 
endangers not only the lives of the new fire fighters, but their fellow 
fire fighters and the public that they are sworn to protect.
    While basic fire fighter training is a need for many fire fighters, 
almost all fire fighters need additional training in hazmat and weapons 
of mass destruction (WMD) response and mitigation. A terrorist attack 
using biological, chemical or nuclear materials threatens our nation as 
never before. September 11th, Oklahoma City, and other terrorist acts 
have demonstrated that these madmen will employ appallingly unthinkable 
measures to achieve their goals.
    In fact, just a few short weeks after September 11th, our nation 
experienced its first biological terrorism when anthrax was mailed 
targeting elected officials and the media. During those frantic days in 
October, thousands of frightened Americans called their local fire 
department to report suspicious white powder, quickly overwhelming the 
capability of all dedicated hazmat crews. As a result, it was left to 
frontline fire fighters who have never had any sort of biological 
response training to respond to these calls. It is now clear that all 
fire fighters need operations level WMD/hazardous materials response 
training.

                               SOLUTIONS
    To address these critical needs of the fire service, the IAFF calls 
on this committee to provide adequate resources to both existing 
programs and proposed initiatives designed to provide funding to local 
fire departments. The IAFF believes that two principles should guide 
this committee as it decides the course of Homeland Security. One, 
priority should be given to programs that have a proven track record of 
success. Two, money targeted to assist first responders must be used 
for first responders and not for any other purposes.
    First and foremost, funding must be provided to increase fire 
department staffing. Just as the federal government has provided 
funding to hire police officers and teachers to meet pressing local 
needs, it must now provide resources to assure adequate emergency 
response capabilities. In addition, funding must be provided to the 
Department of Defense earmarked for hiring additional fire fighters to 
protect military installations.
    Legislation modeled after the highly successful COPS program was 
introduced last year by Senators Chris Dodd and John Warner to address 
the severe staffing shortage in our nation's fire departments. The 
SAFER Fire Fighters Act would provide funding directly to both paid and 
volunteer fire departments to hire additional personnel. In addition, 
we understand the Senate Commerce Committee is developing a 
comprehensive fire service proposal that will include a staffing 
component. Whichever vehicle is ultimately deemed most appropriate, we 
urge this committee to provide adequate funding to ensure that these 
programs are able to meet their objectives.
    To address the need for equipment and training, we urge this 
committee to fully fund both the FIRE Act and the Administration's 
first responder proposal. The FIRE Act has proven especially 
successful, and we join with other fire service organizations in 
praising the Federal Emergency Management Agency in their 
administration of the program. We are of course aware, Mr. Chairman, of 
your leadership in securing the initial $100 million in fiscal year 
2001, as well as the $360 million appropriated for fiscal year 2002. 
For this we are indebted to you.
    Today we ask that you fulfill the promise made by Congress last 
year in reauthorizing the FIRE Act. Public Law 107-107 increased the 
authorized level for the FIRE Act to $900 million per year. There is 
clearly the need to justify fully funding the FIRE Act, and we are 
confident that FEMA is capable of assuring the money will be used to 
meet the most pressing Homeland Security needs.
    We also ask that you provide adequate funding for a 
counterterrorism program, along the lines of the Administration's First 
Responder proposal. There is tremendous need for a program to provide 
terrorism-specific training and equipment to local emergency response 
agencies. Specifically, we fully endorse the program's emphasis on 
mutual aid response, and inter-jurisdictional, inter-discipline 
training and exercises. Far too often, emergency response operations 
are hindered because various responding agencies have little means to 
communicate and coordinate their efforts. Rather than resulting in 
enhanced public safety, the convergence of numerous emergency response 
agencies often results in chaos.
    After the 1993 attack on the World Trade Center, evaluations 
conducted by emergency planning organizations identified lack of 
communication between police helicopters and the incident commander as 
a significant impediment to effective response. Tragically, this exact 
same lack of communication hindered our response on September 11th.
    While we find much to laud in the Administration's First Responder 
proposal, we also have some concerns about the initiative as proposed. 
First, we disagree with the OMB proposal to merge the FIRE Act into the 
First Responder program. The FIRE Act and the First Responder proposal 
serve different purposes and one should not subsume the other. The FIRE 
Act funds the basic needs of fire departments, including basic personal 
protective gear, firefighting equipment, training, and apparatus. The 
President's First Responder proposal is for terrorism response, which 
is a specialized and advanced mission of the fire service. As a result, 
we urge this committee to retain the FIRE Act and the First Responder 
proposal as separate and distinct programs.
    Additionally, we are concerned about the Administration's 
recommendation to designate 25 percent of the funding for use by state 
agencies. We recognize that states have a role in terrorism 
preparedness and response. However, we worry that without explicit 
instructions directing states to use the money for terrorism 
preparedness, states will divert a portion of the funds to offset their 
budget shortfalls. We urge the committee to establish safeguards so 
that funds intended for first responders are used for this purpose.
    Finally, we urge this committee to assure adequate funding for 
several existing fire fighter training programs. The federal government 
currently provides funding to prepare first responders to meet a 
variety of specific threats. The Department of Transportation maintains 
a training program for emergency response to incidents involving 
hazardous cargo on our nation's highways and railways; the Department 
of Energy provides specialized training for fire fighters who protect 
nuclear weapons installations; the Environmental Protection Agency 
funds training for fire fighters who respond to incidents at Superfund 
sites; and, perhaps most significantly, the Department of Justice 
operates the nation's premier program to train emergency responders in 
the unique threats posed by weapons of mass destruction.
    The IAFF is involved in many of these training programs. It was 
more than 15 years ago that IAFF recognized the need for a more 
effective way to train fire fighters, and we decided to develop a 
hazardous materials training program based on the simple premise that 
the best people to train fire fighters are fire fighters and the best 
place to train fire fighters is in their own communities. To make this 
concept a reality, we recruited a highly dedicated cadre of certified 
fire service instructors who are also front line fire fighters with 
hazardous material expertise. And we developed a curriculum designed so 
that it can be adapted to incorporate the unique challenges facing each 
community.
    Perhaps most importantly, our partnerships with federal agencies 
enables us to provide this expert training at little cost to the local 
community. We make this training available to all fire departments-
professional and volunteer alike-free of charge.
    Since its inception, the IAFF training program has directly trained 
over 35,000 fire fighters and reached over three-quarters of a million 
fire fighters through its innovative train-the-trainer program. The 
Department of Justice has designated the IAFF training program as the 
prerequisite for all advance WMD fire fighter training, and the IAFF's 
curriculum has been formally adopted by 40 states.
    As you can tell, Mr. Chairman, I am quite proud of our training 
program. But we face one significant problem: a lack of resources. 
Since September 11, the demand for our training program far outpaces 
the funding available to deliver it. We encourage this committee to 
fully fund those existing training programs that have proven their 
value to first responders.
    Equally important as funding these diverse training programs is 
retaining their current structure. We are concerned that the legitimate 
goal of identifying a lead federal agency to coordinate 
counterterrorism activities could lead to merging or dismantling 
programs that make unique contributions to Homeland Security. For 
example, the Administration's proposal to place the Department of 
Justice WMD program under FEMA jeopardizes one of the nation's most 
successful counterterrorism efforts.
    We support the Administration's plan to designate FEMA as the lead 
agency for terrorism response. We believe FEMA's role, however, should 
be to function as an information and resources clearinghouse so that it 
can assist local governments in getting the support they need from 
various federal agencies. Attempting to consolidate all existing 
terrorism training programs under a single agency would ultimately 
prove counterproductive.
    The Department of Justice WMD program and the other myriad 
emergency response training programs should be encouraged to continue 
their unique contributions to Homeland Security.
                               conclusion
    For too long, the fire service has been neglected when it comes to 
allocating resources to protect our Homeland. Yet, we are the ones who 
too often make the ultimate sacrifice in defense of our nation. While 
we continue to focus our attention on the events in Afghanistan and 
other parts of the world, we must not forget that the fire service 
stands guard, day-in and day-out, protecting our communities and our 
nation.
    The federal government, including Congress and the Administration, 
has begun to recognize that firefighters are the lynchpin to an 
effective and strong homeland security. The firefighters of the IAFF 
will be ready when the next alarm rings or when terrorists strike 
again. But our ranks are thin and reinforcements are needed quickly.
    Congress must follow through and provide the resources to ensure 
that fire fighters have adequate staffing, proper training, and the 
right equipment to do their job. Our organization will never forget the 
sacrifice of 343 members on September 11th. Hopefully their sacrifice 
and heroism will be the catalyst for the federal government to embrace 
its responsibility and provide the resources to allow our members to do 
their job safely and effectively.
    Thank you for this time to present the view of the IAFF. I will be 
available for questions by the committee.
                Biographical Sketch of Michael J. Crouse
    Michael J. Crouse serves as the Chief of Staff of the International 
Association of Fire Fighters, reporting to IAFF General President 
Harold A. Schaitberger and managing the day-to-day operations of the 
252,000-member union's headquarters and staff.
    Mr. Crouse joined the IAFF staff in September 2000 after a long and 
distinguished career as a federal fire fighter and union leader. Mr. 
Crouse served on the IAFF's Executive Board as the 16th District Vice 
President, representing all IAFF Federal Fire Fighters at federal 
facilities across the United States and Canada. He was then appointed 
by President Schaitberger to assume the union's top staff position.
    Mr. Crouse spent 17 years as a federal fire fighter with Coltsneck, 
NJ Local F-147 and Portsmouth Shipyard, ME Local F-123, where he served 
as local union president for 10 years. Mr. Crouse also served as 
President of the Federal Fire Fighters Joint Council.
    Mr. Crouse was elected to International office as 16th District 
Vice President 10 years ago and he held that position until his 
appointment as IAFF Chief of Staff.

    Chairman Byrd. Thank you, Mr. Crouse, for a very effective 
and persuasive and informative statement. The firefighters can 
be proud of your presentation.
    Mr. Stittleburg.
STATEMENT OF PHILIP STITTLEBURG, CHAIRMAN, NATIONAL 
            VOLUNTEER FIRE COUNCIL, AND VOLUNTEER FIRE 
            CHIEF, LaFARGE, WISCONSIN
    Mr. Stittleburg. Mr. Chairman, I appreciate the opportunity 
to be here today, and I shall heed your admonition.
    I would like to tell you where the volunteer fire service 
fits into the overall picture. There are about 800,000 
volunteer firefighters in the United States. About 90 percent 
of all fire departments in the United States are volunteer. 
About 75 percent of all firefighters in the United States are 
volunteers, and we protect about 38 percent of the U.S. 
population.
    I mention that to you because it fits into my emphasis of 
the importance of the Fire Act. The two gentlemen who preceded 
me have already spoken to the importance of that. I will simply 
echo that by saying that is unquestionably the most effective 
and efficient method of delivering money from the Federal 
Government directly to the departments that are in need.
    I would offer just as substantiation of that, back when 
that act was being developed there was some question as to 
whether the fire service really needed funds, whether the fire 
service was really listening. Well, sir, I would suggest to you 
that the fact that in its very first year there were 31,295 
grant requests from 18,915 fire departments--that is about two-
thirds of the fire departments in the United States putting in 
grants in its very first year--and those grants totalled nearly 
$3 billion, the grant requests, and there was $100 million 
disbursed, indicates the depth of the need.
    I would also suggest to you, sir, that the importance of 
the fact that 1,379 of those grants were to communities under 
20,000 indicates the significance those grants have to the 
volunteer fire service.
    The President has proposed his first responder initiative, 
and indicated a $3\1/2\ billion funding for that. we certainly 
are encouraged by that, because we understand that the 
President's commitment to encouraging people to volunteer is a 
part of that, and we support that.
    However, our understanding is that the proposal is that the 
Fire Act would be eliminated and rolled into this first 
responder initiative, and I would suggest to you that is the 
worst possible mistake that could be made. The Government has 
demonstrated that it has the ability to deliver the funds that 
our people need quickly, directly, and with an absolute minimum 
of administrative cost and time involved. We are greatly in 
need of that.
    The presumption, as I understand it, is that the Fire Act 
pretty much took care of equipping the first responders to 
their basic need level, and now the first responder initiative 
will work on a more regional level. Regionalization makes sense 
financially, it makes sense tactically, if the underlying 
assumption that the first responders are already properly 
outfitted and equipped and trained is valid. It is not, and it 
is the Fire Act funds that will enable us to gain that level of 
preparedness.
    Thank you, sir.
    [The statement follows:]
              Prepared Statement of Philip C. Stittleburg
    Mr. Chairman and members of the committee, my name is Phil 
Stittleburg and I am Chairman of the National Volunteer Fire Council 
(NVFC). The NVFC represents the interests of the nation's nearly 
800,000 volunteer firefighters, who staff over 90 percent of America's 
fire departments. I have served in the volunteer fire service for the 
last 30 years and have been the Chief of the LaFarge Volunteer Fire 
Department in Wisconsin for the last 25 years. I have had experiences 
in all phases of the first responder community, including chemical and 
hazardous materials incidents, information management, EMS, rescue and 
fire.
    In addition to serving as NVFC Chairman, I have represented the 
NVFC on a variety of standards-making committees, including ones that 
set industry standards on firefighter health and safety. I also serve 
on the National Fire Protection Association's Board of Directors and I 
am an adjunct instructor for the National Fire Academy. I earn my 
livelihood as an attorney, which includes serving as an Assistant 
District Attorney on a half-time basis for the last 28 years. These 
positions give me an excellent opportunity to work in emergency 
services in both the law enforcement and fire service professions. On 
behalf of the volunteer fire service, I appreciate the opportunity to 
comment on needs and challenges we face.
    According to the National Fire Protection Association (NFPA), 
nearly 75 percent of all firefighters are volunteers. In most years 
more than half of the firefighters that are killed in the line of duty 
are volunteers. In addition to the obvious contribution that volunteer 
firefighters lend to their communities as the first arriving domestic 
defenders, these brave men and women represent a significant cost 
saving to taxpayers, a savings sometimes estimated to be as much as $60 
billion.
    September 11, 2001 is a date that will be long remembered for the 
horrible losses our nation suffered, including the loss of so many of 
our brothers and sisters in the emergency services. September 11th will 
also be remembered for the heroics of those brave men and women who ran 
into the World Trade Center to render aid to their fellow New Yorkers, 
those who valiantly fought the raging fire at the Pentagon in 
Arlington, VA, and the fire companies who responded to the Somerset 
County, PA plane crash. Volunteer fire, rescue, EMS, and technical 
specialty teams answered and responded on that fateful day at Somerset 
and the Pentagon incidents and provided backup support to many 
departments who responded to the World Trade Center. Finally, September 
11th will be remembered for ushering in America's new all out war 
against terrorism at home and abroad.
    The September 11th tragedies in New York, Arlington, Virginia and 
Southwestern Pennsylvania made it clear to all Americans that the fire 
service is the first responder to all terrorist attacks this country 
may face. Administration officials and Members of Congress continue to 
warn Americans of a ``clear and present danger'' of follow-up terrorist 
attacks. The question now is when and where, not if, the next terrorist 
attack will occur. As America's domestic first responders, the fire 
service will be on the front lines of any incident and must be prepared 
to respond to and defend our citizens from the ravages of terrorist 
attacks using conventional weapons or weapons of mass destruction. This 
expands our normal services beyond the delivery of fire, EMS, rescue, 
and technical specialty services to our citizens. These services 
already have time and training demands that are escalating annually.
    America's fire and emergency services are in need of your 
assistance and you, as Members of the United States Senate, can make a 
difference by partnering with the fire service to give America's 
domestic defenders the tools they need to help fight this new war.
    One of the largest problems faced by America's volunteer fire 
service is funding. Many volunteer fire departments struggle to provide 
their members with adequate protective clothing, safety devices and 
training to protect their communities, as mandated by regulations and 
standards. These fire companies, in towns across America, are being 
asked to respond to emergency calls involving hazardous materials, 
structural fire suppression, search and rescue, natural disasters, 
wildland fires, emergency medical services, and terrorism.
    Many of these emergencies occur at federal facilities and buildings 
and on federal lands. In addition, these incidents can damage America's 
critical infrastructure, including our interstate highways, railroads, 
bridges, tunnels, financial centers, power plants, refineries, and 
chemical manufacturing and storage facilities. We as a fire service are 
sworn to protect these critical facilities and infrastructure.
    In these difficult times, while volunteer fire departments are 
already struggling to handle their own needs and finances, they are now 
forced to provide more services. Often, local governments are unable to 
afford the extensive training and specialized equipment that these 
activities require.
    The funding problems in America's volunteer fire service are not 
just limited to rural areas. As suburbs continue to grow, so does the 
burden on the local fire and EMS department. Even though many of these 
departments have the essentials, they are unable to gain access to new 
technologies. At no other time have advances been greater in equipment 
to protect them and make their jobs safer. Yet because the newer 
technology is so expensive, many volunteer fire departments are forced 
to forgo the purchase of the new technology or use outdated equipment.
    Long before the terrorist attacks of September 11th, the national 
fire service organizations began working together to enhance readiness 
and increase funding levels for programs related to America's fire 
departments. Many Members of Congress have been with us since day one 
and have fought hard for improvement in the fire service. 
Unfortunately, it has taken a horrible tragedy for all of America to 
fully appreciate the risks our firefighters and EMS personnel take on a 
daily basis and the level to which they need to be prepared.
    The following are the funding priorities of America's volunteer 
fire service:
    First and foremost, Congress needs to fully fund the Federal 
Emergency Management Agency (FEMA) Assistance to Firefighters Grant 
Program. Thanks to your leadership Mr. Chairman, and the leadership of 
many of your colleagues in both Houses and on both sides of the aisle, 
Congress took a giant step in addressing the needs of America's fire 
service by creating this grant program and funding it at the $100 
million level in fiscal year 2001. Every fire department across the 
country was eligible for funding for safety and firefighting equipment, 
apparatus, training, prevention, and wellness and fitness programs.
    In the first year of the program, the U.S. Fire Administration 
(USFA) and FEMA received 31,295 grant applications from 18,915 fire 
departments totaling $2.99 billion in requests. In the end, USFA/FEMA 
awarded 1,855 competitive grants to local fire departments, including 
1,375 to volunteer and combination fire departments. In addition, 1,379 
grants totaling $55,377,798 were awarded in communities with 
populations below 20,000 people. Many of these were rural volunteer 
fire departments that struggle the most to provide their members with 
adequate protective gear, safety devices and training to protect their 
communities.
    Again, thanks to your leadership Chairman Byrd, the funding for the 
program was increased to a total of $360 million in fiscal year 2002 
and the application period for this year's grants closed on April 5. 
This increase in funding has allowed FEMA to add fire department based 
emergency medical services (EMS) as an eligible category this year. EMS 
calls continue to be the fastest growing burden on local fire 
departments and these new grants will help to ease that burden and 
prepare local departments for a terrorist event. Late last year, 
Congress also passed a reauthorization of the FEMA Assistance to 
Firefighters Grant Program for $900 million for each of the fiscal 
years 2002 through 2004.
    This direct grant program has proved to be the most effective 
program to date in providing local volunteer and career fire 
departments not only with the tools they need to perform their day-to-
day duties, but it has also enhanced their ability to respond to large 
disasters as well. As we move to prepare for terrorist incidents at 
home, we must first make sure that local fire departments have the 
basic tools they need to do their jobs on a daily basis, before we can 
ask them to be fully prepared to respond to terrorist incidents. In 
addition, this program has been successful because it is the only 
federal program that provides funding directly to fire departments. Far 
too often federal funds intended to aid fire departments are diverted 
to other uses by state and local officials.
    Although the fire service is very pleased that the President's 
fiscal year 2003 budget request includes over $3.5 billion to assist 
our nation's first responders, we are concerned that the budget 
recommendation would negatively impact the Assistance to Firefighters 
Grant Program. The administration has proposed to consolidate this 
grant program into a completely new state-based block grant initiative 
called the First Responder Initiative.
    We wholeheartedly appreciate the Administration's commitment to 
provide training, equipment, and planning to the nation's firefighters 
through the First Responder Initiative. We look forward to working with 
the Administration to assure that this new counter-terrorism initiative 
is successful and positively impacts local fire departments in suburban 
and rural communities. However, we believe that it would be 
counterproductive for the new First Responder program to replace the 
valuable and proven Assistance to Firefighters Grant Program.
    Therefore, on behalf of America's volunteer fire service, I 
strongly urge Congress to fully fund the vital Assistance to 
Firefighters Grant Program at the full authorized level of $900 million 
and keep it as a separate and distinct program under the Federal 
Emergency Management Agency.
    Terrorism and hazardous materials response training and equipment 
are of vital importance to America's fire service. Even the best-
prepared localities lack adequate resources to respond to the full 
range of terrorist threats this country faces. Many jurisdictions, 
especially those in rural and suburban areas protected by volunteers, 
have little or no capability to respond to terrorist attacks using 
weapons of mass destruction.
    As I mentioned, the Administration has proposed a program called 
the First Responder Initiative, which will spend $3.5 billion in fiscal 
year 2003 to dramatically enhance the homeland security response 
capabilities of America's local fire, EMS, and police departments. This 
program, which would be administered through FEMA's Office of National 
Preparedness, will allocate approximately $105 million for planning, $2 
billion for equipment, $1.1 billion for training, and $245 million for 
exercises. The National Volunteer Fire Council fully supports the 
financial commitment the Administration has made in its budget for 
first responders and we ask Congress to do the same.
    However, the NVFC is concerned about the possibility that a large 
portion of this new funding for equipment and training will get bogged 
down in state agencies and will not get down to the local fire 
departments that need it most. In addition, although we understand the 
special needs and concerns of America's large metropolitan areas, 
Congress and FEMA cannot forget smaller communities, whose fire, rescue 
and EMS personnel also need the basic training and equipment to 
recognize and respond to these incidents. While these communities may 
not seem to be prime terrorist targets, it is this very perception that 
makes them especially vulnerable.
    In a March 27 speech in Greenville, South Carolina, President Bush 
said, ``homeland security in the heartland is just as important as 
homeland security in the big cities.'' We fully agree with the 
President and we look forward to working with the Congress and FEMA to 
ensure that these concerns are addressed and that this program is a 
success.
    Our nation's forests and wildlands are a critical part of America's 
infrastructure. The volunteer fire service, in cooperation with our 
Federal and State partners, plays a key role in fire suppression in 
communities adjacent to federal and state lands. The U.S. Forest 
Service's Volunteer Fire Assistance Program and the Department of 
Interior Rural Fire Assistance Program focus on building the 
community's capacity to lessen local vulnerability to risks associated 
with wildland fires and should be supported by Congress.
    The Volunteer Fire Assistance Program provides assistance, through 
the states, to volunteer fire departments to improve communication 
capabilities, increase wildland fire management training, and purchase 
protective fire clothing and firefighting equipment. The 50/50 matching 
grants are for fire departments that protect populations fewer than 
10,000 people. The administration has proposed $13.3 million for this 
program in fiscal year 2003 and the NVFC fully supports funding at this 
level.
    The Department of Interior Rural Fire Assistance Program is aimed 
at enhancing the fire protection capabilities of rural fire districts 
in the wildland-urban interface and around Department of Interior 
lands. The program assists with training, equipment purchase, and 
prevention activities, on a 90/10 cost-share basis. The rural fire 
department must serve a community with a population of 10,000 or less. 
The Administration has proposed $10 million for this program in fiscal 
year 2003 and the NVFC fully support this request.
    Another critical need in America's volunteer fire service is the 
recruitment and retention of volunteer personnel. Over the past 20 
years the volunteer fire service has seen its ranks decrease by nearly 
15 percent. Major factors contributing to the problem of recruiting and 
retaining volunteers include but are not limited to constant 
fundraising demands, increase in emergency calls, more rigorous 
training standards, and people working further away from the 
communities in which they live.
    In the President's State of the Union address, he encouraged all 
Americans to commit to service of their neighbors and their nation by 
becoming volunteers. He also laid out a plan to create a new Citizen 
Corps, as part of the First Responder Initiative, which would utilize 
volunteers to identify threats and respond to emergencies, including 
much-feared biological or chemical attacks. The Citizen Corps will 
enable Americans to volunteer to participate directly in homeland 
security efforts in their own communities. Community-based Citizen 
Corps Councils will help drive local involvement in Citizen Corps, 
developing community action plans, assessing possible threats, 
identifying local resources and coordinating other Citizen Corps 
programs. These Councils will include leaders from fire and emergency 
medical services, law enforcement, businesses and other community-based 
institutions.
    The volunteer fire service and the NVFC look forward to playing a 
large role in this program and we hope that the Citizen Corps will 
serve as a strong recruitment tool for local volunteer fire 
departments. The Bush Administration has proposed more than $230 
million in funding in their fiscal year 2003 budget for this program 
and the NVFC encourages Congress to support this funding.
    When I began my testimony today, I stated that the fire service is 
in need of your assistance and that you, as Members of the United 
States Senate, could make a difference with the necessary funding. I 
hope that I have painted a picture that illustrates that the need is 
real and that the continued support of the fire service by Congress is 
indeed a national concern.
    Mr. Chairman, I thank you for your time and your attention to the 
views of America's fire service, and I would be happy to answer any 
questions you may have.
              Biographical Sketch of Philip C. Stittleburg
    Phil Stittleburg joined the volunteer fire service in 1972 and has 
served as Chief of the LaFarge (WI) Fire Department for 25 years. Phil 
is also legal counsel to the NVFC, the LaFarge Fire Department and the 
Wisconsin State Firefighters Association. Phil has represented the NVFC 
on numerous National Fire Protection Association (NFPA) standards 
making committees, including ones that set industry standards on 
firefighter health and safety. He served as the NVFC Foundation 
President for twelve years and is a current member of the NFPA Board of 
Directors. Phil is an adjunct instructor at the National Fire Academy 
and a regular contributor to Fire Chief Magazine.
    Phil earns his livelihood as an attorney, which includes serving as 
an Assistant District Attorney on a half-time basis for the last 28 
years. These positions give him an excellent opportunity to work in 
emergency services in both the law enforcement and fire service 
professions.

    Chairman Byrd. Thank you, Mr. Stittleburg, for your good 
statement.
    Colonel Westphal.
STATEMENT OF COLONEL LONNIE WESTPHAL, CHIEF, COLORADO 
            STATE PATROL, REPRESENTING THE 
            INTERNATIONAL ASSOCIATION OF CHIEFS OF 
            POLICE
    Colonel Westphal. Good morning, Chairman Byrd, and thank 
you very much, members of the committee. I am pleased to be 
here today on behalf of the International Association of Chiefs 
of Police. As you may know, the IACP is the world's oldest and 
largest organization of law enforcement executives founded in 
1894, with the current membership exceeding 19,000. Our mission 
throughout the history of our association has been to address 
urgent law enforcement issues and to develop policies, 
programs, training, and technical assistance to help solve 
these issues.
    As I appear before you today, combatting terrorism looms as 
the most urgent issue facing our members and the communities 
that they serve. In my written statement I highlighted the need 
for improvements in information-sharing among Federal, State, 
and local law enforcement, and the needs of State and local law 
enforcement agencies in areas such as antiterrorism training, 
communications technology, emergency response equipment, and 
manpower needs. However, in the interests of time, I would like 
to focus on the administration's proposed budget for fiscal 
year 2003, and the IACP's view of the impact on the ability of 
State and local law enforcement to play an active role in the 
war against terrorism.
    Ensuring that State and local law enforcement agencies are 
fully engaged in this effort is vital to our success. In our 
society, an enormous degree of responsibility and authority for 
public security is delegated to local government, particularly 
to the police agencies. As the September 11 attacks 
demonstrated, the local police and other public safety 
personnel will often be the first responders to a terrorist 
attack. However, the role of State and local law enforcement 
agencies is not limited to responding to terrorist attacks. 
These agencies can and must play a vital role in the 
investigation and prevention of future terrorist attacks.
    Across the United States, there are more than 16,000 State 
and local law enforcement agencies. These agencies, and the 
700,000 officers they employ, daily patrol the streets of our 
cities and towns, and as a result, have an intimate knowledge 
of the communities they serve, and have developed close 
relationships with the citizens they protect.
    These relationships provide State and local law enforcement 
agencies with the ability to effectively track down information 
related to terrorists. Often, State and local agencies can 
accomplish this task in a more effective way and timely fashion 
than their Federal counterparts, who may be unfamiliar with the 
community and its citizens. In addition, police officers on 
every-day patrol, making traffic stops, answering calls for 
service, performing community policing activities, and 
interacting with the citizens, can, if properly trained in what 
to look for and what questions to ask, be a tremendous source 
of intelligence for local, State, and Federal homeland security 
forces.
    However, the events of September 11 and its aftermath have 
placed an increased demand on law enforcement agencies. As 
State and local law enforcement agencies adjust to their new 
duties and responsibilities, it has become apparent that the 
need for additional law enforcement personnel, which in some 
communities existed prior to September 11, is even more urgent. 
Departments around the Nation are discovering that meeting the 
increased security needs of their communities has forced them 
to significantly increase the amount of overtime that their 
officers are working. As a result of this increase in overtime, 
budgets have been stretched to the limit, with the result that 
departments do not have the resources to acquire vitally needed 
training and equipment. As a result of the increased burden 
placed on State and local law enforcement, and the need for new 
equipment, training, and manpower assistance, the IACP is 
concerned that President Bush's fiscal year 2003 budget for the 
Department of Justice proposes significant reductions in three 
major State and local law enforcement assistance programs, the 
Byrne grant program, the local law enforcement block grant, and 
the COPS program.
    In the current budget year, fiscal year 2002, these 
programs in total received $2.154 billion. According to our 
review of the President's proposed fiscal year 2003 budget, 
these programs face a reduction in total funding of $753 
million, a 35.5 percent cut from the fiscal year 2002 budget. 
It must be noted that the Department of Justice has stated the 
rationale behind these cuts in Byrne and the local law 
enforcement block grants is that the majority of the 
discretionary funds in these programs were already obligated by 
legislative provisions which directed these funds be provided 
to the specific agencies for specific projects. As a result of 
these provisions, the flexibility that is crucial to the 
success of this assistance program was minimized, and the 
overall effectiveness of the program was reduced. While the 
IACP understands and shares these concerns of the 
administration of the loss of this flexibility, we do not 
believe that reducing the funds available for these programs is 
the appropriate response.
    The IACP is concerned with the reductions in these three 
vital State and local law enforcement assistance programs. 
These programs have played an integral role in ensuring that 
State and local law enforcement agencies are well-equipped, 
well-trained, and staffed at an appropriate level. At this 
crucial time, when State and local law enforcement agencies are 
faced with new responsibilities and challenges, it is the 
AECP's belief that the funding levels for these crucial 
assistance programs should not be reduced.
    In sharp contrast to the reductions proposed in the Justice 
Department, State and local law enforcement assistance 
programs, the proposed budgets for the Federal Emergency 
Management Agency include the nearly $3.5 billion grant program 
to assist State and local public safety agencies. According to 
the administration, the proposed program, the first responder 
grant program, is designed to assist State and local government 
in preparing their response to terrorist attacks. While the 
IACP completely supports the FRG program, we do not want it to 
be funded at the expense of law enforcement's efforts to 
prevent terrorist attacks on American citizens. It should be in 
addition to current law enforcement funding.
    In conclusion, I would like to offer the following 
observations. In total, the administration's fiscal year 2003 
budget includes approximately $4.9 billion to assist State and 
local public safety agencies. Of that total, however, only 
$1.38 billion is designated solely for law enforcement 
purposes. This is a reduction of more than $750 million from 
the current budget.
    The IACP believes that at this crucial time in our history 
we cannot afford to reduce the effectiveness of our Nation's 
State and local law enforcement agencies. Over the last decade, 
the funds provided by the Byrne grant, the local law 
enforcement block grants, and the COPS program, have 
dramatically increased the capabilities and effectiveness of 
State and local law enforcement agencies. It is imperative that 
departments continue to receive this assistance.
    We have entered a new era for law enforcement. We are faced 
with new and daunting challenges. We are asking more of our 
officers, and our communities are turning to us for protection. 
Only with Federal assistance funds that are specifically 
targeted for law enforcement in its unique role can we hope to 
successfully meet this challenge.
    I thank you, Mr. Chairman and members of the committee, for 
this opportunity to appear before you today, and I will be 
willing to answer any questions at the end. Thank you.
    [The statement follows:]
             Prepared Statement of Col. Lonnie J. Westphal
    Good Morning, Chairman Byrd, Senator Stevens and members of the 
Committee. I am pleased to be here today on behalf of the International 
Association of Chiefs of Police. As you may know, the IACP is the 
world's oldest and largest organization of law enforcement executives, 
founded in 1894, and with a current membership exceeding 19,000. Our 
mission, throughout the history of our association, has been to address 
urgent law enforcement issues and to develop policies, programs, 
training and technical assistance to help solve those issues. And as I 
appear before you today, combating terrorism looms as the most urgent 
issue facing our members and the communities they serve.
    The initial response of law enforcement and other public safety 
agencies in New York, Virginia, Pennsylvania and throughout the United 
States to the terrible events of September 11th was outstanding. 
Individuals around the world watched in admiration and astonishment as 
police officers, firefighters and EMS technicians raced to assist the 
victims of these attacks with little apparent regard to the danger they 
themselves faced. On a broader scale, federal, state and local law 
enforcement agencies immediately began working together in a massive 
effort to respond to the attack and to prevent additional attacks.
    However, in the weeks and months that have followed, it has become 
apparent that the crucial partnership between federal, state and local 
law enforcement is being hindered by difficulties in cooperation, 
coordination and information sharing. This is unacceptable. Now, at a 
time when communities across the United States are turning to their law 
enforcement agencies for guidance and protection, we must do all that 
we can to ensure that all law enforcement agencies work together and 
overcome the artificial walls that sometimes divide us.
    The IACP is certainly not alone in this belief. The Office of 
Homeland Security, the Department of Justice, Federal Bureau of 
Investigation and other federal agencies also realize how crucial 
collaboration with state and local law enforcement is to the success of 
their efforts, and they have taken several positive actions to address 
this situation. For example, the FBI has recently formed a state and 
local law enforcement advisory committee that is designed to foster 
cooperation between the bureau and their local counterparts. In 
addition, the IACP applauds the Office of Homeland Security's creation 
of the Homeland Security Threat Advisory System. The IACP believes that 
this system will provide state and local law enforcement executives 
with a clearer understanding of the threat level confronting their 
communities and the actions required of their agencies in response.
    These actions have encouraged the IACP, and we look forward to 
working with the Office of Homeland Security, the FBI and other federal 
agencies to ensure greater cooperation and coordination between law 
enforcement agencies at all levels of government.

            ROLE OF STATE AND LOCAL LAW ENFORCEMENT AGENCIES
    Ensuring that we are successful in this effort is vital because 
state and local enforcement agencies must be fully engaged in the war 
against terrorism. In our society, an enormous degree of responsibility 
and authority for public security is delegated to local government, 
particularly to police agencies. As the September 11th attacks 
demonstrated, the local police and other public safety personnel will 
often be the first responders to a terrorist attack. However, the role 
of state and local law enforcement agencies is not limited to 
responding to terrorist attacks. These agencies can and must play a 
vital role in the investigation and prevention of future terrorist 
attacks.
    Across the United States, there are more than 16,000 state and 
local law enforcement agencies. These agencies, and the 700,000 
officers they employ, daily patrol the streets of our cities and towns 
and, as a result, have an intimate knowledge of the communities they 
serve and have developed close relationships with the citizens they 
protect. These relationships provide state and local law enforcement 
agencies with the ability to effectively track down information related 
to terrorists. Often, state and local agencies can accomplish these 
tasks in a more effective and timely fashion than their federal 
counterparts, who may be unfamiliar with the community and its 
citizens. In addition, police officers on everyday patrol, making 
traffic stops, answering calls for service, performing community 
policing activities, and interacting with citizens can, if properly 
trained in what to look for and what questions to ask, be a tremendous 
source of intelligence for local, state and federal homeland security 
forces.

                          INFORMATION SHARING
    However, in order to make use of this intelligence gathering 
capability, it is vital that federal, state and local law enforcement 
agencies develop an efficient and comprehensive system for the timely 
sharing, analysis and dissemination of important intelligence 
information. The IACP believes that failure to develop such a system 
and the absence of guidance to law enforcement agencies on how 
intelligence data can be gathered, analyzed, shared and utilized is a 
threat to public safety and must be addressed. To that end, the IACP 
urges the Administration and Congress to take the necessary steps to 
develop a process that will promote intelligence-led policing and the 
information exchange between law enforcement agencies. For example, 
providing the resources necessary to assist the development of state 
and local information and intelligence networks would greatly enhance 
the ability of state and local law enforcement agencies to communicate 
and access vital intelligence information of local interest in a rapid 
and effective manner.
    In addition, the IACP strongly urges the Administration and 
Congress to provide the necessary resources to improve the integration 
and compatibility of local, state, federal and international criminal 
justice information systems. Coordination and integration of these 
systems and the data they contain will greatly enhance the ability of 
law enforcement agencies to quickly access the information necessary to 
combat terrorism in our increasingly mobile society.

                      FEDERAL ASSISTANCE PROGRAMS
    In addition to addressing this crucial information sharing issue, 
there are other steps that the federal government can take to ensure 
that state and local governments and their law enforcement agencies are 
active and effective partners in homeland security efforts.
    Although the primary mission of law enforcement agencies has always 
been to ensure public safety, the events of September 11th have 
dramatically and significantly changed the focus of law enforcement 
operations. Suddenly, agencies and officers who have been trained and 
equipped to deal with traditional crimes are now focused on 
apprehending individuals operating with different motivations, who have 
different objectives and who use much deadlier weapons than traditional 
criminals. As a result, law enforcement agencies and officers will need 
new training and new equipment to meet this new threat.
    For example, state and local officers could greatly benefit from 
training on topics such as:
    1. Recognizing possible threats to public safety and terrorist 
tactics;
    2. Field interrogation techniques to better enable them to 
recognize and respond to terrorist threats;
    3. Federal immigration law, sources and documentation; and,
    4. How to respond to biological, chemical and nuclear incidents.
    As for equipment needs, it has become clear that law enforcement 
agencies will need to obtain protective clothing and isolation 
equipment for first responders. In addition, the increased demands 
being placed on law enforcement agencies for investigations and 
protective responsibilities means that they will also need to obtain 
electronic surveillance equipment as well as security equipment for 
guarding public buildings and critical infrastructure installations.
    Finally, the events of September 11th and its aftermath have placed 
an increased manpower demand on law enforcement agencies. As state and 
local law enforcement agencies adjust to their new duties and 
responsibilities, it has become apparent that the need for additional 
law enforcement personnel, which in some communities existed prior to 
September 11th, is even more urgent. Departments around the nation are 
discovering that meeting the increased security needs of their 
communities has forced them to significantly increase the amount of 
overtime that their officers are working. As a result of this increase 
in overtime, budgets have been stretched to the limit with the result 
that departments do not have the resources to acquire vitally needed 
training and equipment.

                    FISCAL YEAR 2003 PROPOSED BUDGET
    As a result of the increased burden placed on state and local law 
enforcement and the need for new equipment, training and manpower 
assistance, the IACP is concerned that President Bush's fiscal year 
2003 budget for the Department of Justice proposes significant 
reductions in three major state and local law enforcement assistance 
programs: the Byrne Grant program, the Local Law Enforcement Block 
Grant, and, the COPS program. In the current budget year (fiscal year 
2002), these programs, in total, received $2.154 billion. According to 
our review of the President's proposed fiscal year 2003 budget, these 
programs face a reduction in total funding of $753 million, a 35.5 
percent cut from fiscal year 2002 budget. The proposed reductions are 
achieved in the following fashion:

                             LLEBG & BYRNE
    The Local Law Enforcement Block Grant (LLEBG) program and the Byrne 
Grant program would be combined into a new initiative entitled the 
Justice Assistance Grant (JAG) program. In the current fiscal year 2002 
budget, the combined funding level of the LLEBG program and the Byrne 
Grant program was $994 million. The proposed funding level under the 
JAG program is $800 million, a decrease of $194 million, or 20 percent 
from the current combined funding level for the LLEBG and Byrne 
Program.
    It must be noted that the Department of Justice has stated that the 
rationale behind these cuts is that the majority of the discretionary 
funds in these programs were already obligated by legislative 
provisions which directed that funds be provided to specific agencies 
for specific projects. As a result of these provisions, the flexibility 
that is crucial to the success of this assistance program was minimized 
and the overall effectiveness of the program was reduced. While the 
IACP understands and shares these concerns of the Administration over 
the loss of this much needed flexibility, we do not believe that 
reducing the funds available for these programs is the appropriate 
response. Rather, the IACP believes that the solution lies in 
addressing the proliferation of directed spending provisions and their 
impact on the effectiveness of the program.

                              COPS OFFICE
    In addition to the consolidation and reduction of the LLEBG and 
Byrne Programs, the proposed budget for the Community Oriented Policing 
Services (COPS) program will be significantly reduced. In the current 
fiscal year 2002 Budget, the COPS office received $1.115 Billion. The 
Administration's proposed budget reduces this amount by $533 million, 
or approximately 48 percent. This reduction is achieved by eliminating 
the law enforcement officer hiring grant program and by significantly 
reducing the funds available for crime fighting technologies. It is 
important to note that aside from $30 million that has been allocated 
for the Police Corps program, no funds in the President's budget are 
available to hire law enforcement officers. This is unfortunate since 
the IACP believes that hiring and manpower related issues remain a top 
priority for many state and local law enforcement agencies throughout 
the nation. As a result, the IACP strongly believes that, at a minimum, 
the Universal Hiring Program, administered by the COPS Office, should 
be funded at a level consistent with the current budget.
    The IACP is concerned with the reduction in these vital state and 
local law enforcement assistance programs. These programs have played 
an integral role in ensuring that state and local law enforcement 
agencies are well equipped, well trained and staffed at an appropriate 
level. At this crucial time when state and local law enforcement 
agencies are faced with new responsibilities and challenges, it is the 
IACP's belief that the funding levels for these crucial assistance 
programs should not be reduced.

                  FEMA: FIRST RESPONDER GRANT PROGRAM
    In sharp contrast to the reductions proposed to the Justice 
Department's state and local law enforcement assistance programs, the 
proposed budget for the Federal Emergency Management Agency (FEMA) 
includes a new $3.5 billion grant program to assist state and local 
public safety agencies. According to the Administration, this proposed 
program, the First Responder Grant (FRG) program, is designed to assist 
state and local government in preparing for terrorist attacks.
    Under this proposal, the FRG program will receive $3.5 billion in 
fiscal year 2003. These funds would be distributed among the states and 
are intended to assist law enforcement, firefighting and emergency 
medical service agencies in increasing their abilities to respond to 
terrorist attacks. The funds would be distributed among the states on a 
per capita basis, with each state receiving funds in proportion to the 
size of its population. The funds received under this program could be 
used to address costs in four main areas: training, planning, 
equipment, and training exercises. However, like the DoJ JAG grants, 
these funds could not be used to address personnel costs.
    According to the Office of Homeland Security, all funds under the 
FRG program would initially be provided to state governments. However, 
within 30 days of the receipt of these funds, 75 percent of the total 
funds received must be transferred from the state to regional/local 
jurisdictions. The remaining 25 percent of funds received are 
designated for use by the state government as the governor sees fit. 
The governor of each state would be responsible for dividing the state 
into regional/local jurisdictions that would be eligible to receive 
grant funds. These regional and local units would be responsible for 
assessing their needs and developing a plan to address them.
    The IACP has several concerns with the FRG program. First and 
foremost, FEMA has historically been a response agency, and the IACP is 
very concerned that this grant program is more oriented towards 
responding to terrorist attacks rather than preventing them from 
happening in the first place. The IACP agrees that there is a vital 
need to assist state and local public safety agencies in improving 
their response capabilities, and we agree that FEMA should be closely 
involved in that effort. However, unlike firefighters and emergency 
medical technicians, law enforcement agencies are not concerned solely 
with responding to terrorist attacks. IACP is concerned that by 
proposing that the FRG be the primary assistance program to state and 
local public safety agencies, the administration has overlooked the 
unique role that law enforcement plays in anti-terrorist activities.
    The IACP is also concerned about the role state and local law 
enforcement executives will play in developing the regional/local 
response plans and needs assessment. The IACP believes that it is 
vitally important for law enforcement executives to be intimately 
involved in this process.
    Finally, the IACP is concerned that the decision to provide these 
grant funds to state governments could lead to disparities among the 
funds received by local communities. The IACP believes that small 
communities, tribal nations, and other public safety agencies may be 
overlooked in the planning and allocation process and as a result, 
their capabilities would not be enhanced.
    In conclusion, I would like to offer the following observations. In 
total, the Administration's fiscal year 2003 budget included 
approximately $4.9 billion to assist state and local public safety 
agencies. Of that total, however, only $1.38 billion is designated 
solely for law enforcement purposes. This is a reduction of more than 
$750 million from the current budget. The IACP believes that at this 
crucial time in our history, we cannot afford to reduce the 
effectiveness of our nation's state and local law enforcement agencies. 
Over the last decade, the funds provided by the Byrne Grant, the LLEBG 
and the COPS program have dramatically increased the capabilities and 
effectiveness of state and local law enforcement agencies. It is 
imperative that departments continue to receive this assistance. We 
have entered a new era for law enforcement, we are faced with new and 
daunting challenges, we are asking more of our officers and our 
communities are turning to us for protection. Only with a federal 
assistance funds that are specifically targeted for law enforcement and 
its unique role can we hope to successfully meet this challenge.
    Thank you for the opportunity to appear before you today. I will be 
glad to answer any questions you may have.
             Biographical Sketch of Col. Lonnie J. Westphal
    Lonnie J. Westphal, Fifth Vice President of the International 
Association of Chiefs of Police, was appointed to the position of 
Colonel, Chief of the Colorado State Patrol, in October of 1995. He has 
served with the Colorado State Patrol since 1974.
    Colonel Westphal holds a Bachelor of Science degree in Business 
Administration from Colorado State University and a Masters degree in 
Public Administration from the University of Denver. He served in the 
U.S. Navy as Romanian Linguist at the National Security Agency from 
1970-74.
    Colonel Westphal is a graduate of the National Executive Institute 
of the Federal Bureau of Investigation (September 1988), as well as the 
John F. Kennedy School of Government for Senior Executives at Harvard 
University (July 1999).
    Colonel Westphal has been a member of the board of the State Patrol 
Protective Association as well as of the Colorado Council of Law 
Enforcement Associations, and has also served as International Chair of 
the Police Traffic Services Committee of the American Association of 
Motor Vehicle Administrators. He is an active member of the 
International Association of Chiefs of Police and a board member of the 
National Commission Against Drunk Driving.
    Originally from Cherokee, Iowa, Colonel Westphal currently resides 
in Larkspur, Colorado, with his wife of 34 years. The Westphals have 
two grown children.
           The International Association of Chiefs of Police
    The International Association of Chiefs of Police is the world's 
oldest and largest nonprofit membership organization of police 
executives, with over 19,000 members in over 100 different countries. 
IACP's leadership consists of the operating chief executives of 
international, federal, state and local agencies of all sizes.
    Founded in 1893, the association's goals are to advance the science 
and art of police services; to develop and disseminate improved 
administrative, technical and operational practices and promote their 
use in police work; to foster police cooperation and the exchange of 
information and experience among police administrators throughout the 
world; to bring about recruitment and training in the police profession 
of qualified persons; and to encourage adherence of all police officers 
to high professional standards of performance and conduct.
    Since 1893, the International Association of Chiefs of Police has 
been serving the needs of the law enforcement community. Throughout 
those past 100-plus years, we have been launching historically 
acclaimed programs, conducting ground-breaking research and providing 
exemplary programs and services to our membership across the globe.
    Professionally recognized programs such as the FBI Identification 
Division and the Uniform Crime Records system can trace their origins 
back to the IACP. In fact, the IACP has been instrumental in forwarding 
breakthrough technologies and philosophies from the early years of our 
establishment to now, as we approach the 21st century. From 
spearheading national use of fingerprint identification to partnering 
in a consortium on community policing to gathering top experts in 
criminal justice, the government and education for summits on violence, 
homicide, and youth violence, IACP has realized our responsibility to 
positively effect the goals of law enforcement.
    Even with such an esteemed history, we are continually initiating 
programs to address the needs of today's law enforcement professionals. 
Our members have let us know that they consider IACP to be a 
progressive organization, successfully advancing the law enforcement 
profession.
    If you would like additional information about the IACP, please 
contact IACP Headquarters at 1-800-THE-IACP (1-800-843-4227) or visit 
our website at www.theiacp.org

    Chairman Byrd. Thank you. Thank you very much. General 
Alexander, representing the National Guard Association.
STATEMENT OF GENERAL RICHARD ALEXANDER, DIRECTOR, 
            NATIONAL GUARD ASSOCIATION
    General Alexander. Good morning, Mr. Chairman, Senator 
Stevens, and distinguished committee members. On behalf of the 
men and women of the National Guard, of the National Guard 
Association of the United States, we sincerely thank you for 
the opportunity to discuss the issues of homeland security and 
the challenges facing the National Guard in this arena. I have 
provided copies of my testimony for the record. However, with 
your approval, I would like to submit an updated copy for the 
record.
    Chairman Byrd. That updated copy, without objection, will 
be included in the record.
    General Alexander. Thank you, sir.
    Nearly 1,300 members of the National Guard were on duty in 
support of the civilian first responders in New York by 
September 13. State authorities in Virginia, Maryland, and the 
District of Columbia mobilized roughly 1,200 guardsmen within 
hours after the attack on the Pentagon. Since that time, more 
than 14,000 members of the Army Guard and over 23,000 members 
of the Air National Guard have been called to active duty in 
service as a part of our Operation Enduring Freedom and Noble 
Eagle.
    In addition to that, many thousands have been called to 
active duty under the command and control of their Governors. 
More than 7,000 members of the National Guard provided airport 
security across the country for the past 6 months. These 
individuals required certain needs as a result of that, and I 
would like to share that with the committee.
    It is envisioned that significant portions of the National 
Guard structure will be dual mission and apportioned to a soon-
to-be-appointed Commander in Chief of Northern Command. This 
structure needs to be resourced dual-mission to accommodate the 
requirements of other CINC's. It is anticipated that this 
transformation within the National Guard will make available 
additional high-demand units and, as a result, reduce the level 
of operations tempo for those units being called upon time and 
time again to perform missions at home and abroad. The National 
Guard must be resourced to support activities in support of 
local, State, and Federal homeland security vulnerability 
assessments, funding implementation of defense countermeasures, 
and participation in exercises designed to evaluate 
preparedness.
    The Governor's homeland security plan, based upon a decade-
long National Guard program model in which each State Governor 
adopts and administers a program of full-time manning to 
support law enforcement agencies would marshal broad resources 
to best meet the needs of each State and territory. Within 
prescribed national standards the guidelines enforced by the 
National Guard and the Governor's plan for homeland security 
should explicitly authorize the National Guard to engage in 
interstate support consistent with the objective of sending and 
receiving States' plans, thus encouraging regional and 
interstate mutual aid agreements.
    Further, the charter of the National Guard needs to be 
amended to expand its unique role as a channel of communication 
between the States and the national security authorities. This 
expansion should provide for communications on homeland 
security issues between several States and the support of CONUS 
CINC, the Chairman of the Joint Chiefs of Staff, the Secretary 
of Defense, and the Assistant to the President for Homeland 
Security.
    The homeland security missions of the National Guard must 
be established as a multiyear funded program to ensure 
continuity and sustain support for the CONUS CINC, local, 
State, and Federal emergency responders. The National Guard 
Bureau should be authorized to biannually submit a separate POM 
for all missions falling within the National Guard's homeland 
security responsibilities. We would hope the Congress should 
appropriate these funds directly to the National Guard Bureau.
    Currently, there is a shortfall of title 32 missions, a 
funding of title 32 missions as a result of domestic homeland 
security missions being performed across the country. This lack 
of funding will have a direct impact on the ability of a 
prolonged presence supporting homeland security. Many States 
are paying for missions with funding dedicated for training, 
thus impacting upon unit readiness.
    Mr. Chairman, we ask the Congress to support our Governors 
in meeting the challenges of securing and defending America's 
homeland by establishing a policy of employing National Guard 
units and personnel in title 32 status for missions that 
involve augmenting non-Department of Defense Federal agencies 
within a State's borders. The National Guard gratefully 
acknowledges the actions taken by the committee to correct the 
full-time manning challenges for the National Guard. However, 
there is still a critical shortfall that needs to be addressed.
    The Army has validated a plan to bring the National Guard 
full-time manning personnel to an acceptable risk level of 71 
percent of its required force by 2011. We ask this committee to 
support a level of funding consistent with or greater than 
fiscal year 2002 funding for full-time manning for the Army 
National Guard. Since September 11 the civil support teams have 
performed 333 operational missions at the request of civil 
authorities. These responses range from sampling a known or 
suspected hazard to providing technical expertise and advice to 
local, State, and Federal agencies.
    The civil support team is playing a crucial role for the 
National Guard in homeland security. However, 23 States and 
territories have yet been provided this valuable asset to 
assist in bolstering the ability of the National Guard to 
support civilian first responders. The National Guard 
Association stands with the National Emergency Management 
Association, the International Association of Emergency 
Managers, and the Council of State Governors, in recommending 
that the Congress complete the fielding with a minimum of one 
civil support team in each State.
    The need to provide a reliable, interoperable 
communications system to allow first responders and National 
Guardsmen the ability to effectively communicate is of utmost 
importance. The hard lessons learned from September 11 
demonstrates this need. Out-of-date FM communications systems 
which utilize the line-of-sight capability were inoperable in 
the urban canyons of New York City. The National Guard, along 
with civilian authorities, was dependent upon donated 
commercial systems provided by companies like Verizon and 
Nextel. The lack of interoperable radios forced many 
individuals to carry three different radios to communicate with 
military and civilian authorities.
    Combat air patrols conducted by the Air National Guard 
taught some valuable lessons for communications. Equipping the 
Air National Guard F-15's with VHF radios with a DHF radio 
capability will allow communications with commercial airliners. 
Upgrading and expanding the National Guard distributive 
technology training project is necessary to ensure multiple 
C\4\I operating sites necessary in our States. We badly need an 
increased amount of UH-60 helicopters, high mobility combat 
vehicles, to ensure the mobility of our force.
    In closing, let me say, recently I had the pleasure of 
talking with Major General George C. Garrett, the Commanding 
General of the 42nd Infantry Division of the New York Army 
National Guard. He and his soldiers have identified critical 
areas where attention is needed to preempt future challenges 
that relate to Army equipping, feeding and clothing, and 
sheltering our soldiers and airmen. Their comments include the 
need for manned portable power devices and tactical generators 
to charge cell phones, light sets, and radios, alternative 
fueled vehicles need to be given consideration as diesel and 
gas vehicle supplies are targets.
    Many soldiers purchased authorized enhanced inclement cold 
weather equipment, and a great many were unable to pay out of 
pocket for this same gear. A mechanism for an immediate fund 
site for personnel needing clothing needs to be available. The 
Guard needs to be provided with 9 millimeter service pistols, 
adequate training, and ammunition to support homeland security 
missions.
    One little side note. Major General Garrett wanted me to 
express his thanks and gratitude from the 42nd Infantry 
Division to the first responders whom they worked with and 
continue to work with.
    Mr. Chairman, on behalf of the National Guard and our 
soldiers and airmen, I thank the committee for allowing me the 
opportunity to express their concerns in this area, and I look 
forward to your questions.
    [The statement follows:]
        Prepared Statement of Major General Richard C. Alexander
The National Guard in Operations Enduring Freedom & Noble Eagle
    On September 11th, 2001, the National Guard--already heavily 
engaged with the 29th Infantry Division ready to rotate into Bosnia and 
the 7th and 8th Air Expeditionary Force serving abroad--became more 
decisively engaged in fulfilling its dual role as defenders of the 
homeland.
    The Air National Guard (ANG) was the ``first responders'' over 
America's skies with the immediate launch of Air Defense Units and 
general-purpose fighters from four separate sites. Within hours, 34 
fighter and 18 tanker ``dual-missioned'' units were flying or 
supporting Combat Air Patrols over the United States as part of a Total 
Force effort--including Presidential Escort. Numerous alerted strategic 
and tactical lift units (C-130, C-5, and C-141) began transportation of 
blood, organs, Federal Emergency Management Agency (FEMA), Federal 
Bureau of Investigations (FBI), medical personnel, Civil Support Teams, 
and heavy equipment.
    Thousands of force protection and combat support requirements were 
identified and generated in the first hours to include more than 70 
security forces units, hundreds of civil engineers, 88 command and 
control centers in all 54 states and territories, services support for 
35 dining and alert facilities, Chaplains, communicators, and air 
traffic controllers.
    Nearly 3,800 members of the National Guard were on duty in New York 
by September 13th. State authorities in Virginia, Maryland and the 
District of Columbia mobilized roughly 1,200 Guardsmen were by within 
hours after the attack on the Pentagon.
    Today 170 New York and 150 New Jersey National Guardsmen are still 
on state active duty at Ground Zero and providing security enhancements 
on the Hudson River bridges.
    Since that time, more than 10,000 members of the Army National 
Guard (ARNG) and over 23,000 members of the Air National Guard have 
joined their Army and Air Force Reserve (AFR) counterparts in being 
called to active federal service as part of Operations Enduring Freedom 
and Noble Eagle. For the Army National Guard this means providing 
security at key facilities here in the United States and in Europe. For 
the Air National Guard this has meant flying Combat Air Patrols over 
American cities, and performing in-flight refueling, flying cargo and 
countless other missions at home and abroad. And, it is particularly 
important to note, both Army and Air National Guardsmen are also 
participating in diverse operational aspects of the war on terrorism in 
the Continental United States.
    In addition to that, however, many thousands more have been called 
to active duty under the command and control of their governors. There 
are over 7,000 members of the National Guard providing airport 
security. This Title 32 mission was created and authorized by the 
President and is being properly carried out by the governors. In 
addition, over 4,000 members of the National Guard from several states 
bolstered security at the Winter Olympics in Salt Lake City. Over 2,000 
members of the National Guard are on duty providing security at 
National Guard armories and other key facilities. And finally, an 
additional 2,000 are on state duty, on orders and pay from state 
governors to help meet the security or other requirements of the 
states.
    The National Guard took on its newest six-month mission in homeland 
defense in early March providing 1,500 troops, from the Army Guard, to 
assist U.S. Immigration and Naturalization Service and U.S. Customs 
Service officials in eight states along the Canadian border and in the 
four states along the Mexican border.
    Maine, Vermont, New York, Michigan, North Dakota, and Washington 
state Guard aviators also began conducting surveillance flights along 
the Canadian border.
Transforming the National Guard
    The National Guard, in accordance with its long-standing 
integration with federal, state and local civil authorities, uniquely 
connects every police station and firehouse to the Pentagon and every 
state house with the White House. While there may be a need for 
selected units and personnel to be dedicated primarily or even 
exclusively for homeland security, that mission can be most effectively 
and efficiently accomplished as a dual mission that complements, 
enhances and draws its essential strength from the National Guard's 
continued combat force structure, training and experience. To provide 
for a common defense, we must reinforce the authority and increase the 
homeland security response capability of the Governors of the several 
states.
    Current studies are ongoing within the Army to transform a portion 
of the National Guard structure to accommodate emerging homeland 
security missions. It is envisioned that significant portions of 
National Guard structure will be dual-missioned and apportioned to a 
soon to be appointed Commander in Chief (CINC) of Northern Command 
(NORTHCOM). It is desirable that this structure be dual-missioned to 
accommodate warfighting requirements of additional CINCs. This 
transformation will require significant resourcing and the National 
Guard Association looks forward to working with this committee in this 
endeavor. It is anticipated that this transformation within the 
National Guard will make available additional units of the type that 
are being called upon continuously and, as a result, reduce the level 
of operations tempo for the limited number of units being called upon 
time and time again to perform missions at home and abroad.
    The National Guard Association of the United States (NGAUS) request 
the Congress where necessary, to authorize, support, equip and fund the 
National Guard to assume significant homeland security 
responsibilities. These responsibilities must be recognized as an 
important mission but not the sole or primary mission of the National 
Guard. Although there may be a need for selected units and personnel to 
be specially missioned or resourced for these purposes, homeland 
security can be most effectively and efficiently accomplished as a dual 
mission that compliments, enhances and draws its essential strength 
from the National Guard's continued combat force structure, training 
and experience.
    Specifically, the NGAUS urges implementation of the following key 
tenets of a successful homeland security strategy:
            The National Guard and its relationship with the states
    Congress should authorize and fund a program for National Guard 
execution of a Governor's Plan for Homeland Security.
    Program oversight and resourcing would be provided by the National 
Guard Bureau based on the decade-long National Guard counter-drug 
program model in which each state's Governor adopts and administers a 
program of full-time National Guard support (AGRs) for law enforcement 
agencies. Within prescribed national standards and guidelines enforced 
by the Bureau, the Governor's Plan for Homeland Security for each state 
and territory would marshal Guard resources to best meet the unique 
needs of each state and territory. The Army and Air National Guard must 
be authorized to participate in activities in support of local, state 
and federal homeland security vulnerability assessments, planning, 
implementation of defensive counter-measures, and participation in 
exercises designed to evaluate preparedness, as prescribed in the 
approved Governor's Homeland Security Plan in each state. Army and Air 
National Guard forces should explicitly be authorized to engage in 
interstate support consistent with the objectives of the sending and 
receiving states' Governor's Homeland Security Plan (this would 
encourage regional and interstate mutual aid arrangements).
    Congress should authorize and fund a program for organizing, 
training and equipping National Guard units for dual mission Homeland 
Security support for first responders.
    Oversight of these homeland security missions should be provided by 
the National Guard Bureau based on the long-standing Garden Plot model 
in which National Guard units are trained and equipped to support civil 
authorities in crowd control and civil disturbance missions. The 
program should also authorize and fund National Guard training with 
civil authorities, to include local first responders, to assure a 
heightened state of collective preparedness for consequence management 
of domestic Chemical, Biological, Radiological, Nuclear or high yield 
Events (CBRNE) events.
    Congress should support the establishment of a joint state task 
force in each state, territory and the District of Columbia that is 
staffed appropriate to each mission and which is:
  --Scalable in organizational structure and personnel in modular units 
        with a variable command structure dependent upon the size of 
        the task force; and
  --Staffed by Army and Air National Guard soldiers and airmen and the 
        Emergency Preparedness Liaison Officers from other federal 
        reserve components and the Coast Guard; and
  --Commanded by a National Guard officer (in Title 10 ADSW status if 
        necessary to exercise command and control of Title 10 military 
        personnel who are added to the task force). The grade of the 
        National Guard task force commander should be determined by the 
        size and composition of the Task Force; and
  --Under the tactical control (TACON) of the Adjutant General and, in 
        turn, the Governor in order to assure unity of command and 
        unity of purpose.
  --Supportive of the state and federal response plans.
  --The National Guard Plans, Operations & Military Support Officer 
        (POMSO) Office would provide the nucleus, planning and exercise 
        functions for the standing task force element.
            The National Guard and its relationship with the federal 
                    government
    Make the Chief of the National Guard Bureau (CNGB) a member of the 
Federal Interagency Task Force. This group supports the integration of 
the various federal agencies supporting homeland security. The CNGB, 
serving as a conduit between the state adjutants general and the 
Department of Defense, should included as member of the Federal 
Interagency Task Force in order to best convey what assets are 
available within the National Guard.
    Congress should increase full-time support to the National Guard 
military support offices of each state, territory and the District of 
Columbia. Increase full-time National Guard homeland security staffing 
at the National Guard Bureau and Joint Forces Command /CJTF-CS to 
enable planning and execution of military support to the broad band of 
civilian authorities that have a role in the homeland security mission 
within the states.
    WMD-CST is an important part of the homeland security mission, 
however, the rapidly emerging missions require a full time staff to 
address the strategic issues surrounding the Homeland Security and 
Defense mission and the National Guard's role. Congressional funds and 
increased authorizations for AGR positions to staff the National Guard 
Bureau and a full time staff within each State and Territory is 
absolutely essential to maintain a viable role in this important 
mission.
            Bridging the Relationships
    The statutory charter of the National Guard Bureau should be 
amended to reflect its unique role as a channel of communications 
between the states and national security authorities. The Bureau is the 
official channel of communications between the several states and the 
Department of the Army and Department of the Air Force. (10 USC 
10501(b)). The charter should be amended to also make the Bureau the 
channel of communications for homeland security between the several 
states and the supported CONUS CINC, the Chairman of the Joint Chiefs 
of Staff, the Secretary of Defense and the Assistant to the President 
for Homeland Security.
    Congress should authorize the National Guard to prioritize 
standardized equipping of state contingency stocks with CBRNE 
equipment, and the equipping of state task forces with modern National 
Guard communications and transportation assets. Each state and 
territory should have self-contained National Guard aviation assets 
capable of airlifting civilian and military homeland security personnel 
and equipment within and outside the state or territory.
    Land Mobile Radio equipment should be fielded through the National 
Guard Bureau to facilitate homeland security-related interagency 
communications. The Chief, NGB should also be delegated authority to 
approve National Guard telecommunications cooperative agreements to 
serve as mechanisms for collecting local, state and federal agency 
funds for the purpose of enabling such agencies to utilize Military 
Interdepartmental Purchase Requests (MIPR) through the United States 
Property and Fiscal Officer.
    Dual missioned National Guard forces should be authorized to 
acquire and maintain homeland security mission equipment from either 
military or commercial off-the-shelf (COTS) sources, whichever is more 
effective and interoperable with other emergency responders.
    Support the development and funding of a program to increase and 
sustain the duty MOSQ of the ARNG to the Army minimum standard 
(currently 85 percent). Cost efficiencies can be realized when on the 
job training, credit for civilian acquired skills and credit for skills 
acquired from previous MOSs can be factored into the awarding of 
Military Occupational Specialties for members of the National Guard.
    The National Guard should be authorized to develop regional 
training sites for integrated homeland security and domestic emergency 
civil-military training and exercises. The ability for the National 
Guard to expand its long established relationships with civil agencies 
is greatly enhanced when training is integrated. Successes have already 
been demonstrated in this concept with the National Guard's counter 
drug program. The creation of regional training centers as a local 
schoolhouse for innovative education and sustainment training will 
benefit both the Guard and local authorities in their response 
capabilities to a homeland security mission.
Fiduciary Responsibilities
    The homeland security missions of the National Guard must be 
established as multi-year funded programs to ensure continuity and 
sustained support for the CONUS CINC and local, state and federal 
emergency responders. Separate and distinct funding to support pure 
homeland security missions should come from other non-DOD agencies when 
appropriate. A program should be established for the National Guard and 
NGB should be authorized to bi-annually submit a separate POM for all 
missions falling within the National Guard's homeland security 
responsibilities. Congress should appropriate funds for that purpose 
directly to the National Guard Bureau rather than indirectly through 
the Army or Air Force.
    Currently there is a shortfall of funding of Title 32 missions as a 
result of domestic homeland security missions being performed across 
the country. The lack of funding will have a direct impact upon the 
ability to have a prolonged presence supporting homeland security 
missions. Many states are paying for missions with funding dedicated 
for training, thus impacting unit readiness. A mechanism needs to be 
emplaced to ensure funding is either available, or available for their 
immediate acquisition for the National Guard.
            Calling up the National Guard
    Mobilization of the National Guard is dependent upon the mission 
requirements. The three distinct legal authorities available to 
mobilize the National Guard provide an important tool for the Governors 
and the Department of Defense. United States Code (USC) Title 10, often 
referred to as active duty, is federal active duty under command and 
control of the President of the United States. USC Title 32 is 
federally funded active duty ``in the service of the United States'', 
but where command and control remains with the Governors and Adjutants 
General. The third authority, state active duty, allows the Governor to 
utilize the National Guard with state funding for state specific 
events.
    The events of September 11th caused a national re-affirmation of 
the principle that the first responsibility of government is to defend 
and secure the lives of its citizenry. While the conduct of national 
defense outside our nation's borders has long been the exclusive 
province of the federal government, the mission of defending the 
homeland in the future will require the integration across the spectrum 
of local, state and federal government. Critical to this integration is 
the role of the Governors, who best know what resources are available, 
within their respective states, to address homeland security.
    Use of the National Guard as a primary fusion agent in executing a 
balanced, integrated national domestic security strategy preserves the 
constitutional role of the sovereign states and assures that governors 
and other state and local civil authorities remain responsible and 
accountable for the public safety and security of their state, 
territory or local jurisdiction. Use of the National Guard in state 
active duty status and in federal pay status under Title 32, USC 
permits military forces under the control of the governor to assist 
civil authorities in executing all laws, federal, state and local, 
without violating the Posse Comitatus Act. Any attempt to repeal or 
substantially amend the Posse Comitatus Act would be met by a firestorm 
of resistance from the nation's governors and state and local civil 
authorities.
    The National Guard, with its unique dual mission, provides a 
flexible link between the states and the federal government. This link 
is best maintained when the National Guard is activated under U.S. Code 
Title 32. This past December, Governor Gary Locke, in his testimony 
before the subcommittee on Treasury and General Government, expressed 
the advantages of calling up the National Guard under a Title 32 
status.

    ``In asking the President to assign these missions to the National 
Guard in Title 32 status, the Governors were also mindful that for more 
than a decade thousands of National Guard soldiers and airmen have been 
performing virtually indistinguishable duties in Title 32 status. I 
refer, of course, to the National Guard Counter-Drug Program in which 
Guard soldiers and airmen, with the consent of the Governors of the 
several states, have been actively augmenting the operations of the 
Border Patrol, Customs, and INS. The proposed missions at northern 
border crossings and ports of entry, for the most part, are an 
expansion of the same operational functions, albeit with a refined 
focus on terrorism instead of the current drug interdiction focus.
    ``Using the National Guard in Title 32 status, instead of 
federalizing individual Guard volunteers in Title 10 status, also 
ensures significant Air Force as well as Army participation in border 
security. Because of the joint nature of each state's National Guard 
command structure, we have been able to execute airport security 
missions with both Army and Air National Guard personnel, thus 
minimizing the impact on the wartime operational readiness of both 
federal military services. The Governors stand ready to execute 
expanded border crossing and port of entry missions in the same Title 
32 multi-service manner. Using current Title 10 forces or Guard members 
in Title 10 status would diminish the contributions of the several 
states in support of national security, disproportionately impact the 
Army and the readiness of its units for overseas missions, and place 
federal military personnel on a collision course with the proscriptions 
of the Posse Comitatus Act--an Act, by the way, that is as relevant and 
compelling today as when it was enacted.''

    The National Guard Association urges the Congress to re-affirm the 
vital role of the nation's governors in meeting the challenge of 
securing and defending the American homeland by establishing a policy 
of employing Army and Air National Guard units and personnel in a Title 
32 status for missions that involve augmenting non-Department of 
Defense federal agencies within a state's borders. Furthermore, we 
request the Congress to support amending Title 32 U.S.C. 502(f) to 
clarify the definitions of ``other duties'' as including, but not 
limited to, homeland security duties, counter drug duties, military 
support to civil authorities (MSCA), disaster assistance and other 
missions identified in the approved Governor's Homeland Security Plan, 
as well as any mission in which use of National Guard forces in Title 
32 status ``in the service of the United States'' is authorized and 
accepted by the Secretary of the Army, the Secretary of the Air Force, 
the Secretary of Defense or the President of the United States.
    Statutes governing ARNG and ANG federal technicians and AGRs must 
also be amended to permit full time National Guard personnel (1) to 
perform duties in support of the federally approved Governor's Homeland 
Security Plan, and (2) to perform duties in support of any emergency 
directive by the Governor in preparation for or effectuation of a 
National Guard activation for a state emergency. By prohibiting the use 
of full time staff (AGR and/or federal technician), the Adjutant 
General loses his continuity of day-to-day functional operations. The 
potential for error is greatly increased and could possibility hamper 
the overall mission. The full time staff has the daily working 
knowledge of the coordination effort to ensure the other state, 
federal, and law enforcement agencies do not duplicate efforts with the 
``train-up'' period of using traditional Guardsmen.
Command & Control Relationships
    There is a need to delineate the command and control structure of 
military forces supporting state and local officials. Under current 
Department of Defense policy, the Adjutant General is not authorized to 
assume tactical control, to enable the tasking for missions, of Title 
10 soldiers or airmen. This potentially creates command and control 
challenges during events where timely and disciplined response is 
necessary to restore normal civic functions and support the needs of 
the state and local communities, as witnessed during the consequence 
management of Ground Zero.
    The NGAUS urges the Congress to support the modification of the 
Code of Federal Regulations to authorize Guard tactical control of all 
U.S. military forces that are assigned in the several States in support 
of disaster recovery operations.
            Full Time Manning
    The men and women of the National Guard continue to be a ready and 
able force. Their ability to contribute to state and federal missions 
is heavily dependant upon the full-time force comprised of military 
technicians and Active Guard /Reserve (AGR) personnel. They are 
essential to unit readiness and the overall successful operation of the 
National Guard. These full time members fill vital positions in areas 
that support a unit's administrative, payroll, supply, training and 
maintenance needs. Without them, unit readiness and soldiers' quality 
of life suffers severely.
    For years, the Army National Guard has been operating with an 
unacceptable low percentage of its full-time force requirements as 
validated by the U.S. Army. Significant increases in military 
technicians and AGRs, provided by the Congress, are leveling off what 
was a downward spiral for the Army National Guard and its overall 
readiness.
    The Army has validated a plan to bring Army National Guard full-
time personnel to an ``acceptable risk level'' of 71 percent of its 
required force by 2011. This requirement, assessed against deployment 
criteria, does not meet the operational needs of the National Guard.
    The National Guard Association of the United States gratefully 
acknowledges the actions taken by the Committee to correct the 
shortfalls in full time manning for the National Guard. However, there 
is still a critical shortfall that needs to be addressed. The National 
Guard Association urges the Congress to support a level of funding 
consistent with or greater than fiscal year 2002 funding for full time 
manning for the Army National Guard in order to achieve the validated 
high-risk level by 2007 and assure the zero risk level by 2012.
            Civil Support Teams
    In response to a state or national emergency, the National Guard's 
Civil Support Teams (CSTs) provide a well-trained assessment team to 
support the state response as a lead element for the National Guard in 
the event of a CBRNE incident. Their knowledge of the emergency 
management system, expertise in emergency response operations, and 
technical capabilities may provide tremendous assistance to the local 
Incident Commander. CBRNE terrorism requires rapid response to a 
suspected or actual terrorist attack. The CSTs, available for rapid 
deployment, provide assessment of the damage, consultation on 
logistics, medical, chemical and biological defense, and transmission 
of the situation to higher headquarters to facilitate follow-on 
military forces.
    As of 26 Mar 2002, 26 of the 27 two tier phased teams have been 
certified by OSD. The five new CSTs, located in Alabama, Kansas, 
Michigan, Tennessee and West Virginia, were established 15 Nov 2002, 
and are currently in the process of hiring, equipping and training 
members. The NGB, at the request of the Chief of Staff, Army, has 
developed an accelerated plan to train, equip and prepare these teams 
for certification by the end of the calendar year 2002.
    Since September 11th, the CSTs have performed 333 operational 
missions at the request of civil authorities. These responses can be 
separated into three different operational categories: ``Response,'' 
``Standby'' and ``Liaison.'' A Response mission occurs anytime a CST 
deploys to sample a known or suspected hazard. CSTs have performed 133 
Response missions, most of which consisted of sampling an ``unknown 
white powder,'' most often suspected to be anthrax. A few of the 
response missions were to sample an unknown liquid or a suspicious 
piece of mail. Two CSTs conducted sampling at the World Trade Center to 
detect any hazard that resulted from the attack. A Standby mission 
occurs when a CST deploys to provide CST expertise to a community event 
or for the visit of a VIP. This includes National Security Special 
Events (NSSE), other events identified by the state chain of command, 
and VIP Protective Details (including presidential and gubernatorial 
protective details). CSTs performed 51 Standby missions, supporting the 
World Series, Super Bowl, Mardi Gras, 2002 Winter Olympics and the 
Paralympics. To date CSTs have performed 149 Liaison missions providing 
technical expertise and advice, and participating in conferences that 
focus on the response to a CBRNE attack with the U.S. Secret Service, 
Federal Bureau of Investigations (FBI), Drug Enforcement Agency (DEA), 
U.S. Navy, U.S. Coast Guard, the American Red Cross, various state 
emergency management agencies, state and local law enforcement 
agencies, hospitals and health departments.
    The National Guard Association of the United States joins the 
National Emergency Managers Association (NEMA), the International 
Association of Emergency Managers (IAEM) and the Council of State 
Governments in recommending that the Congress complete the fielding a 
minimum of one National Guard Civil Support Team in each state and 
territory.
Retention Incentives for Civil Support Team Members
    The CSTs are being negatively impacted by the high OPTEMPO and the 
high salaries offered by civilian companies seeking highly trained 
hazardous material technicians, also trained in WMD. Within the CST 
community is a Personnel Working Group (PWG), an open forum for all of 
the CST's to discuss personnel issues. This issue is the number one 
priority for the group.
    Each member of the team undergoes a rigorous eighteen-month 
training program, above the normal required military training; 600 
hours are specialized training in chemical, biological and radiological 
agents. When these members are fully trained, civilian companies are 
seeking out these individuals by offering high salaries because they do 
not have to send them to training.
    The National Guard Association of the United States recommends that 
National Guard Civil Support Teams members be provided Special Duty 
Assignment Pay at a level of SD-5 as an incentive to remain on the 
Civil Support Team and to compensate them for the rigorous OPTEMPO 
required to maintain readiness and to help bridge the gap between the 
civilian and military salaries.
Security Forces
    There is a need to address the personnel shortages in the Air 
National Guard Security Forces career field. ANG security forces are 
responsible for defending the ground battle space for 72 ANG 
installations. Due to the overall Air Force shortage in trained 
security force personnel, we are defending our bases with over 1,100 
security augmentees each day. This ability to effectively use 
augmentees is currently being threatened by the Air Force Personnel 
Directorate by their reluctance to allow these volunteers to serve for 
more than 270 mandays in a fiscal year.
Mobility Issues
            Army Aviation
    Army National Guard aviation plays a critical role in Total Army 
aviation and in response to state requirements related to domestic 
emergencies. The terrorist attacks of September 11, 2001 have placed 
the highest priority on the Army National Guard's need to stand ready 
to fight our nation's wars, perform emerging missions for homeland 
security, defend our nation against weapons of mass destruction and 
provide disaster relief support. Performing these missions will require 
increased reliance on Army National Guard MEDEVAC and utility 
helicopter assets. Accordingly, we must modernize our helicopter fleet 
sooner than the Army's current procurement plans.
    The ARNG aviation force suffers from the lack of a consistent 
modernization program, turbulence within the force and poor aircraft 
reliability, availability and maintainability of older aircraft. This 
neglect has gone on far too long. ARNG aviation is severely hindered 
and requires immediate attention if it is to recover and support both 
its state and federal missions.
    ARNG utility aviation comprises roughly 50 percent of the Total 
Army's aviation without the addition of homeland security 
responsibilities. Currently, the National Guard's UH-1 fleet is 
scheduled to be retired in 2004. If the bulk of the ARNG UH-1 fleet is 
retired without sufficient replacements, it will be unable to respond 
to operations within the individual states and around the globe.
    The National Guard Association of the United States urges Congress 
to authorize and appropriate additional monies to the Aircraft 
Procurement, Army budget line of the fiscal year 2003 Defense Budget. 
This funding would support the procurement of an additional H-60 
helicopters and the modernization of the Theatre Airlift Aircraft for 
the Army National Guard. Request that Congress direct language 
requiring the Army to field these systems to the Army National Guard. 
The procurement of significant equipment necessary to support the 
homeland security mission such as the Life Support for Trauma and 
Transport (LSTAT) and rescue hoist systems provide a valuable force 
multiplier for the National Guard.
            Ground Mobility Assets
    The High Mobility Multi-Purpose Wheeled Vehicles (HMMWV) provides 
the backbone of the light transport vehicles. Used as troop carrier, 
cargo carrier, armament carrier, shelter carrier, TOW Missile carrier, 
ambulance, and Scout vehicle, the HMMWV can travel off-road where often 
only tracked vehicles can go. The HMMWV's off-road and inclement 
weather capabilities are unparalleled and provided a valuable resource 
in the aftermath of September 11th.
    In addition to the HMMWV assets, at both the Pentagon and Ground 
Zero, the use of the M-Gator proved to be a vital mobility asset in 
areas where the HMMWV could not operate. Currently in use by the 10th 
Mountain Division, the 101st Airborne Division and the 26th Marine 
Expeditionary Unit (MEU) have used M-Gators in Afghanistan and the 
supporting area of operations. The M-Gator provides a flexible tool for 
mobility in homeland security and the warfight.
    The National Guard Association of the United States urges the 
Congress of the United States to authorize and appropriate an 
additional funding to the Other Procurement, Army budget line of the 
fiscal year 2003 Defense Budget. This funding would support the 
procurement of HMMWVs and the M-Gator. We request that Congress direct 
language requiring the Army to field these systems to the Army National 
Guard.
Communications Issues
    The hard lessons learned from September 11th demonstrate a vital 
need to enhance the communications capability of the National Guard to 
ensure interoperability with civilian authorities during a homeland 
security mission and while supporting the active component. Out of date 
FM communications systems, which utilize line of site capability, lost 
significant capabilities in the urban canyons of New York City. The 
National Guard, along with the civilian authorities, was dependant upon 
donated commercial systems provided by companies like Verizion and 
NEXTEL. The lack of interoperable radios forced many individuals to 
carry three different devices to communicate with military and civilian 
authorities.
    The Combat Air Patrols conducted by the Air National Guard taught 
some valuable lessons for communication. Equipping Air National Guard 
F-15s and F-16s with VHF radio capability will allow communications 
with commercial airliners. At present time, communications from 
military to commercial planes have to be relayed down to the ground and 
back up. The ability to communicate directly saves much needed time, 
especially if a commercial plane is suspected of being under hostile 
control.
    The NGAUS urges Congress to support the enhancement of 
communications equipment within the National Guard by providing: A 
reliable interoperable communication system to allow first responders 
and National Guardsmen the ability to effectively communicate; Combat 
Net Radios including funds for Single Channel Ground and Airborne Radio 
Systems (SINCGARS); and VHF radios capabilities for Air National Guard 
F-15 and F-16 fighter jets.
            F-15 /F-16 Fighter Modernization
    The operations tempo for Air National Guard (ANG) F-15 and F-16 
fleet increased significantly following the attacks of September 11th. 
Furthermore, the ANG continued to participate as equal partners in 
sophisticated threat areas throughout the world as part of the 
Expeditionary Air Force (EAF) employment concept. Lack of a capable and 
robust electronic identification capability, in these aircraft, 
severely degrades the combat capability and survivability of the 
aircraft in both homeland defense and contingency operations. By fiscal 
year 2004, the current Air-to-Air Interrogator/Identify Friend or Foe 
(AAI/IFF) system will be unsupportable. Air defense of the United 
States is an immediate and essential concern of the National Command 
Authority (NCA). The ANG F-15 A/Bs and F-16s, along with other active 
duty aircraft, are the primary air defense assets employed for combat 
air patrols.
    The ANG currently operates 100 percent of the F-15A/B fighter 
aircraft in the Air Force inventory. The ANG will be required to remain 
a viable, supportable, combat capable and ready force flying these 
aircraft well into the 21st Century, even though it possesses 126 of 
the earliest models of these fighters.
    The Precision Attack Targeting System program fills a critical need 
for precision strike capability for the ANG and the Air Force Reserve. 
Adding targeting pod capability to the ANG F-16 fleet addresses the 
immediate shortfall in the Block 25/30/32 aircraft, which account for 
over 35 percent of the overall combat Air Force's F-16 fleet. The 
Litening II targeting pod meets this requirement. The ANG joined 
efforts with the USAF to procure the next generation Advanced Targeting 
Pod (ATP) to finish out the remaining ANG shortfall. The ATP is ``plug 
and play'' technology, with state-of-the-art capability, allowing full 
weapons exploitation and comprehensive Air Reserve Components 
participation in homeland security missions and contingency operations 
worldwide.
    The NGAUS urges the Congress to authorize and appropriate funding 
to: Procure a new state-of-the-art IFF for the ANG F-15 fleet; upgrade 
the F-15A/B with a new AAI system; and procure next generation Advanced 
Targeting Pods.
            Resourcing of Distance Learning & shared usage
    With the major roles that the National Guard has taken on in 
homeland security, weapons of mass destruction, civil support, counter 
drug, and national missile defense, as well as the increased reliance 
on the National Guard to augment the active component through 
contingency operations mobilization, the National Guard has increased 
its requirements for updated Information Technology.
    There is an increased requirement for modern decision support 
systems backed by real time, accessible, accurate information that will 
provide improved command and control, training, and family and employer 
support.
    Congress has urged the National Guard to share the usage of their 
facilities and infrastructure with other Federal Agencies, such as the 
Veterans Administration and other agencies and response organizations 
in our local communities. There is a shortage of time, money, and 
classroom seats for National Guard members to receive required 
training.
    The Distance Technology Training Program (DTTP) has increased the 
National Guard communications and training capability and has assisted 
states with the development of synergistic higher education programs 
designed to leverage the technology investment in DTTP for shared 
community use at the state and local levels.
    The DTTP allows training to be conducted via Internet, computers, 
videocassette recordings, compact discs, and satellite video 
teleconferencing. Such technology is highly cost effective, promotes 
the knowledge, skills and abilities of National Guard members, and 
ultimately contributes to a higher retention of qualified service 
members.
    This same technology provides a command and control capability, as 
well as distributed training in support of the homeland defense, 
weapons of mass destruction, counter drug operations, partnership for 
peace initiatives, and information operations initiatives. For example, 
the DTTP recently provided command and control capabilities for the 
response to the World Trade Center tragedy.
    Additionally, there is an urgent need to accelerate the Army's 
capability to develop readiness-producing courseware to be distributed 
to National Guard units.
    The NGAUS urges the Congress of the United States to:
  --Provide funding solely for the operation, maintenance, upgrade and 
        extension of the DTTP in order to provide electronic command, 
        control and coordination connectivity between National Guard 
        forces and emergency responders before, during and after 
        terrorist attacks and other domestic emergencies.
  --Provide adequate funding for the information technology 
        infrastructure of the National Guard so that it may continue to 
        support the various missions of the National Guard and for the 
        expansion to all Guardsmen, access to information, training and 
        communications anytime, anywhere. This infrastructure should be 
        interoperable with state and federal agencies to the greatest 
        extent possible to assist with civil emergencies and WMD events 
        and serve as part of an integrated national domestic security 
        communications strategy.
  --Ensure the National Guard network and the DTTP program remain as 
        National Guard programs and under the operational control of 
        the National Guard Bureau.
  --Provide funding increases to the Army to expedite conversion of 
        Military Occupational Specialty (MOS) courseware into 
        distributed training format.
            Modernization of Regional/Sector Air Operations Centers
    Hawaii, Alaska, Florida, New York and Washington have aging 
Regional Air Operations Centers (RAOCs) whose command, control, 
computer and communications centers support air sovereignty and air 
defense of United States. The air sovereignty/defense mission continues 
to be of importance today and in the future. Currently there is no 
modernization program for any Regional/Sector Air Operations Centers 
(R/SAOC).
    The R/SAOC system was designed for approximately a 20-year life 
span (1983-2003). These Command and Control C\2\ computers are 1970s-
vintage C\2\ computers and are maintenance intensive and lag in 
technology (COTS replacement estimate unknown). The present R/SAOC 
computer system also lacks the needed capabilities for Joint Tactical 
Information Distribution System (JTIDS)/Link 16 technologies to 
communicate with other C\2\ platforms and Link 16 capable Air National 
G F-15s.
    The NGAUS urges Congress to authorize and appropriate funding to 
modernize regional/sector air operations R/SAOC for replacement and 
upgrade of the C\2\ and Link 16 joint tactical information distribution 
(JTIDS) systems; and procure an interim system to ensure mission 
accomplishment.
            Aircraft Rescue And Fire Fighting Vehicles For the Air 
                    National Guard
    The United States Air National Guard has more than 230 Aircraft 
Rescue and Fire Fighting Vehicles (ARFF), which range in age from 1 to 
11 years more than their expected life of 12 years. In order to begin 
replacement of these overage trucks; additional funding is required in 
the Department of Defense Budget. To further substantiate the need for 
these vehicles, in all cases they are the primary support vehicles for 
the civilian airports on which they are stationed.
    The ANG must also have the latest ARFF vehicles in the Air Force 
inventory for operational and maintenance training of the 1,814 
Traditional Guard Fire Fighters to meet wartime readiness requirements. 
Any loss of assets from the aging, outdated vehicle fleet by the ANG 
could lead to serious reductions in critical fire fighting and rescue 
capabilities for both the military air crews and civilian aircraft they 
serve as well as significantly degrade the contingency and wartime 
readiness of United States ANG fire fighters.
    The NGAUS urges the Congress of the United States to authorize and 
appropriate funding for replacement of Aircraft Rescue & Fire Fighting 
Equipment (P-19 Fire Trucks) for the Air National Guard.
            Views from the National Guard Commander, and his soldiers, 
                    on the ground performing duties after the attack on 
                    the World Trade Center
    Recently I had the pleasure of talking with Major General George C. 
Garrett, the Commanding General of the 42nd Infantry Division of the 
New York ARNG. He and his soldiers have identified critical areas where 
attention is needed to preempt future challenges that relate to arming, 
equipping, feeding, clothing, and sheltering our soldiers and airmen. 
Their comments included the need for:
  --Man portable power devices and tactical generators to charge cell 
        phones, light sets and radios;
  --Alternative fuel vehicles need to be given consideration as diesel 
        & gas are targets and can cripple mobility;
  --Electronic tracking tags on issued equipment to maintain 
        accountability;
  --Inclement weather gear--while many soldiers purchased inclement 
        cold weather gear not yet issued, a great many more were unable 
        pay out of pocket to procure this same necessary gear;
  --A mechanism for immediate fund site for personal clothing needs to 
        be available;
  --The National Guard needs to be provided with 9 mm service pistols, 
        adequate training and ammunition, to support homeland security 
        missions; and
  --Many soldiers were forced to sleep in corners of the Lexington 
        Avenue armory. This armory was in use as a rallying point for 
        victims and their families, while it also serves as a shelter 
        for the homeless. Many soldiers were afforded quarters aboard 
        on of a Navy hospital ship.
    On a side note, MG Garrett wanted me to express his thanks and 
gratitude from the 42nd Infantry Division to the first responders with 
whom they worked and continue to work.
Conclusion
    On behalf of the National Guard and our soldiers and airmen, I 
thank the committee for allowing me the opportunity to express those 
areas that need to be addressed to improve our ability to support the 
firefighters, EMS, police and other first responders. The National 
Guard will continue to work side-by-side with state and local and 
federal authorities in time of need. Our relationships are strong, 
primarily because of our permanent community ties. However, there are 
many enhancements that can be emplaced to better allow the National 
Guard to remain dual missioned as the first military responder and as 
the main combat reserve to the warfighting mission.
       Biographical Sketch of Major General Richard C. Alexander
    Major General Richard C. Alexander was appointed the Executive 
Director of the National Guard Association of the United States in 
January 1999.
    Until his retirement on 31 December 1998, General Alexander served 
as the Adjutant General of Ohio. His responsibility as the Adjutant 
General was the military preparedness of the Ohio Militia. The 
organized militia consists of the Ohio Army National Guard, Ohio Air 
National Guard, Ohio Military Reserve, and Ohio Naval Militia, totaling 
over 18,000 militia personnel. General Alexander supervised four flag 
officer heads of these components and one deputy director in the day-
to-day operation and management of the fiscal, personnel, equipment, 
and real property resources of these militia organizations and state 
agencies.
    General Alexander was born June 26, 1935, in Cleveland, Ohio. He 
enlisted in the Marine Corps in 1954, and was honorably discharged in 
the rank of Sergeant in December 1958, with a concurrent assignment to 
the Marine Corps Reserve. He then enlisted in the Ohio Army National 
Guard on June 30, 1960, in Battery C, 1st Missile Battalion (Nike-
Hercules), 137th Artillery. With an honorable discharge on May 5, 1965, 
and he entered the National Guard State Officer Candidate School on May 
6, 1965.
    From May 1965 to July 1971, he served as a Platoon Leader and 
Battery Commander, Battery C, 1st Missile Battalion, 137th Artillery. 
In July 1971 to September 1973, he worked as the Program Analysis 
Officer and Assistant Finance and Accounting Officer at Headquarters 
Ohio ARNG.
    In September 1973 to October 1977, General Alexander was the Race 
Relations/Equal Employment Officer at Headquarters Ohio. Starting in 
October 1977 through July 1979, he went to the Ohio Military Academy as 
Operations and Training Officer and Director of Instruction. Leaving 
the Military Academy, he became the Deputy Brigade Commander and 
Topographic Engineer, 16th Engineer Brigade until July 1984.
    General Alexander graduated from the U.S. Army War College, 
Corresponding Studies Course in 1983. In 1986, he received his 
Bachelor's degree in Business Administration from Franklin University, 
Columbus, Ohio.
    As Director of Personnel and Administration, at Headquarters, he 
then became Chief of Staff, State Area Command, Ohio ARNG where he 
stayed until he was promoted to Adjutant General in December 1987. He 
served as Adjutant General until 31 December 1998.
    General Alexander was elected President of NGAUS, in September 
1996.

    NATIONAL GUARD ASSOCIATION OF THE UNITED STATES HOMELAND SECURITY
                            REQUIREMENTS LIST
------------------------------------------------------------------------
         Item Description            Quantity    Unit Cost     Request
------------------------------------------------------------------------
Army National Guard:
    H-60L Blackhawks.............            5       $10.4M         $52M
    SINGARS......................        8,800       11-18K        97.2M
    HMMWVs.......................          500        33.0K        38.5M
    ECWCS........................       48,000          250          12M
    M-Gator......................          200        15.5K         3.1M
    Tactical Quiet Generators....          186        32.0K         6.0M
Air National Guard:
    AIFF.........................          126         231K        29.2M
    Targeting Pods (ATP).........           96         1.5M         144M
    VHF/UHF Radios...............          126          71K           9M
    P-19 Fire Trucks.............           10         450K         4.5M
    ECWCS........................       16,000          250           4M
------------------------------------------------------------------------

    Chairman Byrd. Thank you, General Alexander.
    Mr. Gary Cox, director of the Tulsa, Oklahoma, City-County 
Health Department, representing today the National Association 
of County and City Health Officials. Mr. Cox.
STATEMENT OF GARY COX, DIRECTOR, TULSA, OKLAHOMA, CITY-
            COUNTY HEALTH DEPARTMENT, REPRESENTING THE 
            NATIONAL ASSOCIATION OF COUNTY AND CITY 
            HEALTH OFFICIALS
    Mr. Cox. Good morning, Mr. Chairman, and thank you, members 
of the committee. We have made much progress in preparing for 
bioterrorism, as a Nation, and other public health emergencies, 
but much work remains to be done. The Nation is not fully 
prepared to respond to or detect an act of bioterrorism and has 
a long way to go in becoming fully prepared.
    Mr. Chairman, we do appreciate your leadership in 
appropriating substantial new funds to build local and State 
public health capacities. It is very much appreciated and 
needed. Even though it has been 7 months since the tragic 
events of September 11, bioterrorism preparedness funds have 
not yet reached the local level. Most localities do not know 
how much funding to expect, and the sooner that localities have 
access to these funds, the sooner that we can begin making 
progress towards protecting our Nation. Without new funds or 
staff, we cannot expand our capacities to meet new threats.
    Bioterrorism preparedness funding must be adequate and 
sustained. 2002 funding was a down payment for a task that will 
take many years. At a bare minimum, we need $940 million for 
2003 and clear assurance that a large proportion will be used 
at a local level, as you have intended. The Federal Government 
must monitor funding carefully and insist that most of it 
reaches the local level, otherwise we will not be improving our 
ability to respond. The Office of Homeland Security has not yet 
reached out to local public health agencies. That office we 
hope will assure coordination at Federal, State, and local 
levels for emergency preparedness.
    Although we must coordinate our efforts with Federal and 
State governments, most public health preparedness is local. 
Bioterrorism is unlike any other form of terrorism. Unlike a 
bomb, a plane crash, or a chemical release, we may not even 
know anything bad has happened for a few days or weeks. That is 
why we must update our public health systems to enable us to 
detect and respond to an epidemic, whether it be intentionally 
caused as a result of a bioterrorist act, or naturally 
occurring. This is what we feel that we need to do:
    We must expand our public health capacity to detect and 
quickly respond, investigate, and contain communicable disease. 
Time is of the essence in these instances.
    We must hire and train epidemiologists, infectious disease 
nurses, environmental first responders, information technology 
specialists, and those who are trained to effectively 
communicate and educate the public.
    We must make, update, and exercise our preparedness plans, 
emphasizing exercise.
    We must develop and refine new and sophisticated disease 
surveillance systems. This will give us a first indication that 
something is going on in the community.
    Mr. Chairman, we are in a new and exciting era for public 
health, and we appreciate the work that you and your committee 
have done, and we vow to work hand-in-hand with you and your 
colleagues towards this end.
    Thank you, and we would be happy to answer any questions.
    [The statement follows:]
                   Prepared Statement of Gary Cox, JD
    Good morning, Mr. Chairman and Members of the Committee. I am Gary 
Cox, JD, director of the Tulsa City-County Department of Health in 
Oklahoma. I am honored to appear before you representing the National 
Association of County and City Health Officials (NACCHO). NACCHO is the 
organization representing the almost 3,000 local public health 
departments in the country. I have been actively engaged in 
bioterrorism and emergency preparedness planning in Tulsa and am highly 
familiar with national work to develop guidance in bioterrorism 
preparedness for local public health systems. I am here today to tell 
you about some of the lessons we have learned in our work and how much 
farther we need to go.
    As a nation, are we prepared for bioterrorism? Not nearly enough. 
Local public health departments have long experience in responding to 
infectious disease outbreaks and other local emergencies with public 
health implications. We have made progress and learned important 
lessons about the challenges of bioterrorism preparedness in the last 
few years. But we have a very long way to go to achieve nationally the 
capacities we need to detect and respond to acts of bioterrorism as 
quickly as possible, to prevent the spread of disease, and to save 
lives.
    The nation's public health system, and particularly its local 
agencies, will be the first responders to a bioterrorism event. Every 
community needs public health first responders who are well staffed, 
well trained, and well equipped. Without them, a small outbreak of an 
infectious disease could turn rapidly into a deadly epidemic. The 
nation needs a vast sustained effort to enable localities to achieve 
optimum readiness.

 FEDERAL SUPPORT FOR LOCAL BIOTERRORISM PREPAREDNESS: WHAT LOCALITIES 
                                  NEED
    Mr. Chairman, under your leadership Congress provided new fiscal 
year 2002 funding for upgrading state and local public health 
capacities. At this point in time, funds have not yet reached local 
public health agencies and most do not know yet how much they will 
receive from the state, and for what purposes. For that reason, they 
have not yet been able to hire or train new staff for bioterrorism 
preparedness. It has been seven months since the tragedies of September 
11. The sooner that new funds reach the local level, the sooner local 
public health agencies and their community partners can begin making 
real, measurable progress.
    NACCHO has two overriding concerns about federal bioterrorism 
preparedness funding. The first is that funding must be adequate, 
lasting and reliable to enable local public health agencies to build 
and sustain permanent improvements in their ability to protect their 
communities 24 hours a day, seven days a week. Most communities do not 
now have this level of protection. This cannot be achieved in a matter 
of months. It is a complex undertaking that requires building 
cooperation and communication not just among traditional public 
agencies that are accustomed to being first responders, such as local 
fire, police and emergency management, but also with private health 
care providers. Because of the complexity of the task, it will take 
years to develop sophisticated disease surveillance and response 
systems and staff them with well-trained people. The funding that is 
available for this fiscal year represents a down payment on a process 
of rebuilding that will take many years.
    Continuation in fiscal year 2003 of this year's $940 million for 
upgrading state and local public health capacities is a bare minimum 
requirement for continuing this large, multi-year task. We have 
estimated that localities need 10,000 to 15,000 new people to work in 
public health preparedness. In many places it will take more than one 
year to locate and train qualified people to achieve those staffing 
levels. We need to start now. We need to provide assurances that 
funding will be both sufficient and sustained, so that state and local 
public health agencies, some of which are experiencing hiring freezes 
due to funding shortfalls, can move forward swiftly. Some are already 
borrowing from other operating funds or reserves, diverting public 
health resources from other important ongoing work to prevent disease 
and protect their communities.
    Even when the nation's localities have achieved a satisfactory 
level of preparedness, continued federal assistance will be essential. 
Our response plans must be continually refined and exercised, people 
must be continually trained and re-trained, and sophisticated disease 
surveillance and information systems will require systematic updating.
    Our second concern is that federal funds be used to develop 
capacities where they are needed. In some areas of bioterrorism 
preparedness, localities look to states to provide the facilities and 
expertise. Public health laboratories are a good example of where 
technical expertise should be centralized at the state level. In most 
respects, however, bioterrorism preparedness is local and the funding 
emphasis should be at the local level. NACCHO is monitoring 
implementation of the fiscal year 2002 funding carefully to determine 
whether states will in fact be using adequate portions of these funds 
to build local public health capacity for responding to public health 
emergencies.
    Thus far, the experience of local public health agencies in the 
states has been mixed. Many are involved to a greater degree than ever 
before in their states' planning on how to use the funds. Some others, 
however, are greatly concerned that their communities may benefit very 
little because the states have not been including them in a meaningful 
fashion. We believe it is critically important that the federal 
government monitor carefully the uses of these funds, measure their 
impact at the state and local levels over time, and insist that states 
document that funds are being used to enable localities to build local 
public health capacities.
    Coordination of public health preparedness activities undertaken by 
the Department of Health and Human Services and its state and local 
partners with other federal emergency preparedness programs, such as 
those administered by FEMA and the Department of Justice, remains 
another critical need. We believe that the White House Office of 
Homeland Security could play an important role in assuring that the 
differing missions of these agencies are well-understood by all parties 
at the state and local levels and that their funding streams enhance 
each other. We have a particular concern about the potential 
expenditure by states or localities of public health preparedness funds 
on other emergency needs, such as field detection equipment or personal 
protective equipment, that have been and should be covered by other 
programs. We would discourage expenditure of the more limited public 
health funds for such purposes, unless other funds are clearly not 
available.
    We believe it is essential to require states and localities to 
coordinate activities for public health preparedness funded under the 
guidance of the Centers for Disease Control and Prevention (CDC) with 
the Metropolitan Medical Response System and with funds for hospital 
preparedness. This is a critical ingredient for local preparedness. 
Medical emergency response planning should never take place independent 
of the broader public health approach, which incorporates a community-
wide view of a preparedness system. Likewise, hospital preparedness 
planning is an integral aspect of community-wide bioterrorism 
preparedness planning. For instance, all acute care hospitals should be 
enabled to participate in disease surveillance activities in 
collaboration with public health agencies. However, it is probably not 
necessary for all hospitals to have the same highly specialized 
facilities for isolation should an epidemic occur. Hospitals and public 
health agencies must collaborate to make practical plans that will work 
for their own communities.

     LOCAL PUBLIC HEALTH AGENCIES: FIRST RESPONDERS TO BIOTERRORISM
    An event of bioterrorism will be fundamentally different from other 
terrorist acts that we have witnessed and for which we are preparing. 
The reason is that, unlike an airplane crash, a bomb or a chemical 
release, we may not even know that anything bad has happened for many 
days, until an outbreak of disease begins to build and becomes 
apparent. Our first line of defense, therefore, is to build public 
health systems that will provide early detection and diagnosis. Only 
when we know that an event is occurring can we mobilize a response.
    Local public health agencies are the first responders when an act 
of bioterrorism occurs. We witnessed this firsthand in Palm Beach 
County, Florida, where anthrax was first recognized in October 2001. 
The case of anthrax was recognized only because there was a preexisting 
relationship between an astute physician who noticed unusual symptoms 
and the local public health director. The local public health director 
knew when and how to call on specialized state and federal public 
health resources to confirm a diagnosis and did all the on-site 
investigation and organizing to contain the outbreak.
    Bioterrorism preparedness is, therefore, a complex and challenging 
task. It is not a matter of taking a plan or set of specifications off 
the shelf. The act of planning itself brings together people from 
public health, emergency response, law enforcement, local hospitals and 
physicians, to work out a plan that suits their own circumstances and 
needs. Many times these parties have never before worked together. The 
act of planning establishes the lines of communication that we have 
seen to be so critical since September 11, and it identifies what 
capacities and resources are missing. We are just at the beginning.
    The capacities that every community needs to be prepared include 
many elements of public health infrastructure that the nation has 
neglected for many years. Every community needs new staff, new 
training, new kinds of community-wide planning that have never before 
taken place, improved systems for disease surveillance, rapid access to 
public health laboratories, and better systems for communication and 
data management.
    Mr. Chairman, we have appreciated your keen understanding that, as 
we invest in public health infrastructure, we are not just preparing 
for bioterrorism. Investment in public health for bioterrorism 
preparedness will yield multiple benefits. It will improve our 
abilities to address other public health problems and emergencies, 
including floods, disasters, and naturally occurring outbreaks of 
infectious disease more effectively. Every dollar we spend on 
bioterrorism preparedness will pay off in countless other ways to 
maintain and improve the nation's health and safety.

                LESSONS LEARNED ABOUT LOCAL PREPAREDNESS
    Since the events of September 11 and the subsequent anthrax 
outbreak, we in local public health have learned some unexpected 
lessons. For instance, Internet-based information systems became widely 
unavailable on September 11 and many local health departments could not 
access email for hours to receive health alerts from CDC or their 
states. The lesson is that a wireless, handheld communication capacity 
is one important emergency tool for public health. A lesson learned 
during the anthrax outbreak is that an important first step for many 
jurisdictions is to set up a 24-hour hotline to receive reports and 
dispense accurate information. Unlike fire and police, few local health 
departments have staff availability 24/7, nor do they have a pre-
arranged means to access a new telephone line immediately for a 
hotline.
    Responding to a new public health threat consumes all available 
resources and then some. In Tulsa, we have borrowed over $200,000 from 
our operating reserves to rebuild our fundamental capacity to detect 
and respond to a bioterrorism threat. A third lesson, therefore, is 
that unless emergency capacities and crossing-training of staff are 
built in to the staffing structure of a department, the more routine, 
non-emergent work of public health quickly becomes neglected when an 
emergent threat occurs. Meeting these newly-recognized needs requires 
more funds and more people. There is no getting around that.
    Attached to this statement is a description of an innovative system 
in Tulsa for early disease detection and an upcoming statewide exercise 
to assist us in bioterrorism preparedness planning. These examples 
illustrate concretely the capabilities and activities that all 
communities deserve, but few can afford.
    Mr. Chairman, NACCHO believes that we are on the cusp of a new era 
for public health, as society has recognized its role in public safety. 
We will do our best to work with you and your colleagues to make sure 
that public health protection for every community becomes a sustainable 
reality.

                                Appendix

         LOCAL DISEASE SURVEILLANCE--THE FIRST LINE OF DEFENSE
    Current, practical experience in Oklahoma illustrates the magnitude 
of the task ahead in building local disease detection systems, an 
integral aspect of bioterrorism preparedness in every community. At the 
Tulsa Health Department, we have developed a syndromic surveillance 
system to detect infectious disease caused by an intentional 
bioterrorism attack as well as naturally occurring infectious disease. 
We are working with hospitals, pharmacies, schools, private physicians 
and others to get ``real time'' information about a biological event 
that could be taking place in our community. Our system is called 
TASSS, the Tulsa Area Syndromic Surveillance System. The goal of the 
system is early detection of a population-wide increase in illness that 
might be caused by the intentional release of a biologic agent.
    Recognizing diseases occurring in individuals is the role of health 
care professionals through clinical diagnosis of distinct medical 
characteristics and laboratory diagnosis. However, recognition of 
patterns of disease, of outbreaks that could become epidemics, is a 
public health issue that requires a strong local public health system. 
Syndromic surveillance at the Tulsa Health Department has been 
implemented through a partnership with area hospitals to make early 
observations of clinical symptoms from emergency room records. Each 
patient presents to the emergency room (ER) with a chief complaint as 
his or her reason for seeking medical care. The TASSS is an electronic 
file transfer of these chief complaints, utilizing a computer program 
model to sort them into categories (cough, fever, rash, vomit, 
diarrhea, respiratory, asthma, other.) The first indication of a large-
scale biological attack could be detected in these non-specific 
symptoms.
    Importantly, the surveillance system is not designed to detect 
advanced illness. It is expected that such cases would be identified 
and reported via existing surveillance systems (including an astute 
clinician). An increase in early signs of illness might occur 24-48 
hours prior to presentation and diagnosis of the first severe cases. 
The central objective of this type of disease surveillance, called 
``prodromal surveillance,'' is to alert the medical and public health 
community to the possibility that a significant outbreak is occurring 
before large numbers of patients present with advanced disease.
    Currently, the data transfer from the ER is completed when one of 
our epidemiology staff downloads the ER data, archives it, and runs it 
through a computer model. Reports are generated for each category of 
syndrome, which are then evaluated for their statistical significance. 
If there is an increase in a particular syndrome, the system sends a 
mathematical alarm. This surveillance process requires one full-time 
employee seven days a week. Whenever the data trigger an alarm, an 
additional staff epidemiologist is required to assist in evaluating the 
significance of the alarm.
    We are proud to be in the forefront, but we could do more in Tulsa, 
also. The potential exists for adding additional surveillance sites 
such as schools and major employers. With additional resources, the 
surveillance system could be tailored for addressing population changes 
in the community. It could examine trends in clustering of syndromes 
that may indicate emerging disease, flu, waterborne outbreaks, food 
borne outbreaks, and asthma as related to air quality. Observing these 
trends takes time and diligence. Additional resources would provide the 
capacity to increase this type of community surveillance.
    In Tulsa, we have already expanded our capacity to quickly detect, 
track, investigate, and contain infectious disease. Very few 
jurisdictions in the country have surveillance systems that are this 
sophisticated. Every community should be protected by similar 
capabilities, and this will take more resources, more trained staff, 
and more time, even if we were able to start today.

           SOONER SPRING--PREPARING FOR SMALLPOX IN OKLAHOMA
    In Tulsa, we will have the opportunity on April 12th and 13th to 
test and exercise our expanded capacities in a simulated bioterrorism 
event called ``Sooner Spring''. This will build upon last year's 
national ``Dark Winter'' exercise that taught the nation so many 
lessons about its ill-preparedness for bioterrorism. On April 12 there 
will be a tabletop exercise in Governor Frank Keating's office that 
will simulate a smallpox bioterrorism attack in Tulsa. The 13th will be 
a field exercise in Tulsa simulating a smallpox attack. Two other 
Oklahoma cities will exercise simulated attacks by two other biological 
agents. This bioterrorism exercise will give Oklahoma State and local 
community leaders and public health officials an opportunity to review 
key planning elements for dealing with bioterrorism within the state.
    In Tulsa, the exercise will focus on an intentionally introduced 
outbreak of smallpox and will focus on the organizational 
collaborations necessary to coordinate basic public health and medical 
responses to any disaster or act of terrorism. Our Emergency Operations 
Center and Metropolitan Medical Response System will be activated. 
Police, fire, emergency medical transport, public health personnel, 
hospitals, private physician societies, military, sheriff, elected 
officials, volunteers and others will participate.
    Just as officials test storm sirens to make sure their community 
can alert citizens during severe weather events, these bioterrorism 
exercises will help make sure the community is prepared for a potential 
bioterrorist attack. The federal Centers for Disease Control and 
Prevention will send a team of advisors to Oklahoma to provide 
assistance. In addition, the Tulsa Health Department will conduct a 
mock vaccination clinic. These exercises will be of utmost benefit as 
we determine what works and what can be improved. Identifying the key 
players in the community and their functions in the event of a 
terrorist attack, as well as learning how to collaborate with them to 
perform effectively, will help officials determine how best to keep 
diseases from spreading, ensure effective medical treatment and inform 
the public.
    The basic cost to the Tulsa Health Department for preparing for 
this exercise will exceed $30,000. This does not include costs incurred 
by other state and local governments or private agencies. This is 
another example of the substantial new costs facing public health 
agencies and communities to prepare for bioterrorism.
                    Biographical Sketch of Gary Cox
    Gary Cox has directed the Tulsa City-County Health Department for 
eight years. He has worked in that agency for 22 years, including 7 
years serving as Legal Counsel. The Department serves a population of 
570,000 in Tulsa, Oklahoma and the surrounding metropolitan area. He 
serves as a member of the Board of the National Association of County 
and City Health Officials (NACCHO). The Department has gained national 
recognition for excellence under his leadership, developing innovative 
programs with community partners and pioneering a syndromic 
surveillance system for infectious diseases. Mr. Cox has been highly 
engaged in bioterrorism preparedness planning in Oklahoma. He is a key 
player in planning and training for an upcoming new bioterrorism 
exercise that expands last year's well-publicized ``Dark Winter'' 
exercise, which examined the consequences of a smallpox outbreak.
    Mr. Cox holds a B.A. degree from Northeastern State University in 
Oklahoma and a J.D. degree from the University of Tulsa School of Law, 
where he also served as an Adjunct Professor of Environmental Law for 
six years.

    Chairman Byrd. Thank you, Mr. Cox.

                 Questioning by Chairman Robert C. Byrd

    The committee will now begin its questions under a 7-minute 
time limitation. Senator Stevens has been here and will come 
back, and when he returns he will be recognized for questions. 
Let me begin.
    The administration's budget for fiscal year 2003 is 
proposing drastic cuts, on the order of 35 percent, in the 
Byrne grant program, the local law enforcement block grant, and 
the COPS program, from about $2.2 billion to $1.4 billion. In 
its stead, the budget proposes two new block grant programs to 
be funded by Justice and FEMA to deal with homeland security.
    Now, this seems to be an attempt to rob Peter to pay Paul. 
They are both good people, and we will not help both of them, 
but I am not sure that the right hand knows what the left hand 
is doing here. The needs of local law enforcement have not 
declined. Does this administration's proposal cause problems 
for local law enforcement, and what are the problems of the 
administration's approach that requires a 25-percent local 
match? Colonel Westphal.
    Colonel Westphal. Thank you, Mr. Chairman. The answer to 
your question is yes, it does create problems for local law 
enforcement. As I said in my testimony, at a time when there 
really are a lot more burdens on local law enforcement and 
trying to respond to some of the issues as a result of the 
terrorist attacks of September 11, our offices are working a 
lot more overtime, they are having to provide security at a lot 
more places than they did before, we see increased security at 
State buildings, at local government buildings, at dams and 
reservoirs, and so on and so forth, and at the same time this 
proposed budget is reducing the assistance from the Federal 
level by $750 million, and that is going to be a great burden 
on law enforcement.
    At a time when we should be increasing our assistance from 
the Federal level, we are seeing a reduction, so the response 
to your question is yes, it is very problematic for law 
enforcement throughout the United States.
    Chairman Byrd. Mr. Cox, a recent report released by Johns 
Hopkins University stated that it was imperative for the 
Federal Government to shut down the Nation's air travel within 
an hour of a diagnosed smallpox case in order to contain the 
outbreak. Do local health departments have the capacity to 
identify a smallpox outbreak in time to isolate the public's 
exposure?
    Mr. Cox. I think that varies, Mr. Chairman, across the 
country. I can share with you a local experience in Tulsa. We 
have recently developed a disease surveillance system----
    Chairman Byrd. Well, that will take quite a while, and we 
have the appendix concerning your Tulsa experiences in the 
record. Could you be more responsive to the question from the 
standpoint of the national official capacity?
    Mr. Cox. From a national capacity, that word would have to 
come from the emergency rooms and the private physicians to the 
local health departments, and that is going to be a varying 
response across the country. Some are going to pick it up 
quickly that it is a suspicious, or a suspected case, and 
others it could take longer before that is laboratorily 
confirmed, but time is of the essence, and I do think we need 
to build the capacity to more quickly detect any sort of a 
biological event that may be taking place in the community.
    Chairman Byrd. Colonel Westphal, last December, Congress 
approved a $212 million emergency supplemental for the 
Department of Justice to make grants to State and local 
governments for the purchase of the equipment that police 
departments could use for homeland defense programs. We wanted 
to make sure that local and State law enforcement personnel had 
an immediate infusion of resources to develop the capacity to 
respond to the events of September 11. Has any of that money 
made it to the local police departments yet?
    Colonel Westphal. Mr. Chairman, in the sense of brevity you 
have asked for, the answer to that question is no.
    Chairman Byrd. I understand that nearly 4 months after a 
supplemental was approved by Congress, the Department of 
Justice has not yet even put out a notice that States can apply 
for these funds. Do you know whether or not that is the case?
    Colonel Westphal. Mr. Chairman, as far as I am concerned, 
for my agency, that is the case. I have not seen a notice.
    Chairman Byrd. Senator Stevens.
    Senator Stevens. Mr. Chairman, in view of the fact I had a 
constituent in the back room I had to confer with, I would 
request you recognize the person on this side, my side who 
would be eligible. I think it would be Senator Gregg--no, 
Senator Campbell.
    Chairman Byrd. Senator Campbell.

             Questioning by Senator Ben Nighthorse Campbell

    Senator Campbell. Thank you, Mr. Chairman. Let me just ask 
one quick question to General Alexander. Maybe I was not 
listening carefully, but did you say the Guard needed radio 
capabilities for military planes to communicate to civilian 
planes? I thought they could already do that.
    General Alexander. No, they have certain restrictions in 
their ability to talk to airliners as a result of not having 
this VHF radio.
    Senator Campbell. I see, so it is not a frequency they can 
go to to have direct communication now?
    General Alexander. Not to my knowledge. They have to talk 
down to the ground and then back up again, which is time-
consuming.
    Senator Campbell. All right, thanks.
    Mr. Chairman, just recently during our break I did a series 
of town meetings. I am sure my colleagues did, too, as we all 
do during the congressional district periods. I was rather 
surprised to find out there is sort of a disconnect in a lot of 
our small towns, at least in the State of Colorado, and most of 
those people who came to the town meetings still seem to have 
not prioritized the war on terror above local priorities, and 
what I got mostly was people concerned about road construction, 
schools, jobs, and so on, and the only people that really 
seemed to be aware of it and concerned about it and wanted a 
dialogue about it were folks such as these at this table, law 
enforcement people, fire people, trauma people, some hospital 
people, but most of them were not, and I would like to ask the 
panel, how do we raise the awareness of the real danger without 
creating some kind of fear and panic?
    Yesterday, some of us heard from--former Prime Minister 
Netanyahu was here giving an update on the terrorism that 
Israel faces, and he said--and it is kind of chilling, 
actually. He said it is only a matter of time before American 
communities face the same suicide bombers that there are in 
Israel now, or related attacks, and I have to believe that he 
is probably right. Sooner or later we are going to, and it 
seems like the longer we get away from September 11, the more 
many people in communities are sort of--their interest or their 
excitement about it is subsiding, and it seems to me that when 
we deal with what the folks here at this panel are going to 
have to deal with, it is really not just a response to 
something that has happened, because that already gets people 
excited, but the prevention that they have to take to prevent 
it from happening in the first place, which is almost 
immeasurable.
    It is difficult to measure what does not happen, and I 
would just like, maybe a response from anybody who would like 
to, about how we make sure there is that awareness without 
creating any kind of undue fear.
    Mr. Stittleburg. If I may, first of all, the National 
Volunteer Fire Council just completed its spring meeting in 
Colorado last week, and one of our speakers was Suzanne Menzer, 
who I believe is with the Governor's Office of Public Safety 
there, and she talked about precisely this, and the efforts 
that are being made in Colorado to alert law enforcement and 
the fire service and EMS to the challenges that are there.
    How do we get the job done? I think you get it done exactly 
as you are doing it now. That is, you are holding the hearings, 
you are going to appropriate the money to get it to the people 
at the local level who are in a position to accomplish 
precisely what you need to be done. It is not going to happen 
from Washington. It is going to happen from the grassroots, and 
it is going to happen because you train us and equip us at the 
local level to solicit the local input and alert the populace 
as to what the risks are.
    Senator Campbell. Well, should fire departments and police 
departments do that in terms of, like, seminars to schools, or 
things of that nature, as they did during the wartime?
    Mr. Stittleburg. Sir, I think that is absolutely critical, 
and I think that is part of the President's first responder 
initiative program.
    Senator Campbell. I am also interested in transportation, 
because I am on the Transportation Appropriations Subcommittee, 
as several of my colleagues are here, and we do not have 
bridges, as you have in the States that have seaways, but we 
certainly have some long tunnels, and it seems to me when I was 
a boy of 9 or 10 years old during World War II--I refer to that 
again--that there were guards literally at every bridge and 
every tunnel in those days, and I was wondering what States are 
doing now. Someone on the panel did mention that they are 
taking some measures to guard facilities, but specifically, do 
we have people, State patrol or guardsmen, or anybody else, 
like in the Holland Tunnel in New York, or the Eisenhower 
Tunnel in Colorado, or some of the bridges that go across our 
major waterways?
    Mr. Von Essen. In New York City, to answer your question, 
there are guards and National Guard is still helping us, and 
police officers on both ends of the tunnels, and they are in 
the process of expanding the electronic surveillance inside the 
tunnel.
    Senator Campbell. Colonel Westphal.
    Colonel Westphal. In Colorado, Senator, first of all I 
would like to agree completely with your observation in your 
town meetings, that it is very difficult to get the attention 
of the general public about the particular problem of 
terrorism, and immediately after September 11 there was a lot 
of response in trying to guard the reservoirs and the dams and 
the Eisenhower Tunnel in particular, and what we call targets 
of opportunity, in trying to harden some of those targets, 
including our State buildings, in the State capitol, but as 
time has gone on, your observation is exactly correct, that the 
people's perception of the danger of terrorism has waned 
tremendously, even to the point where we are now being asked by 
our own legislatures in Colorado to take the security out of 
the State capitol and open it up again, because they somehow 
feel that the threat is already over, and I am not exactly sure 
what the approach is, without creating the general panic with 
the public, in trying to educate them that this is an ongoing 
problem, and that we need to be ever-alert, so I think town 
meetings and things like that are certainly necessary, but as 
you say, you do not want to alarm everyone, but it is a 
problem. As time goes on, nobody believes that this is a 
concern any longer.
    Senator Campbell. Well, hopefully they will not have their 
interest rekindled by a bomb in the capitol of Colorado.
    One last question, too, Mr. Chairman. That is, whenever we 
start the flow of money from Washington, there is always that 
question about whether it should go to the States and be 
filtered through to the local communities and the local hazmat 
teams and departments, or should there be a direct funding? 
Would it be more streamlined and more effective to tailor the 
response to the communities, rather than have some kind of 
filter-through program from the State? Does anybody have a 
feeling on whether it should be through the State system of 
funding, or directly to the Departments?
    Mr. Crouse. Senator, Mike Crouse from the firefighters. We 
have experienced problems with the programs going through the 
State and when the funds get there, not getting to the local 
level, and we would prefer to see some mechanisms of process in 
place where the funds go directly to the local affiliate, so 
that they can put those funds directly to their needs and uses.
    Senator Campbell. Well, in our State we have 80 percent of 
the population in just one central area around metropolitan 
Denver, and I know in some cases I have heard from people in 
the small communities that the large metro areas--that is where 
the State capitol is, and they pretty much soak up all the 
money, and some of it does not even get to the small 
communities.
    Thank you for your testimony. Thank you, Mr. Chairman.
    Chairman Byrd. Mr. Kohl.

                    Questioning by Senator Herb Kohl

    Senator Kohl. I thank you very much, Mr. Chairman, and we 
thank you all for being here today, gentlemen.
    Mr. Stittleburg, we respect the work that you have done as 
a volunteer firefighter for the past 30 years, as well as the 
work that you do as chairman of the National Volunteer Fire 
Council, are you concerned that the new first responder 
initiative, instead of the assistance to firefighters grant 
program, will not provide you with the type of support that you 
need, and are you concerned that not all of the funding will 
get to where it is most needed?
    Mr. Stittleburg. Senator, I am most deeply concerned about 
exactly that. As I mentioned earlier, the Fire Act grant was 
absolutely the most efficient way to get the money from the 
Federal level to the departments that need it, directly. It was 
very efficient in terms of time, it was done quickly, it was 
done with practically no administrative cost involved, the 
analysis as to how the grants were awarded was performed by 
members of the fire service who understand the needs of the 
organization.
    To eliminate that program under the assumption that somehow 
the first responder initiative will supplant it, and replace it 
with a block grant program, is going to do a couple of things. 
One, it is going to add significant time and administrative 
cost to getting this done, and two, it is going to eliminate a 
lot of the money that went directly to local, rural fire 
departments. I simply cannot overemphasize to you, sir, the 
importance of funding that Fire Act at the $900 million level, 
and continuing it.
    The base, that minimum level of responsive ability we have 
to have at the local level still has not been achieved, and the 
best way to get there is the Fire Act.
    Senator Kohl. Okay. Mr. Stittleburg, as a volunteer 
firefighter from a rural area, would you comment on some of the 
needs of rural small towns and how these needs differ from 
major metropolitan areas?
    Mr. Stittleburg. Well, sir, the volunteer fire service 
nationwide struggles routinely with money. That is a primary 
and paramount struggle we have that is ongoing, and it 
continues to be more of a problem for us because it is a time 
demand. It is not just a money demand.
    Most volunteer fire departments are engaged in raising 
their funds. We go out and we sell raffle tickets, we fry 
pancakes, we do whatever it takes to raise the money to buy the 
equipment that allows us to provide the service to the public 
we protect. When the Government can provide us with the money 
to buy that equipment it literally buys us time, and that is 
what we need.
    Senator Kohl. Mr. Stittleburg, as you noted here today, far 
too many fire departments across our country lack even the most 
basic levels of firefighter training, a situation that 
potentially endangers the lives of firefighters and the people 
they protect. What can we do to ensure that our firefighters 
have the basic level of training they need, and where should we 
be directing Federal funds in the area of training? How can we 
best use Federal funds to meet the diverse training 
requirements of rural, suburban, and urban firefighters?
    Mr. Stittleburg. Senator, the training apparatus is in 
place. Training is being delivered to volunteer fire 
departments throughout the United States. I would not suggest 
to you that training funds should be designated primarily from 
the Federal Government to the local fire department, because 
they in turn then have to go elsewhere to secure that training.
    Every State has a State training program in place, and that 
is where the Federal money that is designated toward training 
is best spent.
    Senator Kohl. This question is for anybody, or all of you 
on the panel. The Justice Department's Inspector General 
reported just this past Monday that they failed to distribute 
more than $141 million in grants set aside for emergency 
equipment in response to the threat of terrorism. In some 
cases, even when the money was awarded, some States and local 
governments failed to spend it in a timely way, or failed to 
readily accept available equipment. The equipment was for 
police, fire departments, and emergency response teams. Can you 
comment on the problems that occur with these grants, and are 
there ways to ensure that the money and equipment gets to the 
people who need it in the most efficient manner?
    Mr. Stittleburg. Senator, at least as far as I am 
concerned--I am not familiar with the grant program you are 
talking about. I am sure there are lots of grants out there, 
and not all of us know about all of them, but I am not familiar 
with the ones that are being referred to.
    Colonel Westphal. Senator, if I might respond, there were a 
couple of problems with that program. One was that it required 
a plan be submitted, a complete plan be submitted prior to the 
time funds were allocated, which certainly slowed down the 
process, and part of the other problem was, when equipment was 
provided, there was nothing provided for training or use of the 
equipment, and sometimes the equipment, and sometimes the 
equipment sits around and is not used because nobody is trained 
how to use it, so those are a couple of the major problems with 
that program.
    Senator Kohl. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator Kohl. Senator Gregg.
    Senator Gregg. I believe Senator Stevens----
    Chairman Byrd. He gave up his time.

                   Questioning by Senator Judd Gregg

    Senator Gregg. I do not want to step in front of Senator 
Stevens--I appreciate it.
    First off, Mr. Von Essen, I appreciate your reminding us of 
the sacrifice of Chief Fanning. I had the honor of chairing the 
joint hearings that were held here when Chief Fanning 
testified, and remember rather vividly his testimony, which was 
superb. Of course his tragic death in the September 11 attacks 
reflected his commitment to his fellow citizenry, and the 
deaths, obviously, of so many of his colleagues is something we 
all continue to deal with.
    I am interested, however, to know how much of the funding 
that we have appropriated in the first trenche of supplemental 
funding, which I think was $20 billion, how much of it has 
actually made its way to the streets, in your opinion, relative 
to fire, police, and emergency managers?
    Mr. Von Essen. We have gotten so much help from so much 
equipment coming in from people that have produced it, sent it 
to us without getting paid, I am not even sure of the 
bookkeeping side of it, since I have been gone the last 3 
months, exactly how much has been received. I know that it is 
coming. I know that Mayor Bloomberg is I think reasonably happy 
with the progress. He has not been screaming about it, so I am 
sure he is okay with it.
    The fire department itself has been getting all the 
equipment and resources that it needs as far as counseling and 
everything, and if it is not in cold cash that has been 
received from the Government, it has been all on lay-away.
    Senator Gregg. I am glad to hear that.
    The administration's proposal included reorganizing the 
manner in which we provide the funding for the first 
responders. Obviously, they put a significant amount of money 
in here, $3.5 billion. Up until 9/11 these funds had been 
administered by the Office of Justice Programs' Office of 
Domestic Preparedness. Now the administration is suggesting 
that most of these dollars move over to FEMA and very little of 
it stay with Justice. I guess I would be interested in knowing 
how first responders feel about where they should be getting 
their money.
    I think Senator Mikulski defined this question. We want to 
make sure the money gets there and is most effectively used, 
and I would be interested in anyone's thoughts on which one of 
these agencies should have this responsibility.
    Mr. Crouse. Senator, if I may, Mike Crouse with the 
International Association of Fire Fighters. We would like to 
see FEMA be the lead agency for the terrorism part, and we 
would like to retain the Office of Domestic Preparedness in 
DOJ. Our experiences with them have demonstrated that it is a 
good program--it is not broke, do not fix it, and it seems to 
be working.
    Chairman Byrd. Would you speak a little louder, please?
    Mr. Crouse. I am sorry, sir.
    Chairman Byrd. Speak a little louder.
    Mr. Crouse. We would like to see FEMA be the lead agency 
for the terrorism part, and have DOJ continue as the lead on 
the Office of Domestic Preparedness. It has worked fine for us. 
We have not seen any problems with it.
    Senator Gregg. Does anybody else have any thoughts on this 
area?
    I am interested, General, in what your thoughts are 
relative to who the new CINC commander should be. If there is 
going to be a commander who is basically in charge of what is 
basically in charge of a domestic event, should it naturally be 
a National Guard person?
    General Alexander. We feel that this should be an active 
component four-star officer who has joint experiences. The role 
of the National Guard Bureau, if expanded, can fill that void 
in terms of communicating directly what is going on with the 
Governor's plan and our public safety forces by the 
mobilization and intervention of a CINC that would in fact 
mobilize the entire Guard across this country for that. 
However, there is a distinct advantage of having a deputy CINC 
commander that is a National Guard officer, a three-star, with 
joint experience.
    Senator Gregg. What is the progress, in your opinion, that 
the Guard is making in--now, there was a proposal at one point 
to set up regional Guard centers of excellence. These would be, 
basically, second responders, people who go in with a hazmat 
capability after the first responders have already come on the 
scene. Where do you see the Guard's role in that?
    General Alexander. Regional areas of excellence, I question 
their value. There is a high degree of cooperation that exists 
between the States and all public safety forces without a 
particular boundary. Regional areas of excellence are hard to 
make compatible with all of the other regions that are out 
there for interagency actions. No boundaries are the same. I 
would submit that the States and local governments within that 
State are extremely capable of creating levels of excellence 
based upon the expertise that is there, to include the Guard.
    Senator Gregg. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you, Senator. Senator Stevens, do you 
want to----

                   Questioning by Senator Ted Stevens

    Senator Stevens. If I may, yes. I apologize for having to 
leave during part of your testimony, gentlemen. We have got 
some other things working here that take time, too.
    General Alexander, tell me, have funds been made available 
to pay for the State activation of National Guard forces for 
homeland defense yet?
    General Alexander. Those funds are yet in total to be 
distributed. I understand there is a significant shortfall in 
the title 32 funding as it relates to the 7,000 more people 
that we had on active duty for airports. I know the result of 
that, moneys have been taking from existing training and 
operational accounts to pay that bill.
    Senator Stevens. Well, would you let Senator Inouye and I 
know about that? I think that is a Defense Subcommittee 
problem, but we ought to look into that, and for all of you, 
one of the problems we encountered right off was the problem of 
the interoperability of communications in terms of times of 
crisis. I am concerned about the amount of money that is 
necessary to bring that about. I think that is the first thing 
that ought to be done, to make sure that everyone can talk to 
one another, and I know, Mr. Cox, we have got this problem with 
airplanes. I am talking about the people on the ground who 
really cannot talk to one another right now, not that they do 
not have good equipment, and not that I think we ought to have 
one monopolistic outfit that provides everybody their 
equipment.
    I just think we ought to make certain that it is 
interoperable, and we can communicate between firemen from 
different States, and National Guardsmen from different States. 
As I understand it, much of this equipment is not 
interoperable, and we need to know how much funding would be 
necessary to meet this first goal for first responders. How 
much would it cost to assure that we had systems that were 
totally functional and interoperable? Can anybody tell me any 
steps that have been taken so far to meet that need?
    Colonel Westphal. Senator, I might respond from one 
person's perspective. There are many States that have tried to 
do statewide systems and do digital trunk systems so they would 
tie together, so that everybody would be interoperable, be it 
the fire service, or law enforcement, or anybody else. The 
problem has been that usually at the State level they fund 
these things, but for the local agencies, the smaller agencies, 
they are unable to acquire the radios necessary to do the 
interoperable operation, and I am sure that is probably true in 
the fire service. Some of the smaller fire services really talk 
about having to do fundraising just to do their training and 
buy their equipment. It would be the same situation.
    So from the IACP's point of view, we would certainly be 
supportive of trying to help some of these smaller localities, 
local law enforcement, local fire service and so on, buy some 
of this equipment to be interoperable.
    Senator Stevens. Senator Hollings here, he is chairman of 
the committee that deals with spectrum management. As I 
understand it, part of the problem is spectrum allocation, but 
secondly, the problem is that you could have perfectly fine 
intrastate communications in your State, but if your people 
went across the border, three States east, west, north, and 
south of you, you might not be able to communicate with them. 
There is a regional problem here as well as statewide, regional 
and then national. I would like to make that the number 1 goal, 
to see that everybody can communicate on a total basis, and we 
would appreciate it if somebody in the task force would attack 
that and tell us what kind of funding would be required to meet 
that goal.
    The last subject that I want to raise and I raised it 
yesterday, and I do not want to be offensive to anybody, but I 
have talked to some of the National Guard people at the 
airports up my way. There is no such thing as overtime. Some of 
them worked at their normal jobs and are being National 
Guardsmen on weekends and evenings, and there is no such thing 
as overtime. We are running into an overtime situation, and I 
do not know where to draw the line on what is an area which 
really should call for volunteers, and where it is legitimate 
that we say a person has been required to work and therefore 
has to have overtime.
    Have any of you addressed that problem, and is it 
something--I am going back to the days I knew in World War II. 
I do not remember anyone asking to be paid. The neighborhood 
watch that we had, we had watch on the beach up and down 
California, and as I said yesterday, the Alaska Eskimo Scouts 
provided 100 percent coverage to half of the coastline in the 
United States for 4 years and was never compensated at all, and 
now we have an absolute demand for more money for people to 
take action to protect themselves. Where is the volunteer side 
of this operation that you all are involved in?
    Is that too bad a question? I do not want to be negative, 
but it seems to me that each of your agencies should have a 
whole series of volunteers, people who will fill in when a 
crisis comes. Is that fair?
    Mr. Stittleburg. Senator, certainly the 800,000 volunteer 
firefighters in the United States do precisely that, volunteer. 
Your question about overtime is an interesting one, because one 
would not expect that to arise with the volunteer fire service, 
but indeed it does in many situations where volunteer 
firefighters who are also employees of the municipality where 
they live, and the Fair Labor Standards Act frequently 
requires, if those volunteers are responding to fires while 
they are on the municipal clock, that they also be paid 
overtime if also they work 40 hours at their regular job 
assignment.
    So I would simply suggest to you, sir, that as far as the 
volunteer fire service is concerned, our services are estimated 
at saving the taxpayers in excess of $60 billion a year, yet 
overtime is even a factor with us.
    Senator Stevens. Mr. Cox.
    Mr. Cox. Senator Stevens, in the public health arena there 
are established linkages between public health and the private 
medical community, particularly with planning and so on for a 
public health emergency. Certainly these need to be stronger, 
and the funding that you are talking about certainly could be 
used to make those stronger, but the linkages are available 
where the private medical community does volunteer in case of 
an emergency.
    Senator Stevens. I do not like to pursue it too much, Mr. 
Chairman, but there is an inequity here, you know. On any one 
of these jobs, take 9/11, there are people working out there 
all working on the same task, some of them are paid full-time, 
some of them are being paid overtime, some of them not being 
paid at all, and I really think that there ought to be a 
standard there.
    Maybe we should provide per diem for the people who are 
really volunteers but are involved in a real crisis, because 
all the time the volunteers spend getting trained, people 
working for an entity such as yours, when they are getting 
trained, they are getting paid. Even if they have to work 
overtime, they still get paid. It is overtime pay.
    There is not a level standard there, and it is a new world, 
those of us who came through World War II, because I just knew 
an enormous number of people who worked 8, 10 hours a day, and 
then came back at night, worked 3 or 4 hours, so they might 
work 3 or 4 hours in the morning and work swing shift and work 
all night.
    I do not see that now. I do not see the public being aware 
of the crisis that is ahead of us, and you are absolutely 
right, it is just a matter of time until we face the suicide 
bomber, and I do not care whether it is the subway, in a train 
station, or in a crowd waiting to get into a mall. They are out 
there, and I do not think we are prepared for it at all. I do 
not know, Mr. Chairman, how to get that degree of awareness 
that we need to assure that there will be volunteers to help, 
that they are trained, and that they fit in with your people 
who have the daily job of trying to protect the country.
    Enough said, and thank you very much.
    Chairman Byrd. Senator Stevens, you raise a good question 
and made some good points. I heard one of the witnesses earlier 
say that the interest of the general public is waning. If the 
general public interest is waning, you are not going to get 
volunteers. Getting volunteers depends upon the interest of the 
public, the concerns and the perceptions of the public.
    Senator Hollings, you are next.

                Statement of Senator Ernest F. Hollings

    Senator Hollings. Mr. Chairman, right to the point. It is 
us up here who are waning, not the people. What happens is, on 
9/11 we had the best of responses. We are lucky, the firemen 
did a magnificent job, law enforcement, National Guard moved 
in, the ports authority, we are very, very lucky.
    Incidentally, on that morning I was briefing the leadership 
on the Senate side about counterterrorism, and the program that 
we had in the Department of Justice field. The reason I mention 
that is because we have had for 4 years now an ongoing program, 
and I wanted to commend Senator Gregg on his leadership, who 
has been the chairman of our little subcommittee, because it 
was under his leadership that we started the Office of Domestic 
Preparedness (ODP)--for example, we have got five training 
facilities who have already graduated 80,000 firefighters and 
law enforcement officers on the counterterrorism threat.
    We have programs for the equipment. I am a cosponsor of the 
Fire Act and like you say, Mr. Stittleburg, it is working, and 
let us not formalize it where it has got to go through certain 
channels, like the Governor's Office, because now the grant 
office at FEMA makes direct grants down to these little 
communities, and that is what you are begging for, isn't that 
right?
    Mr. Stittleburg. Perfectly said, sir.
    Senator Hollings. That is right, and if you give it to the 
Governors, that is like delivering lettuce by way of a rabbit. 
I mean, it is not going to get there. We have had this 
experience up at this particular committee level on these 
things. We had a Governor in Indiana that bought a beach craft 
for his wife to go buy her spring clothes. We had down in 
Hampton, Virginia, somebody buy a tank and put it out in front 
of the courthouse, and all of that thing, so we have been there 
and done that, and we do not want to disturb the good programs 
that are already working, because that is what you all are 
saying. We need more personnel, more money, more equipment, 
more training, just more of what we have got.
    For example, the Office of Domestic Preparedness is 
working. So Mr. Chairman, I wanted Governor Ridge to come and 
say what are we trying to fix. Why are we changing it? Where it 
has been inadequate--inadequacy, like I say, is us, because we 
gave the $20 billion, but the poor Attorney General and the 
Department of Justice is scared to death to distribute the 
money, because we have got an ongoing debate about FEMA.
    We are not going to transfer the ODP program to FEMA. They 
do not know anything about law enforcement, and we have got 
this ongoing program that we know understands the hitches. With 
respect to interoperability, Senator Stevens, we now have the 
equipment, the technology has been developed.
    That was one of the troubles in New York. They had 
different frequencies, for one thing, for the law enforcement 
and for the firefighters. We have got to get that 
interoperability, otherwise we have got to get a uniform 
frequency to respond to an emergency of this kind so that they 
are not all jammed. You were trying to tell your firemen, get 
out of the place up on the 32nd floor, and they could not get 
the message because everything was jammed.
    Another thing that was wrong, they did not fireproof the 
steel structure. They eliminated a lot of the fireproofing on 
that thing. It was not supposed to fall down and melt like it 
did.
    So we have got a lot of things that we know about, but 
there was not anything wrong with the firemen. There was not 
anything wrong with the law enforcement. It was just the 
ongoing programs have not been properly funded.
    Those five training facilities under ODP, like I say, are 
ongoing right now. We have got the equipment, but we need to 
get it out there now, and that $20 billion, Mr. Chairman, that 
you appropriated has got to be distributed. The log jam and the 
disinterest is up here.
    Chairman Byrd. You got it. That is right.
    Senator Hollings. They have got cloning. Who is worried 
about cloning right now? I am worrying about domestic violence 
and terrorism.
    We had a hearing--Senator, we had a hearing for 3 days last 
May, and the entire Cabinet came up over a 3-day period before 
our little Appropriations subcommittee. This issue is not 
moving because of us. The communities are interested, and I 
want to commend you folks who have been working out there in 
the vineyards and leading the way. You all have done an 
absolutely magnificent job.
    I have got a letter from the National Sheriffs Association 
that I want to put into this particular record, because what 
they want is to not mess it all up, and stop transferring and 
studying and then putting in new kinds of training programs and 
Governors and everything else. We asked for plans 4 years ago, 
and on 9/11 we only had four States. Now we have got 46. Now we 
have got 46.
    And incidentally, you are talking about the Governors. I 
know several of the Governors did not even know they had 
submitted the plans. They have not even been on the loop, but 
it is us up here that have got to get it moving.
    Chairman Byrd. Thank you, Senator, and your correspondence 
will be included in the record.
    Senator Hollings. I appreciate it. Thank you.
    [The information follows:]

                            National Sheriffs' Association,
                                 Alexandria, VA, February 25, 2002.
Hon. Ernest Hollings,
Chairman, Subcommittee on Commerce, Justice, State, and the Judiciary, 
        Washington, DC.
    Dear Senator Hollings: The National Sheriffs' Association (NSA) is 
surprised and deeply concerned about the proposal by OMB to eliminate 
the Office of Domestic Preparedness (ODP) at the U.S. Department of 
Justice, and shift these responsibilities to the Federal Emergency 
Management Agency (FEMA). While we appreciate the efforts of OMB to 
consolidate functions and enhance efficiency, NSA believes this 
proposal would undermine the efforts of law enforcement to prevent 
another terrorist attack on the United States.
    ODP serves as the only significant source of Federal financial 
assistance for Sheriffs to train for and to combat the threat of 
terrorism. For this reason, we applaud the recent action by Congress to 
increase the ODP budget from $250 to $650 million. As we now commence 
this long-overdue strategy to coordinate the efforts of Federal, State, 
and local agencies, OMB would now slash the ODP budget to ``0''.
    Moreover, the OMB proposal seems to repeal provisions of the 
Patriot Act that grant to the Department of Justice responsibility to 
prevent and detect potential acts of terrorism. Under Sections 1005 and 
1014 we note that Congress directed the Attorney General, not FEMA, to 
make grants to Sheriffs for terrorism prevention and anti-terrorism 
training.
    For the Nation's Sheriffs, this proposal means more than 
organization and funding. This shift of authority completely 
contradicts the established authority of law enforcement to prevent 
potential terrorists acts and to protect the public from such threats. 
Local law enforcement will always be the first to respond to an 
incident, and only law enforcement has authority to take arrest action 
and use force during a terrorist attack. FEMA's response at the scene 
is appropriate and welcome only after law enforcement has determined 
that public safety has been secured. Law enforcement cannot subordinate 
its command responsibility to FEMA. FEMA has historically been a 
response agency, and NSA is concerned that this program could become 
response oriented instead of focused on law enforcement's efforts to 
prevent terrorist attacks from happening.
    Presidential Decision Directives 39, 62 and 63 direct the Attorney 
General, not FEMA, to assume lead responsibility for the Federal 
Government. Through the FBI, the U.S. Department of Justice, not FEMA, 
serves as the central agency in a crisis. The Nation's Sheriffs have 
long established working relationships with ODP and the FBI at the 
Department of Justice, and we should not be asked to scrap all of our 
policies, plans, and agreements so that we can work under the authority 
of an agency that has no law enforcement role.
    The National Sheriffs' Association believes that Congress should 
commend the Department of Justice for its ODP program, and continue the 
funding level at a minimum of the current $650 million. We ask that 
Congress reject this well-intentioned but misguided OMB proposal to 
take a successful program away from the Department of Justice and give 
it to an agency that has neither the experience nor the charter to get 
the job done.
    Thank you for your consideration on this important matter and we 
look forward to working with you to enact sensible law enforcement 
policy.
            Sincerely,
                                         John Cary Bittick,
                                                         President.

                    Questioning by Senator Jack Reed

    Chairman Byrd. Mr. Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for your excellent testimony. I believe the 
questions this morning have illustrated first that we depend 
upon local initiative to deal with many of these issues, but 
the nature of these problems are not at all local. They are 
regional and national, and so at some point we have to also 
develop some type of coordination mechanisms for 
interoperability of radio equipment, or what data we collect in 
doctor's offices, and how it is reported, and so I wondered if 
you could, going down the line with the commissioner, just your 
kind of insights, what you think is the most important thing we 
can do to help foster these kinds of national standards but 
maintain local initiatives, any problems you see, or advice you 
can just give us.
    Mr. Commissioner.
    Mr. Von Essen. Well, I think we have to do a better job of 
making people accountable for money that they get, so there is 
less duplication and more measured performance, just like you 
see in the private sector. You know, you give us money, we 
should be accountable for it, it should be spent properly.
    You talk about a national issue, it is the spectrum that we 
need more availability for our emergency services to be able to 
communicate, and that is a bigger issue than we can solve. That 
is what you have to solve with the Federal Communications 
Commission, and I was hoping Senator Leahy would stay, but that 
is an issue that is really critical to us nationally for us to 
get more spectrum. It has got to be taken away from television 
stations, which we cannot do. You have to do.
    Thank you.
    Mr. Crouse. Yes, Senator, if I can. As Senator Hollings 
pointed out, I think the systems are in place. FEMA has 
demonstrated to us their abilities and desires to coordinate 
the events such as 9/11. There are several agencies that come 
into play, and if those systems can be enhanced and improved 
upon, I think we can learn from the problems, the mistakes that 
may have been made.
    But I think what really needs to be focused on, and again 
repeating what Senator Hollings pointed out, is listening to 
what the local needs are, and from our perspective the fire 
service today has spoken with one voice and one concern. We are 
on the same page with the need, with respect to staffing the 
fire departments, providing the appropriate equipment, and the 
required training for not only the basic fire fighting 
evolutions, but for the add-ons, the EMS hazardous material, 
and weapons of mass destruction.
    We have a system in place right now that I think is working 
fairly well, and I think it just needs to be funded, and the 
folks at the local level that we represent need to be heard.
    Senator Reed. Without preempting the other witness, let me 
interject. Is there some mechanism now presentable that your 
colleagues in the fire service are comparing about 
standardizing the acquisition of radios, for example? Is that 
going on?
    Mr. Crouse. To my knowledge, I am not aware of that, sir. 
Maybe I will defer to the commissioner who now has a personal 
interest in the radio issue, but I am not aware of any efforts 
to standardize. Now, in the fire service in general we are 
looking at ways of standardizing apparatus and protecting 
clothing standards and those type of things.
    Senator Reed. I guess my concern is that we give money and 
it is accountable by the locals, they go buy equipment, they do 
not use it for a raffle or for tickets to the Giants, that they 
buy a system that someone sold them, and the fire department 
next door buys a system that they think is great, but they are 
not interoperable. Where do we put this together in a very 
detailed, practical sense?
    Mr. Crouse. I think again it is communications that has to 
start up at the top level of the process that is put in place, 
and if those funds are going to be made available through the 
Federal Government, then I think we should force the local 
communities, whether it is the city, State, county levels, to 
communicate, so when they do procure those type of things they 
are talking to one another and can purchase equipment that is 
interchangeable, and can interact with each other.
    Just by way of example, in my experience as a Federal 
firefighter at the Department of Defense, we put in a 
communications system in the State of California through the 
San Diego Naval Facility down there, and working through the 
various agencies, not just the military and the Air Force and 
Army and Navy community that were there, but also to the 
highway patrol and DEA and FBI. They were able to get Federal 
funds from their various sources and put in a communication 
program that was statewide, where our Federal firefighters 
could actually communicate with the surrounding municipal 
departments, or if they needed to get the Border Patrol or DEA 
or something. So it is doable, but I just think we have to, 
again, forge that process.
    Senator Reed. Thank you. Gentlemen, please, and I think my 
time is running, so if you can be brief.
    Mr. Stittleburg. Senator, what you can do for the volunteer 
fire service is assist us in promoting volunteering to the fire 
service. There are 100,000 less volunteer firefighters in this 
Nation than there were 20 years ago, yet we staff 90 percent of 
the fire stations.
    Mr. Crouse appropriately spoke about staffing. Recruitment 
and retention is our staffing. That is what the Federal 
Government can do for us. We have a 1-800 fire line to 
encourage people to volunteer. That is something you could 
promote for us. That is where it is at with us.
    Senator Reed. Thank you, Chief. Colonel.
    Colonel Westphal. Thank you, Senator. I will try to be real 
quick. One quick comment about the communications issue. There 
are standards, there are international standards. It is the 
public communication officer standards, APCO 25. Not all 
vendors are complying with those standards, but if we could get 
everybody to adhere to those we could probably all communicate.
    From our point of view, your original question was what can 
be done at the local level, and how do we bring that into the 
national level. From law enforcement's point of view, we do not 
want to lose sight of the fact that if we did everything right, 
the local fire service would not have to respond to any more 
terrorist attacks because we would prevent them, and what we 
would like to see, as I mentioned in my opening statements, we 
had 16,000 agencies and 700,000 officers who gather a lot of 
intelligence, and if we had a good system of gathering that 
intelligence together at a Federal level and then do a good 
analysis, we could do something real good about trying to stop 
terrorist attacks.
    You know, we are over in Afghanistan and other nations 
trying to track down the terrorists, the President has tried to 
put a stop to their funding sources, but unless we do something 
here in the United States of America to try and find out who 
these people are and what they are up to, we are not going to 
stop terrorism, and I think that is a key role for law 
enforcement, along with the Federal agencies.
    Senator Reed. Thank you, colonel. General.
    General Alexander. In the area of communications, the 
National Guard would need to have contingency steps that 
included off-the-shelf radios that would be interoperable with 
first responders and periodically communications exercises to 
facilitate that. I would assume that this would be of 
significant value prior to and during mobilization, because 
once the Guard is totally mobilized for weapons of mass 
destruction they are still going to be following the lead and 
being interoperable with our first responders, who know more 
about it than we do.
    Senator Reed. Thank you, General.
    General Alexander. But we do need to be able to talk to 
them.
    Mr. Cox. Senator, I think from a local public health 
standpoint the key thing would be to help us to expand our 
capacity, to quickly detect and quickly control and effectively 
control communicable disease, because this in turn is really 
going to take a load off first responders, because it will be 
controlled more quickly, as well as take a tremendous load off 
of the medical care system, which could be quickly inundated 
and overloaded.
    Senator Reed. Thank you, gentlemen. Thank you, Mr. 
Chairman.
    Chairman Byrd. Thank you, Senator Reed. Senator Inouye.

                Questioning by Senator Daniel K. Inouye

    Senator Inouye. Thank you, Mr. Chairman. Before proceeding, 
Senator Stevens and I just came back from an extended journey 
to Asia, and one of the countries we visited was Singapore, 
usually looked upon as the Switzerland of Asia, gracious 
living, high per capita income. Just before our arrival, the 
security and intelligence of that country uncovered a plot to 
use 100 tons of explosives to blow up the American Embassy. 
When one considers that it took 3 tons for Oklahoma City, 100 
tons is a lot of explosives, so I hope people in the United 
States consider that terrorism is available everywhere on this 
globe.
    Gentlemen, whenever we discuss terrorism, the words, 
targets of opportunity will pop up, and targets of opportunity 
are not distributed equally throughout the 50 States. Some 
States have more and some have less, some have none. You have 
the Golden Gate Bridge, psychological, the arch at St. Louis, 
we have military bases in many parts of our land, you have high 
density population areas. Should these funds be allocated on 
the basis of targets of opportunity?
    Colonel Westphal. Well, I might respond by saying, targets 
of opportunity really defines how easy a target is to attack, 
and what we describe in law enforcement is trying to make it a 
hardened target, and to make it a hardened target, you do what 
you have done here at the Nation's Capital, and people have a 
hard time accessing this building. Cars are searched, persons 
are searched, and you make it a hard target, so even though 
this certainly is a primary target of terrorists, it is not a 
target of opportunity. It is a very difficult target.
    So a terrorist will look around and find a target that 
probably will have the most impact and get the most print, but 
that is an unhardened target, so your question is, should money 
be directed towards those hardened targets, and I believe that 
might be difficult to do, because it is going to be kind of 
like shooting ducks on a pond. It is sort of a moving target, 
and it is going to shift all the time. If we direct money 
toward one target and harden it, they are just going to shift 
their efforts towards another one, so I think it is going to be 
very difficult to identify particular targets that need to be 
dealt with financially.
    Mr. Stittleburg. Senator, if I may follow up on those 
remarks, I think the Colonel is absolutely on point. I think 
the way we address this is by having the local agencies 
prepared and trained and able to identify those potential 
targets in their own districts.
    Senator Inouye. That was my only question. Any others?
    Chairman Byrd. Anybody else want to respond to that 
question?
    General Alexander. I think it goes to the void we have in 
the diffusion of intelligence that is in the hands of many 
agencies, that do not allow responders on the ground to be 
aware of a threat in the environment, and having some awareness 
of that, a capability-based force that would be available to 
deal with that environment would be something to consider, 
based upon the diversity of the targets that are out there. 
There is just so much we do not know and should know, that 
other agencies know, that is not being shared, and that results 
in our inability to prepare and respond.
    Chairman Byrd. Mr. Cox.
    Mr. Cox. Senator, I think it would be helpful to give a 
great deal of thought in the bioterrorism area to the 
unexpected. I mean, who would have ever thought that terrorists 
would have taken a commercial airliner and turn it into a 
terrorist weapon, and so in the area of bioterrorism it would 
be good to give some thought to where a terrorist might strike 
from an unexpected viewpoint or angle, such as a genetically 
altered bioagent or other things that we need to give some 
planning and thought to, because they are going to strike at 
our weakness.
    Senator Inouye. In other words, all of us are in the 
action. Thank you.
    Chairman Byrd. Thank you, Senator. Mr. Domenici.

                Questioning by Senator Pete V. Domenici

    Senator Domenici. Thank you very much, Mr. Chairman, and I 
apologize for being as late as I was this morning, but I could 
not avoid it and as a result I get to listen to everybody else, 
which has been very interesting.
    Mr. Chairman, since we have 7 minutes, I would understand 
if we could use that for opening remarks or assessing the 
situation and it not all be questions, so I would like to just 
open with a comment. First, I appreciate the panel's focusing 
in on the first responder training programs that are supported 
by the Federal Government, either your indication that you 
support them, or your concern about whether they are working, 
or whether they are all in the right places or not.
    The history of first responders is very, very important, 
because some people think nobody was concerned about mass 
destruction conduct occurring in the United States until they 
bombed the towers, but the truth of the matter is, in 1996 on 
the floor of the Senate a major amendment--could have been a 
bill--was adopted that created the first responders, for 
certain New York, you were one of those first responder cities.
    That created 120 cities, first responder cities, and a 
rather substantial amount of money was spent, but it did not 
get to all the cities, and so Senator Judd Gregg in an 
appropriation bill created a National Domestic Preparedness 
Consortium, and it is in the law because it is in the 
appropriations bill for the Department of Justice.
    As a result of the combination of the two, 120 cities prior 
to 9/11 already had first responder training and first 
responder designation, so I assume, Mr. Von Essen, that New 
York City was a first responder city and they had for at least 
2 years, maybe 3, put together the communication, the ability 
to deliver the kinds of services in health and the like. You 
had those all in some kind of a system when that vicious act 
occurred, is that not correct?
    Mr. Von Essen. In a limited capability, yes.
    Senator Domenici. So it would seem to me that right off it 
would be interesting to know--and of course I cannot get this 
today, but maybe the chairman would consent to a detailed 
question to New York City, but I would think the first thing we 
ought to do with reference to first responders is to ask New 
York City what the shortcomings of the first responder funding 
that we already have and assumed was in place, because you are 
the only one that has actually experienced how well it worked, 
and what shortcomings you found.
    The second one is to find out from the jurisdictions here, 
near the Pentagon, how did the first responders fail them with 
reference to their location, because I think we will find that 
the first responder did not include the Pentagon at any time, 
and consequently the Maryland and Virginia forces that were 
pooled to assist in this serious episode did not have a similar 
communication on many of the things that you all in New York 
City would have assumed would have been available for a 
disaster, so it would seem like we could learn from those and 
do a better job with the first responder system.
    Now, could I ask, as far as New York City, Mr. Von Essen, I 
am not sure if you know enough about how it was obtained, how 
you got trained, and what you did, or am I mistaken? Do you?
    Mr. Von Essen. No, I was actually the president of the 
union before it took place, and then the commissioner when it 
was in place, and there was an awful lot of work together with 
the International Association of Fire Fighters providing 
training and providing additional volunteers to take on 
additional responsibility within the New York City Fire 
Department, spreading that out to maybe 30 or 40 engine 
companies in New York City to begin that program, the 
metropolitan program that we put in place.
    When I said it was limited, I mean, we have 210 engine 
companies in New York City, so it was the beginning of a 
program, and I am not sure where you are actually going with 
the comparison, because you can have a first responder program, 
you can have this level of training, this level of preparation 
and capability, and you can have two major airline planes crash 
into two of the largest buildings in the world. Your first 
responder program was not ready for that.
    Senator Domenici. But I think what we have to eventually do 
is, we have to know they are ready to direct their attention. 
We do not have that done, either.
    Mr. Von Essen. No. That is basically I think what everybody 
is here today trying to get the Government to get us help with 
some kind of a national standard for everybody to know what is 
expected at the minimum level, at the next level, and at the 
highest level, what level of training that you are going to 
help us pay for, what level of equipment you are going to help 
us pay for, or what level of preparation.
    We all want to be as prepared as we possibly can, and you 
talked before about targets. Of course, New York City, and San 
Francisco, and L.A., and Chicago, and some of the other major 
cities will provide more targets. That does not mean that the 
first responder firefighter responding in the smallest city in 
New Mexico should not also have a level of training somewhere 
that we have to decide is at least adequate.
    So this is major stuff, and a lot of us have been working 
on it for a long time. Unfortunately, there has not been as 
much interest, I do not think, at the Federal level since--you 
know, except for this horrible incident that we had last 
September, so we are getting help now that we have been asking 
for for a long time in the fire service, trying to get the 
levels of training and manning, equipment and everything else 
that is needed, so we are relying on your continued support.
    Senator Domenici. Mr. Chairman, I do want to lay before the 
witnesses, not to ask them any questions about it, but just to 
comment on a capacity that exists in the country that is just 
becoming known. Believe it or not, last year, because of the 
Appropriations Committee, the computerized system called NISAC, 
N-I-S-A-C--and that stands for National Infrastructure 
Simulation and Analysis Center, NISAC. It is now put together, 
Mr. Chairman and fellow Americans.
    It is put together because of the supercomputing capacity 
of the defense laboratories on nuclear weapons. That is the 
most sophisticated and powerful computer systems in mankind, 
and in their spare time they have put together a system which 
will permit you to determine what happens if a target, for 
instance, Hoover Dam is hit. You just punch it in and you ask, 
what is the result of Hoover Dam being demolished, and it will 
tell you exactly the effect and where in the United States as a 
result of that.
    If you go to the New York area and you have tunnels, and 
major waterworks, this simulation has literally thousands of 
facilities with capacity that furnish something to the American 
people, and it will tell you what will happen if one of these 
is damaged or destroyed by those who are doing what they did to 
New York City, or planning it.
    I believe what we are finding out in this committee, Mr. 
Chairman, thanks to you, is that there are some things that are 
going to have to be done nationally. There are some centers for 
getting out the information that are going to have to be at 
least regional, and there is going to have to be some way of 
determining the standard you have been talking about, and that 
is going to have to be one versus another.
    You cannot give the same protection for an area that has no 
targets that this evaluator would tell you has a chance of 
doing far more damage, and thus would be looked up on by 
terrorists as an opportunity, better than another place where 
the damage would be very little or none.
    So I hope that we can find that magic balance between what 
the Federal Government should be doing directly with States, 
and what we ought to be doing by way of creating some of our 
own centers. I also want to say to you, Mr. Chairman, it does 
point up to me, just the 2 days of hearings, very, very 
emphatically, that there must be a big, big coordination at the 
national level.
    I do not believe this program is going to work with six 
Cabinet members all getting funded by the Appropriations 
Committee and that they have pieces of the program. Unless 
there is some national simulation or evaluation, I do not see 
how we are going to know what we are doing, and to that end, I 
think you have been referring to it in another way. You want to 
hear a witness. I am not so interested in hearing the witness, 
but I think what you were saying is, who is in charge?
    Chairman Byrd. That is right.
    Senator Domenici. That is what you have been asking, and I 
think eventually we are going to have to ask who is in charge. 
It is going to be very hard to fund something and know that we 
are going to get what they are telling us we ought to get, that 
will even be inventoried in 2 years and we will know where our 
money went.
    Thank you very much, Mr. Chairman.
    Chairman Byrd. I thank you, Senator, and I believe that 
Governor Ridge would be the person to answer that question, to 
pose that question to, and I hope he will come before the 
committee and respond to that question. It is an important 
question. We are talking about people's lives. We are talking 
about the taxpayer's money, and I thank the Senator for his 
perceptions and all of his contributions that he makes.
    Senator Domenici. I thank you.
    Chairman Byrd. He has started several programs through this 
committee. I think of the human genome, and another thing, he 
referred to another program just a minute ago.
    Senator Domenici. Well, Mr. Chairman, I would say to you, 
you know, as a result of the concern on first responders there 
are five universities under one consortium, headed by the 
University of Alabama that are teaching the fundamentals of 
first responder needs through the cities' leaders across 
America, and thousands have been educated as to what it means 
to be a first responder and how you put the thing together, and 
so it is not automatic. These are nice words, but it is not 
just an accomplishment because you say, I have a first 
responder. It is very, very difficult to set it up right.
    Chairman Byrd. Thank you, Senator.
    Senator Domenici. Thank you.
    Chairman Byrd. Senator Mikulski.

               Questioning by Senator Barbara A. Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman, and 
again I want to thank you for holding these 2 days of hearings 
on this very important issue.
    I think it builds on the hearings that Senator Gregg and 
Senator Hollings held last year, and I think it also points 
out, Mr. Chairman, from our colleagues' questions, we are 
already doing a lot, and we need to almost talk among ourselves 
on what the initiatives are, but I really think it is 
compelling that Governor Ridge come with the appropriate 
Cabinet people, or Cabinet-level people like FEMA, so that we 
can stop acting like technocrats and start acting like an 
antiterrorist organization.
    We cannot be technocrats, fooling around with little pieces 
of paper and who should come and who has authority and who has 
executive privilege. I am afraid if Bin Laden was watching this 
he would say, as long as they keep bumping into each other over 
what is the right organization chart, I have targets of 
opportunity.
    I do not want us to be technocrats. I want us to organize 
ourselves like a fighting antiterrorist organization to protect 
this Nation.
    Chairman Byrd. Amen.
    Senator Mikulski. And the money that we spend will make us 
all-hazards. It will be double value to strengthen our police 
and fire to be ready for all hazards, whether you are going to 
fight a fire because it was caused by a malevolent attack or a 
naturally--you are fit for duty, along with our police.
    An outbreak could come from food, by accidental food 
poisoning at a sports event, or a meningitis attack at a 
college, or it could be another kind of attack, and God bless 
our National Guard. My 29th Division, as you know, is one of 
the best and bravest, and they are already doing the heavy 
lifting for peacekeeping.
    So this is what I want us to be, and I will say that while 
we are working on our funding--and I am going to get to a few 
of the questions--first of all, I do know that there is this 
plan to combine the Office of National Preparedness under 
Justice from the police department with the fire at FEMA. Until 
we get real clarity, I am not going to move on that. I like our 
fire grant program, and I know our fire fighting community 
likes that fire grant program. The money comes to you, it is 
peer-reviewed, it is not earmarked, and it meets a compelling 
need, and last year we got $3 billion worth of requests. If we 
funded that, we would be on the right track.
    So we are absolutely on your side, and I support Hollings 
and Gregg, but let us not move that Office of National 
Preparedness to do that.
    I am not going to talk about the funding mechanisms. I do 
not think we should find new ways to rearrange the line items. 
I think we have to help you who are on the front line, and that 
means let us keep the programs organized the way we want, let 
us put the money where it is, and let us start organizing 
ourselves.
    And to that point, let me go to you, Chief, because I am 
concerned about the underfunding of our police, the 
underfunding of our fire for protecting the protector and 
getting the right equipment and the right training. Are you 
aware that the President is also proposing a Citizens Corps to 
be operated under FEMA to do, I am not sure.
    I really want to support the President, but why do we need 
a Citizens Corps if we have volunteer fire departments that are 
already struggling for enough volunteers and enough funding to 
support the volunteers. Are you aware of the Citizens Corps?
    Mr. Stittleburg. Only in the most general terms, Senator. I 
understand that the Citizens Corps has been proposed. I believe 
there is a proposal of funding it to the level of $230 million, 
I believe, in fiscal year 2003, at least as best I have heard 
it. I am pretty fuzzy on what its ultimate goals are.
    Senator Mikulski. I am pretty fuzzy, too.
    Mr. Stittleburg. As to what the specifics are, I do not----
    Senator Mikulski. And I do not think we can be warm and 
fuzzy about it.
    Mr. Stittleburg. And that, I guess, Senator, is indeed our 
concern. It is a lot of money. Certainly, we support anything 
that will contribute to the opportunity for the emergency 
services to better serve the public, and as I understand, the 
Citizens Corps that is structured, a lot of it, as a volunteer 
sector, and certainly we support anything that will encourage 
volunteerism. Beyond that, we do not have enough of a handle on 
what is proposed to tell you what our position is.
    Senator Mikulski. Well, let me just encourage you, because 
I am concerned, too. Within the funding request for this year's 
appropriation is $230 million to fund the Citizens Corps. That 
would be $86 million I think for funds through organizations--
that was unclear--and $144 million to set up councils.
    Now, just to put it in perspective, last year, we were 
fighting just to add $360 million to the fire grant program, 
the whole fire grant program. Do you remember that?
    Mr. Stittleburg. How well I do, ma'am.
    Senator Mikulski. You remember that. So I would really 
encourage the fire fighting community, as well as the law 
enforcement community, to meet with this Office of 
Volunteerism, or Freedom Corps, that the President has. I 
support the call for volunteerism, but I would like to see it 
also go where there is an existing framework, like the 
volunteer firefighters, where there would be a recruitment 
energizing inspiration tool so that you would get the next 
generation you need, and then we would help provide the 
resources to train them and equip them so you are not doing 
this through fish fries and bingos.
    Mr. Stittleburg. That is precisely our sentiment. That is 
just exactly our sentiment, Senator.
    Senator Mikulski. Well, please--because I do not want to 
fund this unless there is clarity, and I do not want to be in 
opposition to the President until there is clarity.
    I would like to go to the issue of bioterrorism, Mr. Cox. 
Is it Mr. Cox, or Dr. Cox.
    Mr. Cox. Mr.--just Gary.
    Senator Mikulski. Mr. Cox, on the issue of bioterrorism, I 
think you have made an excellent statement of what our public 
health agencies need. Their infrastructure is quite tattered.
    Let me raise another issue, as we are working on 
legislation. When bioterrorism hits, like it hit Brentwood, 
like it hit the Senate, et cetera, I was concerned about two 
things, one, the management of the public health incident, but 
the management of the communication around the incident. As all 
of the people at the table know, the fear and panic results 
from terrorism, even if it is an attack on a small population, 
but if it is an attack on you it does not matter whether it is 
10 or 10,000.
    Could you give for us, number 1, your observations on how 
the communication strategies were handled, and number 2, what 
would be the recommendation of the public health community on 
how we cannot only manage a public health incident, but how we 
can have a better communication way so that we can manage the 
fear, and ultimately fear leads to panic?
    Mr. Cox. An excellent question, Senator.
    I think first of all, on the incident itself, probably a 
good way to get the communication information out to the public 
is to have first of all a single voice, a voice of a person, if 
it is a bioterrorism action, that has a public health 
background, a medical background, to speak with a clear voice 
of understanding and authority.
    As far as getting information out to the public--and I say 
a second part of that would be to establish, as is usually the 
case, a joint information center so that public information 
folks from several different agencies all group together and 
come up with a common message that needs to be communicated to 
the public.
    Senator Mikulski. Does that exist now?
    Mr. Cox. It does in some areas.
    Senator Mikulski. But it is uneven, and it is unmandated?
    Mr. Cox. Yes.
    Senator Mikulski. Well then, that takes me to another set 
of questions that really affect everyone at the table. When we 
held our hearings under Gregg-Hollings on terrorism 1 year ago, 
one of the questions we asked was, at an incident, the question 
was, who was in charge? The FBI said, we are in charge, because 
we are crisis management.
    FEMA says, well, we are in charge in terms of the casualty 
management, and their whole preparedness framework.
    Then we had a local sheriff who said, really, I am the one 
in charge, because I am the first one there, making sure that 
the fire department and whatever is.
    Do you think that there is a real clarity about, when there 
is an incident, number 1, who is in charge of managing the 
incident at the scene, number 2, calling in the appropriate 
resources, and number 3, ensuring that there is more 
communication out to the people so that there is not panic 
around, or a management of people so that panic and fear do not 
take over? Do you know? Can you tell me who in your own 
community, who would be in charge? Colonel, would it be the 
FBI?
    Colonel Westphal. Well, the FBI would be in charge if it 
was a terrorist attack, and for the investigation, but the 
general answer to your question is that most communities have 
adopted an incident management system which kind of defines who 
is going to be in charge based on the incident, and I would 
assume that most of the major agencies--certainly I know New 
York City has adopted that, and there are very defined 
guidelines about who is in charge of what, and how they do the 
logistics and so on and so forth, so for the agencies that have 
been trained in the incident management system and use that, 
that is not necessarily a problem.
    But what you are addressing is probably more in the arena 
of sometimes when the Federal agencies show up, and then there 
is a dispute about who is going to investigate the particular 
crime.
    Senator Mikulski. No, no, no, I am not talking about 
investigation.
    Colonel Westphal. Just the response itself?
    Senator Mikulski. Yes.
    Colonel Westphal. So my response would be that for those 
agencies that have adopted this incident management system, we 
have really eliminated that problem, but I know that that is 
not the case all over the country.
    Senator Mikulski. Would that really be under a mayor, or a 
local county executive, whoever is the head of local 
government, and their designee?
    Colonel Westphal. Generally, yes, if it is in a locality, 
yes, generally that would be the case.
    Senator Mikulski. Do any of you want to comment?
    Mr. Stittleburg. Senator, I agree with the Colonel that for 
those that are using IMS, or incident management system, these 
issues certainly are addressed. However, how broadly the IMS 
system is being utilized around the country is a real mixed 
bag, and I would suggest to you that one of the key factors 
involved in development of IMS is training, which again I 
believe leads us back to the Fire Act.
    Senator Mikulski. IMS stands for the incident management 
system?
    Mr. Stittleburg. Yes, ma'am.
    Senator Mikulski. And who is in charge of that?
    Mr. Stittleburg. That is what the IMS defines. The incident 
management system defines who the incident commanders are. It 
may be a combined command, but that is a system that deals with 
precisely what you are addressing, who is in charge, and who is 
in charge of what.
    Senator Mikulski. Who calls up what?
    Mr. Stittleburg. Yes, ma'am.
    Senator Mikulski. In other words, different levels would be 
called in.
    Mr. Stittleburg. And obviously it is also 
interdisciplinary, in the sense that we are not just dealing 
with fire. Fire has to interact with police, police has to 
interact with the EMS, EMS has to interact with utility 
companies and contractors, and you bring in heavy equipment and 
various other things, depending upon the nature of the call.
    Senator Mikulski. Do you think that in that area, though, 
that there is enough training and exercises to make sure that 
local communities who have high threat regions--we are in the 
capital region, so it speaks for itself. I do not want to 
outline why we would be a threat, not only the continuity of 
Government, but major Federal installations. There are other 
areas, and there are different threats and risks around the 
Nation. Some communities are at greater risk than others.
    Do you feel that there is enough training, and then in 
actual exercises, and do you think that is important to do, and 
pay for?
    Mr. Stittleburg. As to the first question, no, ma'am, I do 
not think we are anywhere near at that point yet. Second, yes, 
there is certainly a need for it, and when we talk about 
targets of opportunity--that term was used earlier--I would 
suggest to you that targets may develop through an unintended 
fashion.
    For instance, one of the calls that is overlooked for 
September 11 was the crash in Somerset, Pennsylvania, which was 
responded to by volunteer fire departments. Certainly that area 
was not something that someone would have defined as probably a 
high likelihood of a terrorist event, yet that is exactly what 
it became, so these can develop in a serendipitous fashion.
    Senator Mikulski. Does anybody else want to comment?
    Mr. Von Essen. Senator, the system works when people listen 
to it. The incident management system is designed for 
complicated situations that we run into, and it works, but you 
cannot have enough training, you cannot have enough making 
everybody aware of it, and a big issue, a big problem like we 
had in New York City, everybody worked together, and we were 
able to get everything done.
    Senator Mikulski. Well, I know my time has expired. To each 
and every one of you in the professional organizations that you 
represent, I just want to say thank you. I know even before 
September 11 you worked around the clock, standing sentry to 
protect America from all hazards, and I know that September 11 
and its consequences have placed additional stress on each and 
every one of the ordinary people who work for you, the 
policemen, the firemen, the National Guard guy or gal, as well 
as our dedicated public health people, so I just want to say 
thank you, and we have got to get our act together to help you 
perform your acts of courage.
    Thank you very much.
    Chairman Byrd. Thank you, Senator Mikulski.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman, I understand we 
have got a vote that is going to start around noon, or sometime 
around noon, and we have got three stacked votes, so things may 
get a little discombobulated.
    Chairman Byrd. On that, would the Senator yield to me?
    Senator Burns. Yes, sir. I always yield to chairmen.
    Chairman Byrd. I thank the Senator.
    Let me ask the panelists, are you at liberty, and are you 
free to stay for a little while? We do have three votes, and I 
think it is important enough that some additional questions be 
asked, and following Senator Burns' questions--and in the 
meantime I will go to the floor and try to vote--I wonder if 
the panelists could all remain. I will be back as soon as I can 
come. I have some questions that I would like to ask. Does 
anyone disagree with this?
    Colonel Westphal. Senator, I will not be able to remain. I 
have to leave.
    Chairman Byrd. How soon would the Colonel have to leave?
    Colonel Westphal. I need to be out of here by 12:15.
    Chairman Byrd. All right. I had some good questions. You 
gave some good testimony, Colonel, but if you have to go I will 
certainly understand, but others of you can stay. Thank you. 
Thank you, Senator.
    Senator Burns. I will not take long, and it looks like the 
vote just started.
    Chairman Byrd. I will go now.

                  Questioning by Senator Conrad Burns

    Senator Burns. All right. I want the panel to just maybe 
enlighten us all a little bit on 9/11. As you know, a couple of 
years ago, through the efforts of a lot of us here on the 
Appropriations Committee, but most of us on the Commerce 
Committee, we passed E-911, and that is that cell phones, as 
you well know, before that time, you dial 9-1-1, you are liable 
to end up anywhere. If you are out of your home district or you 
are in roaming you may get the Six-Center Cafe in Miles City, 
Montana, and that is not going to help you out much.
    But E-911, clearly we have a task force operating in just 
about every State that I know of, with the exception of a few, 
that are implementing that technology. The vendors have the 
telephones available, or they are going to be available to the 
public, but nobody had any clue 5 years ago how many cell 
phones we would be using at this time, 5 years later. I mean, 
there was a lot of estimates, but we have gone way past that. 
Cell phones now every kid in high school darned near has one.
    But also in that, we have to look at the implementation of 
that technology. When that call comes in to the nearest first 
responder, we have got to take a look at communications 
centers. As you know, in my town of Billings, Montana, we have 
one communications center. That dispatches fire, it dispatches 
the city police, and also it dispatches the sheriff's 
department.
    By the way, those people who ask who is in charge of these 
counties, the sheriff is. I am going to tell you that right 
now. There is no more powerful man in any county than the 
sheriff. He has the last word, and so let's make no doubt about 
that. I was a county commissioner, so I know all about that, 
and so they have to be involved in this. We have got a lot of 
people here, but you have got to remember, the sheriff of the 
county is the most powerful official there in that county, or 
it is in Montana, anyway. They even have hanging authority, so 
we listen to those folks quite a lot.
    I got to thinking about, Colonel, when we were talking 
about targets of opportunity, it would have been nice if those 
three airplanes could have hit Pikes Peak.
    Colonel Westphal. Thank you, Senator.
    Senator Burns. It would have sure saved the Trade Center, 
and they would have been empty going in.
    But I just wonder, how many of you all are satisfied, in 
your own jurisdictions, with the progress that communications 
centers have made, and I want to ask the folks in New York who 
dealt with that up there. I assume that you have the same 
situation up there. You have one single communications center 
that dispatches everybody, is that correct?
    Mr. Von Essen. In New York it is a little different, all 9-
1-1 calls from one police dispatching system, then we break it 
down.
    Senator Burns. You do it from there. Also--and is it the 
same in those centers, in those five different regions are your 
city police and your county sheriff's department, are they 
dispatched from the same center?
    Mr. Von Essen. No. All the 9-1-1 calls go to the police. 
The fire calls then would be given to one of our five 
dispatchers in the boroughs to be sent from the local district.
    Senator Burns. Well, I would say, you know, we pass that 
bill, and we are dealing with new spectrum reform, and we will 
probably come up with a bill sometime this year. It will not 
pass this year, so do not get all excited about ginning up your 
lobbyists and people to talk about reform of spectrum, because 
this will be as big an issue as the Telco Act of 1996, I will 
tell you that, because it involves not only your--everything 
from a garage door opener to your channel changer on your 
television, to broadcasters, to first responders, and also 
satellite and terrestrial, so this will be a big issue, and it 
will be a big issue nationwide. I know Colonel Westphal has to 
deal with a State that has got mountains between Denver and 
Grand Junction, and the difficulty he has just communicating 
from his headquarters in Denver to somebody in the Saylor 
Valley, and to your people in cars, so it is going to deal with 
a lot of different things.
    We would invite your input when we start down that road, 
and as we complete that, and I think we will finally go to 
models that will include your health departments as far as 
those communication centers being able to sort of do a reverse 
9-1-1. In other words, when a call comes in and it is a 
terrorist act, and we determine what it is, that an automatic 
call goes out to Gary Cox and his group in Oklahoma City. I 
think that is--where are you from?
    Mr. Cox. Tulsa, sir.
    Senator Burns. Tulsa. I spent a week there one night.
    A lot of people have.
    But in other words, a reverse 9-1-1 is to notify on that, 
notify what the action was, and the disaster, or the crisis 
identify, and so you will start making plans to do it.
    The model that Senator Domenici talked about is something 
that I think every city and every county ought to be working on 
right now, using every scenario. What if they throw something 
in this pumping station in Billings, Montana, in the water, 
what happens, who is affected, and how do we deal with it, so 
that we hit one key on the computer, and we have got a model in 
front of us.
    Now, that is going to take a few dollars. It is going to 
take some people looking at it, but I am not real sure that 
county commissioners and city councils would not be amenable in 
doing those kinds of things to handle these kinds of disasters.
    But Colonel, your and my job is a little bit different. 
Your big problem is to try to prevent it. Now, if these people 
are willing to die in the commitment of such a heinous act, I 
would prefer that they died before they got it done, and I 
think yours is a different challenge, maybe, because I think 
your investment, you are the intelligence arm--and if we are 
going to talk about volunteers, that is where we ought to be 
talking about some volunteers, to pick up little bits of 
information that can be put together, and I know that is what 
happened in Singapore. I know that is what happened in Hamburg, 
in foreign countries, where we pick up little bits of 
information and all at once we have got analyst that is up 
there that says, wait a minute, this leads to this, this leads 
to this, we have got a problem out there, and a red light goes 
up.
    And so I know your challenge is a lot different than the 
rest of these, because these are going to respond. They are 
going to respond. Yours is a problem of preventing, and so your 
challenge is a great thing.
    So I am going to go through most of your testimony here, 
and I think we know pretty well what our role is going to be, 
and what your role is. We had a great hearing as far as 
spectrum is concerned in New York City over at the Commerce 
Committee just after September 11, so we kind of understand 
what is going on there.
    I do not know what the chairman has got left up there, but 
I think I will go vote. A while ago they mentioned food. It is 
lunchtime. I have never missed a meal.
    Nor do I plan to, even though we have got this illustrious 
group in front of us, and a very powerful chairman, so what I 
am going to do is--I'm sure he is on his way back, but there 
are three votes. How are we going to handle that? Okay, let us 
do that, let us just recess this committee hearing until the 
chairman gets back, or subject to the call of the Chair, and 
Colonel, if you have got to catch an airplane, nice seeing you. 
Glad you came from west of the 100th meridian. We need more 
people who come from out there.
    Colonel Westphal. Thank you, Senator.
    Senator Burns. And watch those policemen when you cross 
that Wyoming line headed south, boy, they will hit you.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd. Thank you all. The committee will resume its 
hearing, and thank you for your courtesies and your kindnesses.
    Mr. Cox, last December this committee proposed, and the 
Congress appropriated, $1 billion in supplemental funds 
designed to help public health departments and hospitals 
prepare for a bioterrorism attack. We have begun to hear some 
concerns that not enough of these funds are making it to the 
local level. I am from a rural State, a rural State. I want to 
make sure that rural areas get the training and infrastructure 
they need to be prepared.
    In addition, the Secretary of Health and Human Services has 
only given States 20 percent of these funds as of now, with the 
rest of it given out later, when States submit their plans. I 
understand that only two States have submitted their plans. 
That means that it will be a while before States get the full 
amount of their bioterrorism money.
    We have also heard that the hospital money that we 
appropriated last year, $135 million, is only enough for 
planning. While the President has asked for a quadrupling of 
these funds in next year's budget, I am concerned that this may 
not be soon enough. If a bioterrorism attack happens now, how 
will a hospital deal with the flood of cases? Do you think that 
local governments and hospitals could use more of the money 
now, rather than later? Would you please comment?
    Mr. Cox. Yes, sir. You are absolutely correct, Mr. Chair, 
the money that I am aware of has not reached the local level, 
and that needs to proceed as quickly as possible, because 
without those funds we cannot be prepared to respond to a 
bioterrorist event, and to control that event, and that goes 
for hospitals as well as the public health community as well, 
at the local level.
    Chairman Byrd. During a speech before the Fletcher 
Conference and Institute for Foreign Policy Analysis in 
Washington last November, Governor Ridge said, and I quote him, 
``the Defense Department takes a long-range approach to its 
budget needs. Homeland security will do likewise, with a 
multiyear budget plan. We need to give our Nation's first 
responders--the firefighters, the police, the medical 
professionals and other emergency officials--the tools with 
which to do their job better.
    ``Before September 11, many in our country never thought of 
these men and women as first responders, as the first line of 
defense in our Homeland Security Corps. Today, every American 
understands their critical mission. We would never send 
soldiers into harm's way without proper training and without 
proper equipment. We owe the same commitment to our domestic 
first responders,'' close quote.
    Let me ask you, any or all of you, does the funding in the 
President's budget adequately fund your needs, as America's 
front line of defense?
    Mr. Stittleburg. Senator, if I may, the issue with us is 
not as much the amount as whether the money gets to us. That is 
the critical issue with us. The question that you and your 
committee have to answer is how best to fund the fire service 
in the United States, and I can tell you that the Fire Act was 
the best possible vehicle you have ever come up with to do 
that, and I would strongly encourage you to look in that 
direction, where you are talking about the funds.
    So our thrust is not even as much, how much, as it is, get 
it to us quickly.
    Chairman Byrd. Well, our problem is both.
    Mr. Stittleburg. I understand, sir.
    Chairman Byrd. Does anyone else wish to comment?
    Mr. Von Essen. Mr. Chairman, I would like to comment. I 
think it is critical to concentrate additionally, rather than 
just getting the money to us right away, a commitment for a 
long-term plan for training and equipment that is going far 
out. There is only so much that you can do in a 6-month period, 
when you have--I will just use New York City as an example.
    If you have 16,000 firefighters, officers, paramedics, 
EMT's, there is only so much training and preparation that you 
can do in a 6-month period, so you cannot handle more than that 
in that period, so to plan and to allocate resources going out 
over the next 10 years would be a better way to do it, I think, 
than to try to concentrate so much money early on.
    Chairman Byrd. But to make a commitment, don't we have to 
know what the plan is?
    Mr. Von Essen. Yes.
    Chairman Byrd. Do we know what the long-term plan is?
    Mr. Von Essen. Yes.
    Chairman Byrd. We do?
    Mr. Von Essen. Yes.
    Chairman Byrd. Where is it?
    Mr. Von Essen. You do not have it.
    Chairman Byrd. We do not have it, okay. How can we get it?
    Mr. Von Essen. You have got to ask us. You have got to ask 
us what we need, and that is what we are trying to do here 
today.
    Chairman Byrd. We are doing our part, you are doing yours, 
but what about the long-term plans?
    Mr. Von Essen. Well, you said before, you and I think it 
was Senator Domenici that had asked you, who is in charge?
    Chairman Byrd. Right.
    Mr. Von Essen. You will decide who is in charge, you will 
tell us who is in charge, we will tell them what we need, and 
you will get a plan.
    Chairman Byrd. Well, the President decided who was in 
charge when he named Mr. Ridge, didn't he?
    Mr. Von Essen. Yes.
    Chairman Byrd. Okay. Have you been asked by the Federal 
agencies for an inventory of your existing equipment, or for an 
analysis of what you may need as you adapt to the new realities 
of the threat of catastrophic terrorism in America? We will 
start with you.
    Mr. Crouse. No, sir, we have not. We have not been asked 
that question by the administration or by others. We have 
generated that information, I believe, through the Fire Act 
program, where our communities have attempted to communicate to 
the Federal Government their needs based on their observations 
of what is going on in their respective communities.
    Chairman Byrd. Anyone else?
    Mr. Stittleburg. Yes, sir. There was a survey distributed, 
I believe, by FEMA last December, that went to all fire 
departments in the United States, and I do not believe I have 
yet seen the tabulation of the results of that, but that survey 
did deal with such things as types of department, it had some 
information in terms of what types of equipment was available, 
and things of that nature.
    Chairman Byrd. General.
    General Alexander. Mr. Chairman, the Guard ability to 
support homeland security is directly related to the readiness 
of the units that it currently has in its inventory. Prior to 
September 11, those units were not fully resourced to 
accomplish their mission, and obviously with the additional 
requirements post September 11, we are not resourced to provide 
proper support to the civilian responders to the extent that we 
feel we should be.
    Chairman Byrd. Mr. Cox, do you know? What comment do you 
have on that question, if any? Let me ask it again. Have you 
been asked by the Federal agencies for an inventory of existing 
equipment, or for an analysis of what you may need as you adapt 
to the new realities of the threat of catastrophic terrorism in 
America?
    Mr. Cox. Not directly. Indirectly, there has been some 
communication from some local health departments to the State 
level about what the needs are.
    Chairman Byrd. Has the Office of Homeland Security given 
you any view, any goals or benchmarks by which to assess your 
state of readiness to respond to acts of terrorism?
    Mr. Stittleburg. Not to my knowledge, sir.
    Chairman Byrd. Sir.
    Mr. Stittleburg. Not to my knowledge.
    Chairman Byrd. Mr. Crouse.
    Mr. Crouse. No, sir.
    Chairman Byrd. Mr. Von Essen.
    Mr. Von Essen. No, sir.
    Chairman Byrd. General Alexander.
    General Alexander. Not to my knowledge, sir.
    Chairman Byrd. Mr. Cox.
    Mr. Cox. No, sir.
    Chairman Byrd. This is a question for the firefighter 
representatives. Last December, Congress approved a $210 
million emergency supplemental for FEMA grants to local fire 
departments. When combined with the $150 million contained in 
the fiscal year 2002 VA-HUD act, we provided $360 million for 
this vital program last year.
    FEMA received over $2.2 billion and 19,500 applications--I 
think I have heard references to that figure a number of 
times--for the $360 million program. Instead of proposing a 
supplemental for the program, the administration has proposed 
to eliminate the program in fiscal year 2003.
    Now, I have heard some comments already that have touched 
upon this question, but let me ask you to describe the types of 
equipment and training that the local fire departments would 
purchase and undertake right away if more resources were 
provided for the fire fighting program, and also your comments 
with respect to the proposing of a supplemental for the 
program. Instead of proposing such a supplemental, the 
administration has proposed to eliminate the program.
    Mr. Crouse.
    Mr. Crouse. Mr. Chairman, if I may, the IAFF opposes the 
administration's position. We believe the Fire Act program is 
much more different than the first responders proposal in that 
the Fire Act was designed to provide the fire departments 
locally the basic needs of what I refer to as putting the wet 
stuff on the red stuff, basic fire fighting techniques, fire 
apparatus, protective clothing, breathing apparatus as such, 
whereas the administration's current proposal is designed to 
address the terrorism issues themselves, which is an additional 
proficiency within the fire service that requires additional 
knowledge, skills, and abilities, trainings, and equipment to 
accomplish those tasks, and I think all three of the 
organizations here today are on the same page, that those two 
proposals should stand alone, be treated individually, and 
funded appropriately.
    We think the funding that was authorized last year for $900 
million I believe is an appropriate way to fund a Fire Act, and 
whatever it takes to fund the terrorism piece, then we could 
support that as well.
    And just by way of information, a survey that we have done 
with respect to your question about what type of equipment our 
locals are looking to have, 43 percent of our fire departments 
surveyed were in need of basic turnout gear, coats, gloves, 
helmets, boots, 50 percent of the fire departments were in need 
of additional respirators, breathing apparatus, 70 percent of 
the fire departments, believe it or not, did not have adequate 
maintenance programs to maintain the protective gear that they 
did have, and 66 percent of the fire departments were in need 
of better communications equipment, which obviously you have 
heard most people up here talk about today.
    So basically, just in closing, we support those two 
programs individually.
    Chairman Byrd. Anybody else?
    Mr. Von Essen. No, the Fire Chiefs Association concurs 100 
percent.
    Mr. Stittleburg. Likewise, the Volunteer Fire Council is 
absolutely in total agreement with Mr. Crouse's remarks.
    In terms of, what would we buy, and what do we buy when we 
get that money, we buy things as basic as the clothes we put on 
our backs when we respond to calls. This is not sophisticated 
equipment, as Mr. Crouse correctly points out. We are talking 
about equipping people with the most basic needs they have to 
provide responses.
    Chairman Byrd. Mr. Cox, yesterday, this committee heard 
from city and county officials who talked about the ability of 
local hospitals to respond to a biological or chemical weapon 
attack, and one mayor said that his response plan involved 
turning the local ice rink into a morgue. What is the capacity 
of local health departments to treat an outbreak of smallpox, 
or the plague, and what kind of investment is needed so that 
city and county health departments are able to identify 
pathogens? Just comment on those questions.
    Mr. Cox. Yes, sir. Well, certainly we need to develop 
nationwide surveillance systems to detect disease, and this is 
going to require cooperation with hospitals, with pharmacies, 
with schools, major places of employment, and with private 
physician groups and laboratories. That is--now, as far as--the 
second part of your question, sir, was?
    Chairman Byrd. Well, I had two questions. What is the 
capacity of local health departments to treat an outbreak of 
smallpox or the plague, and the second question, what kind of 
investment is needed so that city and county health departments 
are able to identify pathogens?
    Mr. Cox. Thank you, sir. Well, the capacity of local public 
health departments will vary, because some have really been 
underfunded for years. Most health departments would have the 
capacity to really, in an emergency situation, a bioterrorist 
event, to stop what they are doing routinely and shift those 
resources to the emergency, and that is what many would do. 
They would have the ability to give prophylaxis or medications.
    Certainly there is a great need to rebuild the capacity in 
public health to get new epidemiologists, to be able to track 
the disease down, to trace the disease, to isolate it, and to 
work with the private medical community, which is going to be, 
in a large event would be beyond local public health's capacity 
to actually treat, but certainly to work with hospitals and 
private medical providers, and health departments would be on 
hand with their clinics as well.
    Chairman Byrd. You say in your statement--I am not sure you 
read this part. You did streamline your remarks here. You say 
in your statement, and I quote, ``under your leadership, 
Congress provided new fiscal year 2002 funding for upgrading 
State and local public health capacity. At this point in time, 
funds have not yet reached local public health agencies. Most 
do not know yet how much they will receive from the State, and 
for what purposes. For that reason, they have not yet been able 
to hire or train new staff for bioterrorism preparedness.''
    It has been 7 months since the tragedies of September 11, 
and you say, I heard you say earlier, the sooner that new funds 
reach the local level, the sooner the local public health 
agencies and their community partners can begin making real, 
measurable progress. Can you elaborate on this? Where is the 
bottleneck? What is wrong? What is the problem we have to 
resolve here?
    Mr. Cox. Well, I do not know exactly where the bottleneck 
is. I can tell you where it is not, it is not at the local 
level, but I do not know where the money is. I know the States 
have received, it is my understanding, 20 percent of the 
allocations so far. The plans are due on April 15.
    I know that some--some--local health departments have been 
so impressed with the need to begin gearing up that they 
perhaps borrowed from their own funds, out of their own pocket, 
but quite frankly, that pocket has a hole in it, and is going 
to have to be mended pretty soon.
    Chairman Byrd. You say also that the experience of local 
public health agencies in the States have been mixed. Many are 
involved to a greater degree than ever before in their State's 
planning on how to use the funds. Some others you say, however, 
are greatly concerned that their communities may benefit very 
little because the States have not been including them in a 
meaningful fashion. Would you care to elaborate on that 
statement?
    Mr. Cox. Yes, sir. NACCHO has selected several sentinel 
local health departments to monitor the progress of this 
system, and reports that we have gotten back have been exactly 
as you say, Mr. Chair. It has been mixed. Some have been 
included in the planning process, and some have not.
    Some States, as you are aware, have a more centralized 
health system where they control the local health departments, 
and others do not, so there is a wide variance, but many have 
not been included.
    Chairman Byrd. Very well. I guess there will be a second 
vote starting soon. Now, I want to thank you again for your 
generosity with your time. I know you are busy people, very 
busy, and yet you have been very, very liberal with your time, 
and I want to thank you for all the work that you have done in 
preparing for these hearings and the time that you have 
consumed away from your other tasks to come here this morning 
and help us in our desire to appropriate the people's moneys 
meaningfully. Thank you for the information you have given to 
the committee, and for the information that people have 
received as a result of these hearings.
    This afternoon, we will continue our efforts with a number 
of experts on such critical matters as port security, nuclear 
plant security, and the safety of our water supply, all of 
which are absolutely essential to the security of our homeland. 
We will also hear from our former colleague from New Hampshire, 
Warren Rudman, who was a member of this committee when he 
served in the Senate. Senator Rudman was the co-chairman of the 
U.S. Commission on National Security in the 21st Century. He 
will testify on that commission's findings.

                            COMMITTEE RECESS

    I thank all of our witnesses again for coming to Washington 
to share with the committee your insights and judgments. 
Continue in your good work. We will try to do our part here.
    Thank you again for coming. The committee is in recess 
until 2 p.m. this afternoon.
    [Whereupon, at 12:34 p.m., Thursday, April 11, the 
committee was recessed, to reconvene at 2 p.m., the same day.]
        (Afternoon Session, 2:06 p.m., Thursday, April 11, 2002)

              Opening statement of Chairman Robert C. Byrd

    Chairman Byrd. The committee will resume its hearings. This 
afternoon we will hear testimony from our former very 
distinguished colleague from New Hampshire, Warren Rudman. He 
is a former member of this committee and performed great 
service on this committee. He will testify with regard to the 
report of the U.S. Commission on National Security/21st 
Century. Senator Rudman was the co-chairman--I do not know 
anything about co-chairs--co-chairman of that commission and he 
will focus on the homeland security portion of the commission's 
final report.
    He will be followed by a number of experts who will discuss 
the security of our infrastructure. Here we are concerned with 
such critical matters as port security, nuclear plant security, 
and the safety of our water supply. Such entities undergird the 
functioning of our economy and our way of life, and their 
destruction could devastate commerce, the economy, and could 
potentially cost thousands, tens of thousands, of lives. These 
particular vulnerabilities have to be at the top of any list of 
targets to protect from potential attacks.
    So I look forward to hearing the next round of testimony 
and to the wisdom of our panel this afternoon. Again, I want to 
thank all of our witnesses for coming to Washington, those who 
have had to travel from far away parts or near here. I thank 
all of them for sharing with the committee their insights and 
judgments.
    Now, my friend and colleague Senator Ted Stevens is 
recognized for any comments he may wish to make.

                    Statement of Senator Ted Stevens

    Senator Stevens. Mr. Chairman, I am looking forward to the 
comments of Senator Rudman as the co-chairman of the commission 
and I will have some questions later. Thank you.
    Chairman Byrd. Thank you. Thank you, Senator Stevens.
    Thank you, Senator Rudman, again. We have missed you. We 
are glad to have you back this afternoon. Ah, how great it is 
just to reminisce about the days gone by. Things have changed 
somewhat since you were here. We want to hear what you have to 
say on this great subject. We are talking about our homeland 
security, homeland defense. That is as much a part of national 
defense as it could be.
    So we know that you have given considerable study to this 
matter, you and former Senator Gary Hart, as has former Senator 
Sam Nunn. So we are waiting with eagerness to hear you.
STATEMENT OF HON. WARREN RUDMAN, FORMER UNITED STATES 
            SENATOR, CO-CHAIR, U.S. COMMISSION ON 
            NATIONAL SECURITY/21ST CENTURY
    Senator Rudman. Mr. Chairman, thank you for that gracious 
welcome. Let me say that it is a special privilege to appear 
before this committee, where I served, as you stated, Mr. 
Chairman, for 12 years. In many ways Ted Stevens was my mentor 
when I came into the Senate in 1980 and he gave me many 
opportunities, as did you, Senator, as chairman of the 
committee. So I am particularly pleased to appear before the 
two of you here today.
    The United States Commission on National Security was 
conceived of by the Congress and the President back in 1996 to 
decide what our structures for national security ought to look 
like in the 21st century. As you will both recall, although not 
serving in the body at the time--Senator Byrd came shortly 
thereafter--President Truman in 1946, along with General 
Marshall, decided that the entire structure of U.S. national 
security ought to be looked at and a major commission was 
undertaken which ended up creating the United States Department 
of Defense, the CIA, the United States Air Force, and a total 
reorganization of the State Department.
    Since 1946 no one had taken a look at this entire matter. 
We were asked to look at it. To our great surprise, at the end 
of 3\1/2\ years of study, to mirror somewhat what the chairman 
said in his opening, we came to the conclusion that the 
greatest threat to the United States' security was an 
asymmetrical threat. It was homeland security. We had great 
armed forces, a great Department of Defense, but we were naked 
to the acts of international terrorism that we unfortunately 
predicted in 1999 and again in the year 2000 would occur.
    Let me briefly, Mr. Chairman, I think for the overview that 
I have watched develop by this committee--and I have looked at 
your witness list for this series of hearings. I think an 
overview would be better, and let me tell you why we reached 
our conclusions and why we think they're persuasive.
    We debated two fundamental approaches to homeland security. 
As this committee is well aware, there are 43 different 
agencies that have some piece of homeland security, and we 
decided it was essential that there be some coordination. We 
proposed either a White House coordinator whose mission would 
be to persuade, or to integrate the mission into a National 
Security Council process and establish a coherent function to 
develop the strategy.
    We believed that any solution had to be consistent with our 
Cabinet form of Government, with accountability, and integrated 
into a strengthened NSC process that incorporates homeland 
security into the overall national security framework, rather 
than separating it as a stand-alone mission.
    We proposed creating a National Homeland Security Agency 
whose director or secretary would represent this mission at the 
NSC level. Parenthetically, we thought that that particular 
agency--and I testified on that just this morning before 
Senator Lieberman's committee--ought to take the border 
protection function and integrate the Coast Guard, Customs, 
INS, Border Patrol, and FEMA, with a Cabinet-level secretary 
who would be directly accountable to the Congress.
    We believed that the enduring nature of the problem 
required new institutions that could deal with homeland 
security effectively over time and not depend upon the fear of 
the moment or any strong personal relationship between a 
coordinator and a President at that time.
    We wanted to propose an agency that created no additive 
structure. We wanted to reduce the seams between many 
malpositioned agencies and rearrange them into a logical 
fashion along core homeland security functions. We were not 
proposing a highly centralized and unresponsive Federal 
bureaucracy. We did not propose the spending of vast new sums 
of money. As a matter of fact, the consolidation of those 
agencies that we proposed in our report would actually save 
money on the baseline of the year 2000.
    Lastly, we believed the Congress should have, obviously, 
complete oversight over homeland security to ensure 
accountability to the American people and to protect our 
fundamental freedoms and our civil liberties.
    What did we propose? We proposed that the President should 
develop a comprehensive strategy to heighten America's ability 
to prevent and protect against all forms of attack on the 
homeland and to respond to such attacks if prevention and 
protection fail. We thought the Congress should adopt and the 
President should propose a National Homeland Security Agency 
with responsibility for planning, coordinating, and integrating 
all U.S. Government functions involved in homeland security. We 
believed that FEMA would be the building block of this agency, 
with the other agencies that I previously mentioned being 
transferred from their present assignments in various Cabinet 
agencies.
    One directorate would focus on border control, a second 
would focus on direct response, and the third would consolidate 
both the physical and the cyber aspects of critical 
infrastructure protection. One thing that we came to a very 
quick conclusion on is that one of the greatest threats is 
cyber attacks on our transportation networks, our banking 
systems, our financial networks, and all of the things that 
cyber controls in this country.
    A great way to paralyze our economy would be with a smart 
cyber attack and we have no reason to believe there are not 
those in the world who are thinking along those lines. In fact, 
we know that they are.
    We recommended that the international component of reducing 
proliferation and terrorism overseas remain in the realm of 
diplomacy and defense, but integrated into homeland security. 
The purely military aspects of homeland defense should remain 
with DOD, though we recognized the need to better integrate 
DOD's support to civil authorities and to reorient the National 
Guard on the additional mission of homeland security.
    To better integrate homeland security into DOD, we 
recommended the establishment of an assistant secretary of 
defense for homeland security within the Office of Secretary of 
Defense. We also recommended, I think you may recall, that 
there be a, if you will, a USCOM, and I that Secretary Rumsfeld 
is proposing establishing essentially a CINC for homeland 
defense.
    We recognized the need to better integrate homeland 
security intelligence efforts. We did not envision the new 
agency to be an intelligence agency, spying on Americans, but 
we identified the clear need to create a single point to 
contact, request, get, and distribute intelligence relating to 
homeland security. We recommended that the National 
Intelligence Council include homeland security as an area of 
analysis, assign that portfolio to a national intelligence 
officer, and produce a national intelligence estimate on that 
threat.
    We did not recommend that the National Homeland Security 
Agency take over any law enforcement functions. We saw the need 
to better exchange information and to get the Justice 
Department out of crisis management. A fundamental conflict 
exists between efforts to preserve evidence and efforts to save 
lives.
    We recommended that the Congress establish a special body 
to deal with homeland security issues, as has been done 
effectively with intelligence oversight.
    Finally, we wanted the Congress to have a voice in creating 
this entity. We wanted legislation to establish a charter and 
felt it necessary for the Congress to provide a proper 
oversight to ensure that civil liberties are guaranteed. The 
absence of effective strategies and organizations threatens 
civil liberties. The best way to ensure that we violate the 
United States Constitution is not organize, plan, and train for 
this mission.
    Finally, the commission strongly believes that any lesser 
or more tenuous solutions would merely perpetuate bureaucratic 
confusion and diffusion of responsibility. No homeland czar can 
possibly hope to coordinate the hopeless dispersal of authority 
that currently characterizes the 40 or more agencies with some 
piece of the action for protecting our homeland.
    There are thoroughly debated reasons of constitutional 
principles and practices that cause us to strike the balance 
that we did. The national homeland security agency should not 
have police or military authority. It should not be an 
intelligence collection agency or have responsibility for 
counterterrorism. It should not be a military agency. It should 
be the central coordinating mechanism for anticipating, 
preventing, and responding to attacks on the homeland.
    Finally, Mr. Chairman, let me say that nothing that we 
propose is to be taken as a criticism of what the President did 
post September 11th. What he had to do could only be done by 
Executive Order. We believe it is now time for the Congress, 
working with the administration, to work its way through to 
develop an effective structure.
    [The information follows:]
         Road Map for National Security: Imperative for Change

 THE PHASE III REPORT OF THE U.S. COMMISSION ON NATIONAL SECURITY/21ST 
                                CENTURY
                   I. SECURING THE NATIONAL HOMELAND
    One of this Commission's most important conclusions in its Phase I 
report was that attacks against American citizens on American soil, 
possibly causing heavy casualties, are likely over the next quarter 
century.\7\ This is because both the technical means for such attacks, 
and the array of actors who might use such means, are proliferating 
despite the best efforts of American diplomacy.
---------------------------------------------------------------------------
    \7\ See New World Coming, p. 4, and the Report of the National 
Defense Panel, Transforming Defense: National Security in the 21st 
Century (Washington, DC: December 1997), p. 17.
---------------------------------------------------------------------------
    These attacks may involve weapons of mass destruction and weapons 
of mass disruption. As porous as U.S. physical borders are in an age of 
burgeoning trade and travel, its ``cyber borders'' are even more 
porous--and the critical infrastructure upon which so much of the U.S. 
economy depends can now be targeted by non-state and state actors 
alike. America's present global predominance does not render it immune 
from these dangers. To the contrary, U.S. preeminence makes the 
American homeland more appealing as a target, while America's openness 
and freedoms make it more vulnerable.
    Notwithstanding a growing consensus on the seriousness of the 
threat to the homeland posed by weapons of mass destruction and 
disruption, the U.S. government has not adopted homeland security as a 
primary national security mission. Its structures and strategies are 
fragmented and inadequate. The President must therefore both develop a 
comprehensive strategy and propose new organizational structures to 
prevent and protect against attacks on the homeland, and to respond to 
such attacks if prevention and protection should fail.
    Any reorganization must be mindful of the scale of the scenarios we 
envision and the enormity of their consequences. We need orders-of-
magnitude improvements in planning, coordination, and exercise. The 
government must also be prepared to use effectively--albeit with all 
proper safeguards--the extensive resources of the Department of 
Defense. This will necessitate new priorities for the U.S. armed forces 
and particularly, in our view, for the National Guard.
    The United States is today very poorly organized to design and 
implement any comprehensive strategy to protect the homeland. The 
assets and organizations that now exist for homeland security are 
scattered across more than two dozen departments and agencies, and all 
fifty states. The Executive Branch, with the full participation of 
Congress, needs to realign, refine, and rationalize these assets into a 
coherent whole, or even the best strategy will lack an adequate vehicle 
for implementation.
    This Commission believes that the security of the American homeland 
from the threats of the new century should be the primary national 
security mission of the U.S. government. While the Executive Branch 
must take the lead in dealing with the many policy and structural 
issues involved, Congress is a partner of critical importance in this 
effort. It must find ways to address homeland security issues that 
bridge current gaps in organization, oversight, and authority, and that 
resolve conflicting claims to jurisdiction within both the Senate and 
the House of Representatives and also between them.
    Congress is crucial, as well, for guaranteeing that homeland 
security is achieved within a framework of law that protects the civil 
liberties and privacy of American citizens. We are confident that the 
U.S. government can enhance national security without compromising 
established Constitutional principles. But in order to guarantee this, 
we must plan ahead. In a major attack involving contagious biological 
agents, for example, citizen cooperation with government authorities 
will depend on public confidence that those authorities can manage the 
emergency. If that confidence is lacking, panic and disorder could lead 
to insistent demands for the temporary suspension of some civil 
liberties. That is why preparing for the worst is essential to 
protecting individual freedoms during a national crisis.
    Legislative guidance for planning among federal agencies and state 
and local authorities must take particular cognizance of the role of 
the Defense Department. Its subordination to civil authority needs to 
be clearly defined in advance.
    In short, advances in technology have created new dimensions to our 
nation's economic and physical security. While some new threats can be 
met with traditional responses, others cannot. More needs to be done in 
three areas to prevent the territory and infrastructure of the United 
States from becoming easy and tempting targets: in strategy, in 
organizational realignment, and in Executive-Legislative cooperation. 
We take these areas in turn.
            A. The strategic framework
    A homeland security strategy to minimize the threat of intimidation 
and loss of life is an essential support for an international 
leadership role for the United States. Homeland security is not 
peripheral to U.S. national security strategy but central to it. At 
this point, national leaders have not agreed on a clear strategy for 
homeland security, a condition this Commission finds dangerous and 
intolerable. We therefore recommend the following:
1. The President should develop a comprehensive strategy to heighten 
        America's ability to prevent and protect against all forms of 
        attack on the homeland, and to respond to such attacks if 
        prevention and protection fail.
    In our view, the President should:
  --Give new priority in his overall national security strategy to 
        homeland security, and make it a central concern for incoming 
        officials in all Executive Branch departments, particularly the 
        intelligence and law enforcement communities;
  --Calmly prepare the American people for prospective threats, and 
        increase their awareness of what federal and state governments 
        are doing to prevent attacks and to protect them if prevention 
        fails;
  --Put in place new government organizations and processes, 
        eliminating where possible staff duplication and mission 
        overlap; and
  --Encourage Congress to establish new mechanisms to facilitate closer 
        cooperation between the Executive and Legislative Branches of 
        government on this vital issue.
    We believe that homeland security can best be assured through a 
strategy of layered defense that focuses first on prevention, second on 
protection, and third on response.
    Prevention.--Preventing a potential attack comes first. Since the 
occurrence of even one event that causes catastrophic loss of life 
would represent an unacceptable failure of policy, U.S. strategy should 
therefore act as far forward as possible to prevent attacks on the 
homeland. This strategy has at its disposal three essential 
instruments.
    Most broadly, the first instrument is U.S. diplomacy.--U.S. foreign 
policy should strive to shape an international system in which just 
grievances can be addressed without violence. Diplomatic efforts to 
develop friendly and trusting relations with foreign governments and 
their people can significantly multiply America's chances of gaining 
early warning of potential attack and of doing something about 
impending threats. Intelligence-sharing with foreign governments is 
crucial to help identify individuals and groups who might be 
considering attacks on the United States or its allies. Cooperative 
foreign law enforcement agencies can detain, arrest, and prosecute 
terrorists on their own soil. Diplomatic success in resolving overseas 
conflicts that spawn terrorist activities will help in the long run.
    Meanwhile, verifiable arms control and nonproliferation efforts 
must remain a top priority. These policies can help persuade states and 
terrorists to abjure weapons of mass destruction and to prevent the 
export of fissile materials and dangerous dual-use technologies. But 
such measures cannot by themselves prevent proliferation. So other 
measures are needed, including the possibility of punitive measures and 
defenses. The United States should take a lead role in strengthening 
multilateral organizations such as the International Atomic Energy 
Agency.
    In addition, increased vigilance against international crime 
syndicates is also important because many terrorist organizations gain 
resources and other assets through criminal activity that they then use 
to mount terrorist operations. Dealing with international organized 
crime requires not only better cooperation with other countries, but 
also among agencies of the federal government. While progress has been 
made on this front in recent years, more remains to be done.\8\
---------------------------------------------------------------------------
    \8\ See International Crime Threat Assessment (Washington, DC: The 
White House, December 2000).
---------------------------------------------------------------------------
    The second instrument of homeland security consists of the U.S. 
diplomatic, intelligence, and military presence overseas.--Knowing the 
who, where, and how of a potential physical or cyber attack is the key 
to stopping a strike before it can be delivered. Diplomatic, 
intelligence, and military agencies overseas, as well as law 
enforcement agencies working abroad, are America's primary eyes and 
ears on the ground. But increased public-private efforts to enhance 
security processes within the international transportation and 
logistics networks that bring people and goods to America are also of 
critical and growing importance.
    Vigilant systems of border security and surveillance are a third 
instrument that can prevent those agents of attack who are not detected 
and stopped overseas from actually entering the United States.--
Agencies such as the U.S. Customs Service and U.S. Coast Guard have a 
critical prevention role to play. Terrorists and criminals are finding 
that the difficulty of policing the rising daily volume and velocities 
of people and goods that cross U.S. borders makes it easier for them to 
smuggle weapons and contraband, and to move their operatives into and 
out of the United States. Improving the capacity of border control 
agencies to identify and intercept potential threats without creating 
barriers to efficient trade and travel requires a sub-strategy also 
with three elements.
    First is the development of new transportation security procedures 
and practices designed to reduce the risk that importers, exporters, 
freight forwarders, and transportation carriers will serve as unwitting 
conduits for criminal or terrorist activities. Second is bolstering the 
intelligence gathering, data management, and information sharing 
capabilities of border control agencies to improve their ability to 
target high-risk goods and people for inspection. Third is 
strengthening the capabilities of border control agencies to arrest 
terrorists or interdict dangerous shipments before they arrive on U.S. 
soil.
    These three measures, which place a premium on public-private 
partnerships, will pay for themselves in short order. They will allow 
for the more efficient allocation of limited enforcement resources 
along U.S. borders. There will be fewer disruptive inspections at ports 
of entry for legitimate businesses and travelers. They will lead to 
reduced theft and insurance costs, as well. Most important, the 
underlying philosophy of this approach is one that balances prudence, 
on the one hand, with American values of openness and free trade on the 
other.\9\ To shield America from the world out of fear of terrorism is, 
in large part, to do the terrorists' work for them. To continue 
business as usual, however, is irresponsible.
---------------------------------------------------------------------------
    \9\ Note in this regard Stephen E. Flynn, ``Beyond Border 
Control,'' Foreign Affairs (November/December 2000).
---------------------------------------------------------------------------
    The same may be said for our growing cyber problems. Protecting our 
nation's critical infrastructure depends on greater public awareness 
and improvements in our tools to detect and diagnose intrusions. This 
will require better information sharing among all federal, state, and 
local governments as well as with private sector owners and operators. 
The federal government has these specific tasks:
  --To serve as a model for the private sector by improving its own 
        security practices;
  --To address known government security problems on a system-wide 
        basis;
  --To identify and map network interdependencies so that harmful 
        cascading effects among systems can be prevented;
  --To sponsor vulnerability assessments within both the federal 
        government and the private sector; and
  --To design and carry out simulations and exercises that test 
        information system security across the nation's entire 
        infrastructure.
    Preventing attacks on the American homeland also requires that the 
United States maintain long-range strike capabilities. The United 
States must bolster deterrence by making clear its determination to use 
military force in a preemptive fashion if necessary. Even the most 
hostile state sponsors of terrorism, or terrorists themselves, will 
think twice about harming Americans and American allies and interests 
if they fear direct and severe U.S. attack after--or before--the fact. 
Such capabilities will strengthen deterrence even if they never have to 
be used.
    Protection.--The Defense Department undertakes many different 
activities that serve to protect the American homeland, and these 
should be integrated into an overall surveillance system, buttressed 
with additional resources. A ballistic missile defense system would be 
a useful addition and should be developed to the extent technically 
feasible, fiscally prudent, and politically sustainable. Defenses 
should also be pursued against cruise missiles and other sophisticated 
atmospheric weapon technologies as they become more widely deployed. 
While both active duty and reserve forces are involved in these 
activities, the Commission believes that more can and should be done by 
the National Guard, as is discussed in more detail below.
    Protecting the nation's critical infrastructure and providing 
cyber-security must also include:
  --Advanced indication, warning, and attack assessments;
  --A warning system that includes voluntary, immediate private-sector 
        reporting of potential attacks to enable other private-sector 
        targets (and the U.S. government) better to take protective 
        action; and
  --Advanced systems for halting attacks, establishing backups, and 
        restoring service.
    Response.--Managing the consequences of a catastrophic attack on 
the U.S. homeland would be a complex and difficult process. The first 
priority should be to build up and augment state and local response 
capabilities. Adequate equipment must be available to first responders 
in local communities. Procedures and guidelines need to be defined and 
disseminated and then practiced through simulations and exercises. 
Interoperable, robust, and redundant communications capabilities are a 
must in recovering from any disaster. Continuity of government and 
critical services must be ensured as well. Demonstrating effective 
responses to natural and manmade disasters will also help to build 
mutual confidence and relationships among those with roles in dealing 
with a major terrorist attack.
    All of this puts a premium on making sure that the disparate 
organizations involved with homeland security--on various levels of 
government and in the private sector--can work together effectively. We 
are frankly skeptical that the U.S. government, as it exists today, can 
respond effectively to the scale of danger and damage that may come 
upon us during the next quarter century. This leads us, then, to our 
second task: that of organizational realignment.
            B. Organizational realignment
    Responsibility for homeland security resides at all levels of the 
U.S. government--local, state, and federal. Within the federal 
government, almost every agency and department is involved in some 
aspect of homeland security. None have been organized to focus on the 
scale of the contemporary threat to the homeland, however. This 
Commission urges an organizational realignment that:
  --Designates a single person, accountable to the President, to be 
        responsible for coordinating and overseeing various U.S. 
        government activities related to homeland security;
  --Consolidates certain homeland security activities to improve their 
        effectiveness and coherence;
  --Establishes planning mechanisms to define clearly specific 
        responses to specific types of threats; and
  --Ensures that the appropriate resources and capabilities are 
        available.
    Therefore, this Commission strongly recommends the following:
2. The President should propose, and Congress should agree to create, a 
        National Homeland Security Agency (NHSA) with responsibility 
        for planning, coordinating, and integrating various U.S. 
        government activities involved in homeland security. The 
        Federal Emergency Management Agency (FEMA) should be a key 
        building block in this effort.
    Given the multiplicity of agencies and activities involved in these 
homeland security tasks, someone needs to be responsible and 
accountable to the President not only to coordinate the making of 
policy, but also to oversee its implementation. This argues against 
assigning the role to a senior person on the National Security Council 
(NSC) staff and for the creation of a separate agency. This agency 
would give priority to overall planning while relying primarily on 
others to carry out those plans. To give this agency sufficient stature 
within the government, its director would be a member of the Cabinet 
and a statutory advisor to the National Security Council. The position 
would require Senate confirmation.
    Notwithstanding NHSA's responsibilities, the National Security 
Council would still play a strategic role in planning and coordinating 
all homeland security activities. This would include those of NHSA as 
well as those that remain separate, whether they involve other NSC 
members or other agencies, such as the Centers for Disease Control 
within the Department of Health and Human Services.
    We propose building the National Homeland Security Agency upon the 
capabilities of the Federal Emergency Management Agency (FEMA), an 
existing federal agency that has performed well in recent years, 
especially in responding to natural disasters. NHSA would be 
legislatively chartered to provide a focal point for all natural and 
manmade crisis and emergency planning scenarios. It would retain and 
strengthen FEMA's ten existing regional offices as a core element of 
its organizational structure.
    While FEMA is the necessary core of the National Homeland Security 
Agency, it is not sufficient to do what NHSA needs to do. In 
particular, patrolling U.S. borders, and policing the flows of peoples 
and goods through the hundreds of ports of entry, must receive higher 
priority. These activities need to be better integrated, but efforts 
toward that end are hindered by the fact that the three organizations 
on the front line of border security are spread across three different 
U.S. Cabinet departments. The Coast Guard works under the Secretary of 
Transportation, the Customs Service is located in the Department of the 
Treasury, and the Immigration and Naturalization Service oversees the 
Border Patrol in the Department of Justice. In each case, the border 
defense agency is far from the mainstream of its parent department's 
agenda and consequently receives limited attention from the 
department's senior officials. We therefore recommend the following:
3. The President should propose to Congress the transfer of the Customs 
        Service, the Border Patrol, and Coast Guard to the National 
        Homeland Security Agency, while preserving them as distinct 
        entities.
    Bringing these organizations together under one agency will create 
important synergies. Their individual capabilities will be molded into 
a stronger and more effective system, and this realignment will help 
ensure that sufficient resources are devoted to tasks crucial to both 
public safety and U.S. trade and economic interests. Consolidating 
overhead, training programs, and maintenance of the aircraft, boats, 
and helicopters that these three agencies employ will save money, and 
further efficiencies could be realized with regard to other resources 
such as information technology, communications equipment, and dedicated 
sensors. Bringing these separate, but complementary, activities 
together will also facilitate more effective Executive and Legislative 
oversight, and help rationalize the process of budget preparation, 
analysis, and presentation.
    Steps must be also taken to strengthen these three individual 
organizations themselves.--The Customs Service, the Border Patrol, and 
the Coast Guard are all on the verge of being overwhelmed by the 
mismatch between their growing duties and their mostly static 
resources.
    The Customs Service, for example, is charged with preventing 
contraband from entering the United States. It is also responsible for 
preventing terrorists from using the commercial or private 
transportation venues of international trade for smuggling explosives 
or weapons of mass destruction into or out of the United States. The 
Customs Service, however, retains only a modest air, land, and marine 
interdiction force, and its investigative component, supported by its 
own intelligence branch, is similarly modest. The high volume of 
conveyances, cargo, and passengers arriving in the United States each 
year already overwhelms the Customs Service's capabilities. Over $8.8 
billion worth of goods, over 1.3 million people, over 340,000 vehicles, 
and over 58,000 shipments are processed daily at entry points. Of this 
volume, Customs can inspect only one to two percent of all inbound 
shipments. The volume of U.S. international trade, measured in terms of 
dollars and containers, has doubled since 1995, and it may well double 
again between now and 2005.
    Therefore, this Commission believes that an improved computer 
information capability and tracking system--as well as upgraded 
equipment that can detect both conventional and nuclear explosives, and 
chemical and biological agents--would be a wise short-term investment 
with important long-term benefits. It would also raise the risk for 
criminals seeking to target or exploit importers and cargo carriers for 
illicit gains.\10\
---------------------------------------------------------------------------
    \10\ See the Report of the Interagency Commission on Crime and 
Security in U.S. Seaports (Washington, DC: Fall 2000).
---------------------------------------------------------------------------
    The Border Patrol is the uniformed arm of the Immigration and 
Naturalization Service. Its mission is the detection and prevention of 
illegal entry into the United States. It works primarily between ports 
of entry and patrols the borders by various means. There has been a 
debate for many years about whether the dual functions of the 
Immigration and Naturalization Service border--control and enforcement 
on the one side, and immigration facilitation on the other--should be 
joined under the same roof. The U.S. Commission on Immigration Reform 
concluded that they should not be joined.\11\ We agree: the Border 
Patrol should become part of the NHSA.
---------------------------------------------------------------------------
    \11\ See the Report of the U.S. Commission on Immigration Reform 
(Washington, DC: 1997).
---------------------------------------------------------------------------
    The U.S. Coast Guard is a highly disciplined force with multiple 
missions and a natural role to play in homeland security. It performs 
maritime search and rescue missions, manages vessel traffic, enforces 
U.S. environmental and fishery laws, and interdicts and searches 
vessels suspected of carrying illegal aliens, drugs, and other 
contraband. In a time of war, it also works with the Navy to protect 
U.S. ports from attack.
    Indeed, in many respects, the Coast Guard is a model homeland 
security agency given its unique blend of law enforcement, regulatory, 
and military authorities that allow it to operate within, across, and 
beyond U.S. borders. It accomplishes its many missions by routinely 
working with numerous local, regional, national, and international 
agencies, and by forging and maintaining constructive relationships 
with a diverse group of private, non-governmental, and public marine-
related organizations. As the fifth armed service, in peace and war, it 
has national defense missions that include port security, overseeing 
the defense of coastal waters, and supporting and integrating its 
forces with those of the Navy and the other services.
    The case for preserving and enhancing the Coast Guard's multi-
mission capabilities is compelling. But its crucial role in protecting 
national interests close to home has not been adequately appreciated, 
and this has resulted in serious and growing readiness concerns. U.S. 
Coast Guard ships and aircraft are aging and technologically obsolete; 
indeed, the Coast Guard cutter fleet is older than 39 of the world's 41 
major naval fleets. As a result, the Coast Guard fleet generates 
excessive operating and maintenance costs, and lacks essential 
capabilities in speed, sensors, and interoperability. To fulfill all of 
its missions, the Coast Guard requires updated platforms with the 
staying power, in hazardous weather, to remain offshore and fully 
operational throughout U.S. maritime economic zones.\12\
---------------------------------------------------------------------------
    \12\ See Report of the Interagency Task Force on U.S. Coast Guard 
Roles and Missions, A Coast Guard for the Twenty First-Century 
(Washington, DC: December 1999).
---------------------------------------------------------------------------
    The Commission recommends strongly that Congress recapitalize the 
Customs Service, the Border Patrol, and the Coast Guard so that they 
can confidently perform key homeland security roles.
    NHSA's planning, coordinating, and overseeing activities would be 
undertaken through three staff Directorates. The Directorate of 
Prevention would oversee and coordinate the various border security 
activities, as discussed above. A Directorate of Critical 
Infrastructure Protection (CIP) would handle the growing cyber threat. 
FEMA's emergency preparedness and response activities would be 
strengthened in a third directorate to cover both natural and manmade 
disasters. A Science and Technology office would advise the NHSA 
Director on research and development efforts and priorities for all 
three directorates.
    Relatively small permanent staffs would man the directorates. NHSA 
will employ FEMA's principle of working effectively with state and 
local governments, as well as with other federal organizations, 
stressing interagency coordination. Much of NHSA's daily work will take 
place directly supporting state officials in its regional offices 
around the country. Its organizational infrastructure will not be 
heavily centered in the Washington, DC area.
    NHSA would also house a National Crisis Action Center (NCAC), which 
would become the nation's focal point for monitoring emergencies and 
for coordinating federal support in a crisis to state and local 
governments, as well as to the private sector. We envision the center 
to be an interagency operation, directed by a two-star National Guard 
general, with full-time representation from the other federal agencies 
involved in homeland security (See Figure 1). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    NHSA will require a particularly close working relationship with 
the Department of Defense. It will need also to create and maintain 
strong mechanisms for the sharing of information and intelligence with 
U.S. domestic and international intelligence entities. We suggest that 
NHSA have liaison officers in the counter-terrorism centers of both the 
FBI and the CIA. Additionally, the sharing of information with business 
and industry on threats to critical infrastructures requires further 
expansion.
    NHSA will also assume responsibility for overseeing the protection 
of the nation's critical infrastructure. Considerable progress has been 
made in implementing the recommendations of the President's Commission 
on Critical Infrastructure Protection (PCCIP) and Presidential Decision 
Directive 63 (PDD-63). But more needs to be done, for the United States 
has real and growing problems in this area.
    U.S. dependence on increasingly sophisticated and more concentrated 
critical infrastructures has increased dramatically over the past 
decade. Electrical utilities, water and sewage systems, transportation 
networks, and communications and energy systems now depend on computers 
to provide safe, efficient, and reliable service. The banking and 
finance sector, too, keeps track of millions of transactions through 
increasingly robust computer capabilities.
    The overwhelming majority of these computer systems are privately 
owned, and many operate at or very near capacity with little or no 
provision for manual back-ups in an emergency. Moreover, the 
computerized information networks that link systems together are 
themselves vulnerable to unwanted intrusion and disruption. An attack 
on any one of several highly interdependent networks can cause 
collateral damage to other networks and the systems they connect. Some 
forms of disruption will lead merely to nuisance and economic loss, but 
other forms will jeopardize lives. One need only note the dependence of 
hospitals, air-traffic control systems, and the food processing 
industry on computer controls to appreciate the point.
    The bulk of unclassified military communications, too, relies on 
systems almost entirely owned and operated by the private sector. Yet 
little has been done to assure the security and reliability of those 
communications in crisis. Current efforts to prevent attacks, protect 
against their most damaging effects, and prepare for prompt response 
are uneven at best, and this is dangerous because a determined 
adversary is most likely to employ a weapon of mass disruption during a 
homeland security or foreign policy crisis.
    As noted above, a Directorate for Critical Infrastructure 
Protection would be an integral part of the National Homeland Security 
Agency. This directorate would have two vital responsibilities. First 
would be to oversee the physical assets and information networks that 
make up the U.S. critical infrastructure. It should ensure the 
maintenance of a nucleus of cyber security expertise within the 
government, as well. There is now an alarming shortage of government 
cyber security experts due in large part to the financial attraction of 
private-sector employment that the government cannot match under 
present personnel procedures.\13\ The director's second responsibility 
would be as the Critical Information Technology, Assurance, and 
Security Office (CITASO). This office would coordinate efforts to 
address the nation's vulnerability to electronic or physical attacks on 
critical infrastructure.
---------------------------------------------------------------------------
    \13\ We return to this problem below in Section IV.
---------------------------------------------------------------------------
    Several critical activities that are currently spread among various 
government agencies and the private sector should be brought together 
for this purpose. These include:
  --Information Sharing and Analysis Centers (ISACs), which are 
        government-sponsored committees of private-sector participants 
        who work to share information, plans, and procedures for 
        information security in their fields;
  --The Critical Infrastructure Assurance Office (CIAO), currently 
        housed in the Commerce Department, which develops outreach and 
        awareness programs with the private sector;
  --The National Infrastructure Protection Center (NIPC), currently 
        housed in the FBI, which gathers information and provides 
        warnings of cyber attacks; and
  --The Institute for Information Infrastructure Protection (I\3\P), 
        also in the Commerce Department, which is designed to 
        coordinate and support research and development projects on 
        cyber security.
    In partnership with the private sector where most cyber assets are 
developed and owned, the Critical Infrastructure Protection Directorate 
would be responsible for enhancing information sharing on cyber and 
physical security, tracking vulnerabilities and proposing improved risk 
management policies, and delineating the roles of various government 
agencies in preventing, defending, and recovering from attacks. To do 
this, the government needs to institutionalize better its private-
sector liaison across the board--with the owners and operators of 
critical infrastructures, hardware and software developers, server/
service providers, manufacturers/producers, and applied technology 
developers.
    The Critical Infrastructure Protection Directorate's work with the 
private sector must include a strong advocacy of greater government and 
corporate investment in information assurance and security. The CITASO 
would be the focal point for coordinating with the Federal 
Communications Commission (FCC) in helping to establish cyber policy, 
standards, and enforcement mechanisms. Working closely with the Office 
of Management and Budget (OMB) and its Chief Information Officer 
Council (CIO Council), the CITASO needs to speak for those interests in 
government councils.\14\ The CITASO must also provide incentives for 
private-sector participation in Information Sharing and Analysis 
Centers to share information on threats, vulnerabilities, and 
individual incidents, to identify interdependencies, and to map the 
potential cascading effects of outages in various sectors.
---------------------------------------------------------------------------
    \14\ The Chief Information Officer Council is a government 
organization consisting of all the statutory Chief Information Officers 
in the government. It is located within OMB under the Deputy Director 
for Management.
---------------------------------------------------------------------------
    The directorate also needs to help coordinate cyber security issues 
internationally. At present, the FCC handles international cyber issues 
for the U.S. government through the International Telecommunications 
Union. As this is one of many related international issues, it would be 
unwise to remove this responsibility from the FCC. Nevertheless, the 
CIP Directorate should work closely with the FCC on cyber issues in 
international bodies.
    The mission of the NHSA must include specific planning and 
operational tasks to be staffed through the Directorate for Emergency 
Preparedness and Response. These include:
  --Setting training and equipment standards, providing resource 
        grants, and encouraging intelligence and information sharing 
        among state emergency management officials, local first 
        responders, the Defense Department, and the FBI;
  --Integrating the various activities of the Defense Department, the 
        National Guard, and other federal agencies into the Federal 
        Response Plan; and
  --Pulling together private sector activities, including those of the 
        medical community, on recovery, consequence management, and 
        planning for continuity of services.
    Working with state officials, the emergency management community, 
and the law enforcement community, the job of NHSA's third directorate 
will be to rationalize and refine the nation's incident response 
system. The current distinction between crisis management and 
consequence management is neither sustainable nor wise. The duplicative 
command arrangements that have been fostered by this division are prone 
to confusion and delay. NHSA should develop and manage a single 
response system for national incidents, in close coordination with the 
Department of Justice (DoJ) and the FBI. This would require that the 
current policy, which specifies initial DoJ control in terrorist 
incidents on U.S. territory, be amended once Congress creates NHSA. We 
believe that this arrangement would in no way contradict or diminish 
the FBI's traditional role with respect to law enforcement.
    The Emergency Preparedness and Response Directorate should also 
assume a major resource and budget role. With the help of the Office of 
Management and Budget, the directorate's first task will be to figure 
out what is being spent on homeland security in the various departments 
and agencies. Only with such an overview can the nation identify the 
shortfalls between capabilities and requirements. Such a mission budget 
should be included in the President's overall budget submission to 
Congress. The Emergency Preparedness and Response Directorate will also 
maintain federal asset databases and encourage and support up-to-date 
state and local databases.
    FEMA has adapted well to new circumstances over the past few years 
and has gained a well-deserved reputation for responsiveness to both 
natural and manmade disasters. While taking on homeland security 
responsibilities, the proposed NHSA would strengthen FEMA's ability to 
respond to such disasters. It would streamline the federal apparatus 
and provide greater support to the state and local officials who, as 
the nation's first responders, possess enormous expertise. To the 
greatest extent possible, federal programs should build upon the 
expertise and existing programs of state emergency preparedness systems 
and help promote regional compacts to share resources and capabilities.
    To help simplify federal support mechanisms, we recommend 
transferring the National Domestic Preparedness Office (NDPO), 
currently housed at the FBI, to the National Homeland Security Agency. 
The Commission believes that this transfer to FEMA should be done at 
first opportunity, even before NHSA is up and running.
    The NDPO would be tasked with organizing the training of local 
responders and providing local and state authorities with equipment for 
detection, protection, and decontamination in a WMD emergency. NHSA 
would develop the policies, requirements, and priorities as part of its 
planning tasks as well as oversee the various federal, state, and local 
training and exercise programs. In this way, a single staff would 
provide federal assistance for any emergency, whether it is caused by 
flood, earthquake, hurricane, disease, or terrorist bomb.
    A WMD incident on American soil is likely to overwhelm local fire 
and rescue squads, medical facilities, and government services. Attacks 
may contaminate water, food, and air; largescale evacuations may be 
necessary and casualties could be extensive. Since getting prompt help 
to those who need it would be a complex and massive operation requiring 
federal support, such operations must be extensively planned in 
advance. Responsibilities need to be assigned and procedures put in 
place for these responsibilities to evolve if the situation worsens.
    As we envision it, state officials will take the initial lead in 
responding to a crisis. NHSA will normally use its Regional Directors 
to coordinate federal assistance, while the National Crisis Action 
Center will monitor ongoing operations and requirements. Should a 
crisis overwhelm local assets, state officials will turn to NHSA for 
additional federal assistance. In major crises, upon the recommendation 
of the civilian Director of NHSA, the President will designate a senior 
figure--a Federal Coordinating Officer--to assume direction of all 
federal activities on the scene. If the situation warrants, a state 
governor can ask that active military forces reinforce National Guard 
units already on the scene. Once the President federalizes National 
Guard forces, or if he decides to use Reserve forces, the Joint Forces 
Command will assume responsibility for all military operations, acting 
through designated task force commanders. At the same time, the 
Secretary of Defense would appoint a Defense Coordinating Officer to 
provide civilian oversight and ensure prompt civil support. This person 
would work for the Federal Coordinating Officer. This response 
mechanism is displayed in Figure 2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To be capable of carrying out its responsibilities under extreme 
circumstances, NHSA will need to undertake robust exercise programs and 
regular training to gain experience and to establish effective command 
and control procedures. It will be essential to update regularly the 
Federal Response Plan. It will be especially critical for NHSA 
officials to undertake detailed planning and exercises for the full 
range of potential contingencies, including ones that require the 
substantial involvement of military assets in support.
    NHSA will provide the overarching structure for homeland security, 
but other government agencies will retain specific homeland security 
tasks. We take the necessary obligations of the major ones in turn.
    Intelligence Community.--Good intelligence is the key to preventing 
attacks on the homeland and homeland security should become one of the 
intelligence community's most important missions.\15\ Better human 
intelligence must supplement technical intelligence, especially on 
terrorist groups covertly supported by states. As noted above, fuller 
cooperation and more extensive information-sharing with friendly 
governments will also improve the chances that would-be perpetrators 
will be detained, arrested, and prosecuted before they ever reach U.S. 
borders.
---------------------------------------------------------------------------
    \15\ We return to this issue in our discussion of the Intelligence 
Community in Section III.F., particularly in recommendation 37.
---------------------------------------------------------------------------
    The intelligence community also needs to embrace cyber threats as a 
legitimate mission and to incorporate intelligence gathering on 
potential strategic threats from abroad into its activities.
    To advance these ends, we offer the following recommendation:
4. The President should ensure that the National Intelligence Council: 
        include homeland security and asymmetric threats as an area of 
        analysis; assign that portfolio to a National Intelligence 
        Officer; and produce National Intelligence Estimates on these 
        threats.
    Department of State.--U.S. embassies overseas are the American 
people's first line of defense. U.S. Ambassadors must make homeland 
security a top priority for all embassy staff, and Ambassadors need the 
requisite authority to ensure that information is shared in a way that 
maximizes advance warning overseas of direct threats to the United 
States.
    Ambassadors should also ensure that the gathering of information, 
and particularly from open sources, takes full advantage of all U.S. 
government resources abroad, including diplomats, consular officers, 
military officers, and representatives of the various other departments 
and agencies. The State Department should also strengthen its efforts 
to acquire information from Americans living or travelling abroad in 
private capacities.
    The State Department has made good progress in its overseas efforts 
to reduce terrorism, but we now need to extend this effort into the 
Information Age. Working with NHSA's CIP Directorate, the State 
Department should expand cooperation on critical infrastructure 
protection with other states and international organizations. Private 
sector initiatives, particularly in the banking community, provide 
examples of international cooperation on legal issues, standards, and 
practices. Working with the CIP Directorate and the FCC, the State 
Department should also encourage other governments to criminalize 
hacking and electronic intrusions and to help track hackers, computer 
virus proliferators, and cyber terrorists.
    Department of Defense.--The Defense Department, which has placed 
its highest priority on preparing for major theater war, should pay far 
more attention to the homeland security mission. Organizationally, DOD 
responses are widely dispersed. An Assistant to the Secretary of 
Defense for Civil Support has responsibility for WMD incidents, while 
the Department of the Army's Director of Military Support is 
responsible for non-WMD contingencies. Such an arrangement does not 
provide clear lines of authority and responsibility or ensure political 
accountability. The Commission therefore recommends the following:
5. The President should propose to Congress the establishment of an 
        Assistant Secretary of Defense for Homeland Security within the 
        Office of the Secretary of Defense, reporting directly to the 
        Secretary.
    A new Assistant Secretary of Defense for Homeland Security would 
provide policy oversight for the various DOD activities within the 
homeland security mission and ensure that mechanisms are in place for 
coordinating military support in major emergencies. He or she would 
work to integrate homeland security into Defense Department planning, 
and ensure that adequate 24 resources are forthcoming. This Assistant 
Secretary would also represent the Secretary in the NSC interagency 
process on homeland security issues.
    Along similar lines and for similar reasons, we also recommend that 
the Defense Department broaden and strengthen the existing Joint Forces 
Command/Joint Task Force-Civil Support (JTF-CS) to coordinate military 
planning, doctrine, and command and control for military support for 
all hazards and disasters.
    This task force should be directed by a senior National Guard 
general with additional headquarters personnel. JTF-CS should contain 
several rapid reaction task forces, composed largely of rapidly 
mobilizable National Guard units. The task force should have command 
and control capabilities for multiple incidents. Joint Forces Command 
should work with the Assistant Secretary of Defense for Homeland 
Security to ensure the provision of adequate resources and appropriate 
force allocations, training, and equipment for civil support.
    On the prevention side, maintaining strong nuclear and conventional 
forces is as high a priority for homeland security as it is for other 
missions. Shaping a peaceful international environment and deterring 
hostile military actors remain sound military goals. But deterrent 
forces may have little effect on non-state groups secretly supported by 
states, or on individuals with grievances real or imagined. In cases of 
clear and imminent danger, the military must be able to take preemptive 
action overseas in circumstances where local authorities are unable or 
unwilling to act. For this purpose, as noted above, the United States 
needs to be prepared to use its rapid, long-range precision strike 
capabilities. A decision to act would obviously rest in civilian hands, 
and would depend on intelligence information and assessments of 
diplomatic consequences. But even if a decision to strike preemptively 
is never taken or needed, the capability should be available 
nonetheless, for knowledge of it can contribute to deterrence.
    We also suggest that the Defense Department broaden its mission of 
protecting air, sea, and land approaches to the United States, 
consistent with emerging threats such as the potential proliferation of 
cruise missiles. The department should examine alternative means of 
monitoring approaches to the territorial United States. Modern 
information technology and sophisticated sensors can help monitor the 
high volumes of traffic to and from the United States. Given the volume 
of legitimate activities near and on the border, even modern 
information technology and remote sensors cannot filter the good from 
the bad as a matter of routine. It is neither wise nor possible to 
create a surveillance umbrella over the United States. But Defense 
Department assets can be used to support detection, monitoring, and 
even interception operations when intelligence indicates a specific 
threat.
    Finally, a better division of labor and understanding of 
responsibilities is essential in dealing with the connectivity and 
interdependence of U.S. critical infrastructure systems. This includes 
addressing the nature of a national transportation network or cyber 
emergency and the Defense Department's role in prevention, detection, 
or protection of the national critical infrastructure. The department's 
sealift and airlift plans are premised on largely unquestioned 
assumptions that domestic transportation systems will be fully 
available to support mobilization requirements. The department also is 
paying insufficient attention to the vulnerability of its information 
networks. Currently, the department's computer network defense task 
force (JTF-Computer Network Defense) is underfunded and understaffed 
for the task of managing an actual strategic information warfare 
attack. It should be given the resources to carry out its current 
mission and is a logical source of advice to the proposed NHSA Critical 
Information Technology, Assurance, and Security Office.
    National Guard.--The National Guard, whose origins are to be found 
in the state militias authorized by the U.S. Constitution, should play 
a central role in the response component of a layered defense strategy 
for homeland security. We therefore recommend the following:
6. The Secretary of Defense, at the President's direction, should make 
        homeland security a primary mission of the National Guard, and 
        the Guard should be organized, properly trained, and adequately 
        equipped to undertake that mission.
    At present, the Army National Guard is primarily organized and 
equipped to conduct sustained combat overseas. In this the Guard 
fulfills a strategic reserve role, augmenting the active military 
during overseas contingencies. At the same time, the Guard carries out 
many statelevel missions for disaster and humanitarian relief, as well 
as consequence management. For these, it relies upon the discipline, 
equipment, and leadership of its combat forces. The National Guard 
should redistribute resources currently allocated predominantly to 
preparing for conventional wars overseas to provide greater support to 
civil authorities in preparing for and responding to disasters, 
especially emergencies involving weapons of mass destruction.
    Such a redistribution should flow from a detailed assessment of 
force requirements for both theater war and homeland security 
contingencies. The Department of Defense should conduct such an 
assessment, with the participation of the state governors and the NHSA 
Director. In setting requirements, the department should minimize 
forces with dual missions or reliance on active forces detailed for 
major theater war. This is because the United States will need to 
maintain a heightened deterrent and defensive posture against homeland 
attacks during regional contingencies abroad. The most likely timing of 
a major terrorist incident will be while the United States is involved 
in a conflict overseas.\16\
---------------------------------------------------------------------------
    \16\ See the Report of the National Defense University Quadrennial 
Defense Review 2001 Working Group (Washington, DC: Institute for 
National Strategic Studies, November 2000), p. 60.
---------------------------------------------------------------------------
    The National Guard is designated as the primary Department of 
Defense agency for disaster relief. In many cases, the National Guard 
will respond as a state asset under the control of state governors. 
While it is appropriate for the National Guard to play the lead 
military role in managing the consequences of a WMD attack, its 
capabilities to do so are uneven and in some cases its forces are not 
adequately structured or equipped. Twenty-two WMD Civil Support Teams, 
made up of trained and equipped full-time National Guard personnel, 
will be ready to deploy rapidly, assist local first responders, provide 
technical advice, and pave the way for additional military help. These 
teams fill a vital need, but more effort is required.
    This Commission recommends that the National Guard be directed to 
fulfill its historic and Constitutional mission of homeland security.--
It should provide a mobilization base with strong local ties and 
support. It is already ``forward deployed'' to achieve this mission and 
should:
  --Participate in and initiate, where necessary, state, local, and 
        regional planning for responding to a WMD incident;
  --Train and help organize local first responders;
  --Maintain up-to-date inventories of military resources and equipment 
        available in the area on short notice;
  --Plan for rapid inter-state support and reinforcement; and
  --Develop an overseas capability for international humanitarian 
        assistance and disaster relief.
    In this way, the National Guard will become a critical asset for 
homeland security.
    Medical Community.--The medical community has critical roles to 
play in homeland security. Catastrophic acts of terrorism or violence 
could cause casualties far beyond any imagined heretofore. Most of the 
American medical system is privately owned and now operates at close to 
capacity. An incident involving WMD will quickly overwhelm the 
capacities of local hospitals and emergency management professionals.
    In response, the National Security Council, FEMA, and the 
Department of Health and Human Services have already begun a 
reassessment of their programs. Research to develop better diagnostic 
equipment and immune-enhancing drugs is underway, and resources to 
reinvigorate U.S. epidemiological surveillance capacity have been 
allocated. Programs to amass and regionally distribute inventories of 
antibiotics and vaccines have started, and arrangements for mass 
production of selected pharmaceuticals have been made. The Centers for 
Disease Control has rapid-response investigative units prepared to 
deploy and respond to incidents.
    These programs will enhance the capacities of the medical 
community, but the momentum and resources for this effort must be 
extended. We recommend that the NHSA Directorate for Emergency 
Preparedness and Response assess local and federal medical resources to 
deal with a WMD emergency. It should then specify those medical 
programs needed to deal with a major national emergency beyond the 
means of the private sector, and Congress should fund those needs.
            C. Executive-legislative cooperation
    Solving the homeland security challenge is not just an Executive 
Branch problem. Congress should be an active participant in the 
development of homeland security programs, as well. Its hearings can 
help develop the best ideas and solutions. Individual members should 
develop expertise in homeland security policy and its implementation so 
that they can fill in policy gaps and provide needed oversight and 
advice in times of crisis. Most important, using its power of the 
purse, Congress should ensure that government agencies have sufficient 
resources and that their programs are coordinated, efficient, and 
effective.
    Congress has already taken important steps. A bipartisan 
Congressional initiative produced the U.S. effort to deal with the 
possibility that weapons of mass destruction could ``leak'' out of a 
disintegrating Soviet Union.\17\ It was also a Congressional initiative 
that established the Domestic Preparedness Program and launched a 120-
city program to enhance the capability of federal, state, and local 
first responders to react effectively in a WMD emergency.\18\ Members 
of Congress from both parties have pushed the Executive Branch to 
identify and manage the problem more effectively. Congress has also 
proposed and funded studies and commissions on various aspects of the 
homeland security problem.\19\ But it must do more.
---------------------------------------------------------------------------
    \17\ Sponsored by Senators Sam Nunn and Richard Lugar.
    \18\ Public Law 104-201, National Defense Authorization Act for 
Fiscal Year 1997: Defense Against Weapons of Mass Destruction. This 
legislation, known as the Nunn-Lugar-Domenici Amendment, was passed in 
July 1996.
    \19\ We note: the Rumsfeld Commission [Report of the Commission to 
Assess the Ballistic Missile Threat to the United States (Washington, 
DC: July 15, 1998)]; the Deutch Commission [Combating Proliferation of 
Weapons of Mass Destruction (Washington, DC: July 14, 1999)]; Judge 
William Webster's Commission [Report on the Advancement of Federal Law 
Enforcement (Washington, DC: January 2000)]; the Bremer Commission 
[Report of the National Commission on Terrorism, Countering the 
Changing Threat of International Terrorism (Washington, DC: June 
2000)]; and an advisory panel led Virginia Governor James Gilmore 
[First Annual Report to the President and the Congress of the Advisory 
Panel to Assess Domestic Response Capabilities for Terrorism Involving 
Weapons of Mass Destruction (Washington, DC: December 15, 1999)].
---------------------------------------------------------------------------
    A sound homeland security strategy requires the overhaul of much of 
the legislative framework for preparedness, response, and national 
defense programs. Congress designed many of the authorities that 
support national security and emergency preparedness programs 
principally for a Cold War environment. The new threat environment--
from biological and terrorist attacks to cyber attacks on critical 
systems--poses vastly different challenges. We therefore recommend that 
Congress refurbish the legal foundation for homeland security in 
response to the new threat environment.
    In particular, Congress should amend, as necessary, key legislative 
authorities such as the Defense Production Act of 1950 and the 
Communications Act of 1934, which facilitate homeland security 
functions and activities.\20\ Congress should also encourage the 
sharing of threat, vulnerability, and incident data between the public 
and private sectors--including federal agencies, state governments, 
first responders, and industry.\21\ In addition, Congress should 
monitor and support current efforts to update the international legal 
framework for communications security issues.\22\
---------------------------------------------------------------------------
    \20\ The Defense Production Act was developed during the Korean War 
when shortages of critical natural resources such as coal, oil, and gas 
were prioritized for national defense purposes. [See Defense Production 
Act of 1950, codified at 50 USC App. Sec.  2061 et seq. Title I 
includes delegations to prioritize and allocate goods and services 
based on national defense needs.] Executive Order 12919, National 
Defense Industrial Resources Preparedness, June 6, 1994, implements 
Title I of the Defense Production Act. Congressional review should 
focus on the applicability of the Defense Production Act to homeland 
security needs, ranging from prevention to restoration activities. 
Section 706 of the Communications Act of 1934 also needs revision so 
that it includes the electronic media that have developed in the past 
two decades. [See 48 Stat. 1104, 47 USC Sec.  606, as amended.] 
Executive Order 12472, Assignment of National Security and Emergency 
Preparedness Telecommunications Functions, April 3, 1984, followed the 
breakup of AT&T and attempted to specify anew the prerogatives of the 
Executive Branch in accordance with the 1934 Act in directing national 
communications media during a national security emergency. It came 
before the Internet, however, and does not clearly apply to it.
    \21\ For more than four years, multiple institutions have called on 
national leadership to support laws and policies promoting security 
cooperation through public-private partnerships. See, for example, the 
President's Commission on Critical Infrastructure Protection, Critical 
Foundations, Protecting America's Infrastructures (Washington, DC: 
October 1997), pp. 86-88 and Report of the Defense Science Board Task 
Force on Information Warfare (Washington, DC: November 1996).
    \22\ This includes substantial efforts in multiple forums, such as 
the Council of Europe and the G8, to fight transnational organized 
crime. See Communique on principles to fight transnational organized 
crime, Meeting of the Justice and Interior Ministers of the Eight, 
December 9-10, 1997.
---------------------------------------------------------------------------
    Beyond that, Congress has some organizational work of its own to 
do. As things stand today, so many federal agencies are involved with 
homeland security that it is exceedingly difficult to present federal 
programs and their resource requirements to the Congress in a coherent 
way. It is largely because the budget is broken up into so many pieces, 
for example, that counterterrorism and information security issues 
involve nearly two dozen Congressional committees and subcommittees. 
The creation of the National Security Homeland Agency will redress this 
problem to some extent, but because of its growing urgency and 
complexity, homeland security will still require a stronger working 
relationship between the Executive and Legislative Branches. Congress 
should therefore find ways to address homeland security issues that 
bridge current jurisdictional boundaries and that create more 
innovative oversight mechanisms.
    There are several ways of achieving this. The Senate's Arms Control 
Observer Group and its more recent NATO Enlargement Group were two 
successful examples of more informal Executive-Legislative cooperation 
on key multi-dimensional issues. Specifically, in the near term, this 
Commission recommends the following:
7. Congress should establish a special body to deal with homeland 
        security issues, as has been done effectively with intelligence 
        oversight. Members should be chosen for their expertise in 
        foreign policy, defense, intelligence, law enforcement, and 
        appropriations. This body should also include members of all 
        relevant Congressional committees as well as ex-officio members 
        from the leadership of both Houses of Congress.
    This body should develop a comprehensive understanding of the 
problem of homeland security, exchange information and viewpoints with 
the Executive Branch on effective policies and plans, and work with 
standing committees to develop integrated legislative responses and 
guidance. Meetings would often be held in closed session so that 
Members could have access to interagency deliberations and diverging 
viewpoints, as well as to classified assessments. Such a body would 
have neither a legislative nor an oversight mandate, and it would not 
eclipse the authority of any standing committee.
    At the same time, Congress needs to systematically review and 
restructure its committee system, as will be proposed in recommendation 
48. A single, select committee in each house of Congress should be 
given authorization, appropriations, and oversight responsibility for 
all homeland security activities. When established, these committees 
would replace the function of the oversight body described in 
recommendation 7.
    In sum, the federal government must address the challenge of 
homeland security with greater urgency. The United States is not immune 
to threats posed by weapons of mass destruction or disruption, but 
neither is it entirely defenseless against them. Much has been done to 
prevent and defend against such attacks, but these efforts must be 
incorporated into the nation's overall security strategy, and clear 
direction must be provided to all departments and agencies. Non-
traditional national security agencies that now have greater relevance 
than they did in the past must be reinvigorated. Accountability, 
authority, and responsibility must be more closely aligned within 
government agencies. An Executive-Legislative consensus is required, as 
well, to convert strategy and resources into programs and capabilities, 
and to do so in a way that preserves fundamental freedoms and 
individual rights.
    Most of all, however, the government must reorganize itself for the 
challenges of this new era, and make the necessary investments to allow 
an improved organizational structure to work. Through the Commission's 
proposal for a National Homeland Security Agency, the U.S. government 
will be able to improve the planning and coordination of federal 
support to state and local agencies, to rationalize the allocation of 
resources, to enhance readiness in order to prevent attacks, and to 
facilitate recovery if prevention fails. Most important, this proposal 
integrates the problem of homeland security within the broader 
framework of U.S. national security strategy. In this respect, it 
differs significantly from issue-specific approaches to the problem, 
which tend to isolate homeland security away from the larger strategic 
perspective of which it must be a part.
    We are mindful that erecting the operational side of this strategy 
will take time to achieve. Meanwhile, the threat grows ever more 
serious. That is all the more reason to start right away on 
implementing the recommendations put forth here.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd. Thank you, Senator Rudman. In light of what 
has happened since your report was issued, how would you change 
your recommendations, or what additional recommendations would 
you have, number 1? Number 2, what are the shortcomings of the 
Office of Homeland Security? Perhaps the word ``shortcomings'' 
is the wrong word. How do you see the Office of Homeland 
Security as it has been established and as it is presently 
operating with broad responsibilities under the Executive 
Order? How do you see that as against what you had in mind when 
you wrote your report?
    Senator Rudman. Let me take them in order. Mr. Chairman, 
the only major change that we would make has in fact been 
incorporated into legislation offered by Senator Lieberman, 
Congressman Thornberry in the House, and I believe Senator 
Specter. We believe that the homeland security agency, in 
addition to Border Patrol and FEMA and Coast Guard and INS and 
so forth, there are several other parts of certain agencies 
which ought to be transferred in there. That would be the major 
change from that recommendation.
    As to your second question, we of course in our 
recommendation did not anticipate the President appointing, if 
you will, a National Security Council for Homeland Security, 
which is essentially what has been done here. I mean, in many 
ways Governor Ridge is Condoleeza Rice's counterpart, with 
national security and national homeland security being handled 
quite separately.
    We had recommended the integration of a coordinating agency 
within the NSC. The President has chosen to set it up 
separately, which probably is every bit as good.
    For the long term, however, we believe there has to be some 
statutory oversight for any coordination of what's going to be 
$35 or $40 billion worth of funds. Let me simply explain in a 
minute why. Right now, as we all know--and I see my friends 
Senator Hollings, Senator Inouye, and Senator Domenici have 
joined us--we have all served on committees that had to do with 
national defense. We know that the National Security Adviser is 
a junction, if you will, for all of those issues.
    But when it comes to the Congress having oversight, 
although the National Security Adviser traditionally will not 
testify, we get our testimony from the Secretary of Defense, 
from the Secretary of State, from the Director of Central 
Intelligence. Obviously, the secretary of homeland security 
would be able to fill a large part of that, and for the 
strategic end of it I suppose you would call for the Director 
of OMB to come and testify as to what the coherent approach was 
of the administration to any particular issue. So that is how I 
would answer your second question.
    Chairman Byrd. Well, as you say, Condoleeza Rice, the 
National Security Adviser, has someone above her who does 
testify before the Congress. There is the Secretary of State, 
the Secretary of Defense. So we indeed do not have to have her. 
But in the case of Mr. Ridge, there is nobody above him. He is 
the point man for the administration. The President is the man 
who is above Mr. Ridge.
    Senator Rudman. And that is why there has to be major 
reorganization in my view. You could not continue and I do not 
think the White House would seriously--I do not speak for them, 
obviously, but I cannot imagine that the administration would 
believe that the Congress would allow $35 billion to $40 
billion of money to be appropriated every year that was 
uncoordinated in a strategic way.
    But I would say in their defense, it has only been 6 months 
and I hope that between the Congress and the administration 
this can be worked out. That was the subject of our testimony 
this morning before the Government Affairs Committee.
    Chairman Byrd. Senator Stevens.

                   Questioning by Senator Ted Stevens

    Senator Stevens. Senator, we do not see any plan yet. The 
real problem is where the plan is, and that is one of the 
reasons that I joined Senator Byrd in trying to get Governor 
Ridge to come before our committee to give us a plan. Our 
alternative right now is to call those 43, we think it is 44, 
agencies that are all going to get a piece of this money. And 
we would not do it. It would be the subcommittees that would do 
that, and there would be no real coordination even here with 
the overall subject of homeland defense unless we have some 
sort of an entity.
    Has your organization backed the bill that is introduced? I 
think it is Senators Lieberman and Thompson, is it not?
    Senator Rudman. I believe Senator Thompson did join the 
bill. I did not want to mention his name. I was not sure of 
that. But if it was, it is the Lieberman-Thompson bill. I think 
Senator Thompson may take exception to title 2 of that bill. I 
am not sure.
    Senator Stevens. I am on that committee, but I do not know 
whether he co-sponsored it or not.
    Senator Rudman. Basically, there is a lot of agreement on 
much of the bill. The first part of the bill does the 
reorganization. The second part deals with what you and Senator 
Byrd have been talking about and that is what goes on in the 
White House. They kind of set it up a bit like the drug czar, 
who is confirmed by the Congress, I believe, and reports to the 
Congress.
    Senator Stevens. I do not want to offend my chairman. I 
think there is a little bit of politics going on in that bill 
and I am not sure where it is going to go. I would like to see 
some solution to this matter and I really believe we need a 
coordinating committee, such as an entity like NHSA that you, 
and your group, have suggested. But I sort of shy back because 
you want the Coast Guard to be in that. The Coast Guard's 
mission is far in excess of homeland security.
    Senator Rudman. Absolutely.
    Senator Stevens. The Coast Guard has been operating 
overseas since the days of the Persian Gulf War. Now, you want 
to put even more of it in the Department of Defense?
    Senator Rudman. No, we do not, and if I can respond, we 
talked to the Coast Guard people rather at length about this. 
The Coast Guard would not change. It would not change its 
mission, it would not change its equipment, it would not change 
its organization. It, however, would reside in a department 
which we believe is a more likely place for it to reside than 
residing with the Department of Transportation. Its function 
would not change.
    Senator Stevens. But it has been residing in the Department 
of Transportation, but most of its modernization money has been 
coming from the money that Senator Inouye and I have urged the 
Department of Defense to provide the Coast Guard.
    Senator Rudman. Exactly. But we think it is better off in 
the department of homeland security, which is a more sensible 
place for it to be than in Transportation.
    Senator Stevens. But you do admit in your report that the 
problem with it is capitalization.
    Senator Rudman. Absolutely, and we at length discuss that 
and we applaud what the committee has done. The Coast Guard is 
hurting. It has a myriad of missions and not the resources to 
discharge them. When you consider what has been added on, now 
homeland security, the war on drugs--15 years ago, those were 
not missions of the United States Coast Guard. So I could not 
agree with you more.
    Senator Stevens. My real problem with that, Senator, is 
that we have had this array of witnesses, we have got more 
coming, and they are all talking about a need for money for 
capitalization. Every entity that has been here so far wanted 
more money, and to put the Coast Guard into an entity that is 
going to be having--it is like an enormous nest of chicks, 
little baby birds with open mouths. This one is already a grown 
bird, and I think it will be starved if it is part of that 
entity.
    I have some real reservations about it, I have got to tell 
you, real reservations about putting the Coast Guard into the 
national entity you all have recommended.
    Senator Rudman. Let me just respond in this way, and I 
certainly respect your view and understand it. I think, coming 
from Alaska, you have a great deal of interface----
    Senator Stevens. We have half the coast line of the United 
States.
    Senator Rudman [continuing]. With the Coast Guard. Let me 
just make an observation. You know, we have 50,000 containers 
coming into this country every day, 50,000. Less than 1 percent 
are inspected. If you want to see an act of terrorism waiting 
to happen, that is where I would look. I would not look much at 
airports right now.
    The Coast Guard is doing yeoman work in trying to do 
inspection on incoming ships, as you well know. We believe that 
that is going to be such an incredibly important function that 
it ought to be in the homeland security agency. But I 
understand your objection, and I simply tell you that after 
looking at all of the objections, we found this was probably 
the best place to put it.
    Although I am not sure how many will testify publicly, many 
of the Coast Guard people who were ranking told us they would 
love to be in a different agency. So we will leave it there.
    Chairman Byrd. Senator Landrieu.

                Questioning by Senator Mary L. Landrieu

    Senator Landrieu. Thank you, Senator.
    Thank you very much, Senator, for appearing and helping us 
sort through these great challenges. If I could just 
acknowledge for all the members, who are very familiar with 
your work and your career, how much we have appreciated the 
Hart-Rudman report and that you were working on this excellent 
piece of work prior to September 11th and at least it gave us 
quickly something we could reach to on that day. Some of our 
committees had already begun looking at some of the 
recommendations of that report, and of course the events of 
September 11th propelled us to move forward rather quickly on 
that.
    But let me ask, since we are on the governance issue, just 
a question about a very excellent witness that was part of the 
panel that the chairman and the ranking member had invited 
yesterday, Ashton Carter, about his suggestion that I thought 
was very insightful and very encouraging about the role of the 
Office of Homeland Security, not so much as a czar but as an 
architect.
    Because of the complicated nature of so many of our 
agencies having pieces of this great challenge, he suggested 
that having this new role evolve more towards the framework of 
an architect, laying out, if you will, a blueprint and then 
allowing the standing committees of Congress, mostly through 
this Appropriations Committee, to force those fundings down to 
that architecture.
    Have you read his work? Are you familiar with his work? 
Could you comment about it? Do you think his work is----
    Senator Rudman. Very familiar with Ashton Carter's work. We 
have consulted with Ashton Carter. He has read all of our work, 
we have read all of his work. I know him personally. He is one 
of the most outstanding people up at Harvard at the Kennedy 
School, so we certainly are familiar.
    I do not think there is anything particularly mutually 
exclusive about Ashton Carter's proposal versus ours. We 
certainly agree. He wants to call it architecture; I would 
prefer to call it a strategy for homeland security. It means to 
me the same thing.
    As to how you organize it, I am convinced of two things. 
There has to be some consolidation of a number of agencies out 
of these 43 or 44 that we currently are looking at into a lot 
fewer, organized along structural and operational lines. 
Secondly, there has to be a central place for defining the 
strategy, if you will, or the architecture, if you will, as to 
how you, A, are going to organize it and, B, how are you going 
to spend the funds or, more particularly, how are you going to 
convince the Congress that you need the funds. So I do not 
disagree with Ashton Carter at all.
    Senator Landrieu. Well, just to comment, though, what I 
thought I heard him say--and I listened as carefully as I 
could--was that he thought that any attempt at too much 
consolidation would fail under the general weight of trying to 
move agencies that are very geared and anchored into their 
traditional ways; that he would argue for a clear strategy at 
the top and then forcing it down through the agencies, with 
maybe less consolidation than you will have.
    I do not want to harp on this, but I think that is an 
important point to drive a consensus about what is the best 
way, because we could spend a lot of time getting agencies 
fighting and then leaving our flanks open to the next attack, 
and what I am interested in is trying to move forward in the 
most effective way so that when the next attack comes--and I am 
convinced, as your report suggests, that--you predicted, not 
the specifics of the attack, but in your report you said there 
will be an attack on American soil, and you were right in your 
report. So I am assuming, because you were right in that 
prediction, that there is some urgency about getting this right 
before the next attack comes.
    Senator Rudman. Let me respond that, as far as what Ashton 
Carter has said generally, we do not disagree with it. But I 
will tell you where we feel very strongly. We spent 3\1/2\ 
years looking at it. Maybe we are wrong; I do not think so. If 
you look at the list of the people who served on this 
commission, we had a lot of weight on this commission. It was 
totally divided down the middle, Democrats, Republicans. There 
was no partisanship whatsoever on this.
    We were absolutely convinced that we have a dysfunction and 
a disconnect in terms of border security. If you cannot protect 
the borders of the United States, you better give up on almost 
everything else you are doing--nuclear security and this 
security and airport security. If you get enough people into 
this country who should not be here, then we are going to have 
a lot of trouble.
    We believe that that consolidation is absolutely essential. 
If you spent the time talking to the people from the Border 
Patrol, the INS, Customs, Coast Guard, and many others, you 
would come to the same conclusion we did. So to the extent that 
Ashton Carter does not think that it is necessary, we disagree 
with that.
    Senator Landrieu. Well, I do not want to put those words in 
his mouth. He might not think it was that strong. I just 
thought that having one centralized agency might be too much to 
reach to, so this was an alternative.
    Let me ask a second question. There is a lot of uneasiness, 
is the way I would describe it--different committees have 
looked at it; the Armed Services Committee has looked at it--
about the new expanding role of the military, given this new 
threat. The military has been structured to keep us safe by 
fighting wars off of our shores. Now we find ourselves in some 
ways under attack, not knowing when the next attack will come, 
but it surely will come. We do not know what form.
    Can you comment about the way that you see, with your 
experiences, having been on the Armed Services, what we could 
be suggesting to our military that they need to be looking at 
differently? And not maybe shying away from this, but engaging 
more, because they have the expertise, they do this very well. 
They could be very, very helpful to our local civilians and 
agencies that are very new to this protection, national 
security. The military has been doing it well for hundreds of 
years.
    Could you comment about the role of the military, and are 
they right to be this reluctant? Is it understandable, or 
should we press them into a more direct role?
    Senator Rudman. The military and its role is very well 
covered in the report, not only in this report but, as you 
know, there were three. There was a 1999, a 2000, and a final 
report. The one thing we made it very clear is that there ought 
to be strong civilian control over homeland security, that the 
primary mission should be a civilian mission; but in the event 
of a major emergency, such as a nuclear, chemical, or 
biological attack, it is only the military that could respond 
with the communications, transportation, hospitals, and so 
forth.
    So that is why we recommended a strong role for the 
Department of Defense in planning to help local communities in 
times of great stress. We also, as I am sure you know, made a 
strong recommendation that the National Guard ought to be dual-
trained in homeland security.
    Senator Landrieu. Thank you, Mr. Chairman.
    Chairman Byrd. Thank you Senator.
    Senator Domenici, then Senator Inouye.

                Questioning by Senator Pete V. Domenici

    Senator Domenici. Thank you very much, Mr. Chairman.
    Very good to see you, Senator Rudman. One of the things we 
do not do enough is see each other. It is a big void in our 
lives.
    Frankly, I do not have enough time in 7 minutes to engage 
you on this subject. But I am a little worried about when we 
are going to find out how we should allocate resources to put 
our Nation on a path of responding to what happened. I think 
the President and his people for a short period of time, the 
little bit of time they have had, have done a pretty good job. 
But I myself am concerned that we are a Nation of great 
diversity, we are a Nation of great diversity both as to assets 
that should be mobilized to be used in this new sense of 
homeland security, and I do not quite understand how we are 
going to get to an inventory of this with a conclusion as to 
what we use that is out there, and how we continue to keep 
ourselves modern in terms of what we should be doing.
    I think you are reading my mind as I talk about this, 
because we have some national laboratories, not only the three 
nuclear laboratories but a few others that are part of the 
Defense Department and civilian research. They have a great 
capacity to organize and tell us where and what we have got as 
a Nation, what is cutting edge, and what is ready. I do not 
quite understand under the structure suggested by the President 
how we are going to take heed of those and use them.
    As you looked at this in your studies--I will just give you 
another one: What will happen to instrumentalities that have 
been developed for one purpose but are very good for another 
purpose. I cited for the committee here this morning and maybe 
you have heard of a process that two laboratories, the nuclear 
labs in New Mexico, developed called NISAC. I think, being as 
interested as you are, you would have heard of it.
    I think the general that used to be the chairman of the 
Coal Caucus, Senator Byrd, has just been assigned to 
investigate the potential for this NISAC and where it should be 
lodged. It is a process whereby the supercomputers at the 
national laboratories have already been used to inventory all 
the infrastructure of America, all the dams, all the tunnels, 
all the power plants, all the electric generating plants, et 
cetera.
    That system, when operated appropriately by the right kind 
of talent, tells you the impact on society of destroying or 
harming any of the infrastructure you would like to ask it 
about. You would ask it about a power plant way up there in New 
York, if somebody was going to do it. You ask it, say that was 
done what is the impact, and it will tell you whose lights will 
go out, et cetera.
    I think it is a good tool for the terrorists, but it is not 
secret. At least it is not now.
    But I am kind of wondering. Can you talk about how we 
should go about putting these in a place where they would be 
used properly and would the organization and the utility of 
that be in the hands, at the discretion of the Governor, the 
Governor that our President has put in charge? He is not a 
line--he has no line operation, from what I understand. What 
would you do about it?
    Senator Rudman. That would not be--in fact, we covered in 
the report--in the main body, I believe, and in the indices, 
one of the things we talked about was, interestingly, long 
before September 11th, was that science and technology exists 
and the potential exists in both the private and the public 
sector--you are referring to the public sector, some of those 
laboratories, and some are private--that have science and 
technology that is suitable for one thing which well could add 
in homeland security.
    Let me give you a very good example. One of the serious 
problems facing us that is being looked at today is how do you 
handle these containers coming into the country. Every one 
ought to be examined for nuclear, chemical, or biological 
contents. How do you do that? What kind of equipment is 
available?
    I am sure that residing in some of our laboratories around 
the country there are some answers. The fact is that those of 
us who worked in the defense area know all about DARPA and the 
remarkable work DARPA has done over, what, a 40 or a 50-year 
period. We believe there has to be a science and technology arm 
of the department of homeland security to exploit the very 
things that the Senator from New Mexico is talking about.
    Senator Domenici. Well, I am not going to ask any other 
questions. Mr. Chairman, that is exactly what I have been 
thinking about in terms of presenting to the committee, that 
there is a huge amount of money that the President has set 
aside in his request for appropriations, it is called research 
and development, that would impact on the positive side on our 
ability to cope with this kind of war.
    I am hopeful that we will be ingenious enough to make sure 
that we set up within our Government a way to capture the dual 
purpose science that is going on because of the Defense 
Department and the private sector dual-use potential. There are 
many, many things in our laboratories that are directed at 
nuclear weapons that have a use to protect us in this war we 
now have on terrorists.
    I cited one for you that clearly is going to make a 
dramatic impact. It is going to be somewhere in our Government, 
and I am concerned how we are going to address it as 
appropriators. Are we going to give them no money because we do 
not know where it is or are we going to give it loose money and 
say somebody is going to take care of it even if they are not 
quite the appropriate place to have it? We will work on some of 
those and present something to the committee long before we 
start appropriating.
    Thank you, Mr. Chairman.
    Chairman Byrd. All right.
    Senator Inouye, then Senator Hollings.

                Questioning by Senator Daniel K. Inouye

    Senator Inouye. Thank you very much.
    Senator Rudman, I wanted to be here earlier this afternoon 
to greet you, but the problems and emergencies of Hawaii 
usually erupt between 7:00 and 8:00 in the morning in Hawaii, 
which is 1 p.m. and 2 p.m. here. So I was delayed a little.
    Warren, if I may call you that, sir, since September 11th I 
have had occasion to do much reading and much traveling--
Afghanistan, Uzbekistan, Pakistan, China, Indonesia, 
Philippines, Singapore. There are certain conclusions I have 
reached. This terrorism is global, as the President has 
indicated; that terrorists do not necessarily wear beards. In 
fact, the one who struck Oklahoma had no beard and he was a 
Christian. Some of the most vicious terrorists were from Japan, 
the Red Army.
    I am also convinced that we can never look upon this as a 
short-term matter, that it is going to be with us, as it has 
been with us, for many, many decades, if not centuries. 
Therefore, I agree with you completely when you recommend that 
this should be a position of the highest level, at the least a 
Cabinet position.
    That is why we are hoping that, even if that designee is 
not a Cabinet member at this time, he comes to us and helps us 
in organizing what we hope to be the most effective system or 
agency that can cope with this global problem. You are 
definitely agreed upon that it should be a Cabinet position?
    Senator Rudman. Oh, absolutely. We believe that the 
department of homeland security, which would be the focal point 
in any administration for all of these functions, although they 
would not perform them all--obviously, the FBI, CIA, HHS has 
functions--but they would be the focal point and they would be 
the coordinators, they would set the budgets as to what they 
ought to be, and they would be the ones who would be primarily 
accountable to the Congress.
    Senator Inouye. And the Director of Homeland Security today 
is the man who is supposed to be doing that?
    Senator Rudman. It is a superhuman effort that he has been 
assigned. I looked at the numbers in the proposals of the 
administration. We are talking $35 billion in homeland security 
functions for this year and I think $38 billion for next. That 
is four times the size of many of what we call independent 
agencies. It is a lot of money.
    Senator Inouye. Do you consider this a long-term problem?
    Senator Rudman. Oh, our report says that this will be with 
us for many, many years and into the indefinite future, and we 
also sadly believe there will be other terrorist attacks on 
this country, and we unfortunately believe that the greatest 
threat is nuclear, chemical, and biological over the next 5 to 
15 years, which is why we think it is urgent.
    Senator Inouye. Does your commission also recommend that 
the Congress should have a special committee for this?
    Senator Rudman. We do, and we think you should take the 
expertise of Defense, Judiciary, Foreign Relations, HHS, make 
sure the committee draws broadly from the expertise of the 
members, and establish, if you will, a special committee that 
could deal.
    One of the problems, I must say, and I knew it when I was 
here and I think I still know it, is that sometimes, no ill 
intention of anyone, some of these Cabinet secretaries spend 
more time up here than probably is beneficial for their 
departments, with all of the various committees they have to 
testify before. It is necessary for certainly some of them, but 
in this area we would hope it could be at least pulled down a 
bit.
    Senator Inouye. It is good to see you, sir.
    Senator Rudman. Great to see you.
    Senator Stevens. Would you yield for just one thing?
    What is wrong with this committee, Senator?
    Senator Rudman. Nothing at all. I always thought this was 
the greatest committee on the Hill, Senator Stevens.
    Senator Stevens. It has 13 subcommittees to cover all 44 of 
those agencies.
    Senator Rudman. You might decide to do it that way, but I 
dare say you have got about, what, 82 people that might not 
agree with that.
    Senator Stevens. The buck stops here.
    Senator Rudman. I always thought so.
    Chairman Byrd. Senator Hollings, then Senator Murray.

               Questioning by Senator Ernest F. Hollings

    Senator Hollings. Senator Rudman, you know my high regard 
and affection for you. It has been a wonderful privilege to 
work with you and everything else. But getting right to the 
point, darned if you do not sound like you belong on a campus.
    Senator Rudman. That I belong on a campus?
    Senator Hollings. On a campus rather than in politics. I 
mean, yes, I could make the same study and sign the books, but 
we live in the real world. Seemingly, nobody came up here and 
talked to us who has been dealing directly with this. We have 
the Border Patrol and it is on course, it is doing a good job. 
Customs is doing a good job--both of them need way more money 
and way more agents.
    Now, that immigration department, like I told Ziglar when 
he took it over, and I fussed at the previous President to get 
us somebody who was hard-nosed, get a Warren Rudman who could 
run the thing, it is the worst department in Government. They 
have got computers all over everywhere that cannot talk to each 
other. I can give you 50 different problems. We have been 
giving them the money and it is like quicksilver. Every time 
you think you have got the agency in the palm of your hand, it 
jumps out, they have got another problem.
    I do not want to visit the immigration department's problem 
with the Border Patrol or the Customs Service or the Coast 
Guard. I know what the Coast Guard is doing. You are right. We 
increased the size of the United States by one-third when we 
passed the Magnuson Act and everything else of that kind. Then 
we promptly cut the budget, so Senator Stevens and Senator 
Inouye here and Senator Byrd have to rob 050, the defense 
function, to supplement the Coast Guard.
    Now we have superimposed port security. We have been 
working with them. Interestingly, where we know you had the 
Coast Guard, the Immigration, Border Patrol, and the Customs 
Service, you did not have the FAA. We know what planes come in 
because we track them. We have not known what ships are coming 
in, until recently. Now I have got a weather satellite from 
NOAA that is looking down in the oceans and is beginning to 
track ships, by putting transponders on them. We have got a 
requirement that they send their manifests 3 days ahead of 
time, like an airplane coming in, passengers and so forth like 
that.
    So we are working on all those things. The only reason I 
say this is that we live in the real world and everybody 
regrets that Governor Ridge--everybody knows he is an 
outstanding individual, but I am glad he is not even coming 
because, I hate to disappoint him, because none of this is 
going to happen, and I have got a good excuse. I got to say, 
well, the fellow would not come and testify to take the Border 
Patrol or put the Customs into the Border Patrol.
    They have got different duties. They are working closely. 
We have got to give them more money and more agents and 
everything else. I have been down to the border. We produced 
4,000 agents last year down there in my own back yard. We are 
doubling the class this year and everything of that kind. We 
need more.
    Another incident was to take cops on the beat. You were up 
here when we were debating that back and forth. Now we have got 
cops on the beat, we have got community policing. The system is 
working. High crime rates are down. Just Monday they had the 
Hispanic population, their crime rates are down and everything 
else. So it is working, but the administration wants to get rid 
of it. They also want to take the Office of Domestic 
Preparedness and put it over in FEMA. Heavens above, they do 
not know anything about law enforcement. They do not have the 
schools, they do not have the training, they do not have the 
FBI and the coordination that we do have.
    In other words, my good friend, I just do not see any of 
this happening. We are going to do our best by way of the 
administration. We know they are sincere. But actually, this 
homeland defense security agency--to put it all together and 
have a military international security and then a homeland 
security like the Pentagon. You and I remember Pete Kassada, 
who commanded the 8th Air Force in World War II, and when Pete 
came back he had never seen the Pentagon, the largest office 
building in the entire world. He turned to the taxi driver and 
said: My heavens, he said, how many people work in a building 
like that? The taxi driver without hesitation said: About half.
    Look here. I can get reelected on a toilet seat that costs, 
you know, over in the Defense Department it costs $1,500 and 
that kind of stuff. When you get the economies of size, they 
are not economies. You see what I am trying to say?
    Senator Rudman. I do, but I do not agree.
    Senator Hollings. You and I do not have to agree, but I am 
in and you are out.
    And I want you to know, you do not have a closer friend 
than me and it is not going to happen and I do not want you to 
be disappointed.
    Senator Rudman. Senator Hollings, let me respond. First, we 
spent 3\1/2\ years on this because we were asked to. Obviously, 
we are not the policymakers. We have made recommendations we 
think are sound and we respect that the Congress and the 
President will decide what to do.
    But I have got to take issue with one thing you said. If 
you look at the report carefully, we are not putting the 
Customs Service into the Border Patrol or the Border Patrol 
into the Coast Guard or the Customs Department into the Border 
Patrol or the INS into the Customs Service. What we are saying 
is if you look at where each of these reside now, it makes 
little sense for them to be where they are. They do not get the 
attention from the top of those departments because there are 
other major parts of those departments that people really do 
care about.
    We say the Customs Service, the Border Patrol, yes, we say 
the Coast Guard and the INS, staying identically as they are, 
but less a lot of overhead, should be in a small Cabinet-level 
agency that makes it possible when you give them all that money 
for information technology that it gets spent correctly.
    We believe they are lost in the departments they are in 
now, and that is exactly what they told us behind closed doors. 
I suggest you talk to some of them yourself.
    Senator Hollings. Well, I understand. Of course, we work 
with them. We do not have to talk behind closed doors. We do 
both. We had the public hearings and everything else.
    To your counterpart's credit, Senator Judd Gregg of New 
Hampshire, he started ODP in our little subcommittee. He was 
the chairman. Last May we had a full Cabinet hearing, over 3 
days, on counterterrorism, and we had a budget all set.
    So we had thought about the problem; in fact, we have been 
providing funding for it. We have already got five training 
facilities in the five States and we have graduated 80,000 
police and firemen and those kind of things. We have got the 
technology now need to get the interoperability of the radios 
and everything else. That has just been brought on line so 
everybody is talking with each other. We got with FBI Director 
Mueller, who is about the best FBI Director we have had in a 
long time.
    He came to us last October and he said: You give me about 
$250 million and I will have the FBI systems interoperable. He 
started off and the contractor who told him he could do it is 
not doing it, and we have already wasted $70 million. So to his 
credit, he was watching it closely and everything else of that 
kind.
    These things are not easily done, and I do not want you to 
work all this period of time, come up here and make this 
wonderful presentation, and then, my friend Warren, go away and 
say, they totally ignored me. It is not that we ignore you. It 
is just we live in the real world and we are going to continue 
the operations that are working.
    They might say Coast Guard would like to get out from under 
Transportation or Customs does not like Treasury, but it is 
working and they are doing a good job, and they have been cut. 
The Customs has been cut. Everybody has come to Government, you 
know, and said downsize, downsize, get rid of the revenues. Now 
we have got $216 billion already in the red this fiscal year 
and it is not half over.
    So I just wanted you to know that we are paying attention 
and we like Governor Ridge, but he has done this subcommittee 
chairman a favor because he has not justified it.
    I had the Attorney General before the subcommittee. He is 
not for this. He has got to say he is for it. I know how to 
read the body language. When General Ashcroft came and we had 
our hearing on the same thing, about ODP and everything else 
like that: Well, yes, I support the President's initiative. 
That is what they have got to say. But you can tell. That has 
not been vetted.
    I do not know any of these people who came up here or who 
they talked to--these Senators have been working here for 30 
years on these problems and working out the kinks. And to come 
with this proposal--like I say, academically, that looks 
pretty, to have it all under one agency and one border and one 
authority and everything else like that, however it is just not 
going to happen.
    Senator Rudman. Well, Senator Hollings, let me just say to 
you that I respect you very much. I totally disagree with 
everything you have just said.
    Chairman Byrd. Senator Murray, then Senator Mikulski.

                  Questioning by Senator Patty Murray

    Senator Murray. Thank you, Mr. Chairman.
    Thank you, Senator Rudman, for your tremendous amount of 
work and time on this issue. We all really do appreciate your 
doing that and coming before our committee today.
    Let me just say to Senator Hollings as well that I had a 
hearing on port security last week on my Transportation 
Subcommittee and it revealed that the Coast Guard requirement 
for the 96-hour advance notice is of very little value because 
the Coast Guard cannot actually verify the names of the crew 
men against the watch list. So we have work to do on the 
coordination, and I am sure Senator Rudman understands that 
issue as well.
    I did want to pick up on the issue you raised, Senator, or 
that actually Ted Stevens raised with you. I really agree with 
you completely that we have got to take measures to deal with 
the 6 million containers that enter our ports every year. I 
have the third largest container port in my home State of 
Washington and we are going to be talking more about this on 
the next panel. There are a lot of challenges there.
    The Commandant of the Coast Guard already testified before 
my subcommittee that his increased effort in port security next 
year is going to come at the expense of fisheries enforcement, 
marine environmental protection, and search and rescue efforts. 
The public already has expressed their real deep concerns about 
search and rescue in particular and the declining ability to do 
that.
    What do you expect would come of missions like fisheries 
enforcement, marine environmental protection, search and rescue 
if we were to put the Coast Guard under some kind of homeland 
security agency?
    Senator Rudman. You know, I must tell you, Senator Murray, 
that I have not looked at that issue, but these are all 
important functions you speak of. Certainly from a commerce 
point of view, the fisheries issues are very important. They 
are important to the east coast and the west coast.
    Senator Murray. Economic issues, correct.
    Senator Rudman. They are very important. In terms of 
security issues, there is nothing any more important, no matter 
who does it, Customs or Coast Guard, than to make sure that we 
know what is in those containers coming to this country. I do 
not know if you were aware--you must be aware that when they 
come into, let us say, Seattle----
    Senator Murray. I am extremely aware of the challenges.
    Senator Rudman. I know you know what happens when they come 
in there. They get offloaded, uninspected, and may go to St. 
Louis, and never opened for 6 weeks. Who knows what is in them?
    So I do not know how you allocate. I do not know how you 
prioritize. But I will tell you this. From our commission's 
point of view, that is a gaping problem in U.S. security.
    Senator Murray. I think there is a gaping problem at port 
security and I think we have some real challenges. Like I say, 
we will talk about it on the next panel, I know. And I know 
that very few of those containers are inspected. I am on the 
ports a lot. I am very, very familiar with them. Senator 
Hollings has dealt with this issue as well.
    But I am not certain that combining the Coast Guard with 
all the other agencies will not create another problem, and 
that would be that they would no longer be paying attention to 
their other really critical issues. We cannot lose sight of 
those. Those are also very important.
    I would just say, search and rescue saves lives, too, and 
that is already decreasing in the Coast Guard's priority 
because of the things we have put on them. If we put them in 
another agency and tell them that their primary mission is 
homeland security and we start losing people on ships because 
there are not folks out there to take care of that, then we 
have created another problem as well.
    All I am asking you is have you thought about the other 
missions the Coast Guard has besides homeland security if we 
were to put them into an agency defined as homeland defense?
    Senator Rudman. We certainly have, and we have talked to 
people from the Coast Guard at high levels during the 3\1/2\ 
years. It is not our intention to change their mission at all, 
to change its ratio, to change its funding, but to simply say 
that they have a lot of functions that just fit with the border 
security agencies because they are, in addition to everything 
else, a border security agency.
    But we do not change their function. We do not change their 
name, their uniform, their equipment, their system. We simply 
put them in a different place.
    Senator Murray. Thank you very much, Mr. Chairman.
    Chairman Byrd. Thank you.
    Senator Mikulski.

               Questioning by Senator Barbara A. Mikulski

    Senator Mikulski. Senator Rudman, it is really great to see 
you again. First of all, it is just good to hear you again. I 
mean, your many years of experience in Government and the 
Yankee common sense and so on.
    As you know, I chair the subcommittee that funds FEMA. If I 
could ask, under your conceptual framework for the national 
homeland security agency, where do you see FEMA, and what do 
you see FEMA doing? Do you see FEMA dissolving? How does this 
work?
    Senator Rudman. No, none of these agencies dissolve. FEMA 
is an independent agency right now.
    Senator Mikulski. Yes.
    Senator Rudman. We believe it would be the building block 
of the new department of homeland security. It is a responder. 
The others tend to be preventers.
    Senator Mikulski. So I do not know what a building block 
is. Is under your idea the homeland security agency going to be 
like a federation of agencies, each acting the way they do now, 
but under kind of like a federation chairman?
    Senator Rudman. The secretary of the homeland security 
agency would essentially be the one that the head of each of 
those agencies reported to.
    Senator Mikulski. I see.
    Senator Rudman. They would be able to consolidate some of 
their financial functions, some of their human resource 
functions, probably some substantial savings in terms of that 
consolidation. They would stay precisely as they are in terms 
of organization, unless that Cabinet officer, with the consent 
of the Congress, decided over the years to change some of that 
organization.
    The difference would be they would have a shared 
information technology system and they would have a much better 
link to the intelligence communities and the law enforcement 
community. That is how this proposal was concocted.
    Senator Mikulski. All of which they need. So FEMA would be 
part of this. And so FEMA would keep on doing what it is doing.
    Senator Rudman. Exactly.
    Senator Mikulski. Now, in terms of the Coast Guard, would 
you see that the functions related to search and rescue, drug 
interdiction, which I know you have been so supportive of, 
environmental protection out on the waterways, do you see them 
continuing to do those same functions under homeland security 
or would those functions have to move someplace else?
    Senator Rudman. No, they would be precisely the same 
functions. No one else can do them as well or, frankly, for as 
little money as the Coast Guard has been doing them for--a very 
efficient organization. We leave them exactly like that. But 
our witnesses and our experts--and we had many over the 3\1/2\ 
year period--made a strong case to us that Transportation was 
not the right place for them, and particularly in view of our 
homeland security argument.
    By the way, when we did this September 11th had not 
happened. This was 1 year before the 11th of September.
    Senator Mikulski. I read this.
    Senator Rudman. This is 1 year before, the 1999 report. So 
we were not looking at trying to fix something right away. We 
were looking at it deliberately, and we came to the conclusion 
that the first and most important thing in the area of homeland 
security was to secure the borders. So we took those agencies 
which had major border security functions.
    But the Coast Guard, as Senator Murray pointed out, has its 
overwhelming function doing other things, 70, 80 percent. It 
would stay the same.
    Senator Mikulski. Well, I am glad I understand the 
framework----
    Senator Rudman. As would FEMA.
    Senator Mikulski. Yes.
    Senator Rudman. As would FEMA.
    Senator Mikulski. I also agree with you, Senator, on what I 
call the double benefit. Senator Domenici used the term ``dual 
use,'' which is often a military term. I think if we strengthen 
FEMA to be an all-hazards agency, we then protect our local 
communities even far more effectively than we do now. We have 
several chemical factories in Baltimore. If there is an 
explosion at one, either because of a malevolent attack or an 
accident, our firefighters have to respond the same way, or the 
fire in the Baltimore Tunnel last summer.
    The better prepared our first responders are, we are 
literally making all of our communities better prepared, not 
only against terrorist attacks, but against accidents or any 
other natural disaster and so on. That is the way I envision 
it. Is that the way you----
    Senator Rudman. That is the way we viewed it.
    Senator Mikulski. So it is double value for the dollar.
    Senator Rudman. Not only that, but FEMA has proven to be a 
very good agency, very efficient. You get some complaints, but 
lately in the disasters that have happened they have done a 
pretty first rate job. They did a good job up in New York. So I 
must say that FEMA becomes essentially central to this 
proposal.
    Senator Mikulski. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Byrd. Thank you, Senator.

                  Questioning by Senator Arlen Specter

    Senator Specter. Thank you, Mr. Chairman.
    Senator Rudman, on your brief departure over the past 
decade, it seems that you have been doing more Senator's work 
on the outside than----
    Senator Rudman. Senator Hollings reminded me of that before 
you got here, actually.
    Senator Specter [continuing]. Than most of us do on the 
inside.
    I heard your exchange with Senator Hollings. My 
recollection is pretty firm about Gramm-Rudman-Hollings.
    Senator Rudman. For a while.
    Senator Specter. You were the middle name for a time.
    Senator Rudman. Right.
    Senator Specter. That was quite a landmark piece of 
legislation. I enjoyed the exchange you had, and you are still 
indefinite and tentative and not decisive in your responses, 
which is prototype Senator Warren Rudman.
    Senator Rudman, on the specifics, where you have Governor 
Ridge, a man of enormous ability, we all agree, saying that no 
one will say no to the President, a proposition with which we 
all agree, but adding that he can go down the hall and get 
matters resolved, theoretically it is not possible to run down 
the hall all the time. However, you have been on the scene. 
Would you have anything to offer and, if you have something, 
care to state as to how that really has not worked as Governor 
Ridge has tried to wrestle with so many agencies to bring them 
around to his way of thinking, but not having the authority to 
do so?
    Senator Rudman. Senator Specter, after you left the 
Government Affairs Committee this morning we had a thorough 
discussion about that on Senator Lieberman's, and I believe 
Senator Thompson sponsors at least some part of that bill. I 
made it very clear--and let me say parenthetically, the 
President had no choice but to do exactly what he did. You 
could not get organized without an Executive Order and start 
doing the things that had to be done. No one can fault that.
    But now we are looking ahead. We are looking at this 
committee looking at $35 to $38 billion worth of 
appropriations, $35 to $38 billion out of a total budget that 
are assigned under OMB and CBO assignments, which I got so I 
could prepare myself for this hearing to look at where it was 
all assigned. They are assigned essentially to each of these 
subcommittees here, every one of this $38 billion.
    There is no way that a coordinator without statutory 
authority will ever be able to get their arms about that. In 
addition to that, you have got to have someplace, somewhere, 
where the national strategy is formulated. I dare say Congress 
has to play some role in that. So the various proposals that 
are pending before Congress right now are to find some way to 
make a statutory position, as the drug czar is, of that 
position and other proposals.
    That was not our proposal. That does not mean that ours is 
the best proposal. We had a proposal which is formulated in a 
different way. But you have got this big debate about whether 
Governor Ridge is going to come up here and testify. I 
understand all the legal arguments, you know. I could argue 
either side of it from a constitutional point of view. But the 
bottom line is that this is no longer a legal argument; this is 
a very important argument about national strategy on homeland 
security, and you have got to find a way to make it work that 
everybody is comfortable with.
    I say you do it in a traditional way, with somebody who is 
confirmed by the United States Senate, who is then accountable 
to the Congress. I do not see any other way to get there. With 
a secretary of a homeland defense agency, at least you have got 
someone who had the primary say on the budget as it would be 
related in that area to the other agencies that are outside his 
or her agency.
    Senator Specter. So do you think it would be preferable to 
have Governor Ridge come testify before all 13 of our 
subcommittees or perhaps just come before Senator Byrd's full 
committee?
    Chairman Byrd. Both. Let him appear before the 
subcommittees and the full committee.
    Senator Specter. Well, now we have 14 invitations out.
    Senator Rudman. Mr. Chairman, do I really have to get 
involved in this fight?
    Chairman Byrd. That is what other secretaries do. That is 
what other secretaries do.
    Senator Rudman. I believe----
    Senator Specter. We have just raised the ante considerably, 
Senator Rudman, Senator Byrd.
    Senator Rudman. I believe the way it will work is the 
secretary of homeland security will probably, if there is one, 
will appear before this committee and whatever appropriate 
subcommittees of the parts of his department, but as far as the 
other parts of the budget that are outside of it, they will 
still come before other committees, such as Defense, HHS, and 
others. That is my view.
    Senator Specter. Senator Rudman, on the aspect of 
specifics, where we could make a case, as we lawyers like to do 
with evidence, that it just does not work for somebody in 
Governor Ridge's position through the Executive Order without 
statutory authority over specific agencies, do you have 
anything to enlighten us about that would be hard evidence in 
that regard?
    Senator Rudman. Hard evidence of?
    Senator Specter. Well, where Governor Ridge has tried to 
deal with an agency, for example, and they have in effect, 
politely or not, told him they are not going to go along.
    Senator Rudman. I am not personally familiar of that 
happening. That is not to say it has not happened. I just do 
not know that it has happened.
    Senator Specter. On the mild disagreement between Senator 
Rudman and Senator Hollings as to----
    Senator Rudman. Oh, it was mild. You should have heard some 
of the other disagreements.
    Senator Specter. Well, I have heard some of your 
disagreements, Senator Rudman. That is why I said it was mild.
    The question is how we do it. You are a pretty practical 
man from a lot of experience and a lot of lions. What would you 
suggest in trying to tame all these lions inside the cage and 
bringing them into line so we can get some of this legislation 
done? How do we just get real tough about it, starting with 
this committee?
    Senator Rudman. Well, I only know what I read in the press 
about this, because I have not talked to any of the principals. 
But it seems to me that the administration is pretty hard over 
on the separation of powers doctrine, that they do not want 
someone who is not confirmed to come up here and testify. If 
that is the case, I think you have one place you can go and you 
have every right to go there and get a total explanation of the 
strategy and that is from the Director of OMB. I assume that is 
the one place you could go.
    Senator Specter. My yellow light is on. Senator Rudman, I 
conclude by thanking you for your continuing public service.
    Thank you, Mr. Chairman.
    Chairman Byrd. Before I call on Senator Dorgan: I do not 
see the separation of powers doctrine. I do not see that at 
all. I think that the administration is trying to claim 
executive privilege. There is no separation of powers there. I 
think the President has a point when he says that Governor 
Ridge is a staff person or an adviser, he has a point. But it 
goes far beyond that. This is a staff person that has powers, 
responsibilities, that are light-years ahead of the average 
Presidential staff person.
    We have got the power of the purse here. That is the 
greatest power in Government. The administration I think made a 
mistake. I think the President was ill-advised by somebody when 
they drew that line.
    Now, they have drawn the line and I think they are trying 
desperately to hold that line, even though it is becoming more 
and more obvious that the people's interests out there are not 
being served. The people need to hear Governor Ridge, not just 
the members of this committee. The people need to hear him in a 
formal hearing. We have done it this way since 1816. The 
committee system was established in 1816, the standing 
committees. So for 186 years now that is the way it has been 
done.
    If we are going to start down this road of having 
Presidents appoint staff persons or ``advisers'' and then say 
that they cannot come up before the Appropriations Committee 
when it comes to hearing their budgets, then the committee 
structure is doomed and every committee person in this Senate, 
and I suppose everybody is on a committee, ought to be 
concerned about that. It is not just the Appropriations 
Committee.
    It is not just the Senate, it is not just the Congress. It 
is the American people out there who are entitled to hear what 
Mr. Ridge has to say. We have indicated to Mr. Ridge and to the 
President that Mr. Ridge will not have to testify before this 
committee concerning any private discussions he may have had 
with the President. This is not an investigation that we are 
talking about.
    If he does not have anything to hide, why does he not come 
on up here before this committee? He goes around and talks with 
everybody else, has his little private discussions. He has 
offered to come up here for a briefing. Well, we can get 
briefings any time. We need testimony on the record. This is 
the taxpayers' money. It ought to be on the record. The 
taxpayers ought to hear it in a formal meeting, such as the 
Appropriations Committee has always had.
    I have been in this Senate and House 50 years now this 
year, and it is laughable. When I first came to the House, 
Senator Rudman, Joe Martin of Massachusetts, Republican, was 
the Speaker, John Tabor of New York, Republican, was chairman 
of the House Appropriations Committee. They would turn over in 
their graves today if they heard such a proposal. It is 
laughable.
    I am just sorry that the administration has drawn this 
line. I think they made a terrible mistake. I think it ought to 
find a way to get out from behind that line, because it is in 
the interests of the American people. It is not my interests. I 
like Governor Ridge. I think he is a fine man, I think he is a 
fine public servant, I think he has an excellent record of 
service. I personally believe that, if it was left up to 
Governor Ridge, he would come. He has been in the House, he has 
been a Governor. He understands these things.
    But the President said when he came to Washington he was 
going to change the tone. He has not done it. This has worsened 
the tone. I have never heard anything like this in my 50 years 
here, Mr. Rudman, Senator Rudman, and I think the American 
people ought to understand it is their money and they ought to 
know what is being done with it here.
    I am sorry. I thank you, Senator Dorgan, for letting me say 
these things before you begin. Thank you.

                 Questioning by Senator Byron L. Dorgan

    Senator Dorgan. Mr. Chairman, you say them with great 
passion. I might observe that the funding request for Mr. Ridge 
comes to the subcommittee that I chair and they are proposing 
that he has a staff of 135 people. They are asking for some $24 
million plus detailees. So we are talking about a very 
significant function in the White House. 135 people is not one 
adviser. That seems to me to be a significant role and perhaps 
an operational role. But that is a subject perhaps for a 
different time.
    I did want to say, Senator Rudman, that you left just 
before I came 10 years ago, but I have long admired the work 
you have done in a range of areas. I regret to tell you that I 
probably side more with Senator Hollings on this question. 
Homeland security is a very important issue and I worry about 
some who think that we might solve problems by making or 
creating larger Federal agencies. I seldom think creating a 
larger agency has ever solved many problems.
    I do think, though, and I am sure you agree, that we need 
to define clearly the roles of all of these agencies and the 
relationship of agencies to one another, and then hold people 
accountable for performing. It is a profound embarrassment to 
hear that an agency dealing with immigration 6 months later 
sends a visa to Mohammed Atta after September 11th. Those are 
the kinds of things that demonstrate a much broader point about 
accountability and about what is actually happening inside the 
agency.
    But your contribution is significant here. I think this is 
a great discussion to have. I was chairing a committee and I 
was not able to be here to hear your testimony. I regret that.
    But I do just to say I certainly do not want to visit the 
immigration, the INS problems, or any other agencies. I think 
we have got to do a much better job in all of these agencies, 
including the coordination between agencies, in order to 
address what is a very serious problem, homeland security.
    Senator Rudman. Senator Dorgan, let me just comment on 
that. I would argue that our recommendation says that we have 
got Federal agencies that are too big and that is one of the 
reasons you have got the problems. I submit to you--and you 
have got certainly the resources to do it--take a good look at 
the way some of these small agencies operate within giant 
agencies--I am talking about Justice or Treasury or State or 
anywhere else--and look at how effective some of them are.
    The bigger these agencies get, the less attention the 
smaller components of them receive. We in our proposal try to 
address that by essentially creating one very effective, much 
smaller Federal agency to take care of these homeland security 
functions. So it was a matter of size, but we looked at it from 
probably the other side.
    Senator Dorgan. Mr. Chairman, thank you.
    Chairman Byrd. Thank you.
    Senator Feinstein.

                Questioning by Senator Dianne Feinstein

    Senator Feinstein. Thank you very much. Thank you, Mr. 
Chairman.
    As Mr. Rudman knows, we had the pleasure of hearing his 
testimony in the Judiciary Subcommittee on Technology and 
Terrorism. I wanted to ask you about a different subject than 
we talked about before and that is port security. One of our 
Judiciary Committee hearings looked at improving seaport 
security by ``pushing the borders out'' and this past week I 
was in Hong Kong and I met with the Secretary of Commerce as 
well as the head of the port there. That is a huge port, a huge 
port. I think they employ 300,000 people. It runs 24 hours a 
day. They have got very advanced mechanized cranes and 
sophisticated X-ray machines.
    In talking with the chief executive of the port, who used 
to be a shipping person, he thought that it might well be 
possible to push the border out and to be able to develop a 
system whereby you could essentially X-ray overseas containers 
going to the United States. And I looked at some of the X-rays 
machines they use. So we should X-ray, certify, and seal U.S.-
bound containers overseas.
    Did your committee, the Hart-Rudman Committee, look at that 
aspect of terrorism policy and which ports might take the lead? 
Hong Kong is so big in terms of what it sends into the west 
coast that my suggestion to them was that they take the lead in 
the International Port Association.
    Senator Rudman. Senator Feinstein, we did in fact and I 
believe, if I am not mistaken, that we did recommend to your 
subcommittee that Commander Stephen Flynn of the United States 
Coast Guard come up and help your staff to work on the issue 
you were talking about. Commander Flynn is currently, I 
believe, still a Senior Fellow at the Council on Foreign 
Relations, a brilliant young Coast Guard officer who has done a 
lot of work for our commission on the entire issue of port 
security, containers, Coast Guard issues, and so forth.
    That in fact is exactly one of the things that will make it 
work. If you try to handle 50,000 containers a day in U.S. 
ports, you get kind of bottlenecked, but you can at least push 
some of it out to get them inspected, tested, and sealed. Some 
of the technology which Senator Domenici talked about earlier 
is precisely the kind of technology that is needed for certain 
kinds of emissions, and I will leave it at that.
    It seems to me that that is a sound proposal and one that 
the Customs Service ought to look at. We currently have Customs 
Service employees overseas, as you know, and we need more and 
we need more equipment, we need better liaison relationships 
with some of the agencies of foreign governments that are 
exporters to the United States.
    Senator Feinstein. You will be pleased to know that we have 
followed up on your suggestion. Senator Kyl, who is the ranking 
member, and I have a working group on seaport security and Mr. 
Flynn has been helping us on that working group try to come up 
with some specific legislation in this area.
    Senator Rudman. We were very fortunate to have not only his 
services, but the services of several hundred of some of the 
best people in and out of Government on all of these issues. 
This report was an effort of hundreds of people over almost a 
4-year period.
    Senator Feinstein. Thank you very much, Mr. Chairman. I 
appreciate it.
    Chairman Byrd. Thank you, Senator Feinstein.
    Well, Senator Rudman, thank you for this opportunity to 
hear you again. It has been a real treat for me. We miss you on 
this committee. Senator Gregg has been doing a very fine job on 
the committee. If you will come back, we will see if we cannot 
have two Senators from the same State.
    Senator Bennett, just in time. Senator Bennett.

                Questioning by Senator Robert F. Bennett

    Senator Bennett. Thank you, Mr. Chairman. I had expected to 
catch the flow of the questioning and get into it. But the 
chairman will not be surprised, Senator Rudman, with what my 
concern is. I have something of an obsession with cyber 
terrorism, the hackers coming in and destroying the critical 
infrastructure. I made my speech on that subject yesterday.
    The thing I want to expand on a little today and get your 
response to is the way that cyber terrorism is connected or 
attacks, cyber attacks rather, would be connected to what we 
would consider a more pedestrian part of the infrastructure. A 
lot of people think that the hackers come in and shut down the 
computers and that is where it stops, and they say, yes, it 
would be devastating if the computers shut down. They do not 
make the mental connection between, say, ports, chemical 
factories, water systems, and other parts of the 
infrastructure, and the computers.
    For example, if someone were to attack the computers that 
control the traffic pattern at a port they could bring the port 
to a standstill. It is the connectedness between private and 
public entities that I want to focus on. We found out during 
the Olympics that a private-public partnership was essential to 
get the kind of security that we wanted. It was not entirely a 
governmental function, but that private entities had to share 
information with public entities, and vice versa, the public 
entities had to keep the private entities informed of what 
their security patterns were in order to get the result that we 
ultimately got at the Olympics.
    The best summary of the Olympics was when the head of 
security said to me as I stood in a room about half the size of 
this one, which was the command center where everything was 
going on for security, and he said: Senator, this is boring and 
in the security business boring is good.
    Of course, we had an extraordinary result in the Olympics. 
By comparison, in the Atlanta Olympics they had something like 
200 bomb scares a day that they had to check out. We had less 
than 100 for the entire 17 days of the Salt Lake Olympics. 
Again, as the head of the Olympics said to me: People scoped 
these Olympics out, knew where we were, and decided it is not 
worth it, and they stayed away.
    But there were many things that were communicated between 
the public-private organizations in that partnership that were 
kept secret, and that is the focus that I want to talk about. 
What information for security reasons does the Government need 
to know from the private sector and, just as importantly, the 
private sector needs to know from the Government that should 
nonetheless be kept confidential so that the bad guys do not 
know it and exploit it? Could you comment on that whole 
dynamic?
    Senator Rudman. I certainly can. Earlier in my testimony I 
talked about cyber security and made some of the very points 
that, Senator, you just made. There is no question that you 
could disrupt this country in an enormous way and cause 
enormous havoc by shutting down a number of systems that we 
depend on for our daily lives.
    In terms of how you protect information both private and 
public which can be used to disrupt, as I am sure you are 
aware, there is now a council or an Office of Cyber Security 
and Infrastructure Protection.
    Senator Bennett. Yes, Dick Clark's office.
    Senator Rudman. Correct. They are working on the very issue 
that you raise. It is a very important issue because, although 
we are an open society and most of us kind of want to be 
careful about putting a cloak of privacy over any information 
for the reason that people might use it for the wrong reason, 
the fact is there is some of that information which absolutely 
would be devastating to be known in public. I that it is, 
probably along with developing the infrastructure to protect 
our cyberspace, I think it is important that the intelligence 
agencies as well as financial institutions, the National 
Security Council, intelligence committees of the Congress, 
should come to some conclusion as to the nature of information 
that has to be protected, because it has to be protected or 
else it becomes vulnerable.
    Senator Bennett. I just happen to have a piece of 
legislation that deals with that.
    Senator Rudman. Do you now?
    Senator Bennett. I am looking for co-sponsors.
    But I can give you an example in my office. A particular 
industry had an attack and they were afraid to share the 
information. The attack had come directly at the industry and 
there was no governmental agency involved. They were afraid to 
share that information with the Government for fear that a FOIA 
request would be filed and the Government would make that 
information public and their attacker would then have an 
analysis of how well they had done.
    Of course, my legislation would say we will--FOIA provides, 
let me say it this way, FOIA provides for keeping certain 
information confidential now. The definition of that 
information is not as finely focused as I think it needs to be 
in the cyber age. So my legislation would more tightly focus 
that definition so that Government agencies will know what they 
have to disclose under FOIA and what they do not.
    But I am glad you addressed that. I had noticed it in your 
testimony, which is why I raise it with you now, because I 
think as we go through this and we talk about protection of 
ports and we talk about protection of other public areas we 
have to say, well, what would happen if the lights did not go 
on because the hackers had broken into the power grid, what 
would happen if the phones did not work because the hackers had 
broken into the telecommunications system and produced that 
kind of devastation in the areas that we are trying to 
physically protect.
    Senator Rudman. In fact, one of the directorates that we 
definitely recommend within a new homeland security agency 
which is in the Government Affairs bill that Senator Lieberman 
has introduced is a directorate on cyber security.
    Senator Bennett. My bill is before the Government Affairs 
Committee to try to become a companion to that particular 
effort.
    I see my time has expired. Thank you again, Senator, for 
your help and your leadership on all of these issues.
    Chairman Byrd. Thank you, Senator Bennett.
    Thank you, Senator Rudman. It is good to have you back. I 
hope you will come back.
    Senator Rudman. Thank you, Mr. Chairman and members of the 
committee. I just want to make it clear, the commission took no 
position on the argument that you are having with the White 
House and Governor Ridge. The commission takes no position. I 
will take one personally some day, but the commission takes no 
position.
    Chairman Byrd. Thank you.
    Senator Rudman. Thank you very much.
    Chairman Byrd. Thank you for that postscript. We hope to 
see you again one day. Thank you.
    Now, panel number four, infrastructure security: Admiral 
Richard M. Larrabee, Director of the Port Commerce Department, 
Port Authority of New York and New Jersey, and former Rear 
Admiral in the United States Coast Guard; Dr. Stephen E. Flynn, 
Senior Fellow, National Security Studies, Council on Foreign 
Relations, New York, New York.
    Then, concerning water infrastructure, Mr. Michael Errico, 
Deputy General Manager, Washington Suburban Sanitary 
Commission, Laurel, Maryland, representing the Association of 
Metropolitan Water Agencies; and nuclear facility security, Mr. 
David Lochbaum, Union of Concerned Scientists, Cambridge, 
Massachusetts; and Mr. Jeff Benjamin, Vice President for 
Licensing, Exelon Corporation, Chicago, Illinois, representing 
the Nuclear Energy Institute.
    Gentlemen, we thank you for your patience and for waiting 
while the committee heard the excellent testimony of our former 
colleague Senator Warren Rudman. I believe that first we will 
hear from Dr. Stephen E. Flynn, Senior Fellow, National 
Security Studies, Council on Foreign Relations, New York, New 
York. Dr. Flynn.
STATEMENT OF STEPHEN E. FLYNN, Ph.D., SENIOR FELLOW, 
            NATIONAL SECURITY STUDIES, COUNCIL ON 
            FOREIGN RELATIONS
    Dr. Flynn. Thank you very much, Mr. Chairman. It is an 
honor to be here today, to be back. I had the privilege of, 
just 1 month ago, being with Senator Hollings down in 
Charleston at a field hearing, and I know well of Senator 
Feinstein's excellent work that she is trying to assemble on an 
issue that has been near and dear to my heart, the issue of 
containerization. One of the privileges of my career, 
highlights of my career, has been to work with Senator Rudman 
on the Hart-Rudman Commission. I guess I should have given him 
a publicist's fee for his endorsement here.
    But I have just retired from the Coast Guard after 20 years 
of service on March 15th and have assumed a position as the 
Jeane Kirkpatrick Senior Fellow for National Security with the 
Council on Foreign Relations.
    I have my written comments, which I hope can be put in the 
record. In real succinct form, because I know time is of the 
essence here, I would like to maybe say just a few words to 
frame hopefully the questions that will follow.
    Chairman Byrd. Your written statement will be included in 
the record.
    Dr. Flynn. Thank you, sir.
    I believe what we saw on September 11th is how warfare will 
be conducted in the 21st century. It is one of the sad ironies 
of the fact of our complete dominance as a military power 
across all elements of the conventional warfighting spectrum 
that the only way to take on this great Nation--and there are 
people, adversaries, out there that want to take us on--is to 
do it asymmetrically.
    The greatest vulnerability is our very openness as a 
society and our greatest vulnerability is our strength. It is 
its openness and the integrated, sophisticated, complicated 
systems that essentially support our way of life, and also are 
global in their scope and therefore support much of the way in 
which the international community can prosper.
    As I survey--I would argue that there is reason for this. 
Why I make this case that this is how warfare will be conducted 
in the 21st century is because there is military value in 
engaging in catastrophic terrorism, and it is not about killing 
people in large numbers or toppling buildings. What it is about 
is getting the collateral economic and societal disruption that 
weakens the power of this great Nation. They think, our 
adversaries do, that that would compel us to reconsider the 
policies that we pursue.
    Given that fact, that the goal is disruption, as I survey 
the landscapes of possibilities--and we are truly a target-rich 
society--I see no greater vulnerability than the area of our 
seaports, our maritime transportation, that is essentially the 
conveyor belt that makes global commerce work.
    We can send ones and zeros around, we can enter contractual 
arrangements, we can pass free trade agreements and so forth, 
but at the end of the day goods and people must move, and the 
overwhelming majority of those people and goods move by sea, or 
the overwhelming majority of goods.
    What makes me so concerned when I look at this area is, 
one, it is so open to be attacked. That is quite simply because 
security--it is almost not even a case of benign neglect. It is 
almost malign neglect. In order to make the system efficient as 
possible, cheap as possible--the fact of the matter is we can 
move 15 tons of material from virtually any port in the world 
for about $1,500. That makes the postage stamp look pretty darn 
expensive.
    But that makes possible our ability to trade with the 
world, to outsource, to be able to run very complicated 
manufacturing cycles with very thin inventories. It has been a 
big part of our prosperity.
    But our seaports who have provided that backbone have been 
underfunded. They are indeed probably the only part of our 
national transportation infrastructure where the Federal 
Government is not only not supportive, but is parasitic. That 
is, every other part of the sector, moneys that come into it 
reinvest into it, but most of the moneys that come into the 
maritime sector in fact go into the General Treasury, so we put 
less in than we take from.
    Now, in this area as ports have struggled with the growth 
of volume they have at the same time had to deal with the 
threat issue and, push comes to shove, the security has been 
set aside. So we start, one, that they are open and they are 
extremely vulnerable.
    Second, we are so dependent on them. It is 25 percent of 
our GDP that moves by sea. When we talk about the container 
trade, those boxes, last year over 7 million that came into the 
United States, represent 90 percent of all the imports of 
general cargo moving transoceanically and 90 percent of our 
exports.
    There is no substitute for the box. The experience we had 
in this very building with an anthrax attack using the mail 
system is not a useful analogue. There we went to faxes, we 
went to FedEx, we went to e-mails. If we compromise the box 
system and we have not developed security to deal with it and 
we have to turn it off, global trade stops. If I am an 
adversary thinking about how to mess with this great land, I am 
thinking about not just the opportunity a box presents, a 
container presents, to introduce a weapon of mass destruction 
into the United States and hurt people or disrupt our 
infrastructure, I am also thinking about the ripple effect it 
has across the entire sector.
    The fact of the matter is we will do a post mortem and in 
that post mortem we will want to know if all the other boxes 
are safe, the other 7 million that come by maritime, the other 
11.5 million that come by trucks across our borders with Mexico 
and Canada, and we will want to know if the other 2.2 million 
by rail. Right now the best we could say is maybe. That is not 
going to be good enough in the wake of a catastrophic terrorism 
event.
    This is an issue of the very first order. It is not an 
issue of gates, guards, and guns that we are going to station 
at ports across the way, though some of that we need to do. It 
is about how do we sustain a global network that underpins our 
economy. We need to do that with some of the things that were 
discussed earlier here with Senator Rudman. It is by pushing 
the borders out. It is by engaging our trading partners. It is 
by working with the port authorities like in Hong Kong. It is 
beginning the process of thinking how we can put the controls 
up front in the system and make good use of technologies so 
that we can validate legitimate as legitimate and keep it 
moving even in a heightened terrorist environment.
    Three things I guess I would put on the radar here. One is 
for this committee's consideration particularly. One is the 
agencies who have the most important role to play in this 
issue, the Coast Guard and the Customs Service, are simply not 
staffed, equipped, manned to do the job. These agencies did 
virtually nothing in seaport security prior to September 11th 
and they were very busy agencies indeed, and the idea that we 
can step up 10, 12 percent on top of these budgets and that is 
going to be sufficient--I am not just calling for throwing 
money at things, but these are agencies that have demonstrated 
capability, have done heroic work, I think, against incredible 
odds, have vital missions to do, and they need to be given the 
resources to play the vital role of making this work.
    A second area that I might suggest to you, low cost, as to 
how we approach this is to pilot programs, basically to develop 
prototypes of how this can be done. One of our challenges right 
now is developing standards because we do not even know what we 
are dealing with in part with this problem. It is a very 
complicated one.
    There is an initiative that I have been involved with and 
Admiral Larrabee may talk a little bit about as well, Operation 
Safe Commerce. It is something that has almost percolated up. 
It has been championed by the good Senator--the Governor of New 
Hampshire Jeane Shaheen and has been embraced by the New 
England Governors Association. There are Canadian interests in 
this as well. The Port of New York and New Jersey is indicating 
interest as well as on the west coast.
    This is an attempt to bring all the private and public 
bodies together and prove that we can go to the starting source 
of trade and bring security throughout the system. It needs 
resources. A small amount, I think $2.5 million, will get it 
going, and that is a worthwhile investment.
    The last piece I would put on the radar screen that would 
be helpful is a case--in terms of vulnerability, let me just 
illustrate just what we are talking about here. The ports of 
Long Beach and L.A. account for 44 percent of all the 
containers that come into the United States. There is no 
inspection facility to examine those containers in the port. 
You have to go 15 miles inland through the congested Los 
Angeles County to open up the box to discern whether or not you 
have a problem.
    Now, why is that the case? Because the real estate was 
deemed too valuable to provide for an inspection station in the 
port. Now, we are talking about weapons of mass destruction 
transitting through a congested area.
    Now, happily there is a proposal, which is that there is a 
Naval Reserve station there that has been just left, that could 
be put together as an inter-agency inspection facility, that I 
would argue could be a multinational inter-agency inspection 
facility. Let us turn this place into a model of how it can be 
done, invite our Hong Kong customs, our Japanese customs 
counterparts to get together and demonstrate how prescreening 
could be done with Customs, Coast Guard, the Los Angeles Fire 
Department, all the players of an inspection. Put them all 
under one roof, and that would be something that would give us 
a tangible way to move in the direction we want to go.
    Let me just conclude by saying that this is a problem of 
the very first order. This is not a low politics issue. This is 
a problem that should not just be keeping me awake at night; it 
should be one that the Secretary of the Treasury, the Secretary 
of Commerce, the U.S. Trade Representative, certainly the 
President of the United States, should be deeply concerned 
about, because what we are talking about is the sustainability 
of global commerce and those on-ramps and off-ramps are our 
ports and they do not have security right now, sufficient 
security.
    We are talking $93 million that are available for 360-odd 
ports, while we are spending $200 million a month at our 
airports looking at luggage. When I look at the comparison of 
the vulnerability and our dependency as a society with that 
allocation of resources, it makes me wonder who is in charge.
    Thank you very much, sir.
    [The statement follows:]
                 Prepared Statement of Stephen E. Flynn
    Good afternoon, Mr. Chairman. My name is Stephen Flynn. I am the 
Jeane J. Kirkpatrick Senior Fellow for National Security Studies at the 
Council on Foreign Relations where I am directing a multi-year project 
on ``Safeguarding the Homeland: Rethinking the Role of Border 
Controls.'' I have also just recently retired as a Commander in the 
U.S. Coast Guard after 20 years of active duty service.
    Since 1999, the aim of my research has been to both highlight and 
help avert an oncoming policy train wreck taking place at our nation's 
borders; that is, the clash between policies that promote facilitation 
of trade and travel to support greater levels of global economic 
integration on the one hand, and stepped-up efforts to protect 
Americans from a growing array of transnational threats, including 
terrorism, on the other. Based on a number of field visits to our major 
seaports, my judgment prior to September 11 was that the facilitation 
imperative was completely overwhelming traditional border control 
measures. This despite the fact that a wide range of compelling public 
interests were under assault in seaports throughout the decade of the 
1990s. These included threats to our ecosystem arising from invasive 
species found within ships' ballast water; the mounting costs to U.S. 
consumers associated with billions of dollars in cargo theft; heroin 
and cocaine smuggled among the millions of tons of goods washing across 
America's shores each day; and the trafficking in human beings in 
maritime containers, some of whom did not survive to relay the horrors 
of their passage.
    The mounting evidence that America's seaports increasingly have 
become conduits for globalization's dark side received the sporadic 
attention of the mass media and the more-focused attention of the 
recent Interagency Commission on Crime and Security in U.S. Ports. 
Still, to a large extent port authorities and elected officials saw 
these challenges in much the same way that most retailers view 
shoplifting--as a cost of doing business. But, while major retailers 
often invest in store detectives, cameras, and other devises to at 
least deter amateur thieves, U.S. seaports have barely been going 
through the security motions. A graphic illustration of this fact is 
the case of Los Angeles and Long Beach where 44 percent of all the over 
6 million containers entered the United States last year. The city of 
Long Beach provides no sworn police force to patrol the waters or the 
terminals within what is arguably the nation's most vital seaport--a 
situation that has not changed in the 7 months since September 11. And 
if the U.S. Customs service wants to examine a suspicious container 
arriving at that busy port, they have to move it 15 miles inland 
through congested neighborhoods of Los Angeles county. This is because 
there is no inspection facility in the port--the real estate has been 
viewed as too precious to justify that kind of a public investment.
    The abysmal state of seaport security was not just a result of 
local neglect. Washington has been complicit as well. Cash-strapped 
agencies like the U.S. Coast Guard had been downsized to pre-1964 
manning levels during the decade of the 1990s. One consequence of this 
was that it was dedicating less than 2 percent of its operating budget 
to the port security mission on September 10th. Faced with a rising 
workload at the land border crossing with Mexico and our increasingly 
busy international airports, the U.S. Customs Service and INS ``robbed 
Peter to pay Paul'' and left the seaport with fewer inspectors than 
they had in the 1980s, even though the volume of trade passing through 
those ports had quadrupled over that time period. In addition the tools 
and protocols for conducting inspections, collecting and mining data, 
and sharing information among the border enforcement agencies simply 
had not kept pace with the size, speed, and complexity of the 
international networks that transport people and goods. This wasn't for 
a want of asking. Repeated agency requests for new inspection 
technologies and information age tools to support the work of 
increasingly overwhelmed front-line agents fell on the deaf-ears of 
government appropriators.
    Like Rip van Whipple, the nation is waking from a decades-long 
slumber and discovering a transformed port security landscape. While we 
have been asleep, the United States has become increasingly dependent 
on access to the seas for our national prosperity. Ocean shipping lines 
are the conveyor belts for goods that account for 25 percent of the 
Gross Domestic Product. The ports are the on-ramps and off-ramps to 
those conveyor belts. In order to support the growing volume of trade, 
particularly against the backdrop of parsimonious state and federal 
budgets for seaport infrastrcuture, port authorities have had to work 
hard to eliminate any source of friction that might slow throughput. 
Security was one of the casualties of stepped-up efforts to improve 
port efficiency.
    Let me be clear about this. We are starting virtually from scratch 
in developing a secure maritime transportation system to underpin 
America's ability to trade with the world. For instance, U.S. Customs 
inspectors rely on targeting systems to help identify the 1-2 percent 
of the maritime containers they are able to physically examine. 
Unfortunately, when trying to identify the high risk as opposed to the 
low risk, customs analysts are currently poorly positioned to ascertain 
three things: First, was the container loaded at a secure loading dock 
that presents little opportunity for the shipment to be compromised by 
a criminal or terrorist? Second, can the movement and condition of the 
container from the point of origin to its arriving destination be 
accounted for with sufficient detail so as to support a conclusion that 
it is unlikely the box was intercepted and tampered enroute? Third, was 
there sufficient timely and detailed information about inbound 
containerized shipments to allow authorities to conduct a ``virtual 
inspection'' in advance of arrival, using existing databases? Right 
now, the answer to each of these three questions is, at best, 
``maybe.'' ``Maybe'' is clearly unacceptable when the lives of 
thousands of Americans are potentially threatened by a container that 
has been transformed into a poor man's missile.
    Given the dependency of most U.S. manufactures on global supply 
chains, the ability of our ports to stay open for business is central 
not just for our continued economic prosperity, but for our national 
economic survival. The absence of a robust capacity to filter the 
illicit from the licit in the face of: (a) a heightened terrorist 
threat environment, and (b) the growing volume of people and goods 
moving through international trade corridors, places U.S. and global 
commerce at frequent risk of disruption. Absent alternatives, when 
confronted with credible intelligence of a terrorist attack or an 
attack itself, authorities will find themselves compelled to order a 
shut down of our transportation systems as one of their first 
preventative or responsive measures. Executing this order will have the 
net effect of creating a self-imposed blockade on the U.S. economy. The 
ripple effect throughout the international trade corridors will be 
immediate and painful because there is no alternative to a container 
for moving over 90 percent of general cargo between North America and 
Europe, Asia, Africa and Australia. Working towards building a secure 
maritime transportation system is intended to provide a counter-
terrorism alternative to such a draconian and disruptive response.
    In short, the stakes associated with trade and seaport security are 
enormous. But the state of investment in public resources to address 
the longstanding vulnerabilities on the waterfront and within the 
maritime transportation system by no means reflects that fact. At a 
minimum, we should be seriously contemplating doubling the budgets of 
the Coast Guard and Customs Service. We also should be raising the 
ceiling on the port security grant program to fund the $2.2 billion the 
American Association of Port Authorities (AAPA) estimates U.S. ports 
need to meet the terrorism and crime measures the Interagency Seaport 
Security Commission has called for. I recognize that these are sizable 
demands on the existing budget resources. But, when this investment is 
contrasted with the resources we are now investing to improve airport 
security and to combat terrorism overseas, these outlays appear quite 
modest by comparison.
    While providing sufficient resources for front-line agencies to do 
their jobs and for port authorities to attend to their most pressing 
security needs is essential, it will not be sufficient. The port 
security agenda must be pursued with the following three points in 
mind:
    (1) Seaports cannot be separated from the international transport 
system to which they belong. Ports are in essence nodes in a network 
where cargo is loaded on or unloaded from one mode--a ship--to or from 
other modes--trucks, trains, and, on occasion, planes. Therefore, 
seaport security must always be pursued against the context of 
transportation security. In other words, efforts to improve security 
within the port requires that parallel security efforts be undertaken 
in the rest of the transportation and logistics network. If security 
improvements are limited to the ports, the result will be to generate 
the ``balloon effect''; i.e., pushing illicit activities horizontally 
or vertically into the transportation and logistics systems where there 
is a reduced chance of detection or interdiction.
    (2) Port security initiatives must be harmonized within a regional 
and international context. Unilateral efforts to tighten security 
within U.S. ports without commensurate efforts to improve security in 
the ports of our neighbors will lead shipping companies and importers 
to ``port-shop''; i.e., to move their business to other market-entry 
points where their goods are cleared more quickly. Thus the result of 
unilateral, stepped-up security within U.S. ports could well be to 
erode the competitive position of important America ports while the 
locus of the security risk simply shifts outside of our reach to 
Canada, Mexico, or the Caribbean to ports such as Halifax, Montreal, 
Vancouver, and Freeport.
    (3) Since U.S. ports are among America's most critical 
infrastructure, they should not be viewed as a primary line of defense 
in an effort to protect the U.S. homeland. The last place we should be 
looking to intercept a ship or container that has been co-opted by 
terrorists is in a busy, congested, and commercially vital seaport.
    Since, seaports are the main arteries that feed global markets by 
moving commodities, cargo, business travelers, and tourists, protecting 
that circulatory system from being compromised by terrorists is an 
important imperative unto itself. Enhancing transport security, 
therefore, is one part, about preventing terrorists from exploiting the 
networks to cause catastrophic harm, and the other part about 
sustaining the continued viability of international commerce. This task 
can only be accomplished by moving away from ad hoc controls at the 
seaports that lie within U.S. jurisdiction, and toward point of origin 
controls, supported by a concentric series of checks built into the 
system at points of transshipment (transfer of cargo from one 
conveyance to another) and at points of arrival.
    Effective maritime transportation system security must rest on a 
foundation of credible risk management; i.e.; a regime that can 
reliably identify the people, goods, and conveyances that are 
legitimate, so their movements can be facilitated. Then regulators and 
inspectors could focus on the smaller number of participants about 
which they know little or for which they have specific concerns. This 
requires a layered public/private approach. One such approach would be 
to ensure full funding for the ``Operation Safe Commerce'' initiatives 
which the Governor Jeane Shaheen of New Hampshire has championed in 
northern New England, that my colleague Rick Larrabee is actively 
advancing in the Port of New York and New Jersey, and for which there 
is equal enthusiasm among public and private maritime leaders in 
southern California.
    The objective of Operation Safe Commerce is to identify appropriate 
security practices to govern the loading and movement of cargo 
throughout an international supply chain so as to support the 
development of the following:
  --Identifying secure packing requirements for loading intermodal 
        containers along the lines of ISO9000, Quality Assurance rules.
  --Developing security standards for maintaining secure loading docks 
        at manufacturing plants or shipping facilities that can be 
        audited by public officials or accredited private firms.
  --Outfitting containers with theft-resistant mechanical and 
        electronic seals.
  --Installing a pressure, light, temperature, or other sensors in the 
        interior of the container, which would be programmed to set off 
        an alarm if the container was opened illegally at some point of 
        transit.
  --Conducting background checks for operators that transport goods 
        along the intermodal transport chain and outfitting them with 
        biometrically-based identity cards.
  --Attaching an electronic transponder (such as those used for the 
        ``E-Z-pass'' toll payment system in the northeastern United 
        States) or other tracking technologies to the truck cab, 
        chassis, railcar, and containers and use intelligence 
        transportation system (ITS) technologies to monitor in-transit 
        movements to and within the port terminal.
  --Maintaining the means to communicate with operators from their 
        pick-up to offload destinations.
  --Providing tracking information to the appropriate regulatory or 
        enforcement authorities within the jurisdictions through which 
        it would be destined.
  --Requiring all participants in the supply chain cycle to provide 
        advance notice of the details about their shipments, operators, 
        and conveyances in accordance with agreed upon protocols. This 
        early notice would give inspectors the time to assess the 
        validity of the data, to check it against any watch lists they 
        may be maintaining, and provide timely support to a field 
        inspector deciding what should be targeted for examination.
    This system which advances near-real time transparency of trade and 
travel flows would serve two purposes. First, to reduce the risk of 
shipments being compromised in transit. Second, to enhance the ability 
for enforcement officials to quickly act on intelligence of a 
compromise when they receive it by allowing them to pinpoint the 
suspected freight. The importance of achieving this second objective 
cannot be overstated. The sheer number of travelers and volume of trade 
along with the possibility of internal conspiracy even among companies 
and transporters who are deemed low-risk makes critical the ongoing 
collection of good intelligence about potential breeches in security. 
But, that intelligence is practically useless if it helps only to 
perform a post-attack autopsy. Mandating ``in-transit accountability 
and visibility'' would provide authorities with the means to detect, 
track, and intercept threats once they receive an intelligence alert.
    Mandating that data be provided is one thing; effectively managing 
and mining it so as to make a credible determination of risk is 
another. The tools are at hand, though the resources to purchase them 
in a timely fashion appear to be in short supply. Worthy investments 
include building the ``Maritime Domain Awareness'' system being 
advanced by Coast Guard Commandant, ADM James Loy. Too often front line 
agencies are operating with only a narrow and outdated slice of the 
information available to assess threats. They must have the means to 
support the timely reporting, fusion, analysis and dissemination of 
both raw intelligence and polished analytical products. Other 
acquisitions that deserve stepped up funding are the International 
Trade Data System (ITDS) and Automated Commercial Environment (ACE) to 
replace the frail and obsolete Automated Manifest System (AMS). 
Agencies also should be encouraged to explore the benefits to be 
accrued by investing in ``off-the-shelf'' software products designed to 
support web-based logistics and financial transactions.
    Finally, resources should be made available to support the manning 
needs associated with Customs Commissioner Robert Bonner's call for 
``pushing borders out.'' By moving Customs, INS, and Coast Guard 
inspectors overseas, the United States would be able to intercept high-
risk cargo at the point of departure before they could threaten the 
American public, get transport-related intelligence into the security 
system sooner, and promote closer multilateral enforcement cooperation 
among our trade partners. Of course, such an approach would require 
reciprocity. Accordingly, we should be prepared to adapt our inspection 
facilities to accommodate the presence of foreign inspectors within our 
seaports as well. A very tangible step in this direction would be to 
immediately fund a new proposal prepared by the Ports of Los Angeles 
and Long Beach to convert an abandoned U.S. Naval Reserve facility on 
Terminal Island into a prototype interagency/multinational maritime 
inspection facility. In addition to housing state-of-the-art scanning 
technologies, the facility should play host to representatives from all 
the federal, state, and local agencies who have an inspection mandate. 
It should also play host to Customs authorities from our major Asian 
trading partners such as Japan, South Korea, Singapore, and Hong Kong.

                               CONCLUSION
    Building a credible system for detecting and intercepting 
terrorists who seek to exploit or target international transport 
networks would go a long way towards containing the disruption 
potential of a catastrophic terrorist act. A credible system would not 
necessarily have to be perfect, but it would need to be good enough so 
that when an attack does occur, the public deems it to be as a result 
of a correctible fault in security rather than an absence of security.
    Ultimately getting seaport security right must not be about 
fortifying our nation at the water's edge to fend off terrorists. 
Instead, its aim must be to identify and take the necessary steps to 
preserve the flow of trade and travel that allows the United States to 
remain the open, prosperous, free, and globally-engaged societies that 
rightly inspires so many in this shrinking and dangerous world.
                Biographical Sketch of Stephen E. Flynn
    Stephen Flynn is a Senior Fellow with the National Security Studies 
Program at the Council on Foreign Relations, headquartered in New York 
City. Currently at the Council he is directing a multi-year project on 
``Protecting the Homeland: Rethinking the Role of Border Controls.'' He 
has served in the White House Military Office during the George H.W. 
Bush administration and as a Director for Global Issues on the National 
Security Council staff during the Clinton administration. He is author 
of several articles and book chapters on border control, homeland 
security, the illicit drug trade, and transportation security, 
including the ``American the Vulnerable'' Foreign Affairs (Jan/Feb 
2002) and ``The Unguarded America'' which appears in a collection of 
essays on the September 11 attacks published by PublicAffairs Books. He 
was a Guest Scholar in the Foreign Policy Studies Program at the 
Brookings Institution from 1991-92, and in 1993-94 he was an Annenberg 
Scholar-in-Residence at the University of Pennsylvania. He is a 1982 
graduate of the U.S. Coast Guard Academy, has served twice in command 
at sea, and retired with the rank of Commander after 20 years of active 
duty service. He received a M.A.L.D. and Ph.D. in 1990 and 1991 from 
the Fletcher School of Law and Diplomacy, Tufts University.

    Chairman Byrd. Thank you. Thank you very much.
    Admiral Richard Larrabee. Admiral Larrabee was actually 
inside the World Trade Center when it was hit by the planes on 
September 11th. The Port Authority of New York and New Jersey 
had its headquarters in one of the Twin Towers, as I understand 
it. I believe that the Port Authority actually owned the World 
Trade Center. I just want to note that for the record.
    Admiral Larrabee, we are very pleased to have you before 
the committee. Would you please proceed.
STATEMENT OF RICHARD M. LARRABEE, UNITED STATES COAST 
            GUARD (RETIRED), DIRECTOR, PORT COMMERCE 
            DEPARTMENT, PORT AUTHORITY OF NEW YORK AND 
            NEW JERSEY
    Admiral Larrabee. Mr. Chairman, thank you very much. I 
appreciate very much the opportunity to speak to the committee 
this afternoon on the need for Federal resources to improve 
port security at our Nation's 361 seaports. This afternoon I 
would like to touch briefly on four topics: the importance of 
Congress maintaining sufficient homeland security funding 
levels for our front-line Federal agencies; the importance of 
Congress acting as soon as possible to set maritime security 
policy; the potential cost of port security; and to follow up a 
little bit on Commander Flynn's discussion about an innovative 
initiative that is being taken to help support this very 
important area.
    Under the current manning and mission priorities, the Coast 
Guard and other Federal and State agencies demonstrated the 
ability quickly to respond in an intensive way to the events of 
September 11th. However, there are simply not enough people and 
equipment to maintain the high level of security without 
seriously undermining the core missions of those agencies. Even 
though the threat has not changed, the type and amount of 
resources dedicated to port security since September at our 
Nation's seaports have been dramatically reduced.
    The issue of Federal agencies having adequate resources to 
carry out a mandated task directly affects the security of our 
individual ports. For example, consider one issue common among 
port security legislation. Vulnerability assessments are viewed 
as prerequisites for the development of plans and specific 
security measures. Currently these assessments are scheduled to 
take 5 years at a cost of $30 million to complete. Perhaps if 
the Coast Guard was given more funding, those crucial port 
assessments could be accomplished over a shorter time frame.
    Mr. Chairman, I am frustrated by the fact that our port 
region, which has experienced two terrorist attacks in the last 
10 years, is not scheduled to have a port assessment done until 
some time next year.
    Like the Coast Guard, the Customs is on the front line of 
port security. Even before the attacks of September, Customs 
faced a growing burden as international trade has grown. The 
Customs Service must be able to manage a projected doubling of 
international cargo over the next 10 years as efficiently as 
ever while protecting the United States against the real threat 
of a cargo container being used to deliver a weapon of mass 
destruction.
    As Commander Flynn stated, one of the principal weapons 
against terrorism is good, accurate, and timely information. In 
order to do its job, Customs relies on technology and 
information reporting systems and those will be key to the 
future enhancements of our cargo security system. The new Cargo 
Clearance Computer System, ACE, is the centerpiece for 
information. I urge the committee to consider additional 
supplemental funding in 2002 and 2003 budgets in order to bring 
ACE on line much sooner than is scheduled.
    Congress is in the process of setting maritime and port 
security policy and there are crucial decisions to be made, 
hopefully soon. The House and Senate bill addresses many 
aspects of the maritime and port security challenges. Senator 
Hollings is certainly very familiar with this issue. 
Notwithstanding the existing authority of the U.S. Coast Guard 
and other agencies, there is much to be decided as to how the 
Federal Government will manage security in the ocean shipping 
business. Those decisions will determine what Federal resources 
will in turn be needed over the near future.
    A central question that must be resolved in this policy 
debate is simply who is in charge. With roughly 20 Federal 
agencies having jurisdiction, Congress needs to address this 
issue, not only in terms of responsibility to lead the response 
to a terrorist incident, but also the prevention of an incident 
in the first place.
    Most important is the need for legislation regarding 
security of cargo and data. Shipping must be held accountable 
for the contents of that container. Standards for loading, 
sealing, and transporting that container must also be 
established. Accurate cargo documentation must be provided in a 
more timely manner. International agreements should be forged 
to establish standards for ports and criteria to identify high-
risk containers and conduct prescreening. We believe our goal 
should be to increase our confidence that we know exactly what 
is in that container before it reaches a U.S. port.
    Since September 11th ports such as ours have instituted 
heightened security measures and spent significant amounts of 
money to increase security both with capital improvements and 
additional security and law enforcement personnel. U.S. public 
seaports have spent in excess of $49 million for security-
related enhancements. In short, ports plan to spend another 
$312 million for additional security.
    When Congress approved emergency supplemental funding as 
part of the fiscal year 2002 Department of Defense 
appropriation bills, $93.3 million was allocated to the 
Transportation Security Administration for port security 
grants, competitive grants to be awarded to critical national 
seaports and terminals to finance the cost of enhancing 
facilities and operational security. According to MARAD, over 
$690 million was recently requested. In the New York and New 
Jersey area alone, various entities submitted nearly $100 
million in grant requests. Clearly, the original $93 million 
appropriation for this program will fall far short of the need 
of America's ports to address this very important issue.
    The port security bills allocate additional resources over 
a 3- to 5-year period for port security. However, it is clear 
that the funding needs of local ports far exceed what these 
bills will provide. The American Association of Port 
Authorities estimates that it will cost about $2.2 billion for 
its 90 member ports to make the security enhancements which 
were suggested by the Gramm Commission.
    Ensuring the safe and efficient flow of commerce without 
compromising the economy or national security is a Federal 
responsibility requiring Federal legislation and significant 
Federal funding, and local ports need your help.
    Addressing the issue of port and maritime security is an 
enormous challenge, given the complexity of the international 
transportation network. Devising a system that enhances our 
national security while allowing the continued free flow of 
legitimate cargo through our ports will not be solved by a 
single answer, a single piece of legislation, or by a single 
nation. It calls for a comprehensive approach that will require 
the cooperation of multiple agencies, the private and public 
sectors, and the international community.
    Commander Flynn has briefly described Operation Safe 
Commerce. We believe this innovative public-private partnership 
in the next 6 to 8 months will provide some innovative answers 
to looking at this question of how do we make this cargo 
security system work better for us without slowing down or 
bringing to a halt the movement of legitimate cargo. We ask 
this committee to look at this issue in a little bit more 
detail and to provide some support for us.
    Mr. Chairman and members of the committee, I am obligated 
to say a word of thanks on behalf of the Port Authority of New 
York and New Jersey. This committee responded magnificently to 
the tragedy that occurred on lower Manhattan. The outpouring of 
support and spirit in tangible terms from Congress and the 
White House lifted us when we were down. The importance of the 
commitment made by you, Mr. Chairman, and this committee to the 
recovery of lower Manhattan and the people of our bistate 
region cannot be overstated.
    The key to the restoration of economic vitality to lower 
Manhattan is transportation and vital infrastructure. On behalf 
of the Port Authority, I strongly urge this committee to 
support the President's request for an additional $5.5 billion 
for New York's recovery. Your efforts on behalf of New York and 
New Jersey and your attention to the essential infrastructure 
of our country has earned our deepest thanks.
    I hope my comments today have provided you with some 
insight into the approaches that can be taken to improve this 
whole area. We at the Port Authority of New York and New Jersey 
are prepared to offer any additional assistance that you may 
require. Thank you.
    [The statement follows:]
               Prepared Statement of Richard M. Larrabee
    Mr. Chairman, members of the Committee, thank you for the 
opportunity to testify on the important issue of homeland security as 
it relates to our nation's ports. I am Rear Admiral Richard M. 
Larrabee, United States Coast Guard Retired, and I am currently 
Director of Port Commerce at the Port Authority of New York & New 
Jersey.
    I appreciate the invitation to speak on the need for Federal 
resources to improve upon security measures at our nation's 361 public 
and private ports and terminals. The tragic events of September 11th 
have focused our collective attention on the need to protect our 
borders at major international gateways and small ports alike. 
Achieving this goal will require resources beyond what has been 
appropriated to date for ports and the Federal agencies charged with 
the awesome responsibility of securing the nation from terrorist 
activity that could enter the country at any one of the thousands of 
port facilities in this country. I thank you for your willingness to 
allow the nation's maritime community to be a part of this discussion.
    This afternoon I would like to discuss (1) the importance of 
Congress maintaining sufficient funding levels for the frontline 
Federal agencies, (2) the importance of Congress acting soon to set 
maritime security policy, (3) our general estimation as to the 
dimension of costs that port security will entail, and (4) some 
initiatives that are being taken and deserve your support. My goal 
today is to give you a sense of the dimension of the need for Federal 
funding, if not a specific dollar figure. Only when Congress sets 
crucial policy as to what Federal agencies and ports will be required 
to do to safeguard against threats as unthinkable as weapons of mass 
destruction will we know the full extent of Federal funding needs.

                               A CONTEXT
    Ninety-five percent of the international goods that come into the 
country come in through a port like the Port of New York and New 
Jersey. This activity accounts for 25 percent of the Gross Domestic 
Product. America's consumer driven market now depends upon a very 
efficient logistics chain that includes our ports. U.S. ports provide 
the platform to transfer imported goods from ships to our national 
transportation system--primarily trucks and trains--that ultimately 
delivers those products to local retail outlets or raw goods to 
manufacturing plants. That goods movement system has had one overall 
objective: to move cargo as quickly and cheaply as possible from point 
to point. Today, a new imperative--national security--is imposing 
itself onto that system. On September 11, the world witnessed the 
perversion of civilian transportation. A commercial passenger airplane 
was used as a weapon. Thousands of innocent people died, including 76 
of my fellow employees. The livelihoods of so many people were 
destroyed and disrupted. Landmark property and essential infrastructure 
was destroyed. This is a very personal matter for those of United 
States at the Port Authority. In addition to the loss of valued and 
irreplaceable human life, we lost America's signature urban complex and 
our headquarters, built by the Port Authority only thirty years ago.
    The tragic events of that day in September had immediate effects on 
ocean shipping. New York Harbor and other ports were closed. Commerce 
ground to a halt. Petroleum supplies came close to running out in some 
Northeast markets. When the ports reopened ship arrivals had to be 
announced days in advance and vessels were boarded and scrutinized. 
Coast Guard resources were shifted to keep watch over shipping on a 
more aggressive basis and also key infrastructure such as bridges and 
energy plants. In short, we are forced to confront this new reality. If 
our just-in-time logistics system is to continue to meet America's 
ever-demanding transportation requirements government and industry must 
work together to ensure the safety of the system and security of the 
nation.

                  THE COAST GUARD AND CUSTOMS SERVICE
    The Federal government is faced with a myriad of challenges in the 
wake of September 11th. Among them is the sustainability of resources 
to maintain an effective preventive force and to respond to a terrorist 
event in a U.S. port. The U.S. Customs Service and the U.S. Coast Guard 
are among the frontline Federal agencies on which we all rely to ensure 
homeland security. And they deserve the full measure of congressional 
appropriations to enable them to do the work Congress requires of them.
    Under current manning and mission priorities, the Coast Guard and 
other Federal and state agencies are able to adequately respond in an 
intensive way to these types of events and surge port protection. A 
significant number of resources from various Federal and state agencies 
were dispatched to the Port of New York and New Jersey in the immediate 
aftermath of the attacks. Over 20 additional Coast Guard assets and 
close to 1,000 reservists were brought in. But that level of deployment 
can only be sustained for a short period of time. There simply are not 
enough resources in terms of personnel and equipment to maintain that 
level of security over an extended period within the Port of New York 
and New Jersey, let alone the rest of the nation. That is, not without 
the rest of these agencies' core missions being affected.
    As a result, even though the threat has not changed, the type and 
amount of resources that have been dedicated to port security over the 
past six months have been drastically reduced. Some of the initial 
security measures have also been relaxed. These decisions were made 
based on available resources not a revised risk assessment. It leads to 
the question: Are the Coast Guard and other Federal agencies getting 
the resources they need to do the job Congress and the nation expect of 
them?
    The issue of an agency having adequate resources to carry out a 
mandated task is not a new one for this Committee or the Congress to 
consider. But consider this one area common among proposals for 
improving port security. Vulnerability assessments are viewed as 
prerequisites for the development of plans and specific measures, 
including security enhancements, to be implemented at the local level. 
The current schedule for port vulnerability assessments by the Coast 
Guard runs over five years, costing $30 million. That is five years to 
complete a process that will determine what ports will need to do to 
reduce their vulnerability. Perhaps, if the Coast Guard was given more 
funding, those crucial port assessments could be accomplished over a 
shorter time frame. This issue has particular resonance to me because 
the Port of New York and New Jersey, in a region that has been the 
target of terrorist activity twice over the past ten years, is not 
scheduled for a vulnerability assessment until next year.
    Like the Coast Guard, the Customs Service is on the frontline of 
port security. It has done a very effective job in our port under 
trying conditions. The Customs cargo inspection operation is spread 
over a wide area of New York and Northern New Jersey at the port 
terminals, the airports and a major rail yard where import containers 
arrive from the West Coast. Inspectors are as vigilant as ever. Even 
more so. I am pleased to say that as effective as they are in screening 
the containers the Customs force continues to be sensitive to the need 
to keep cargo moving through at a pace that prevents port-clogging 
backups. Even before the attacks in September, Customs faced a growing 
burden as international trade has grown. We project a doubling of cargo 
in the Port of New York and New Jersey this decade, even with the 
recent recession. A comparable increase in trade nationally is also 
expected. The Customs Service must be able to manage that increased 
volume of cargo as efficiently as ever while protecting the United 
States against threats more real than we had to confront less than a 
year ago.
    In order to do its job well, Customs relies on technology and 
information and those will be key to future enhancements of the system. 
Advanced information on incoming cargo, targeting intelligence, and 
having the proper technology to detect and respond to any threat is 
absolutely essential. The new cargo clearance computer system, ACES, is 
the centerpiece of the information system. It is in development now 
that Congress has appropriated funds over the past two years. If the 
Customs Service has the capacity to speed up the delivery of ACES, I 
urge you to consider supplementing the fiscal year 2002 appropriation 
and fiscal year 2003 budget levels with additional appropriations.
    Finally, much has been made of the fact that Customs inspectors 
physically open and examine 2 percent of containers. Of course, that 2 
percent is identified as worthy of physical examination after Customs 
goes through an effective screening process that reviews the 
information the inspectors have on the container, its reported 
contents, the vessel on which it arrived in port and other pertinent 
information. To put the issue in perspective as a matter of Federal 
resources, if Congress were to require a higher physical inspection 
rate, say 5 percent, the Customs Service at our Newark/Elizabeth Marine 
Terminal Complex alone would need roughly 400 more inspectors and an 
increased budget of $1.5 million each month. And, despite those added 
resources, there would still be a monthly backlog of close to 6,000 
containers waiting for physical examination and clogging the terminal 
operations.
    To support the efforts to improve upon homeland security, Mr. 
Chairman, I respectfully request that the Committee give serious 
consideration to additional supplemental appropriations beyond the $209 
million allocated to the Coast Guard and the $393 million appropriated 
for Customs last December.

                          PORT SECURITY POLICY
    Congress is in the process of setting maritime and port security 
policy and there are crucial decisions to be made, hopefully soon. The 
Senate approved S. 1214, the Port and Maritime Security Act of 2001, 
last December. The House will soon take up H.R. 3983, the Maritime 
Transportation Anti-Terrorism Act of 2002 The bills address many 
aspects of the maritime and port security challenge. Notwithstanding 
the existing authorities of the U.S. Coast Guard and other homeland 
security agencies, there is much to be decided as to how the Federal 
government will manage security in the ocean shipping system and, for 
that matter, each of the other modes of our national transportation 
system. And those decisions will determine what Federal resources will 
be needed over the near and long term.
    A central question that must be resolved in this policy debate is 
``who is in charge?'' This question has become a mantra for the public 
ports and maritime industry and even among America's trading partners. 
Is it the U.S. Customs Service, Transportation Security Administration, 
U.S. Coast Guard or the Homeland Security Office? In fact, the two 
bills do not settle the issue. There are roughly 20 Federal agencies 
that have a role in port security. The law is clear as to the agencies 
that coordinate a response to a terrorist incident, however 
coordination and direction is just as important in developing an 
implementing national port security strategies.
    We know that ports themselves are not the lone point of 
vulnerability. Rather, the potential for terrorist activity stretches 
from where cargo is stuffed into a container overseas to any point 
along the cargo's route to its ultimate destination.
    Our goal should be to increase our confidence that we know exactly 
what is in each container before it is off loaded in a U.S. port. It is 
not possible to physically examine the content of each of the 6,000 
containers after they arrive in the Port of New York and New Jersey 
each day. The key is finding a way of separating high-risk cargoes from 
the vast majority of legitimate containers and dealing with the 
exceptions. This approach requires a systematic understanding of the 
logistics chain that now moves that container from any place in the 
world to the distribution system in our country.
    To transport a container, a typical cargo transaction will have as 
many as 25 different parties involved--buyers, sellers, banks, 
insurance companies, inland carriers (road and rail) on both sides of 
the water, at least two seaports, often more, ocean carriers, 
governments, consolidators, and others. They will generate anywhere 
from 30-40 different documents, many still required in hard copy. This 
is a complex process. The physical movement of a container is only one 
dimension of the system. There are three other components that must be 
understood. There is the flow of money, the flow of information and 
data on the shipment, and, finally, the transfer of accountability that 
all must occur in order for the cargo to be delivered.
    Today, there are no security standards when loading a container at 
the manufacturer or consolidated in a warehouse, often well inland of a 
seaport. There are no security standards for the seals that are put on 
containers. Cargo is transferred from one mode of conveyance to another 
and there are no standards for how that is done or accountability for 
the integrity of the container as it changes hands. Foreign seaports 
are not held to certain security standards. An authorized shipper is 
not held accountable to know exactly what is in a container, where it 
is in the supply chain and to report on its contents. Shipping papers 
do not have to be complete and accurate until after the cargo arrives 
in the United States.
    We believe that efforts must be taken to verify the contents of 
containers before they are even loaded on a ship destined for a U.S. 
port. The process must include certification that the container was 
packed in a secure environment, sealed so that its contents cannot be 
tampered with and transported under the control of a responsible party. 
A chain of custody must be established that ensures the cargo's 
integrity and requires that complete and accurate data be provided to 
Customs well in advance of a ships arrival.

                        OPERATION SAFE COMMERCE
    To test the validity of this theory, the Port Authority of New York 
and New Jersey, in cooperation with U.S. Customs, the Coast Guard, 
Council on Foreign Relations, the Volpe National Transportation Center, 
state agencies and numerous private sector partners, is participating 
in an initiative called Operation Safe Commerce (OSC). OSC is a public-
private partnership that responds to the twin imperatives of 
facilitating legitimate international commerce and increasing security 
while decreasing the risk of additional congestion. The goal is to 
reduce the risk of congestion within U.S. seaports by developing 
dependable arrangements for verifying, securing, monitoring and sharing 
information about cargo from the point of origin, throughout the supply 
chain, to its final destination. Private companies have volunteered to 
join with representatives from key Federal, state and local agencies to 
construct prototypes of a secure international supply chain. It is our 
collective hope that we can provide constructive and tested 
recommendations on how to secure the supply chain without burdening the 
industry with unnecessary costs or delays that reduce the flow of cargo 
through the United States and impact the national economy. With modest 
financial support and the involvement of key policy decision makers, we 
believe we can provide some useful recommendations in the next six to 
nine months. I urge this Committee to support that public-private 
initiative as a promising means to bring about a significant 
improvement in the shipping system.

              LOCAL PORT REQUIREMENTS FOR FEDERAL FUNDING
    U.S. public port authorities, which are state and local government 
agencies that oversee public ports, have willingly taken significant 
steps to protect our seaports from the new terrorism threat. Since 
September 11th, ports such as ours have instituted heightened security 
measures and spent significant amounts of money to increase security, 
both with capital improvements and additional security and law 
enforcement personnel. In an attempt to provide you with a sense of the 
scope of the challenge we face, I offer three possible indicators of 
local port needs.
    First, a survey conducted by the American Association of Port 
Authorities (AAPA) in February, to which 60 public seaports responded, 
indicated that U.S. public seaports have already spent at least $49 
million for security related enhancements prompted by the September 
11th attacks. That number is conservative considering that not all 
ports indicated a dollar amount and several of the leading container, 
petroleum and passenger ports did not respond. Ports have spent most of 
the money on personnel related costs, including the hiring of new law 
enforcement officers, overtime, upgrading security forces to use more 
professional services and for providing extra training. Access and 
detection control systems, such as fencing, identification system, 
lighting and gates account for a large portion of that money as well.
    The same survey indicates that in the short term ports plan to 
spend another $312 million for security enhancements. Again, a 
conservative number. This money will be invested in personnel, gate/
entry controls, lighting, fencing, radiation detection equipment, x-ray 
equipment and surveillance systems, many of which will be used by 
Customs and other law enforcement personnel. Public ports will not be 
able to continue to make these critical investments without financial 
help from the Federal government. We believe that ensuring the safe and 
efficient flow of commerce without compromising the economy or national 
security is a Federal responsibility requiring Federal legislation and 
significant Federal funding.
    A second indicator of local port need is the process underway to 
allocate port security grants. When Congress approved emergency 
supplemental funding as part of the fiscal year 2002 Department of 
Defense appropriations bill $93.3 million was allocated to the 
Transportation Security Administration (TSA) for port security grants. 
This was the first such funding of security measures at the nation's 
seaports. In fact, there existed then, and now, no specific authority, 
save what was in the appropriations bill, for the Department of 
Transportation to allocate port security grants. It was significantly 
less than what was appropriated for aviation security but it was a good 
start and was welcomed by the ports and maritime sector.
    In accordance with the appropriation, competitive grants are to be 
awarded to critical national seaports and terminals to finance the cost 
of enhancing facility and operational security. There are two 
categories for grants; security assessments and mitigation strategies, 
and enhanced facility and operational security, including but not 
limited to facility access control, physical security, cargo security 
and passenger security. Consideration will also be given to proof-of-
concept demonstration projects, which can demonstrate how port security 
would be improved or enhanced by their implementation.
    Not all ports, however, were able apply for grants under this 
program. Eligible ports are limited to the 13 designated ``strategic 
ports'', controlled ports, ports responsible for a large volume of 
cargo movement that support the national economy and ports or terminals 
responsible for movement of high volume of passengers. The Maritime 
Administration, acting on behalf of the TSA, accepted applications last 
week and grant awards are expected by June.
    It's not known how much all of the ports seeking grants have asked 
for. Various entities in New York and New Jersey submitted nearly $100 
million in grant requests. My agency alone submitted a request for 
$30.5 million. Clearly, the original $93 million appropriation for this 
program will fall far short of the need America's ports will have 
identified in these grant applications.
    A third indicator suggests that if Congress or the Coast Guard were 
to establish requirements for facility enhancements, the demand for 
funding would dwarf the supply. In the Fall of 2000, the Interagency 
Commission on Seaport Crime and Security outlined a series on minimum 
measures that ports would need to put in place in order to harden 
security. The focus at the time was primarily on crime not terrorism, 
and we now have the hindsight of September 11th to know that additional 
measures must be taken. At the time of that report, it was estimated 
that ports would need to invest anywhere from $12 to $50 million to 
secure each port. The AAPA estimates that meeting these terrorism and 
crime prevention security standards would require over $2.2 billion in 
security measures at the AAPA's U.S. member ports, which number fewer 
than 90. (That rough billion dollar figure includes the totality of 
port security measures, including what is already in place, at AAPA 
member ports. It also includes hardware requirements, such as container 
screening devices, for inspection activities that are the exclusive 
responsibility of Federal agencies. By the same token, it does not 
include the many private port terminals of all sorts--petroleum, 
chemical, grain and other commodities--that are not within the 
jurisdiction of the public port agencies.)
    While the current grants are limited to select ports and terminals, 
the port security bills, S. 1214 and H.R. 3983, allocate additional 
resources over a three to five year period for port security grants. 
The House version calls for $225 million over three years while the 
Senate version calls for $390 million over a five-year period. Based on 
what I described earlier, it is clear that the funding needs of Federal 
agencies and local ports far exceed these proposed funding 
authorizations.

                            TECHNOLOGY NEEDS
    Among the areas that will require Federal funding as soon as 
possible is in technology. As I indicated earlier in my testimony, 
these technologies are essential tools for an agency like Customs to 
carry out their responsibilities. Some equipment uses proven 
technologies, such as the VACIS x-ray machine that enables Customs 
inspectors to detect anomalies that warrant physical examination of 
containers. However there is a great need for additional technology R&D 
and I urge this Committee to consider supporting R&D activity in the 
area of screening and detection devices. It would be very helpful to 
have devices that can be mounted on container cranes. They could detect 
biological, chemical and radiation traces and be employed in a way that 
does not slow the natural flow of containers in the port. Devices are 
also needed on containers. Light and motion sensors could be developed 
to detect when someone tampers with a container. Similarly, smart seals 
could be employed to provide greater assurance that a container is not 
opened or, if it was, when it was opened. Other devices that use GPS 
technology could be developed to help track en route containers. One 
must remember that money spent on R&D today will take several years, at 
best, before the technology is put to work in the field.

                       LAW ENFORCEMENT ASSISTANCE
    I would be remiss if I did not also speak to the local law 
enforcement requirements that support security and incident response at 
the nation's hundreds of seaports. In addition to municipal and state 
police, fire and medical responders that serve port areas, a number of 
the major ports have their own sworn police forces. My agency has a 
police force numbering 1,300, making it one of the largest in the 
country. These trained officers have responsibility over the port, 
airports, bridges, tunnels, the PATH interstate transit system and 
other Port Authority facilities. As this Committee reviews the 
President's $327 million supplemental request for emergency management 
planning and assistance, and as you consider what additional funding is 
needed at the state and local levels, please keep in mind that there 
are professional law enforcement officers at the ports. There is an 
unmet need for training and equipping the first responders whose job it 
is to protect the nation's transportation facilities. Port agency 
police forces, which are part of the frontline defense, should not be 
forgotten as Congress and the Justice Department provide assistance to 
the local level.
    Mr. Chairman, the attacks of September 11th were not directed at a 
maritime facility, but those terrible events have provided the impetus 
to focus attention on our marine transportation system, which is so 
essential to our national economy and defense. You and the committee 
are to be commended for taking on such a daunting task. When Congress 
tackled aviation security last fall it was a matter of altering an 
existing regime of security at the airports and in the sky. In 
contrast, the nation's seaports and related transportation systems are, 
to a great extent, a blank slate.
    Addressing the issue of port and maritime security is an enormous 
challenge given the complexity of the international transportation 
network. Devising a system that enhances our national security while 
allowing the continued free flow of legitimate cargo through our ports 
will not be solved with a single answer, a single piece of legislation, 
or by a single nation. It will require a comprehensive approach that 
will require the cooperation of multiple agencies, the private and 
public sectors and the international community. Importantly, it will 
require additional resources for the agencies charged with this awesome 
responsibility and for the public and private ports and terminals where 
the nation's international commerce takes place.

                          NEW YORK'S RECOVERY
    Mr. Chairman and members of the Committee, I am obliged to say a 
word of thanks on behalf of the Port Authority of New York & New 
Jersey. This Committee, your counterparts in the House of 
Representatives, indeed all of Congress, responded to the tragedy that 
occurred in Lower Manhattan, and of course here in the Washington area. 
The outpouring of support in spirit and tangible terms from Congress 
and the White House lifted United States when we were down. The 
importance of the commitment made by you, Mr. Chairman, and this 
Committee to the recovery of Lower Manhattan and the people of our 
bistate region cannot be overstated. I don't think it will surprise you 
that the key to the restoration of economic vitality to Lower Manhattan 
is transportation and other vital infrastructure. With restored public 
transportation service, businesses that employ and serve hundreds of 
thousands of workers will return to downtown New York City. And with 
employment opportunities and a revitalized Lower Manhattan, people will 
return to reside in that oldest district of the City. On behalf of the 
Port Authority I strongly urge this Committee to support the 
President's request for the additional $5.5 billion for New York's 
recovery. Within that sum is $2.75 billion for transportation in FEMA 
funding for the repair of infrastructure, $1.8 billion to 
``substantially improve the mobility of commuters'' in Lower Manhattan, 
$750 million to rebuild utility infrastructure and $167 million in 
highway money for reconstructing Federal-aid eligible roads.
    Your efforts on behalf of New York and New Jersey and your 
attention to the essential infrastructure of our country have earned 
our deepest thanks.
    I hope my comments today have provided with you some additional 
insight on approaches that are either underway or may be considered as 
you continue your work. We at the Port Authority of New York & New 
Jersey are prepared to offer any additional assistance that you may 
require. Thank you.
               Biographical Sketch of Richard M. Larrabee
    Richard M. Larrabee is the Director of the Port Commerce Department 
of The Port Authority of New York and New Jersey. He oversees the 
management and operation of the major marine terminal facilities within 
the Port of New York and New Jersey, the largest port on the East Coast 
of North America, which handled 65 million tons of cargo in 2000, 
including more than 3 million container units. These facilities 
include: the Port Newark/Elizabeth Port Authority Marine Terminal 
complex in Newark and Elizabeth, New Jersey; the Red Hook Container 
Terminal in Brooklyn, New York; the Howland Hook Marine Terminal in 
Staten Island, New York; and the Auto Marine Terminal in Jersey City 
and Bayonne, New Jersey.
    Mr. Larrabee manages a multi-billion dollar port redevelopment 
program that includes reinvestment in marine terminal facilities, 
deepening harbor channels and berths, improving intermodal connections 
and protecting sensitive marine environments. The redevelopment program 
is positioning the Port of New York and New Jersey to accommodate 
future growth that is projected to double over the next decade and 
could quadruple by 2040.
    Prior to joining the Port Authority, Richard Larrabee held the rank 
of Rear Admiral in the United States Coast Guard. He served as 
Commander First Coast Guard District in Boston, MA, where he oversaw 
all Coast Guard operations in the Northeast United States. Over his 
thirty-two year Coast Guard career, Rear Admiral Larrabee held a 
variety of operational and staff assignments, including command at sea 
and shore assignments. He has received two Distinguished Service Medals 
and three Legion Merit awards.
    Mr. Larrabee holds a Master of Science degree in Ocean Engineering 
from the University of Rhode Island and a Bachelor of Science degree 
from the United States Coast Guard Academy.

    Senator Mikulski. I would like to welcome to the committee 
Mr. Michael Errico--Mr. Chairman, do you want to temporarily 
recess the committee?
    Chairman Byrd. I think we ought to do that. The rollcall 
has begun. Let us recess the committee for 15 minutes. Will 
that be agreeable to you, gentlemen? Thank you.
    Senator Mikulski. Mr. Chairman, regrettably, I will not be 
able to come back, but you are going to have a treat in hearing 
from Mr. Errico. He represents the professionals who run the 
water supplies and he comes with 30 years experience and a 
civil engineering degree and a tremendous understanding of what 
it takes to keep our water supplies safe. We welcome you. I am 
going to try to come back with this vote, but I am going to 
have to be on the floor.
    Thank you.
    Chairman Byrd. The committee stands in recess, let us say 
for 20 minutes. Thank you.
    The committee will resume its hearing. Mr. Michael Errico, 
Deputy General Manager, Washington Suburban Sanitary 
Commission, Laurel, Maryland, representing the Association of 
Metropolitan Water Agencies. I guess you are at bat.
STATEMENT OF P. MICHAEL ERRICO, DEPUTY GENERAL MANAGER, 
            WASHINGTON SUBURBAN SANITARY COMMISSION, 
            REPRESENTING THE ASSOCIATION OF 
            METROPOLITAN WATER AGENCIES
    Mr. Errico. Thank you, Chairman Byrd.
    The Washington Suburban Sanitary Commission is a public 
utility that provides drinking water and waste water service to 
more than 1.6 million people in Montgomery and Prince George's 
Counties, the Maryland suburbs of Washington, D.C. As Chairman 
Byrd indicated, I am testifying today on behalf of the 
Association of Metropolitan Water Agencies. AMWA is testifying 
as the water sector liaison to the Federal Government for 
critical infrastructure protection.
    First, we want to express our sincere thanks for inviting 
us to testify and also for appropriating $90 million in fiscal 
year 2002 for vulnerability assessments and other security-
related efforts.
    One of the most difficult challenges in our new high-
security world is accepting the level of uncertainty we 
confront on a daily basis. The threats of interruptions in fire 
protection, public health threats resulting from disruptions in 
waste water treatment, and interruptions of drinking water 
services are ever present. We can all imagine the carnage and 
gravity of damage on our communities if our water supplies were 
simultaneously attacked at the time our densely populated areas 
came under fire. The ability of terrorists to gain access to 
key buildings and structures via our vast underground 
infrastructure should not be underestimated.
    Our needs are very real and, unfortunately, they are very 
costly. We hope Congress can help with this estimated $700 
million water systems anticipated spending for vulnerability 
assessments to identify areas for security improvements. 
Systems could spend an estimated $4 billion to implement such 
measures at the Nation's 54,000 public drinking water systems 
and 16,000 waste water agencies. Billions more could be needed 
for major security-related capital improvements to be 
determined by the vulnerability assessments. We would like to 
work with the committee to secure an appropriate level of 
funding to cover these costs.
    In particular, for fiscal year 2003 we are also asking for 
$15 million for water security research, $2 million in startup 
money to establish the water information sharing and analysis 
center to be located here in Washington, D.C., and $2.5 million 
for training and education.
    Assessing security vulnerabilities is among the key 
elements of the President's Commission on Critical 
Infrastructure Protection and EPA's National Infrastructure 
Assurance Plan.
    Like other utilities, WSSC has worked with security 
consultants to aggressively assess their vulnerabilities. We 
were one of the first water utilities to use the state of the 
art assessment developed by Sandia National Laboratories and 
the American Waterworks Association Research Foundation. As a 
result, we have identified numerous enhancements to our 
security program to prevent and/or provide early detection of a 
physical, chemical, biological attack on our system.
    Another major expense of water systems is near-term 
security improvements. Fencing around facilities and 
reservoirs, intruder alert systems, surveillance cameras to 
monitor entryways in sensitive facilities, and access control 
and barricades around key facilities are of particular 
importance. Improvements nationwide would cost, as I indicated 
earlier, an estimated $4 billion.
    Once our vulnerability assessments are complete, water 
systems will know what capital improvements are needed to 
become more safe and secure. Now, its expansion is one of the 
most urgent needs facing drinking water and waste water systems 
in our efforts to remain safe and secure. This is why the water 
sector is asking for at least $15 million as an initial 
investment for water security research, to develop 
methodologies and technologies that will enable us to prevent 
and respond to terrorist acts and that can be deployed in the 
field as soon as possible.
    Among the outstanding research needs determined by EPA are 
identification and characterization of biological and chemical 
agents, biological and chemical agent detectors, and security 
of cyber command and control systems. Current and previous 
administrations have recommended that industry establish 
information sharing and analysis centers, or ISAC's. The water 
ISAC's should be operational later this year. It will 
disseminate early warnings and alerts concerning threats to 
water systems and it will also provide a specific for reporting 
risks and incidents to Federal law enforcement authorities. We 
anticipate that contributions from water systems will 
ultimately finance the water ISAC. Until then, since the 
majority of water ISAC members will be publicly owned and 
operated entities, we are requesting $2 million in seed money 
to start this effort.
    Access to training and education is another need of water 
systems. We recommend that $2.5 million be made available to 
the American Waterworks Association for education and training 
on distribution system security and vulnerability assessments, 
for communicating with the public in times of crisis, for legal 
issues that relate to counterterrorism efforts, and a program 
to assure ongoing vigilance against terrorist acts.
    AMWA operates under the premise established in the report 
of the President's Commission on Critical Infrastructure 
Protection, that we should attend to our critical foundations 
before we are confronted with a crisis, not after. Waiting for 
disaster would prove as expensive as it would be irresponsible.
    We truly appreciate the time and the consideration you have 
given us to discuss this important issue today and we look 
forward to working with you to help protect the Nation's 
drinking water and waste water systems from terrorism.
    [The statement follows:]
  Prepared Statement of John R. Griffin, General Manager, Washington 
                      Suburban Sanitary Commission

                                SUMMARY
    Since September 11, the entire water sector has been called to 
action, and many national and local water security projects are 
underway. But much more needs to be done. The local investment into 
security will be significant, but a strong federal contribution is 
needed to meet the challenges of protecting public health and the 
environment.
    Among the needs and challenges facing America's 54,000 drinking 
water systems and 16,000 wastewater agencies are:
  --Water Security Research.--$15 million for the establishment of a 
        program under which the EPA Administrator shall enter into 
        partnerships, cooperative agreements and contracts with public 
        and non-profit research organizations to improve the protection 
        and security of water supply systems by carrying out research, 
        development and demonstration projects that address physical 
        and cyber threats to all water supply systems.
  --Water ISAC.--$2 million for co-funding the start-up of the Water 
        Information Sharing and Analysis Center, or ``Water ISAC,'' a 
        secure communications network, through which federal law 
        enforcement agencies and the water sector will be able to share 
        information on potential terrorist threats to drinking water 
        and wastewater systems.
  --Training and Education.--$2.5 million for AWWA to develop and 
        initiate peer-review or third party certification programs to 
        assure ongoing vigilance against terrorist acts; educate water 
        systems in distribution system security and vulnerability 
        assessments; and teach emergency communications and legal 
        issues.
  --Security Improvements.--The estimated cost for immediate security 
        improvements at drinking water and wastewater utilities is $4 
        billion. Improvements include fencing around facilities and 
        reservoirs, security doors and locks, intruder alert systems, 
        better lighting, surveillance cameras to monitor entry ways and 
        sensitive facilities, access control and barricades around key 
        facilities.
  --Vulnerability Assessments.--The estimated cost to small and medium 
        drinking water agencies to conduct vulnerability assessments is 
        $450 million. Wastewater systems also expect to spend $250 
        million for vulnerability assessments.
    The Association of Metropolitan Water Agencies (AMWA), an 
organization of the nation's largest publicly owned drinking water 
systems, is the water sector liaison to the federal government for 
critical infrastructure protection. In this capacity, AMWA's goal is to 
coordinate the security programs of the federal government with the 
efforts of the water sector, which includes not only drinking water 
agencies, but also wastewater systems.

                              INTRODUCTION
    Good afternoon, Chairman Byrd, members of the committee. My name is 
John Griffin. I am the General Manager of the Washington Suburban 
Sanitary Commission, and I am testifying today on behalf of the 
Association of Metropolitan Water Agencies (AMWA).
    Thank you for inviting AMWA to testify today on behalf of water 
systems nationwide. In addition, thank you for appropriating $90 
million in the fiscal year 2002 emergency supplemental appropriations 
bill for vulnerability assessments and other security related efforts. 
This funding ensures that the nation's largest drinking water systems, 
plus hundreds, if not thousands, of smaller utilities will complete 
security vulnerability assessments in the shortest time possible. The 
funding also will help the U.S. Environmental Protection Agency (EPA) 
develop tools to support assessments of wastewater facilities.
    AMWA's membership consists of the nation's largest publicly owned 
drinking water systems, which are represented in the association by 
their chief executive officers. AMWA's membership serves more than 110 
million Americans with clean, safe drinking water from Anchorage to 
Puerto Rico.
    AMWA is testifying today as the water sector liaison to the federal 
government for critical infrastructure protection. In this capacity, 
AMWA's goal is to coordinate the security programs of the federal 
government with the efforts of the water sector, which includes not 
only drinking water agencies, but also wastewater systems. Therefore, 
when our testimony refers to water systems or water utilities, we mean 
both drinking water and wastewater agencies.
    AMWA was asked to undertake the liaison role by EPA under 
Presidential Decision Directive 63. In this capacity, AMWA works 
closely with EPA, small and large water utilities, the associations 
that represent water utilities and the Federal Bureau of 
Investigation's National Infrastructure Protection Center. AMWA is also 
reaching out to state water administrators, the White House Office of 
Homeland Security, the Centers for Disease Control, the Department of 
Defense, the Department of Commerce's Critical Infrastructure Assurance 
Office and the Department of the Interior, which operates many dams and 
owns sources of water for millions of people in the West.
    The Washington Suburban Sanitary Commission (WSSC), established in 
1918, provides drinking water and wastewater service to more than 1.6 
million people in Montgomery and Prince George's Counties, in Maryland. 
With an annual budget of more than $650 million, WSSC's system includes 
a 10,600-mile pipeline infrastructure, three dams and two reservoirs, 
two water filtration plants that produce an average of 167 million 
gallons of clean water per day, 63 water storage facilities, 14 water 
pumping stations, six wastewater treatment plants and 43 wastewater 
pumping stations.
    Since September 11, WSSC has worked with security consultants to 
aggressively assess the security vulnerabilities of key facilities, 
especially on the water supply side. We were one of the first water 
utilities that Sandia National Laboratories trained to use the 
vulnerability assessment tool that was developed by Sandia and the 
American Water Works Association Research Foundation. And as a result 
of that effort, we have identified and implemented numerous 
enhancements to our security programs to prevent and/or provide early 
detection of a physical, chemical or biological attack on our systems. 
Aspects of these improvements range from monitoring programs to detect 
chemical or biological irregularities, to the physical ``hardening'' of 
several facilities. Although we have increased the number of security 
officers at our facilities and taken steps to further secure our 
distribution system, we need your help to implement additional security 
measures.
    WSSC always has provided the finest quality drinking water using 
state-of-the-art treatment and distribution systems. Likewise, we have 
committed ourselves to protect the environment and our downstream 
neighbors by relying on sophisticated wastewater treatment technology. 
For years we have made significant investments in water infrastructure, 
and those investments are fully reflected in our rates.
    We have some of the highest rates in the region because we 
aggressively invest in the protection of our facilities and water 
supply. Now, challenged to address additional security concerns using 
local resources, we are making considerable progress. But, like most 
water systems, WSSC needs financial assistance to implement and 
expedite a number of the security upgrades that are necessary in 
response to September 11 and international events. In addition, WSSC 
and thousands of other drinking water and wastewater agencies across 
the states rely on the security preparedness efforts of our national 
organizations and federal agencies. We hope you can support these 
efforts.
    Our testimony will address the security-related efforts of drinking 
water and wastewater agencies and the challenges facing these 
utilities. The entire water sector has been called to action, and many 
national and local projects are underway. But much more needs to be 
done.
    The local investment into security will be significant, but a 
strong federal contribution is needed to meet the challenges of 
protecting public health and the environment. Please remember that 
local governments, with limited budgets, run the vast majority of water 
systems.
    In our testimony today, we highlight the local and national needs 
facing the water agencies, namely:
  --Water security research.
  --The Water Information Sharing and Analysis Center (Water ISAC).
  --Education and training.
  --Security improvements.
  --Vulnerability assessments.

                                OVERVIEW
    One of the most difficult challenges in our new high-security world 
is accepting the level of uncertainty we confront on a daily basis. Are 
water systems threatened by terrorism? How can water systems protect 
against terrorism? White House officials have attempted to downplay the 
threat of contamination of water supplies, but such threats should not 
be underestimated and, what's more, water systems are also concerned 
about other threats, such as interrupting drinking water service and 
fire protection, polluting rivers and streams by disrupting wastewater 
treatment, and gaining access to key buildings and structures via our 
vast underground infrastructure.
    AMWA operates under the premise established in the Report of the 
President's Commission on Critical Infrastructure Protection: ``We 
should attend to our critical foundations before we are confronted with 
a crisis, not after. Waiting for disaster would prove as expensive as 
it would be irresponsible.''
    We know from the President's State of the Union address that at 
least one water system was a potential target of the al Qaeda network; 
we read in the newspapers that there are sleeper cells of terrorists in 
the United States waiting to be called to duty; U.S. forces in 
Afghanistan reportedly found instruction manuals on the manufacture and 
use of chemical and biological agents; and news reports from Rome 
suggest potential terrorists planned to use the city sewers to attack 
the American embassy there.
    Fortunately, before September 11, the water community was already 
at work with EPA, security professionals and federal law enforcement to 
develop methods and tools to protect water systems. This unique 
partnership was established in response to Presidential Decision 
Directive 63 and reinforced under President Bush's Executive Order 
13231.
    Since September 11, the nation's water utilities have been on 
heightened alert to protect against the potential disruption of 
drinking water and wastewater service and biological and chemical 
contamination of drinking water supplies. What's more, water systems 
nationwide are assessing their vulnerabilities, enhancing their 
emergency response plans, limiting and controlling access, hardening 
vulnerable facilities and coordinating with local, state and federal 
law enforcement and emergency response authorities.
    EPA and its Water Protection Task Force have been helping water 
systems prepare against terrorism and develop emergency responses. The 
agency has made grant funds available from the fiscal year 2002 
emergency appropriations bill for vulnerability assessments and the 
agency has begun critical research projects. In addition, EPA has 
facilitated relationships among the water community and other federal 
agencies and has committed energy and focus to water security.
    Our relationship with the White House Office of Homeland Security 
has been a limited one so far. As the representative of one of the 
eight critical infrastructures named in President Bush's Executive 
Order 13231, we have not had the opportunity to meet with Gov. Ridge or 
his senior team members, but AMWA has met with the director of the 
office working on water security issues and we have begun working with 
OHS's communication and coordination staff. We look forward to working 
with Gov. Ridge to ensure that water security is a high priority.
    National water organizations are responding, too, by providing 
strategic leadership, resources for utilities and an interface with 
federal agencies. Some of the organizations' activities include:
  --Water ISAC.--AMWA is developing the Water Information Sharing and 
        Analysis Center, or Water ISAC, which will be a secure 
        communication system between drinking water and wastewater 
        system managers and federal law enforcement agencies. It will 
        also be a source of information for all water system managers 
        on protecting against terrorism and responding to attacks.
  --Training and Education.--The American Water Works Association 
        Research Foundation (with Sandia National Laboratories and 
        under grants from EPA) has sponsored vulnerability workshops, a 
        satellite teleconference and a primer on water utility security 
        and counter-terrorism. The Water Environment Federation and EPA 
        are hosting six workshops throughout the United States in the 
        spring to help educate wastewater treatment plant operators and 
        managers on ways to secure all assets within and surrounding 
        their facilities. The American Water Works Association 
        sponsored eight seminars across the nation on security training 
        for water utility managers, and the association was a partner 
        in the satellite teleconference.
  --Vulnerability Assessment Tools.--Under a partnership between EPA, 
        the American Water Works Association Research Foundation and 
        Sandia National Laboratories, drinking water systems will have 
        access to a state-of-the-art vulnerability assessment tool--
        Risk Assessment Methodology for Water Utilities. The 
        Association of Metropolitan Sewerage Agencies has developed a 
        checklist, methodology and software--the Vulnerability Self 
        Assessment Tool--for wastewater systems, as well as a handbook 
        on legal issues related to security and terrorism.

                        WATER SECURITY RESEARCH
    One of the most urgent needs facing drinking water and wastewater 
systems in their efforts to remain safe and secure is knowledge. There 
are many unknowns today when we consider potential threats against 
water systems. This is why the water sector is asking for $15 million 
water security research to help us find solutions to prevent and, if 
necessary, respond to the contamination of drinking water and the 
disruption of drinking water and wastewater service. We recommend that 
EPA be directed to enter into partnerships, cooperative agreements and 
contracts with public and non-profit research organizations to support 
research, development and demonstration (RD&D) projects addressing 
security at our nation's drinking water and wastewater systems.
    The need for a substantial and immediate investment into water 
security RD&D is paramount, and now is the time to strategically invest 
in this research, so that methodologies and technologies may be 
deployed in the field as soon as possible to prevent and respond to 
terrorist acts.
    Objective 7 of the President's Commission on Critical 
Infrastructure Protection is an increase in the investment in 
infrastructure assurance research. As the Commission notes, ``[R]eal-
time detection, identification, and response tools are urgently 
needed.'' What's more, water security research is among EPA's highest 
priorities. In EPA's National Infrastructure Assurance Plan, the agency 
assigns itself Task 6: Develop and initiate research and development 
programs.
    Among the outstanding research needs determined by EPA are:
  --Identification and characterization of biological and chemical 
        agents.
  --Biological and chemical agent detectors.
  --Security of cyber command and control systems.
    For example, knowledge gaps for some agents include:
  --The amount of an agent needed and commonly available to produce 
        effects in humans.
  --How the agent reacts to typical conditions in surface water and 
        ground water.
  --How the agent behaves relative to water filtration and other 
        treatment operations.
  --How the agent behaves in a water distribution system.
  --How the distribution system and other parts of the water utility 
        can be returned to safe use if the agent has contaminated the 
        distribution system.
  --What symptoms might be present in the population if this agent has 
        been unknowingly present in the water.
    Estimates run into the tens of millions of dollars to close these 
knowledge gaps. To address these gaps, the American Water Works 
Association Research Foundation will host an expert workshop in May to 
identify, classify and prioritize all of the research needs associated 
with security issues and water systems. Until these expert workshop 
results are finalized, the following estimates serve as a preliminary 
guide:
  --Biological contaminants--$30 million over 5 years; methodology, 
        detection systems, molecular biosensors, treatability, 
        disinfection sensitivity.
  --Chemical and radiological contaminants--$9 million over 5 years; 
        early detection systems, methodology, persistence, 
        treatability.
  --Cyber security--$3 million over 5 years; identification of threats, 
        resolution techniques.
  --Risk management and communications--$5 million over 5 years; method 
        development, alternate treatment, training aids.
  --Distribution system management--$7 million over 5 years; pressure/
        chemical/biological sensor testing and placement, maintenance, 
        flushing program, persistence.
  --Global coordination of security related research in water systems--
        $1 million over 2 years; cooperative, leverage, coordination, 
        integrated research strategy.
    The Water Environment Research Foundation has also developed a 
preliminary estimate of research projects:
  --Treatability studies--$10 million; identify, screen, and treat 
        contaminants (biological, chemical, pesticides/herbicides, and 
        other pollutants) in water supplies and wastewater systems.
  --Security measures for computerized and automated systems at 
        wastewater facilities--$1.5 million; wireless or wired SCADA, 
        remote operations, internet, etc.).
  --Contingency planning, designing against terrorism and forced entry 
        at wastewater treatment facilities--$3.5 million.
  --Develop advanced molecular biosensors for wastewater systems--$25 
        million.
    Unfortunately, the Administration did not ask for additional funds 
for water security research, either in its fiscal year 2003 budget 
request or its most recent supplemental request for fiscal year 2002. 
Nevertheless, all parties agree that the need for this research is 
urgent and strategically important. An infusion of $15 million today 
will launch many projects that will help water systems confront the 
possibilities of terrorism.

                               WATER ISAC
    Among the recommendations of President Bush's Executive Order 13231 
and President Clinton's Presidential Decision Directive 63 are that 
industries such as the water sector voluntarily establish information 
sharing and analysis centers. EPA subsequently called for the 
establishment of the Water Information Sharing and Analysis Center, or 
Water ISAC, as Task 1.3 in its National Infrastructure Assurance Plan. 
The water sector has taken on the responsibility to develop the Water 
ISAC, and in 2001 EPA provided $590,000 in seed money to AMWA to help 
drinking water and wastewater agencies establish the Water ISAC, which 
will be based in the District of Columbia.
    The Water ISAC will be a formal communication system designed for 
those who are responsible for security of water supply and wastewater 
critical infrastructures. The Water ISAC will allow for dissemination 
of early warnings and alerts concerning threats to the integrity and 
steady operation of the infrastructure. The Water ISAC will also 
provide a process for reporting risks and incidents that may be of 
concern to federal authorities and others nationally.
    The information shared may include:
  --Threats that have been detected.
  --Vulnerabilities that have been discovered.
  --Viable resolutions to incidents, threats and vulnerabilities.
  --Incident trends that reveal a threatening pattern.
  --Reports of incidents that have occurred.
    The information will be available from many sources:
  --Water utility reporting of incidents.
  --National, regional and local law enforcement.
  --Industry associations and research organizations.
  --Federal intelligence agencies.
  --U.S. EPA.
  --Other federal agencies.
    To help cover start-up costs, the water sector is asking for $2 
million. In the long run, the Water ISAC will be primarily funded by 
the contributions of water agencies that choose to participate and 
subscribe to its services. However, it is not likely that very many of 
the 51,000 small water agencies serving fewer than 10,000 people will 
be able to afford to subscribe, so there may need to be a federal 
contribution to cover the costs of providing this service to the small 
systems that lack the resources to participate. Also, please note that, 
unlike the other sectors that have established or plan to develop 
ISACs, the Water ISAC subscribers will be largely publicly owned and 
operated entities, often part of city and county government.
    More important for now, though, is funding the start up of the 
Water ISAC, which will require:
  --A highly secure information technology (IT) structure.
  --A user-friendly interface.
  --A database for the secure collection of incident information.
  --Feeds from federal agencies.
  --Secure communications to member utilities.
  --A staff of terrorism and water supply experts and IT specialists.
    AMWA estimates that two-year start-up expenses are $4 million, with 
the majority of the funds being for the IT platform and a small 
professional staff. AMWA urges the committee to provide $2 million. We 
anticipate that contributions from water systems, with the exception of 
the smaller agencies, will finance the Water ISAC adequately in the 
future. Until that network of contributors is established, however, the 
project needs $2 million in the coming fiscal year before it can become 
the fully functioning resource that local water utilities need.

                         TRAINING AND EDUCATION
    For the water sector to meet the many challenges faced by potential 
terrorist attacks, utilities need access to training and educational 
programs. The American Water Works Association (AWWA), whose utility 
members include small and large drinking water system, both publicly 
and privately owned, proposes to offer education and training on 
security-related topics to drinking water systems.
    AWWA proposes seminars and online courses to educate water systems 
in distribution system security and vulnerability assessments; 
seminars, online courses, and self-contained seminar packages to teach 
utility managers how to communicate with the public in times of crisis; 
web-based materials and online courses to educate utility management on 
legal issues that relate to counter-terrorism efforts; and a peer-
review/third-party certification program to assure ongoing vigilance 
against terrorist acts. AWWA estimates the cost for these programs to 
be $2.5 million.
    AWWA already has a strong track record in this field. Soon after 
the terrorist attacks of September 11, AWWA conducted a number of 
training conferences via satellite and in person at regional sites 
across the country. AWWA was providing information to utilities on 
preparing for terrorist attacks last spring, well before the attacks in 
September. Since its inception, AWWA has sponsored many of the 
educational programs, invested in technical studies, and developed much 
of the scientific and technical information used to improve the quality 
of the water we drink.

                         SECURITY IMPROVEMENTS
    Security improvements at water systems fall into three categories: 
immediate next steps, operations and maintenance, and capital upgrades.
    Immediate next steps include fencing around facilities and 
reservoirs, security doors and locks, intruder alert systems, better 
lighting, surveillance cameras to monitor entry ways and sensitive 
facilities, access control and barricades around key facilities. Some 
systems already had some or all of these measures in place, while 
others are in the process of installing them. The American Water Works 
Association and the Water Environment Research Foundation have provided 
estimates that total approximately $4 billion to implement such 
measures at the 54,000 public drinking water systems and the 16,000 
wastewater agencies in the United States. The average cost per utility 
ranges from $8,000 for water systems serving only a few thousand people 
to $700,000 for systems serving more than 100,000 people. Those serving 
more than one million people expect to spend much more.
    Operations and maintenance (O&M) costs are the costs related to 
daily operation of water systems and include everything but security 
improvements and capital improvement costs. The water community is not 
asking for funding for O&M, nor have we come up with a total estimate 
for increases in O&M costs related to security. However, the costs for 
additional staff, security guards and security consultants will 
undoubtedly mean much higher operating expenses, taking limited 
resources away from other security improvements.
    Capital upgrades include redundancies of water and wastewater 
mains, pumps, lift stations and treatment facilities, so that water 
service may continue in spite of a terrorist attack. The upgrades may 
also include projects to protect facilities, including chemical 
storage, and increase the use of continuous real-time monitoring for 
agents in water supplies. Water systems are now in the process of 
assessing their vulnerabilities to terrorism. When these assessments 
are complete, water systems will know what they need to accomplish to 
become more safe and secure. Only then will we know accurately what 
capital construction projects are going to be needed. It is probably 
safe to assume that the total costs for capital improvements will reach 
into the billions.
    These new expenses for immediate next steps, security-related O&M, 
and capital upgrades related to security are in addition to the already 
burdensome level of infrastructure needs facing nearly every utility in 
the United States. As noted time and again by the Water Infrastructure 
Network (WIN), the cost of replacing aging infrastructure and upgrading 
infrastructure to comply with the Safe Drinking Water Act and the Clean 
Water Act is estimated at $50 billion per year over the next 20 years. 
Therefore, these new security costs further complicate the task of 
water systems to find scarce dollars for basic infrastructure 
improvement necessary to continue to provide water service and 
environmental protection.
    AMWA and the other members of the water sector would like to work 
with the committee to determine a level of funding for security 
improvements that the committee could support.

                       VULNERABILITY ASSESSMENTS
    In progress or in queue are hundreds of vulnerability assessments 
at drinking water and wastewater systems nationwide. These assessments 
attempt to determine where and how a water system could be attacked. 
Recommended elements of an assessment include raw water intake 
stations, ground water wells, the wastewater collection system, 
treatment facilities, pumps and lift-stations, finished water tanks, 
chemical storage facilities, the drinking water distribution system, 
and systems that rely on information technology and cyber access. The 
larger water systems are relying on state-of-the-art assessment tools 
and security experts and consultants, while the smallest systems may 
only require a simple visual inspection and short list of items to 
check-off.
    Vulnerability assessments are among the key elements of the 
President's Commission on Critical Infrastructure Protection and EPA's 
National Infrastructure Assurance Plan.
    In spite of the $90 million that Congress generously provided in 
the fiscal year 2002 emergency appropriations bill for vulnerability 
assessments (and other security activities), it is estimated that 
drinking water and wastewater systems will be forced to spend far more. 
There are nearly 54,000 drinking water agencies and 16,000 wastewater 
systems in the United States. While it may seem unlikely that the very 
smallest of these agencies are vulnerable to terrorism, it would be 
imprudent to assume so. That's why the vast majority of these systems 
should assess their vulnerabilities.
    The American Water Works Association estimates that small and 
medium drinking water systems will spend approximately $450 million to 
assess their vulnerabilities. In addition, the Water Environment 
Research Foundation estimates that wastewater agencies will spend $250 
million to assess their vulnerabilities. EPA, meanwhile, has asked for 
an additional $16 million for vulnerability assessments for small and 
medium drinking water systems. AMWA and the other members of the water 
sector would like to work with the committee to determine a level of 
funding for assessments that the committee could support.

                               CONCLUSION
    AMWA, and indeed the entire water sector, appreciates the attention 
the committee is focusing on security. The pipes and treatment plants 
that provide drinking water and wastewater service are largely unseen 
by the public, but we cannot underestimate the potential dangers to 
those facilities.
    We have provided information on a number of needs for research, 
information sharing, security improvements, training and education and 
vulnerability assessments. Funding these various elements will help 
ensure that water systems have done everything possible to protect 
against terrorism and respond if attacked. We look forward to working 
with you to help make the nation's drinking water and wastewater 
systems, their consumers and the environment safer from terrorism.
                 Biographical Sketch of John R. Griffin
    John R. Griffin is General Manager of the Washington Suburban 
Sanitary Commission (WSSC), which provides water and wastewater 
services to Maryland's Montgomery and Price George's Counties bordering 
Washington, D.C. WSSC is among the 10 largest water and wastewater 
utilities in the nation, serving more than 1.6 million people.
    As General Manager of the internationally acclaimed agency, Griffin 
directs 1,500 employees serving a 1,000-square-mile service area. He 
provides accountability for an annual budget of more than $650 million 
designed to enhance, expand, operate and maintain a 10,600-mile 
pipeline infrastructure, three dams and two reservoirs, two water 
filtration plants that produce an average of 167 million gallons of 
clean water per day, 63 water storage facilities, 14 water pumping 
stations, six wastewater treatment plants and 43 wastewater pumping 
stations.
    Prior to joining WSSC, Griffin served five years in the Maryland 
State Cabinet position of Secretary, Maryland Department of Natural 
Resources, and 11 years as Deputy Secretary. There, he directed the 
activities of 1,700 employees and managed a $203 million budget. His 
successes in land use and preservation programs; public safety and law 
enforcement on Maryland's waterways and public lands, including its 
forests and parks system; Chesapeake Bay restoration; and associated 
education and outreach programs, are all akin to WSSC's functions of 
environmental stewardship. In the early 1980s, he served as Senior 
Advisor to Governor Harry Hughes on policy development and program 
implementation for environment and natural resources, economic 
development and state/local relations.
    A graduate of Niagara University, N.Y., Griffin earned his Master 
of Arts degree from Catholic University of America, Washington, D.C. 
The Annapolis resident was named Conservationist of the Year by the 
Chesapeake Bay Foundation in 1999 and has received Distinguished 
Service Awards from the Maryland Municipal League and from the National 
Governor's Association.
                Biographical Sketch of P. Michael Errico
    Michael Errico is the Deputy General Manager of the Washington 
Suburban Sanitary Commission (WSSC), a utility that provides water and 
wastewater services to Maryland's Montgomery and Prince George's 
Counties. Bordering Washington, D.C., WSSC is among the 10 largest 
water and wastewater utilities in the nation, serving more than 1.6 
million people.
    As Deputy General Manager of the internationally acclaimed agency, 
Mr. Errico is generally responsible for overseeing the day-to-day 
operations of the Commission. He and the General Manager provide 
accountability for an annual budget of more than $650 million designed 
to enhance, expand, operate and maintain a 10,600-mile pipeline 
infrastructure, three dams and two reservoirs, two water filtration 
plants that produce an average of 167 million gallons of clean water 
per day, 63 water storage facilities, 14 water pumping stations, six 
wastewater treatment plants and 43 wastewater pumping stations.
    Prior to joining the Commission in 2000, Mr. Errico served for 30 
years in the Prince George's County government, retiring in April of 
2000. He spent the first 25 years with the County in the Department of 
Public Works and Transportation, beginning as a Civil Engineer and then 
completing the last eight years as Deputy Director and Director of the 
Department. Mr. Errico's last five years with the County were in the 
capacity of Deputy Chief Administrative Officer for the County 
Executive.
    In this capacity, he was responsible for overseeing most aspects of 
County government operations at the highest policy level, including 
transportation and public works services; solid waste; stormwater 
management and all other environmental services; economic development 
activities and negotiations; executive level coordination with bi-
county planning, parks and recreation and water and sewer agencies; and 
construction and maintenance of all County buildings and facilities. 
Mr. Errico served on the Board of Directors of the District of Columbia 
Water and Sewer Authority, the Board of Directors of the Parking 
Authority of Prince George's County, also serving as its Executive 
Director.
    Mr. Errico is a graduate of the University of Maryland receiving a 
Bachelor of Science Degree in Civil Engineering in 1971. He is past 
president of the County Engineers' Association of Maryland and a member 
of the American Society of Civil Engineers, the American Public Works 
Association, the American Water Works Association and Chi Epsilon, the 
National Civil Engineering Honorary Fraternity.

    Chairman Byrd. Thank you.
    Mr. Lochbaum.
STATEMENT OF DAVID LOCHBAUM, NUCLEAR SAFETY ENGINEER, 
            UNION OF CONCERNED SCIENTISTS
    Mr. Lochbaum. Good afternoon, Mr. Chairman and members of 
the committee.
    After the September 11th attacks, many Americans worried 
about the nuclear power plants in their back yards. 
Unfortunately, inactions by the Nuclear Regulatory Commission 
fanned the flames of fear when responsible actions may have 
suppressed them. The NRC could have continued security tests to 
demonstrate adequate preparedness. Instead they cancelled all 
of those tests. They could have communicated with the public 
about nuclear plant security. Instead they chose silence. They 
could have pointed to the emergency plans that protect the 
public in the event of a nuclear plant disaster. Instead they 
chose to hide those plans.
    As a direct result, State and local authorities shouldered 
more of the burden than was necessary. The NRC itself has been 
hampered by its policy mistakes. NRC staffers repeatedly 
complain that they spend too much of their time responding to 
questions from Members of Congress. The agency has not realized 
that these questions represent an appetite for information that 
must be fed, not starved.
    The NRC must get back into the business of testing nuclear 
plant security. On September 10th the NRC had plans for tests 
at 14 nuclear power plant sites. The NRC cancelled all of these 
tests after September 11th. As of today the NRC has no firm 
plans scheduled to resume testing.
    The last test performed demonstrated the need for testing. 
NRC inspectors went to the Vermont Yankee nuclear plant last 
August. Their testing revealed weaknesses that were 
``considered generally predictable, repeatable, and indicative 
of a broad programmatic problem.'' A broad programmatic problem 
affecting security is unfortunate, but it would be more 
unfortunate for such a problem to remain undetected. Forty-six 
percent of the 81 tests conducted since 1991 have revealed 
serious problems. Performance has been fairly consistent over 
those years, so it is not overly speculative to assume that 7 
of the 14 tests planned for this year would also have revealed 
serious problems. But none of those tests have been run, thus 
none of the problems have been found, and, more importantly, 
none of the problems have been fixed.
    In addition to fixing security problems, the tests also 
provide the NRC with its best communication vehicle. The NRC 
publicly releases big picture information following the 
security tests. The public is much more likely to be reassured 
by a simple test demonstrating adequate security than 1,000 
press releases proclaiming nuclear plants to be safe and 
secure.
    The NRC must do a better job of public communications. The 
agency has remained virtually silent on an issue troubling many 
Americans. The NRC should follow the model of the recent 
Olympic Games. There was extensive media coverage about 
security. Reporters accompanied guards on patrols with bomb-
sniffing dogs and prowled with surveillance teams using 
infrared detection equipment. This approach provided 
information to reassure an anxious public without giving too 
much information to anyone seeking to disrupt the games. It was 
a responsible way to balance the public's right to know with 
the security concept of need to know.
    The NRC should emulate this model. For example, media 
accounts after September 11th reported that citizens and local 
officials were driving past unlocked and unmanned security 
gates on the grounds of nuclear plants in Illinois, 
Pennsylvania, and Maine. The NRC could have allayed concerns by 
pointing out that nuclear plants are ringed by two sets of 
gates, outer gates for convenience and inner gates for 
security, and that the inner security gates were always manned 
and locked.
    Responsible communications also helps to deter attacks. 
Part of the allure of The Club as an anti-car theft device is 
that it can be seen through car windows. Many homes and 
businesses have signs saying ``Protected by Acme Security'' in 
their windows, not so burglars will know how to defeat the 
security, but to deter them from even trying. Responsible 
communications about nuclear plant security might dissuade 
anybody from even staging an attack.
    Our final example of information the public has both a 
right to know and a need to know involves emergency planning. 
All nuclear plants operating in the United States have 
emergency plans to protect the people living around them. These 
plants vary from community to community depending on the 
resources and decisions of State and local authorities. Prior 
to September 11th, parents could access these plans on the 
NRC's web site and learn what protective measures would be 
taken for their children. Emergency plans were pulled from the 
public arena following September 11th and are still 
unavailable. The NRC must restore public access to this 
information. Parents have a right to know how their children 
will be protected.
    The damage to the public psyche caused by the NRC's 
inactions has already been done. The NRC must begin the healing 
process by resuming security tests, communicating responsibly 
with the public about security matters, and by providing the 
public with the information it needs regarding emergency plans. 
These measures can be accomplished within the NRC's existing 
budget for this year and its proposed year.
    To help the NRC along this path, the Congress could expand 
the scope of a report currently submitted to it each month by 
the agency. These reports provide this status on a range of NRC 
activities and could easily be expanded to include the security 
tests, communications to the public on nuclear plant security 
matters, and the availability of emergency planning 
information.
    On behalf of the Union of Concerned Scientists, I wish to 
thank the committee for conducting this hearing and for 
considering our views on the matter. Thank you.
    [The statement follows:]
                  Prepared Statement of David Lochbaum
    On behalf of the Union of Concerned Scientists (UCS), it is my 
pleasure to appear before this Committee about homeland security as it 
relates to defending nuclear power plants from terrorist attack. We 
believe the Nuclear Regulatory Commission (NRC) would work more 
effectively with States and localities if it (a) resumed security tests 
at nuclear power plants, (b) communicated responsibly to the public 
about nuclear plant security, and (c) restored public access to 
emergency planning information.
    My name is David Lochbaum. After obtaining a degree in nuclear 
engineering from The University of Tennessee in 1979, I spent more than 
17 years in private industry, most of that time at operating nuclear 
power plants in Georgia, Alabama, Mississippi, Kansas, New Jersey, and 
Pennsylvania. I have been the Nuclear Safety Engineer for UCS since 
October 1996. UCS, established in 1969 as a non-profit, public interest 
group, seeks to ensure that all people have clean air, energy and 
transportation, as well as food that is produced in a safe and 
sustainable manner. UCS has worked on nuclear plant safety issues for 
nearly 30 years.
    Nuclear plant security has been one of our key issues in recent 
years. During my testimony on May 8, 2001, about the future of nuclear 
power before the Clean Air, Wetlands, Private Property, and Nuclear 
Safety Subcommittee of the Senate Committee on Environment and Public 
Works, I presented the following views:

                        ``NUCLEAR PLANT SECURITY
    ``The NRC's handling of physical security at nuclear reactors is 
another example of regulatory ineffectiveness. The NRC began force-on-
force tests of security preparedness at nuclear power plants in the 
early 1990s. These tests pit a handful of simulated intruders against a 
plant's physical defenses and squadrons of armed security personnel. By 
1998, these tests had revealed significant security weaknesses in about 
47 percent of the plants tested. The NRC quietly discontinued the 
testing, but the ensuing public outrage forced the agency to re-
institute the tests. Since the tests have been resumed, about 47 
percent of the plants continue to have significant security flaws 
revealed. Last year [2000], force-on-force tests at the Waterford plant 
in Louisiana and the Quad Cities plant in Illinois demonstrated serious 
security problems that warranted extensive repairs and upgrades. The 
owner of the Waterford spent more than $2 million fixing its inadequate 
security system.
    ``Having been foiled in its attempt to secretly deep-six the 
security tests, the agency resorted to Plan B in which they will allow 
the plant owners to conduct the tests themselves, grade the tests 
themselves, and simply mail in the scores--virtually guaranteed to be 
high marks--to the NRC. If someone like Timothy McVeigh drove to a 
nuclear power plant with intentions of causing harm, the people living 
near that plant would better protected by security scoring 85 percent 
on a real test than 100 or even 110 percent on an open-book, take-home, 
self-scored test. The public deserves and must get that better 
protection than that provided by artificially inflated security test 
scores.''

    We thought a year ago that plant owners conducting their security 
tests was a bad idea. To our consternation, the NRC developed an even 
worse idea. On September 10, 2002, the NRC had plans for fourteen 
security tests at nuclear plant sites. Six of these tests would have 
been administered by the NRC while eight of these tests would have been 
run by the plant owners and audited by the NRC. Shortly after September 
11, the NRC cancelled all the tests. We understand and fully appreciate 
that the events of September 11 forced the security staffs at NRC and 
nuclear power plants across the nation to initially avoid anything that 
might distract them. But seven months have passed and the NRC still has 
no firm plans to resume the tests.
    One of the last, if not the very last, security tests conducted 
demonstrates why testing must be reinstated. NRC security specialists 
went to the Vermont Yankee nuclear plant in August 2001 for an 
Operational Safeguards Readiness Evaluation (OSRE). The NRC inspectors 
discovered potential vulnerabilities in the plant's strategies for 
responding to attacks. Two of the four exercises run to test the 
response strategies confirmed the suspected vulnerabilities. The NRC 
determined this finding to be significant ``because response strategy 
weaknesses found during the conduct of the OSRE were considered 
generally predictable, repeatable and indicative of a broad 
programmatic problem.'' \1\
---------------------------------------------------------------------------
    \1\ Letter dated March 25, 2002, from Hubert J. Miller, Regional 
Administrator, Nuclear Regulatory Commission, to Michael A. Balduzzi, 
Senior Vice President and Chief Nuclear Officer, Vermont Yankee Nuclear 
Power Corporation, ``Final Significance Determination for a Yellow 
Findings at the Vermont Yankee Generating Station (NRC Inspection 
Report 50-271/01-010).'' (Attachment 1 to this testimony)
---------------------------------------------------------------------------
    It is unfortunate that a ``broad programmatic problem'' affecting 
security was detected at this nuclear plant. But it would be far more 
unfortunate for such a ``broad programmatic problem'' to remain 
undetected at this or any other nuclear plant. The importance of 
detecting problems is embodied in this NRC statement to the plant's 
owner:

    ``Upon identification of the finding, your staff established 
immediate compensatory measures. These were taken to assure the 
security program was adequate while necessary longer term corrective 
actions are implemented. Before leaving the site [on August 23rd], our 
inspection staff determined that the security program at Vermont Yankee 
was sound, an important step given the current threat environment. The 
maintenance of the completed compensatory measures were confirmed by a 
NRC Security Specialist on September 27, 2001.'' \2\
---------------------------------------------------------------------------
    \2\ Letter dated November 28, 2001, from Wayne D. Lanning, 
Director, Division of Reactor Safety, Nuclear Regulatory Commission, to 
Michael A. Balduzzi, Senior Vice President and Chief Nuclear Officer, 
Vermont Yankee Nuclear Power Corporation, ``Vermont Yankee Generating 
Station--NRC Inspection Report 50-271/01-010.'' (Attachment 2 to this 
testimony)

    The NRC does not leave a nuclear plant site after an OSRE unless 
adequate security has been demonstrated or appropriate compensatory 
measures have been put in place.
    The NRC began testing security with OSRE or OSRE-like tests in 
1991. Approximately half of the 80-plus tests conducted since then have 
revealed serious security problems. Given that performance has been 
fairly consistent over the years, it is not overly speculative to 
assume that approximately seven of the fourteen tests planned for 
fiscal year 2002 would have revealed serious security problems. But 
none of those tests have been run which means that no security problems 
have been found. More importantly, it means that no security problems 
have been fixed. The NRC must get back to the business of finding and 
fixing nuclear plant security problems.
    In addition to the inestimable benefit of fixing security problems, 
the tests also provide the NRC with its best communication vehicles. 
State and local authorities face difficult decisions when allocating 
resources for protection. Those decisions would be aided by knowledge 
that the NRC recently tested security at nuclear plants within their 
jurisdictions. The tests would also help the NRC communicate with the 
public about nuclear plant security. As evidenced by Attachment 2, the 
NRC publicly releases ``big picture'' information following nuclear 
plant security tests. The ``nuts and bolts'' details are not publicly 
disseminated but are communicated clearly to the plant owner. The 
public is more likely to be reassured by a single test demonstrating 
adequate security than a thousand press releases proclaiming nuclear 
plants to be ``hardened targets.''
    The NRC needs to do a better job of communicating to the public 
about nuclear plant security. The agency has remained virtually silent 
on an issue troubling many Americans. We are not advocating that the 
NRC divulge explicit details about nuclear plant security. Rather, we 
believe the NRC should follow the model of the recent Olympic Games in 
Salt Lake City. To reassure people planning to attend the games, there 
was extensive media coverage beforehand about security preparations. 
Reporters accompanied security details patrolling empty pavilions with 
bomb-sniffing dogs and prowled with surveillance teams using infra-red 
detection equipment. This approach provided enough security information 
to reassure an anxious public without giving too much information to 
anyone seeking to disrupt the games. It was a pro-active, responsible 
way to balance the public's right-to-know with the security 
specialist's concept of need-to-know.
    The NRC should emulate the success of the Olympic Games model by 
responsibly releasing information on nuclear plant security. For 
example, there were numerous media accounts shortly after September 11 
about citizens and local officials driving past unlocked and unmanned 
security gates onto the grounds of nuclear power plants in Illinois, 
Pennsylvania, and Maine. The public was understandably apprehensive 
after reading these articles. The NRC chose not to allay the public's 
concerns by pointing out that nuclear plants are ringed by two of 
gates--outer gates for convenience and inner gates for security--and 
the inner security gates at the facilities were always manned and 
locked. The NRC's information vacuum may have forced Governors of 
several states to dispatch National Guardsmen to augment perimeter 
security at nuclear plant sites. The National Guard deployment did not 
hurt nuclear plant security. But it represented an undue burden on 
states' resources if responsible public communications on the part of 
the NRC had assuaged the public's concerns.
    Our final example of information withheld by the agency that the 
public has both a right-to-know and a need-to-know involves emergency 
planning. The Three Mile Island nuclear accident in 1979 reinforced the 
importance of emergency planning. All operating nuclear power plants in 
the United States have emergency plans. The fidelity of these plans 
with corresponding plans on the federal, state and local levels is 
tested at least once every two years by both NRC and the Federal 
Emergency Management Agency (FEMA). The plans vary from community to 
community depending on the resources and decisions of state and local 
authorities. School children within the 10-mile emergency planning zone 
(EPZ) around some nuclear plants will be evacuated to schools outside 
the EPZ in event of an accident. School children within the EPZ for 
other nuclear plants will be evacuated to response centers.
    Prior to September 11, the emergency plans were readily available 
on the NRC's website. Parents could access the emergency plans for 
their specific community and see what protective measures would be 
taken for their children if an accident happened during the school day. 
Emergency plans were included in the information pulled from the public 
arena following September 11. Several parents in New York, New 
Hampshire, and Massachusetts called me this past January complaining 
that no one would tell them how their children would be protected 
following a successful terrorist attack on the nuclear plant in their 
backyards. I called Mrs. Patricia Norry, the NRC's Deputy Executive 
Director for Management Services. Mrs. Norry explained that the public 
did not need access to emergency plans for their communities because it 
was sufficient that federal, state, and local authorities could access 
the plans if needed. This attitude is the 21st century equivalent of 
Marie Antoinette's ``Let them eat cake'' rejoinder. It does little to 
enhance public confidence in the NRC or reassure people that they are 
being adequately protected.
    The NRC must restore the public's access to emergency planning 
information. If details within the emergency plans are so explicit that 
terrorists contemplating attacks against nuclear plants would learn too 
much, the NRC should provide the public with basic information on what 
to do when the emergency sirens wail. Lack of responsible NRC 
communication now could severely impede state and local officials in 
event of a nuclear plant accident by flooding them with calls from 
concerned parents seeking the whereabouts of their children and 
clogging roadways with caravans of parents trying to locate their 
children.
    The NRC, state and local authorities have vital roles protecting 
public health and safety. These roles became more visible following 
after September 11 as public concern over potential targets grew. 
Unfortunately, the NRC's inactions fanned the flames of fear when 
responsible actions may have suppressed them. They could have continued 
security tests to provide tangible evidence of adequate preparedness. 
Instead, they cancelled the fourteen tests that were scheduled. They 
could have pro-actively communicated with the public about nuclear 
plant security. Instead they opted to ``duck and cover.'' They could 
have pointed to the emergency plans developed to protect the public in 
event of a nuclear plant accident. Instead, they chose to hide the 
emergency plans. Consequently, state and local authorities had to 
shoulder more of the burden because of the NRC's absence.
    Any damage to the public psyche has already been done. The NRC must 
begin the healing process by resuming security tests at nuclear power 
plants, communicating responsibly with the public about nuclear plant 
security matters, and by providing the public with the information it 
needs regarding emergency plans. All of these measures could be 
accomplished within the NRC's existing fiscal year 2002 and fiscal year 
2003 budgets.
    To help the NRC progress along this path, the Congress could expand 
the scope of a report currently submitted to it each month by the 
agency. These monthly reports were initiated in the Fiscal Year 1999 
Energy and Water Development Appropriations Act, Senate Report 105-206. 
The Fiscal Year 2002 Energy and Water Development Appropriations Act, 
House Report 107-258, directed the NRC to continue the reports. These 
reports provide the status on a range of NRC activities and could 
easily be expanded to include security tests performed at nuclear power 
plants, communications to the public on nuclear plant security matters, 
and availability of emergency planning information.
    On behalf of UCS, I wish to thank the Committee for conducting this 
hearing on nuclear plant security and for considering our views on the 
matter.
                              Attachment 1
                                                    March 25, 2002.
Mr. Michael A. Balduzzi,
Senior Vice President and Chief Nuclear Officer, Vermont Yankee Nuclear 
        Power Corporation, Brattleboro, VT.

Subject: Final significance determination for a yellow finding at the 
        Vermont Yankee Generating Station (NRC inspection report 50-
        271/01-010)

    Dear Mr. Balduzzi: The purpose of this letter is to provide you 
with the results of our final significance determination for the 
preliminary Yellow finding that was identified in the subject 
inspection report sent to you on November 28, 2001. After careful 
consideration, we have determined that the inspection finding is 
appropriately characterized as Yellow. The enclosure to this letter 
provides our detailed bases for this conclusion.
    The finding was assessed using the significance determination 
process and was preliminarily characterized as Yellow, an issue with 
substantial importance to safety that will result in additional NRC 
inspection and potentially other NRC action. The finding was identified 
during an Operational Safeguards Response Evaluation (OSRE) at Vermont 
Yankee between August 20-23, 2001, the results of which were discussed 
with members of your staff during a final exit meeting on September 26, 
2001. The OSRE consisted of observations of several aspects of the 
security program, table-top drills to assess tactics and response 
strategy, assessment of tactical training and firearms proficiency, and 
the conduct of four challenging force-on-force exercise scenarios 
designed to identify potential vulnerabilities in your response 
strategy, and areas where the security program may be strengthened.
    As noted in our inspection report, the finding was considered 
preliminarily Yellow because response strategy weaknesses found during 
the conduct of the OSRE were considered generally predictable, 
repeatable and indicative of a broad programmatic problem. This 
determination was based on potential response strategy vulnerabilities 
that were identified during the conduct of table-top drills, and 
subsequently confirmed by the results of two of the four force-on-force 
exercises.
    At your request, a closed regulatory conference was held on January 
18, 2002. The conference was closed because it included a discussion of 
Safeguards Information, which must be protected against unauthorized 
disclosure in accordance with 10 CFR 73.21. In support of the 
regulatory conference, you provided a written evaluation dated January 
14, 2002, which also contained Safeguards Information.
    At the conference and in your written evaluation, you disagreed 
with the preliminary Yellow finding contending that two failures during 
the force-on-force exercises were inconclusive because of various 
artificialities that adversely affected the outcome of both exercises. 
Accordingly, you proposed that Vermont Yankee's performance should not 
be considered a Yellow finding. After carefully considering the bases 
for your contentions, we determined that the inspection finding is 
appropriately characterized as Yellow within the context of the NRC's 
Reactor Oversight Process. In making this determination, we considered 
the exercise artificialities and controller decisions that occurred 
during the exercises. As discussed in the enclosure to this letter, we 
acknowledge that the exercise artificialities and controller's 
decisions may have had a degree of influence in the exercises, however, 
it would not be practical to rerun the exercises to further assess the 
issues. Nonetheless, the scenarios adequately served to confirm the 
vulnerabilities (i.e., response strategy deficiencies) identified 
during the table-top portion of the OSRE.
    You have 10 business days from the date of this letter to appeal 
the staff's determination of significance for the identified Yellow 
finding. Such appeals will be considered to have merit only if they 
meet the criteria given in NRC Inspection Manual Chapter (IMC) 0609, 
Attachment 2.
    Per the Action Matrix associated with the NRC's Assessment Process 
(IMC 0305), any single Yellow issue, such as this finding, would place 
Vermont Yankee in the Degraded Cornerstone Column. Therefore, we will 
use the NRC Action Matrix to determine the most appropriate NRC 
response. We will notify you by separate correspondence of that 
determination, including any adjustments to the NRC inspection plan.
    As previously acknowledged in our referenced inspection report, 
your letter, dated November 21, 2001, confirmed that compensatory 
measures have been taken to address the weaknesses identified during 
the OSRE. Your letter also described plans, schedules, and commitments 
for the establishment of long-term corrective actions, which will 
include improved internal and external strategies and organizational 
improvements.
    You are not required to respond to this letter. In accordance with 
10 CFR 2.790 of the NRC's ``Rules of Practice,'' a copy of this letter 
without the Safeguards Information enclosure will be available 
electronically for public inspection in the NRC Public Document Room or 
from the Publicly Available Records (PARS) component of NRC's document 
system (ADAMS). ADAMS is accessible from the NRC Web site at http://
www.nrc.gov/reading-rm/ADAMS.html (the Public Electronic Reading Room).
            Sincerely,
                                        RA by J.T. Wiggins,
          (For Hubert J. Miller, Regional Administrator, Region I).
                              Attachment 2
                                                 November 28, 2001.
Mr. Michael A. Balduzzi,
Senior Vice President and Chief Nuclear Officer, Vermont Yankee Nuclear 
        Power Corporation, Brattleboro, VT.

Subject: Vermont Yankee Generating Station--NRC inspection report 50-
        271/01-010

    Dear Mr. Balduzzi: On August 23, 2001, the NRC completed an 
Operational Safeguards Response Evaluation (OSRE) at your Vermont 
Yankee power reactor facility. The enclosed report, which is considered 
as Safeguards Information, presents the preliminary results of that 
evaluation. The results of this inspection were discussed on August 23, 
2001, with members of your staff. Subsequently, a final exit was 
conducted with Mr. Thomas Murphy and members of your staff by telephone 
conference on September 26, 2001.
    The OSRE was an examination of activities conducted under your 
license as they relate to safety and compliance with the Commission's 
rules and regulations, and with the conditions of your license. Within 
these areas, the evaluation consisted of a selective examination of 
physical security plans, procedures and representative records; review 
and walkdown of selective portions of the Vermont Yankee facility; 
conduct of table-top exercises; examination and review of target sets; 
observations of force-on-force response exercises and exercise 
critiques; observation of firearms proficiency by security officers; 
and interviews with selected personnel. The most prominent aspect of 
the OSRE is the series of very challenging force-on-force exercise 
scenarios that are designed to identify potential vulnerabilities in 
your design basis threat response strategy, and areas where the 
security program may be strengthened to assure the continuing 
effectiveness of the physical protection system. Specifically, OSREs 
are designed to challenge the capability of the onsite security force 
to interdict a violent external assault by determined, well trained and 
dedicated intruders aided by a knowledgeable insider.
    During the conduct of the force-on-force exercises, response 
strategy weaknesses were identified at Vermont Yankee. The enclosed 
report discusses our preliminary assessment of the performance of your 
security program, and includes a potential Yellow finding based on the 
Interim Physical Protection Significance Determination Process. Upon 
identification of the finding, your staff established immediate 
compensatory measures. These were taken to assure the security program 
was adequate while necessary longer term corrective actions are 
implemented. Before leaving the site, our inspection staff determined 
that the security program at Vermont Yankee was sound, an important 
step given the current threat environment. The maintenance of the 
completed compensatory measures were confirmed by a NRC Security 
Specialist on September 27, 2001.
    Elements of your security program, as at all other nuclear power 
plants, include a substantial security fencing system and associated 
intrusion detection, surveillance, and alarm systems around the plant 
site; a substantial armed guard force onsite at all times; background 
checks, extensive searches, and strict controls of personnel entering 
the plant; external vehicle barriers; and close examination of all 
materials and vehicles entering the plant. Notwithstanding deficiencies 
revealed by the Vermont Yankee OSRE that are categorized preliminarily 
under NRC Reactor Oversight Program as having ``substantial safety 
significance'', none of the response strategy defects were of a 
severity that could not be promptly addressed through compensatory 
measures taken at the time of the inspection. Furthermore, it is 
important to note that, on October 16, 2001, an NRC Security Specialist 
conducted an audit of Vermont Yankee's security posture relative to the 
NRC Safeguards Threat Advisories issued following the September 
terrorist attacks, and determined that the additional actions taken at 
the site, which included assistance of local law enforcement agencies, 
were appropriate. In a letter dated November 21, 2001, Vermont Yankee 
confirmed its commitment to continue these actions, and the 
compensatory measures addressing the weaknesses revealed from the OSRE, 
as described above. Your letter also described plans, schedules and 
commitments for the establishment of long-term corrective actions.
    We believe we have sufficient information to make a final 
significance determination for this finding. However, before we make 
our decision, you may provide a written statement of your position on 
the significance of this finding, including any supporting information 
or reference to previously submitted material. Additionally, you may 
request a Regulatory Conference in order to provide your perspective on 
the finding, the associated safety significance, and the bases for your 
appraisal. If you chose to request a Regulatory Conference, we 
encourage you to submit your evaluation of the matter, including 
aspects that may differ with the facts described in the enclosed 
report. Any information that you chose to submit should be controlled 
as Safeguards Information and provided to our office at least a week 
before the conference. A Regulatory Conference on this matter would be 
closed to public observation since Safeguards Information may need to 
be discussed. All Safeguards Information is required to be protected in 
accordance with 10 CFR 73.21.
    Please contact Mr. John R. White at (610) 337-5114 within 10 
business days of the date of this letter to notify the NRC of your 
intentions. If we have not heard from you within 10 days, we will 
continue with our significance determination process and subsequently 
inform you of the results of our deliberations on this matter.
    In accordance with 10 CFR 2.790 of the NRC's ``Rules of Practice,'' 
a copy of this letter without the Safeguards Information enclosure will 
be available electronically for public inspection in the NRC Public 
Document Room or from the Publicly Available Records (PARS) component 
of NRC's document system (ADAMS). ADAMS is accessible from the NRC Web 
site at http://www.nrc.gov/reading-rm/adams.html (the Public Electronic 
Reading Room).
            Sincerely,
                                          Wayne D. Lanning,
                              Director, Division of Reactor Safety.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Hollings [presiding]. Thank you.
    Mr. Benjamin.
STATEMENT OF JEFF BENJAMIN, VICE PRESIDENT FOR 
            LICENSING, EXELON CORPORATION, CHICAGO, 
            ILLINOIS, REPRESENTING THE NUCLEAR ENERGY 
            INSTITUTE
    Mr. Benjamin. Thank you, Senator. My name is Jeff Benjamin. 
I am the Vice President of Licensing and Regulatory Affairs for 
Exelon. We operate about 20 percent of the nuclear plants in 
this country, consisting of 17 reactors at 10 sites in three 
different States. My background includes working at four 
different reactor sites, including as the site vice president 
LaSalle County Station, one of our sites within Exelon. Also, 
since September 11th I have been responsible for coordinating 
the security activities for Exelon.
    I am also appearing today on behalf of the Nuclear Energy 
Institute. NEI's 270 members represent a broad spectrum of 
interests, including the owners of all of the nuclear power 
plants in the United States. I thank you today for the 
opportunity to appear before you.
    Throughout my career in the nuclear industry, safe 
operation of our plants and protecting the health and safety of 
the public has always been job number 1. Part of that 
responsibility has always been maintaining a robust security 
program at our sites. This is not a new issue for our industry. 
Maintaining security programs that meet Federal requirements is 
a condition of our license by which we operate our plants.
    Our nuclear reactors are among the most well-protected 
industrial facilities in the world, with many businesses 
turning to our industry for advice and for information on how 
to adequately protect industrial and commercial facilities. Our 
plants are designed with a defense in depth philosophy. We use 
multiple trains of safety equipment. We use extremely robust 
construction. These features, coupled with our guard force and 
physical security protection, make our nuclear plants 
considered to be hardened targets by security experts 
worldwide.
    In my written testimony I presented some background on 
nuclear plant security and the actions that were undertaken by 
the industry and Federal officials in response to the events of 
September 11th. These actions have further increased the 
security of our plants by increasing the number of armed 
guards, establishing additional controls on site access, and 
enhancing operational readiness in the event of a threat or 
attack. Our industry has the benefit of a mature framework for 
both security and emergency response, each of which undergoes 
regular testing.
    In my remarks before you today, I would like to focus on 
recommendations for additional actions that Congress and the 
Federal Government should consider to further ensure the 
security of commercial nuclear facilities. First, there must be 
a clear delineation of responsibility between Government and 
plant licensees. Federal law currently requires NRC licensees 
to protect against a variety of potential threats to commercial 
power plants. But the law also considers many threats to be 
outside the scope of licensee responsibility and instead relies 
on law enforcement agencies and the military for protection. 
Congress and the administration must decide where the line 
between licensee and Government responsibility lies in light of 
the new threats faced by our plants and the other facilities 
that make up the Nation's critical infrastructure.
    The Nuclear Regulatory Commission should revise its 
protocol of threat levels to conform with that proposed by the 
Office of Homeland Security on March 11th of this year. Such a 
system would allow the commission and licensees to distinguish 
between the current generalized heightened state of alert and a 
more specific threat against a plant or plants. We have been at 
the NRC level 3 since shortly after the attacks on September 
11th. It is the highest state of readiness defined by the NRC.
    The orders recently issued by the NRC mandate additional 
requirements commensurate with the continuing current threat 
condition. This situation begs the question of how meaningful 
the different security classifications are if the highest level 
of alert becomes the only level of security.
    Although a number of the changes we are making to our 
security program incorporate the knowledge of a new type of 
threat, we need to be able to scale our security requirements 
based on changes to the level of threat that exists. This will 
allow as the plant operators and emergency response officials 
to develop readiness levels commensurate with the threat level 
that exists.
    Communication and coordination must be improved among 
licensees in the various Federal, State, and local agencies 
involved in responding to a potential threat situation. This 
need is perhaps best illustrated by an event at the Three Mile 
Island plant last year. Plant operators were notified by the 
Nuclear Regulatory Commission on October 17, 2001, that the 
Federal Government had received information which it believed 
constituted a credible threat against the plant. A number of 
Federal agencies and organizations, including the NRC, the FBI, 
FAA, and NORAD, were involved in the subsequent response to 
what was later determined to be a non-credible threat.
    As the licensee, we took immediate action to secure the 
site physically and called in additional assistance from the 
law enforcement community, while the Federal Government and the 
military took action to protect the plant. At the same time, 
TMI events also provided us with some valuable lessons learned, 
including the need to work more closely with Federal officials 
to clarify the nature of the threat, the need to develop 
coordination procedures with multiple Federal agencies, and the 
need to communicate effectively with local elected officials 
and emergency services personnel.
    It is also vitally important that the NRC be integrated 
into the intelligence community's process for assessing threats 
against commercial plants and other NRC licensees. We are 
highly dependent upon receiving threat information from the 
NRC. So therefore it is essential that the NRC is getting 
credible and timely information itself.
    Lastly, we do not have the necessary Government clearances 
to facilitate the free flow of intelligence information between 
us and the NRC. The NRC has taken steps to remedy this 
situation, but I will say this was a contributor to some of the 
communications difficulties we had between ourselves and the 
offsite local officials that night on October 17.
    The Nuclear Regulatory Commission has incurred and will 
continue to incur additional costs to address new security 
concerns. While the commission plans to reallocate existing 
resources to support its new Office of Nuclear Security and 
Incident Response, the NRC's mission with regard to security is 
likely to expand as the Federal Government reassesses their 
responsibilities of various parties providing nuclear security.
    NRC's efforts should be coordinated with the broader 
efforts of the Office of Homeland Security and Congress should 
support NRC's request for additional funding to support 
additional actions undertaken in support of homeland defense.
    In determining the resources necessary to protect nuclear 
power plants, the Federal Government should consider the 
potential vulnerability of these plants relative to other 
potential critical infrastructure targets and allocate limited 
Federal resources to those facilities deemed to be most 
vulnerable to attack. These funds would be used in conjunction 
with State and local agencies to further enhance readiness.
    Some in Congress have advocated federalizing our nuclear 
plant security forces. We have a well-paid, highly trained work 
force of security personnel guarding our plants. Many of these 
people have chosen this as their career, and replacing these 
forces with Federal employees is unnecessary and would 
complicate the ability to respond to an event. Quite simply, 
federalization solves a nonexistent problem.
    Others in Congress and elsewhere have advocated placing 
anti-aircraft artillery installations at nuclear plants to 
protect against air attack. The industry believes that Federal 
resources would be more properly focused on ensuring the skies 
stay safe. In addition, we are concerned with the command and 
control difficulties and potential unintended consequences such 
installations may pose.
    Given a strong framework of existing security and emergency 
preparedness programs and the robust design and construction of 
our plants, we feel confident in our ongoing ability to protect 
the health and safety of the public living near our plants. The 
recommendations offered here today are intended to have nuclear 
plants evaluated in the context of other critical 
infrastructure and to seek clarity for the nature of the threat 
that we are responsible to defend against. We will continue to 
work with the NRC and Congress to provide the highest levels of 
protection to the public in that regard.
    Thank you again for the opportunity to discuss these issues 
with you.
    [The statement follows:]
                  Prepared Statement of Jeff Benjamin
    Mr. Chairman, Members of the Committee: I am Jeff Benjamin, Vice-
President of Licensing and Regulatory Affairs for Exelon Nuclear, the 
nuclear division of Exelon Generation Company. Exelon Generation is a 
wholly owned subsidiary of Exelon Corporation, which was formed in 2000 
by the merger of Unicom Corporation of Chicago and PECO Energy Company 
of Philadelphia. Exelon Generation currently owns and operates 
approximately 37,000 megawatts of diversified electrical generation, 
including 17 nuclear reactors that generate 16,970 megawatts of 
electricity. Exelon is the largest nuclear generation operator in the 
country with approximately 20 percent of the nation's nuclear 
generation capacity, and the third largest private nuclear operator in 
the world. We also own 50 percent of AmerGen Energy, which is a 
partnership with British Energy of Edinburgh, Scotland. AmerGen owns 
three of the 17 units in the Exelon fleet.
    I am also appearing today on behalf of the Nuclear Energy Institute 
(NEI). NEI's 270 members represent a broad spectrum of interests, 
including every U.S. electric company that operates a nuclear power 
plant. NEI's membership also includes nuclear fuel cycle companies, 
suppliers, engineering and consulting firms, national research 
laboratories, manufacturers of radiopharmaceuticals, universities, 
labor unions and law firms.
    Thank you for the opportunity to appear before you today to discuss 
security issues at commercial nuclear power plants.
    My testimony today will focus on three areas:
    First, the nuclear power industry is absolutely committed to 
ensuring that our plants are operated safely and that all necessary 
steps are taken to protect the health and safety of the public and our 
employees. No one has a greater interest in protecting the safety and 
security of nuclear plants than the owners and operators of those 
facilities.
    Second, commercial nuclear power plants are the most well-protected 
industrial facilities in the United States today, and many businesses 
are turning to the nuclear industry as a model for providing security 
at industrial complexes.
    Third, as the United States acts to strengthen homeland security in 
light of new threats to the nation's security, it is imperative that 
Federal, state, and local officials work cooperatively with nuclear 
plant operators to build upon the solid foundation of emergency 
response capabilities that existed prior to September 11.
    The most pressing challenge facing Congress and other Federal 
policymakers is how to allocate responsibility for protecting the 
nation's critical infrastructure against attacks by terrorists and 
other enemies of the state. Federal law currently requires Nuclear 
Regulatory Commission (NRC) licensees to protect against a variety of 
potential threats to commercial nuclear power plants. Federal law 
considers many potential threats to be outside the scope of licensee 
responsibility and instead relies on law enforcement agencies and the 
military to protect against certain threats. The question facing 
Congress and the Administration is where the line between licensee and 
government responsibility lies in light of the new threats faced by 
nuclear power plants and other facilities that make up the nation's 
critical energy infrastructure.
    The events of September 11 have presented the nation with a variety 
of new challenges. Protection of the country's critical infrastructure 
is among the most important of these challenges, but it is a challenge 
that I am confident the nuclear energy industry can and will continue 
to meet.

                          INDUSTRY COMMITMENT
    Protection of the health and safety of the public and our employees 
is of paramount importance to the nuclear power industry. The industry 
has worked closely with a variety of Federal, state and local officials 
to identify additional safeguards and resources that are necessary to 
respond to potential threats to plant security, and we are fully 
supportive of taking all reasonable and necessary steps--whether they 
be by licensees or the government--to ensure that nuclear plants are 
able to withstand an attack by terrorists. We look forward to 
continuing to play an active role in working with emergency response 
agencies and officials to develop and implement effective measures to 
improve nuclear plant security.
    Among the Federal agencies with whom the industry has consulted are 
the Office of Homeland Security, the Nuclear Regulatory Commission, the 
Federal Emergency Management Agency, the Department of Energy, the 
Department of Defense, the Federal Bureau of Investigation, and the 
National Infrastructure Protection Center.
    As I stated earlier, no one has a greater interest in protecting 
the safety and security of nuclear plants than the owners and operators 
of those facilities.

                         NUCLEAR PLANT SECURITY
    Protection of public health and safety requires both the safe 
operation of nuclear plants and the physical protection of the plant 
against potential threats.
    The industry today is operating the nation's 103 nuclear reactors 
more efficiently and safely than ever before. The average capacity 
factor for nuclear plants reached an all-time high of 91 percent in 
2001 according to preliminary data from the Nuclear Energy Institute, 
while the industrial safety accident rate for nuclear plants in 2000 
was a record-low 0.26, compared to an average accident rate in the 
manufacturing sector of 4.0.
    Nuclear power today provides 20 percent of the nation's electricity 
each year, and it does so without emitting any of the pollutants 
associated with acid rain or global warming. In fact, nuclear power has 
played a major role in allowing many regions of the country come into 
compliance with Clean Air Act requirements.
    The industry's commitment to safety also extends to plant security. 
In fact, commercial nuclear power plants are regarded by many to be the 
most well-protected industrial facilities in the United States today. 
Indeed, many other industries are turning to the nuclear industry as a 
model for providing security at a variety of commercial facilities. For 
example, in addition to unique physical protections employed at 
commercial nuclear facilities, the nuclear industry is alone among 
critical infrastructure industries in using the Federal Bureau of 
Investigations to run criminal background checks on applicants for 
positions at sensitive facilities.
Current Law
    Existing Federal statutes and regulations provide strict standards 
requiring licensees to take actions necessary to protect the public 
health and safety. NRC requirements and industry programs are 
predicated on the need to protect the public from the possibility of 
exposure to radioactive release caused by acts of sabotage.
    The current design basis threat--the threat against which a plant 
licensee must be able to protect--assumes a suicidal, well-trained 
paramilitary force, armed with automatic weapons and explosives, that 
is intent on forcing its way into a nuclear power plant to commit 
sabotage. The design basis threat also assumes that the attackers will 
have insider knowledge of plant systems and plant security plans and 
even insider assistance.
    This assumed threat forms the basis for security response plans and 
training drills. These plans and drills are tested regularly by the NRC 
as part of their Operational Safeguards Response Evaluation (OSRE) and 
have confirmed our readiness to meet the design basis threat. The OSRE 
program has also provided the industry with the opportunity to identify 
areas where security can be improved and enhanced.
Physical Design of Plants
    A number of defenses exist to counter such a threat. Nuclear 
plants, by their very design, provide a redundant set of physical 
barriers designed both to keep radiation and radioactive materials 
inside the plant and to keep intruders outside the plant. The reactor 
core is protected by a containment structure comprised of several feet 
of thick reinforced concrete walls, a steel liner, additional concrete 
walls within containment, and a several inches-thick high tensile steel 
reactor vessel. The metal cladding on the fuel itself also serves as an 
additional protective barrier. For this very reason, the FBI considers 
nuclear plants to be ``hardened targets.''
    Nuclear plant sites have three distinct zones, each of which has 
different levels of physical and human defenses. The first zone, called 
the ``owner controlled area,'' includes all of the property that is 
associated with the plant. The owner controlled area typically ranges 
in size from several dozen to hundreds of acres of land and serves as 
an effective buffer zone around the critical areas of the plant.
    The second zone, the ``protected area,'' is a physically enclosed 
area surrounding the plant into which access in controlled. Physical 
barriers to intrusion include barbed wire and razor wire fences, 
microwave and electronic intrusion detection systems, closed circuit 
television systems, isolation zones, extensive lighting, system 
monitoring by redundant alarm stations, and vehicle barrier systems. 
Access to the protected area is restricted to a select population of 
site personnel with a need for entry. A significant portion of plant 
employees work outside the protected area. To access the protected 
area, plant employees and visitors must pass through a metal detector 
and an explosives detector. X-ray machines are also used to screen 
material brought into the protected area by employees and visitors. In 
addition, employees must utilize a hand-geometry device to confirm 
their identity before entering the protected area.
    The third zone, the ``vital area,'' includes those areas within the 
protected area containing equipment essential for operating the plant 
safely and successfully shutting down in the case of an event. 
Additional barriers are in place to protect vital areas of the plant, 
including concrete floors, walls, and ceilings; steel locked and 
alarmed doors; and key card access doors. As with the protected area, 
access to the vital area is restricted to a select population of site 
personnel with a need for entry. The defensive contingency plans used 
by security forces are geared towards protection of these critical 
areas.
Security Forces
    In addition to the robust physical structures protecting the plant, 
licensees maintain a highly trained, well-equipped security force to 
guard each facility. Security personnel, many of whom have law 
enforcement or military experience, must undergo extensive background 
checks, including an FBI criminal record check; physical and 
psychological testing and screening; and regular drug and alcohol 
screening. The nuclear industry is unique among energy industries in 
having a cooperative relationship with the FBI to facilitate such 
criminal record checks.
    In addition, security personnel are subject to rigorous training 
requirements. Initial nuclear security officer training includes a wide 
variety of topics, including NRC requirements for nuclear facility 
physical security, recognition of sabotage devices and equipment, 
contraband detection devices and operation, firearms training and 
tactical response training. Annual supplemental training covers areas 
such as weapons proficiency, physical readiness, stress fire course, 
force-on-force drills, and table top drills. A significant amount of 
annual training focuses on force-on-force training, which covers such 
topics as threat assessment and tactical response, response force 
deployment and interdiction, protection of specified vital equipment 
and protected areas, multiple target acquisition and engagement, and 
the use of armored body bunkers, ballistic shields, and other 
specialized security equipment.
    As a further protection to the public, each nuclear power plant has 
an extensive and well-honed emergency response organization and systems 
in place to respond to and mitigate any emergency that arises. 
Emergency response plans are tightly integrated with local, state and 
federal regulatory and emergency authorities and undergo regular 
training and drilling. The emergency planning zone includes an area 
within a 10 mile radius of the plant, an area encompassing roughly 315 
square miles. Since September 11, Exelon Nuclear has conducted security 
briefings for state and local officials in each of the states in which 
we operate to reinforce the coordination and response plans in the 
event of an emergency.
September 11 and Its Aftermath
    Upon notification by the Nuclear Regulatory Commission on September 
11, all nuclear plants immediately increased their security to Level 3, 
the highest level of security maintained at commercial nuclear 
reactors. All U.S. commercial reactors remain at Level 3.
    Since September 11, nuclear plants have also extended the point of 
initial screening of people entering the plant site from the protected 
area boundary to a point in the owner controlled area boundary. This 
initial screening includes an identification check, confirmation of the 
purpose for entering the site, and a thorough vehicle inspection for 
all visitors. States police and, in some cases the National Guard, have 
augmented this effort. In addition, armed patrols have extended their 
patrols to include a larger portion of the owner controlled area. These 
patrols are coordinated with onsite personnel to enhance detection and 
deter potential threats.
    Given the uncertain nature of potential attacks, Exelon Nuclear and 
other reactor operators took a variety or protective measures in 
conjunction with NRC guidance. These included actions to harden site 
access, increase security resources, and improve operational readiness.
    To harden site access, the industry has:
  --conducted additional screening and control of all on-site 
        deliveries upon entry to the owner-controlled area
  --barriers positioned to prevent access at several Owner Controlled 
        Area entrances
  --restricted of visitors to those required for essential plant work
  --extended background checks for outage and other contractors with 
        temporary unescorted access
  --checked employee databases against an FBI watch list of suspected 
        terrorists from all known terrorist organizations (the FBI 
        continues to update that list and share the information with 
        the industry)
    To improve security resources, the industry has:
  --increased number of security officers
  --procured additional weapons and upgraded armaments
  --added armed security posts at key plant locations
  --increased security presence at site entrance
  --added police, and at times National Guard, posted at site entrances
    To improve operational readiness, the industry has:
  --enhanced plant procedures and operator training for use during an 
        attack or credible threat
  --elevated attention to security and fire protection related 
        equipment
  --established protocol for augmented federal and state law 
        enforcement assistance and intervention
    Since shortly after September 11, the Nuclear Regulatory Commission 
has been engaged in a top-to-bottom review of the Design Basis Threat 
to reevaluate its adequacy. As an interim measure, the Commission 
issued Orders on February 25th of this year which imposes significant 
additional requirements on licensees pending the completion of a more 
comprehensive review of safeguards and security program requirements.
    While many of the specifics regarding the NRC Orders are classified 
as safeguards information and cannot be disclosed to the public, issues 
addressed by the Orders include security officer staffing levels, 
protection against potential vehicle and waterborne threats, protection 
of used fuel, enhanced access authorization controls, and mitigation 
efforts in the event of an attack.

           ADDITIONAL SECURITY CHALLENGES AND RECOMMENDATIONS
    As the United States acts to strengthen homeland defense in light 
of new threats to the nation's security, it is imperative that Federal, 
state, and local officials work cooperatively with nuclear plant 
operators to build upon the solid foundation of emergency response that 
existed prior to September 11.
    In particular, there are several steps that we believe the Federal 
government should take in addressing security issues at nuclear power 
plants.
  --There must be a clearer delineation of responsibility between 
        government and plant licensees. Federal law currently requires 
        NRC licensees to protect against a variety of potential threats 
        to commercial nuclear power plants, but the law also considers 
        many threats to be outside the scope of licensee responsibility 
        and instead relies on law enforcement agencies and the military 
        to protect against certain threats. Congress and the 
        Administration must determine where the line between licensee 
        and government responsibility lies in light of the new threats 
        faced by nuclear power plants and other facilities that make up 
        the nation's critical energy infrastructure.
  --There must be improved communication and coordination among 
        licensees and the various Federal, state and local agencies 
        involved in emergency response planning. The Federal government 
        has a role in financially supporting many of the actions 
        necessary to accommodate this improved communication and 
        coordination.
  --The Nuclear Regulatory Commission has incurred--and will continue 
        to incur--additional costs to address new security concerns. 
        Congress should support the NRC's request for additional 
        funding to support additional actions undertaken in support of 
        homeland defense.
  --The Nuclear Regulatory Commission should revise its protocol of 
        security levels to conform with that used by the Office of 
        Homeland Security.
  --In determining the resources necessary to protect nuclear power 
        plants, the Federal government should consider the potential 
        vulnerability of these plants relative to other potential 
        critical infrastructure targets and allocate limited Federal 
        resources to those facilities deemed to be most vulnerable to 
        terrorist attack.
Delineation of Government and Licensee Responsibility
    Exelon Nuclear fully supports the NRC's efforts to conduct a top-
to-bottom review of security procedures at nuclear facilities. We have 
completed our own review of security procedures at our plants and have 
taken appropriate steps to increase security measures as a result of 
the heightened state of alert.
    As Congress and the Administration debate what changes in Federal 
law and policies are appropriate in the aftermath of the September 11 
attacks, strong consideration should be given to building upon the 
existing regulatory system which distinguishes between threats for 
which licensees are responsible and threats for which law enforcement 
and the military are responsible.
    One such approach was endorsed by the House of Representatives last 
year as part of the Price-Anderson Amendments Act, which passed by the 
House by voice vote. The House legislation directs the President to 
conduct an assessment of potential threats against nuclear facilities 
and to classify each threat as one for which the Federal government 
should be responsible or as one for which NRC licensees should be 
responsible. The measure also requires the Nuclear Regulatory 
Commission to promulgate a rulemaking to ensure that licensees address 
the threats identified in the report as a licensee responsibility.
    Exelon strongly supports the Price-Anderson provisions as a 
reasoned approach to this very important issue. The Presidential study 
will allow the White House to coordinate the efforts of a number of 
Federal agencies to conduct a comprehensive threat assessment. Such an 
approach will also allow personnel knowledgeable in security matters to 
make decisions in coordination with intelligence officials to ensure 
that nuclear facilities are treated in a manner consistent with the 
protection of other critical infrastructure facilities.
Improved Communication and Coordination
    The need for improved communication and coordination among 
licensees and Federal, state and local government agencies is perhaps 
best illustrated by an event at AmerGen's Three Mile Island (TMI) plant 
last year. AmerGen was notified by the Nuclear Regulatory Commission on 
October 17, 2001, that the federal government had received information 
which it believed constituted a credible threat against the plant. A 
number of Federal agencies and organizations, including the NRC, the 
FBI, the FAA, and NORAD, were involved in the subsequent response to 
what was later determined not to be a credible threat.
    Site personnel took immediate action to secure the plant, which was 
in the midst of a maintenance and refueling outage. The company also 
requested--and received--additional security assistance from the 
Pennsylvania State Police.
    The ``threat'' against Three Mile Island showed that the regulatory 
system currently in place can work effectively in response to a 
potential threat. As the licensee, AmerGen took immediate action to 
secure the site physically and called in additional assistance from the 
law enforcement community, while the federal government and the 
military took action to protect the plant against potential threats 
that fell outside the design basis threat against which AmerGen is 
responsible for defending.
    At the same time, the TMI event also provided us with some valuable 
``lessons learned,'' including the need to work more closely with 
Federal officials to clarify the nature of threat information, the need 
to develop coordination procedures with multiple Federal agencies, and 
the need to communicate effectively with local elected officials and 
emergency services personnel.
    For example, different Federal agencies declared the threat to be 
non-credible at different times. While the Federal Aviation 
Administration lifted airspace restrictions around the plant at 1:10 
a.m. on October 18, the NRC did not notify AmerGen that the threat had 
been deemed to be non-credible until 7:30 a.m. that morning. In 
addition, while the NRC notified the Governor of Pennsylvania, the 
Commission failed to notify other state and local officials or to 
advise AmerGen that the Governor had been notified.
    The Commission took a step towards addressing some of these issues 
last week when it established an Office of Nuclear Security and 
Incident Response to consolidate and streamline selected NRC security, 
safeguards, and incident response responsibilities and resources. While 
this should address some coordination and communications issues, other 
Federal agencies must engage in similar efforts.
    Finally, it is important that the NRC be integrated into the 
intelligence community's process for assessing and communicating 
potential threats against commercial nuclear facilities and other NRC 
licensees.
Expansion of NRC Mission
    The Nuclear Regulatory Commission has incurred--and will continue 
to incur--additional costs to address new security concerns. While the 
Commission plans to reallocate existing resources to support the new 
Office of Nuclear Security and Incident Response, the NRC's mission 
with regard to security is likely to expand as the Federal government 
reassesses the responsibilities of various parties for providing 
nuclear security. NRC's efforts should be coordinated with the broader 
efforts of the Office of Homeland Security. Congress should support the 
NRC's request for additional funding to support additional actions 
undertaken in support of homeland defense.
Security Protocols and Procedures
    As I noted earlier, the NRC currently uses a three level security 
classification system. Each of the nation's 103 reactors have been at 
the top level, Level 3, since September 11 and the Commission has 
indicated that plants will remain at Level 3 for the foreseeable 
future. This situation begs the question of how meaningful the 
different security classifications are if the highest level of alert 
effectively becomes the only level of security. Given these concerns 
and the need for consistency in communicating the urgency of potential 
threats, the Commission should revise its protocol of security levels 
to conform with the five level classification system established by the 
Office of Homeland Security. Such a system would also allow the 
Commission and licensees to distinguish between the current generalized 
heightened state of alert and a more specific threat against a plant or 
plants.
Balancing the Need for Enhanced Security and Limited Federal Resources
    In determining the resources necessary to protect nuclear power 
plants, the Federal government should consider the potential 
vulnerability of these plants relative to other potential critical 
infrastructure targets and allocate limited Federal resources to those 
facilities deemed to be most vulnerable to terrorist attack.
    For example, some in Congress have advocated federalizing nuclear 
plant security forces. As I mentioned earlier in my testimony, the 
industry has a well-paid, highly-trained force of security personnel 
guarding commercial nuclear plants. Replacing these forces with Federal 
employees is unnecessary and would complicate the ability of licensees 
to coordinate the response of plant and security personnel in the event 
of a terrorist attack. Federalizing nuclear security forces would also 
unnecessarily limit the universe of potential guards by prohibiting 
retired military and other government officials who would be prohibited 
from serving as Federal security personnel and continuing to draw their 
Federal pension.
    Others in Congress and elsewhere have advocated placing anti-
aircraft artillery installations at nuclear plants to protect against 
an air attack. The industry believes that Federal resources would be 
more properly focused on increased airport security to ensure that 
terrorists are denied access to the large commercial airliners that are 
of most concern.
    Given the strong physical structures at nuclear plants and the 
highly-trained guard force to protect commercial nuclear facilities, 
resources may be more appropriately focused on other critical 
infrastructure facilities.
    Mr. Chairman, thank you for the opportunity to discuss these issues 
with you. Let me close by reiterating that the nuclear industry 
recognizes our responsibility for protecting the public health and 
safety, and we are committed to taking the steps necessary to do so.
    I would be pleased to answer any questions you may have.
                  Biographical Sketch of Jeff Benjamin
    Jeff Benjamin has over 15 years experience in management of 
commercial nuclear power generating facilities and has a background in 
plant recovery, licensing, engineering and nuclear oversight. He joined 
the company in April 1998, as the nuclear oversight vice president for 
Commonwealth Edison's Nuclear Generation Group.
    As Licensing Vice President, Benjamin is responsible for directing 
the strategic and tactical nuclear licensing and regulatory affairs 
functions and programs, including regulatory interface and policy 
setting for Exelon Nuclear. Developing and implementing strategic and 
tactical direction requires routine interface with the NRC, NEI, INFO, 
and state regulatory agencies. Benjamin also directs the activities of 
the Emergency Preparedness Department. These activities include 
processes to ensure Exelon maintains a high state of readiness for 
emergencies, scenario development, local state agency interface, and 
drill participation and performance.
    Before being promoted to his current position, Benjamin served as 
Vice President of Nuclear Acquisitions where he represented 
Commonwealth Edison in PECO's and AmerGen's acquisition and development 
activities, including due diligence reviews of possible transactions.
    Benjamin was Site Vice President of LaSalle Station before taking 
the position as Vice President of Nuclear Acquisitions. He had direct 
responsibility for the successful restart of Unit 2, the return of the 
site to normal operations after a lengthy shutdown and increased 
regulatory scrutiny, and the best-of-a-kind Unit 1 refueling outage.
    Prior to joining Commonwealth Edison, he served as director of 
oversight and licensing and director of the Unit 1 recovery from 1994 
to 1998, for the Salem and Hope Creek Nuclear Power Plants at Public 
Service Electric & Gas Company. From 1993 to 1994, he served as the 
manager of quality assessments for WNP-2 at Washington Public Power 
Supply System. From 1984 until 1989 he served in engineering, as 
quality audit supervisor and manager of quality programs at the Trojan 
Nuclear Plant for Portland General Electric. In 1994, Benjamin was 
certified on the BWR-S Reactor Plant at WNP-2.
    Benjamin holds a Bachelor of Science in nuclear engineering from 
Oregon State University. He is a candidate for a Master of Science in 
engineering at Oregon State University, with completed course work with 
the exception of his thesis.
    Benjamin has served as a member of the Board of Trustees for the 
Memorial Hospital of Salem County, the Executive Board of the Boy 
Scouts of America, Southern New Jersey Council, and the Board of 
Directors, Easter Seals, DuPage County, Illinois.

               Questioning by Senator Ernest F. Hollings

    Senator Hollings. Thank you, Mr. Benjamin.
    Since I authored the federalization of airport security, 
let me just say up front that I do not see any need for 
federalization of the nuclear power plants. We do not have an 
Argenbright problem like we had at all the airports over 
America.
    But let me ask with respect to a nuclear power plant and 
the commercial liner that ran into the Trade Towers and the 
Pentagon. You say hardened targets and proper construction are 
needed. Suppose an airplane ran into a nuclear power plant. Are 
they hardened enough to withstand that kind of hit?
    Mr. Benjamin. First of all, again I will restate. We are 
counting on the Government keeping the skies safe. Now, that 
subject has been the matter of a lot of debate and ongoing 
study. A lot of those studies are ongoing right now. When these 
plants were licensed about 20 years ago and longer, several 
were not licensed specific to the requirements of an airliner 
crash. Some were.
    Largely those designs were done in accordance with the 
aircraft that were in existence back at the time. So for 
example, our Three Mile Island plant was designed to withstand 
a 727 impact. I think I would like to defer until the studies 
get done to see what impact the larger fuel-laden aircraft of 
today would be, but certainly those studies back in the 
seventies demonstrated that these are very robust structures.
    Senator Hollings. I have only got one more minute to make 
that vote, so, Dr. Flynn, I am glad to see you back. Admiral, 
we really appreciate your appearance. Each of you witnesses 
here, it has been very valuable to the committee. Chairman Byrd 
is on his way back, so the committee will be in recess--I 
apologize, I did not see you.
    Senator Murray. I just was way too quiet, Senator Hollings.
    Senator Hollings. I turn it over to Senator Murray.

                  Questioning by Senator Patty Murray

    Senator Murray [presiding]. He always ignores me. It has 
been a 10-year problem.
    Thank you very much to all of you for your testimony here 
today. I apologize that we have been going in and out for these 
votes, but I have seen all your written testimony and I really 
appreciate all of you taking time and effort to come here today 
to talk with what I think is a very, very critical, serious, 
and difficult issue.
    Dr. Flynn, in your testimony you argue that any effort to 
improve port security must be done on an international basis 
and that any unilateral action by the United States could just 
result in more cargo entering our country overland using ports 
in Canada and Mexico. Admiral Larrabee, I am sure you share the 
concern since your port competes for traffic with Halifax and 
Montreal, just like our ports compete with Vancouver, British 
Columbia.
    Just last week the Coast Guard testified before my 
Transportation Subcommittee and they did not give us a lot of 
hope that any international consensus on a new port security 
regime could really be reached any time soon. Would both of you 
share your views on the progress that the administration has 
made to date in getting international cooperation to 
substantially boost port security?
    Admiral Larrabee. Senator, one of the projects that we both 
have talked about this afternoon is a project that we have 
entitled Operation Safe Commerce. It is a public-private 
partnership to look at this very issue. You know that we both 
believe that this is going to take more than unilateral action 
on the part of the United States to solve. One of the 
encouraging things that both of us have found is that there is 
a great deal of interest within the private community, both 
here in the United States as well as internationally, to solve 
this concern for cargo security.
    In my business, when I talk to shipping line presidents or 
when I talk to freight forwarders or when I talk to 
manufacturers in foreign countries, they all recognize that if 
we have an incident in the maritime industry that the system 
will again get shut down, as Dr. Flynn has suggested, and that 
our ability to restart it, because we have no confidence in 
that system, is something that is very much on their minds.
    I believe that we are going to see cooperation within the 
private sector to help find solutions to some of these 
problems, whether it is packing a container in a secure 
environment to some international standard, whether it is a 
better system of moving with higher accountability, whether it 
is providing more information. I believe the industry is ready 
to step up to the plate. I think it is a leadership issue and I 
think that with Federal legislation requiring more cargo 
security than we presently have we will provide the incentive 
for private industry to partner with the public sector and find 
practical solutions.
    Senator Murray. Do you see that as what compels the 
international communities to work with us on this?
    Admiral Larrabee. Yes, ma'am. It is a matter of economics.
    Senator Murray. Dr. Flynn?
    Dr. Flynn. Let me reinforce that. I think one of our 
biggest allies on the international is the Canadian Government, 
who has I think been quite forward-leaning. I have had a number 
of conversations with folks there. Their Canadian Senate had a 
report that they recently issued in February on their own 
seaport security and they gave it worse marks probably than our 
Inter-Agency Seaport Commission gave ours. But the problems are 
the same.
    Why is Canada forward-leaning on this? Forty-seven percent 
of their GDP is trade. Eighty-seven percent of their trade is 
with the United States. Ninety percent of Canadians live within 
100 miles of the border. They got what happened on September 
11th. That is, we closed down our contact between, we basically 
closed trade between. A billion dollars a day of trade stopped 
for a period of time at that point.
    So they have gone ahead and put this on the G-8 agenda, 
this issue of how do we do border management within the context 
of globalization, within the context of this new threat, and 
how do we sustain basically an open global economy. So I think 
that provides an excellent venue for this issue to be raised 
and I am hopeful that the administration will be forward-
leaning to take advantage of that to move this forward.
    The other area is the International Maritime Organization, 
where Admiral Loy, the Commandant of the Coast Guard, went to a 
meeting in November in London and made an eloquent case that 
was well received. There was a special follow-up meeting in 
February. There is still some reluctance, I think, among some 
players to deal with some of the cost issues they fear 
associated with this proposal.
    But I have also just quite recently heard, for instance, 
the Government of Singapore has given its own money for pilots 
for dealing with container security. Just this week, funny 
world we are in, I got an e-mail from the Port of Bremerhaven 
saying how could they sign up to Operation Safe Commerce.
    Here is the crux of the issue for them, and this also is 
true with the Port of Kingston in Jamaica. Ultimately it is 
gaining access to our society. Some ports see that it could be 
a competitive advantage for them for being a secure port. That 
is, it will draw shipping lines to them, it will draw major 
importers and exporters, if they are seen as the place they 
will be able to compete against some of the other ports.
    Senator Murray. Well, yes, but the other side of that 
argument is that--the closer we are to September 11th, I think 
the security arguments hold. The further we get away from that, 
economic arguments start to stay in everybody's mind. The 
competition between, I would say for sure, Canada and the U.S. 
ports can be pretty extreme, and time is everything when it 
comes to that.
    So how do we ensure that as we move further away from 
September 11th that somebody does not use lax security 
requirements or less strict security requirements to attract 
business because time is an issue when it comes to ports and 
getting cargo through our ports?
    Dr. Flynn. Well, we do need to make this--right now our 
problem is our Government is not constructed to handle this 
problem. There still is a feud of sorts going on between the 
Customs Service, saying that they own the container problem, 
the Department of Transportation who say that they have a piece 
of the problem. We have not got more senior people coming in to 
referee that issue.
    There are efforts certainly in the inter-agency process, 
but the industry, quite frankly, is confused about who is in 
charge, and for good reason. I remember, I sit on a panel of 
the National Academy of Sciences that was chaired by former 
Deputy Secretary of Transportation Mort Downey, and I said: Mr. 
Downey, when you left the Clinton administration who was in 
charge of the container? He said nobody was. We had people in 
charge of rail, we had people in charge of ships, we had people 
in charge of trucks, but nobody--the sole reason most of those 
trucks, trains, and ships existed was to move boxes, but nobody 
was in charge of the box.
    This is a new thing and I guess that is the tension of the 
issue of the earlier panel, about how we organize to deal with 
these kinds of threats. This problem has fallen between the 
cracks and we need to get that leadership issue that Admiral 
Larrabee just mentioned fixed quickly.
    Senator Murray. I agree with all that, but I still want to 
know, how do we assure that a container is just as likely to be 
inspected if it comes into the Port of Seattle or the Port of 
Vancouver, British Columbia?
    Dr. Flynn. Well, I think the way that that is being 
proposed right now is, and it is already underway, is we have 
Customs agents in Vancouver and Customs agents, U.S. Customs 
agents in Vancouver, in Montreal in Quebec, and we have 
reciprocated by having Canadian customs agents prescreening in 
Seattle-Tacoma and also in the Port of Newark.
    I think that is a very exciting approach to take. It is 
saying we are going to police the system, not our borders, and 
it allows us to monitor the standards that we have.
    But ultimately there are three things that we need to 
accomplish. The first is that there has to be standards in the 
loading process. We have to basically say who gets to put 
something in a maritime container and send it, how do they go 
about doing that. We do not have them now.
    The second is the documentation issue, sent early enough, 
with enough detail that we can know what the heck is coming our 
way.
    The third piece is what I call in-transit visibility and 
accountability, that is there is a tracking of the container, a 
chain of custody maintained throughout its movements.
    If we do not have those three, faced with a heightened 
terrorist threat, it would be quite understandable for the 
Commandant of the Coast Guard or the Commissioner of the 
Customs to say, turn off the switch because I cannot be 
confident that I can filter the bad from the good. So it has to 
be an industry-wide standard, not just for hazardous materials 
or munitions or so forth. It has to be that way.
    Now, we do not have right now a good command of what those 
standards are, and that is why this Operation Safe Commerce 
provides an opportunity that the private sector is being very 
forward-leaning on, the ports are being forward-leaning on, to 
flesh those out, to inform legislation. It should happen in a 
6- or 9-month period.
    We have had problems, though, those of us who have been 
advocating this initiative, of just getting the million dollars 
to get this up and running. We are spending lots of money on 
other things, but this problem seems to fall through 
everybody's cracks again.
    Senator Murray. Admiral Larrabee, what do you think are the 
major hindrances that will make Operation Safe Commerce, to 
allowing it to work well?
    Admiral Larrabee. Well, the first one is money. Right now 
we are a little frustrated because, as Commander Flynn 
suggested, we would like to get about $1 million to get it 
started. That money would be used for not only looking at the 
system, but looking at innovative ideas and testing those 
ideas, to look at not only the feasibility of the concept, such 
as more sophisticated seals or sensors that could detect 
tampering in a container, but also to look at the cost, so that 
we know when we provide a suggestion as a way to close up some 
of these gaps that we have some sense that the industry can 
absorb that cost, where it is going to be absorbed, and who is 
going to pay for it.
    Because that, very frankly, is one of the issues that the 
industry is faced with. Today, with the low cost of 
transportation of international goods, with the very thin 
margins of profit for anyone in that system, the opportunity 
for a shipping line or one of those components of the 
transportation system to have to pay for it by themselves I 
think is unreasonable.
    Senator Murray. Well, realistically will there not always 
be a number of shippers who cannot be depended on to 
participate in a system like this?
    Admiral Larrabee. But I think the issue here again, and we 
have talked about this before and Commander Flynn is very 
eloquent on this, if you try and inspect everything you will 
see nothing. The idea is to separate the legitimate cargo, 99 
percent of it, from that cargo which might be considered high 
risk. That is the other principle that we have to look at, and 
that we can do that someplace other than in a U.S. port like 
New York and New Jersey. I do not want to open any more 
containers in the port. I do not think that is the place where 
we want to do those inspections.
    Dr. Flynn. If I might just reinforce that point. Just 
fundamentally, what we are struggling with I think in our 
homeland security paradigm is how do we have sufficient 
security that when we have incidents--and it is inevitable we 
will have incidents--that when we do the post mortem we will 
say this is a result of a correctable breach in security, not 
the absence of security. If we view it as the absence of 
security, we will turn systems off and say start anew, a very 
costly thing to do.
    If we have the capacity to do the post mortem and we have 
the capacity to ultimately discern what is going on--and that 
is what this transparency and getting more legitimate players 
on board than we have right now. I mean, the frightening 
scenario for me is not just simply that a container could be 
used as a poor man's missile, but it would be that, say, we 
have intelligence, we infiltrated al-Qaeda II, we had somebody 
in the new network and they tell us a container has been loaded 
with a chemical weapon. It is hard intelligence. It gets 
flashed back here to the President.
    The President convenes right now his national security team 
and says, well, where is the box? And the Commissioner of 
Customs has to say: Well, it could be coming in Vancouver, 
Seattle-Tacoma, San Francisco-Oakland, L.A.-Long Beach, or it 
could be coming through the Canal and coming in any other port. 
Mr. President, I have no idea where the box is, but after it 
gets here and if it came, for instance, from a non-vessel 
operator, 5 days after it came up here, I will have the 
paperwork to tell you.
    That is the situation that he would have to then shut down, 
just on the basis of the threat.
    Senator Murray. I am running out of time, but I do want to 
ask one other question relevant to this committee. Obviously, 
whatever we do is going to cost a considerable amount of money 
whenever we look at some kind of security verification system 
for our ports. Have you thought about how we allocate the costs 
of this? There is the Federal Government, State governments, 
local ports, private U.S. companies, foreign shipping 
interests, a lot of people involved in this. How do we 
allocate? Everybody has got a stake. How do we allocate the 
costs on this?
    Dr. Flynn. Well, I think, first of all, I think industry is 
ready to step up to changed business practices. But very 
frankly, I think at this point, when you look at the resources 
that the maritime industry brings in through tariffs, we 
provide I think about $20 billion to the U.S. Treasury each 
year and, as someone said earlier, most of that goes to the 
general fund.
    I think at least a portion of that could be looked at as a 
source to close some of these gaps.
    Senator Murray. Thank you very much, Mr. Chairman.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd [presiding]. Thank you, Senator Murray.
    I note that the President has requested no funds for 
seaport security. Dr. Flynn, 7 months after the most horrific 
act of terrorism in the history of our Nation, the President 
has requested no funds for seaport security. Do you have any 
sense of a grand plan for our domestic security?
    Dr. Flynn. Well, I think we are still struggling with 
gaining recognition that what we are talking about with seaport 
security is sustaining global commerce, that the links are that 
direct, and that the investment that is required to do this 
warrants obviously much more significant resources than they 
have been given.
    I think it reflects in part the organization problem as 
well. Who is the advocate for the seaport? They are often the 
local port authorities that are working through a variety of 
different instruments. The agencies who have a piece of the 
action are themselves limited in their resources and limited in 
their access to the highest levels of Government. So it is a 
problem that has fallen through the cracks.
    I am dismayed that we are 7 months after the fact and we 
are still not recognizing the seriousness of the vulnerability 
and the need to address it quickly.
    Chairman Byrd. Admiral Larrabee, have you been given any 
guidance as to how to improve security at our ports, even for 
just the next 6 months?
    Admiral Larrabee. Mr. Chairman, I think through the Coast 
Guard captain of the port and the creation of area port 
security committees we have begun sort of at a grassroots level 
to look at the issue of vulnerability. But very frankly, we 
need Federal legislation, we need standards that we can all 
adhere to. As we have discussed before, we are in a very 
competitive business. If I make the movement of cargo through 
my port more difficult or more costly to a shipper, that 
shipper is simply going to go to another port, and it may be a 
foreign port. It may be Halifax.
    So I think the need for Federal legislation is clear. I 
mentioned that in my testimony. That would be the first good 
best step. In that, there needs to be some level of funding 
that at least gets us started, and I would start with port 
vulnerability studies.
    Chairman Byrd. Under the President's Executive Order, 
Office of Homeland Security Director Ridge is directed to 
``ensure that, to the extent permitted by law, all appropriate 
and necessary intelligence and law enforcement information 
relating to homeland security is disseminated to appropriate 
Federal, State, and local governments and private entities.'' 
He is also directed to coordinate efforts to improve the 
security of U.S. borders and to protect our transportation 
systems.
    Dr. Flynn, approximately 6 million containers entered the 
United States in 2001. That is a 20 percent increase from 4 
years ago. This number is expected to continue to rise. You 
testified that, given the vast number of containers that enter 
our ports every year, law enforcement officials must be able to 
act on intelligence provided by our Federal agencies to allow 
them to pinpoint and investigate suspect freight containers.
    To your knowledge, do our intelligence agencies currently 
have adequate information regarding cargo transportation to 
enable us to pinpoint suspect shipping containers?
    Dr. Flynn. Mr. Chairman, the answer quite simply is no. The 
paper that goes with the container movements is notoriously 
vague or incorrect. It is not necessarily even for fraudulent 
purposes. Sometimes this is because the carriers are trying to 
hide from criminals who would steal stuff what is moving. We 
have this kind of a breakdown in the system.
    Essentially, you have other problems. Non-vessel operators 
which account for close to 20 percent of all those container 
movements are not required to indicate who the originator is of 
the container or the consignee, the final destination, or 
provide any details about the contents. They will list as 
``FAK,'' ``Freights all kind.'' So U.S. Customs simply cannot 
target effectively on a document of just such vagueness.
    So the key becomes the private sector's willingness to 
share information, bill of lading kind of information and 
others, which is out there and is becoming electronically 
transferable and finding the means to do that. But you are 
dealing with in the Customs Service and the Coast Guard 
agencies that have done very poorly on the information services 
budgets and so forth. They do not have very good systems, 
computers to even take information, never mind mine it to 
target. They are trying to get better, but we are talking about 
with the Automated Commercial Environment that that is a 5 year 
out project. If we are 5 years from being able to give a front 
line inspector a tool to differentiate good, bad, or 
indifferent, we are certainly giving the terrorists ample time 
to do their worst.
    Chairman Byrd. Is it reasonable to expect the U.S. Coast 
Guard to become the world's intelligence agency in the shipment 
of cargo? Do we not need greater assistance from the 
intelligence agencies that already have an overseas presence?
    Dr. Flynn. I think there are really two levels when we 
think about the intelligence issues that we need to come to 
grips with. One is going back to my boarding officer days. I 
commanded a patrol boat. The way in which I would often find 
whether there was a problem would be, I would board a fishing 
vessel: Good afternoon, captain; we are here to enforce all 
applicable laws and regulations; what are you fishing for 
today? And if he told me he is scalloping and I look up at a 
fathometer and he is in 3,000 feet of water, an alarm would go 
off.
    So what we know is criminals, capable criminals, capable 
terrorists, often try to look like legitimate players. They try 
to infiltrate our legitimate society, as we know that the 
terrorists of 9/11 did. The people most likely to see something 
out of sorts are going to be that front-line inspector. There 
is a case of a Customs bust about 10 years ago of cocaine 
coming in in cement posts. What triggered that off was not a 
DEA agent who infiltrated the network of the cartel. What 
triggered it off was a Customs agent who said: What the heck 
are we doing importing cement posts from Colombia for? It is a 
very low value object and it is a lot of transportation.
    So one set of it is--and this goes to the issue about do we 
break pieces of the Coast Guard up if we have to move it--the 
reason why I want to keep these agencies, their regulatory 
authorities and their capacity, is their eyes and ears out 
there in that domain, the Commandant of the Coast Guard calls 
it, that allows them to pick up aberrant things and say, that 
ain't right, that ferry does not move today, that charter boat 
is not working at the right time, and have the authority to go 
up, legitimate civil authority, to ask questions. Then they 
need to have the ability to send an alarm and get 
reinforcements if they need it.
    Now, the other level of the intelligence clearly is who are 
the bad guys and how are they operating, how are they buying 
front companies, which companies are bad, where is the money 
going that could then infiltrate the industry. That is a 
classical human intelligence and intelligence function that 
should be a first order.
    But what we have right now is the worst of all worlds. When 
we have intelligence, it is often non-actionable. That is, we 
may have somebody who tells us that--we had a number of these 
instances where we have people who infiltrated the drug cartel 
and say it has been loaded on a ship in Cartagena. We do not 
know where the ship is. Four weeks later we find out that it 
was in Philadelphia 2 weeks before.
    So part of our challenge here is getting data about the 
normal behavior of flows of trade, which is a regulatory 
enforcement activity, so we can mesh it up in an operational 
way with the intelligence we are going to get from the 
traditional intelligence sources. Right now that is broken. It 
does not work.
    Chairman Byrd. Senator Stevens.
    Senator Stevens. I suppose we could institute a policy of 
creating new Ellis Islands and have all of the cargo unloaded 
somewhere and shot through an imaging system and put back on if 
it was not suspect. You think that is probably far-reaching. We 
have the largest cargo landing point in the United States at 
our Anchorage Airport and that is precisely what is happening 
to foreign cargo planes that bring in cargo now. They are being 
offloaded, run through X-ray machines, and put back on.
    As a result of that, one-third of those people who are 
flying foreign cargo planes into Anchorage moved to Vancouver. 
But then Vancouver put in an X-ray machine and they are 
starting to come back.
    But answer me the question, why is that not a 
responsibility of the private sector? Why should the public 
taxpayer pay for this system of inspecting these things that 
people are making enormous amounts of money on importing them 
into the United States? Why should we not say to you, you 
cannot bring anything in here unless you certify that it is 
terrorist and dangerous cargo-free?
    Dr. Flynn. Senator, I think we could do that. I think the 
challenge right now is we are not even sure what the standards 
we would require on industry are because we have not done some 
of the research and so forth.
    Senator Stevens. You just require that there is absolute 
liability if they bring it in.
    Dr. Flynn. I think that is a very good tool and it is what 
needs to happen. But we are going to have to get the----
    Senator Stevens. You know what will happen. No one will get 
insurance until a system is set up.
    But I am saying, so far we are planning ahead to put every 
burden of the security system on the public. Now, I understand 
putting it on the public to search individuals within our 
States and in the United States, and I understand the homeland 
defense concept. But as we put up the homeland defense, why 
should we pay the cost of bringing in, and examining what is 
coming into the homeland? Why should not the people who are 
bringing the goods in pay that cost?
    Dr. Flynn. I am an advocate of a system that works like the 
Y2K experience. We say, within a certain amount of time if a 
manufacturer or an exporter cannot verify that----
    Senator Stevens. Hold on just a minute.
    Pardon me. Sorry. If you look behind you, there are five 
lights on up there. That means they are almost finishing a 
vote. We thought we might have missed one. Sorry. I beg your 
pardon.
    Dr. Flynn. Senator, the idea here is right now we have the 
dumbest possible box. This container is 40 by 8 by 8 and there 
is nothing that can tell us whether it is good, bad, or 
indifferent. So most of the best thinking is how do we invest 
in a smarter box that could know if it has been tampered with, 
that can give information about itself.
    Those technologies are available. The good news is that 
that is also supply chain monitoring. That is what the private 
sector wants to be able, like when you order something from 
FedEx or UPS, you can track the good through. So I think there 
is a market incentive out there for building this system, even 
if it was regulated.
    The problem right now is if you impose the burden without 
going across the board in force, what you will hear the 
transportation industry say: I am a good company, I will do it, 
but all the other international players will not. I am a cost 
leader and that is unfair. And it is unfair.
    Senator Stevens. That is where I would put the public 
expense, and that is to stop those at the border which have not 
been certified.
    You should live in Alaska and have to drive through Canada 
to come back to what we call the contiguous 48 States. We go 
through inspections. They go through our cars. They go through 
our trucks. I can tell you some sad stories about, a friend of 
mine used to ship by air his items for sale down to Juneau. One 
day he decided to take a truck and drive it down, and they 
inspected the truck in Canada and found out it had some furs 
which were illegal under Canadian law. So they seized it and 
fined him $15,000 and a few other things. He learned a lesson. 
He is back flying again.
    But the point of what I am saying is, those of us who use 
land transportation personally, we go through this now. The 
people who are commercially making billions of dollars are now 
pushing off on the taxpayers the cost of bringing that stuff 
into the country. I am all for a temporary system to protect 
the public, but I think the long-term system ought to put the 
burden on the business world.
    Now, what is wrong with that? Admiral?
    Admiral Larrabee. Senator, I think you said the key word 
and that is ``system.'' Right now there is no security system 
for cargo. I recall in the days after the Exxon Valdez 
testifying in front of you, talking about what happened in that 
incident and, if you recall, your actions and the actions of 
Congress to create the Oil Pollution Act of 1990. We 
investigated that incident. We determined where the problems 
were. We fixed those problems in that system, and today with 
OPA 1990 in place, with higher liabilities, we have 
dramatically reduced the number of oil spills that we have seen 
over the last 10 years.
    I think we have a similar kind of a situation. We need to, 
as Dr. Flynn has suggested, create that system with 
requirements and standards. I think the industry is ready to 
address those types of systems.
    Then I think we ought to create some regulations and laws, 
as you have suggested. Once we have got that in place, then I 
think you will find that the industry will share in some of the 
cost of that. It will not be borne by people here in the United 
States.
    The industry is very concerned about this situation and 
realizes that one incident anyplace in the world could bring 
this system that we have worked so hard on to a grinding halt. 
So there is incentive out there and I think, at least in my 
conversations with people around the world, they are ready to 
participate.
    Senator Stevens. Senator Rudman who preceded you made the 
prediction that the next problem will be at the ports. I think 
most of us believe that is the case. But I think the tankers--
Saddam Hussein has shown he can use his weapon just by denying 
us the oil. I do not know who is going to use the tanker as a 
weapon. It may happen one of these days.
    I was with you, as you say, at the Exxon Valdez situation, 
a horrendous problem by one accident. That could be repeated in 
several ports of the United States at the same time if they 
decided to do it, I think, because we do not have an inspection 
system today. We do not have an Ellis Island for tankers, 
either.
    But somehow or other, I do believe that the transition here 
that we ought to be talking about now is how do we deal with 
this short term, but at the same time there ought to be people 
out there thinking, as the Hart-Rudman group did for homeland 
defense, of the long term.
    I am sorry I missed your testimony. But I do hope you will 
help us by thinking about the distinction between short term 
and long term. Long term I think has to be financed by 
commerce. This is tremendous. My friend Senator Inouye is not 
here, but he points out that for every five wide-body airplanes 
that leave the country carrying freight, four go West and one 
goes East. That freight market coming through--and a lot of 
that is coming through that cargo port of ours--is being 
inspected and the people that are flying them are inspected and 
paying for the cost of the inspection, in effect. They are 
paying the cost of offloading the stuff and then they run it 
through the machines and they are paying the cost of putting it 
back on.
    The time is going to come when we are going to require the 
same thing of everyone of these cargo-carrying vessels unless 
something is done to assure the public that the risk is not 
there.
    My last question would be, Senator, what about that guy 
that was in the cargo container that was picked up in Italy? Do 
you all know about that? You do, do you not. What do we do to 
protect against that?
    Admiral Larrabee. Well again, I think it has to be an 
awareness on everybody that works on the waterfront. It has got 
to be a partnership. In that case the longshoreman realized 
that this was a container that seemed strange.
    Senator Stevens. It was. It was the volunteer who made the 
report.
    Admiral Larrabee. Right. I think, at least speaking for the 
work force that works in the Port of New York and New Jersey, 
the International Longshoremen, if Mr. Bauers were here today 
he would tell you that he is ready to enlist every member of 
his union in helping with this problem.
    I think you will find as you talk to people in our 
industry, whether they are here in the United States or whether 
they are around the world, they understand the criticality of 
fixing this problem and they are willing to help. I believe it 
is a leadership issue. I think that Federal legislation will 
get it started.
    Senator Stevens. Thank you very much, gentlemen. Again I am 
sorry I was not here for all of your testimony.
    Chairman Byrd. Thank you, Senator.
    Senator Murray.

                  Questioning by Senator Patty Murray

    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Errico, if I could go back to you, I wanted to ask you 
a question because, like most States, Washington has some 
highly populated urban centers with very large water systems, 
but we also have a lot of medium and small systems in our 
smaller towns and rural communities. I understand there is 
already an ongoing debate in my home State about whether to 
focus primarily on strengthening the protections for larger 
systems, which seem to be more likely targets, or to take a 
more uniform approach, to recognize that smaller systems 
probably are more vulnerable.
    Can you give me your thoughts on this tension between the 
larger systems and smaller systems and what we should do?
    Mr. Errico. I firmly believe that all systems need to be 
looked at. All of them need a vulnerability assessment, because 
there are so many ways to get into a system to cause damage, to 
cause an uproar, to cause a problem. I think they need to be 
addressed.
    I think where the larger systems are particularly more 
critical in some cases is when they serve a lot of at-risk 
facilities. For instance, in the area we are in we serve 
probably some 30 or 40 Federal facilities--Andrews Air Force 
Base, Goddard, and everything else. So we are in an area that 
has got high visibility. We have some unique needs and some 
special things to protect to be able to provide that service.
    But I think that making the distinction I do not think is 
fair. I think no matter what size you are, I think you need to 
be looked at and properly assessed and put the proper measures 
into place to protect your infrastructure.
    Senator Murray. Mr. Benjamin, Energy Northwest is a 
Washington State utility that owns and operates the Columbia 
generating station. They have told me that the utility has 
spent $3.8 million on security since September 11th. That sum 
includes $670,000 in unexpected overtime costs. Energy 
Northwest's annual security budget from July of last year 
through--July of 2001 through June of 2002 is $5.8 million.
    In order to comply with the modifications that were 
recently ordered by NRC, Energy Northwest thinks that next 
year's security costs could go as much as double this year's 
budget.
    Do you expect increased spending on security to continue 
permanently?
    Mr. Benjamin. Yes. We are also experiencing increases in 
our security budgets. It is really in two forms. Similar to 
Energy Northwest, we have seen an increase in our staffing 
costs, both in overtime as well as new security officers. For 
our 10 sites, following September 11th we hired an additional 
140 security officers and deployed them across our 10 operating 
sites. As we are now complying with the NRC orders issued in 
February, we are looking at additional capital modifications, 
which essentially would be one-time costs, and some additional 
hiring of individuals that will be an ongoing incurred cost on 
a going forward basis.
    Our issue with the Nuclear Regulatory Commission is that 
where we are operating right now is in a state of interim 
compensatory measures which are reflective of the generalized 
heightened level of threat that we are in. We are looking for 
some finalization of what the end state looks like in terms of 
that design basis threat that clearly delineates the 
responsibility that we are responsible to defend against versus 
where we would expect assistance from outside agencies.
    Until that is done, I would really only be guessing in 
terms of what the final cost impact is.
    Just to come back a little bit on that cost in terms of our 
overall infrastructure, rough numbers now, our operating budget 
is around $1 billion per year. Prior to September 11th our 
annualized security cost was about $45 million. Now, adding 
in--which would be about, if we scale that back to Columbia 
generating station, I think it would be on about the same 
order. Putting in the 140 additional officers, it is roughly 
about another $8 million. I think as we comply with the order, 
the total cost post September 11th will be somewhere between 
$20 and $30 million, again a mix of one-time capital 
improvements versus increase in head count.
    We are anxious to get to an understanding of the final 
state so we can settle out on this, on this whole topic. So we 
have gone roughly from about 4, 4.5 percent of our operating 
budget to now upwards of 5.5, upwards of 6 percent of our 
operating budget. That is something we recognize as our 
responsibility to do and we anticipate that is a cost we will 
bear going forward.
    Senator Murray. Thank you.
    Dr. Flynn, let me go back to you for just a second. In your 
testimony you pointed out that U.S. port authorities have 
underinvested in security because of the extremely competitive 
pricing environment that they operate in. At the same time, you 
are proposing that we attempt to ensure that manufacturers of 
goods for export in foreign countries institute new security 
measures so that we know no one has tampered with their 
shipping containers.
    Many of those foreign manufacturers can successfully export 
goods to the United States only because they manufacture them 
cheaper than any other international competitor. So do you 
think it is reasonable to think that these low-cost foreign 
manufacturers can be required to increase substantially their 
own investment in security?
    Dr. Flynn. I do not think we are talking substantial 
increases, but I do think it is necessary that there be some, 
because what we are doing is we are--what is at stake here is 
the entire conveyor belt. When we have a single incident, we 
will turn it off, and we cannot basically make that hostage to 
the lowest player in the system.
    The means of doing so are that there has got to be some 
adult supervision at the loading dock. There has to be somebody 
taking some authority for that. That could be audited. There 
could be auditors that go through based on sectors, that could 
be private, who would do that to verify that their systems are 
there.
    The smart container I do not think is a huge investment. We 
are in a situation right now where a $100 pair of Nike sneakers 
coming into the Northwest will pay only about 66 to 90 cents 
for the ocean transport to get across the ocean. So that the 
company, the importer of that, can afford, I would argue, to 
pay more for his logistics, his transportation, because when it 
is missing you will know it.
    It is now such a thin profit--an average automobile is only 
spending one-half to 1 percent for transportation logistics 
costs. The Big Three could probably afford to pay a little bit 
more to ensure the integrity of the broader system.
    What we are talking about potentially is a seal, a paint 
seal inside the container, with a sensor that could be built on 
kinetic energy, like a self-winding watch, that if somebody 
penetrated it it would set off an alarm, that would talk to an 
electronic seal, that would transmit a signal. These devices 
can be under $100. The technology is there today.
    Senator Murray. You are coming from the mind set that I 
think we all are today, that security is absolutely imperative. 
We will stay there for a while, until economics and competition 
come back. What I am concerned about is that foreign 
manufacturers, competition is extremely important, whether it 
is Canada, Vancouver, British Columbia, and Seattle, or whether 
it is manufacturers who ship here like Nike shoes. How do we 
ensure that that competition does not overtake the security 
needs again?
    Maybe, Admiral Larrabee?
    Admiral Larrabee. Well, in just thinking about that 
situation, one of the things that we use as sort of a lever is 
this notion that if you do not meet this standard that Dr. 
Flynn talked about that your cargo now gets inspected. When we 
identify a container in the Port of New York and New Jersey to 
be physically inspected, it takes four inspectors 4 hours to do 
that job. It costs the owner of that cargo about $1,500 and 
they lose about 2\1/2\ days in the normal transit of that 
container.
    Time is money and an extra $1,500 on top of a very thin 
profit margin is an incentive to say, I do not want my 
container physically inspected and taken off the system. So I 
think it is those kinds of incentives that say, I have to pack 
my container to that standard you suggested, I have to ensure 
its visibility in its transit, I have to make sure that I 
provide accurate information in a timely way so that people can 
make decisions about letting my legitimate cargo go through at 
the highest speed and we can identify high-risk cargo and 
inspect them in a way that makes the most sense.
    Senator Murray. So they will pay at one end or the other, 
is what you are saying.
    Admiral Larrabee. It is a pay me now or pay me later issue.
    Dr. Flynn. I made a case, and I was happy to see 
Commissioner Bonner has embraced the idea, but it is that most 
of this trade, there are literally potentially millions of 
entities out there, 1 million entities probably, who can load 
into the system, but they are funneled, the overwhelming 
amount, through a handful of our megaports, many of them our 
allies.
    So going to them and essentially creating a Y2K event, 
saying, at a certain time we are no longer going to accept a 
mystery box. A mystery box is one that we cannot be confident 
how it was loaded, we are not sure about the documentation, we 
do not know how it got here. If you are not able the satisfy 
the mystery by this time, we are going to re-stuff the box, re-
load the box outside our terminal. That would create the hammer 
for the market to generate the ability to make sure that 
happens.
    The scariest part of the system right now is from the 
manufacturer to the loading port, because that is subcontracted 
and sub-subcontracted out. Nobody has any control over that 
right now, because the market--the regulation has not forced 
the market to provide that service. I think in the balancing 
act that this cost is not a large one because it will bring 
this extra benefit of supply chain monitoring, the ability to 
track goods, that will allow you to run a more complicated 
outsourcing scheme, to run more thinner inventories, and to be 
able to manage this, which is a big part of how people become 
competitive, U.S. manufacturers and companies are becoming 
competitive, is taking advantage of that.
    They will welcome the system when they have it, I think. It 
is going to be like e-mail; we will not know how we lived 
without it until we get it. I am confident.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.

                 Questioning by Chairman Robert C. Byrd

    Chairman Byrd. Thank you, Senator Murray.
    Mr. Benjamin, during 2 days of hearings this committee has 
heard a substantial amount of testimony on the poor state of 
coordination between Federal, State, and local authorities. But 
at our ports and nuclear facilities, private companies also 
share the responsibility for security. Who is responsible for 
coordinating the Government's security efforts at ports and 
nuclear facilities with the efforts of the private sector?
    Mr. Benjamin. I will take the nuclear plant part and let my 
colleagues down there take the port part. First and foremost, 
we are responsible for the security at our facilities. We work 
under the auspices of the Nuclear Regulatory Commission. We 
count on the Nuclear Regulatory Commission being integrally 
tied into the intelligence community, getting timely and 
effective information that we then count on them passing on to 
us.
    I mentioned in my oral remarks that we still have an issue 
in terms of clearances that we need to talk to, so we can talk 
apples and apples on relevant intelligence matters. But we are 
counting right now on the Nuclear Regulatory Commission to act 
as the liaison with other Federal agencies to coordinate the 
gathering and transmittal of the intelligence information as 
appropriate, so we may respond in kind for those threats that 
we are responsible for responding to or, in the event that the 
threat is larger than that, that we are coordinating with 
offsite agencies as well to prevent that attack from becoming a 
bigger problem.
    Dr. Flynn. Mr. Chairman, there is no equivalent counterpart 
in the port to the relationship of the nuclear industry in 
building the system in place. The worst case probably is a 
place like the Port of Long Beach, that has completely 
privatized its security. It has no sworn policemen providing 
patrol over the terminals and no water patrol. The problem with 
that is you cannot share intelligence, law enforcement 
intelligence, even law enforcement sensitive information, with 
a private rent-a-cop security firm.
    So we go up to better levels where, as in Admiral 
Larrabee's case we will talk, he has somebody who is cleared to 
the security and so forth. But this is a huge problem.
    But in general the ports, as I have heard traveling around 
the country, they are starved of any useful intelligence 
information to allow them to plan. Admiral Larrabee I am sure 
can talk to that more directly.
    Admiral Larrabee. Well, first of all, in terms of security, 
I think since September, particularly with the heightened 
awareness, there has been what I would call sort of a 
grassroots attempt to create some guidelines for security. We 
are holding our tenants to a much higher standard than we were 
in September, but we are doing that through more of our bully 
pulpit than we are in terms of being able to really regulate 
that.
    That is where these Federal standards are so critical. We 
need to establish minimal Federal standards for port security. 
That has to do with access and this whole question of access 
control. It has to do with establishing secure areas. It has to 
do with minimal levels of physical security.
    So I think that is the other dimension of the Federal 
legislation, which we are all anxious to see. Until we do that 
and until we do a reasonable standardized vulnerability 
assessment, many of these questions and the actions that will 
be taken are difficult to answer.
    Chairman Byrd. Do you know of any effort by the Office of 
Homeland Security to assess the steps required to improve this 
situation?
    Dr. Flynn. Yes, Mr. Chairman, there are steps. The Inter-
Agency Commission on Container Security was anointed by 
Governor Ridge. The Department of Transportation and the 
Customs Service were given the job of co-chairing it. It was 
convened in early January and they issued a confidential 
report, a classified report, in early February. I have not been 
privy to what is the outgrowth of that.
    There is a Rear Admiral Brian Peterman who is detailed from 
the Coast Guard, who was given the responsibility in Governor 
Ridge's office to manage this issue and oversee the issue. 
Obviously, that office is overwhelmed by what they are trying 
to cope with.
    Chairman Byrd. ``That office'' meaning what office?
    Dr. Flynn. The Office of Homeland Security. They are 
completely overwhelmed with the challenges that confront them. 
So most of these issues have been delegated back down to the 
agencies, who frankly tend to put old wine in new bottles. They 
to some extent dumbed down the problem so that they can fit it 
within their jurisdictional control and step out quickly on it.
    The concern I have about not taking the more holistic 
inter-agency approach on this is that we have got a clock 
ticking. One is that if we do not solve the hard problems 
something bad is going to happen, but when it happens we are 
going to then have two problems. One, we are going to have to 
solve the hard problem after the fact, but we are going to do 
it with diminished Government legitimacy as the American people 
say: What have you been doing the last 8 months or 9 months, or 
whatever the terrorists give us.
    Chairman Byrd. Have ports or nuclear facilities been given 
any time lines or benchmarks for assessing their 
vulnerabilities as part of a national homeland defense plan? 
Can anyone answer that question?
    Mr. Benjamin. As far as nuclear facilities are concerned, 
the afternoon of September 11th we went into our highest state 
of security level. Again, as I mentioned in my oral remarks, we 
have a mature framework in terms of our security program. In 
essence, that resulted in some very quick actions being taken 
to harden access to the site and to really make sure we knew 
the comings and goings at the site.
    Since then the Nuclear Regulatory Commission has issued a 
number of advisories culminating in the orders we received in 
February. Now, we are aware that the Nuclear Regulatory 
Commission has been in consultation with Homeland Security. We, 
the industry, have also been in consultation with Homeland 
Security. So from that standpoint, we believe that our response 
and the additional security efforts that we have undertaken 
have been done in largely an integrated manner. I know it has 
been done consistently across the industry.
    Chairman Byrd. Would anyone else like to comment on that 
question?
    Admiral Larrabee. Mr. Chairman, immediately after the 
attack on the World Trade Center the Port of New York and New 
Jersey was closed. Over the next day and a half, through the 
cooperation of Customs and the Coast Guard and INS and several 
other Federal and State agencies, we established procedures to 
reopen the port on the 13th, on the morning of the 13th. Those 
procedures involved the inspection of all vessels, the 
inspection of cargo and crew manifests, the riding of the 
vessel into the port with tugs accompanying the vessel. We did 
not allow any foreign crews to go ashore. A variety of these 
measures put in place on the shore side with more inspections, 
more container inspections.
    We saw a tremendous influx in resources during that first 
month. Since that period of time, those resources have pretty 
much degraded back to normal levels as far as we can tell. 
There have been some of those procedures kept in place, but, 
very simply put, we are still waiting for Federal standards 
when it comes to both the requirements and the time lines. 
Again, that is where we think that Federal legislation is so 
critical.
    Chairman Byrd. So in answer to the question, have ports or 
nuclear facilities been given time lines or benchmarks for 
assessing their vulnerabilities as part of a national homeland 
defense plan, I read your answer as not being very positive.
    Admiral Larrabee. I am afraid that is the case.
    Chairman Byrd. Admiral Larrabee, fully 25 percent of our 
Nation's gross domestic product is derived from international 
trade. Ninety-five percent of that trade passes through our 
seaports. Over 6 million metal containers enter our ports every 
year, any one of which could contain a weapon of mass 
destruction or a toxic substance designed to disrupt our ports.
    If one wants to disrupt our economy, our ports would seem 
to be outstanding targets. Last year this committee provided 
$93 million in direct grants for our public port authorities to 
enhance their security efforts. We envisioned that 
appropriation as an initial down payment. But the 
administration is now proposing that this grant program be 
terminated in 2003, despite the fact that they received $700 
million in applications for that $93 million.
    Admiral, do you believe that the public port authorities 
can fully meet their security needs without some measure of 
Federal assistance?
    Admiral Larrabee. No, sir, I do not.
    Chairman Byrd. Do you believe that the more than $600 
million in immediate security enhancements that the 
Transportation Department will not be able to fund this year 
will instead be funded from State or local sources?
    Admiral Larrabee. Mr. Chairman, I think many of those 
initiatives will not be funded at all.
    Chairman Byrd. Can the ports just increase their rates to 
fund all of their security needs?
    Admiral Larrabee. Right now in the Port of New York and New 
Jersey, we were focused on the 10th of September and have 
gotten back to a focus on building the port of the 21st 
century. We have cited statistics today about cargo, but, very 
simply, in the next 10 years we are going to see the amount of 
cargo coming through our port doubling. In order to keep up 
with that demand, we have got to dramatically increase the 
capacity of our port to handle that. Right now, in our 
situation, with all of the other requirements for funding, 
particularly in rebuilding lower Manhattan, our financial 
future is somewhat at risk. Our ability to fund redevelopment 
in the port and now huge costs in security I think will 
overwhelm my agency.
    Dr. Flynn. Mr. Chairman, if I could just add, what we are 
talking about here, just as I had proposed or it had been 
proposed for the port of Long Beach and L.A., the fact that you 
have to go 15 miles inland to do an inspection if you target a 
container, the proposal that port has to develop, adapt a U.S. 
Naval Reserve station into a combined inspection facility right 
in the port, away from where people are populated--it is a 10-
acre site--is a $25 million proposal.
    I suspect that it is not going to get the money that the 
TSA has available to it because there are a lot of other 
competing projects. But if we cannot--that is a port that 44 
percent of all the boxes come in. Admiral Larrabee's port is 
the number 1 port on the east coast. And we are spending $200 
million a month on aviation screening.
    Chairman Byrd. Mr. Errico, am I pronouncing your name 
correctly?
    Mr. Errico. ``AIR-ee-koe.''
    Chairman Byrd. The President's fiscal year 2003 budget 
includes only $20 million for water infrastructure security 
vulnerability studies and nothing for actually building 
security improvements. You have testified that there is a $4 
billion need for security improvements for our Nation's 
drinking water and waste water systems and $450 million for 
vulnerability assessments.
    In your opinion, does the President's 2003 budget miss the 
mark by underfunding water infrastructure security, thus 
risking both the safety and the cleanliness of our water 
supply?
    Mr. Errico. Yes, I do. There is no way the facilities can 
fund what is going to be necessary as a result of the 9/11 
events, either with increases in rates or any other feasible 
way, without Federal assistance.
    Chairman Byrd. Let me close by thanking you gentlemen for 
your patience and for staying with us this length of time. You 
made an excellent collective contribution. Individually each of 
you has performed here admirably and you have rendered a great 
service to the committee and to the American people. I hope 
that we can respond on this committee accordingly.

              Closing statement of Chairman Robert C. Byrd

    Part of the genius of the American Constitution can be 
found in its brevity. Here it is in my hand. This little book 
contains not only the U.S. Constitution and all of the 
signatories thereof, but it also contains the Declaration of 
Independence and the signatories thereof. What a magnificent 
piece of work! It is awesome.
    I never hesitate to marvel at the practical genius of these 
men who wrote that Constitution. It is short and its shortness 
has allowed for flexibility and adaptation over the years. The 
founders were not writing a bureaucratic treatise. They were 
creating a framework for the ages. Their genius is underlined 
by the adaptability they built into the structure of a new 
Government, born of turmoil and most certainly destined to 
encounter the whims of radical change in the future.
    In concept, we are faced with a challenge not unlike that 
of the framers as they sought to revise the Articles of 
Confederation. They had lived under the Articles of 
Confederation. They had experienced the shortcomings and the 
weaknesses of the Articles. We need to think of restructuring 
old mechanisms if we are to seriously endeavor to protect our 
homeland to survive in a changed and volatile world.
    September 11 raised heretofore unthinkable issues for this 
Nation. Although we had been warned about the possibility of a 
terrorist attack on our own soil for years by commissions, 
academics, and pundits, we did not believe in our national 
heart of hearts that it could happen here. We were too strong, 
we were too civilized, we were too geographically distant from 
the chaotic world of suicide bombers and religious iconoclasts 
to ever face terrorism on our own soil. We were a rich nation, 
we were well-armed, we were powerful. We were safe on our own 
soil.
    And then disaster struck. The Towers fell. Men and women 
lost their lives. All of our preconceived notions of safety and 
insulation from the capricious whims of madmen fell with them. 
We had taken it all so much for granted.
    I had never dreamed, almost 80 years ago when I was selling 
the Cincinnati Post in a little coal town in southern West 
Virginia, we had never dreamed that this could happen. We took 
it all so much for granted--our prosperity, our security, our 
special status in the world, our smug, egotistical opinions of 
ourselves.
    We responded quickly, to our credit, in the way that 
Americans do respond so well, with herculean volunteer efforts 
and quick infusions of cash by the Congress. Within 3 days, 
this Congress, the People's Branch, appropriated $40 billion--
$40 for every minute since Jesus Christ was born. And a great 
deal of confidence-building rhetoric from the White House.
    Now we are 7 months out from the tragedy of September 11 
and we have had time to form a clearer image of the challenges 
before us. What has become apparent after the settling of the 
dust of the turmoil is that we have no organized way of 
actually dealing with terrorist attacks on our own soil. The 
usual bureaucratic structures for running our huge Nation in 
times of peace or even in times of conventional warfare do not 
work when it comes to dealing with the chaos caused by terror 
attacks on our homeland.
    We have relied on conventional mechanisms. We have spent 
little effort contemplating what must be changed. We have asked 
the brave firefighters, the courageous policemen at the local 
level to be at the ready to respond. Yet, we have 
incomprehensibly withheld many of the essential tools that they 
need to assist them.
    We have seen the holes in our public health system when 
faced with anthrax attacks in the mail. Yet, surge capacity in 
our hospitals, personnel trained in recognizing rare diseases, 
and vaccines to treat those diseases are still months, if not 
years, away.
    We have heard in this very room here, within these four 
walls, over the past 48 hours a plethora of basic problems for 
those on the ground, from incompatible broadcast and 
communications systems to security clearances mired in 
bureaucratic redtape to National Guard troops stretched thin 
and in some cases expected to guard areas without arms.
    We have heard tales of little or no real direction from the 
Federal Government in assessing risk and pinpointing 
vulnerabilities. We have heard from experts on terrorism that 
our vulnerabilities can be easily exploited, using little money 
and weapons fashioned from readily available sources. We have 
been given a picture of valiant efforts by good citizens, but 
little real thought from the Federal Government about 
coordination, prevention of duplication and waste, or effective 
use of resource sharing.
    We will learn more, but one thing has begun to clearly 
emerge: We are not prepared. We are still very vulnerable. In 
many instances, 7 months out from the horrors of September 
11th, we have not even started to spend funds placed in the 
pipeline just days after the attacks. I know, because this 
committee put those funds in the pipeline.
    We must act and act quickly to address these new 
challenges. This will mean rising above the usual bureaucratic 
turf battles, figuring out how to address a problem that 
crosses the jurisdictions of departments and agencies, building 
a new flexibility into our solidified Government structures, 
thinking about Federal, State, and local relations in a new 
way.
    Our challenge is huge. It is not just to prepare, it is 
also to prevent. It is not just to respond, it is also to 
coordinate. Our leaders will have to be wise enough to take 
every step needed to protect our citizens without infringing on 
their liberties. But we will also have to provide new 
technological tools to guard our borders and protect our 
essential infrastructure.
    We on this committee are appropriators. I have been here 44 
years on this committee, doing our job as appropriators. It is 
not in our usual domain to legislate to repair planning and 
organizational deficiencies. But it is our duty to point out 
the deficiencies where we can and to offer help and to urge 
action, and it is our duty to try to see that the hard-earned 
tax dollar of the American taxpayer does what it is intended to 
do and that it is not wasted. When the funding is of such 
paramount importance as providing for the defense of our 
homeland, that duty becomes sacred.
    It is obvious that the Office of Homeland Security, as 
crafted in the aftermath of 9/11, is not now suited to the 
long-term challenge of protecting this enormous, diverse, and 
very open society. I do not fault anyone for this. We are 7 
months away from the most devastating domestic emergency in our 
history, and we are now in a better position to more clearly 
assess our needs.
    You have been helpful to us, each of you. Each of you has 
done your duty today in helping your elected representatives 
here in the Senate to better understand our needs, and in 
helping us to clearly assess our needs.
    But I do have to fault the Executive Branch for digging in, 
for clinging to a concept that is proving to be more and more 
inadequate, for thinking that a spokesman-adviser is enough to 
address an enormous managerial, tactical, and strategic 
problem.
    It is important to focus on defense abroad, but we have to 
focus also on the defense of our own streets and alleys and 
highways and waterways and nuclear facilities and the many, 
many other facilities.
    There is too much at stake to allow the Office of Homeland 
Security to continue in an unstructured and unaccountable 
fashion. Small meetings behind closed doors, individual 
briefings, these are not enough. The American people have ears 
and eyes and they need to see and hear what is being discussed, 
what is being advised in their name, and how the taxpayers' 
moneys are to be spent.
    After 2 days of testimony, I think it is clear that 
Congress should move forward to make this office, the Office of 
Homeland Security, a Cabinet level office with clear 
responsibility and authority. Senator Stevens and I have 
repeatedly requested an opportunity to hear Director Ridge's 
views on homeland security. There has not been any partisanship 
shown here. I have not threatened any action. I have continued 
to work with my colleagues on my right and left here in both 
parties in an attempt to have Mr. Ridge voluntarily appear 
before this Appropriations Committee.
    We are not interested in hearing anything about Mr. Ridge's 
private conversations with the President. There is nothing 
secret that we need to hear from him. All that we ask is that 
he voluntarily appear before this committee. Senator Stevens 
and I have worked arm in arm in the effort to have informed 
testimony recorded before our committee. Nothing has been 
partisan.
    After 2 days of testimony which has raised many new and 
very disturbing questions, the essential nature of that formal 
testimony has been underlined in red. This committee is charged 
with funding the people's needs. It is clear from these 
hearings that we need much more information to do that in a way 
that is effective, effective in accomplishing the goal of 
homeland security. Homeland security, security for whom? 
Security for the American people, security for their 
institutions.
    The people are owed an explanation by the Director of 
Homeland Security about how he would correct the glaring 
deficiencies in our patchwork web of protection and response. 
If the White House wants $38 billion for this effort, this 
committee needs to hear much more about the way in which it is 
to be spent in order to give this Nation, in order to give the 
people of this country, maximum and effective protection from 
terrorist attacks.
    We will continue these hearings and we will renew our 
invitation to Director Ridge to come before the committee. He 
has been a Governor. He has been a member of the House of 
Representatives. I am sure that Governor Ridge understands the 
need for this testimony. I have a feeling that Governor Ridge 
would be very willing to come if told to do so by the President 
of the United States.
    So we will continue these hearings. May this administration 
have the wisdom to direct Governor Ridge to come before this 
committee, and may we all have the wisdom and the courage to do 
whatever is necessary to protect our homeland.
    I have heard a lot of testimony during my 50 years in 
Congress. I have heard a lot of testimony in my 44 years on 
this Appropriations Committee, and none has exceeded in its 
importance the testimony, the information that has been given 
to this committee over the past 2 days. Woodrow Wilson said 
that the informing function of Congress was just as important 
as the legislative function, and you, the witnesses, have 
contributed to that. I have been impressed by the degree of 
detail in which you have enmeshed yourselves and the dedication 
that you have shown.
    Let me just from the bottom of my heart, on behalf of all 
our committee members, we once again thank each of you for your 
patience. I know you are tired. I am tired. But we are all 
working in the interests of the United States of America. May 
God always bless this great country. Thank you.

                    ADDITIONAL SUBMITTED STATEMENTS

    [Clerk's Note.--Subsequent to the conclusion of the 
hearings, the committee has received several statements which 
will be inserted in the record at this point.]
 Prepared Statement of Colleen M. Kelley, National President, National 
                        Treasury Employees Union
    Chairman Byrd, Ranking Member Stevens, distinguished members of the 
Committee, I would like to thank the Committee for the opportunity to 
include my written comments regarding homeland security.
    As President of the National Treasury Employees Union (NTEU), I 
have the honor of leading a union which represents over 12,000 Customs 
employees who are stationed at 301 ports of entry across the United 
States. Customs inspectors and canine enforcement officers make up our 
nation's first line of defense in the wars on terrorism and drugs. In 
addition, Customs personnel are responsible for ensuring compliance 
with hundreds of import laws and regulations, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction and laundered money.
    With a fiscal year 2002 budget of approximately $3.1 billion and 
over 18,500 employees, the U.S. Customs Service continues to be the 
Nation's premier border agency. The U.S. Customs Service interdicts 
more drugs than any other agency and ensures that all goods and persons 
entering and exiting the United States do so in compliance with over 
400 U.S. laws and regulations at 301 points of entry across the 
country. Customs is also a revenue collection agency, collecting an 
estimated $25 billion in revenue on over 25 million entries involving 
over $1.3 trillion in international trade every year.
    One of the most discussed ideas being debating on the topic of 
enhancing border and port-of-entry security, is the idea of border 
agency consolidation. The most talked about border agency consolidation 
proposal would combine the Customs Service, INS and the Border Patrol 
into one agency under the jurisdiction of the Department of Justice. I 
find this proposal to be extremely troubling.
    One of the keys to operating any government agency is sound 
organization. It can ensure that problems reach their proper level of 
decision quickly and efficiently. More importantly, good organization 
helps assure accountability. Unfortunately, a border agency 
consolidation plan that would put the Customs Service under the 
jurisdiction of the Department of Justice would not improve, but 
exacerbate current border problems. The Justice Department has 
consistently shown that is has a poor record of accountability and 
lacks a sound organizational structure with regard to the two border 
security agencies currently under its jurisdiction, the INS and the 
Border Patrol.
    Most recently, the INS notified flight schools of the approval of 
student visas for two of the September 11 hijackers six months after 
the terrorist attacks. The INS also mistakenly allowed four suspected 
Pakistani terrorists into the country without proper documentation and 
they cannot now be found. I would have to respectfully disagree with 
the view that consolidating the Customs Service with INS and the Border 
Patrol will achieve the goals of sound organization, accountability and 
enhanced border and port security, especially if the consolidation 
takes place within the Justice Department.
    Consolidating these three organizations would also cause logistical 
and institutional chaos. It would take attention away from critical 
homeland security priorities. Yes, all three of these organizations 
deal with front line border and port security, but in very different 
capacities. Each of these agency's missions are unique and should 
remain in their current structure. Ignoring each agency's fields of 
expertise will lead to losing that expertise.
    For example, Customs is charged with preventing contraband from 
entering the United States as well as preventing terrorists from using 
commercial or private transportation venues of international trade for 
smuggling explosives or weapons of mass destruction into or out of the 
United States. Customs personnel use advanced manifest information on 
goods to improve targeting systems to detect questionable shipments as 
well as deploying state of the art inspection technology at land 
borders, airports and seaports. Customs personnel also use advanced 
computer systems to compare international passenger information against 
law enforcement databases on a passenger-by-passenger basis to detect 
possible terrorists or criminals.
    Whereas, the Border Patrol's primary mission is the detection and 
prevention of illegal entry into the United States between ports of 
entry, the INS is tasked with the deterrence of unlawful entry of 
persons into the United States as well as facilitating lawful entry of 
persons entering the United States at ports of entry.
    The Customs Service is also responsible for collecting over $25 
billion in trade revenue each year. The structure of the Department of 
Justice has nothing to do with revenue collection or trade 
facilitation, two main missions of the U.S. Customs Service. Adding 
revenue collection and trade facilitation responsibilities to the 
Department of Justice's mission would create a logistical mess and make 
it more difficult for U.S. companies that import and export goods.
    Another popular argument in favor of consolidation involves the 
perceived lack of intelligence sharing between border security 
agencies. As any expert involved in law enforcement operations will 
tell you, the routine sharing of tactical intelligence is critical to 
all law enforcement operations, especially agencies tasked with border 
security. Since September 11, Customs and INS receive FBI intelligence 
briefings. These briefings should have happened on a regular basis 
before September 11, but these briefings demonstrate that consolidation 
isn't necessary to improve intelligence sharing.
    While some work still needs to be done in the area of cooperation 
and coordination of intelligence, all three agencies involved with 
border security functions have been working together as part of 
Intelligence Collection and Analysis Teams (ICATs). These teams have 
been created throughout the country to analyze smuggling trends and 
concealment methods, and to quickly disseminate intelligence to all 
ports of entry and Border Patrol checkpoints. These ICATs are comprised 
of Customs Inspectors and Agents, INS agents, INS analysts and, the 
U.S. Border Patrol as well as local law enforcement in some cases.
    In Customs' case, no one doubts that the level of conveyances, 
cargo and passengers has increased dramatically over the last five 
years, but unfortunately its resources have not kept pace. Traffic 
volume at U.S. land ports-of-entry has steadily increased as our shared 
borders with Mexico and Canada have become more open as a result of the 
NAFTA and other initiatives. The steady increase in non-commercial 
traffic has led to increased congestion and backups at many land ports-
of-entry, particularly those along the Southwest border. Nearly 68 
percent of non-commercial vehicles that enter the United States entered 
at land ports-of-entry along the Southwest border. Wait times along the 
Southwest border often extend to 45 minutes or more during peak hours. 
Such lengthy delays can be both irritating and costly to businesses and 
the traveling public. The lack of resources at ports-of-entry is also a 
problem along the Northern Border as well as seaports. The events of 
September 11 brought attention to the fact that the Northern Border and 
the nations' seaports have long been neglected in terms of personnel 
and resources.
    In fact, Customs recent internal review of staffing, known as the 
Resource Allocation Model or R.A.M. shows that Customs needed over 
14,7776 new hires just to fulfill its basic mission and that was before 
September 11. What Customs needs in order to be successful and to 
continue to carry out its recently expanded mission of homeland 
security is greater funding.
    For instance, with increased funding, modern technologies, such as 
Vehicle and Cargo Inspection Systems (VACIS), which send gamma rays 
through the aluminum walls of shipping containers and vehicles to 
enable Customs inspectors to check for illegal drugs or weapons of mass 
destruction, could be acquired. However, adequate and consistent 
funding to purchase, operate and maintain these technologies has not 
been forthcoming. There have been a number of instances around the 
country where multi-million dollar VACIS x-ray machines have sat unused 
because of the lack of funding available for Customs personnel to 
operate the machines. Other technologies, coupled with proper personnel 
funding, such as portable contraband detectors (a.k.a. Busters), 
optical fiber scopes and laser range finders can be invaluable to 
Customs personnel protecting our borders from terrorists and illegal 
drugs.
    The President's fiscal year 2003 budget requests a funding level of 
$3.18 billion and 19,628 FTEs for the United States Customs Service. 
This request represents a token increase from last year's 
appropriations. NTEU feels that this budget is simply inadequate to 
meet the needs of Customs personnel, especially in light of the 
incidents surrounding September 11th.
    In 2001, Customs Service employees seized over 1.7 million pounds 
of cocaine, heroin, marijuana and other illegal narcotics--including 
over 9.5 million tablets of Ecstasy, triple the amount seized in 1999. 
Customs also processed over 497 million travelers last year, including 
1 million cars and trucks and over $1.3 trillion worth of trade. These 
numbers continue to grow annually. Over the last decade trade has 
increased by 137 percent. It has become very clear that funding must be 
substantially increased in order to allow Customs to meet the 
challenges of the future, especially as Customs continues to have 
significantly higher workloads and increased threats along America's 
borders.
    Yet, despite the increased threats of terrorism, the dramatic 
increases in trade resulting from NAFTA, and new drug smuggling 
challenges, the Customs Service has confronted its rapidly increasing 
workload and homeland security mission with relatively static staffing 
levels and resources. In the last ten years, there have not been 
adequate increases in staffing levels for inspectional personnel and 
import specialists (the employees who process legitimate trade) to 
successfully conduct their missions.
    The recent deployment of over 700 National Guard troops to our 
borders clearly shows the need for more Customs personnel. Currently, 
the National Guard troops are unarmed, which not only puts the Customs 
inspectors' lives in danger but that of the National Guard as well. In 
fact, a number of drug seizure cases have had to be dismissed because 
of the improper discovery and handling of illegal drugs by National 
Guard troops. These troops need to be removed from the borders and 
quickly replaced with highly trained Customs personnel.
    Last year, Congress acknowledged the shortage of staffing and 
resources by appropriating $245 million for Customs staffing and 
technology needs for both the Northern and Southwest Borders in the 
Department of Defense appropriations. We urge this Congress to again 
increase the funds available for additional inspectors and equipment in 
areas around the country that are experiencing the severe shortages. 
NTEU would also ask Congress to work to provide funding for the Customs 
Service in the fiscal year 2002 emergency supplemental appropriation, 
despite the Administration's request, which called for no 
appropriations for the U.S. Customs Service.
    In addition to appropriations, Customs also receives funds from the 
COBRA account. This user fee account funds all inspectors and canine 
enforcement officers' overtime pay as well as approximately 1,100 
Customs positions across the country. This account is funded with user 
fees collected from air/sea passengers except from the Caribbean and 
Mexico, commercial vehicles, commercial vessels/barges and rail cars.
    The history of collections and obligations for COBRA over the last 
5 years shows a significant drawing down of reserve money available in 
the COBRA fund for overtime and additional positions, to the point 
where a significant ($40 to $60 million) shortfall could be expected in 
2002. Customs anticipates collecting approximately $300 million in 
COBRA fees during fiscal year 2002, well below the $350 million they 
project in COBRA obligations during fiscal year 2002.
    To help remedy this problem, the President's fiscal year 2003 
budget proposes to temporarily increase two COBRA fees to raise an 
additional $250 million for personnel overtime and resource needs. The 
first involves the international air passenger fee, which would be 
raised from $5.00 to $11.00. The second fee increase involves the 
cruise vessel passenger fee, which would be raised from $1.75 to $2.00.
    Unfortunately, Congress has been extremely reluctant to raise these 
fees in the past, so it is unlikely that this additional money will 
ever materialize. The Appropriations Committee must make sure that this 
$250 million is appropriated so that the Customs Service can continue 
its critically important work.
    The COBRA fund will expire on September 30, 2003, unless it is 
reauthorized by Congress before then. However, the President's fiscal 
year 2003 budget does not call for the reauthorization of COBRA. COBRA 
must be reauthorized or Congress must appropriate additional funds to 
make up for the loss of the user fees.
    Another issue that I would like to address is law enforcement 
status for Customs Inspectors and Canine Enforcement. The U.S. Customs 
Service Inspectors and Canine Enforcement Officers continue to be the 
nation's first line of defense against terrorism and the smuggling of 
illegal drugs and contraband at our borders and ports. Customs Service 
Inspectors have the authority to apprehend and detain those engaged in 
terrorism, drug smuggling and violations of other civil and criminal 
laws. For example, it was Customs Inspectors who stopped a terrorist 
attack planned for New Years Day 2000 by identifying and capturing a 
terrorist with bomb making material as he tried to enter the country at 
Port Angeles, Washington.
    Canine Enforcement Officers and Inspectors carry weapons, and three 
times a year they must qualify and maintain proficiency on a firearm 
range. Yet, they do not have law enforcement officer status. They are 
being denied the benefits given to their colleagues who they have been 
working beside to keep our country safe. Customs employees face real 
dangers on a daily basis, granting them law enforcement officer status 
would be an appropriate and long overdue step in recognizing the 
tremendous contribution Customs personnel make to protecting our 
borders from terrorism and drugs.
    There are currently bills before Congress, H.R. 1841 and S. 1935, 
that would grant law enforcement status to appropriate Customs 
personnel. NTEU asks all members of the committee to cosponsor these 
very important pieces of legislation.
    The American public expects its borders to be properly defended. 
The government must show the public that it is serious about protecting 
the borders by fully funding the agencies tasked with defending the 
borders and laws of the United States. No organizational structure 
change will be successful, no matter how good it may look on paper, if 
the government does not provide proper funding for its border security 
agencies.
    Thank you for the opportunity to share NTEU's thoughts on this very 
important issue. I look forward to working with the Committee on this 
and many other issues related to homeland security.
     Prepared Statement of Victor L. Lechtenberg, Chair, National 
  Agricultural Research, Extension, Education, and Economics Advisory 
                                 Board
    Mr. Chairman and Members of the Committee, I would like to extend 
my appreciation for the opportunity to submit this written testimony on 
the issue of biosecurity. My name is Victor Lechtenberg and I am the 
current chair of the National Agricultural Research, Extension, 
Education and Economics Advisory Board (Advisory Board) created by 
Congress as part of the 1996 Farm Bill and the Dean of Agriculture at 
Purdue University.
    The United States' agriculture sector accounts for about 20 percent 
of the country's Gross National Product and 25 percent of our export 
market. The system is vulnerable to biosecurity breaches such as the 
introduction of a plant or animal disease, which could substantially 
damage our nation's and the world's food supply and significantly 
impact our economy.
    There are four things that we must do to protect the United States' 
agricultural production and food supply system from biosecurity 
threats: (1) develop rapid detection systems, (2) determine the genetic 
composition of pathogens known to have been the target of biological 
warfare research, (3) develop plant and animal resistance to these 
pathogens, including vaccines, and (4) implement communication and 
education programs about biosecurity across the food and agricultural 
system and throughout our nation's communities.
    While there are limited data on the potential cost of an 
intentional attack on the production and food supply system, there can 
be no doubt that it would be strategically planned to create maximum 
damage. USDA has estimated that a single-site outbreak of Foot and 
Mouth Disease could cost $10 billion.
    One thing the experts agree on is that the cost of an animal or 
plant disease outbreak is directly proportional to the time it takes to 
diagnose the disease. The longer diagnosis takes, the further the 
disease could spread, increasing the likelihood of extensive losses in 
both production and exports due to sanctions against the United States.
    Rapid detection of chemical, biological, and environmental threats 
is critical, whether those threats are against humans, livestock and 
crops, or food. While a terrorist attack on livestock or crops may not 
threaten human life, the long-term economic impact could be 
devastating. And contamination of the food supply would put consumers 
at risk. Work is already being done on small-scale sensors such as 
protein chips, which are being developed to detect pathogenic organisms 
that cause food poisoning. It will take several years to develop low-
cost, real-time sensors so we can contain and eradicate any 
contamination or disease as soon as possible. We need a concentrated 
effort to develop these systems as quickly as possible. Several new 
technologies hold great promise in this arena.
    There are a number of animal and plant diseases which have been the 
target of biological warfare research since World War II, including 
anthrax, brucellosis, glanders, rinderpest, Newcastle disease, fowl 
plague, late blight of potato, rice blast, brown spot of rice, Southern 
blight, and wheat rusts. DNA sequencing and genomic characterization of 
these known biological warfare agents would be invaluable to devising 
prevention strategies, developing new sensors for rapid detection, and 
creating vaccines and resistant strains and hybrids. This sequencing 
can be done in less than a year at modest cost. It should be undertaken 
immediately.
    In addition, a number of scientists across the nation are already 
working on developing resistance to naturally-occurring strains of 
these pathogens, and their research could be useful in developing 
genetic resistance to more virulent forms of those pathogens. We should 
also undertake an effort to develop broad-spectrum vaccines that would 
protect against infection and help contain any disease outbreak.
    Finally, it is important that we implement effective communication 
and education programs on biosecurity. Industry, commodity, research 
and regulatory groups told a recent Advisory Board meeting they are 
mobilizing for potential terrorist threats but they need government 
leadership for coordination, research, education and policy to meet the 
urgent needs. We must empower Extension educators, veterinarians, 
producers and others who are most likely to be able to detect and 
diagnose disease outbreaks early and guide rational public response. As 
local leaders they are our trusted first line of defense against a 
large-scale disease outbreak that would threaten agricultural 
production, exports, and the food supply.
    We already have in place the Extension Disaster Education Network 
(EDEN), a collaboration of Extension systems in 38 states and Puerto 
Rico, with a liaison office at USDA. EDEN's mission is to help 
Extension staff be better prepared to deal with all types of emergency 
management issues including homeland security. Extension specialists 
and educators at the local level are already active in the research and 
technology transfer related to plant and animal disease management. 
EDEN is encouraging these researchers and educators to be sensitive to 
plant and animal biosecurity and many Extension systems are already 
developing training activities.
    The events of September 11 have caused all of us to take a long, 
hard look at the world around us. The issues of biosecurity are not new 
to agriculture, but they have taken on new meaning. Strong research and 
education efforts in biosecurity will help us protect our food, 
agriculture, and natural resource system. The terrorist attacks 
underscore the importance of having the research, technology, education 
and coordination systems in place to counter terrorism of all kinds, 
including threats to the food and agriculture system.
    Thank you for the opportunity to share these thoughts with you.
 Prepared Statement of the National Association of State Universities 
                        and Land-Grant Colleges
    Mr. Chairman, Members of the Committee, it is my pleasure to submit 
to you testimony regarding the fiscal year 2003 budget. I am commenting 
on behalf of the National Association of State Universities and Land-
Grant Colleges, Board on Agriculture Assembly.
    There is one critical issue facing the United States today that 
brings us before you, the need to secure the United States from a 
biological attack and the attendant concerns related to the security of 
the U.S. food production system. In addition to jeopardizing public 
health and safety, biological attacks on the U.S. agricultural sector 
would cause our nation and the world's food supply substantial damage, 
and undermine the U.S. economy. U.S. agricultural exports alone reached 
$50.9 billion in fiscal year 2002. As noted in a study issued by the 
Department of Defense in January of 2001:

    ``The potential threats to U.S. agriculture and livestock can come 
from a variety of pathogens and causative agents. With one in eight 
jobs and 13 percent of the gross national product dependent on U.S. 
agricultural productivity, economic stability of the country depends on 
a bountiful and safe food supply system. Similar to the human 
population, the high health status of crop and livestock assets in the 
U.S. creates a great vulnerability to attack with biological agents.''

    The President's fiscal year 2003 proposal provides more than $6 
billion across several federal agencies to address biosecurity issues. 
Unfortunately, very little of this proposed investment is targeted to 
address the homeland security issues facing agriculture, our food 
production, natural resources, distribution system, or our rural and 
urban communities. We fully recognize that there is an immediate need 
to address public health, defense and law enforcement homeland security 
issues. However, it is just as important and just as urgent that 
protect our food production and distribution system. It is important 
not to alarm the public or our trading partners unnecessarily. It is 
even more important to take the immediate and straightforward steps 
that will ensure that there is no tampering with our food supply 
system.
    The Land-Grant University (LGU) system is unique in the world in 
that it was designed to work in partnership with the federal, state and 
local agencies. We were designed to address national issues at the 
state and local level. This partnership is critical in providing the 
science base and education outreach programs that are uniquely 
important in food production and distribution. This same distributed 
network will be critical in addressing homeland security needs. Our 
universities provide much of the innovative research and have the 
science knowledge base regarding biological pathogens that could impact 
the food production system and natural resources. Our Cooperative 
Extension System provides a network of personnel in every county of the 
country, with staff that are already trained to work with local 
community leaders to plan and respond to natural and civic disasters, 
as well as years of experience designing and implementing education 
programs for producers, processors, and consumers. The LGU system's 
premier teaching facilities can also educate the next generation of 
scientists about agro-security. It is imperative that the security 
issues facing our food production system be addressed. It is essential 
that the existing distributed information and outreach system that 
resides within the Land-grant universities be harnessed and integrated 
into the efforts of all federal agencies seeking to collaborate with 
rural communities.
    I respectfully offer the following testimony to describe the bridge 
between land-grant research and extension activities and the health 
sciences, security, and emergency management conducted by other federal 
agencies. I will also offer ways in which the land-grant universities 
could be a valuable resource in the federal, state, and local 
government solution to coordinating and conducting the prevention and 
response to biosecurity threats.

            CAPABILITIES OF THE LAND-GRANT UNIVERSITY SYSTEM
    The federal government created the LGU System in 1862 and is 
anchored in every state and U.S. territory. In partnership with the 
local, state, and federal governments, the LGU System addresses 
national issues at the local level. Central to the LGU System are the 
State Agricultural Experiment Stations (SAES) that conduct research and 
the Cooperative Extension Service (CES) that builds provides outreach 
from the university to our communities across the country.
    SAES, with over 10,000 highly specialized researchers, has for 
years engaged in research that is relevant to protecting the nations 
food production, processing and distribution system from acts of 
terrorism. CES has an established presence in communities across the 
country with 3,150 local offices that continuously manages and controls 
emergencies, particularly natural disasters. CES' unique capacity to 
self-evaluate its program effectiveness constantly improves agriculture 
and community safety. Moreover, multi-institutional/multi-state 
procedures for coordinating the research of SAES and integrated 
activities with CES are already in place, ready for immediate 
engagement.
    What must Agriculture Experiment Stations and the Cooperative 
Extension System do to Enhance Agro-security?
Address Immediate Security Needs
            Securing Experiment Station Research
    Research results and data are often openly communicated and stored 
electronically via electronic posting and web sites and could be easily 
used to locate and abuse hazardous materials. SAES and federal research 
laboratories must develop protocols to safeguard this information while 
keeping necessary information and communication channels open.
    Furthermore, it will be important for state and federal officials 
to be able to locate or track the location of these materials over 
time. Recent questions about the location of anthrax samples in federal 
laboratories demonstrate why this new level of security will be needed. 
There should be a national list of potentially dangerous materials 
inventoried across agricultural research facilities that would be 
maintained and updated regularly and available to appropriate federal, 
state and local emergency management agencies.
    While laboratories should be secured, there should also be respect 
for the information sharing between scientists. Legitimate 
communication mechanisms and efforts should not be thwarted as a result 
of the added security. Therefore, security plans should be made in 
conjunction with SAES and federal laboratories to ensure the 
continuation of secure and critical agricultural research and 
communication.
            Training Industry to Secure Their Operations
    In a natural partnership with SAES, CES provides educational 
programs to the private sector on how to secure their operations. As we 
have sadly learned, equipment and materials such as fertilizers and 
crop dusting planes can be used as bioweapons. Appropriate protocols 
for securing these materials should be developed in collaboration with 
USDA's Agricultural Research Service (ARS), the Animal and Plant Health 
Inspection Service (APHIS), the Food Safety Inspection Service (FSIS), 
and other appropriate federal agencies.
Secure Communities
    Producers, processors, suppliers, retailers, and consumers may one 
day be the ``first responders'' to an agro-terrorist attack and thus 
play a pivotal role in quickly containing contamination. CES agents 
need to be trained to recognize possible threats and employ the 
appropriate protocols for working with local and federal law 
enforcement and health agencies. CES has a unique role to play in 
training community leaders to prepare and plan for potential terrorist 
activity. CES can help rural and urban communities, businesses and 
farms develop tools to determine points of exposure and risk, so that 
they can develop programs at the local level that best meet their 
needs. Because rural communities are sparsely populated, the 
infrastructure may not already exist to mitigate a disaster. Many of 
the mitigation strategies will deal with preparedness and training of 
community volunteers. With more research on disease vectors, these 
communities could better shape both prevention and containment 
strategies via vaccines and agents to neutralize and treat the effects 
of disease outbreaks. CES has already developed a way to communicate 
with and keep on the same page as partner agencies called the Extension 
Disaster Education Network (EDEN). EDEN is a clearinghouse for 
educational and related materials used for disaster mitigation. The 
recovery process for communities and their constituents may require 
sustained presence within the communities and the mobilization of 
significant research resources.
Respond to emergency outbreaks
    A purposeful biological attack on our plant and animal species 
would probably spread quickly and from separate locations. Immediate 
recognition that there is an unnatural outbreak of a disease in 
multiple locations is critical if the spread of the disease is to be 
contained. Although the food and fiber production process opens up many 
opportunities for purposeful contamination, most existing safeguards 
were not designed to protect against intentional attacks. Modeling and 
communication tools need to be developed that would facilitate early 
detection and recognition of unnatural outbreaks. The private sector, 
the federal government, and the LGU System will need to develop new 
standards and protocols to: improve detection and monitoring practices 
such as enhanced border screening practices; develop a communication 
system that alerts appropriate agencies and points of entry that a 
problem may exist, with guidance on appropriate actions; improve the 
ability to trace contamination back to its source; and enhance 
communication networks with public health agencies, law enforcement 
agencies and state and local officials.
    The timing of the recognition and response is also critical. If a 
purposeful introduction of a biological agent is recognized quickly, 
the impact can be greatly reduced. A difference of several days can 
mean the difference between curtailing a viral outbreak and losing 
control over the spread of a contagion. As mentioned, with a lower 
population base distributed across vast areas, rural America typically 
lacks the infrastructure to recognize and respond to terrorist attacks.
Educate scientists, teachers and specialists
    Who will provide the expertise for these efforts in the future? We 
will need people whose education concentrates on security in 
agriculture and natural resources. Courses or degrees in agricultural 
security will be necessary. This kind of expertise currently does not 
exist in institutions and initially will require outside expertise. 
Institutions will require help to design long-term educational programs 
that can provide the scientists and educators the ability to address 
the issues of agricultural security.
          linking the land-grant system with federal agencies
    The LGU System offers across the broad experience with agricultural 
security research and extension that lends itself to the purposes of 
other federal agencies. The attached budget summary table links funding 
requests from different agencies with biosecurity activities.
United States Department of Agriculture
    The LGU System has a long historic relationship with USDA in 
protecting our food production system. We are recommending a $212 
million increase in new funding for USDA/CSREES to address agro-
security and food safety issues. The LGU have a historic working 
relationship with USDA and our recommendations for agro-security 
funding have been detailed in testimony submitted to the House and 
Senate Agriculture Appropriations Subcommittees. While the LGU have 
worked with each of the following federal agencies, we have not done so 
in a systematic way, and so we provide more detailed description of 
what our expanded cooperative efforts should include.
Department Of Defense
            Science and Security: Linking SAES with National Agro-
                    Security Efforts
    The LGU System proposes to develop new ways in which to collaborate 
with the Department of Defense in order to engage the SAES and CES in 
providing federal, state, and local governments with rapid access to 
the best information and services for eliminating, avoiding or 
mitigating domestic and foreign threats to national food systems and 
U.S. agricultural production. The SAES could help to provide the 
Department of Defense with support services in the following areas: 
National advisory service for research site security; organization of 
research facilities (domestic and international); strategic planning 
facilitation; document services; research outcome reporting; resource 
mobilization and allocations; financial accountability; information 
security and confidentiality assurances; and rapid responses for 
requested information.
    Moreover, we recognize that certain data collection and monitoring 
activities, threat assessments; interventions, and related training 
activities are necessarily classified; and therefore, we propose 
forming with others a partnership that would draw upon selected 
(cleared) experts from the LGUs and from pools within intelligence and 
law enforcement certain expertise to provide decision makers specific 
support in the following areas:
  --Security firewall for engaging the LGU expert community at large;
  --Conduct, oversee and/or advise on classified data collection and 
        monitoring activities;
  --Conduct, oversee, advise and/or participate in classified research 
        and assessments; and,
  --Education and training programs for: First responders; incident 
        monitoring systems; diagnostic services providers; and, risk 
        and threat assessment resources.
            Preparing Our Civil Defense
    Since World War II, CES has worked with the military in our rural 
communities to coordinate civil defense needs. The CES network could 
heed the call once more to increase our civil defense, and prepare it 
for biosecurity aspects through volunteer training programs conducted 
in collaboration with the military. Additionally, CES has ongoing 
family programming designed specifically for those families living on 
military bases. CES could adapt these programs to discuss and address 
potential biological threats to family security on military bases.
            Funding
    The costs of prevention are small relative to the cost of a 
terrorist attack. Severe economic disruption could result to our 
production, distribution and trade system, if we do not take 
responsibility to act now. We are recommending a beginning funding 
level of $171 million in fiscal year 2003 from the DOD for the 
following purposes:
  --$136 million to link land-grant research with DOD agro-security 
        issues;
  --$76 million to collaborate in securing research facilities and 
        developing a system for appropriate security screening and 
        background checks for individuals with access to sensitive 
        materials; and
  --$35 million to initiate CES technology transfer and networking 
        activities related to improved diagnostic and testing 
        technologies.
Federal Emergency Management Agency
    FEMA is charged with working closely with state and local 
governments and agencies to ensure their planning, training, and 
equipment needs are addressed and to ensure that the response to 
weapons of mass destruction threats is well organized. Stepping up the 
partnership between CES and FEMA could improve the management of 
emergency agro-terrorism situations by employing programs for risk 
awareness, risk assessment, mitigation, and recovery.
            Coordinated Emergency Planning and Training
    CES has collaborated with FEMA for many years to manage and control 
emergencies, although to date, most disasters have been natural such as 
floods, storms, droughts and disease outbreaks. In addition, CES has 
almost 100 years of experience in the recruiting, training, utilization 
and management of volunteers. CES works with thousands of volunteers 
every day, is familiar with all aspects of volunteer training and 
management and has a reputation of being a ``volunteer organization'' 
in the community. Many of the volunteers seek more intensive training 
through one or more of the ``master volunteer'' programs which target 
specific community or program needs such as agro-terrorism mitigation. 
As part of its emergency management work, CES created the Extension 
Disaster Education Network (EDEN), a clearinghouse for educational and 
related materials used for disaster mitigation. Most recently, CES 
mounted a nationwide train-the-trainer program to prepare small and 
rural communities and public and private organizations for Y2K. CES 
trained hundreds of thousands of individuals, families, and private and 
public organizations to manage the Y2K threat in little more than one 
year.
    Building on EDEN, CES could assist FEMA in ensuring that first 
responders at all points in the food production system are well trained 
in new technologies and techniques to improve emergency response 
efforts. Such a program could involve training first responders and 
citizen volunteers in biosecurity risk assessment and mitigation. The 
program could have four parts: (1) risk awareness to inform communities 
and leaders about the potential threats of terrorist activity; (2) 
self-directed risk assessment that allows for flexibility required in 
given community of producers, processors, retailers, and consumers; (3) 
mitigation; and (4) recovery.
    Awareness.--This training would inform communities and leaders of 
the potential threats of terrorist activity including: likely 
approaches of terrorists, materials that may be used and their 
indicators, the symptoms of affected plants and animals, how materials 
might spread, the contacts to identify or verify contamination, and the 
ways in which the effects of materials manifest themselves in the 
community. This training could occur based on specific information 
about the nature of the threat and rapidly mobilized and disseminated 
through pre-organized train-the-trainers networks, the CES 
communications system, and local offices. Various state and federal 
agencies could also be resources for this training.
    Risk Assessment.--This would involve building self-directed risk 
assessment instruments. These instruments would make it possible for 
the communities, organizations and households that create them to 
rapidly determine and prioritize points of exposure. Risk assessment 
templates could be adapted to different types of threats and be used to 
monitor the progress of the communities, determine the elements of the 
communities involved, and determine where those who live in the 
communities feel the most susceptible. The latter information would be 
valuable in adding to the strategy for intervention and additional 
training.
    Mitigation.--With risk assessments made, the users of the 
instrument are ready to deal with mitigation. What are the major areas 
of risk? How do they vary within and among communities, what are the 
efficient strategies, given the ``distribution'' of perceived and 
actual risk? Many of the mitigation strategies would deal with 
preparedness and training of community volunteers. Training 
certifications could adapt to the changing nature of terrorist threats. 
Using its close link with existing state and federal programs, CES 
could leverage the distribution of the mitigation materials and 
training. Volunteer and community leader trainings could be delivered 
cooperatively with various state and federal agency staff.
    Recovery.--The recovery process for communities may require 
sustained presence within communities and the mobilization of 
significant research resources. The recovery process may itself be 
unknown and require close cooperation between the researchers and CES 
staff working ``on the ground'' in impacted communities. The land grant 
model that links strong research capacity with a field presence is 
likely to be of value to all agencies involved.
    In addition to the risk assessment training program, CES could also 
develop education programs that would mitigate public health and 
economic disruptions to rural communities from terrorist attacks. A key 
example of a mitigation strategy is preparing individual families for 
an agro-terrorist attack. Families need to have survival kits on 
constant standby that would mitigate the effects of an attack. Should 
an attack occur, they may need to know how long their food will stay 
fresh in the refrigerator or how they can sustain their crops if 
contaminated. In partnership with appropriate federal agencies, CES 
could develop proper survival kits and train the families to implement 
the survival tools in the case of a disaster.
            Linking Research to Extension and Asking New Research 
                    Questions
    The State Agricultural Experiment Stations (SAES) within land-grant 
colleges and universities have significant research capacity. The 
researchers within the land-grant system are used to working with CES 
and have established communication mechanisms about new technologies 
and techniques. Thus, CES and the land-grants can be supportive of the 
mitigation approaches and the identification of the materials that may 
have been introduced by the terrorists. SAES is engaged in a breadth of 
issues relating to technologies that would mitigate a disruption to 
nation's food safety and economic health from a terrorist attack.
    There are many key examples of how SAES could support mitigation 
the effects of an agro-terrorist attack on rural communities. One topic 
could delve into the extent of a community's social capital. Is there a 
network of interested non-profits to address its community's particular 
piece of counter-terrorism? Another topic would be determining the 
impact on security by population variables. Demographics such as 
ethnicity, religious beliefs, and income levels are critical pieces of 
information in developing a mitigation plan for health and economic 
disruptions. Finally, research would need to be done on how to retain 
consumer trust. If there is a biological attack on the crops, consumers 
might question the safety of their food. SAES could determine methods 
that would alleviate these real or perceived fears.
            Funding
    To address emergency planning and training needs, the LGU system 
recommends--
  --a beginning funding level of $237 million in fiscal year 2003 to 
        incorporate biosecurity concerns into the emergency and 
        disaster education network, design and implement risk 
        management training programs, and train community leaders and 
        citizen volunteers
    --$87.5 million for risk management education packages and training
    --$50 million for research to improve identification and 
            intervention strategies and technologies
    --$25 million for monitoring and evaluation of training program 
            results
    --$75 million to enhance communication and education systems.
Health and Human Services
    Agriculture production is inextricably linked to food safety and 
public health. There is necessary overlap between the health and 
agricultural sciences that should be reflected in the budget and in 
research efforts.
            Health Resources and Services Administration (HRSA)
    HRSA functions on the frontlines of public health protection in 
communities and will develop programs to address the emerging need for 
public health emergency response teams in the event of a biological 
attack. As part of HRSA, Health Centers provide public health education 
in under-served communities. The Centers' effectiveness is due in part 
to their ability to train and mobilize public health volunteers in 
these communities. Such training programs will need to be expanded to 
address new Homeland Security aspects such as biosecurity. With nearly 
100 years of experience in recruiting, training, utilizing and managing 
volunteers, CES can add to the Center's capacity to meet the Homeland 
Security challenge. For decades, CES has successfully partnered with 
FEMA to prepare communities and families to respond effectively during 
natural disasters and can draw on this experience to collaborate with 
the Centers in designing biosecurity-public health emergency response 
plans. Health Centers also use volunteers to help assess operational 
capability at the community level and then provide on-site support to 
affected communities. CES could offer additional resources to the 
Centers in this area as well. In many states, CES is the public gateway 
to science-based information developed in academic disciplines across 
the university. CES could engage its research and evaluation tools, 
community planning experience, and facilitating skills in support of 
community capacity building.
            National Institutes of Health (NIH)
    NIH is charged with promoting biomedical research, and other 
scientific inquiries that may lead to medical advances, and will be the 
lead research agency in the federal government's effort to fight 
bioterrorism. Within NIH, the National Institute of Allergy and 
Infectious Diseases (NIAID) will lead research activities aimed at 
developing biomedical tools to detect, prevent, and treat infection by 
biological agents.
    The State Agricultural Experiment Stations (SAES) and veterinary 
diagnostic labs within land-grant universities have broad and deep 
research portfolios to improve public understanding of disease vectors, 
particularly for infectious diseases that can cross between animal and 
human populations. They also perform critical research in applied 
animal science designed to serve medical advances. With this knowledge 
base, the land-grant universities can provide a critical research 
foundation for the development of diagnostic technologies and treatment 
of infectious diseases suitable for responding to the circumstances 
surrounding purposeful exposure.
            Funding
    To initiate the activities described in this testimony, the LGU 
system recommends funding for fiscal year 2003 of $265 million, which 
would be used to support the following activities:
  --A total of $165 million in support of SAES research and research 
        facilities--
    --$100 million for basic and applied research through the NIH
    --$15 million for enhanced research facility security through the 
            NIH
    --$25 million for integrated food safety research through the FDA
    --$25 million for basic and applied research through the CVM.
  --A total of $100 million in support of CES education and outreach 
        activities, with a budget estimate of $500,000 per state per 
        program--
    --$25 million for Extension education and outreach to general 
            public on food safety through FDA
    --$25 million for integrated Extension for training in new food 
            contamination detection and containment technologies 
            through FDA
    --$25 million for integrated Extension for farmer and rancher risk 
            management program through CVM
    --$25 million for Extension volunteer program development and 
            training through HRSA.

                               CONCLUSION
    I would like to thank the Senate Appropriations Committee for 
taking the leadership to look at how our country is addressing homeland 
security issues across the federal government. Only by taking this 
comprehensive view can we insure that our federal, state and local 
agencies are working together in the most effective way. The land-grant 
university system stands ready to provide its distributed research and 
education network to work in partnership with each of the federal 
agencies to help them successfully address their specific homeland 
security missions.

 MULTI-AGENCY BIOSECURITY--AGRO-SECURITY BUDGET LAND-GRANT UNIVERSITIES
                                                  [In millions]
----------------------------------------------------------------------------------------------------------------
                                                              USDA       DOD       HHS       FEMA        TOTAL
----------------------------------------------------------------------------------------------------------------
                   BY FUNDING MECHANISM
 
Research Formula; NRI.....................................       $64       $60      $100       n/a        $224
Extension Formula.........................................        62        35        50      $124.5       271.5
Integrated Sec. 406; RREA.................................        28       n/a       100        87.5       215.5
Facilities................................................        50    \1\ 76        15       n/a         141
Education.................................................         8       n/a       n/a        25          33
                                                           -----------------------------------------------------
      TOTAL...............................................       212       171       265       237         885
                                                           =====================================================
                  BY AGRO-SECURITY ISSUE
 
Respond to Outbreaks \2\..................................        49    \3\ 55        75       137         316
Counteract Terrorism......................................        30    \4\ 40       100       n/a         170
Secure Communities \5\....................................        45       n/a        75        75         195
Address Immediate Security Needs..........................        80    \6\ 76        15       n/a         141
Education Scientists, Teachers, and Specialists...........         8       n/a       n/a        25          33
                                                           -----------------------------------------------------
      TOTAL...............................................       212       171       265       237         885
----------------------------------------------------------------------------------------------------------------
\1\ Includes funding for site security assessment, security upgrades, and background check system.
\2\ All Extension and Integrated funding split between Respond to Outbreaks and Secure Communities.
\3\ Includes $30 million for research, $25 million for extension.
\4\ Includes $30 million for research, $10 million for extension.
\5\ See reference 1.
\6\ National Association of State Colleges and Land-Grant Universities.

                         CONCLUSION OF HEARINGS

    Chairman Byrd. The hearings will stand in recess awaiting 
the call of the Chair.
    [Whereupon, at 5:52 p.m., Thursday, April 11, the hearings 
were concluded, and the committee was recessed, to reconvene 
subject to the call of the Chair.

                                   - 

</pre></body></html>
